No. 20A163

In The
Supreme Court of the United States
___________________________________________________________________________________

DENVER BIBLE CHURCH, et al.,
Applicants,
– v. –
JARED POLIS, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF THE STATE OF
COLORADO; AND JILL HUNSAKER RYAN, IN HER OFFICIAL CAPACITY AS EXECUTIVE
DIRECTOR OF THE COLORADO DEPARTMENT OF PUBLIC HEALTH AND ENVIRONMENT,
Respondents.
__________________________________________________________________________________

To the Honorable Neil M. Gorsuch, Associate Justice of the United States
Supreme Court and Circuit Justice for the Tenth Circuit
__________________________________________

Respondents’ Appendix
__________________________________________
PHILIP J. WEISER
Attorney General

W. ERIC KUHN
Senior Assistant Attorney General

NATALIE HANLON LEH
Chief Deputy Attorney General

GRANT T. SULLIVAN
Assistant Solicitor General

ERIC R. OLSON
Solicitor General
Counsel of Record

CORELLE M. SPETTGUE
Senior Assistant Attorney General

1300 Broadway, 10th Floor
Denver, CO 80203
Eric.Olson@coag.gov
720-508-6548

RYAN K. LORCH
Assistant Attorney General
DANIEL JOZWIAK
Assistant Attorney General Fellow
Counsel for Respondents

TABLE OF CONTENTS

Plaintiff's Motion for Injunction Pending Appeal,
20-cv-02362-DDD-NRN (Aug. 17, 2020) ............................................................ 1
Plaintiff's Motion for Temporary Restraining Order and Preliminary
Injunction, 20-cv-02362-DDD-NRN (Jan. 2, 2021) .......................................... 37
Office of Emergency Preparedness, Disaster Preparedness Report
to Congress, Volume I (Jan. 1972).................................................................... 61
Office of Emergency Preparedness, Disaster Preparedness Report
to Congress, Volume II (Jan. 1972) ................................................................ 280
Public Health Order 20-38, Limited COVID-19
Restrictions (Apr. 15, 2021) ........................................................................... 312
Amended Public Health Order 20-38, Limited COVID-19
Restrictions (May 2, 2021) .............................................................................. 319

i

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 1 of 36

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 1:20-cv-02362-DDD-NRN
DENVER BIBLE CHURCH,
PASTOR ROBERT ENYART,
COMMUNITY BAPTIST CHURCH,
PASTOR JOEY RHOADS
Plaintiffs
v.
ALEX M. AZAR II, in his official capacity as Secretary,
United States Department of Health and Human Services;
Department of Health and Human Services;
CHAD F.WOLF, in his official capacity as Acting Secretary,
United States Department of Homeland Security;
Department of Homeland Security;
STEVEN T. MNUCHIN, in his official capacity as Secretary
United States Department of the Treasury;
Department of the Treasury;
JARED POLIS, in his official capacity as
Governor, State of Colorado, and
JILL HUNSAKER RYAN, in her official
capacity as Executive Director of, together with the
Colorado Department of Health and
Environment
Defendants
______________________________________________________________________________
PLAINTIFFS’ MOTION FOR TEMPORARY RESTRAINING ORDER
AND PRELIMINARY INJUNCTION
___________________________________________________________________________
Plaintiffs, Denver Bible Church, Pastor Robert Enyart, Community Baptist Church
and Pastor Joey Rhoads (“Plaintiffs”), pursuant to Fed. R. Civ. P. 57 and 65, for their Motion
for Temporary Restraining Order and Preliminary Injunction against the agencies and
individual Defendants, listed above in their official capacities, respectfully submit:

1
Resp. App'x 1

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 2 of 36

CONFERRAL
The undersigned, under D.C.COLO.LCivR 7.1(a), on Friday, August 15, 2020, spoke
with, and emailed courtesy copies of the complaint, together with this and related motions to
attorneys with the offices of the United States Attorney for the District of Colorado and the
Colorado Attorney General.

_____________________________
I.

INTRODUCTION

Federal and State Defendants, acting together, have violated Plaintiffs’ First
Amendment rights without due process of law, affording Plaintiffs standing to bring claims
against the agency defendants and individuals in their official capacities under 5 U.S.C.
§7021 and 42 U.S.C. § 1983,2 as applicable, for declaratory and injunctive relief under 28
U.S.C. §§2201(declaratory) and 2202 (further relief). Federal Defendants implemented
federal law under the CARES Act3 and the Stafford Act4 in violation of both the Religious
Freedom Restoration Act (“RFRA”)5 and non-discrimination provisions of the Stafford Act6

1

The statute provides: “An action in a court of the United States seeking relief other than
money damages and stating a claim that an agency or an officer or employee thereof acted or
failed to act in an official capacity or under color of legal authority shall not be dismissed nor
relief therein be denied on the ground that it is against the United States.” See Perry Capital
LLC v. Mnuchin, 864 F.3d 591 (D.C. Cir. 2017)
2
The statute provides: “Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the District of Columbia.”
3
Coronavirus Aid, Relief and Economic Security Act, Pub. L. 116-136 (2020).
4
42 U.S.C. §§5121 – 5207.
5
42 U.S.C. §2000bb et seq.
6
42 U.S.C. §5151.
2
Resp. App'x 2

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 3 of 36

and accompanying regulations.7 Federal Defendants wrongly approved allocations of federal
resources in spite of State Defendants’ admitted discrimination against Plaintiffs. Said
discrimination resulted from ultra vires executive and public health orders. Federal
Defendants violated RFRA and the Stafford Act because State Defendants lacked appropriate
legal authority under state statutes and the Colorado Constitution while also depriving
Plaintiffs under 42 U.S.C. §1983 of their religious liberty without due process of law, all as
set forth more fully, infra.
Plaintiffs seek a temporary restraining order and preliminary injunction based their
likelihood of success on the merits against all Defendants. Under the doctrine of Ex Parte
Young, the Eleventh Amendment does not bar suits against state officials for prospective
equitable relief to end continuing violations of federal law. Meiners v. Univ. of Kansas, 359
F.3d 122, 1232 (10th Cir. 2004) (upholding suit for declaratory and injunctive relief against
chancellor and provost in their official capacities). A federal district court errs to dismiss a
claim because a state’s supreme court has not yet passed on a question. Doud v. Hodge, 350
U.S. 485 (1956). Notably, however, the Colorado Supreme Court has determined that Polis
has no authority to violate the Colorado Constitution. Ritchie v. Polis, infra.
II.

FACTS

Defendants’ discrimination against Plaintiffs’ religious freedom is not in dispute.
State Defendants openly agree that many exceptions and exemptions8 exist that favor nonreligious groups as to stay at home orders and restrictions on “mass gatherings.” Rather the

7

44 C.F.R.§§206.11 and 206.36.
The admissions pertain to Executive Order D 2020 044 and Public Health Order 20-28
(now Eighth Amended PHO 20-28), as made in High Plains Harvest Church v. Polis et al.,
no. 1:20-cv-01480-RM (pending, D. Colo.) (“Harvest Church”), Doc 25, Defs Resp, p. 17;
Doc 48, Defs Resp, p. 8 and p. 2, n.1 (incorporating Doc. 39).
8

3
Resp. App'x 3

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 4 of 36

dispute here is, at one level, whether State Defendants had statutory and constitutional
authority to issue the discriminatory orders.
At another level, the issue is whether Federal Defendants violated RFRA and the
Stafford Act in approving requests for assistance where State Defendants’ federal assistance
is obtained by reliance upon ultra vires orders which also violate the Fourteenth Amendment
and the Colorado Constitution. This court is authorized to determine whether Federal
Defendants violated RFRA and the Stafford Act in response to Polis’s request for assistance.
The responsibility of determining the limits of statutory grants of authority is a judicial
function entrusted to the courts by Congress. Under Article III, Congress established courts
to adjudicate cases and controversies as to claims of infringement of individual rights
whether by unlawful action of private persons or by the exertion of unauthorized
administrative power. See Stark v. Wickard, 321 U.S. 288, 309-310 (1944) (“When Congress
passes an Act empowering administrative agencies to carry on governmental activities, the
power of those agencies is circumscribed by the authority granted.”) This principle has been
reaffirmed: "We ordinarily presume that Congress intends the executive to obey its statutory
commands and, accordingly, that it expects the courts to grant relief when an executive
agency violates such a command." Bowen v. Michigan Academy of Family Physicians, 476
U.S. 667, 681 (1986), superseded on other grounds by 42 U.S.C. §405; See also Leedom v.
Kyne, 358 U.S. 184, 190 (1958) (concluding that Congress favors "judicial protection of
rights it confers against agency action taken in excess of its powers.")
The claims for injunctive and declaratory relief against Federal Defendants arise
under RFRA, which prohibits religious discrimination caused by the implementation of
federal law, statutory or otherwise. See 42 U.S.C. 2000bb-1(a), (b). See also Burwell v.

4
Resp. App'x 4

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 5 of 36

Hobby Lobby Stores, Inc., 573 U.S. 682 (2014). Implementation of what was a federal
disaster funding scheme required Federal Defendants, as well as State Defendants, to comply
with both federal and state statutory and constitutional law. Because State Defendants’ orders
were ultra vires, Federal Defendants cannot meet a “compelling state interest” under RFRA
and Plaintiffs are entitled to relief against all Defendants.
To obtain disaster relief funds from the federal government, Governor Polis attempted
to declare that a disaster emergency existed in Colorado, along with governors for most of
the other forty-nine states. Polis submitted a request for funds to the President of the United
States through the regional administrator for FEMA’s Region VIII. In a short time, Polis’s
office announced the federal government’s approval of his request.
The federal project to send assistance to the states was launched by the president’s
declaration of a national emergency and a cabinet member’s declaration of a public health
emergency. After that, the money and supplies were allocated to the states which, in
Colorado’s case, amounted to more than $2.2 billion dollars. Polis’s press release highlights
the federal nature of his effort, as opposed to it being a purely state-based initiative.
Specifically, his press release quotes him linking his disaster declaration directly to federal
funding, saying, “This declaration ensures that Colorado can be on a level playing field with
other states that already have this status like New York and Washington when it comes to
federal disaster funding and Federal Emergency Management Agency (FEMA) assistance.”
In addition, in his written request for funding, Polis highlighted Public Health Order
20-23 issued March 19, 2020, order (an order that harms Plaintiffs by severely restricting
religious gatherings to fewer than 10, now 50 persons), and listed his executive orders and

5
Resp. App'x 5

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 6 of 36

Ryan’s public health orders as “Actions Being Undertaken” to justify the federal assistance. 9
The Stafford Act assistance is governed by a federally-required contract between Polis and
FEMA. Specifically, “Upon the declaration of a major disaster or an emergency, the
Governor, acting for the State, and the FEMA Regional Administrator or his/her designee,
acting for the Federal Government, shall execute a FEMA-State Agreement. The FEMAState Agreement states the understandings, commitments, and conditions for assistance under
which FEMA disaster assistance shall be provided.” §44 C.F.R. § 206.44. In addition, the
Colorado Disaster Emergency Act (“CDEA”) expressly contemplates receipt of federal
disaster funds. Specifically, C.R.S. § 24-33.5-704(6.5)-(7)(j) authorizes the governor to
“determine the sharing of non-federal costs as required by 42 U.S.C. 5121 et seq., the Robert
T. Stafford Disaster Relief and Emergency Assistance Act.”
On March 27, 2020, the President signed the Coronavirus Aid, Relief, and Economic
Security Act (“CARES Act”). As Secretary of the Treasury, Mnuchin oversees the
interpretation of the CARES Act and provides guidance on the permissible use of payments
to government recipients out of the Coronavirus Relief Fund, available only for “costs that
were incurred during the period that begins on March 1, 2020, and ends on December 30,
2020 (the “covered period”).
State Defendants’ orders exempt “a range of commercial and nonreligious activities”
including, for example, “marijuana dispensaries, liquor stores, hardware stores, laundromats,
banks, law offices, accounting offices.”10 State Defendants will likely contend that
“emergency police powers” permit the issuance of orders according to the government’s
unbridled discretion, without statutory authority and without due process, because State
9

Doc 1, cmpl, Ex 37, attached thereto, letter from Polis to Trump, pp. 3, 6, 7.
Id. at Doc 25, p.17.

10

6
Resp. App'x 6

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 7 of 36

Defendants have deemed religious and certain non-religious groups to be “comparable” to
each other.”11
In this Motion, however, neither the “generally applicable law” nor “compelling state
interest” tests are involved as to State Defendants’ orders, because the orders are void by
exceeding the scope of State Defendants’ authority under state statutory and constitutional
law and under Fourteenth Amendment due process. As a result, Federal Defendants violated
Plaintiffs’ rights in the implementation of federal law under the Stafford Act, CARES Act
and RFRA without a compelling state interest.
III.

STANDING

An association has standing if its members otherwise would have standing to sue, and
the interests at stake are germane to the organization’s purpose, and neither the claim
asserted nor the relief requested requires the participation of individual members in the
lawsuit. Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992); see also Wilderness
Society v. Kane County, 581 F.3d 1198 (10th Cir. 2009). In the case at bar, Plaintiffs have
standing because: 1. Plaintiffs are suffering particular injuries, Doc 1, cmpl, Ex 36-37, affids
Enyart and Rhoads; 2. Plaintiffs’ injuries are fairly traceable to Federal Defendants’
implementation of Stafford Act and CARES Act funding and State Defendants’ ultra vires,
unconstitutional orders, and 3. this Court’s order in favor of Plaintiffs will redress their
injuries. See Nat’l Collegiate Athletic Assoc’n. v. Califano, 612 F. 2d 1382, 1392 (10th Cir.
1980) (NCAA’s request for declaratory and injunctive relief was a remedy reasonably
supposed to benefit is members actually injured).
IV.

11

BURDEN OF PROOF

Id. at p.13.
7
Resp. App'x 7

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 8 of 36

State and Federal Defendants bear the burden of proof that the orders are valid.
“When the Government restricts speech, the Government bears the burden of proving the
constitutionality of its actions." United States v. Playboy Entm't Group, Inc., 529 U.S. 803,
816 (2000); see also Pursley v. City of Fayetteville, Ark., 820 F.2d 951, 956 (8th Cir.1987)
(in response to a First Amendment challenge, the proponent of the regulation must
demonstrate that the government's objectives will not be served sufficiently by means less
restrictive of first amendment freedoms); Casey v. City of Newport, R.I., 308 F.3d 106, 11011 (1st Cir. 2002) (placing the burden of proof on the City to demonstrate its content-neutral
restrictions were narrowly tailored); Hays Cnty. Guardian v. Supple, 969 F.2d 111, 118 (5th
Cir.1992) (the government bears the burden of proof with regard to content-neutral
regulations).
As a general matter, statutes and ordinances are given a presumption of
constitutionality. Gillmor v. Thomas, 490 F.3d 791, 798 (10th Cir.2007). However, the
presumption of constitutionality does not apply, even to a “duly enacted” statute, if it
infringes upon First Amendment rights. ACORN v. Municipality of Golden, 744 F.2d 739,
746 (10th Cir.1984) (when a duly enacted law infringes on the exercise of First Amendment
rights, its proponent bears the burden of establishing its constitutionality). In the case at bar,
the orders are not entitled to a presumption of constitutionality for two reasons: they were not
“duly enacted” by a legislative body and they infringe on the exercise of First Amendment
rights.
The canon of “constitutional avoidance” does not apply in the case at bar. The canon
is a judicial doctrine to avoid striking a law on constitutional grounds when the law is
capable of an interpretation that does not trammel upon fundamental rights. However, the

8
Resp. App'x 8

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 9 of 36

canon of avoidance does not apply in the case at bar, first, because, the orders were not
legislative enactments, but were issued by “lower tribunals,” i.e. State Defendants. See San
Christina Invest. Co., v. San Francisco, 141 P. 384 (1914) (the conclusiveness of
determinations by the general legislature is not only not applied to the proceedings of inferior
tribunals, but is distinctly held to be non-applicable). More importantly, however, the orders
are ultra vires, violate due process and discriminate against churches for their modes of
worship.
V.

ARGUMENT

Plaintiffs are likely to succeed on the merits of each claim, as follows:
1.

First Claim - Declaratory Judgment that the Treasury and HHS

Defendants Implemented the CARES Act in Violation of RFRA.
a.

RFRA prohibits the government from substantially burdening the free exercise of

religion unless the burden furthers a compelling state interest by the least restrictive means.
42 U.S.C. §2000bb-1.12 The prohibition applies “to all Federal law, and the implementation
of that law, whether statutory or otherwise …” 42 U.S.C. §2000bb-3. Notably, the Ninth
Circuit upheld a RFRA suit for injunctive and declaratory relief by Muslim residents of
California against the FBI and its director, Christopher Wray, in claims for violations of the

12

(a) In general -Government shall not substantially burden a person's exercise of religion
even if the burden results from a rule of general applicability, except as provided in
subsection (b).
(b) Exception - Government may substantially burden a person's exercise of religion only if it
demonstrates that application of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering that compelling governmental interest.
(c) Judicial relief - A person whose religious exercise has been burdened in violation of this
section may assert that violation as a claim or defense in a judicial proceeding and obtain
appropriate relief against a government. Standing to assert a claim or defense under this
section shall be governed by the general rules of standing under article III of the Constitution.
9
Resp. App'x 9

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 10 of 36

Foreign Intelligence Surveillance Act (FISA). Fazaga v. Federal Bureau of Investigation,
916 F.3d 1202, 1242, 1244 (9th Cir. 2019) (holding that injunctive relief is available under
the constitution and that the Privacy Act and RFRA, taken together, function as a remedial
scheme to vindicate First Amendment rights).
b.

Treasury and HHS Defendants13 are engaged in the “implementation of federal law”

under the Stafford and CARES Acts and therefore, under RFRA. Treasury Defendants14
awarded Polis’s requested funds pursuant to 42 U.S.C. §247d and the CARES Act. For
purposes of jurisdiction over the agencies, Federal Defendants’ approvals are final actions
substantially burdening Plaintiffs, capable of judicial review. The exception to judicial
review is confined to those rare “administrative decision[s] traditionally left to agency
discretion.” Department of Homeland Security v. Regents of Univ. of Calif., No. 18-587, p.
10 (Roberts, C.J.) (slip opin. June 18, 2020), citing Lincoln v. Vigil, 508 U. S. 182, 191
(1993).
c.

State Defendants openly admit in Harvest Church that they are restricting the free

exercise of religious beliefs.15 They also acknowledge that their orders discriminate. The
orders give exemptions to “a range of commercial and nonreligious activities” including, for
example, “marijuana dispensaries, liquor stores, hardware stores, laundromats, banks, law
offices and, accounting offices.”16 At the same time, State Defendants admit17 that “houses of
worship must still comply with social distancing and limits on gathering size,” and that the

13

Defendants Mnuchin, Treasury, Azar and HHS.
Defendants Treasury and Mnuchin.
15
See n. 8 thru 11, supra.
16
Id. Doc 25, p.17.
17
See n. 8 thru 11, supra..
14

10
Resp. App'x 10

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 11 of 36

“language has remained largely unchanged from the original Stay at Home order.”18 Polis’s
original Stay at Home order was EO-17, issued March 25, 2020, accompanied by Ryan’s
PHO 20-24, amended “several times.”19 Churches may only host “more than one ten-person
gathering in the same building, at the same time, provided that the gatherings occur in
separate rooms.” Id. State Defendants contended as of July 21, 2020, that church gathering
rules have increased “permission” to hold gatherings of up to 50 people, though not more
than 50% of the occupancy limit and only where “physical distancing of 6 feet is
observed.20” Multiple 50-person gatherings are allegedly permitted in the same church
building at the same time, provided they are in separate rooms. Id. at 9. “Large houses of
worship” may host indoor gatherings of up to 100 people. Id. The affidavits of Pastors Enyart
and Rhoads establish that they and their church members are being suppressed by these
restrictions. Doc 1, cmpl, Ex 35-36, affidavits.
d.

Congress did more than merely establish the balancing test used in the Free Exercise

line of cases and provided even broader protection for religious liberty than in those cases.
Burwell v. Hobby Lobby, Inc., 134 S. Ct. 2051 (2014). Federal Defendants lack both a
“compelling state interest” and a “least restrictive means” to implement the CARES Act
because State Defendants’ admitted burden on Plaintiffs’ free exercise of religion lacks legal
authority under Colorado’s state statutes, the state constitution, and the Fourteenth
Amendment, as briefed, infra. Accordingly, Federal Defendants have no compelling state
interest for violating Plaintiffs’ rights while implementing federal law.

18

Id., State Defs Resp, Doc 25 at 10, filed 5/28/20.
Id. at 8.
20
Id., State Defs Resp, Doc 48 at 8, filed 7/21/20.
19

11
Resp. App'x 11

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 12 of 36

e.

In the case at bar, Federal and State Defendants have made restrictions according to

whether the “speakers” are businesses or religious “houses of worship.” “[T]he fact that a
distinction is speaker based does not . . . . automatically render the distinction content neutral.
Because ‘[s]peech restrictions based on the identity of the speaker are all too often simply
a means to control content,’ Citizens United v. Federal Election Comm'n, 558 U.S. 310, 340
(2010), we have insisted that ‘laws favoring some speakers over others demand strict scrutiny
when the legislature's speaker preference reflects a content preference’ [citation omitted].
Thus, a law limiting the content of newspapers, but only newspapers, could not evade strict
scrutiny simply because it could be characterized as speaker based. Likewise, a content-based
law that restricted the political speech of all corporations would not become content neutral
just because it singled out corporations as a class of speakers [citation omitted].” Reed v.
Town of Gilbert, 135 S. Ct. 2218, 1230-31(2015) (emphasis added). In the case at bar,
Federal Defendants implemented federal law in violation of RFRA because the
implementation includes State Defendants’ “speaker based,” religious discrimination against
Plaintiffs, as well as other statutory and constitutional violations, infra.
f.

Notably, an absence of subjective hostility by Federal Defendants is not relevant to

the issue of whether the government violated the First Amendment and RFRA by approving
the allocation of assistance to Polis. Hassan v. City of New York, 804, F.3d 277, 307-09 (2nd
Cir. 2015).
g.

Federal Defendants also lacked a compelling state interest to approve State

Defendants’ religious discrimination against Plaintiffs because State Defendants issued ultra
vires orders and deprived Plaintiffs of due process of law under the Fourteenth Amendment
and the Colorado APA. “Necessity that is higher than the Constitution can safely have no

12
Resp. App'x 12

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 13 of 36

place in American jurisprudence.” Travelers Ins. Co. v. Marshall, 76 S.W.2d 1007, 1010
(Tex. 1934) (citations omitted) (holding that the Texas constitution prohibits impairment of
contract despite a declared emergency). “’However broad the scope of the police power, it is
always subject to the rule that the legislature may not exercise any power that is expressly or
impliedly forbidden to it by the state constitution.’” Id. (citations omitted). In the case at bar,
neither the federal or state constitutions nor the state legislature authorized the disputed
orders by State Defendants.
Finally, “federal statutory law” is subject to RFRA “unless such law explicitly

h.

excludes such application by reference to this chapter (emphasis added).” 42 U.S.C. §
2000bb-3(b). Importantly, neither the CARES Act nor the Stafford Act excludes the
application of RFRA.
2.

Second Claim - Declaratory Judgment that DHS Defendants Violated

RFRA and the Stafford Act’s Prohibition against Religious Discrimination
a.

To comply with the Stafford Act, DHS Defendants’ authority to approve Polis’s

request required Polis to meet at least two conditions: (1) taking appropriate action under
state law, and (2) complying with the Stafford Act’s nondiscrimination provision and
regulations. Here, DHS Defendants violated their authority because Polis and Ryan failed
both conditions: they did not take appropriate action under state law, and, as they have
openly admitted to discrimination, Federal Defendants did not comply with the Stafford
Act’s nondiscrimination regulations. In approving State Defendants’ EOs and PHOs, the
DHS Defendants21 have substantially burdened Plaintiffs’ free exercise of religion22 in

21
22

Defendants Wolf and Department of Homeland Security.
Doc 1, cmpl, Ex 1-36, ¶14,affid Rhoads.
13
Resp. App'x 13

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 14 of 36

violation of the First Amendment, RFRA, the Stafford Act and its implementing regulations
in 44 C.F.R. §§206.11 and 206.36.
b.

The Stafford Act requires regulations insuring that relief activities “shall be

accomplished in an equitable an impartial manner, without discrimination on the grounds of
race, color, religion, nationality, sex, age, disability, English proficiency, or economic
status.” 42 U.S.C. §5151(a) (emphasis added). The statute further requires “as a condition
of participation in the distribution of assistance or supplies” that governmental bodies
“comply with regulations relating to nondiscrimination.” 42 U.S.C. §5151(b) (emphasis
added). In this case, the State of Colorado, acting though Polis, is a “governmental body”
participating in the “distribution of assistance or supplies,” for which nondiscrimination of
religion is a condition of participation.
c.

Regulations promulgated pursuant to the Stafford Act require nondiscrimination by

“all personnel carrying out Federal major disaster or emergency assistance functions…” 44
C.F.R. §206.11. In the case at bar, Defendants DHS and Wolf, together with Defendants
HHS and Azar, representing the “lead agency” for disaster assistance by FEMA, are
themselves “personnel” and employ “personnel” within the meaning of 44 C.F.R. §206.11.
d.

Significantly, the regulations also require “[c]onfirmation that the Governor has taken

appropriate action under State law and directed the execution of the State Emergency Plan
(emphasis added).” 44 C.F.R. §206.36 (c)(1). However, as shown, infra, Polis violated this
regulation because, in issuing and approving ultra vires EOs and PHOs, he failed to take
“appropriate action under State law.”
e.

State Defendants confirmed that their actions were not merely an intra-state initiative.

On the contrary, the orders were issued to obtain approval for assistance from Federal

14
Resp. App'x 14

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 15 of 36

Defendants. Specifically, Ryan issued PHO 24 through 24D, declaring her “actions and
prohibitions” were necessary, “due to…the Declaration of … a National Emergency by the
President of the United States on March 13, 2020.” Doc 1, cmpl, Ex 21 thru 25.
f.

In addition, Polis’s EO 138 states: “I requested that the President of the United States

declare a Major Disaster for the State of Colorado, pursuant to the Stafford Act. The
President approved that request on March 28, 2020.” Doc 1, cmpl, Ex 15.
g.

Furthermore, on March 25, 2020, Polis made a written request (“Polis Letter”) to the

President of the United States, through the regional administrator for FEMA, under Section
401 of the Stafford Act, 42 U.S.C. §§ 5121-5207, asking the President to declare a major
disaster in Colorado due to COVID-19 and to grant monetary financial assistance under
various Stafford Act programs and another grant program under 42 U.S.C. §§ 5170c and
5172, implemented by 44 C.F.R. §206.266. Doc 1, cmpl, Ex. 37, Polis Letter, pp. 6-8,
attached thereto.
h.

The Polis Letter specifically justified its request for federal moneys upon what are

ultra vires, discriminatory EOs and PHOs by State Defendants issued between March 11 and
March 24, 2020. The EOs and PHOs were thus integral to Federal Defendants’
“implementation of federal law.” State Defendants are expected to admit that their EOs and
PHOs deprive churches of the free exercise of religion. They are also expected to assert that
the government has a right to act upon “raw police power” in an emergency. On the contrary,
Defendants have no such raw power. Their power is limited by Colorado statutes, the
Colorado Constitution, federal statutes, federal regulations and the United States
Constitution.

15
Resp. App'x 15

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 16 of 36

i.

Notably, the case that State Defendants have relied upon23 previously, Jacobson v.

Massachusetts24 did not uphold “raw police power.” In fact, Jacobsen concerned a state
vaccination statute rather than state-issued executive and agency orders against churches and
the First Amendment. However, Jacobson’s current use as support for “raw police power” is
alarming because of Jacobson’s influence on Germany’s 1933 involuntary sterilization law.
Germany’s law was adopted from laws in the United States.25 The infamous ruling in Buck v.
Bell,26 which became the gateway to Germany’s gas chambers, directly cited Jacobson in
upholding Virginia’s sterilization law, specifically: “The principle that sustains compulsory
vaccination is broad enough to cover cutting the Fallopian tubes. Jacobson v. Massachusetts,
197 U.S. 11. Three generations of imbeciles are enough.” 274 U.S. 208 (emphasis added).
In view of Buck v. Bell’s dark legacy,27 Jacobson’s popular and dangerous citation today is
deplorable. But irrespective of Buck v. Bell, Jacobson is certainly not authority for politicians
to violate later enacted statutory protections such as RFRA, the Stafford Act’s
nondiscrimination protections, and later decisional law upholding constitutional protections

23

Harvest Church, Doc 48, p. 13.
197 U.S. 11 (1905).
25
See generally Stefan Kuhl, The Nazi Connection: Eugenics, American Racism, and
German National Socialism, p. 25 (Oxford University Press 1994) (“The importance of the
United States for German eugenicists was revealed by the allusions in nearly every German
medical dissertation about sterilization in the United States as the first country to enforce
comprehensive eugenics legislation.”) (citations omitted).
26
274 U.S. 200, 208 (1927).
27
See generally Robert Jay Lifton, The Nazi Doctors: Medical Killing and the Psychology of
Genocide, p. 26-27 (Basic Books 1986) (“But the regime discouraged qualifications and
employed a rhetoric of medical emergency: ‘dangerous patients’ and ‘urgent cases’ were
people with hereditary taints but still in the prime of life…The clear implication was that one
could be quick to label ‘feebleminded’ a person seen as hostile to the Nazis. . .In association
with the sterilization laws, and as a further expression of racial policy, steps were taken to
establish a national card index of people with hereditary taints.”) (emphasis added).
24

16
Resp. App'x 16

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 17 of 36

for religious freedom and due process of law. On the contrary, Jacobson and Buck v. Bell are
reasons to be more resolute than ever in upholding constitutional and legislative protections.
j.

The “generally applicable law” and “compelling state interest” tests are not applicable

to DHS Defendants’ violations of the Stafford Act and its regulations because Polis failed to
take “appropriate action under State law” in violation of 44 C.F.R. §206.36(c)(1).
Accordingly, DHS Defendants lacked a compelling state interest to violate the Stafford Act,
42 U.S.C. §5151(a), 44 C.F.R. §206.11, and 44 C.F.R. §206.36(c)(1) in approving aid
requested by Polis.
3.

Third Claim - Declaratory Judgment that CDEA Discriminates on its

Face and as Applied against Plaintiffs
a.

CDEA’s Facial Discrimination. On one hand, government may regulate religious

activity without having to satisfy strict scrutiny so long as the regulation is a “neutral law” of
“general applicability.” Employment Division v. Smith, 494 U.S. 872, 879 (1990). In Smith, a
general law prohibited the possession of “controlled substances” and was deemed to be a law
of “general applicability.” The statute in Smith did not target religious exercise. It obviously
applied to everyone without exception. As such, it did not need to pass a strict scrutiny
analysis. On the other hand, even after Smith, “[a] law burdening religious practice that is not
neutral or is not of general application must undergo the most rigorous of scrutiny. It must be
justified by a compelling state interest and must be narrowly tailored to advance that interest.
Neutrality and general applicability are interrelated, and failure to satisfy one requirement is
a likely indication that the other has not been satisfied. Church of Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 546 (1993) (holding that the city’s interest in sanitation and
improper disposal could have been achieved by a general regulation rather than by

17
Resp. App'x 17

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 18 of 36

prohibiting the killing of animals in religious ceremonies while exempting the same conduct
for secular reasons); see also McDaniel v. Paty, 435 U.S. 618, 639 (1978) (government may
not use religion as a basis of “classification for the imposition of duties, penalties, privileges
or benefits”).
b.

Facially, CDEA is not a “neutral law” of “general applicability.” “Under the

Constitution, the government may not discriminate against religion generally or against
particular denominations.” Morris Cnty Bd. v. Freedom From Religion Fdn., 139 S. Ct. 909
(2019) (Kavanaugh,, Alito, Gorsuch, J., dissenting), citing Larsen v. Valente, 456 U.S. 228,
244 (1982). On its face, however, CDEA contains “speaker” exemptions for activities
involving the “course or conduct of a labor dispute,” the “dissemination of news or comment
on public affairs,” police forces, fire-fighting forces, and armed forces. Notably, CDEA does
not exempt other constitutionally protected rights or Plaintiffs’ First Amendment protected
religious activities. C.R.S. §24-33.5-702(2). The fact that CDEA exempts thousands of
people statewide within favored categories, while not exempting churches, negates the
purported reasons for oppressing churches. CDEA fails the first Smith-Lukumi test because
facially, CDEA discriminates generally against religion and does not apply without
exception to everyone. Accordingly, CDEA must pass a rigorous, strict scrutiny facial
analysis, which it fails.
c.

The aim of the section of CDEA ostensibly applicable here, C.R.S. §24-33.5-703(4)

(emergency epidemic), is negated by the statute’s facial exemptions for thousands of virus
“spreaders.” To declare a state-wide “emergency epidemic,” the statute requires, in part, a
“novel and highly fatal infectious agent.” Id. (emphasis added). Yet CDEA exempts “labor
disputes” and “dissemination of news or comment on public affairs” and others. Obviously,

18
Resp. App'x 18

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 19 of 36

if a virus is “highly fatal,” death will not respect the many categories of statutorily exempted
“spreaders” who can fatally infect others. On its face, CDEA’s exemptions negate any basis
for depriving Plaintiffs of their First Amendment rights.
d.

CDEA discriminates, as applied. CDEA exempts even more “spreaders,” as

currently applied, than it facially exempts. State Defendants will likely admit that their orders
exempt, “a range of commercial and nonreligious activities” including, for example,
“marijuana dispensaries, liquor stores, hardware stores, laundromats, banks, law offices, and
accounting offices.” This admission, however, is a vast understatement of State Defendants’
categorical “speaker based discrimination.” In fact, CDEA has been applied in this case to
also exempt thousands of people working in government operations, favored businesses and
entire counties obtaining variances. Doc 1, cmpl, ¶112. “PHO 28H favors non-churches,
that is, it permits businesses, together with state and local government operations, to gather
indoors with more than 50% of their posted occupancy and to gather outdoors without
“working with the appropriate local authority to obtain approval….” Id. at ¶88 (emphasis
added). As applied, CDEA also permits “any Colorado county” to request a variance. Doc 1,
cmpl, Ex 41, PHO 28 “I,” pp. 19 -20. As applied in this case, CDEA grants favored status to
“Critical Government Functions.” See Exhibit A, attached and incorporated (copied from
Doc 1, cmpl, Ex 41, p.16, “Critical Businesses”). Critical Businesses are comprised of
thirteen separate categories of operations listed in eight (8) pages of a separate appendix. Doc
1, cmpl, Ex 41, Appx. F, pp. 31-39.
e.

As applied to Plaintiffs, CDEA is “speaker based” discrimination. “Because “[s]peech

restrictions based on the identity of the speaker are all too often simply a means to control
content,” [citation omitted] we have insisted that “laws favoring some speakers over others

19
Resp. App'x 19

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 20 of 36

demand strict scrutiny when the legislature's speaker preference reflects a content
preference,” [citation omitted]. Thus, a law limiting the content of newspapers, but only
newspapers, could not evade strict scrutiny simply because it could be characterized as
speaker based. Likewise, a content-based law that restricted the political speech of all
corporations would not become content neutral just because it singled out corporations as a
class of speakers [citation omitted].” Reed v. Town of Gilbert, 135 S. Ct. 2218, 2230-31
(2015) (emphasis added).
f.

Rather than discriminate against Plaintiffs, State Defendants could have provided

assistance in obtaining voluntary preventative and therapeutic treatments as a less restrictive
method for responding to potential and actual COVID-19 infections.
g.

State Defendants, for persons who wish to protect themselves from airborne,

molecular virus particles, could have urged voluntary protective face coverings as a less
restrictive method than penalizing Plaintiffs for the free exercise of their religious rights.
4.

Fourth Claim - Declaratory Judgment that Polis’ EOs Exceeded his

Authority under the Colorado Constitution.
a.

The Colorado Constitution provides robust protection for religious liberty: “The free

exercise and enjoyment of religious profession and worship, without discrimination, shall
forever hereafter be guaranteed; and no person shall be denied any civil or political right,
privilege or capacity, on account of his opinions concerning religion; . . . .Nor shall any
preference be given by law to any. . . . mode of worship.” Colo. Const. art. II, § 4
(emphasis added). The preference clause contained within the Religious Freedom provision
in Colorado’s Constitution protects against governmental preference being given to any
“mode of worship.” Id. “The Colorado Constitution expressly guarantees to all persons the

20
Resp. App'x 20

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 21 of 36

right, in matters of religion, to choose their own course free of any compulsion from the
state. To secure this right it removes from the political sphere any form of compulsory
support or preference in matters of religion. In this respect Article II, Section 4 echoes the
principle of constitutional neutrality underscoring the First Amendment. That principle
prohibits the type of governmental involvement that leads to restraint on free choice in
religious matters or to control of churches.” Walz v. Tax Commission, 397 U.S. 664, at 670–
71 (1970) (emphasis added).
b.

Polis’ EO 17, Stay at Home, “requires Coloradoans to stay at home” and orders Ryan

to define exemptions. Polis violated Plaintiffs’ “mode of worship” by an order that prohibits
church members from gathering at their place of religious exercise.
c.

Polis’ EO 44, Safer at Home, para. H, requires Ryan to issue a PHO that “must”

advise wearing face coverings, para. H, 1, and develop mandatory social distancing
requirements by all employers. This EO 44 also violates Plaintiffs’ mode of worship by
requiring social distancing and face covering contrary to Plaintiffs’ chose mode of worship.
d.

Polis’ EO 138, orders “Non-Medical Face Coverings” for “all individuals over ten

(10) years old” in any Public Indoor Space, defined, para. R, in a way that includes Plaintiffs
and is contrary to their custom.
e.

Plaintiffs have been deprived of their fundamental religious liberty to operate free

from governmental preference for any mode of worship. “When a governmental body
threatens an individual with deprivation of liberty or property, procedural due process
requires, at a minimum, notice and the opportunity for a meaningful hearing before an
impartial tribunal.” Copley v. Robinson, 224 P.3d 431 (Colo. App. 2009). The challenged
EOs and PHOs were issued without procedural due process, prior to or after the orders.

21
Resp. App'x 21

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 22 of 36

f.

In July 2020, the Colorado Supreme Court held that CDEA does not authorize the

governor to suspend a constitutional requirement. “The Colorado Disaster Emergency Act
authorizes the suspension of certain statutes, rules, and regulations, but not of constitutional
provisions.” Ritchie v. Polis, 2020 CO 69, ¶18 July 1, 2020 (emphasis added). Exhibit B,
attached hereto. “[A constitutional] requirement cannot be suspended by executive order,
even during a pandemic.” Id. ¶19.
g.

Defendants Polis and Ryan have, through EOs and PHOs, unlawfully suspended the

constitutional requirements that protect Plaintiffs’ freedom of religion and mode of worship.
The mask requirement prevents Plaintiffs’ congregations from their right to free expression
as recognized under Article II §4 of the Colorado Constitution (and under the First
Amendment), and it prefers a mode of worship whereby persons must worship while wearing
an article that is of the government’s choosing. The “social distancing” requirement prefers a
mode of worship whereby persons engage in religious activities at a distance that is not
consistent with Plaintiff churches’ practices and is not the mode of Plaintiffs’ choosing,
including, but not limited to, when they share the sacraments of holy communion, baptism,
funerals, marriage, ordinations and prayer.
h.

Accordingly, Plaintiffs are entitled to a temporary restraining order against State

Defendants because they have exceeded their authority under the Colorado Constitution by
preferring a mode of worship that is inconsistent with that of Plaintiffs.
5.

Fifth Claim - Declaratory Judgment that Polis Violated CDEA’s

Conditions to Declare a Disaster Emergency.
a.

Where a plaintiff claims the government has exceeded its statutory authority, “[o]ur

analysis beings and ends with the text [of the statute].” Little Sister of the Poor v.

22
Resp. App'x 22

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 23 of 36

Pennsylvania, 591 U.S. __ (slip opinion, July 8, 2020) (upholding agency’s exemption to its
contraceptive mandate for religious organization). The text of CDEA does not authorize
Polis’ disaster declaration in EO 03, as amended,28 because he failed to satisfy the statute’s
conditions to do so. “[A] Court is not at liberty to shut its eyes to an obvious mistake, when
the validity of the law depends upon the truth of what is declared….A law depending upon
the existence of an emergency or other certain state of facts to uphold may cease to operate
if the emergency ceases or the facts change even though valid when passed.” Chastleton
Corp. v. Sinclair, 264 U.S. 543, 548-49 (1924) (emphasis added). In the case at bar, Polis
never made the initial finding of the necessary statutory facts in order to legally invoke his
limited authority under the provisions of CDEA.
b.

Polis invoked CDEA in EO 03, as amended, for an unauthorized purpose of

maximizing the “chances of avoiding widespread disruptions to our economy.” Polis
exceeded his statutory authority to declare a “disaster emergency,” Doc 1, cmpl, ¶39, because
CDEA required Polis to find that “a disaster [i.e., the widespread loss of life] has occurred
or that this occurrence or the threat thereof is imminent.”29 Polis failed to declare that
“widespread loss of life” from COVID-19 was “imminent.” C.R.S. §24-33.5-704(4)
(emphasis added). Id.,cmpl ¶40. His declaration violated CDEA by merely conjecturing
“widespread disruptions to the economy.” In fact, later disruptions were caused by Polis’s
own “shut down” orders. Polis’s EO 03 appeared to be mimicking the statutory requirement
for “widespread loss of life,” but he lacked statutory authority to substitute “the economy”
28

Doc 1, cmpl, Ex 9. Ex 17 (“amended by Executive Orders D 2020 018, D 2020 032, D 2020
058, D 2020 076, D 2020 109, and D 2020 125”).
29
See People v. Brante, 07 CA 0427, 14-15 (Colo. App. 2009) (speculative fears did not rise
to the level of an impending injury requiring immediate action to prevent the occurrence of
an “imminently impending injury”), citing People v. Handy, 603 P. 2d 941, 943 (1979)
(“The threats must be shown to be definite, specific and imminent; mere speculation is not
enough”).
23
Resp. App'x 23

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 24 of 36

for widespread “loss of life.” Also, under CDEA, §703(3.5), the “presumptive presence” of
coronavirus disease violates the requirement of “the occurrence or imminent threat of
widespread … loss of life” as well as the statutory definition of “emergency,” which requires
an “immediate response”. A statutory “disaster” does not include disruptions to the
economy or “strains on the healthcare system” for purposes of invoking Polis’ authority
under CDEA. Doc 1, cmpl ¶ 41.
c.

It should go without saying that Goldman Sachs is not legal authority for Polis’s

executive orders. However, Polis issued EO 138, a general order to all Coloradoans over ten
years of age to “wear a non-medical face covering over their nose and mouth,” citing as
authority a Goldman Sachs position that masks in Colorado would save the United States
economy from a “hit.” Doc 1, cmpl, Ex 15, EO 138. At no time has Polis declared that
COVID-19 posed an “imminent threat of widespread loss of life” as required by CDEA in
C.R.S. §§24-33.5-703(3) and 704(4). Under §704(4), the governor is required to “find” the
disaster as “occurred” or the “threat is imminent” of “widespread loss of life,” not that a virus
is presumed to be in the state. See People v. Handy, supra, n.29. This requirement in the
statute would be meaningless if the governor’s declaration were not subject to judicial review
by this Court.
d.

Accordingly, Polis’s attempted disaster declaration, as amended, is subject to judicial

review. See Chastleton, 264 U.S. at 548 (“In our opinion it is open to inquiry whether the
exigency still existed upon which the continued operation of the law depended”); See also
Home Building & Loan Assn. v. Blaisdell, 29 U.S. 398 (1934) (upholding emergency statute
changing foreclosure remedies where contracts were not rendered invalid but statute merely
allowed homeowners to apply to state court to extend the period of redemption provided the

24
Resp. App'x 24

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 25 of 36

mortgagee was afforded notice and hearing and debtor met other conditions). In considering
the Constitution’s Contract Clause, the Court in Blaisdell noted, “while the declaration by the
legislature as to the existence of the emergency was entitled to great respect, it was not
conclusive, and, further, that a law depending upon the existence of an emergency or
other certain state of facts to uphold it may cease to operate if the emergency ceases or the
facts change even though valid when passed.” Id. at 442 (emphasis added), citing Chastleton.
e.

Nor did the mere allegation in EO 03 that “presumptive positive” cases existed in

Colorado equate to an “imminent” and “widespread loss of life” under C.R.S. §24-33.5703(3.5) inasmuch as “widespread loss of life” had not “occurred” in Colorado and such was
only “modelled” for possible non-imminent occurrence. The virus was not a “disaster
emergency” of “imminent” threat to “widespread loss of life,” but admittedly, to other stated
interests. “A declaration of emergency by the chief executive of the state is entitled to great
weight but is not conclusive.” Scheuer v. Rhoades Kraus, 416 U.S. 232, 250 (1974)
(emphasis added) (reversing dismissal where complaint against governor challenged his
declaration of emergency), overruled on other grounds, Davis v. Scheuer, 468 U.S. 183
(1984). The award of assistance under the CARES and Stafford Acts creates an appearance
of corruption or conflicting interests, as set forth, supra. Doc 1, cmpl ¶ 43. “It does not
follow from the fact that the executive has this range of discretion, deemed to be a necessary
incident of his power to suppress disorder, that every sort of action the Governor may take,
no matter how unjustified by the exigency or subversive of private right and the jurisdiction
of the courts, otherwise available, is conclusively supported by mere executive fiat. The
contrary is well established.” Sterling v. Constantin, 287 U.S. 378, 401 (1932) (emphasis
added).

25
Resp. App'x 25

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 26 of 36

6.

Sixth Claim - Declaratory Judgment that Polis’ EOs Exceed the Scope

of his Authority under CDEA.
a.

As to orders restricting Plaintiffs speech, assembly and religious freedom, Polis’s

orders are ultra vires under Colorado statutes.30 CDEA “authorizes the suspension of certain
statutes, rules, and regulations, but not of constitutional provisions.” Ritchie v. Polis,
supra, Exhibit B, attached hereto. Polis’s EOs violate both the Colorado Constitution and the
scope of his statutory legal authority. In turn, Ryan’s PHOs lack legal authority because her
source of authority was Polis’s EOs.
b.

The provisions of CDEA merely authorize a governor to activate “state, local and

interjurisdictional disaster emergency plans” and the governor’s role as commander-in-chief
of “any organized and unorganized militia.…” C.R.S.§24-33.5-704(5)-(6).31 However, the
statute does not authorize Polis and Ryan to issue orders such as those in the case at bar and
in the process, ignore the Administrative Procedure Act, fundamental due process and
constitutional provisions that guarantee Plaintiffs’ religious rights under the United States
and Colorado Constitutions. See Colo. Constn., art. II §4.
c.

Specifically, the governor’s statutory disaster authority under CDEA is to convene

advisors, suspend certain described statutes and procedures “for the conduct of state
business” if “strict compliance” would “prevent, hinder or delay” coping with the
emergency,” compel evacuations and routes of ingress/egress, control a disaster area,
alcoholic beverages, firearms, explosives, and combustibles, and determine the sharing of
non-federal costs as required by the Stafford Act. §704(6.5)-(7)(j).

30
31

Doc 1, cmpl, Sixth Claim for Relief.
Doc 1, cmpl, ¶ 41.
26
Resp. App'x 26

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 27 of 36

d.

Polis, under CDEA’s framework, had no authority to give orders to Ryan to

discriminate against Plaintiffs. Accordingly, Plaintiffs are entitled to an injunction that
Polis’s executive orders that exceed the scope of his authority under CDEA and as such, his
executive orders are null and void.
7.

Ninth Claim - Declaratory Judgment that Polis’s Orders are Void for

Vagueness.
a.

Government regulation must be sufficiently clear so that ordinary people can

understand what conduct is being prohibited and so that the regulation does not encourage
arbitrary and discriminatory enforcement. Chalmers v. City of Los Angeles, 762 F.2d 753,
757 (9th Cir. 1985), citing Grayned v. City of Rockford, 408 U.S. 104, 108 (1972) and
Kolender v. Lawson, 461 U.S. 352, 357 (1983); see also Sessions v. Dimaya, 138 S. Ct. 1204,
1227 (2018) (Gorsuch, J., concurring) (“Although today's vagueness doctrine owes much to
the guarantee of fair notice embodied in the Due Process Clause, it would be a mistake to
overlook the doctrine's equal debt to the separation of powers.” )
b.

The issue in Chalmers was that two city ordinances contained conflicting provisions.

“Rather than covering a narrow subject, one ordinance sought to proscribe all vending
activity in a broad city area,” while another ordinance was “facially contradictory.”
Chalmers, 762 F. 2d. at 758. “Evidence at trial was that the City Attorney was not certain of
the ordinances’ meanings.” Id. Moreover, “[t]he plaintiff did all she could reasonably be
expected to do in determining the City's requirements before engaging in her [protected
activity], even to the point of requesting clarification of the conflicting and vague ordinances.
Id. The court in Chalmers upheld a jury verdict for the plaintiff whose problems rested “with
lawmakers’ creation of conflicting and inherently unclear ordinances.” Id.

27
Resp. App'x 27

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 28 of 36

c.

In the case at bar, Polis’s orders are “inherently unclear.” They lack a format that

gives notice to ordinary persons as to what is prohibited or mandated and as to whom the
orders apply. Polis has issued approximately 152 EOs, consisting of an estimated 395 pages,
between February 2020 and August 4, 2020. Doc 1, cmpl, Ex 18. Changes to the EOs can
only be verified by line-by-line comparisons. By way of example, EO-138 provides, “Except
as modified by this Executive Order, all Executive Orders or Public Health Orders,
including Public Health Order 20-31, issued due to COVID-19 and that are currently in effect
shall remain in full force and effect as originally promulgated (emphasis added).” However,
EO 138 does not specify which Public Health Orders and Executive Orders are “currently in
effect.” Plaintiffs and this Court can only guess at the meaning. Doc 1, cmpl ¶57.
d.

In addition, EO 138, issued July 16, 2020, is titled, “Amending and Extending

Executive Orders D 2020 039, D 2020 067, D 2020 092, and D 2020 110 Ordering
Individuals in Colorado to Wear Non-Medical Face Coverings.” Polis does not define
“appropriate under industry standards” nor the industry involved for required masks.
8.

Tenth Claim - Declaratory Judgment that Ryan’s Orders are Void for

Vagueness.
a.

The guarantee of “fair notice” is the essence of due process. See Sessions v. Dimaya,

supra. But “fair notice” is absent from Ryan’s public health orders.
(1)

the volume, frequency and unpredictable dates for issuance of new orders --

more than 500 pages issued since mid-March 2020 – make them impossible for persons of
ordinary intelligence to follow.

28
Resp. App'x 28

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 29 of 36

(2)

the numbering of the orders is misleading because the content is subject to

change even if the number stays the same when new orders are issued. PHO 28 is on its
“Ninth Amended” iteration. Doc 1, cmpl, Ex 41.
(3)

the naming of the orders is misleading because the content is not fairly

described. “Safer at Home and in the Vast, Great Outdoors,” in its “Sixth Amended”
iteration, included a wholly new litany of regulations for “houses of worship.” The title did
not give notice that houses of worship were the subject of new regulations. On March 20,
2020, the title of Ryan’s PHO 23 referred to “social distancing.” But buried inside the text,
para. 6, the order limited “gathering of individuals to no more than (10) people…” It
expressly applied to “faith-based events,” para. I, and expressly exempted numerous
organizations. Doc 1, cmpl, Ex 20, PHO 23.
(4)

the absence of defined terms causes confusion. PHO 23 is void for vagueness

in regard to the meaning of “mass gathering,” ostensibly being a “planned or spontaneous
event with a large number of people in attendance that could strain the planning and response
resources of the community hosting the event, such as a concert, festival, conference or
sporting event.” However, PHO 23 does not define the meaning of “the community hosting
the event,” nor the phrase, “strain the planning and response resources.”
(5)

the language of the orders is a contradictory and confusing mix of permissive

and mandatory language, but topped off with the threat of criminal prosecution. Doc 1, cmpl,
Ex 32, PHO 28F. Section II, M, “Houses of Worship,” in PHO 28H, p. 13, contains a litany
of minute regulatory orders with both mandatory and permissive language, i.e. “encouraged”
and “should,” but also, “must” “shall” and “as authorized.” Doc 1, cmpl, Ex 34, PHO 28H.

29
Resp. App'x 29

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 30 of 36

(6)

the use of hyperlinks adds to the volume of the orders and is confusing by

incorporating links to permissive “guidance” or “guidelines.” Doc 1, cmpl, Ex 34.
(7)

the single-spaced, lengthy nature of the orders requires line-by-line, even

word-by-word, comparison to the previous order to ascertain changes that might have slipped
in without warning. PHO 28H is 46 pages long (even longer than this motion). Doc 1, cmpl,
Ex 34.
(8)

the PHOs are only accessible to people who own cell phones or computers or

otherwise have internet access.
b.

PHO 28H, Sec. II, M restricts Plaintiffs’ “indoor congregations” to “50% of the

posted occupancy limit indoors not to exceed 50 people, whichever is less, per room, while
meeting the 6 feet distancing requirements….” Furthermore, for outdoor services, Plaintiffs
must “work with the appropriate local authority to obtain approval….” This language
constitutes a requirement for a type of “permit” to hold outdoor services. However, the
“appropriate local authority” is not defined. In addition, the language ordering Plaintiffs “to
work with the appropriate local authority” grants unbridled discretion to government
officials to withhold or approve Plaintiffs’ outdoor services without any notice to Plaintiffs of
the standards for approval, and without standards to guide officials in enforcing violations of
such approval.
c.

The United States Supreme Court struck down an ordinance that gave unbridled

discretion to the government to restrict the right of free expression, but the same rule applies
to Plaintiffs’ rights to assemble for religious worship:
A law subjecting the exercise of First Amendment freedoms to the prior restraint of a
license, without narrow, objective, and definite standards to guide the licensing
authority, is unconstitutional. "It is settled by a long line of recent decisions of this
30
Resp. App'x 30

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 31 of 36

Court that an ordinance which, like this one, makes the peaceful enjoyment of
freedoms which the Constitution guarantees contingent upon the uncontrolled will of
an official -- as by requiring a permit or license which may be granted or withheld in
the discretion of such official -- is an unconstitutional censorship or prior restraint
upon the enjoyment of those freedoms." Staub v. Baxley, 355 U.S. 313, 322. And our
decisions have made clear that a person faced with such an unconstitutional licensing
law may ignore it and engage with impunity in the exercise of the right of free
expression for which the law purports to require a license. "The Constitution can
hardly be thought to deny to one subjected to the restraints of such an ordinance the
right to attack its constitutionality, because he has not yielded to its demands."
Shuttlesworth v. Birmingham, 394 U.S. 147, 150-151 (1969).
9.

Eleventh Claim - Declaratory Judgment that Ryan’s Orders Deprived

Plaintiffs of the Right to Notice and Hearing Under the Fourteenth Amendment and
Exceeded Her Authority under the Colorado APA .
a.

"'[A]n agency literally has no power to act. . . unless and until Congress confers

power upon it.'" Arlington v. FCC, 569 U.S. 290, 317 (2013) (Roberts, C. J., dissenting),
quoting Louisiana Pub. Serv. Comm'n v. FCC, 476 U.S. 355, 374 (1986). “When an agency
exercises power beyond the bounds of its authority, it acts unlawfully.” Department of
Homeland Security v. Regents of University of California, no. 18-587, p. 8 (slip op., June 18,
2020) (Thomas, Alito and Gorsuch, J., concurring in part). Because Polis lacked authority to
issue his orders to Ryan, she in turn had no authority to issue PHOs filled with rules without
conducting rulemaking procedures set forth in C.R.S. §24-4-103. None of the rules in PHO
20-28 were published in the Colorado Register, March 10 through May 25, 2020, or
subsequently. Therefore, the issuance of PHO 20-28 did not comply with the requirements of
C.R.S. §24-4-103 (6)(a).
b.

Nor did Ryan comply with statutory rulemaking requirements for an “epidemic” or

“communicable disease” contained in C.R.S. §25-1.5-102 (1)(a)(II):

31
Resp. App'x 31

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 32 of 36

For the purposes of this paragraph (a), the board shall determine, by rule and
regulations, those epidemic and communicable diseases and conditions that are
dangerous to the public health. The board is authorized to require reports
relating to such designated diseases in accordance with the provisions of section
25-1-122 and to have access to medical records relating to such designated
diseases in accordance with the provisions of section 25-1-122.
c.

The Wisconsin Supreme Court recently reviewed orders similar to Ryan’s in

Wisconsin Legislature v. Secretary-Designee Palm, 2020AP 42 (Wis. 2020). Unlike in the
case at bar, the case did not challenge the governor’s orders. Id., para. 1, 41. However, the
court held that Palm, as head of the state’s department of health services “broke the law when
she issued Emergency Order 28 after failing to follow emergency rule procedures . . . .[and]
exceeded her authority by ordering everyone to stay home., closing all “non-essential”
businesses, prohibiting private gatherings of any number of people who are not part of a
single household, and forbidding all “non-essential” travel.” Id., para. 2. The court noted that
the disputed order was not within the exceptions for the definition of a “rule” of general
application. Id., para. 18. It also noted, “If we were to read the definition of “rule” as Palm
suggests, one person, Palm, an unelected official, could create law applicable to all people
during the course of COVID-19 and subject people to imprisonment when they disobeyed
her order.” Id., para. 24 Palm’s order confining all people to their homes, forbidding travel,
closing businesses and any criminal penalties were declared unenforceable for exceeding her
statutory authority. Id. para. 59.
d.

Ryan’s PHOs, by violating the Colorado APA, also violate the notice and hearing

requirements of the Fourteenth Amendment of the United States Constitution. Ryan’s PHOs
violate the APA, C.R.S. §25-1.5-101 et seq.,32 and as a result, in directing her to issue orders,
Polis did not “take appropriate action under state law” as required by the Stafford Act. Ryan
32

Doc 1, cmpl, ¶ 122.
32
Resp. App'x 32

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 33 of 36

has no statutory authority to issue orders to the public at large, or to segments of the public
such as churches, without complying with fundamental statutory rulemaking or adjudicatory
procedures. In this regard, Colorado’s APA establishes basic due process of law in both
rulemaking and adjudicatory proceedings. Where an agency establishes policy or procedure,
it must comply with the APA, and if not, the rule is not enforceable. Jefferson Sch. Dist. R-1
v. Div. of Labor, 791 P.2d 1217 (Colo. App. 1990).
e.

Colorado’s APA provides: “The general assembly finds that an agency should not

regulate or restrict the freedom of any person to conduct his or her affairs, use his or her
property, or deal with others on mutually agreeable terms unless it finds, after a full
consideration of the effects of the agency action, that the action would benefit the public
interest and encourage the benefits of a free enterprise system for the citizen of the state.
C.R.S. §24-4-101.5 (emphasis added).33
f.

Ryan issued PHOs containing numerous rules restricting Plaintiffs’ religious freedom

without fundamental due process. A “rule” is defined as being “the whole or any part of
every agency statement of general applicability and future effect implementing, interpreting,
or declaring law or policy or setting forth the procedure or practice requirement of any
agency. “Rule” includes “regulation.”34 Ryan cites Polis’s executive orders as her authority.
CDEA does not grant authority to either Polis or Ryan to issue rules to the general public
during an emergency.
g.

In sum, Ryan violated the rulemaking procedures set forth in C.R.S. §24-4-103:

“When any agency is required or permitted by law to make rules, in order to establish
procedures and to accord interested persons an opportunity to participate therein, the
33
34

Doc 1, cmpl, ¶ 116.
C.R.S. §24-4-102(15).
33
Resp. App'x 33

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 34 of 36

provisions of this section shall be applicable (emphasis added).”35 Plaintiffs are “interested
persons” in the PHOs restricting their churches. However, State Defendants failed to accord
Plaintiffs any opportunity to participate in Ryan’s issuance of the PHOs, in violation of the
APA §24-4-103.
h.

PHO 23 fell within APA §24-4-102(15) because it purported to have the “force of law

and criminal sanctions.” PHO 23’s final paragraph states in bold print and in all capital
letters: “Failure to comply with this order is subject to the penalties contained in Sections 251-114, C.R.S., including a fine of up to one thousand (1,000) dollars and imprisonment in the
county jail for up to one year.” In addition, Ryan issued successive PHOs stating they were
subject to a fine and imprisonment, including but not limited to PHOs 24 (3/22/20), 24A
(3/26/20), 24B (4/1/20), 24C (4/9/20); PHO 28, p. 13 (4/26/20), 28A, p. 14 (5/4/20), 28B,
p.14 (5/8/20), 28C, p. 14 (5/14/20), 28D, p. 14-15 (5/26/20), 28E, p. 16-17 (6/2/20), 28F, p.
17 (6/5/20), 28G, p. 18 (6-18-20), 28H, p. 19 (6/30/20).
i.

Polis’s EOs and Ryan’s PHOs violate procedural due process protections required by

the APA and the Fourteenth Amendment. They thus violate Plaintiffs’ free exercise rights
under the First Amendment and violate the certification requirement of C.F.R. §206.36
requiring the governor to certify he took appropriate action under state law and did not
discriminate.
10.

Twelfth Claim – for Injunctive Relief Against All Defendants

a.

A Substantial Threat of Irreparable Injury Exists.
The Tenth Circuit has held that "establishing a likely RFRA violation satisfies the

irreparable harm factor." Hobby Lobby Stores, v. Sebelius, 723 F.3d 1114, 1146 (10th Cir.

35

Doc 1, cmpl, ¶118.
34
Resp. App'x 34

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 35 of 36

2013). Plaintiffs have shown likely RFRA violations in the implementation of the CARES
Act and Stafford Act, and therefore, irreparable injury. A substantial threat of irreparable
injury exists because Plaintiffs’ free exercise is of central importance to who they are and to
their spiritual identity and health. This point is substantiated by the presence of robust
religious freedom protection in the Colorado Constitution.
b.

Plaintiffs’ Injuries Outweigh Any Harm to Defendants.
The deprivation of First Amendment freedoms, “for even minimal periods of time,

unquestionably constitutes irreparable injury.” Elrod v. Burns, 427 U.S. 347, 373 (1976).
What Plaintiffs seek -- namely the restoration of their religious freedom – is no different than
the freedom State Defendants have “granted” to thousands of people in other groups by
exemptions from the challenged orders. Those groups include many large retail outlets,
including “big box stores” like The Home Depot and Lowes, as well as marijuana shops,
liquor stores and government operations. So many establishments have been preferred to
Plaintiffs that no injury will occur to Defendants, but almost no greater injury can be inflicted
upon Plaintiffs than to deprive them of the right to gather together to worship according to
their mode of so doing. Finally, “[I]t is always in the public interest to prevent the violation
of a party’s constitutional rights.” Hobby Lobby Stores v. Sebelius, 723 F.3d 114, 1145 (10th
Cir. 2013), aff’d sub nom. Burwell v. Hobby Lobby Stores, 573 U.S. 682 (2014) (quotations
omitted).
Prayer for Relief
Wherefore, Plaintiffs pray for the following:
a.

an order temporarily restraining State Defendants from enforcing any executive and

public health orders issued subsequent to March 11, 2020, against Plaintiffs,

35
Resp. App'x 35

Case 1:20-cv-02362-DDD-NRN Document 13 Filed 08/17/20 USDC Colorado Page 36 of 36

b.

an order temporarily restraining Federal Defendants from providing further assistance

to Polis under the CARES or Stafford Acts until further order of this Court,
c.

an order setting a hearing on this Motion for a temporary restraining order,

d.

an order setting a hearing on this Motion for a preliminary injunction, and for

e.

such other and further relief the Court deems just and proper.
Respectfully submitted,
MESSALL LAW FIRM, LLC
s/ Rebecca R. Messall
Rebecca R. Messall, CO Bar no. 16567
7887 E. Belleview Avenue, Suite 1100
Englewood, CO 80111
Phone 303.228.1685
Email: rm@lawmessall.com
Attorney for Plaintiffs
BERGFORD LAW
J. Brad Bergford, CO Bar no. 42942
Attorney at Law
3801 E. Florida Ave. Ste. 800
Denver, CO 80210
Phone: 720.980.3989
Email: brad@bergfordlaw.com
Attorney for Plaintiffs
CERTIFICATE OF COMPLIANCE

This pleading is the subject of Plaintiff’s Motion for Excess Pages, filed herewith,
because this pleading exceeds the applicable type-volume limitations set forth in Judge
Domenico’s Practice Standards III, A(1).
CERTIFICATE OF SERVICE
I hereby certify that on August 17, 2020, I caused to be electronically filed the
foregoing document with the Clerk of the Court for the U.S. District Court for the District of
Colorado, using the electronic case filing system of the court. The electronic case filing
system will send a “Notice of Electronic Filing” to attorneys of record who have consented in
writing to accept this notice as service of this document by electronic means.
/s/ Rebecca R. Messall
Rebecca R. Messall
36
Resp. App'x 36

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 1 of 24

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 1:20-cv-02362-DDD-NRN
DENVER BIBLE CHURCH,
PASTOR ROBERT ENYART,
COMMUNITY BAPTIST CHURCH,
PASTOR JOEY RHOADS
Plaintiffs
v.
ALEX M. AZAR II, in his official capacity as Secretary,
United States Department of Health and Human Services;
Department of Health and Human Services;
CHAD F.WOLF, in his official capacity as Acting Secretary,
United States Department of Homeland Security;
Department of Homeland Security;
STEVEN T. MNUCHIN, in his official capacity as Secretary
United States Department of the Treasury;
Department of the Treasury;
JARED POLIS, in his official capacity as
Governor, State of Colorado, and
JILL HUNSAKER RYAN, in her official
capacity as Executive Director of, together with the
Colorado Department of Health and
Environment
Defendants
______________________________________________________________________________
PLAINTIFFS’ MOTION FOR INJUNCTION PENDING APPEAL
______________________________________________________________________________
Plaintiffs, under Fed. R. Civ. P. 62(d), request an injunction-pending-appeal (“Motion
IPA”) against State Defendants and Federal Defendants, and respectfully submit:
CERTIFICATE OF CONFERRAL
Undersigned counsel conferred with counsel for Defendants, who oppose this motion.

1
Resp. App'x 37

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 2 of 24

PROCEDURAL BACKGROUND
This Motion IPA arises from the Court’s order entered October 15, 2020, ECF 65 (“Order
PI”) partially denying relief sought in Plaintiffs’ Motion for Preliminary Injunction (“Motion PI”).
ECF 13. The Order PI enjoined State Defendants’ from enforcing capacity limits and mask
dictates,1 denied an injunction against other dictates, and denied an injunction against Federal
Defendants. Plaintiffs filed a Notice of Appeal. ECF 74. Federal Defendants filed a Motion to
Dismiss, not yet ruled upon. This Motion seeks injunctive relief pending appeal against any and
all dictates by State Defendants as to Plaintiffs and an injunction against Federal Defendants to
prohibit federal covid-19 aid, stimulus, or similar aid to State Defendants.2
Plaintiffs must first seek injunction here in order to seek an injunction pending appeal in
the Tenth Circuit. Fed. R. App. P. 8(a)(1)(C).3 Notably, State Defendants have issued yet more
versions of unconstitutional PHOs, the current one believed to be Third Amended PHO 20-36
(69 pages), issued December 7, 2020 (the “Ryan PO”). Ex. 2, attached hereto and incorporated.
STANDARD OF REVIEW
This Court may grant an injunction while an appeal is pending from its interlocutory
order denying an injunction, Fed. R. Civ. P. 62(d).4 Plaintiffs meet the requirements for same.
Winter v. Natural Resources Defense Council, Inc., 555 U.S. 7, 20 (2008).

1

On October 16, 2020, State Defendants appealed, and a stay was granted by the Tenth Circuit.
State Defendants have moved to dismiss their appeal due to an opinion by the United States
Supreme Court in Roman Catholic Diocese of Brooklyn, NY v. Cuomo.
2
Order PI issued October 15, 2020 [ECF 65].
3 The instant Motion IPA incorporates Plaintiffs’ previous legal arguments and exhibits, submitted
in lieu of hearings on Plaintiffs’ Motion PI. ECF 13, 45 and 56, with exhibits attached.
4 To obtain an injunction in the appellate court, a party must ordinarily move first in the district
court for an order granting an injunction while an appeal is pending. Fed.R.App.P. 8(a)(1)(C).
2
Resp. App'x 38

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 3 of 24

Moreover, the timing of this Motion IPA is not because of any unreasonable delay by
Plaintiffs or their counsel, and is not prejudicial to Defendants. After the Order PI, State and
Federal Defendants filed various motions in this Court and in the Tenth Circuit necessitating
Plaintiffs’ responses.
FACTS
1.

In the spring of 2020, Polis and Ryan began dictating limits on activities in the most minute

aspects of personal freedom, including religion.5 Plaintiffs attested in twelve (12) affidavits to the
multiple ways that State Defendants’ dictates have burdened and are burdening the exercise of
Plaintiffs’ religious faith. Denied a hearing for a temporary restraining order and objecting to being
denied any hearing for a preliminary injunction, ECF 38, Plaintiffs’ undisputed, record testimony
is too lengthy to be reiterated completely in this motion, but it is incorporated by reference to the
record and excerpted in Exhibit 1, as attached and incorporated.6
2.

The Complaint, ECF 1, the Motion for TRO/Preliminary Injunction, ECF 13, and the

Motion to Supplement the Complaint, ECF 57, comprehensively ask for declaratory and injunctive
relief as to any and all of the post-March 11, 2020 executive orders (“EOs”) and public health
orders (“PHOs”) applicable to Plaintiffs for the reason that State Defendants are infringing upon

5

“[S]tate, local and county governments initiated a number of restrictions on residents, churches,
and businesses including quarantine, stay-at-home, travel bans, shelter-in-place, lockdowns, or
similar acts. Linda A. Sharp, 55 A.L.R. Fed. 3d Art. 3 “Covid-19 Related Litigation:
Constitutionality of Stay-at-Home, Shelter-in-Place, and Lockdown Orders,” (Westlaw 2020).
6 See Complaint, ECF 1, 1-35 (Enyart, R. 1st) and 1-36 (Rhoads 1st) and, as to this Court’s minute
order, ECF 51, and, as to State Defendants’ supplemental brief, ECF 50, see Plaintiffs’ responses,
ECF 56, 56-1 (Enyart, R. 2nd), 56-2 (Rhoads 2nd), 56-4 (Enyart, N.), 56-5 (Hanks), 56-6 (Walker),
56-7 (Sutherland) and 56-8 (Wagner), and as to a brief and affidavit by State Defendants, ECF 41,
41-1 (Herlihy), see Plaintiffs’ responses, ECF 45, 45-2 (Enyart, R. 1st), 45-3 (Rhoads 1st) and 459 (Ballentine), 45-10 (Craddock) and 45-11 (Troyer).
3
Resp. App'x 39

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 4 of 24

the First Amendment’s Free Exercise Clause without any legal basis --- neither a compelling basis
nor a rational basis --- and without procedural due process.
3.

Under supplemental jurisdiction over state law issues,7 28 U.S.C. §1367(a), and to further

show that State Defendants lack a compelling state interest to infringe upon the First Amendment,
Plaintiffs seek declaratory judgment, and here, an injunction pending appeal, in part because State
Defendants lack any legal basis – and therefore lack a compelling basis --- to violate Plaintiffs’
federal rights. Notably, Plaintiffs do not ask this court to issue a “mandatory injunction” to require
State Defendants’ compliance with state law.8 Rather, Plaintiffs seek a “prohibitory injunction”
against any enforcement of the offending dictates including, but not limited to, those pertaining to
social distancing, sanitization, hymnal dictates, restroom cleaning, handwashing, singing,
sneezing, coughing and any other dictates threatening criminal prosecution arising from Plaintiffs’
religious exercise in violation thereof.9
4.

In the case at bar, the Order PI, ECF 65, made rulings upon the then-in-effect Second

Amended PHO 20-35 (58 pages), issued October 8, 2020,10 subsequently superseded and replaced
the “Ryan PO. The Order PI noted that continual amendments to State Defendants’ executive and
public health orders present “Plaintiffs and the Court with somewhat of a moving target.”11 ECF

7

See ECF 1, cmpl, ¶5, “as well as supplemental state law questions.”
See ECF 65, Order PI at 38, incorrectly interpreting the Complaint as asking this court to
instruct “state officials on how to conform their conduct to state law.”
9
In granting partial relief, Doc 65, the Order PI upheld the social distancing, sanitization and
dictates other than for masks and occupancy caps, as being neutral and generally applicable, though
the Order PI expressed uncertainty as to whether Plaintiffs’ challenged these other dictates, despite
the language seeking to enjoin any and all of State Defendants’ orders applicable to Plaintiffs. ECF
65 at 4 (referring to “certain orders” rather than “any covid-19 related” or “all” such orders. See
Doc 1 at 35 and Doc 13 at 35)
10
ECF 65, order at 6, fn 7.
11
Plaintiffs object to the PI Order’s description of continual amendments as being
“commendable” because of the burdens imposed on religion and the other claims herein against
the dictates.
8

4
Resp. App'x 40

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 5 of 24

65 at fn 7. Plaintiffs seek similar deference while they also challenge the lack of due process in
criminal law as a “moving target.” The Order PI granted relief regarding mask dictates and
occupancy limitations based on an equal protection comparison of secular burdens versus burdens
on Free Exercise rights where no compelling interest exists for more favorable treatment of
warehouses, schools, and food-processing facilities than for churches. Id. at 27.
The Ryan PO
1.

The 69-page Ryan PO “enacts” a broad-spectrum criminal code. Its application includes,

but is not limited to, individuals (Sec. I at 2-4), employers (Sec. III, C, 2-6), employees (Sec. III,
C, 4), elected county officials, hospitals, law enforcement, county public health offices (Sec. II at
4-18), businesses (non-profit and for profit), government (including federal, state and local),
outdoor events, recreation, sports and education. (Sec. III D. -R.).
2.

The term “Critical Businesses” includes “Critical Services,” which includes, but is not

limited to, “trash, compost, and recycling collection, processing and disposal,” as well as “selfserve laundromats and garment and linen cleaning services for critical businesses,” and “Houses
of Worship and associated ceremonies such as weddings, funerals and baptisms (religious or
secular). Ex 2, Appendix A, p. 38.
3.

Notably, “News Media” is a “Critical Business,” but it is not grouped with laundromats,

composting, and Houses of Worship. Rather, “News Media” is a separate category altogether,
listing newspapers, television, radio and “other media services.” Id. Other “Critical Businesses”
are grouped into similar categories such as “Construction,” “Financial and Professional
Institutions,” “Defense,” and “Educational Institutions.” Id. at 38-40.
4.

Plaintiffs were not provided with notice and hearing prior to being categorized with trash,

compost and laundromat services. State Defendants have cited no legal basis for such a

5
Resp. App'x 41

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 6 of 24

categorization or such “lawmaking.” Houses of Worship might have been, but were not,
categorized under a separate topic titled “Religious Expression,” listing gatherings for worship,
prayer, music, shiva, bat mitzvah, bar mitzvah, minyan, baptism, wedding, funeral, wake,
visitation, eucharistic adoration, reconciliation, veneration, confirmation, Bible study, religious
education, individual pastoral counseling, marriage counseling, pre-Cana classes, business council
meetings, special speakers and “other religious expression.”
5.

The Ryan PO, id. at 28-9, requires that Houses of Worship (including but not limited to

weddings, funerals and baptisms), id at 38, obey the orders for Critical Businesses:
[Critical Businesses] must comply with the guidance and directives for maintaining a
clean and safe work environment issued by the [CDPHE] and any applicable local health
department [and] must comply with Distancing Requirements and all PHOs currently in
effect to the greatest extent possible and will be held accountable for doing so.
(Emphasis added and in original).
6.

Notably, the Ryan PO does not identify where to locate “guidance and directives” by the

CDPHE or local health departments, nor identify which PHOs are “currently in effect.” However,
the Ryan PO itself, p. 30, includes the following definition:
E. Distancing Requirements. To reduce the risk of disease transmission, individuals
shall maintain at least a six-foot distance from other individuals, wash hands with soap
and water for a least twenty seconds as frequently as possible or using hand sanitizer,
cover coughs or sneezes (into sleeve or elbow, not hands), regularly clean high-touch
surfaces, and not shake hands.
7.

In addition, the Ryan PO, Appendix A, requires as follows for Houses of Worship, under

the labels of Critical Business, p. 36, and Critical Services, p. 38,
Any business . . .should follow all of the requirements in this Order for their sector, and
any applicable CDPHE guidance, unless doing so would make it impossible to carry out
critical functions, in which case they may exceed the sector restrictions to the minimum
extent necessary to carry out critical functions.” Ryan PO, p. 36 (emphasis added). The
phrase “critical functions” is not defined.

6
Resp. App'x 42

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 7 of 24

Critical Businesses must comply with the guidance and directive for maintaining a clean
and safe work environment issued by the [CDPHE] and any applicable local health
department.
Critical Businesses must comply with Distancing Requirements and all PHOs currently in
effect to the greatest extent possible and will be held accountable for doing so. Id., at 38
(emphasis added).
8.

On one hand, the Ryan PO, p. 30, as to “Distancing Requirements,” supra, arguably states

“permissive” rules for social distancing, sanitizing, coughing and sneezing by using the qualifying
language “to the greatest extent possible,” “as frequently as possible,” and, “to the minimum extent
necessary.” On the other hand, the Ryan PO, p. 29, states that Houses of Worship “will be held
accountable.” Indeed, it states, p. 34, that it will be “enforced by all appropriate legal means” and
that “[f]ailure to comply with this order could result in penalties, including jail time, and fines, and
may also be subject to discipline on a professional license based upon the applicable practice act.”
The due process issue is that the Ryan PO does not identify who decides whether “doing so would
make it impossible to carry out critical functions.” In fact, it does not define “critical functions.”
It does not identify who determines that a person illegally coughed into their hand instead of their
elbow. These are not trivial problems with the vagueness and doublespeak in the Ryan PO. From
personal knowledge, Pastor Enyart testifies, ECF 1, 1-35, ¶13; ECF 45-2, ¶13:
As a church, many of us feared that the government could hit us with fines in such a way
that we could actually lose our church entirely. I am a long-time friend of Mr. Jack
Phillips of Masterpiece Cakes. As such, I am very familiar with his years of persecution
by Colorado government officials until he finally prevailed. On the third Sunday in May,
2020, I instructed the congregation that they should go overboard to comply with the
government’s orders so that hopefully, if anyone was fined, arrested or put in jail, it
would only be myself and the church elders at risk. Our fear of persecution for
violating the government’s orders is very real, considering what was done to my friend,
Jack.
9.

Equally ambiguous is CDPHE’s website, last viewed December 29, 2020, titled “Places of

worship and associated ceremonies.” Ex 3, attached and incorporated. This document is
7
Resp. App'x 43

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 8 of 24

conceivably what the Ryan PO, pp. 29 and 38, describes as “guidance and directives” that Houses
of Worship “must follow.” On one hand, in this document, Ex 3, CDPHE more than once
underlines the words “recommend” and “recommended,” and repeatedly, instead of using
mandatory language,

uses permissive phraseology such as, “these guidelines and

recommendations.” On the other hand, one section is confusingly titled “Required Guidelines,”
an oxymoron combining the permissive word, “guidelines” with the mandatory word, “required,”
much like employees are “commanded” to “volunteer” with the comedic doublespeak word
“voluntold.”

The

Ryan

PO’s

requirement

that

Plaintiffs

“must

follow”

CDPHE

“recommendations” is doublespeak that also fails to cite legal authority for the requirement.
10.

The CDPHE webpage, Ex. 3, has a section on “Cleaning Practices,” stating, on one hand,

“restrooms should be cleaned at minimum between each service” and “additional resources can
be found at CDC” website for “faith-based organizations.” The word “should” implies a mandatory
requirement. On the other hand, in a section titled, “touchless experience,” CDPHE uses
permissive language, saying “where possible, places of worship are encouraged to create a plan
which allows for worshippers to avoid all contact with surfaces.” (Emphasis added).
11.

Under Frequently Asked Questions, the CDPHE webpage, Ex 3, on one hand, states an

exception to 6-foot distancing where “doing so would make it impossible to carry out critical
functions.” (Emphasis added). The phrase “critical functions” is, again, not defined. On the other
hand, the FAQ pronounces that “birthdays, quinceaneras and graduations do not meet the
definition of a critical activity or service and must follow the indoor and outdoor event
requirements and guidelines.” (Emphasis added). The FAQ uses mandatory language that
“receptions associated with these ceremonies are considered events, not a critical service, and
must follow the same capacity restriction and guidelines as indoor.”

8
Resp. App'x 44

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 9 of 24

12.

CDPHE does not state its statutory authority for defining, or failing to define, critical

functions or services or for defining indoor and outdoor event “requirements” [i.e., mandatory]
versus “guidelines” [i.e., permissive]. CDPHE does not use language putting Plaintiffs on notice
of what conduct carries criminal penalties and what conduct is not a crime. By incorporating
CDPHE guidelines and directives and by using double speak, the Ryan PO is void for vagueness.
It is also ultra vires by violating the Colorado Constitution, the Colorado APA, and the First
Amendment of the United States Constitution, as briefed in Plaintiffs Motion PI. ECF 13...
13.

State Defendants’ executive and public health orders now amount to hundreds of individual

proclamations and hundreds upon hundreds of pages, including in them the type of double speak,
described above. For good reason, affiants testify to fear of prosecution for simply exercising their
religious faith. One affiant testifies that “[t]he government’s uncertain orders made a concern
about the virus much worse…”, ECF 56-4, ¶5 (Enyart, N.), and another affiant wonders if the
church and members will be “shut down, fined, or even arrested for violating some aspect of a
governmental order having to do with capacity limits, mask wearing, social distancing,
cleaning/sanitizing, or any other requirement.” ECF 56-6, ¶7 (Walker) (emphasis added).
14.

The Court’s Order PI denied Plaintiffs any relief from dictates involving “social

distancing,” “sanitization,” and “vagueness.” The Order PI, despite the latest vagueness,
ambiguity and doublespeak by State Defendants, affirmatively states that Plaintiffs “will, for
example have to enforce sanitization requirements, maintain social distancing between
individuals and not permit shaking hands…” ECF 65 at 26 (fn 18) and 29. The Order PI also
denied injunctive relief against Federal Defendants’ aiding and abetting of State Defendants and
for separately violating RFRA and the Stafford Act.

9
Resp. App'x 45

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 10 of 24

ARGUMENT
Likelihood of success on the merits. The Complaint and Motion PI seek to enjoin “any
covid-19 related executive orders and public health orders issued on or subsequent to March 11,
2020.” ECF 1, cmpl at 35; ECF 13, mtn at 35, together with aid from Federal Defendants until
Plaintiffs are granted relief from State Defendants’ oppressive orders. Plaintiffs are likely to
succeed on the merits against all defendants, as follows:
A.

CDEA12 violates the First Amendment as applied by State Defendants13 and Federal

Defendants acting together.14 The Complaint and Motion PI assert “as applied”15 First
Amendment claims by reason of State Defendants’ implementation of CDEA and Federal
Defendants’ actions in concert with them.16 Polis’ executive order (“EO”) on March 11, 2020,
expressly cites CDEA as his statutory authorization to invoke emergency authority. 17 In turn, Ryan
applied CDEA to Plaintiffs by means of her PHO 20-35,18 as amended, ECF 55-1, issued 9-15-20,
citing Polis’ EO as Ryan’s legal authority: “Governor Polis issued Executive Order D 2020 003
on March 11, 2020, declaring a disaster emergency in Colorado.” Plaintiffs’ First Amendment

12

C.R.S. §24-33.5.701 et seq.
Doc 1, cmpl, Third Claim for Relief.
14
Id., First, Second and Twelfth Claims for Relief. Federal Defendants also violate Fed. R. Civ.
P. 65, RFRA and the Stafford Act.
15
The Third Claim for Relief, ECF 13, cmpl, ¶¶131-135, is expressly titled: “Declaratory Judgment
that CDEA Discriminates on its Face and as Applied.” (emphasis added).
16
ECF 1, cmpl at 1; 13, mtn PI at 17. Federal Defendants simultaneously violate Fed. R. Civ. P.
65, RFRA and the Stafford Act. ECF 1, cmpl ¶¶99-105, 111-14, 123-24, 127-28, 133, 153.
17
See ECF 1, cmpl, ex 1-9, EO 2020-003 stating: “Pursuant to the authority vested in the Governor
of the State of Colorado and, in particular, pursuant to Article IV Section 2 of the Colorado
Constitution and the relevant portions of the Colorado Disaster Emergency Act, C.R.S. §2433.5-701 et seq., I Jared Polis, Governor of the State of Colorado, hereby issue this Executive
Order declaring a state of emergency due to the presence of the corona virus disease 2019
(COVICD-19) in Colorado . . .”
18
PHO 20-35, issued 9-15-20, “supersedes and replaces Public Health Orders 20-22, 20-24, and
20-28, as amended.” [ECF 55-1 at 2].
13

10
Resp. App'x 46

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 11 of 24

challenges to the EOs and PHOs are not limited to a “disparate treatment” claim.19 “The First
Amendment rights have been held to be fundamental and, therefore, the classifications in terms
of the ability to exercise those rights are subject to strict judicial scrutiny.” Ronald D. Rotunda
and John E. Nowak, Vol. 4, Treatise on Constitutional Law: Substance and Procedure Fifth
Edition, p. 399 (Thomson Reuters 2013) (emphasis added). “Although the analysis of First
Amendment classification under the equal protection guarantee is not common, it is important to
remember that it is always permissible to review such laws under the guarantee.” In the case at
bar, the Order PI utilized an equal protection analysis:
[The State] does not have the power to decide what tasks are a necessary part of an
individual’s religious worship. And while religious exercise is subject to truly neutral and
generally applicable regulations, once the State Begins creating exceptions for secular
activities as it deems necessary, then it is obligated to treat religious activities no less
favorably, absent a compelling reason.” ECF 65, order at 23 (emphasis added).
1.

In applying CDEA, State Defendants must be enjoined because they lack ANY

legal basis --- compelling or rational --- for Plaintiffs’ First Amendment deprivation. “A
preliminary injunction may issue under 42 U.S.C. §1983 to enjoin the enforcement of a statute or
ordinance that the court believes is unconstitutional, pending a final decision on the merits.”20
Here, Plaintiffs seek to enjoin a statute, CDEA, as applied through unlawful EOs and PHOs. A

19

The Order PI correctly observes that Ryan’s PHO 20-35 “creates exemptions for a wide swath
of secular institutions deemed “critical….” ECF 65, Order PI at 22. Moreover, the Order PI noted
that Polis’ mask dictate (in EO 138) contains a total of eight exemptions, none of which apply to
worship services. Id. at 23. Furthermore, regarding the occupancy limit, the Order PI states:
“Colorado’s failure to offer a compelling reason why houses of worship are subject to greater
restrictions than warehouses, schools, and restaurants violates the Frist Amendment’s guarantee
of the free exercise of religion.” Id. at 29. This Court found: “So it is clear that the State’s orders
[as to masks and occupancy caps] treat religious institutions less favorably than some secular
institutions.” ECF 65, Order PI at 24.
20
Vol. 2, Civil Actions Against State and Local Governments §14:9 at 14-24 and 25 (West 2002),
citing National People’s Action v. Village of Wilmette, 914 F.2d 1008 (7th Cir. 1990) (injunction
prohibiting enforcement of ordinance requiring door-to-door solicitors to be fingerprinted in
violation of First Amendment).
11
Resp. App'x 47

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 12 of 24

court may issue a preliminary injunction “prohibiting the governmental entity from acting in an
unlawful fashion until the matter can be fully adjudicated on the merits.”21 Under the doctrine of
Ex Parte Young, the Eleventh Amendment does not bar suits against state officials for prospective
equitable relief to end continuing violations of federal law. Meiners v. Univ. of Kansas, 359 F.3d
1222, 1232 (10th Cir. 2004) (upholding suit for declaratory and injunctive relief against chancellor
and provost in their official capacities). In the case at bar, Plaintiffs seek a prohibitory injunction
barring all defendants from violating federal law under the United States Constitution, RFRA and
the Stafford Act. Notably, they do not seek a mandatory injunction that would require compliance
with a state law.
a.

Plaintiffs allege that the ultra vires character of State Defendants’ actions under

state law requires a declaration that no legal basis exists --- compelling/strict or rational ---- for
the undisputed infringement of Plaintiffs’ federal right to Free Exercise. By lacking legal authority
under the state Constitution and/or the Colorado Administrative Procedure Act, State Defendants’
actions are not saved by simply extending unlawful actions to secular groups and then arguing that
their unlawful actions apply equally to everyone. The Complaint and Motion PI seek to enjoin, as
to Plaintiffs, “any covid-10 related executive orders and public health orders issued on or
subsequent to March 11, 2020.” Doc 1, cmpl at 35; Doc 13, mtn at 35.
b.

Colorado law requires that CDPHE engage in requisite “rulemaking” procedures.

Under C.R.S. §24-4-102 (15), a “rule” is:
The whole or any part of every agency statement of general applicability and future effect
implementing, interpreting, or declaring law or policy or setting forth the procedure or
practice requirements of any agency. “Rule” includes “regulation.”

21

Id. at 14-25, citing Spacco v. Bridgewater School Dept., 722 F. Supp. 834 (D. Mass. 1989)
(enjoining school district to remove students from classroom space leased from Roman Catholic
diocese in violation of separation of church and state).
12
Resp. App'x 48

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 13 of 24

c.

The procedural requirements of “rulemaking” are set forth in C.R.S. §24-4-103.

Specifically, among other things, rulemaking requires publication. Sec. 103(3)(a):
Notice of proposed rule-making shall be published as provided in subsection (11) of this
section and shall state the time, place, and nature of public rule-making proceedings that
shall not be held less than twenty days after such publication, the authority under which
the rule is proposed, and either the terms or the substance of the proposed rule or a
description of the subjects and issues involved. (emphasis added)
d.

The affidavit of attorney Branaugh shows that State Defendants failed to engage

in rulemaking. ECF 45-4, affid. Branaugh. Requisites for “publication” are in C.R.S. §24-4103(11) (a), providing in part:
There is hereby established the code of Colorado regulations for the publication of rules
of agencies of the executive branch and the Colorado register for the publication of
notices of rule-making, proposed rules, attorney general's opinions relating to such rules,
and adopted rules
e.

Rulemaking is in contrast to adjudication. If the government believes Plaintiffs

have violated an existing “rule,” the procedural requirements for “adjudication” are set forth in
C.R.S. §24-4-105. In the first paragraph, the statute states: “In order to assure that all parties to
any agency adjudicatory proceeding are accorded due process of law, the provision of this section
shall be applicable.” Id. at (1). A lengthy list of requirements for adjudications is contained in the
statute. State Defendants, in failing to follow the rulemaking and adjudication requirements of the
Colorado APA, have no legal basis --- therefore they neither a rational basis nor a compelling
basis --- to issue the EOs and PHOs in the case at bar in violation of the First Amendment and
Fourteenth Amendment due process.
f.

“When a governmental body threatens an individual with deprivation of liberty or

property, procedural due process requires, at a minimum, notice and the opportunity for a
13
Resp. App'x 49

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 14 of 24

meaningful hearing before an impartial tribunal.” Copley v. Robinson, 224 P.3d 431 (Colo. App.
2009). The challenged EOs and PHOs were issued without procedural due process, prior to or after
the orders. Pastors Enyart and Rhoads testify to the lack of procedural due process. ECF 45-2, ¶12
affid (Enyart, R. 1st); 45-3, ¶13e, affid (Rhoads 1st).
g.

In July 2020, the Colorado Supreme Court held that CDEA does not authorize the

governor to suspend a state constitutional requirement. “The Colorado Disaster Emergency Act
authorizes the suspension of certain statutes, rules, and regulations, but not of constitutional
provisions.” Ritchie v. Polis, 2020 CO 69, ¶18 July 1, 2020 (emphasis added). “[A constitutional]
requirement cannot be suspended by executive order, even during a pandemic.” Id. ¶19. Even
adherence to the Colorado APA would not save the EOs and PHOs from unlawfulness under the
Colorado Constitution’s prohibition against government infringement upon Plaintiffs’ “mode of
worship.” Being unlawful under the Colorado Constitution eliminates any legal basis --- i.e., any
purported compelling or rational basis --- for the EOs and PHOs and requires a finding that they
violate the Free Exercise Clause of the United States Constitution
h

Defendants Polis and Ryan have, through EOs and PHOs, unlawfully suspended

Colorado’s constitutional protection for Plaintiffs’ freedom of religion and mode of worship. The
mask requirement prefers a mode of worship whereby persons must worship while wearing an
article that is of the government’s choosing. The social distancing requirement prefers a mode of
worship inconsistent with Plaintiff churches’ practices. Affidavits are undisputed that social
distancing, as with the occupancy requirement, infringes upon the sacraments of holy communion,
baptism, funerals, marriage, ordinations and prayer. Pastor Rhoads attests to this at length. ECF
45-3, ¶¶2-5; see Ex 1, excerpts. Accordingly, Plaintiffs are entitled to an injunction pending appeal
against State Defendants because, in acting without legal authority under the Colorado

14
Resp. App'x 50

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 15 of 24

Constitution by preferring a mode of worship inconsistent with that of Plaintiffs, State Defendants
lack any basis --- either a compelling or rational basis --- for depriving Plaintiffs of their Free
Exercise rights under the United State Constitution.
2.

Even if the EOs and PHOs are neutral on their face, they violate the First

Amendment because they unduly burden the Free Exercise of Religion, as applied. The record
is undisputed that Plaintiffs live in fear that they can be arrested, or their church closed, simply by
violating the EOs and PHOs. The Order PI erred in holding that the challenge to social distancing,
sanitization and bans on coughing, sneezing, and hand shaking “would likely fail because these
dictates are neutral and generally applicable, and thus likely constitutional under Smith.” ECF 65,
Order PI at 21, 22, fn 17, 29. On the contrary, in Church of Lukumi Babalu Aye v. City of Hialeah,
508 U.S. 520 (1993), Justice Souter’s concurrence pointed out that even a law “neutral on its face,”
under Smith, may nevertheless offend the Free Exercise Clause’s requirement for government
neutrality if the free exercise of religion is unduly burdened.” Id. at 563-4 (emphasis added). “A
secular law, applicable to all, that prohibits consumption of alcohol, for example, will affect
members of religions that require the use of wine differently from members of other religions and
nonbelievers, disproportionately burdening the practice of, say, Catholicism or Judaism.” Id., at
561 (emphasis added). “[If] the Free Exercise Clause…. safeguards a right to engage in religious
activity free from unnecessary governmental interference, the Clause requires substantive, as well
as formal, neutrality.” Id., at 562. On the contrary, the EOs and PHOs lack neutrality because they
cut to the heart of Christian worship and unduly burden it with criminal penalties for limiting
attendance to less than half of normal numbers through social distancing, prohibiting handshaking,
and criminalizing the most innocuous reflexes of coughing and sneezing and criminalizing
restroom cleaning routines.

15
Resp. App'x 51

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 16 of 24

a.

The Seventh Circuit, in Listecki v. Official Comm. of Unsecured Creditors, 780

F.3d 731 (7th Cir. 2015) followed “a subsequent step after the Smith test, namely to consider
whether a law "unduly burdens" the religious practice. If so, we revert back to the pre- Smith
balancing test and ask whether the government has a compelling interest that is narrowly tailored
to advance that interest.” Id., at 735, citing See Vision Church v. Vill. of Long Grove, 468 F.3d
975, 996 (7th Cir. 2006). Notably, under this test, State Defendants --- having no legal basis to
issue the EOs and PHOs under state law --- have neither a compelling state interest nor any rational
basis to criminalize church attendance.
b.

In the case at bar, the affidavits show that, as applied to Plaintiffs, the orders not

only infringe upon a fundamental right, i.e., religious exercise (“baptisms, praying by the laying
on of hands, standing and sitting shoulder-to-shoulder with my fellow worshippers, and receiving
holy communion according to our custom,” ECF 56-8, ¶ 11), but also, they cause Plaintiffs fear of
punishment while they worship, and deter others from worshipping altogether. ECF 56-4 ¶6
(Enyart, N.) Pastor Enyart attests: “Our fear of persecution for violating the government’s orders
is very real, considering what was done to my friend, Jack.” ECF 1, 1-35, ¶13; ECF 45-2, ¶13.
Hanks testifies: “[T]he fear of being punished just for incorrect social distancing is a continuing
source of stress.” Id., 56-5, ¶5. Nate Enyart attests: “[V]iolations of the orders carry criminal
penalties.” ECF 56-4, ¶6. Walker attests: “I attend church while wondering if we will be shut
down, fined, or even arrested for violating some aspect of a governmental order having to do with
capacity limits, mask wearing, social distancing, cleaning/sanitizing, or any other requirement.”
ECF 56-6, ¶7.
c.

Although the social distancing dictate purports to be neutral “on its face,” the

dictate is applied, de facto, as an “occupancy” limit upon Plaintiffs’ small sanctuaries.

16
Resp. App'x 52

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 17 of 24

Accordingly, the social distancing dictate is invalid as applied to Plaintiffs’ for the same reasons
that the 50% occupancy limit lacks a compelling state interest.
d.

Cantwell v. Connecticut, 310 U.S. 296 (1940), requires that any infringement

upon a fundamental right requires strict scrutiny. It is not enough to say that, de jure, the
PHOs require everyone to obey the social distancing dictate, where, as applied to Plaintiffs, the
social distancing dictate prohibits more than fifty percent (50%) of the congregation from attending
church without fear of criminal prosecution. Accordingly, strict scrutiny is required. Necessarily,
strict scrutiny requires a determination of whether the orders are ultra vires, as set forth above and
as the Complaint alleges. Strict scrutiny also requires review of the record. Pastor Enyart attests
that in-person worship for the Sabbath (Sunday) is a Biblical requirement for all Christians. ECF
1-35 ¶9, affid Enyart. Another affiant attests :“Services with social distancing prevents many
components of our pre-shutdown services, including baptisms, praying by the laying on of hands,
standing and sitting shoulder-to-shoulder with my fellow worshippers, and receiving holy
communion according to our custom.” ECF 56-8 ¶ 11, affid Wagner. See also, ECF 1, cmpl ¶2;
see also ECF 45-4, ¶¶2-6, affid (Rhoads 1st).
e.

“The Court has held that each of the guarantees of the First Amendment are a

fundamental right and made applicable to the states through the due process clause of the
Fourteenth Amendment. Thus, whenever a state burdens the freedom of religion,22 speech, press,
assembly, or petition, the law must be analyzed under the strict scrutiny required by the First
Amendment as well as the general guarantees of the due process and equal protection
provisions.” Rotunda and Nowak, supra at 397 (footnotes shortened) (emphasis added). “The First

22

Cantwell v. Connecticut, 310 U.S. 296 (1940) (free exercise); Everson v. Board of Education,
330 U.S. 1 (1947) (establishment clause).
17
Resp. App'x 53

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 18 of 24

Amendment rights have been held to be fundamental and, therefore, the classifications in terms of
the ability to exercise those rights are subject to strict judicial scrutiny.” Id. at 399. Importantly,
“in passing upon constitutional questions …. the statute must be tested by its operation and
effect.” Near v. Minnesota, 283 U.S. 697, 708 (1931) (striking down state libel statute). The record
in the case at bar shows the severe burden that dictates for social distancing, sanitization, coughing,
sneezing, and others have upon Plaintiffs’ religious exercise.
f.

Because the challenged dictates burden the exercise of religion, they burden a

fundamental right. As such they must be given strict scrutiny under Cantwell, rather than a rational
relation test used for equal protection claims involving non-suspect classifications. Compare
Pennell v. City of San Jose, 485 U.S. 1 (1988) (upholding rent control ordinance as rationally
related to a legitimate state interest). In Cantwell, a state court denied an “as applied” First
Amendment claim against a statute making a crime of soliciting donations. Notably, the statute
equally punished soliciting for “religious causes” and soliciting for “charitable or philanthropic
causes.” The state court upheld the statute because of a purportedly valid public purpose to prevent
fraud:
It overruled the contention that the Act, as applied to the appellants, offends the due
process clause of the Fourteenth Amendment because it abridges or denies religious
freedom and liberty of speech and press. The court stated that it was the solicitation that
brought the appellants within the sweep of the Act, and not their other activities in the
dissemination of literature. It declared the legislation constitutional as an effort by the
State to protect the public against fraud and imposition in the solicitation of funds for
what purported to be religious, charitable, or philanthropic causes.
310 U.S. at 302 (emphasis added).
g.

However, the United States Supreme Court rejected the state’s analysis. The statute

punished the plaintiffs’ religious exercise. Period. It was irrelevant that the statute equally punished
solicitations for similar groups like charities and philanthropies:
18
Resp. App'x 54

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 19 of 24

First. We hold that the statute, as construed and applied to the appellants, deprives them
of their liberty without due process of law in contravention of the Fourteenth
Amendment. The fundamental concept of liberty embodied in that Amendment
embraces the liberties guaranteed by the First Amendment. The First Amendment
declares that Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof. The Fourteenth Amendment has rendered the
legislatures of the states as incompetent as Congress to enact such laws.
310 U.S. at 303 (emphasis added).
3.

The Ryan PO is void for vagueness because the guarantee of “fair notice” is the

essence of due process. See Sessions v. Dimaya, 138 S. Ct. 1204 (2018).
a.

But “fair notice” is absent from the Ryan PO.

(1)

the language of the orders is a contradictory and confusing mix of permissive and

mandatory language, but topped off with the threat of criminal prosecution.
(2)

the volume, frequency and unpredictable dates for issuance of new orders -- more

than 500 pages issued since mid-March 2020 – make them impossible for persons of ordinary
intelligence to follow.
(3)

the numbering of the orders is misleading because the content is subject to change

even if the number stays the same when new orders are issued.
(4)

the naming of the orders is misleading because the content is not fairly described.

(5)

the absence of defined terms causes confusion.

(6)

the use of hyperlinks adds to the volume of the orders and is confusing by

incorporating links to permissive “guidance” or “guidelines.” Doc 1, cmpl, Ex 34.
(7)

the single-spaced, lengthy nature of the orders requires line-by-line, even word-by-

word, comparison to the previous order to ascertain changes that might have slipped in without
warning. ECF 1, cmpl, Ex 34.

19
Resp. App'x 55

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 20 of 24

(8)

the PHOs are only accessible to people who own cell phones or computers or

otherwise have internet access.
b.

The United States Supreme Court struck down an ordinance that gave unbridled

discretion to the government to restrict the right of free expression. Shuttlesworth v. Birmingham,
394 U.S. 147, 150-151 (1969). Similarly, the vagueness and doublespeak in the Ryan PO deprive
Plaintiffs of due process by giving State Defendants unbridled discretion to define the meaning of
the Ryan PO.
B.

Treasury and HHS Defendants Implemented the CARES Act in Violation of RFRA.
1.

On December 28, 2020, President Trump issued a proclamation in recognition of

Thomas a Becket, martyred in his cathedral and remembered for the development of religious
freedom from government control. Exhibit 4, attached. The proclamation is timely to consider in
the case at bar. RFRA prohibits the federal government from substantially burdening the free
exercise of religion unless the burden furthers a compelling state interest by the least restrictive
means. 42 U.S.C. §2000bb-1.23 The prohibition applies “to all Federal law, and the implementation
of that law, whether statutory or otherwise …” 42 U.S.C. §2000bb-3. Treasury and HHS
Defendants are federal agencies engaged in the “implementation of federal law” under the Stafford
and CARES acts. Therefore, RFRA applies to them for the purpose of their actions as they relate

23

(a) In general -Government shall not substantially burden a person's exercise of religion
even if the burden results from a rule of general applicability, except as provided in
subsection (b).
(b) Exception - Government may substantially burden a person's exercise of religion only if it
demonstrates that application of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering that compelling governmental interest.
(c) Judicial relief - A person whose religious exercise has been burdened in violation of this
section may assert that violation as a claim or defense in a judicial proceeding and obtain
appropriate relief against a government. Standing to assert a claim or defense under this
section shall be governed by the general rules of standing under article III of the Constitution.
20
Resp. App'x 56

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 21 of 24

to Plaintiffs’ constitutional rights. Federal Defendants work in concert with State Defendants to
provide funds under the Stafford and CARES acts. Violations of Plaintiffs’ federally-protected
rights occurred when Federal Defendants, in contravention of the Stafford and CARES acts,
approved the conditions of mitigation submitted by Polis for allocation of federal resources and
approved by Federal Defendants in spite of the State Defendants’ admitted discrimination against
Plaintiffs.
2.

Federal Defendants lack both a “compelling state interest” and a “least restrictive

means” to implement the CARES Act because State Defendants’ admitted burden on Plaintiffs’
free exercise of religion lacks legal authority under Colorado’s state statutes, the state constitution,
and the Fourteenth Amendment, as briefed in the original Motion for Temporary Restraining
Order and Preliminary Injunction. ECF 13. Congress did more than merely establish the balancing
test used in the Free Exercise line of cases and provided even broader protection for religious
liberty than in those cases. Burwell v. Hobby Lobby, Inc., 134 S. Ct. 2051 (2014
3.

Federal Defendants also lack a compelling state interest to approve State

Defendants’ religious discrimination against Plaintiffs because State Defendants’ dictates are
issued ultra vires, vague and deprive Plaintiffs of due process of law under the Fourteenth
Amendment and the Colorado APA.
4.

Finally, “federal statutory law” is subject to RFRA “unless such law explicitly

excludes such application by reference to this chapter (emphasis added).” 42 U.S.C. §2000bb-3(b).
Importantly, neither the CARES Act nor the Stafford Act excludes the application of RFRA.

21
Resp. App'x 57

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 22 of 24

C.

DHS Defendants Violate RFRA and the Stafford Act’s Prohibition against Religious

Discrimination.
1.

To comply with the Stafford Act, DHS Defendants’ authority to approve Polis’s

request required Polis to meet at least two conditions: (1) taking appropriate action under state law,
and (2) complying with the Stafford Act’s nondiscrimination provision and regulations. Here, DHS
Defendants violated their authority because Polis and Ryan failed both conditions: they did not
take appropriate action under state law, and, as they have been found by this Court to have likely
discriminated, Federal Defendants did not comply with the Stafford Act’s nondiscrimination
regulations. In approving State Defendants’ EOs and PHOs, the DHS Defendants 24 have
substantially burdened Plaintiffs’ free exercise of religion25 in violation of the First Amendment,
RFRA, the Stafford Act and its implementing regulations in 44 C.F.R. §§206.11 and 206.36.
2.

The Stafford Act requires regulations insuring that relief activities “shall be

accomplished in an equitable an impartial manner, without discrimination on the grounds of race,
color, religion, nationality, sex, age, disability, English proficiency, or economic status.” 42
U.S.C. §5151(a) (emphasis added). The statute further requires “as a condition of participation in
the distribution of assistance or supplies” that governmental bodies “comply with regulations
relating to nondiscrimination.” 42 U.S.C. §5151(b) (emphasis added). In this case, the State of
Colorado, acting though Polis, is a “governmental body” participating in the “distribution of
assistance or supplies,” for which nondiscrimination of religion is a condition of participation. Yet,
State Defendants admit to and have been found likely to have discriminated, as discussed herein.
Regulations promulgated pursuant to the Stafford Act require nondiscrimination by “all personnel

24
25

Defendants Wolf and Department of Homeland Security.
ECF 1, cmpl, Ex 1-36, ¶14, affid Rhoads.
22
Resp. App'x 58

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 23 of 24

carrying out Federal major disaster or emergency assistance functions…” 44 C.F.R. §206.11.
Significantly, the regulations also require “[c]onfirmation that the Governor has taken appropriate
action under State law and directed the execution of the State Emergency Plan (emphasis added).”
44 C.F.R. §206.36 (c)(1). But he did not, as shown in the Motion for Temporary Restraining Order
and Preliminary Injunction, ECF 13, and in this motion.
CONCLUSION
WHEREFORE, Plaintiffs pray for an injunction pending appeal prohibiting the
enforcement of any EOs and PHOs against Plaintiffs issued subsequent to March 9, 2020 and an
injunction prohibiting Federal Defendants from providing aid to State Defendants until further
order of this Court, and that the Court will grant such other and further relief that the Court deems
just and proper.

Respectfully submitted,
MESSALL LAW FIRM, LLC
/s/ Rebecca R. Messall
Rebecca R. Messall, CO Bar no. 16567
7887 E. Belleview Avenue, Suite 1100
Englewood, CO 80111
Phone 303.228.1685
Fax 303.228.2281
Email: rm@lawmessall.com
Bergford Law Group, LLC
J. Brad Bergford, CO Bar no. 42942
Attorney at Law
7887 E. Belleview, Suite 1100
Englewood, CO 80111
Phone: 303.228.2241
Fax: 720.815.0700
Email: brad@lawillumine.com
Attorneys for Plaintiffs

23
Resp. App'x 59

Case 1:20-cv-02362-DDD-NRN Document 98 Filed 01/02/21 USDC Colorado Page 24 of 24

CERTIFICATE OF COMPLIANCE
This pleading exceeds the 4000 word limit contained in Judge Domenico’s Practice
Standards III, A(1), having approximately 7,088 words, and is the subject of a Motion for Leave
to File Excess Words, filed herewith.
s/ Rebecca R. Messall
Rebecca R. Messall
CERTIFICATE OF SERVICE
I hereby certify that on January 2, 2021, I caused to be electronically filed the foregoing
document with the Clerk of the Tenth Circuit Court of Appeals, using the electronic case filing
system of the court, which will send a “Notice of Docket Activity” to attorneys of record who have
consented in writing to accept service of this document by electronic means.
Grant.Sullivan@coag.gov
Eric.Kuhn@coag.gov
Ryan.Lorch@coag.gov
Correlle.Spettigue@coag.gov
Kyle.Brenton@usdoj.gov
Jason.Lynch@usdoj.gov
/s/ Rebecca R. Messall
Rebecca R. Messall

24
Resp. App'x 60

This is a reproduction of a library book that was digitized
by Google as part of an ongoing effort to preserve the
information in books and make it universally accessible.

https://books.google.com

Resp. App'x 61

в

1,324,963

Resp. App'x 62

SIT

Y

M
OF
181

D)

TH

E

M

LIBRARIES

M

UNI
VER
SIT
I

OF

EN
U

OF

I
SIT
VER
UNI LIB1811
RARIES

E
TH

BE

M

MICHIGAN.

THE

MICHIGAN

AIIS ษ์

LIBRARIES

M

8

LIBRARI
BE

KLI

Wycin

/ BRARIES

OF
O

RSI

S

IN
A
L
I
ST

. CHIGAN
MI

V

11

UTHE

MIC

VER

Y

T
RE SI

UNI

M

UNI

LIBRARIES

JE

THE
UN

HIGAN.

GAN

M

M

OF
ID

N

. HIGAN
MIC

UNS
THE

THE

THE
UN

THE

US

LIBRARIES

U
LLIS
OF

Resp. App'x 63

R

LIB

1811

I
SIT
VER
UNI LIBRAR
BE

M

CHIGAN

OF

MICHIGAN

V

UNI

ICHIGA

MICHIGAN

SI
E
TH

I

T
RE SI

BE

LIBRARIES

M

M

VER

LIBRARIES

OF
SIT,
VER
UNI LIBRARIES

M
UNI

UN

NICHIGAN

LIBRARIES

LU

W

LL

9

SHI

M

OF

THE

A

,

M

VHO

SRICHIGAN

OF

S

R
VE

UN

KIS

S

JE

S

N
BU AI

THE

THE

CH

MICHIGAN.

SITY OF

I

S
VI ER

TY OF
)

ERSI

I
TICH

VER

UTN

MICH

M

UNI

U
THE N

HE

THE

IGAN

GAN

W

JO

SIT

LIBRARIES

GC
MICH.IAN

VER

UNI

VER

SIT

1817

LIBRARIES

Y

OF
HE
UNI

OF

M

VER

THE

LIBRARIES

M

UNI

E
THE UN

TH·E

UNI

MICHIGAN

Y
T
I
S
VER

RRICHIGAY

UNI

THE

1811

SIT

I

I
WT

THEU

M

i

BE

j

THE

RICHIGAN

OF

SIZ
OF

FICHIGAN

THIT
E
UN

UNI

M

VER

T· HE

1811

SIT

LIBRARIES

M

I
OF

MICHIGAN

BE

THE

THE

BE

CA

MI

1811

M

9
1811

M

LIBRARIES

OF

TY

Resp. App'x 64GRSI

OF )

THE

N

VE

IND

OF

CELA

RS

MICHIGAN

SEMI

JA

1817

Y

IT
S
R
E
TV

MICHIGAN

OF

LIBRARIES

M

M

I
SIT
VER
UNI LIBRARIES

OF

1811

V

I
SIT
VER
UNI LIBRARIES

IT
ERS

MICHIGAN

Y

THE

MI

2187

W

UNI

OR

CHIGCAN

JN

MICHIGAN.

N

A
SAM

THE.
917

. CHIGAN
MI

Y

IT
S
R
E
IV

Resp. App'x 65

Resp. App'x 66

Resp. App'x 67

Volume One
DISASTER PREPAREDNESS

Resp. App'x 68

" .. . we will seek to set clear and intelligent targets for re
search and development, so that our resources can be
focused on projects where an extra effort is most likely to

produce a breakthrough and where the breakthrough is
most likely to make a difference in our lives. Our initial

efforts will include new or accelerated activities aimed at . . .
reducing the loss of life and property from earthquakes,
hurricanes and other natural disasters . . . "

President Richard Nixon
" State of the Union "

January 20, 1972

Resp. App'x 69

Report to the Congress

DISASTER
PREPAREDNESS

Executive Office of the President

United States,Office of Emergency Preparedness

January 1972

Resp. App'x 70

HV

555
: 05
A48
1972 b
vi

Disaster preparedness is a task never completed. It represents an
unbroken chain stretching from prevention through ultimate recovery and

requires continuous effort at all levels of government.
George A. Lincoln, Director

Office ofEmergency Preparedness
Executive Office of the President

Resp. App'x 71

Gene of hin

E

EXECUTIV

T

N
OFFICE OF THE PRESIDE

D Y THE
E
DEMOTE
UNITED STATES OF AMERICA

OFFICE OF EMERGENCY PREPAREDNESS
WASHINGTON , D.C. 20504

5: 25/2

OFFICE OF THE DIRECTOR

Honorable Spiro T. Agnew
President of the Senate

Honorable Carl Albert

Speaker of the House of Representatives
Sirs :

I am pleased to transmit to the Congress the enclosed report on Disaster

Preparedness in response to Section 203(h) of Public Law 91-606 .
The report reflects a comprehensive study of the types of major natural
disasters experienced in the United States and offers findings and potential
solutions to prevent or minimize the loss of life and damage to property .
In the preparation of the study, careful consideration has been given to the
views of Federal agencies, State and local governments , professional and
trade associations, research and academic institutions, private volunteer

organizations, and individual experts . The final analysis and findings,
however , were developed independently by an Office of Emergency
Preparedness Disaster Study Group under my direction .
The main thrust of this report points to the need for improvement in
disaster preparedness at all levels . The findings contain potential initia
tives for moving further toward an improved , concerted national disaster

preparedness program. I commend them to the attention of the Congress;
however , they should not be viewed as specific proposals for legislation
or funds .

I am providing the report to all Federal agencies having an interest in the

findings, with a request that each agency consider those pertinent to its
responsibilities in the preparation of present and future programs . I
have requested that these agencies keep my office informed of actions
related to the findings , so that we may have a systematic record of

progress in the field of disaster preparedness.
Respectfully ,

G. a. Lincoln
G. A. Lincoln

Director
Enclosure
Resp. App'x 72

Resp. App'x 73

Acknowledgments
This report to the Congress has been prepared by the

Irwin , Charles May , Beverly Rosenberg, Michael Tansey,

Office of Emergency Preparedness PL 91-606 Disaster

Stephen Teichler, Timothy Vanderver, and Forrest
Waller. Special mention is due Helen Makuck , who

Study Group. The Study Group was appointed by
George Lincoln , Director, Office of Emergency Pre
paredness, and operated under the general supervision of
George Grace, Assistant Director for Disaster Programs.

served as my administrative assistant.

Consultants to the Study Group were Charles Fritz
( National Academy of Sciences and formerly with the

Authors of Volumes One and Three were Frank

Institute for Defense Analyses), J. Eugene Haas (Univer

Bourgin , Rutlage Brazee, Charlene Dougherty , Gerald

sity of Colorado ), and Karl Steinbrugge (University of

Fauss, Don Hammonds, Warren Hannum ,
Isemann , Richard Letaw , Francis Manda,

California , Berkeley).

Frank
Philip

Contributing to the study were more than a hundred

McIntire, Charles McIntosh , Ugo Morelli, Marshall

Federal agencies, State and local governments, profes

Sanders, Raymond Stralka, and Robert Schnabel. Prep
aration of Volume Two was directed by Frederick
Zimmermann for the Council of State Governments. Its

sional and trade associations, and volunteer disaster

inclusion in this Report is not necessarily an endorse
ment of all its particulars.
Editors of the report were Ernest Atkin , Douglas

While the report largely reflects the substantial
contributions of the many participants, the final anal

Brown, Don Carbone, Francis Manda, Ugo Morelli,

relief organizations. Specific contributing organizations
are gratefully recognized and acknowledged below.
yses and findings of the report are attributable to the
Study Group alone.

Marshall Sanders, and Robert Schnabel. The following

reviewed and commented on the manuscript: William

Robert E. Schnabel

Crockett , George Grace , Raymond Karam , James Lewis,
Haakon Lindjord , and Spence Perry .
Other members of the Study Group who conducted
research and analyses were : Irving Goodman, Nancy

Director, Disaster Study Group
Office of Emergency Preparedness

January 1972

Contributors to the Study
Bureau of Land Management

Federal Agencies

Bureau of Reclamation

Executive Office of the President:
Office of Science and Technology
Office of Telecommunications Policy

Bonneville Power Administration

Department of Agriculture:
Farmers Home Administration

Department ofDefense :
National Communications System

Forest Service
Rural Electrification Administration

Department of the Army

Soil Conservation Service

Office of Civil Defense

Corps of Engineers
Department of the Navy

Food and Nutrition Service

Department of the Air Force
Civil Air Patrol

Federal Crop Insurance Corporation

Agricultural Stabilization and Conservation Service
Department of Commerce:

Department of the Interior:
Office of the Deputy Assistant Secretary for Terri
torial Affairs

Bureau of Domestic Commerce

Economic Development Administration
Maritime Administration

Office of Oil and Gas

National Bureau of Standards

Geological Survey

National Oceanic and Atmospheric Administration
vii

Resp. App'x 74

DISASTER PREPAREDNESS : VOLUME ONE

viii

Department of Labor
Department of Health, Education , and Welfare :
Public Health Service
Food and Drug Administration
Health Services and Mental Health Administration
Office of Education
Social and Rehabilitation Service
Department ofHousing and Urban Development:
Federal Housing Administration
Federal Insurance Administration
Department of Transportation :
Office of Emergency Transportation
U . S . CoastGuard

American Forestry Association
American Geological Institute
American Geophysical Union
American Hospital Association
American Institute ofMedical Climatology
American Insurance Association
American National Standards Institute

American Nuclear Society
American Psychiatric Association
American Public Welfare Association
American Public Works Association
American Society of Agricultural Engineers
American Society of Civil Engineers

American Society of Planning Officials
American Society of Safety Engineers

Federal Aviation Administration

Federal Highway Administration
Atomic Energy Commission

American Veterinary Medical Association
Association of American Railroads
Associated General Contractors ofAmerica

Environmental Protection Agency
General Services Administration
Interstate Commerce Commission

Edison Electric Institute

Forest Industries Radio Communications
IndependentNaturalGas Association
Institute ofMakers of Explosives

National Aeronautics and Space Administration
National Science Foundation
Small Business Administration

Smithsonian Institution :
Center for Short-Lived Phenomena
Science Information Exchange
Tennessee Valley Authority
Federal Council forScience and Technology, Interdepart
mental Committee for Atmospheric Sciences

National Academy of Sciences -National Academy of
Engineering - NationalResearch Council

(Including 31 Boards and Committees)

Legislative Council for Photogrammetry
Manufacturing Chemists' Association
Mobile HomesManufacturers Association
National Air Tankers Association
National Association of Fire Investigators
National Association of Independent Insurers
National Association of Insurance
National Conference of Standard Laboratories
National Council on Radiation Protection and Measure
ments

National Forest Products Association
NationalGeographic Society

State and Local Agencies

Alaska State Housing Authority

National LP-Gas Association

Council of State Governments

National Safety Council
National Society ofProfessional Engineers
National WaterwaysConference, Inc.
Rachel Carson Trust for the Living Environment, Inc.
Reinsurance Association of America
Structural Engineers Association of Southern California
Transportation Research Foundation
U . S . Committee on Large Dams of the International
Commission on Large Dams
U . S . Independent Telephone Association
Urban Land Institute

County of San Diego

National Association for Port Authorities
National Association of Insurance Commissioners
National Association of State Foresters
National League of Cities
National Waterways Conference

Port of Cleveland

U . S. Conference ofMayors
Institutions and Associations
American Association of Blood Banks
American Association of Public Health Physicians

Water Pollution Control Federation

American Chemical Society

Volunteer Disaster Relief Organizations

American College of Surgeons

The American National Red Cross
The Salvation Army

American Congress on Surveying and Mapping
American Forest Institute

Resp. App'x 75

Contents of the Report
Volume One

Letter of Transmittal
Acknowledgments .

vii

PART I.

INTRODUCTION

1

PART II.

SUMMARY OF FINDINGS .

3

PART III.

DISASTER PROTECTION .

7

Chapter A. General Measures

9
15

Chapter B. River Floods
Chapter C. Tornadoes and Windstorms

35

Chapter D. Hurricanes and Storm Surges
Chapter E. Forest and Grass Fires

47
57
73

.

Chapter F. Earthquakes
Chapter G. Landslides

87

Chapter H. Tsunamis

91
103
107
115

Chapter I. Volcanoes
Chapter J. Frosts and Freezes
Chapter K. Droughts
PART IV .

DISASTER MITIGATION .

Chapter A. Land Use and Construction
Chapter B. Disaster Insurance

123
.

Chapter C. Weather Modification .
PART V.

APPLICATION OF SCIENCE AND TECHNOLOGY

Chapter A. Research
Chapter B. Evaluation
PART VI.

125
135
147
153

155
161

HISTORICAL DATA

165

Chapter A. Disaster Legislation

167

Chapter B. Selected Statistics

175
185

Bibliography

Resp. App'x 76

X

DISASTER PREPAREDNESS :
Volume Two

PART VII. EXAMPLE STATE DISASTER ACT OF 1972

1

Volume Three
PART VIII. PHYSICAL STUDIES

.

.

Chapter A. River Floods

1
3

Chapter B. Tornadoes and Windstorms
Chapter C. Hurricanes and Storm Surges
Chapter D. Forest and Grass Fires

Chapter E. Earthquakes
Chapter F. Landslides
.

Chapter G. Tsunamis

Chapter H. Volcanoes
Chapter I. Frosts and Freezes .
Chapter J. Droughts ..

Resp. App'x 77

27
39
53
71
89
99

115
123
133

VOLUME ONE

PARTI

INTRODUCTION
On December 31 , 1970, the President signed Public

lems posed by these disasters, together with the asso

Law 91-606 , the Disaster Relief Act of 1970. In addition

ciated countermeasures, reflect these differences.

to providing for a comprehensive program of assistance

Reprinted in Volume Two as Part VII of this report is
the Example State Disaster Act. It consists of model
legislation , with an Introduction and section -by -section
Commentary , prepared by the Council of State Govern
ments especially for this study. It is a product of the
Council's detailed evaluation of disaster preparedness in
each State and separate jurisdiction. The Example Act is

in major disasters, the Act, in Section 203(h ), directed
that a full and complete investigation and study be
conducted to determine what additional improvements
could be made to prevent or minimize the loss of life
and property due to major disasters.
The President in his State of the Union Message to

Congress on January 20, 1972, did state that the
Administration's efforts for marshalling science and
technology will include new or accelerated activities
aimed at reducing the loss of life and property from
earthquakes, hurricanes, and other natural disasters. The
expanded activities, as set forth in the President's FY

also the subject of a special Council of State Govern
ments report, 1972 Suggested State Legislation.
The suggestions by the Council for legislative action
to eliminate shortcomings in State and local disaster
preparedness complement nationwide measures at the
Federal level.

1973 budget, stemmed from a major review by the Ad
ministration during the past year of the problems and
opportunities for American technology .
This report by the Director of the Office of Emer

Volume One, organized into six parts and 18 chap
ters, contains the analyses and findings of the study with
regard to the current status and the possibilities for

gency Preparedness is in response to the Congressional

Nation .

requirements in PL 91-606 ; it has drawn significantly on
that Administration review and is a contribution to the

Following this Introduction (Part I), a Summary of
Findings (Part II) covers the general conclusions of the
study . It stresses the overall theme of partnership among

disaster preparedness program outlined in the State of

improvement of disaster preparedness throughout the

the Union Message.

Federal, State , and local governments in achieving

The report was prepared by an ad hoc study group
appointed by the OEP director, George A. Lincoln . The

improved disaster preparedness and presents major find

study group conducted an intensive analysis of the
nature of natural disasters occurring in the United States
and the programs, both governmental and private, for
protecting life and property in disasters. The report
reflects contributions by and consultations with Federal,
State, and local agencies; professional institutions, asso
ciations, and experts; and private volunteer disaster relief
organizations. The findings are those of the Director of
OEP .

Ten types of natural disasters are examined in this
report : river floods, tornadoes and windstorms, hurri
canes and storm surges, forest and grass fires, earth
quakes, landslides, tsunamis, volcanoes, frosts and
freezes, and droughts. Their causes, effects, and occur
rences and the means for coping with them are discussed
in the 10 chapters comprising Part VIII and published in
Volume Three. These chapters are intended to provide a

fuller appreciation of the differences among the various
phenomena and specific disaster occurrences. The prob

ings relevant to the roles of government, science , and the
public.
Part III consists of 11 chapters on Disaster Protection

based upon vulnerability prevailing in the United States.
One chapter deals with general measures applicable in all
cases; the others deal with the specific measures for each
of the 10 types of disasters covered in this study.
Particular attention is given to ( 1 ) vulnerability, (2)

prediction and warning capabilities, (3) preventive meas
ures, and (4) preparations and readiness for govern
mental and public response to disasters. Considerable

disparity exists among the types and frequencies of
disasters and among the requirements and capabilities of
the States and localities. However, several exemplary

localized measures are highlighted for wider application.
Part IV , three chapters under the heading of Disaster

Mitigation, concerns measures which may be taken to
reduce the vulnerability of life and property to natural
disasters. Regarding land use and construction , these are

relatively long-term measures aimed at stricter local

Resp. App'x 78

DISASTER PREPAREDNESS : VOLUME ONE
regulation to bring about greater hazard reduction .
Disaster insurance is examined in connection with

hazard reduction objectives ; it is found to be a potential
incentive under certain conditions but a disincentive

under others. Also discussed is the FederalGovernment's
role in weather modification to avert or dissipate certain
disaster-causing phenomena.
The application of science and technology is covered
in the two chapters of Part V . These examine the forms

and sources of disaster research , identify its potential

Included also are two chapters (Part VI) summarizing
disaster legislation and program statistics: Volume One
concludes with a bibliography of source materials used
in the study .

In summary, this report establishes a broad-based and
comprehensive analysis of disaster preparedness in the
United States. While more intensive study is needed in

several areas, a start has been made towards better
preparedness. The Office of Emergency Preparedness
has, as one of several steps, established a Disaster

amplify the relationship between research and evalua
tion . The importance of on-the-scene evaluations and

Preparedness Division to participate with other agencies
in the implementation of a coordinated and concerted
national program . To succeed, that program must have

postdisaster critiques is highlighted .

the support of the scientific and engineering professions,

contribution to disaster preparedness , and establish and

government at all levels, and the people.

Resp. App'x 79

PART II

SUMMARY OF FINDINGS
This part presents in summary form the major
findings of the study . The more detailed findings appear
in each chapter of Parts III, IV , and V.

vulnerability and to develop specific and realistic pre
paredness plans.

As populations become larger and more concentrated,
timely and safe evacuation under threat of hurricane,

Vulnerability Analysis

flood , tsunami, or fire will become increasingly difficult.

Vulnerability analysis is a prerequisite to effective
disaster preparedness. The variety in types and fre
and damage make it clear that an assessment of

Officials responsible for population centers in high -risk
locations must consider the expected warning time and
the capability of evacuation routes to handle traffic that
would be caused by mass evacuation .
The number of persons who must evacuate would
also be determined , in part, by the shelter and protec

vulnerability must be made for each community as a

tion available in the threatened area. For protection

first step in formulating regulations, plans, and programs
to reduce hazards and prepare for disasters .

from hurricanes, floods, and tornadoes much more can
and should be done to identify available public shelter
and to provide for shelter in new construction .

quency of natural disasters and the differences in effect

The assessment of vulnerability to river floods is well
advanced , but investigation shows that improvements
can be made by producing risk maps of a more useful
scale and by increasing the pace of information and
mapping programs. A program for risk mapping in
selected hurricane-prone areas has been initiated and
should be continued .

General areas vulnerable to tsunamis, ocean waves
generated in the Pacific by earthquakes, are known, but
there should be a further effort to prepare risk maps
delineating the reasonably expected limits of inundation,
particularly for populated coastlines.

Populated areas with high probability of earthquakes

Prediction and Warning
The value of past investment in prediction and
warning capabilities is clearly demonstrable. Despite the
increasing property losses, there has been a notable
decline in lives lost when such capabilities have been
established and used, notably for hurricanes and torna
does. There is, however, considerable variation in capa

bility within both the earth and the atmospheric sciences
for predicting the occurrence of disaster-causing phe

need increased seismic instrumentation to gain more

nomena.

knowledge of earthquake phenomena. With knowledge
and seismic data, specific areas of vulnerability can be

In the atmospheric sciences, despite substantial prog
ress, there is still need for better understanding of the

delineated , and a program of risk mapping can be

causes and mechanics of hurricanes and tornadoes. With

pursued as an essential first step in developing prepared

new knowledge and improved methods, hurricane pre
dictions can be significantly more accurate as to cause ,

ness plans and land-use and construction standards.

There is a need to encourage prudence in agricultural

practice and in community development in those areas
where recurring vulnerability to forest and grass fires,
frosts and freezes, and droughts is well known . Vulner

ability analysis should be taken into account before land
development begins.

landfall, and force. Emergency protection and evacua
tion, with such improvements, could be taken with
greater confidence and thoroughness. Similarly, improve
ment should be sought in predicting the likelihood of
tornadoes, as well as in detection and warning when
these sudden phenomena do occur.

Precise prediction and warning of the timing and

Over half of the population of the United States is
located on or near its coastlines, and the percentage is
increasing. These areas are the most vulnerable to

and landslides-and earthquake-generated tsunamis are

catastrophic disasters - earthquakes on the West Coast

not currently feasible, although the potential for such

and hurricanes on the Gulf and East Coasts and are
therefore being systematically analyzed to determine

disaster in many areas is known. More instrumentation

extent of earth disturbances - earthquakes, volcanoes,

for monitoring and detecting dynamic forces within the
3

Resp. App'x 80

DISASTER PREPAREDNESS :

4

earth's mantle is needed to enable better understanding

VOLUME ONE

Disaster Legislation

of these phenomena and formulation of a theory and

system for prediction and warning. While progress has
been made in instrumentation for earth disturbances, it

has not been comparable to the progress in monitoring
the atmosphere.

Since the possibility of discovering tsunami waves
generated by a distant earthquake is quite good , the

The reduction of hazards and preparedness for
disasters are government responsibilities as well as the
concerns of every citizen. For this purpose, there must
be, in keeping with the Nation's Federal system ,
appropriate disaster legislation for all levels of govern
ment. Only in this way can effective community and

well-conceived, existing tsunami warning system can be

nationwide programs be realized . Legislation is required

significantly improved with relatively minor investments
in sensors and communications. The data thus derived

to regulate land -use and construction standards, to
provide authority for prompt and effective emergency
response, and to assure cooperation and assistance

will further the needed research on tsunami phenomena
and improve predictions of wave height and landfall.

among government jurisdictions. In the past the empha

Certain types of disasters, such as river floods,

sis was on postdisaster assistance ; in the future it should

droughts, and forest and grass fires, are presaged by
discernible weather factors and changes. Similarly, hurri
cane and tornado seasons can be anticipated. For many

be on predisaster preparedness. This theme is expressed
Suggested State Legislation . It is also stressed through

of these frequently recurring natural threats, the general

out this report.

conclusion is that existing prediction and warning
systems are sound but require extension and moderniza
tion. The pertinent chapters describe the additional
facilities, equipment, sensors, and communications,

throughout the Council of State Governments 1972

Disaster Plans

of disaster-causing phenomena and enhance public warn
ing.

Planning is essential for any region or community
likely to be affected by a disaster, in order to determine
what preventive and protective measures can and should
be taken before and at the time of a disaster. Planning

Of the many problems in warning dissemination, the
most obstinate is that of speedily warning each en

requires cooperation from all levels of government. A
prerequisite to such planning is a determination of

dangered individual, particularly for tornadoes and flash
floods. A need exists for warning systems capable of

being extended directly into every home and operating

vulnerability of a given area to particular types of
disasters. In this regard, Federal agencies are helping
and can do more to assistthe States and local govern

24 hours a day to protect life in sudden disasters.

ments .

Public Information

coverage and quality. It should, above all, be more

together with associated staffing, to improve detection

(State disaster planning is found to be uneven in
concerned with the needs of local communities, with
Public awareness of the threats posed by the various
natural disasters is essential to preparing for them and

reducing their destructive effects. This awareness can be

greater emphasis on preparedness or predisaster actions.
Model or pilot plans, applicable to specific regions and
types of disasters, have proved to be useful and should

paigns should coincide with the peak time for “ seasonal "
occurrences, such as hurricanes, tornadoes, floods, and

be used more widely .
The greatest need is at the local level, and several
Federal efforts are aiding in this regard. The Corps of
Engineers, for example, has been helpful to local
communities with regard to flood preparedness, as has

fires. However, knowing about the hazards and what to
do in the event of a disaster provides only limited

NOAA in connection with hurricanes and tornadoes.
More recently , OEP has given an assignment to the

assurance that an individual will respond on the basis of

Office of Civil Defense in the Department of the Army

achieved by making information about disasters - and

what to do if one occurs -readily available and easily

understandable. Where appropriate, information cam

his knowledge. Governments and individual citizens,

to assist in the development of local disaster prepared

therefore, have a shared responsibility to create condi
tions more likely to assure public responses that will

ness .

reduce losses to life and property .

government officials, volunteers, and the public to cope

It was found that the public responds most readily to
those sources of information that are used routinely
and frequently, such as radio, television , newspapers,

better with disasters, such plans must be exercised and
evaluated. This is becoming a standard practice.

and the telephone book . For example, one page in the

Emergency Operations

To be confident that disaster planning is preparing

telephone book for Oahu provides a risk map and tells

what to do in the event of a tsunami. This simple but

It is important that government emergency response

effective procedure can be applied nationally for other
types of disasters.

to natural disasters be accomplished through existing
organizational arrangements, augmented as necessarv

Resp. App'x 81

5

II. SUMMARY OF FINDINGS

This approach should result in greater identification of
government officials with their constituencies during
times of extraordinary need. It is a logical extension of

governments' dealings with the day -to -day emergencies.
The main focus of emergency response to major
disaster should be : ( 1 ) to expand routine emergency
services, such as police, firefighting and sanitation; (2) to

and organizations. Consideration should be given to the

desirability and practicability of establishing a National
Center for Disaster Research to serve as a focal point for
liaison with the many specialized research activities.

The connecting link between new knowledge - ac

care of by himself in normal times but which have been
interrupted by the disaster, such as food, housing, and

quired through both experience and research - and im
proved disaster preparedness is evaluation . On -the - scene
disaster evaluation is essential to timely and accurate
recording of facts and lessons. With both predisaster and
postdisaster critiques as parts of an evaluation program ,

personal welfare; and (3) to make special provisions for

the basis can be laid for testing and improving prepared

medical care .

ness plans and procedures. Predisaster efforts aid in

provide those things which the individual citizen takes

There is a favorable benefit -cost ratio in taking early

measures when a disaster is imminent. Preparatory
actions taken when spring floods have been forecast have
resulted in substantial savings in postdisaster costs. For
example, Operation Foresight in 1969 had an estimated
10 -to -1 benefit- cost ratio .

Experience in fighting forest and grass fires shows
that presuppression of fires has about a 4 -to - 1 benefit- cost

assuring preparedness levels, while postdisaster critiques
assure the benefit of lessons learned from experience.
Since Hurricane Camille, postdisaster critiques have been
held more regularly and have served as important steps
in arriving at significant improvements in legislation and

in programs for preparedness and response.
Disaster Mitigation

ratio. In other words, with early detection and suppres

sion, the firefighting costs and the fire losses are
one-fourth of what they are when small fires become big
ones.

There is a need for continuous modernization of
emergency equipment and techniques. A case in point is
the air tanker fleet for aerial firefighting.

Like protection , disaster mitigation begins with an

estimate and appreciation of an area's vulnerability to
natural disasters. The objective of mitigation is to find
ways to reduce the vulnerability of people and property
to damaging effects.

It is clear that something must be done about the way
land is used, the kind of structures built on it, and the

Application of Science and Technology

materials and practices used in construction . At present,
these determinations are too fragmented among many

Research on the causes and characteristics of natural
disasters and for the protection of people and property
holds great promise and is a national imperative.

private and government agencies. Furthermore, the
government authority to regulate land-use and construc

tion practices is in the hands of many local jurisdictions
(State, county, and municipal) which are often in
fluenced by competing socio -economic interests. Hence,

The most immediate need is to apply the scientific
and technological knowledge already existing. The sheer
number and variety of disaster-related research activities
in the government and private sectors now make it
difficult to coordinate and integrate these activities.
Further development of the following actions taken
during the past year will contribute to better coordina
tion of research activities and wider application of

hazards in regulating land use and construction . Such a
national program should include ( 1 ) nationally recog
nized disaster mitigation criteria, (2) data on the

research results:

vulnerabilities of localities in disaster-prone areas , (3) a

there is a need for a national program involving Federal,
State, and local jurisdictions in avoiding the mistakes of
the past and in gaining fuller consideration of natural

• The OEP disaster research clearinghouse will enhance

national focal point for land -use planning and building

the exchange of information between the scientific
community and public officials.

standards, and (4) conditions on the use of Federal loans,

• An assessment of existing disaster -related research
activities by the National Academy of Sciences should
provide a basis for greater application of research re
sults and also help to focus future research efforts.
• The National Science Foundation , through the " Re
search Applied to National Needs " program and others,

grants, and lending guarantee powers so that local juris
dictions enact and enforce disaster mitigation regulations.
The financial losses of individuals to natural disasters

can be alleviated through insurance. Disaster insurance,

however, is often not available , because actuarially
sound rates cannot be determined on the basis of current

disaster research is needed. Most disaster-related research
in government and private research centers remains

knowledge of the risks involved . However, even when
insurance is available, individuals now tend to rely on
disaster benefits from the Federal assistance program , if
this is to their advantage, rather than on insurance.
Consequently, any Federal Government initiative to
encourage wider disaster insurance coverage should also

compartmented within the various traditional disciplines

insist that rates be based on risks or that communiti

will promote interdisciplinary disaster research and
enhance practical applications to disaster preparedness.
It is recognized that an interdisciplinary approach to

Resp. App'x 82

DISASTER PREPAREDNESS : VOLUME ONE

6

act toward hazard reduction . A comprehensive disaster
insurance program has many complex economic and
public policy implications which need further careful
study.

In surveying the causes of the natural disasters
included in this study , it was determined that in some
instances the means do now exist to prevent or alter
climatic phenomena. Experiments in modifying the
weather to reduce the wind intensity and perhaps change
the direction of a hurricane, to alleviate drought, and to

reduce a major cause of forest fires) should be pursued
with high priority. However, the " down range” effects
of weather modification are not fully predictable, and in
many cases even the immediate effects are uncertain .
Weather modification is a new and promising enterprise,

offering untold possibilities but also unforeseen con

sequences. The possibilities and the consequences give
rise to the need for management; because of interstate
and international ramifications, consideration should be
given to an expanded Federal role .

reduce the lightning from cumulus clouds (and thus

Resp. App'x 83

PART III.

DISASTER PROTECTION
events, it is clear that certain preparedness measures will

Federal, State, and local government programs con
cerned with preparedness for and emergency response to

afford protection in greater or lesser degree in different

disasters are discussed under this general heading of

types of disasters. At the same time, it is also clear that

Disaster Protection . These programs involve general and

the differences among the types of disasters dictate
identification of the special measures required for

specific measures to cope with the existing vulnerability
of people and property to disaster occurring in the
United States. In Part IV , Disaster Mitigation , considera
tion is given to measures to reduce such vulnerability.
This rather arbitrary distinction between protection and
mitigation is made to emphasize better the elements of a
comprehensive approach to disaster preparedness.
In studying the natural disasters which occur in the

protection against each . General and special measures

alike are needed for optimum protection .
Of the 11 chapters in this part of the report, one is
devoted to General Measures and the others discuss 10
specific types of natural disasters in terms of prevention
or control, prediction and warning, preparedness plans,

and emergency response by government and the public .

United States and the existing vulnerability to these

Resp. App'x 84

Resp. App'x 85

Chapter A. General Measures
Disaster protection begins with recognition and un

derstanding of the kinds of natural disasters likely in a
given area and the vulnerability of the area to those
disasters. Based on this understanding, all levels of
government can establish objectives for achieving protec

Bay area . This analysis is a prototype study that might
be applied to all locations with earthquake potential as
well as form the basis for coordinated earthquake
preparedness planning by Federal, State, and local
governments.

tion against the threats. Under the Federal system of

While vulnerability studies are discussed more fully in

government it is essential that the disaster preparedness

succeeding chapters, it is important to realize that
vulnerability analysis is essential for development of

programs be a cooperative and concerted effortinvolving
Federal, State, and local government. Programs resulting

plans for disaster protection and preparedness.

from such cooperative effort require the application of
science and technology , development of plans and
organizations, allocation of resources, and education of
the public.

Disaster Planning

Vulnerability Analysis

provided matching funds for the development of State
disaster plans. wer than one- third of the States were

There has been insufficient attention to systematic
analysis of the vulnerability of communities or larger
jurisdictions to natural disasters. As a consequence, State

participating by the end of 1971. There are many

and local governments are often not as well prepared to

wait for legislative action, and some States have limited

cope with natural disasters as they could be. For
example, some States' natural disaster plans are pat
terned after civil defense plans for recovery from nuclear
attack - plans that assume outside help would not be
available (because the whole country would be stricken )

Since October 1969 , the Federal Government has

reasons for this lack of participation : some States
consider their plans to be adequate, some States must

funds available for this purpose. In 1971 , OEP con
tracted with the Council of State Governments to

prepare an “ Example State Disaster Act " (now part of
the Council's 1972 Suggested State Legislation and also
included in Part VII of this report) and “ Guidance for

and evacuation would not be feasible (because of the

State Disaster Planning.” The latter includes selections

lack of mobility due to nuclear damage and radioactive

from various existing State plans to illustrate exemplary
features, with special emphasis on those that reflect
lessons learned from experience.
Concurrent with initiation of the earthquake vulnera

fallout). In natural disaster planning, the opposite
assumptions apply : outside help could be made available
immediately; there would be time to evacuate , if
necessary , and a place to go to; and movement would
not be impeded (as by nuclear damage and radio
activity ).
Federal programs now underway can assist State and
local governments in determining their disaster vulnera

bility. For example, the Corps of Engineers will prepare
an analysis of a community's vulnerability to floods and
suggest measures which can be taken locally ; the
decision to take measures based on the analysis rests
with the local government.

bility analysis, mentioned above, OEP has issued an

“ Outline Plan for Federal Response to a Major Earth
quake. ” This planning document establishes planning
assumptions and assigns planning responsibilities to
Federal agencies. Upon completion of the earthquake
vulnerability analysis, OEP will take steps to promote

coordinated preparedness planning by Federal, State,
and local agencies. This is viewed as the pilot project in
integrated national planning for disasters.

Local plans and procedures to cope with disasters,

The National Oceanic and Atmospheric Administra
tion (NOAA) is conducting vulnerability surveys of
coastal communities with high risk of hurricanes and
providing advice for local disaster planning; again , action
pursuant to this advice must be initiated by the local
government. Also , NOAA , under contract with the

Office of Emergency Preparedness (OEP ), is making an
earthquake vulnerability analysis of the San Francisco

large and small, are the keystone to the protection of life

and property. However, few local governments can by
themselves effectively prepare for, and cope with , major
disasters; they need State and Federal assistance in

preparation and recovery. Accordingly, local disaster
plans should begin with an assessment of local capa
bilities for dealing with day -to -day emergencies; this
constitutes a baseline . Then , local plans should identify
r

Resp. App'x 86

10

DISASTER PREPAREDNESS :

the major areas in which they will need local augmenta
tion and outside assistance. Further, such planning

VOLUME ONE

the following chapters show , the nature of the disaster
and the timeliness of warning are basic considerations in

should establish methods of coordination and control so

the development of an effective disaster preparedness

that outside assistance can be efficiently applied .

program .

Especially pertinent to an assessment of local govern
ment's role in disaster preparedness are the ideas
expressed by Mayor Edwin W. Wade of Long Beach ,
California , in a recent speech describing that city's
program . Excerpts from those remarks are included
under Notes at the end of this chapter.
In the final analysis, all levels of government share
responsibility for the development of mutually support

Warning involves technological problems: ( 1 ) moni
toring and detecting the precursor signs and signals of a

accuracy vary widely with different types of disasters
from virtually no practical warning capability in the case
of earthquakes to rather significant capabilities in the

ing disaster plans. OEP regards this premise as a basic

case of hurricanes. Whatever the state of the art, timely

principle for an integrated national disaster preparedness
program . In this connection, OEP is establishing a
coordinated Federal program , involving NOAA , the

are central objectives.

developing disaster threat, (2) calculating and forecasting
the time and place of the event, and ( 3 ) transmitting the

warning to officials and the public. Timeliness and

and accurate warning and appropriate public response

Corps of Engineers, the Office of Civil Defense (OCD ),

OTP has conducted an intensive study to determine
what technological improvements could be applied to

and other agencies, to provide specialized assistance in

natural disaster warning as well as enemy attack. The

the development of local disaster preparedness plans.

study recognized the desirability of implementating a
national system to give a continuous capability for direct
warning of the public. To this end, a program of studies
and tests will be conducted to provide such a system and

In addition to the overall integrated national disaster
plans, the following specialized supporting national plans
have been or are being prepared:

• Plan for Communications Support in Natural Dis

to assure that the cost of home receivers is brought

asters. Joint efforts by OEP, the Office of Tele
communications Policy (OTP ), and the Executive Agent
for the National Communications System culminated in
1971 in the development of a national plan for

within reach of the general public.

Emergency Resources

communications support of Federal emergency response
to major disasters. The plan prescribes the procedures

Natural disasters may often overwhelm local re
sources but are unlikely to overtax the Nation's re
sources. Because of the ready availability of outside

for establishing communications to be used in coordinat
ing Federal assistance to State and local governments

asistance in natural disasters, it is more important to
plan for receiving and distributing supplies from outside

when a major disaster threatens or occurs.
• National Search and Rescue Plan . The Departments
of Defense , Commerce, and Transportation , the Federal

Communications Commission, and the National Aero
nautics and Space Administration coordinate their re
sources and responsibilities for emergency search and res
cue (SAR) operations under a national SAR plan. The Air
Force, Navy , and Coast Guard are the principal operat
ing agencies. The SAR plan was last revised in 1969 and
provides for coordinated sea and air operations in

than to stockpile emergency supplies within a potential
disaster area . An important exception is medical supplies;
their immediate availability can be crucial. Packaged
Disaster Hospitals, Natural Disaster Hospitals, and Hos
pital Reserve Inventories have been positioned through
out the country to supplement normal medical resources.
Also , OEP and the Department of Housing and Urban
Development are investigating the feasibility of stockpil
ing emergency and temporary housing resources .

natural disasters and other emergencies.

• Multi-Hospital Disaster Plan. The San Fernando earth

Emergency Organization

quake proved the lifesaving value of a coordinated area
medical plan that had previously been established on

The key to effective organization for response to

a voluntarily basis by a number of hospitals in Los

natural disasters or any other emergency is simply to

Angeles County. The experience of these hospitals
has been reported in a film , “ Date With Disaster," which

accelerate and reinforce existing, practiced governmental
functions. An emergency is not the time to introduce a
new and unfamiliar apparatus for coordination and
control. The public looks to established political author
ities to act quickly and effectively in an emergency.

depicts the development and execution of their plan.
OEP has made this film available to communities and

hospitals across the country as an example of what can
be done through cooperative action.

OEP, on the basis of its experience in Hurricane
Camille, has developed a concept for a field organization
in which normal staffs are augmented by representatives
of the principal Federal agencies involved in disaster

Disaster Warning
Timely and accurate warning is a major factor in the
protection of life and property in natural disasters. As

operations and recovery assistance. This procedure has
been practiced in subsequent disasters and was further

Resp. App'x 87

III. DISASTER PROTECTION - A . GENERAL MEASURES
tested in carrying out Phase I of the Economic Stabiliza
tion Program in 1971. The concept is similarly applica
ble to State and local governments in meeting the
emergencies of natural disasters.

the establishment of priorities for their use. This, in
turn, may require governmental officials, particularly at
the local level, to exercise unusual control over, or

assume the responsibility for, services normally provided
by nongovernmental entities. Authority for these emer

Public Information

gency actions, with such limitations and constraints as
individual conditions dictate, should be included in State

An informed public is essential to successful disaster

practical difficulties raised by information and warning

and local disaster acts and ordinances.
The Council of State Governments is devoting sub
stantial attention to State legislation . The Example State
Disaster Act is included in the Council's 1972 Suggested
State Legislation and will be the basis of a concentrated

programs. For example, it is expensive in time and

effort by the Council to update State disaster legislation .

money to maintain a public alert for a disaster that does

The Example Act emphasizes the need for State pre
paredness actions and leadership , as well as for continu
ing and strengthening the authority of the Governor to
respond to disaster emergencies. As part of its effort, the

protection and preparedness. The public must know
when and how to prepare for an imminent disaster and

what to do if it occurs. Unfortunately , there are

not happen , and such false alerts degrade public con
fidence in warnings. Or, as in the case of tsunamis, the
alert may cause a curious public to endanger itself in its
desire to see “ the big wave.” Elements of an effective

public information program can sometimes be quite

Council will assist States in analyzing their legislation
and in drafting legislation to amend or augment existing

simple ,for example ,pages in the Oahu,Hawaii,telephone

State laws.

book giving ready reference for the tsunami danger area

and evacuation routes. Infrequent disasters require theo
retical explanations and case histories beyond the

public 's experience.

Findings
1. Disaster vulnerability analysis is a prerequisite to

On the other hand, there are natural dangers - such as
tornadoes and hurricanes— which occur more frequently
in a given area and whose approach can usually be

witnessed, thereby reinforcing the urgency of the warn
ing. For these hazards, public knowledge and alertness
can be reinforced as the season approaches. Thus, public
information programs, to be effective, must be con
ceived for each individual type of disaster and for the
particular threat to the community.

formulating effective State and local disaster prepared
ness plans and programs. The U . S . Army Corps of
Engineers is doing such analysis with regard to floods, as
are the Forest Service and Bureau of Land Management
for forest fires and the National Oceanic and Atmos

pheric Administration for hurricanes. The OEP-NOAA
earthquake study is designed to provide a prototype
vulnerability analysis regarding earthquakes. These
activities should be continued and should include other
types of disasters that pose a high threat to life and
property .

Disaster Legislation
Federal legislation has generally kept pace with the
growing problems of disaster. (See Disaster Legislation ,

2. Disaster preparedness plans and programs ofmany

Part VI, Chapter A ). This has not been the case with
most State and local governments. State disaster laws

States and localities need to be improved. To help
accomplish this, PL 91-606 authorized matching funds

have been changed in relatively few instances over the

for the development and maintenance of State disaster
plans. The recent steps by OEP and the Council of State
Governments to provide guidance and encouragement to
the States to upgrade State and local disaster plans, with

past two decades.

Most legislative effort hasbeen directed to emergency
measures in reaction to particular disasters ; only recently
has significant attention been given to State and local
legislation intended to avoid or prepare for disasters.

greater emphasis on preparedness , should lead to com
munity and nationwide improvements.

While continued attention must be given to strengthen

ing State and local capabilities to react swiftly and
effectively to disaster events, the primary thrust of
legislative effort in the next few years should be aimed
at enactment of land-use controls for areas particularly
susceptible to disasters and enactment of building

standards for structures subject to specific disaster

threats. (See Land Use and Construction , Part IV ,
Chapter A .)
In general terms, effective response to disaster re-

quires emergency allocation of resources and funds and

3. Public information is a vital element of disaster
preparedness. The most effective programs provide for
quick and easy reference to essential information by the
public when a disaster is imminent or occurs. Pages in
the telephone book and emergency radio and TV
broadcasts have been used effectively for this purpose in
some areas and some types of disasters. These examples
illustrate standard practices that should be developed in
all regions for the sudden and life -threatening types of

disasters they can expect.

Resp. App'x 88

12

DISASTER PREPAREDNESS : VOLUME ONE

4. The " Example State Disaster Act" formulated and
suggested by the Council of State Governments for
action in 1972 provides an excellent model for updating
State disaster legislation and enhancing disaster pre

paredness by all levels of government. The Council's
subsequent program to assist individual States in drafting

applicable legislative provisions should further enhance
attainment of this objective.

Notes

The following excerpts are from an address on Anti-Disaster
Measures in Cities by the Honorable Edwin W. Wade, Mayor of
Long Beach , California , at the Second Plenary Session of the
Japanese -American Conference of Mayors and Chamber of

Commerce Representatives at Kyoto , Japan, October 23, 1971 .
( The entire text is available from OEP upon request. )

They, in turn , are pledged to help us if and when we, too,
require such assistance.
Maintaining a high degree of disaster readiness, however, is

largely a question of attitude, and the building of a proper
attitude throughout the city governmental structure begins at
the top where policy is established . It isn't enough for the

legislative body of the community , in our case the City Council,
to only pass an ordinance establishing an emergency prepared
ness program . The City Council must show an interest in the
The City of Long Beach , which I represent, has made a

concentrated effort during the past decade to develop an

ongoing activities as well. It should require a good disaster plan
to be submitted for its approval. It should insist that the plan is

emergency preparedness program . I am satisfied that what we
have accomplished will be of great benefit in a serious

not only kept up to date , but fully utilizes the available

emergency, but the more I researched this subject in preparation
for making this presentation today, the more I have become

city personnel to receive a reasonable amount of training in
carrying out their disaster assignments and insist that such
training be realistic and of a team -building character. Disaster

aware that much of the capacity inherent within our cities to
deal with disasters lies dormant. I realize that even in the City of

resources as well. The Council should also make it possible for

exercises should be held periodically....

Long Beach much remains to be done before we can say that we
have developed maximum readiness to help ourselves in time of
disaster.

This matter of self-help is crucial to the development of a
sound nationwide emergency preparedness program , because if a
city is not willing to develop a capability of sustaining itself in a
disaster situation then it must prematurely call for help from the

a well -protected emergency operating center where timely
decisions based on accurate information can be well coordinated

outside. This process of determining when, how, and from whom

and then disseminated . It is here at the Emergency Operating

to request help uses up time, and time is a precious commodity

Center where actions are taken to ascertain what resources are

when citizens are in peril. Many lives can be lost in the confusion
and disorganization that accompanies the lack of a full planning

available, where key officials with these various resources at their
immediate command can put their heads together and make the

In my judgment, it is essential to have a central place such as

extraordinary judgments required to overcome the extraordinary

effort.

A city that fails to make a reasonable effort to develop its

own capacity for survival thus allows itself to become a burden
upon the higher echelons of government which must come to the
rescue, and too often the rescue becomes a salvage type
operation.

As I see it, every community has a choice to make, which,
simply stated , is whether in time of emergency it chooses to be
an asset to itself and its nation or whether it is willing to be a
liability . I seriously doubt if there are many, if any , cities in
either of our two great countries that can honestly say that they

problems which make a disaster a disaster.
I do not think I can put too much stress on the need for good
communications because without it you cannot even get started .

In Long Beach, we tie our key hospitals into our radio system.
We also work closely with our extensive group of amateur radio
operators and with certain critical industries. But no communica
tions system is complete unless it also provides a means to

broadcast important information and instructions to the
public ....

have fully developed their potential for the protection of life and
property. I'm talking about the full utilization of resources that
stand available within our communities but which lie dormant

simply awaiting the type of organization and planning that will
take full advantage of the existing potential.
Sustaining a high degree of readiness, of course, is noteasy.
There are expenses involved, but in Long Beach we have found
that the cost need not be burdensome. Our full time emergency
preparedness staff is quite small. We take advantage of the

We accept the fact that good training offers the greatest
return for the time and energy invested ; and for that reason,
merits the greatest staff effort.

You might be interested in our plans for providing shelter for
people rendered homeless due to disaster. Of course , we count
heavily on the Red Cross to furnish the leadership and much of

the staffing, but we do not feel that it is proper to just dump the

incentives offered by the Federal Government to communities
willing to achieve the eligibility standards imposed as a condition

whole load in their laps. Our planning is worked out jointly as a

for receiving such assistance. The staff in Long Beach is a
coordinating group working in a staff capacity for the City
Manager with the mission ofdeveloping a maximum coordinated

the city's entire roster of recreational employees and librarians.
This makes a total staff of over 1,000 trained personnel

disaster readiness effort within the total structure of city

team effort. We augment the Red Cross staff by making available
immediately available to man sufficient predesignated elemen
tary schools and recreational centers to house 10,000 disaster

government with such augmentation as needed from the private

victims. All of the assigned facilities have cafeterias, toilets, and

sector.

Recognizing that there are limits to what a city can do to
help itself, Long Beach is a part of a master mutual aid plan

sleeping space to house the homeless in reasonable comfort. If
necessary , the city's entire system of school facilities can be
made available and with additional staffing provided by the

which pledges its help to sister communities when, because of

various school faculties, it would be possible to house at least

the si-

the catastrophe, they have a need for outside help.

100,000 more people . ...

Resp. App'x 89

13

III. DISASTER PROTECTION - A . GENERAL MEASURES

*

*
本

*

Camille, we have witnessed in the United States a series of

legislative acts which have greatly expanded the Federal role in
The need to shelter a large mass of people, of course, would

major disasters. The latest such legislation known as the Disaster

mean that a sizable area of the city has been devastated. Under

Relief Act of 1970 considerably increases the scope of federal

these conditions, our city ordinance provides for either the City

Manager, in his capacity as Director of Emergency Services, or
the City Council to proclaim the existence of a disaster. Such a

assistance especially to meet the needs of individual victims. This
has been a considerable change from the policy that existed
several years ago when the losses suffered by an individual were

declaration automatically bestows upon the Director of Emer
gency Services extraordinary power sufficient to enable him to
deal with the situation. In this status, he can legally issue

made every effort to meet the immediate needs of individuals,

proclamations establishing curfews, and / or setting forth rules
and regulations as necessary to meet the city's needs. As

largely his own to endure. Although the Red Cross has always
for the first time government has concerned itself with personal
problems to include the long term recovery of disaster victims.
Home loans, business loans, debris clearance , rental and food

Director, he activates and takes charge of the Emergency
Operating Center, and the entire disaster organization is at his

allowances, and other services are now available to the private

disposal. If necessary, he can close down private or public

ness planning. ...

citizen . This has brought a new dimension to disaster prepared

businesses or activities. He can also requisition and obligate the

city for such supplies, equipment, and personal services as he
deems necessary . All of this can be done without referral to the

City Council. However, the Council is privileged to formally

Whereas the Federal Government now provides a consider

convene in order to ratify or negate an action or to delegate
further authority if deemed appropriate. By proclaiming a

able amount of assistance, it remains for the city to withstand
the first massive onslaught of the disaster. The city stands alone

disaster, it also becomes possible to immediately impose any

during those first frightful hours or perhaps days, and it is during

additional building, traffic , or safety regulations that the
situation dictates. For example, damaged buildings, if unsafe for
occupancy , could be condemned, and if necessary , even de

this initial period of time when the good building codes, the
good communications, the good decision making, and the good:

stroyed and removed .

planning pays off in terms of lives and property saved. What is
done or what is not done during this early period more than

Starting with the Great Alaskan earthquake of March 27,
1964 up through the devastating hurricane of last year known as

anything else will determine how well the public trust has been
preserved .

Resp. App'x 90

Resp. App'x 91

Chapter B. River Floods
Introduction

two categories: flood control measures and flood emer
gency measures.

The flooding of land adjoining the normal course of a

As discussed here, flood control measures are those of

stream or river has been a natural occurrence since the

a permanent nature, deliberately planned and executed
over a period of time and based on the expectancy of
floods of various magnitudes. These measures include

earth took its present form . What makes a flood a
disaster is man's occupancy of the flood plain . The
economic attractiveness of the level, fertile land of the

land treatment in the watersheds to abate water runoff;

flood plain along these natural routes of communication
has encouraged development of flood -prone areas

engineering works such as dams and reservoirs to
regulate the river flow and levees, channel treatment,

despite their potential for disaster. As these lands have
been developed , the public demand for protection from

and finally, regulations for land use to insure the most

economic losses caused by the inevitable floods has

economical use of the flood plain , considering the

grown .

hazard involved .

and floodways to keep flood waters out of specific areas;

Despite efforts over the years to provide protection

Flood emergency measures are those of a temporary

for developed areas, losses from floods continue to

nature, taken on an emergency basis when warning is
received of impending floods that endanger unpro

mount. Since 1936, more than $9 billion of Federal
funds have been spent on flood protection and preven
tion measures. ' The Water Resources Council, in its
First National Assessment (1968 ), predicted that flood
losses would increase to an annual $5 billion by the year

2020 - barring any major improvements in existing flood
protection and prevention programs. The annual losses
in recent years have been variously estimated as from
$ 1.5 to $2 billion. The steady increase in the annual
flood losses has been attributed mainly to expanded

tected

areas or that will exceed the protection

afforded by permanent works. Included are emergency
land treatment of watersheds suddenly denuded by fire
or other natural causes; emergency engineering measures
such as building temporary levees or improving perma

nent levees, clearing channels by reducing obstacles or
ice jams, and flood-fighting actions after arrival of the

flood; evacuation of people and property from en
dangered areas ; and rescheduling of production, trans

investment in flood -prone areas. There is, moreover,
considerable evidence that new protective works, while
providing protection from floods normally expected,
actually encourage this expansion and increase the
floods that
potential for loss from the occasional
3
exceed the design criteria of the works.
A case in point is the development of the Trinity
River flood plain at Dallas, Texas. A flood control
project essentially completed in 1957, it provides protec
tion for some 10,000 acres of the flood plain against a

portation, and other service activities to minimize

flood equalling the greatest since the first gauge record

may be only an hour or so at the most and often less. In

ing in 1903. With the assurance of this protection,
development of the protected areas has been rapid and
continuing, from an estimated property value of $ 172
million in 1939 to well over a billion today. Should a

areas where the terrain will retard the runoff or where

future flood, exceeding the magnitude of the maximum

emergency measures which can be taken . With short

flood of record , top the levees, the damage would be
over six times the damage of a comparable flood in

forewarning, it may be possible only to evacuate people

1939.5

evacuated or protected, and even emergency engineering
protective works can be constructed . Ultimately, how
ever, it is the planning, training, and education of the

Measures taken to provide protection from floods, or
more properly to reduce the losses from floods, fall into

interruptions and loss from the flood.

Vital to the effectiveness of emergency measures are

timely and accurate prediction and warning of the flood
event and the preparedness - the know -how and the
wherewithal -of the endangered communities and popu
lace to take the appropriate actions.
The warning time varies by type and location of
flooding. In mountainous or other areas where the

runoff is rapid and subject to flash floods, forewarning
flooding results from melting snowpack, the warning
time can be days and even weeks.

The amount of warning has a direct relation to the
gh ground. With longer warning, property can be

15

Resp. App'x 92

16

DISASTER PREPAREDNESS: VOLUME ONE

local populace that determine the state of readiness

local contribution toward the cost of local protective

and hence the effectiveness of any emergency measures.
The following discussion covers existing programs for

works in the form of easements and rights -of-way and

maintenance .10

flood control, prediction and warning, emergency meas
ures, and preparedness along with means for improving
these programs.

Also , the 1938 Act recognized the possibility of a
change of land use as an alternative to protective works.
The Act authorized the Chief of Engineers, in lieu of

Evolution of Federal Interest

constructing local protective works, to contribute funds
equivalent to the Federal cost of the works to local

entities that preferred to relocate threatened develop

The Federal Government's interest in providing pro
tection from floods was firstmanifested in 1879by the
establishment of the Mississippi River Commission as a
permanent agency of the War Department and charged
with planning and implementing flood control on the
lower Mississippi River. This Federal action was
prompted by the total failure of the uncoordinated levee
systemsconstructed by private groups and the resultant
abandonment of much of the fertile land of the flood

ment onto higher ground."

Flood ControlPrograms
Watershed Program . Major objectives of watershed
programs are to ( 1) reduce water and sediment runoff,
(2 ) maintain desirable stream flow conditions, (3 )

protect water quality, and (4) maintain soil quality at a

plain of the lower Mississippi.

Initially confined to repairing and strengthening old
levees, the program was expanded in 1928 after the
disastrous Mississippi floods of 1927 to one ofmatching

funds with States, local districts, or private groups for
construction of new levee systems under standards set

by the Commission . All of these measures were ostensi
bly to improve and protect navigation and were con
cerned primarily with levees. However, this 1928 legisla
tion did show a growing Congressional interest in
Federal participation in national flood control, in that a
provision of the law directed preliminary flood surveys

by the U . S . Army Corps of Engineers in other areas to

be designated by Congress.º
By the Flood Control Act of 1936 , Congress declared
“ that it is the sense of the Congress that flood control
on navigable waters or their tributaries is a proper

high level and control erosion . Methods employed to
obtain these results include ( 1 ) protection from forest

and grass fires,12 (2 ) protection of vegetation from

grazing damage, (3) restoration of vegetative cover by
seeding, (4) timber management methods which mini
mize water runoff and erosion , and (5) structural
measures such as water storage facilities, debris and
sediment basins, grade stabilization , and stream channel

improvement. 13
Except in the Tennessee Valley , the U.S . Department
of Agriculture (USDA) has the major Federal role in
programs for watershed improvement. USDA's primary
programs are carried out under authorities derived from
the Flood Control Act of 1944 and the Watershed
Protection and Flood Prevention Act of 1954. Those of
TVA are conducted pursuant to the TVA Act of 1933 ,

activity of the Federal Government.” With this Act,
Congress established Federal interest in flood protection
on a national scale . This Act, along with the earlier
Tennessee Valley Authority Act of 1933, also heralded a

as amended , and the Flood Control Act of 1944.

change in concept from one of local protection to one of

projects to 11 designated watersheds in various parts of

integrating local protection with river flow regulation by
watershed treatment and regulatory dams and reser
voirs. This concept had evolved from a long series of
Congressionally directed surveys and investigationsstart
ing with the Flood Control Act of 1928. Projects related
to river flow regulation were conceived asmultipurpose

the country . The 1954 Act (Public Law 566 , 83rd
Congress) authorized projects in watersheds up to

projects contributing benefits to other programssuch as
conservation, irrigation , water supply , hydroelectric

power, navigation, and recreation .
Under the 1936 Act, Federal participation in all flood
control projects was on a cost-sharing basis with State
and local governments. However, by the Flood Control

Act of 1938 , the FederalGovernment assumed the total
cost for construction , operation , and maintenance of
regulatory dams and reservoirs on “ navigable waters or
their tributaries.” Present policy still requires State or

The USDA programs under the two Acts are generally

the same except for the geographical area covered . The
earlier Act of 1944 limited watershed improvement

250,000 acres in size anywhere in the Nation.14 The

TVA programs are limited to the watershed of the
Tennessee River.

USDA has responsibility for small watershed pro
grams on Federal lands, except lands under the jurisdic
tion of the Department of the Interior where projects
are developed by that agency. Programson non -Federal
lands are conducted by USDA on a cooperative cost
sharing basis with State governments, local entities, and
private landowners. USDA provides technical advice and
gives financial assistance for projects related to agricul

ture,fish , wildlife, and recreation .15
At present, approximately 75 projects under these
authorities are being initiated each year.16

Resp. App'x 93

17

III. DISASTER PROTECTION - B . RIVER FLOODS

Engineering Works. Engineering works give protection
through a combination of river regulatory works and
local protective works. The former consist of dams and
reservoirs to store and release water in regulated

amounts and of channel improvements to increase the
river capacity. The purpose is to reduce flood heights by

regulating the amount of water and controlling its flow .

(major projects ) must have individual authorization of
Congress for study and subsequently for construction.
The process by which major projects are initiated and
developed is shown in Table 1.24 It should be noted that
the impetus for Congressional authorization for a study
by the Corps of Engineers must come from the local
electorate. The Corps can and does give technical advice

Local protective works consist of levee systems to keep

to local entities on the need for and practicability of the

the floodwaters out of selected areas, pumping stations

project.

to dispose of water from behind the levees, and diversion

The time in the first sequence ( steps 1 through 3)
is primarily due to the backlog of authorized studies
awaiting funding, currently running between 300 and
400 at any given time.25
The time required for the second sequence (steps 4
through 9) is affected by the funding levels, study
complexity, and coordination of the individual studies.

channels17 to pass floodwaters around the area to be
protected .

The criterion for providing flood protection by
engineering works is that the benefits must exceed the
cost of the works. Studies made in the Tennessee Valley
indicate that for every community where it is economi
cally feasible to provide protection by engineering works

Improvements recently made by the Corps to reduce the

there are another 20 where it is not. 18
Complete flood protection can almost never be

time for study and reporting have been offset by
growing requirements for coordination and assessment

economically justified. In most cases the criterion for
the design of protective works is the maximum flood of
record or the so - called " standard project flood," which

200 studies involving flood projects are underway at any
given time.26

is about 50 percent of the maximum probable flood."
The Golden Triangle area of Pittsburgh, Pennsylvania,

of the environmental and social impact . On the average,

The time required for the third sequence (steps 10

year - or, perhaps more significantly, a 10 percent chance

and 11 , Table 1 ) is again due to funding and the growing
requirement for coordination of environmental and
social impacts of the project.27 The number of author
ized projects of over $ 1 million and awaiting funding for
construction, as of March 1971 , was 282.28 Further
delay in starting construction of local projects may be
encountered in obtaining formal assurance of local

that it will occur in a 20 -year mortgage period.21 Thus,

cooperation , as required by law .

the risk area has a 90 percent chance of escaping in a
normal mortgage period. In fact, however, buildings in

mended by the Chief of Engineers under continuing

except for the lower " point" area, is protected by
upstream reservoirs and local works against the recur

rence of the 1936 flood , a 200 -year-flood.20 This means
that there is a 0.5 percent chance that a flood equalling
or exceeding the 1936 flood will occur in any given

Projects under $ 1 million , which may be recom

the area are provided protection against at least another
10 feet of floodwaters by floodproofing measures on

authorities, benefit from lump-sum funding and from

individual buildings.22
The U.S. Army Corps of Engineers has the primary

funding, studies for these smaller projects can be

statutory responsibility nationwide for the development
and construction of engineering flood control projects
and for the operation of river regulatory works on
" tributaries of navigable rivers” except in the areas of

fewer levels of coordination and review . With adequate
completed in 2 to 3 years. Further, these smaller
projects fare better in the construction funding process;

at present the backlog is only 12 projects.
The Tennessee Valley Authority ( TVA ) is responsi

the Tennessee Valley Authority and certain areas in the

ble , under the TVA Act of 1933 , for flood protection in

West that are the responsibility of the Department of

the Tennessee River Valley. Functions are vested in a

the Interior.

three -member Board of Directors reporting to the

The Corps of Engineers' responsibility for flood
control projects is carried out through a field organiza
tion of 10 Divisions corresponding to the major water
sheds of the Nation, each of which is subdivided into a

President, with operational responsibility vested in a

number of Districts responsible for specific river sys
tems. This same organization is used to carry out the
Corps' services for flood plain management as discussed
below .

All flood control projects undertaken by the Corps of
Engineers must be specifically authorized by Congress.
However, the Chief of Engineers has " continuing author
ity " to study and request funds for projects under $ 1

million at his own discretion . Projects over $ 1 million

General Manager.

Flood protection by TVA combines an extensive
multipurpose river regulatory system and local engineer
ing works. The regulatory system consists of 29 TVA
constructed dams and one dam acquired by TVA . This
system provides complete protection from the maximum
flood of record for some 107,800 acres of privately
owned land and partial protection for another 149,000
acres along 750 miles of the river system . In addition,
the TVA system provides a measure of flood control on

the Mississippi River below Cairo, Illinois, by impound
ing waters of the Tennessee River and releasing them so

Resp. App'x 94

18

DISASTER PREPAREDNESS : VOLUME ONE

Table 1. - Steps Leading to the Construction of Major Flood Control Projects ( over $1 million )
by the U.S. Army Corps of Engineers.
STEP

1.
2.

AVERAGE
TIME

ACTION

Request by local citizens through their Congressional representation .

.
3
4.

6

Consideration by Public Works Committees and recommendation to the Congress. Passage
of Act directing study.

years

Initial funding of authorized study.

Conduct of the study to determine feasibility and economic justification. Includes con
siderations of engineering, environmental, and social aspects as well as all possible alterna
tives for accomplishing the objective of the project. Entailed are extensive public hearings
and coordination with other Federal, State, and local agencies.

5.

Review of the study report by Board of Engineers for River and Harbors or the Mississippi
River Commission * ( depending on jurisdiction ), including additional public hearings as
necessary .

6.

Formal coordination of the proposed report of the Chief of Engineers with affected State
and Federal agencies.

7.

Consideration of State and Federal agency comments and submission of the report to the
Office of Management and Budget.

8.

Submission of report to Congress by the Secretary of the Army.

9.

Congressional review , including desirable additional public hearings, and final authoriza

7
years

tion by Act of Congress.t
10.

Funding of authorized project.
5

11 .

Preparation of detailed plans, specifications, and cost estimates and commitment by local
authorities of cooperative participation . Award of contract.
Total Average Time

years

18 years

* Independent agencies established by law to advise the Secretary of the Army and the Chief of Engineers.
t The Public Works Committees of Congress may authorize projects under $ 10 million without referral to the entire Congress.

as to be staggered with crests from the Ohio , Missouri,

Western States and Hawaii. Their multipurpose nature

and upper Mississippi Rivers.29
TVA authority for local protective construction is

provides regulatory features for flood control.31

statutory ; no Congressional approval of surveys or pro

neering works for flood control in watershed areas (as
discussed previously ) and advises in rural areas on works
for local protection .

posals is required. TVA, in cooperation with State and
local governments, works out a coordinated plan and an

USDA's Soil Conservation Service constructs engi.

agreed cost-sharing formula. The project is then included

in the TVA budget request for Congressional appropria

Flood Plain Management. Flood plain management

tion of construction funds. Project costs for such local
protective works in the TVA area generally run between

seeks to further reduce flood losses, beyond what can

The Department of the Interior, through its Bureau

be economically afforded by watershed treatment and
engineering works. This supplemental approach to flood
control has gained wide acceptance only within the past

of Reclamation, constructs and operates systems of

decade. It entails regulation of the flood plain through

dams, reservoirs, and water conveyance systems in 17

local codes and ordinances by restricting nonessential

$ 600,000 and $3 million .

Resp. App'x 95

19

III. DISASTER PROTECTION - B . RIVER FLOODS

development in flood -prone areas or requiring flood

Service (SCS ), USDA, provides similar flood hazard

proofing of structures.

information to rural communities having an urgent need
for such technical data in their land -use planning. SCS
carries out flood hazard analyses upon request of the
responsible State agency to which the local community
has applied. This USDA program is complementary to
that of the Corps of Engineers and is closely coordinated

The establishment and enforcement of land-use regu
lations are functions of State and local government. The

Federal Government can provide encouragement, funds,
and advice. It can also place restrictions on the use of
channels, floodways, and portions of the flood plain as
conditions for Federal support of flood control projects.

therewith . Initiated in 1968, the program currently

Generally, however, Federal influence is by example.

includes studies in 17 States. Final reports will have

Executive Order 11296 , issued in 1966 , requires a
recognition of flood hazards in all Federal decisions in

been completed in eight communities by the end of FY

disposal of lands, awarding of grants or loans, and
construction of Federal buildings. Further, the National
Flood Insurance Act of 1968 (Public Law 90-448 , Title
XIII), limits Federal subsidy of insurance to those

localities that have adopted permanent land -use and
control measures consistent with the criteria prescribed
in the Act. ( The provisions of this Act are discussed in
detail in Part IV , Chapter B, Disaster Insurance.)
Basic to any flood plain use program is information
concerning areas subject to flooding. TVA provides, on

request by communities, a local flood hazard report,
with the expected frequency of damaging floods and
corresponding topographical maps, and helps communi
ties to draw up local plans and regulations. As of June
1971 , 130 of the 150 Valley communities with flood

problems have requested and been furnished complete
reports; the rest have been given partial data to meet

1972 .

The flood plain reports of both TVA and the Corps

include topographic maps delineating the hazardous
area . Figure 1 , a portion of a map for Burkesville,
Kentucky, illustrates this service. These maps are pre
pared under a cooperative program of the Corps of
Engineers, the U.S. Geological Survey of the Department
of the Interior, and the National Oceanic and Atmos

pheric Administration (NOAA) of the Department of
Commerce. Currently, the largest -scale map provided
under this program scales one inch to 1,000 feet

( 1 " = 1,000 '). Figure 1 is 1 " = 2,000 ', and it can be seen
that even on a 1 " = 1,000' map it would be difficult to
determine precisely the threat to individual buildings.
TVA, from long experience with its flood plain informa
tion program , has recognized this drawback and feels the
scale of 1 " = 400 ' should be minimum standard for

urban and urbanizing areas.37
There is no doubt that the technical programs to

current needs. 32

provide communities with advice and information on
Congress in 1960 authorized the Corps of Engineers

to conduct a similar program nationwide. The Flood

flood plain management are helpful. Of those communi
ties that have been furnished complete reports, at least

Plain Management Service of the Corps of Engineers was
established and with the assistance of Federal, State , and
local agencies initially identified some 5,200 localities

action of some type. Further, the reports have been used

with flood problems. By the summer of 1971 , the Corps
had completed 440 Flood Plain Information Reports
covering 1,300 localities. Also , the Corps responds to

thousands of requests each year ( some 4,500 in FY 71 )
for interim information on specific development sites
and short stretches of streams or coast. Many of these

requests are from Federal agencies, prompted by the
requirements of Executive Order 11296 previously
mentioned 34

There are still a large number of localities with flood
problems for which reports have not been made. San
Diego County , California , for example, has been con
cerned about potential floods since serious brush fires in
1970. A Corps report for the county has been funded ,
but the scheduled completion date is several years

85 percent have used the information for effective
by Federal and State development agencies to ensure
that projects avoid the flood hazard . As an example, at
Lewisburg, Tennessee, the Veterans Administration and
the Federal Housing Administration would not support
development of two subdivisions in areas shown by the
TVA report for the area to be subject to serious
later a flood covered the area
flooding. Seven months
38
with 5 feet of water.

Worthy as these programs may be, they are only
conducted on a “ when requested” basis. For example,
the Mouse River had not seriously flooded the area of
Minot, North Dakota, for 40 years prior to 1969. In the
interim , Minot had expanded on the flood plain ; over
the years, the Corps of Engineers at local meetings had
warned of the potential danger, but nothing was done by

the community. In the spring of 1969, however, the
Mouse flooded major portions of the town with waters

away. 35
Until recently , the annual authorization for this

which reached 5 feet and remained for over a month.39

program has been $7 million dollars. A 1970 authoriza
tion increased this ceiling to $ 11 million.36
Under authorities of the Watershed Protection and

River Basins Commissions. The Water Resources
Planning Act of 1965 authorized the formation of the

Flood Prevention Act of 1954 , the Soil Conservation

National Water Resources Council and the establishment

Resp. App'x 96

600

600

U

WIN

Town
Dougan

PUI

39
#

58

0

roog

Resp. App'x 97

-427

:
LEGEND

CH
ET
E

WATER
NORMAL

1Fashville
BFigure
Map
,N-USAKArea
Engineers
of
.Corps
District
urkesville
looded
entucky
rmy

=2,000
1"
'SCALE

FLOOD
REGIONALATE
INTERMEDI

FLOOD
PROJECT
STANDARD

MOUT
ABOV
MILESHE

DISASTER PREPAREDNESS: VOLUME ONE

III. DISASTER PROTECTION - B . RIVER FLOODS
of interstate commissions for interstate river systems. Co
To date , seven River Basins Commissionshave been or

programs for flood control, water supply and quality
control, recreation , and fish and wildlife preservation .

are in the process of being established: the New England,
the Pacific Northwest (Columbia River and tributaries),
the Great Lakes, the Souris-Red -Rainy (North Dakota

and upper Minnesota ), the Ohio , the Missouri, and the
Upper Mississippi. Figure 2 shows the New England

River Basins Commission membership , typical of

Weather Modification . Weather modification meas

ures may offer means of reducing the severity of floods.
Two current research projects show promise. One

involves the creation of high-level cirrus clouds to reduce
incoming radiation , thereby retarding the snowmelt; the
other involves heavy seeding of cumulus clouds with

these.41

These Commissions consider the problems of flood
hazards on a regional rather than a local basis and are

artificial ice nuclei to reduce the amount of rainfall from

these clouds.42

concerned with thewhole spectrum of water control and
related land use to provide integrated management on a

Prediction and Warning Programs

regional basis.
TVA since 1933. All levels of government are involved in

Flood prediction and warning for the Nation has been
a statutory responsibility of the National Oceanic and
Atmospheric Administration (NOAA) of the Depart

a coordinated approach to themanagement of water and
related land resources, including the reduction of loss

ment of Commerce, and its predecessors, since 1871.
The National Weather Service (NWS) of NOAA has the

from

land resource characteristics and estimates of future

responsibility for preparing the official forecast and
issuing public warnings of floods in all areas of the
United States43 – except in the Tennessee River basin,
where TVA (under the TVA Act of 1933) has the
responsibility for flood prediction through cooperative

demands, and identifies the management measures re

agreementwith NWS. 44

This regional approach to comprehensive water and
related land-use planning has been used successfully by

floods. The New England River Basins Commis

sion , established in 1967, is just now completing its
initial appraisal with publication of “ New England

Framework.” This document presents water and related
quired to meet these demands. Future efforts will

Floods are of two types: those that develop and crest

include the development of water and related land

“ management plans” for each State and for interstate

over a period of some 12 hours or more , and those
that develop suddenly and crest within several hours or

subregions, with recommended 10-to-25 -year action

even minutes. The term “ flood” as used here means

CHAIRMAN

INTERSTATE

• New England Interstate

STATE
AGENCIES
• Connecticut

Water Pollution
Control Commission

FEDERAL

• Department of Agriculture
• Department of the Army

Maine
• Department of Commerce

• Interstate Sanitation
Commission
Massachusetts
Atlantic States Marine
Fisheries Commission

• Department of Health , Education and Welfare

Department of Housing and Urban Development
• New Hampshire

Department of the Interior
Connecticut River Valley
Flood Control Commission

• Merrimack River Valley
Flood Control Commission

• New York

• Department of Transportation

• Federal Power Commission
• Rhode Island

• Atomic Energy Commission
• Thames River Valley
Flood Control Commission

• Vermont

EnvironmentalProtection Agency

Figure 2.-New England River Basins Commission .
Resp. App'x 98

RBeIdH

Eurero

San Francisco

Resp. App'x 99

ALASKA

TO

AMEN

Fresno

D

AnLoges les

PORTLAN

Fairbanks

•

Phoen

SCLA*IATLKEYT

Spokone
Heleno

ElPoso

Billings

Amarillo

HAWAII

Pueblo

Denver

City
Dodge

Brownsvi

lle

ASnotnoni
o

City
Oklahoma

Wichita

Topeka

Omaho

City
Sious

Houston

port

Shreve

RLiotcle

CITY
KANSAS

Moines
Des

Minneapolis

St.Louis

Moline

SUIDELL

Jackson

Couro
Memphis

Evansville

Buffalo

Tompo

*

3–River
-NFigure
Offices
District
River
and
Centers
.Forecast
map
Service
Weather
ational

O

Colum
bia

CINCINNATI Huntington

Montgomery

Noshvil

le

WFoarty

Lansing

Indianapolis

Rapids
Grand

Lovisville

Mobile

Cor
Chripstus

Aushin

WORTH
FORT

Norfolk

Bismarck

urgh

Medford

SACR
ATL

oo

h

Pittsb

SERVICE
FORECAST
FLOOD
AND
RIVER

Roleh

Richmond

HARTFORD

Juan
Son

1971
MY

bsomno
yoo

RICOANDVIRGIN
PUERTO
ISLANDS

Water
to
Fornasting
Supply

Foras
Suppl
Water
Includes
Current
Cherations
Limited

Boundar
Center
Forecast
River

LEGEND
Office
District
ofRiver
Location
Riser
Hounders
District
(enten
Pornst
ofRiver
laxation

Binghamton

Albany

Washington

HARRISBURG

Rochester

Burlington

DISASTER PREPAREDNESS: VOLUME ONE

ANT
A

New Orle
ans

es

Loke Charl

23

III. DISASTER PROTECTION - B. RIVER FLOODS

those floods with a relatively long period of develop
ment. The term “ flash flood” is used for those of
relatively sudden onset. Since forecasting for the two,
types differs, the systems for each type are discussed
separately.

The number of rainfall and river gauges is generally
adequate in river watersheds such as those controlled by
TVA " and by the Corps of Engineers in parts of the
Columbia Basin . There are , however, other areas where

the coverage is inadequate,48 particularly the eastern
slopes of the Rocky Mountains and the intermountain
area between the Rockies and the Sierra Nevada Moun
tains. In addition , with only 15 percent of the gauges

Floods

Organization. NWS provides flood prediction and
warning service to the Nation through its River and
Flood Forecast and Warning System . The system con
sists of two levels — the River Forecast Centers and the
River District Offices. The 12 River Forecast Centers

(RFC ) cover 97 percent of the United States, including
Alaska. The Centers' areas of responsibility generally
conform to the major river basins. Associated with these
12 RFC's are 82 River District Offices covering river

being automated, the reliance on private- citizen observ
ers leaves the forecast and warning system vulnerable
from late evening to early morning. Further, it is
becoming more difficult to obtain reliable observers in

remote rural areas, because the rural population is
declining and the meager sums paid are no longer
sufficient motivation .

The limitations of manual networks were demon

strated in the Camille floods in central Virginia during
August 19-21 , 1969. On August 19, the NWS afternoon

systems within the major basins; certain areas not yet
covered by RFC's are served by independent River

prediction was for the weakening storm to move to the

District Offices. (See Figure 3.)

northeast during the night from its location over eastern

Although this system covers 97 percent of the
Nation , important areas are not provided with a com
plete river and flood forecasting service. For example,

Kentucky. As a result, no special instructions were

Arizona, Utah, Nevada, and large portions of Wyoming,

Colorado, and New Mexico are served by a River
Forecast Center at Salt Lake City that forecasts only

water supply. Existing plans to rectify this situation are

issued to the extensive manual observer system in the
mountains of central Virginia, where the storm un
expectedly intensified . Standard instructions to observ.

ers called for readings at 1 p.m. , 6 p.m. , 1 a.m., and 7
a.m. When the storm reached disaster proportions before
midnight, observers were unable to reach the gauges, or

being implemented.
Also, the River Forecast Centers have personnel

found that they had been destroyed, or were unable to
transmit their reports because of interrupted telephone

sufficient only to operate a 40 -hour week, plus limited

communications. During the night, only one observer
report of excessive rain was received by the Weather

coverage during flood periods. Routine extra coverage
would permit fuller use of computer capability in com
bination with automated data45networks and thus provide

morning were insufficient to provide an accurate fore

forecasts several hours earlier .

Data Acquisition. Prediction of river floods in

volves estimating water runoff into tributary streams and

eventually into the rivers. Estimates are based on :

Service. The scattered reports received the following
cast of flood crests on the lower river and contributed to

the damage downstream .49
An expanded hydrologic network , with additional
gauges and with more of them automated , would

provide a capability for more accurate and timely
forecasts. The NOAA Geostationary Operational En

• Precipitation in the form of rain or snow that has

vironmental Satellite (GOES ), scheduled for early 1973,

fallen in the watershed,

will overcome many communications difficulties hinder
ing the use of automated gauges, by providing a single
relay station between the gauges and the River Forecast

• The degree of soil saturation in the watershed ,
• The amount of water flowing in tributaries upstream
from the river forecast point,
• Atmospheric conditions that influence the con

tinuation and intensity of rainfall or the rate of
snowmelt.

Flood Forecasting. Each River District Office

collects the hydrologic data from all sources in its

The River District Offices maintain networks of

stations reporting rainfall, snowpack, and river stage.
Other Federal and State agencies and private organiza
tions maintain similar networks in connection with the

operation of water resource facilities under their jurisdic
tion . Across the Nation in these networks, there are
some 5,500 rainfall and river gauges, of which about 15
percent are automated to transmit readings on demand.
The remainder must be read by private
-citizen observers,
46
who transmit the readings verbally.

Centers.50

district and transmits them to its associated River
Forecast Center. The RFC combines these data with
other data , such as those received from meteorological
and radar stations and from weather satellite pictures, to

produce a river and flood forecast. The resulting
forecasts predict river conditions at specified primary
points on the river systems. Forecasts of river conditions
are made on a continuing basis for selected points to
provide information required by water management

agencies for such activities as water supply , waste
Resp. App'x 100

.

RED
CROSS
&TV
RADIO
DEFENSE
CIVIL

PRESS

DISTRICT
OFFICES

RIVER

FOR

POLICE
STATE
OF
CORPS

ST
ECA

Resp. App'x 101
S
GS

R
, WA

N
NI

& OBS
SERVICE

S

ION

AT
ERV
PREPAREDNESS

EMERGENCY

OF
OFFICE

SURVEY
GEOLOGICAL

CONSERVATION
SOIL

RECLAMATION

OF
BUREAU

DISTRIBUTORS
KEY
COMMITTEES
FLOOD

U
&RBAN
HOUSING
DEVELOPMENT

ENGINEERS

STATIONS

RADAR

1

DATA

SATELLITE

WEATHER

ASSOCIATION
PRESS

ENGINEERS
OF
CORPS

PREPAREDNESS

TI

ON

Information
Nand
.Flow
Service
Weather
ational
River
4.
Figure
Warning
Forecast
Flood

ES
RI
MA
M
SU
AL
ON
TI
A
N

RE
FO
OF

S
ST
CA

SE
OB
&

A
RV

HEADQUARTERS

WEATHER
SERVICE

NATIONAL

SYNOPTIC
STATIONS

CLOCAL
LASH
SFCOOPERATIVE
YSTEMS
"FLOOD

S

WARNINGS
AND
FORECASTS
OF
FLOW

FLOW
OBSERVATIONS
OF

RIVER
STAGE
REPORTING
STATIONS

RAINFALL
REPORTING
STATIONS

SERVICE
FORECAST
OFFICES

CROSS
RED

OF
OFFICE
EMERGENCY

DATA
OF
DISSEMINATION
LOCAL

OF
UTILIZATION
INFORMATION

CENTERS

FORECAST

RIVER

DOWNSTREAM

RIVER
FORECAST
CENTER

RIVER
FORECAST
CENTERS

UPSTREAM

SYSTEM
OGIC
FORECA
HYDROLST

24

DISASTER PREPAREDNESS : VOLUME ONE

25

III. DISASTER PROTECTION - B . RIVER FLOODS

disposal, power generation , navigation, river -related con

• Neither the Weather Wire Service nor commercial

struction , and recreation . In times of threatening floods,

they provide warning of expected heights of the river

wire reaches directly to the general public. The press,
broadcast stations, or locally devised arrangements must

above flood stage at stated points and times.

be used to relay the warning.

The processing of the forecasting data is accom
plished by computer at all RFC's except at Salt Lake

City and Anchorage. The use of computers has greatly
enhanced the capability to prepare more timely and
accurate forecasts. However, the capacities of the com
puters available to some River Forecast Centers are
insufficient, resulting in flood forecasts not being as
timely as they could be. 51
A second concern involves the mathematical

hydrologic forecasts model currently in use. This model
was developed from computations used in the manual
production of forecasts and does not incorporate the
more sophisticated computer computations that are
too time consuming to be done manually. It gives
reasonably adequate results for crest forecasts but does

• The NOAA VHF/ FM Radio Transmission Service can
provide a direct link to the general public. However,

the recipient must purchase a compatible receiver, which
costs $60 to $ 150. Though the Radio Transmission Serv
ice has been available for some years, there are only an
estimated 180,000 receivers throughout the Nation.
They are owned mainly by boat owners and organiza
tions with special interest in continuous weather and
river forecasts.

The problem of dissemination of disaster warnings,

including positive warning of the general public, was
addressed by the Office of Telecommunications Policy
in a recent study (see Chapter A of this Part). The
NOAA VHF/ FM Radio Transmission Service was con
sidered as one alternative but was found deficient in

not adequately describe a continuous hydrograph, which

capability to give continuous direct warning to the

is necessary for effective operation of water control

dams and reservoirs.52 The National Weather Service is
currently field testing a promising new model. If the
tests show a qualitative improvement of forecasts,

public. The study found in favor of a system, currently
in development by the Office of Civil Defense, that
would provide selective voice or radio-teletype broad
casts to dedicated receivers, including home receivers

computers at all RFC's will be programmed to accept
this model.

for public warning. If found feasible , this system would
provide an alternative to the Weather Wire Service and

Flood Warning. Based on flood forecasts trans
mitted to River District Offices, flood forecasts and
warnings are transmitted over the NOAA National
Weather Wire Service (NWWS) and the NOAA VHF / FM

Radio Transmission Service to organizations and indi
viduals that have leased or acquired receiving equipment.
Other organizations are notified by telephone or tele
graph. Public dissemination is by the press , radio, and
television . ( See Figure 4. )

There are serious shortcomings to these means of

dissemination of flood warnings: 53
• The Weather Wire Service is not available to all areas

of the Nation , although there are plans for phased
extension of the wire system as funds become available.
The areas to which the Weather Wire does not extend

involve 12 States. In Virginia, for example , the wire does
not extend to Portsmouth , Danville, Mansville, Lynch

burg, or Roanoke and thus leaves the southern portion
of the State without direct service; in other cases, the

also provide a direct link to the general public .
Warnings of flash floods, which are discussed below,
share these shortcomings in means of dissemination .
Flash Floods. In the upper reaches of river basins, the
flood crest on tributary streams can occur in a matter of

hours, or even minutes, from the onset of a heavy rain.
In such cases ( flash flooding), it is not possible to record
the rainfall and relate it to stream stage and other
information at a River Forecast Center in time to

forecast flood conditions.The heavy rains generated by
Hurricane Camille in 1969 over the Blue Ridge Moun
tains of Virginia caused flash flooding in the streams,
which crested up to 20 feet or more above the normal
flood stage in 4 to 8 hours. The resulting disaster took
the lives of at least 150 persons in the mountain and

foothill areas and caused an estimated $ 112 million in
property damage.59
An estimated 2,500 communities throughout the

unserved areas may cut across State lines.
• Many smaller communities and smaller broadcasting
stations cannot afford to pay about $ 100 a month for
lease of terminal equipment for such a specialized

Nation are subject to flash flooding. The NWS
employs three basic approaches to providing these
communities with prediction and warning of flash

service. The smaller stations rely on their subscription to

• Community Flash Flood Warning System (CFFWS ).

floods:

news services and receive general weather summaries

A local network of rainfall and stream -stage reporting

inadequate for local forecasts.

stations is established upstream from the community.
Under threatening conditions, reports from these sta

• Disseminating warnings by commercial telephone or
telegraph to numerous recipients is slow and takes
valuable time from other duties of the limited Weather
Service staff.

tions are made directly to a locally appointed com
munity forecasting -warning representative, who prepares

a forecast using a simplified procedure provided him by

Resp. App'x 102

SS

R
ASTE

DIS

20

NWS. On his own initiative and based on his own fore
cast he alerts his community through a prearranged
system .So Currently , 140 of these systems have been

installed .57
At the time of the Virginia floods of 1969, Covington, Virginia, was the only community in the mountain

area with such a localwarning system . The system had a
local forecasting-warning representative receiving reports
from upstream observers and from a river gauge and a
rainfall gauge in the community itself. During the storm ,
because of telephone outages, the local representative
received only one report from upstream . As a result, he
could not accurately predict the flood heights, but he
alerted the community in time to evacuate threatened

areas and prevent the loss of a single life in Covington.58
There are several problems connected with the
establishment of this system . First is the need for NWS

experts to determine locations for observer stations and
gauges, to prepare charts and graphs for forecasting in
the particular area, to supervise the installation of the
system , to train the local people involved, and to
supervise the upkeep of established systems. NWS, under
its program as now funded, provides this assistance
for only about 14 new systems each year.59 Other

agencies such as the Corps of Engineers and TVA,while
having expertise , have no statutory authority or re

sponsibility for prediction and warning on nonregulated
streams (where flash floods occur) and therefore have no
programs in this area.
Secondly , there is the problem of finding an indi
vidual willing and able to serve as the local forecaster.

This job requires a person able to understand the
forecasting charts and graphs and perform the necessary

computations. In many communities, one of the local

officials, such as the town engineer, is given the job as an
additional duty .60

Finally , there is reluctance on the part of some
communities to finance the system . The cost of this
system varies considerably due to the number and type
of gauges required and the willingness of local people to
volunteer. However, as an example , for La Follette ,
Tennessee, the 1964 cost estimate was some $ 9 ,000 for
installation and $ 3,000 annual operating costs. 61 As a
rule of thumb, under current practices the Federal share
is about two-thirds of the installation cost and about

DNE
E
R
A
P

PRE

UME NE
O

: VOL

Although this is a very effective means of providing
warning, it can only give warning that a flash flood is
imminent; it cannot provide information on the height
of flood waters. Further, such a system is not feasible in

all situations, particularly where the stream channel is
not well defined, as in the dry arroyos of the South
west.65
• Conventional Weather Warning System relies on the
expertise and alertness of the weather forecaster in the

local area Weather Service Office. The forecaster issues a
generalized prediction and warning of possible flash
flooding, based on satellite, radar, or telemetered
rainfall gauge information available to him and his own
subjective estimate of the future movement, duration ,
and intensity of the storm .“
This third approach is illustrated by the action taken
at the local Weather Service Offices (WSO 's) in Phoenix
and Flagstaff, Arizona, in the prediction and warning of

This thirdweather Servicehe prediction anona overthe

heavy rains and flash floods in central Arizona over the

Labor Day weekend of September 1970. The weather
forecasters in Phoenix and Flagstaff alerted the public in
their areas on Friday to the possibility of flash floods

Subjecti photo o
e s fa

er based upon
over the tweekend. These
iathwere
d localingforecasts
y

x

r Meweather iinformation
nfo
As on a coofl fsynoptic
wes . analyses
subjective
,
satellite photographs of a dying Mexican tropical storm ,
and indications of a cold frontmoving in from the Pacific
Northwest. As observer reports of heavy rains were re

ceived on Saturdaymorning, the local weather forecasters
issued flash flood warnings for specific counties. The
unprecedented rainfall of that Saturday created the
greatest natural disaster in the history of the State ; 23
lives were lost , principally weekend campers , and many
roads and bridges were washed away. However, the
actions of the local WSO 's are credited with saving

hundreds of other lives by discouraging many from a
camping weekend and alerting others to seek high
ground .67
Flash flood predictionsby the local WSO ’s can at best
provide information on the probability of flash floods in
a general area over a general time period . Definitive

prediction of stages at specific points and times are not
possible through this system . Nonetheless, such predic.

tions are of value in saving lives.

The weather radar network which can provide vital

one-third of the operation and maintenance . Experi-

information for flash flood prediction and warning is

ence has shown , however, that communities unable to
finance installation of the system are also generally the

at present deficient in two respects. First, the radar
coverage is not adequate for all areas of the country,
particularly west of the Rocky Mountains. Second , the

ones unable to maintain it , thus making it ineffective
when the emergency comes. 62

• Automatic Flash Flood Alarm System relies on an
unattended water-level detecting device, emplaced up
stream ,which activates an alarm in the community when
the stream level reaches the danger point.63 The alarm
system is a recent development, and 10 are currently
being installed. 4 These systems will be maintained by
NWS.

special radar facsimile network that transmits com

posite radar pictures has not been extended to allWSO 's.
For example , although weather radar coverage of the
1970 Arizona Labor Day weekend storm was available
through a joint NOAA -FAA air route traffic control
system , data from the system in usable form (composite

pictures) was not available to the Arizona WSO 's.68
Specific area warnings were therefore delayed until

Resp. App'x 103

27

III. DISASTER PROTECTION - B. RIVER FLOODS
ground observer reports were received . Earlier warnings
might have saved someof the 23 lives lost.
Weather satellite pictures are valuable for predicting
conditions that could lead to flash floods. The satellite
pictures available to the Phoenix WSO on the afternoon

of Friday, September 4, alerted the forecaster to the
possibility that remnants of a tropical storm mightmove
across Arizona over the weekend and prompted his
further evaluation of the storm threat.69
There is, however, a major weakness in the current
weather satellite program : present orbital weather satel
lites can provide representation of the U .S . weather
situation only twice daily . Weather satellite pictures of

Secretary of Agriculture has authority to expend a total
of $ 300 ,000 annually “ to undertake emergency meas

ures .. . to safeguard lives and property from floods and
the products of erosion on any watershed whenever fire
or any natural element or force has caused a sudden
impairment of that watershed.” Such measures may

include technical assistance, seeding of denuded land,
sloping of dangerously steepened banks, construction of
protective diversions, debris removal, and channel clear
ance. This program is extremely important in certain
areas such as the West Coast, where floods are almost a
certainty during a rainy season after fires have seriouly
denuded mountains and hills.

The current annual limitation of $ 300 ,000 was

the remnants of Hurricane Camille were taken early in
the afternoon of August 19 and showed nothing to

established by the Flood Control Act of 1950, which

conflict with the predicted northeast movement of the

raised the limitation from $ 100 ,000 established earlier

storm center. However, the storm intensified and
changed direction in the late afternoon ; weather satellite

reasonably adequate to carry out necessary projects in

pictures reflecting these changes were not taken until the

most years . In the past 10 years , 41 projects have been

following day. As a result, NWS attention during the
night was directed at northwest Virginia and Maryland

and not at central Virginia, where the heavy rains

undertaken . In only three of these years was the
emergency fund inadequate, thus requiring supplemental
funding as follows: 1965 – $ 900 ,000, 1969 – $ 4 million ,

actually developed .*O The NOAA geostationary weather

1970 – $ 3 .7 million .76

by the Flood Control Act of 1938.75 This authority is

satellite (GOES) scheduled for launch in 1973 is
intended to correct this weakness and initiate a system

The American National Red Cross. Under its Congres

for near continuous viewing of weather features.

sional Charter, the Red Cross continually renders assist

Flood Emergency Programs

ance in flood emergencies in the planning and execution
of evacuation measures and the sheltering and feeding of
evacuees and flood workers.

Emergency measures taken to reduce losses from
imminent flooding involve ( 1) emergency watershed land
treatment and temporary protective works, ( 2) evacua
tion of people and material from areas subject to

flooding, and (3) rescheduling of production activities
and services to minimize the disruptive effects of the
flood .

An accurate forecast and advance warning can enable
prepared communities to reduce potential losses by
taking suitable emergency actions. A study of theMarch
5.9, 1967, Pittsburgh River District flood ,which caused
damage of $6 .8 million, attributed savings of $ 6 . 1
million to emergency actions taken as a result of advance

warning. 13
U .S . Army Corps of Engineers. Under PL 84-99, the

Chief of Engineers is authorized to supplement local
emergency measures if such assistance is requested by

local authorities and assurrance given that local resources
are being reasonably committed . This supplementary
support includes technical advice, construction of
temporary flood control structures and repair and
strengthening of existing ones, channel clearance, advice
on removal of ice jams, and issuance or loan of supplies

and equipment such as sand bags, polyethylene sheets,
and pumps. 74
U . S . Department of Agriculture. Under the Flood
Control Act of June 28, 1938, as amended, the

Operation Foresight. Operation Foresightwas carried
out under the direction of the Office of Emergency
Preparedness first in 1969 and again in 1971. The former
case especially provides a prime example of cooperative
emergency measures taken at all levels to avert a major

imminent flood disaster .

During the winter of 1968-69, NWS expressed con
cern over the possibility of serious spring floods. A
cooperative snow survey by NWS and other Federal
agencies, using satellite as well as ground observations,
confirmed in February that there was a real potential for
disastrous floods, particularly in the northern Midwest.
Accordingly , during late February, President Nixon
instructed the OEP Director to coordinate a major effort
by Federal agencies to take all feasible actions to
supplement State and local preparations to reduce or
alleviate the potential flood damage and human suffer

ing. Thus Operation Foresight was launched .

The NWS River Forecast Center at Kansas City ,
Missouri, issued preliminary crest forecasts on March 13
for 225 points in the threatened areas. These forecasts
proved remarkably accurate formost forecast points and
provided the flood fighters with the fundamental infor
mation needed to determine the protection required .

The forecasts were continually updated on the basis of

Resp. App'x 104

DISASTER PREPAREDNESS: VOLUME ONE

.

Figure 5 . - Operation Foresight 1969. Above: a ground-observer team is landed by U .S . Armyhelicopter on a remote
South Dakota plain to measure snow depth and water content. Below : heavy equipment works on a temporary levee

being built atop the northbound lane of U .S. 169 at North Mankato ,Minnesota .- Photos from NationalGeographic,
October 1969 (pp . 578-579, 584 -585 ), Photographer Thomas Defeo , (c ) 1969 National Geographic Society, reprinted

with permission .

E MOTEL

WA

Resp. App'x 105

III. DISASTER PROTECTION - B. RIVER FLOODS

29

data provided by an intensified collection effort employ

personnel established emergency operating centers as

ing weather satellite and aircraft photography plus
ground observers in remote areas ( Figure 5 ).
The Corps of Engineers helped State and local

focal points to coordinate actions within the com

officials to get protective measures underway before the
flooding occurred. It carried out reconnaissance of rivers
and streams to identify obstructions to free flow . It

munity .

Local officials developed emergency plans to
construct or raise levees. They recruited labor (volunteer
and paid ) for sandbagging, levee security patrols, and
evacuation of goods and property .

staffed information centers to expedite handling of

The local populace turned out to help in the fight.

requests for information and on-site technical assistance.
It strengthened communications nets with additional
Corps equipment. Corps experts were transferred from
other sections of the country to assist.
Corps of Engineers funds, under PL 84-99 author
ity, were made available to protect vulnerable areas
where local finances were inadequate. To qualify for the
use of PL 84-99 funds, a community had to demonstrate
that it had a feasible protection plan and could furnish
the necessary rights-of-way and labor for the construc
tion of levees.
The Corps awarded contracts for levee construc
tion and supplied sandbags, polyethylene sheets, pumps,
and lumber to local work gangs . It provided technical

Housewives and schoolgirls helped fill sandbags and men
of all ages worked to build sandbag protections (Figure

gency measures can play a major role in reducing flood
damage. The Corps estimated that $250 million damage

assistance to survey potential trouble spots and supervise

Local Preparedness Plans and Training

6). Figure 7 is a sketch showing the multiple threats for
which each community had to be alert and prepared to
fight.
Operation Foresight " proved dramatically that emer

was prevented at a cost to Federal, State, and local

governments of about $36 million . Additionally, many
of the temporary levees and works constructed during
the operation have since been incorporated into the
permanent flood protection works of the communities.

contracts. It contracted for cropduster planes to dust
lake and river ice with dark inert material to absorb the
solar heat and accelerate melting ahead of expected

In the final analysis, the responsibility for flood
fighting measures within the community rests with local

normal thaws. It gave advice and assistance in ice
blasting projects.
Local chapters of the Associated General Contrac
tors of America, under their “ Plan Bulldozer," coordi
nated the availability of men , materials, and equipment

officials. Technical advice, materials, and equipment

may be supplied from outside, but the actual prepara
tions and emergency operations must be carried out by
the local community.
The key to the effectiveness of the community's

for contractors working on emergency engineering
projects (Figure 5).
The Coast Guard moved in boats and helicopters

effort is its readiness achieved through prior planning

for the evacuation of flood victims from unprotected

disaster.

and training. Combined with warning, this readiness can
mean the difference between minor loss and major
Communities which have experienced frequent flood

areas.

The Department of Agriculture advised farmers on
preemergency actions to minimize losses of livestock,

ing have, for the most part, fairly complete emergency

plans. For example, Richmond, Virginia, had a flood

machinery , and stored crops. It also provided inspectors
to supervise postflood cleanup operations in grocery

emergency plan in being at the time of the 1969 Camille

stores, restaurants , and other food handling and storage

before the arrival of the crest, necessary actions were

establishments.

taken quickly and successfully . Flood gates were closed,
sandbagging accomplished, unprotected areas evacuated,

The Interstate Commerce Commission provided
priorities for transport to move grain out of flood plains.
The Red Cross prepared for evacuation , emergency
shelters, and feeding.

The Salvation Army prepared to assist flood
victims and feed the flood workers on the job .

flood on the James River. With only 36 hours warning

and other emergency measures taken. Richmond escaped

with relatively little damage and no casualties. 78
Businesses in the city of Pittsburgh , Pennsylvania, are
particularly flood conscious. Downtown buildings in the

Golden Triangle have detailed procedures for “ buttoning

States declared emergencies so that all State

up" their floodproofing systems. Flood manuals are used

resources could be brought to bear in assisting local
communities. Essential public services were rescheduled
to ensure their continuation during the emergencies. The
National Guard provided heavy equipment to build
levees and helped in emergency evacuation , patrolled

to acquaint employees with the flood program and to

flooded areas, and manned traffic control points. State

Highway Commissions provided trucks to evacuate
property and help in levee construction . Civil defense

designate specific tasks in an emergency . A thorough
79
check of the state of readiness is conducted annually . "

The Camille flood experience in the Blue Ridge
Mountains spurred several small communities to adopt
flood emergency plans. On the other hand, at the
present time, more than 2 years after the flood, two of the

harder hit communities still have no plans.

Resp. App'x 106

Many

DISASTER PREPAREDNESS: VOLUME ONE

Figure 6 . - Operation Foresight 1969. Right:
women of North Mankato join the fight and fill

sandbags for protective works - OEP photo .

Below : teenagers and older men of North
Mankato anchor sheets of polyethylene with
sandbags to prevent current scouring of the

temporary levee - photo from National Geo
graphic , October 1969 (pp . 580-581), Photog
rapher Thomas Defeo, (c ) 1969 National Geo
graphic Society, reprinted with permission .

Resp. App'x 107

III. DISASTER PROTECTION - B. RIVER FLOODS

PLASTIC SHEET

CLAY

CHINEYO

MANHOLE

DIKE

FLOOD LEVEL
SURFACEWATER

PRESSURE

SANDBAGS

ROCK RIPRA
FLAP-GATE
SEWER
OUTLET

AND TO

NORMAL
ORMAL WATER

WATER LEVEL

SALT AND GRAVEL

SE

NT

ALLUVIALDEPOSITS

SED

Figure 7. -Multiple Threats. Even though the river has not topped the levee, there are still threats to which the
community must be alert. At left, a flood-wise homeowner fills his basementwith water to counteract ground-water

pressures, and a sandbag " chimney " contains flood water entering the sewer after debris jams open its flag gate.
Across the river, seepage has created a " boil" behind the levee - although a " chimney " could have contained the
boil - and the basement of a house on the flood plain is collapsed by surface-water and ground-water pressures. - From
National Geographic, October 1969 (pp. 586 -587), Staff Artist Robert C . Magis, (c) 1969 National Geographic

Society, reprinted with permission .
communities realize the need for improved readiness but

feel they lack local technical expertise to develop their
programs.81
Federal expertise is available, however, to communi
ties that request it. The Corps of Engineers provides
extensive assistance through its Flood Plain Management

State and local programs vary from area to area, with
those areas of recent flood experience being better
prepared . In the fall of 1968, after fire had burned some
100 ,000 acres of the chaparral on the slopes of the San
Gabriel Mountains overlooking the densely populated
areas of Los Angeles County, California, these communi

Service, discussed above in the section on Flood Control.
The Flood Plain Information Report provided as part of
this service gives the community information on poten
tial flooding, including depth of water to be expected
from floods of varying probable frequency, thespeed of
onset, current velocities, and duration of flooding. TVA
and USDA provide similar information to communities in

could be expected with the rains in the following
months.82

their areas of responsibility. The Corps also provides a
Flood Emergency Manual containing information on
floodfighting techniques, and Corps experts are available
for consultation on local plans.

appropriate regulation of land use, the most effective

means of making significant improvement in flood
control. The statutory and regulatory process leading to

Local Red Cross chapters also have extensive pro

construction of these projects now averages 18 years

grams for training and orienting volunteers in emergency
response, with particular emphasis on the types of
disasters likely in the local area.

Possible ways to reduce this developmental period are:

Findings
1. Major flood control projects are , along with

from the initial local request to the start of construction

• Authorizing the Chief of Engineers to recommend
surveys of major projects that appear to have a high

Public Education
To further public knowledge, NOAA prepares and
distributes a number of short pamphlets describing the
flood warning service, encouraging community action,
and listing simple emergency rules. USDA has a similar
program for the rural community and farm population .
The information provided by the Corps of Engineers
can be used by the community to educate its people
concerning local flood hazards and individual emergency
actions. The local Red Cross chapters are always a source
for public educationalmaterials and instructors.

ties needed little urging to hold meetings to educate the
public on emergency actions in the floods and slides that

potential for reducing flood losses;
• Revising the procedures for interagency coordination
of the survey report to accelerate the coordination pro
cess;

• Increasing the $ 10 million ceiling under which the
Public Works Committees may authorize projects by
resolution ;

• Increasing the $ 1 million limitation placed on the size
of the projects that may be surveyed and recom
mended for funding by the Chief of Engineers under
continuing authorities.

Resp. App'x 108

32

DISASTER PREPAREDNESS : VOLUME ONE

2. Effective regulation of land use is a major means
of reducing flood losses. The flood plain management

programs of the Corps of Engineers and the Department
of Agriculture, which foster land -use regulation by local

communities and development of action plans by River

7. Current methods for disseminating flood and flash
flood forecasts are inadequate to insure positive warning

of the general public. The National Weather Wire Service
is not available to all areas of the country , and terminal
equipment is too costly for many smaller communities

Basins Commissions should be pursued to permit com

and broadcast stations. Commercial telephone and tele

munities to comply with the eligibility requirements
of the National Flood Insurance Act. Similarly, the

graph , as the means to disseminate warnings to indi
vidual communities and broadcast stations, are slow and
too time consuming for the Weather Service. Neither the

joint flood mapping program (Corps of Engineers,
National Oceanic and Atmospheric Administration , and
U.S. Geological Survey ) should be emphasized, with a
capability to permit production of maps on the scale

of one inch to 400 feet ( 1" = 400 ') for urban and
urbanizing areas.

National Weather Wire nor commercial wire directly

reaches the general public.
The NOAA VHF / FM Radio Transmission service

reaches only the limited public segment that has invested
in receivers, and the receivers now in use do not have an
automatic switch -on capability.

3. The Small Watershed Programs of the Department
of Agriculture have not been adequately funded in past
years. The funding level of the 1972 budget is, however,
considered adequate. Adequate funding of these pro
grams should be continued, to enhance the beneficial
effects on flood abatement as well as on the environ

The warning system which a 1971 study , chaired
by the Office of Telecommunications Policy , recom

mended for development and test could provide a
capability for dissemination directly to the general
public through a home warning device and could also
offer an attractive alternative to the National Weather

ment.

Wire Service. For this reason , extension of the Weather
Wire Service should be considered in light of progress in

4. Inadequate staffing of the River and Flood Fore
cast and Warning System of the National Weather
Service results in a lack of flood forecast and warning

service in some areas of the country and marginal service
in others. Further, even where full service is available, it
is not as timely as it could be because the River Forecast
Centers normally have only a one -shift operational
capability. Consideration should be given to staffing the
River Forecast and Warning System as required to
expand services to all geographical areas and to ensure
that all River Forecast Centers can give extended hours
of service when necessary .

development of this new system .
8. The flash flood prediction and warning program
has a limited capability to provide technical assistance in

establishing local community systems and lacks qualified
personnel in many Weather Service Offices to prepare
general forecasts of flash floods. Staffing of the National

Weather Service should take into account the desirability
of:

• Establishing a two -man flash flood team at each River
Forecast Center to provide expertise for setting up
community flash flood programs.

5. The hydrologic data networks of the National

• Stationing flash flood prediction specialists at local

Weather Service do not provide adequate coverage and
rely mainly on manual reading and reporting of data.
Data from many remote areas where floods originate are

Weather Service Offices serving areas vulnerable to flash
floods.

not available. Increased coverage and automation of the

NWS hydrologic networks would ensure more complete
and timely data and improve the accuracy and timeliness
of flood forecasts. A complete network would be an

expansion from 5,500 to 10,000 river and precipitation
gauges, with 2,500 gauges automated through the NOAA
Geostationary Operational Environmental Satellite
(GOES ) system and another 2,500 automated using
ground communications.

9. Weather radar surveillance, and associated radar
facsimile service, for local Weather Service Offices in
many areas prone to flash floods can be significantly
improved. Improvements in these aids for flash flood
prediction would provide local Weather Service Offices
with the capability to issue more definitive warnings and
in many instances would obviate delays in ground
observer reporting on location and intensity of rainfall.
Consideration should be given to :

6. Computer service available to some River Forecast
Centers is inadequate. Two centers are without com
puter service and some others must rely on early

• Expanding the National Weather Service's radar net

generation equipment with limited core memory and

radar facilities.

slow speed. An improved mathematical hydrologic fore
cast computer model is now being perfected and,
coupled with modern computer systems, should increase

• Extending the National Weather Service's radar fac

the accuracy and timeliness of the forecasts.

without this service.

work by some 25 radar stations and providing remote

readout from selected Federal Aviation Administration
simile network (RAFAX ) to local Weather Service
Offices in areas vulnerable to flash floods and now

Resp. App'x 109

33

III. DISASTER PROTECTION - B. RIVER FLOODS

Notes

A Unified National Program for Managing Flood Losses,
Report by the Task Force on Federal Flood Control Policy,
August 1966 , House Document No. 465, 89th Cong., 2d Sess., p.
5. Also , communication with R. M. Edwards, Chief of Construc
tion Branch , Directorate of Civil Works , Office of the Chief of

26 Office of the Chief of Engineers, May 26, 1971 , memoran
dum .
' Ibid .

28Project status data in this paragraph and the following
paragraph are from Jones, December 1971 communication .

Fngineers, January 1972 .

29 Flood Study, Disaster Relief Act of 1970, Phase I Survey

2 National Waterways Conference, Inc., letter to Chief, OEP

(Knoxville : Tennessee Valley Authority, June 1971 ), Part II, pp.

PL 91-606 Disaster Study Group, May 26 , 1971 .

6-7 .

3Robert W. Kates, Hazard and Choice Perception in Flood
Plain Management (Chicago : University of Chicago, 1962), p. 4 .
Also , A Unified National Program for Managing Flood Losses,

30

Communication with Philip Ericson , Office of the General

4R. A. Hertzler, “ Corps of Engineers Experience Relating to

Manager, TVA , December 1971.
31
General Services Administration, National Archives and
Records Service, Office of the Federal Register, United States

Flood Plain Regulation," Papers on Flood Problems, Gilbert F.

Government Organization Manual 1971/72 (Washington, D.C.:

White (ed.) (Chicago : The University of Chicago Press, 1961 ), p.

U.S. Government Printing Office, 1971 ), pp. 232-233. Also, U.S.

187. Also , Gilbert F. White et al., Changes in Urban Occupance

Department of the Interior, letter (with enclosures) to OEP PL
91-606 Disaster Study Group, May 1971 .
32
Flood Study, ... Phase I Survey, Part II , p . 9 .

pp. 5, 9 .

of Flood Plains in the United States (Chicago: University of
Chicago , November 1958), p. 122.

33 Ibid., Part II, p . 10.

SHertzler, loc. cit.
Gilbert F. White, Human Adjustment to Floods (Chicago :
University of Chicago, 1945 ), pp. 5 , 7 .
7 Ibid.

34 Phippen,op. cit., pp. 12-13.
35County of San Diego, Washington, D.C. Office, letter (with

enclosures) to Chief, OEP PL 91-606 Study Group, May 21 ,

8 Ibid ., pp. 6, 11 .
Ibid., p. 14 .
10
° A Unified National Program for Managing Flood Losses, p.

1971 .

36 Phippen,op. cit., pp. 13-15 .
37Flood Study, Disaster Relief Act of1970, Phase II, Phase III
(Knoxville: Tennessee Valley Authority , September 1971 ), Part

12 .

II , p . 7 .

11White, op. cit., pp. 14, 15 .
12 This activity is covered in detail in Chapter E of this part.
13 U.S. Department of Agriculture, letter (with enclosures) to
Chief, OEP PL 91-606 Disaster Study Group, April 7, 1971 .

14Ibid .
15 Ibid .

38

Goddard, op. cit., p. 165 .

39Peter T. White, “ Satellites Gave Warning of Midwest
Floods,” National Geographic, Vol. 136, No. 4 (October 1969),
pp . 586-592 .

40R. Frank Gregg, “ A New Kind of Institution ,” Water

16 Communication with James Ferris, Office of Deputy
Administrator for Watersheds, Soil Conservation Service, USDA,
December 1971 (updated).

Spectrum , Department of the Army, Corps of Engineers (Spring
1971 ), pp. 26-32.

41 Ibid.
42

? Richard A. Schleusener, “ Weather Modification for Dis

17A levee enclosed route over unoccupied land which can be

aster Relief,” draft document for NOAA Weather Modification

intentionally flooded to divert a portion of the floodwaters from
the main channel.

Dakota School of Mines and Technology , October 1971 ), p. 11 .

18James E. Goddard , “ The Cooperative Program in the
Tennessee Valley ,” Papers on Flood Problems, p. 148.

Study , Phase 1 , ” memorandum (with attachments) to Chief, OEP

Report to Office of Emergency Preparedness (Rapid City : South

43U.S. Department of Commerce, “ PL 91-606 Disaster
PL 91-606 Disaster Study Group, May 26 , 1971 .

19

Bill S. Eichert, “ Flood Protection and Risk Evaluation ,” a
paper presented to the California State Conference on Earth

quake Risks, Monterey, California , September 23, 1971 (Davis,
Calif.: The Hydrologic Engineering Center, 1971 ).

44 Flood Study, ... Phase 1 Survey, Part I, p. 1 .
45 U.S. Department of Commerce, letter (with enclosures) to
Chief, OEP PL 91-606 Disaster Study Group, June 7 , 1971 .

20Francis C. Murphy, Regulating Flood Plain Development

46U.S. Department of Commerce,May 26 , 1971 , letter.
47

(Chicago: University of Chicago, November 1958), p. 3 .

21George R. Phippen , “ A New Course to Ararat,” Water
Spectrum , Department of the Army, Corps of Engineers (Sum
mer 1971 ) , p. 12 .

"Tennessee Valley Authority, letter (with enclosures) to
Chief, OEP PL 91-606 Disaster Study Group, August 25 , 1971 .

48U.S. Department of Commerce, June 7 , 1971 , letter.
49

22Murphy ,op . cit., p. 34 .
23 Office of the Chief of Engineers, “ Disaster Relief Study, ”
memorandum (with attachments) to OEP PL 91-606 Disaster

The Virginia Floods, ESSA/ PI 690035 (U.S. Department

of Commerce, September 1969).

5°U.S. Department of Commerce, June 7, 1971 , letter.
51

Observations in this paragraph and the following paragraph
are based on communications with M. M. Richards, Chief of

Study Group, May 26 , 1971 .
24

* Ibid . Also , “ Survey Investigation and Reports,” Pamphlet

No. 1120-2-1, Department of the Army, Office of the Chief of
Engineers (May 1 , 1967) .

25 Communication with Earl Jones, Chief Planning Development and Management Branch, Planning Division, Directorate of
Civil Works, Office of the Chief of Engineers, December 1971 .

Hydrologic Services, NOAA, August-December 1971 .

52See also Flood Study,... Phase II, Phase III, Part I, p. 3 .
53U.S. Department of Commerce, letter to Chief, OEP PL 91
606 Disaster Study Group, September 24, 1971 ; communication
with Office of Telecommunications Policy, January 1972.

Resp. App'x 110

DISASTER PREPAREDNESS : VOLUME ONE

34

54 William Buchanan et al., The 100 Year Flood, Reactions to
Hurricane Camille in Nelson, Amherst and Rockbridge Counties,
Virginia; Contract No. OEP - D - 70 3 ; Lexington, Va.: Washington
and Lee University, September 1 , 1970), p. 1 .

72 Robert W. Kates, op. cit., p . 108 .
73

A Plan for Improving ... , pp . 13, 15 .
*Office of the Chief of Engineers, May 26, 1971 memo

74

randum .

55

SA Plan for Improving the National River and Flood

Forecast and Warning Service, U.S. Department of Commerce

(Silver Spring, Md.: Office of Hydrology , December 1969), p.

7SU.S. Departmentof Agriculture, letter (with enclosures) to
Chief, OEP PL 91-606 Disaster Study Group , May 1971 .

76From Ferris, December 1971 .
77 More detailed information about Operation Foresight 1969

44 .

56lbid .
57 From Richards.

is contained in Robert M. Tarbox, “ Operation Foresight: A
Valuable Precedent,” Water Spectrum , Department of the Army,
Corps of Engineers (Summer 1969 ), pp. 19, 26 ; in ESSA and
Operation Foresight, ESSA / PI 690030 (U.S. Department of
Commerce, May 1969); and in Peter T. White, op. cit., pp . 574,

58 The Virginia Floods, p. 5.
59From Richards.
60From Richards.

592 .

61 Gilbert F. White, Choice of Adjustment to Floods
(Chicago: The University of Chicago Press, 1964 ), p . 70 .

78Federal Response to Hurricane Camille (Part 3 ), Hearings
before the Special Subcommittee on Disaster Relief of the
Committee on Public Works, Roanoke, Va., February 1970 (U.S.

62 From Richards.
63

A Plan for Improving..., p. 44 .
64 From Richards.
65
A Plan for Improving ... , p. 44.

Senate, 91st Cong., 2d Sess. 1970), pp. 1047, 1147, 1186, and

66lbid .

(Chicago: Center for Urban Studies, University of Chicago, April
1967), pp. 31 , 33.

1194.

79John R. Sheaffer et al., Introduction to Flood Proofing

67

' Arizona Floods of September 5 and 6 , 1970, NOAA NDSR
70-2 ( Rockville, Md .: U.S. Department of Commerce , July
1971 ), pp. v, 1 .
68

Ibid ., pp. 22-23 .
69 Ibid .,p. V.
70
°The Virginia Floods, p. 12.

80

° Buchanan et al., op. cit., p. 35 , and communication with
OEP Region 3 , December 1971 .
81 United States Conference of Mayors, letter (with en
closure ) to Chief, OEP PL 91-606 Disaster Study Group , June
15 , 1971 .
82 ,

Nathaniel T. Kenney , “ Southern California's Trial by Mud

71 First Five Years of the Environmental Satellite Program - A
Report to the Administrator of NOAA , National Environmental
Satellite Service (U.S. Department of Commerce, February

and Water," National Geographic, Vol. 136 , No. 4 (October
1969), pp. 560-561.

1971 ), p. 5 .

Resp. App'x 111

Chapter C. Tornadoes and Windstorms
General

as urban areas have increased in numbers, size, and
population.

Tornadoes are the most violent weather phenomena
known to man. Their funnel-shaped clouds, rotating at
velocities of up to 500 miles per hour, generally affect
areas of from 'A to 34 of a mile wide and seldom more than
16 miles long. However, they have been known to travel
over areas measuring up to 1 mile wide and 300 miles
long. Weather conditions that produce tornadoes also
manifest themselves as a less violent phenomenon , the
severe windstorm . Tornadoes and violent windstorms are

Tornadoes have been recorded in every State, but the
Midwest and Southeast are the most vulnerable areas

(Figure 2). While tornadoes have been known to occur
throughout the year, weather conditions from April
through June generally spawn the greatest number
(Figure 3).
Tornadoes differ significantly from other types of
weather- caused disasters in the measures that must be

treated as essentially the same, for the purposes of this
chapter, since in many ways the same prediction and

taken to prepare for them . The following quotation

warning systems and preparedness measures apply to

paredness

both .

phenomenon :

from a tornado-area resident illustrates the basic pre

problems

presented by

the

tornado

The violently destructive effects of tornadoes and
windstorms have made them the “ number one ” natural
disaster killers in the United States. During the past 50

We heard this warning, saying there was a twister
on the ground on the road. We immediately

years, tornadoes have killed almost 9,000 persons, while

looked out our southwest window . As near as I

violent windstorms have killed an additional 9,500 . By

could tell this twister was 300 feet from us. We

comparison, the other two prime killers, hurricanes and

took our bird - and the cage — and made it to the

floods, have killed about 5,000 and 4,000 persons,

basement. Just barely got down on the floor in the
southwest corner when it hit. It just really broke

respectively, during this period.?
ing from tornadoes has decreased by 42 percent since

loose when it did hit. And as soon as it was over we
came out of the basement and found the house

the National Weather Service Tornado Warning System

next door, where the Wolfes had lived, almost

was instituted in 1953 ( Figure 1 ). During this period, the

completely gone. It just picked up the house and
carried it across the road and dropped it. They
didn't have warning enough. If they had even 30

However, the annual average number of deaths result

population in tornado-prone areas has increased by 27

percent. There are also indications that even when
tornadoes now strike urban areas, as they did in Topeka,

Kansas, in 1966 and Lubbock , Texas, in 1970, the loss
of life tends to be moderate in proportion to the total
exposed population. This is attributed to improved

seconds they could have made it to our basement.
They always said they would so I'm sure they

didn't get any warning. ( It was too late ; the Wolfes
were dead .] ?

warning and more effective precautionary measures."
Broad estimates of property damage resulting from

No other weather disaster strikes with such sudden

tornadoes show that in 6 of the past 10 years annual

million in the remaining 5 years ( Tables 1 and 2).
Where more precise estimates are available, in cases of

ness, making timely warning a necessity for saving lives.
In view of the relatively short warning period, immedi
ately available shelter becomes an equally critical factor.
Residents of flood- and hurricane -threatened areas gen
erally have ample time to evacuate the danger area.The
suddenness and the erratic path of the tornado seldom

individual tornado disasters, the high cost in property
damage is shown more precisely. For example, the

tions, people must seek nearby protective shelter. This

losses have exceeded $50 million , and in 4 years
exceeded $5 million . During this period, windstorm
losses have exceeded $ 500 million in 5 years and $50

afford an opportunity to evacuate . Under these condi

tornado in Lubbock in May 1970 produced $ 135 million
in damages. As with other types of disasters, people

necessity must be fully appreciated by the public and its

and property have become more vulnerable to tornadoes

taken .

officials so that proper precautionary measures are

35

Resp. App'x 112

Resp. App'x 113

Cumula
tive
Averag
634 e

Totalal
Annu

Deaths
Tornado
516
66
125
191
83
35
Wind
Deat
storm
145
85
134
118
194
54
301
553
48 hs
129
74
64
107
292
196
49

250

300

350

400

450

500

550

600

58

195
426
132
744
203
115
634
279
327

).55
59
and
pSummary
971
(,1ages

434
322
462
368
401
482
417
339
480

31
28
47
51

ANNUAL
OF
DEATHS

73
298
99

AVERAGE
CUMULATIVE

1960
1967
1964
1963
1962
1958
1955
1959
1953
1965
1966
1961
1970
1969
1957
1968
1956
1954

DISASTER PREPAREDNESS :

National
data
Data
Climatologica
in
1Tornadoes
-gand
from
made
953-1970
,of
Windstorms
Average
Deaths
Annual
Craph
1.
Figure
umulative

279
300
272
264
296
287
273

137
85
164
162
260
197
405
180

116
73
66
131

36

VOLUME ONE

37

III. DISASTER PROTECTION - CHAPTER C. TORNADOES AND WINDSTORMS

Table 1.- Number of Tornadoes and Resulting Losses by

Table 2. -Windstorm Losses for Past 50 Years ( other

Years, 1921-1970 – from Climatological Data National

than tornadoes) . No definitive data on number of
windstorms and on number of deaths per storm were

Summary, 1971 (page 55) , NOAA, Environmental Data

available

Service .

for this study - from Climatological Data

National Summary, 1971 ( page 59) .
Total

Deaths property
losses +

105
108
102
130
119

202
135

7

109

6

376
794

7
7

1926
1927
1928
1929
1930

111
163
203
197
192

144
540
92
274
179

6

7
7

10
29

3
0

7

17

1941

118
167
152
169
121

53
384
58
275
210

6
7
7

106
165
183
249
199

78
313
140
212
70

7

1947
1948
1949
1950
1951
1952
1953
1954
1955

272
437,
549
593

34
230
516
35
125

236

83

4
6
1

552
29
183
87

1946

1
0

1
9

151
147
213
152
124

1943
1944
1945

0

9

14

1936
1937
1938
1939
1940

6

0

29
13
24
42
28
50
21

6
3
2
1

10
8

9
10

0

7
7
11

0
1

7
7

29
46
62
54
47

7

35

11
19

2
0

18

7

7
7

7
7

53

7
8

63
63
74

7
7

7
8
7
7

83
129

7

65

2

13
9

8

1

13

1

24
26
8

1

1956
1957
1958
1959
1960

532
864
565
589
618

1961
1962
1963
1964
1965

682
658
461
713
899

51
28
31
73
298

7
7
7
7
8

103
51
77
113
126

21
10
15
17
30

11

1966
1967
1968
1969
1970

570
912
661
604
649

99

79
125
82

13

4

116
131
66

8
8
8
8

33
26

8
6

98

16

73

8

97

24

3
6

Means :
1953-70

642

116

87

18

3

191
66
58
47

70
70

11

3
1
1
1
1
0
1
5

NOTE : The above estimated losses are based on values at time of
occurrence .
1

Storm damages in categories :
5.
6.

$ 50,000 to $500,000
$ 500,000 to $ 5,000,000

7.
8.

property

of

loss

life

(category) *

Total

$ 5,000,000 to $ 50,000,000
$ 50,000,000 and over .

7
7

1921
1922

65
133

1923

68

7

1924
1925
1926

78
88
357
64

7

1927
1928 1,947
1929
46

5
0

7
7
7

Total
loss

Year

0

23
46

36
394
362
47
70

in
category
7 & over

Year

Total
loss
of
life

Total
property
loss

(category ) *

1

6
7
7
6
6

94
151
258
147
180

1942

28
42
40
48
38

7
7

1931
1932
1933
1934
1935

65

22
27
21
26
34

7

category
6

OOOO

1921
1922
1923
1924
1925

Number of tornadoes

causing losses †
category
5

1930
1931
1932
1933
1934
1935
1936
1937
1938
1939
1940
1941
1942
1943
1944
1945
1946

49
17
306
156
109
461
121
43

2

630
60
251
43
68
61

7
8
7

8
7
7
7
7
8
7

7
7
7
8

6
7
7
7

448

7
8

85
70

7

1947
1948
1949
1950
1951
1952
1953
1954

117
52
102
210

289
137

1956
1957
1958
1959
1960
1961
1962
1963
1964

118
292
301
196
553
129
145
85
64
134
54
64

1965

107

1966
1967
1968
1969
1970

74
48
49
194
64

1955

00
OO
OOOO
O
VOO
O

Total

OOO

Number
torna
does

New

YEAR

7

Total 9,402

*Storm damages are placed in categories varying from
1 to 9 as follows :

1 - Less than $50
2-$50 to $500
3-$500 to $ 5,000
4- $ 5,000 to $ 50,000
5- $ 50,000 to $ 500,000

6-$ 500,000 to $5 million
7-$5 million to $50 million

Prediction and Warning Programs

8-$50 million to $ 500 million
9-$500 million to $5 billion

Prediction and warning of tornadoes require the
participation of governments at all levels and the

cooperation of citizens. The existing prediction and
warning system ideally is characterized by two distinct
echelons of responsibility (Figure 4).
The first echelon (Prediction and Forecasting) is
responsible for monitoring the prevailing weather situa
tion to identify those conditions that can produce

Note : The above estimated losses are based on values at
time of occurrence .

severe windstorms and tornadoes. This echelon also is

responsible for local observation (radar or human ) of
weather conditions to detect the occurrence of torna

Resp. App'x 114

38

DISASTER PREPAREDNESS :
WASHI

NGTON

TORNADO INCIDENCE BY STATES

15
0.12

50
0.85

1953-1970

ON

MINNESOTA

Vt .

45
N.H.
4.2.8

1.9

299
2.0

IDAHO

13

44
0.49

WISCONSIN

SOUTH DAKOTA
G

22

0.15
104

NEVAD

384
2.8

304

NEBRASKA

8

COLORADO

4.2

MISSOURI

29

IND

388
39

533
4.3

905
6.1

мо

203
2.7

396
6.1

KANISAS

247
1.3

0.19

IA

22
22 2.4
N ..1.5

OHIO

ILLINOIS

.

w .

VA .

77
1.GI1 NIA

28
100 0.64 VIR
1.4
KENTUCKY
INA
NORTH CAROL

DEL . 13
133 3.6
1.8

D.C.0.0

A

NEW MEXICO

OKLAHOMA

160

1092
8.7

50

ARKANSAS

143
1.9

171
3.1

311
3.7

292
3.10

SOUTH

CAROLINA

319

3.1

0.73

3.0
IA

GEORG

ALABAMA

284

1879
3.9

1.4

295

TEXAS

0.25

131

E

TENNESSE

ARIZON

CALIFORNIA

79

CONN .

2

10 AN
SYLV
PENN 1.3

MICH .

450
4.5

585

44
0.16

2.0

3.0
TOWA

UTAH

0.04

201

0.60

A

MASS .

R.1.00.0 5.1

K

NEW YOR

WYOMIN

0.07

MAINE

236

58
0.22

OREG

21
1.3

CANADA

MONTANA
NORTH DAKOTA

VOLUME ONE

MISS .

3.3
LOUISIANA

MEXICO

481 FLORIDA
4.6

1
0.00
HAWAII
ALASKA

Upper figure is number of tornadoes
Lower figure is mean annual tornadoes per 10,000 square miles

4

0.37

Zone of highest incidence

Figure 2. - Tornado Insidence by States ( 1953-1970 ) -National Weather Service (updated ).

does or windstorms. When potential threats are identi

• The warning must be understandable, convincing in
language and tone, and issued by sources the public

fied, a tornado watch is issued. The watch places the
public on alert to the possibility of tornadoes occurring
within a specific area and time period . When a tornado
has been sighted by an observer or identified by radar, a
tornado warning is issued . The warning indicates the
tornado location at the time of sighting and its expected
path of travel. The issuance of a warning means that
persons in the path of the storm should seek protective

Prediction and Forecasting. At the Federal level, the
National Weather Service of the National Oceanic and
Atmospheric Administration (NOAA ) is responsible for

shelter.

detecting tornado -producing weather conditions and for

When tornado watches or warnings are issued by the

considers to be reliable.

• It must deliver the warning message to every citizen
in the affected area regardless of the hour.

generating watch and warning messages to be trans
mitted to the public.

first echelon of the system, the second echelon (Public
Warning) is activated . This echelon is responsible for
final dissemination of the alert to the general public.
The composition and functioning of the two echelons
are discussed below. They will be assessed against the
following characteristics of what might be considered an
ideal tornado warning system :

The NOAA Tornado Weather Program involves three
organizational levels: the National Meteorological Center
(NMC ) in Suitland, Maryland; the National Severe
Storms Forecast Center (NSSFC ) in Kansas City,
Missouri; and the local National Weather Service Offices

(WSO's). Analyses, forecasting, warning, and dissemina
tion are performed progressively through these organiza

• The system must provide timely warning. Warning
received only a few minutes before the tornado may not
give its recipient time to take adequate precautions.
• It must appeal to more than one human sense . A
person not looking may be listening, and vice versa .

tional levels ( Figure 4).

The NMC, through largely computerized operations,
provides broad -scale weather analyses and predictions
for a 72 -hour period in graphic form covering the
Northern Hemisphere, with detailed analyses of the

• It must be as mechanically foolproof as possible, with

continental United States and surrounding oceans. These

its human element having a similar degree of infallibility.

are distributed to the NSSFC and the WHO's by facsimile.

Resp. App'x 115

III. DISASTER PROTECTION - CHAPTER C. TORNADOES AND WINDSTORMS

39

The NSSFC, through its Severe Local Storms Unit, is

Forecasting that a tornado will or will not occur

responsible for predicting on a continuing basis the areas
most likely to experience severe thunderstorms or

under given meteorological conditions, or that the

tornadoes and to identify the area ( usually about 27,000

present capabilities. Not enough is known about the
basic nature of the phenomenon to permit this type of
exact forecast. The National Weather Service can only
predict general areas where the probability of occurrence

square miles) expected to experience the severest
weather. The severe weather watch is normally issued

1 hour, but on occasion 2 to 3 hours, before the storm

funnel will strike at a particular location, is not within

or tornado is expected to strike an area and specifies the

is greatest and notify those areas of the threat. When the

period during which the extreme weather is most likely

area of possible occurrence is established, the tornado is
actually detected by radar or human sighting. The
tornado develops rapidly and is often short lived . The

to occur. The NOAA Weather Wire Service, the Radar

Report and Warning Coordination System (a tele
typewriter communication system for emergency dis
semination of weather observation data between WSO's),

possibility that it might be obscured by rain is high.

the Office of Civil Defense National Warning System

Radar Detection. Although most of the weather radar

(dedicated telephone circuit), the national press service
wires, and other communications systems are used to

system has modern radar equipment, World War II

disseminate the warning.
After the NSSFC notification is received , the local
WSO detects and tracks the severe weather and issues the
warning measure to the news media, to amateur radio

vintage radars are still used . These older sets provide
accurate information on general atmospheric conditions
that produce tornadoes. However, because of their age

and limited numbers, they are less accurate than newer

radars in detecting the development, intensity, and

operators, and to law enforcement, civil defense, and
other emergency agencies, which , in turn , relay the

movement of specific severe storms and tornadoes. To
identify and track a tornado by radar is most difficult

information to the public.

even with the newest equipment.

TORNADO INCIDENCE BY MONTHS 1953-1970

Moreover, many WSO's with natural disaster warning
responsibilities have no radar capability and must rely on
telephoned information from radar sites at other loca
tions. These deficiencies were noted in a 1965 Environ
mental Science Services Administration study and still
persist even though some modern sets have been

2553

acquired since then . The need for radar to fill gaps not
adequately covered by the present network still exists.
The need also exists for repeater scopes which can be

2297

installed in local WSO's to monitor the observations of a
remotely located radar.

Tornadoes

Project Skywarn. Since radar can only be relied upon

1746

to detect tornado -producing weather conditions and
does not , in most cases, detect the tornado itself, the

human observer is important in the detection process.

Accordingly, a network of volunteer spotters (Project
Skywarn) has been developed to augment the detection

1293

capabilities of local Weather Service Offices. These
spotters, consisting of thousands of public-spirited

citizens and organizations trained in recognizing the
characteristics of severe thunderstorms and tornadoes,

823)

volunteer their time and services. Their primary responsi
691

636

607

Tornado
573
465
Days
368 370
4191
311
439 347
277
372
229

bility is to sight and report the existence of these
phenomena to the nearest WSO or law enforcement

1

310
192

183
95

67
644

* 248

153

Deaths

137 103

117 36 49 48
35

82
78

Jan Feb Mar Apr May Jun Jul Aug Sept Oct Nov Dec

Figure 3. - Tornado Incidence by Months (1953-1970)
National Weather Service (updated ).

agency. In addition, these spotters help to fill the gaps in
the basic meteorological data reporting networks and aid
in the detection of tornadoes that often evade radar

because of their relatively small size and short life span.
The tornado observers who make up the “ Skywarn ”
observer network may have their vision obscured by
darkness, rainfall, structures, or landscape. Con
sequently, their sightings of tornadoes may occur only as

the funnel approaches a populated area. In March 1963,

Resp. App'x 116

40

VOLUME ONE

Rural

Observers

National Meteorological

National Severe Storms Forecast
Center, Kansas City , Mo.

Center, Suitland , Md .
City Police

Prediction
and

Echelon
Forecasting

Network
Skywarn
Project

DISASTER PREPAREDNESS :

Highway
Police

Amateur Radio
Operators

National Weather Service
Office

Community Warning Center
Sheriff's
Office

Radio
Station

Television
Station

Warning
Echelon
Public

Alarm

Signal

Civil
Defense

Telephone
Company

Key
Distributors

Public

of Warnings

Rural

Schools,

Other

Residents

Industries,

Towns

etc.

Figure 4. - NOAA / NWS Tornado Warning System - from Tornado, NOAA .

NOAA VHF WEATHER RADIO BROADCASTS

SEAT

TLE

PORTLAND
BOSTON

PORTL
AND
EUGEN
E

MINNEAPOLIS

O

BUFFAL
ERIEEVELAND
CL

EUREK

CHICAGOSANDUSKY
N
AKRO

A

SACRAMENT
O
SAN FRANCISCO
MONTEREY

NEW LONDON
NEW YORK

GATLANTIC CITY
WASHINGTON
NORFOLK

KANSAS CITY
ST . LOUIS

ATLANTA

LOS ANGELES

CHARLESTON

JACKSONVILLE

LAKE

CHARLES
NEW ORLEANS
GALVESTON

• IN OPERATION

TAMPA

WEST PALM BEACH

CORPUS CHRISTI
MIAMI

BROWNSVILLE

Figure 5. -NOAA's Radio Network Serves Areas Inhabited by About 30 Million Persons - National Weather Service.
Resp. App'x 117

III. DISASTER PROTECTION - CHAPTER C. TORNADOES AND WINDSTORMS
a tornado killed 43 persons on the outskirts of Jackson ,

major way after the receipt of tornado information from

Mississippi. The first reported sighting of this tornado

the Weather Bureau . All watch and warning bulletins

occurred only 3 minutes before it slammed into this

were transmitted as they were received, but most

populated area. A tornado watch broadcast earlier was

stations quickly returned to regular programming. By so

credited with preventing the loss ofmany more lives.

In May 1968, a tornado struck Jonesboro, Arkansas,
at 10 p.m . Pounding rains and darkness precluded

observation of the tornado and drowned out its charac
teristic roar. Thirty -six persons were killed in a city of
20 ,000. In this instance, no tornado watch was issued by
localbroadcasters. 10

doing, these stations reinforced the public's belief that

nothing serious was at hand .Radio and TV stations that
switched totally to tornado coverage impressed their
audiences with the seriousness of the situation by this
action alone.14
During the tornado warning period preceding the

Lubbock, Texas, tornadoes of May 1970, one station
left the air because it was unaware that FCC regulations

Public Warning. Since timely observation and tracking
of tornadoes cannot always be depended upon , notifying
the public that tornado conditions exist becomes of

paramount importance . As noted above, notification of
the existence of tornado conditions over specified areas

allowed it to remain on the air past normal“ sign off” in
an emergency. 15
Since the vast majority of people affected by a threat
rely upon TV and radio 10 for tornado information , it is
essential that these media contribute their fullest to

is generally available well before actual occurrence and is

convincing the public that precautions should be taken

transmitted to those governmental entities or persons
responsible for final dissemination to the public as a

when a watch or warning is ussued .

“ tornado watch .” At this pointin the warning process, a
variety of organizations enter the picture (Figure 4) .

warning means, too. The method used in warning of a

Disaster surveys indicate that a vast majority of the

people in disaster-threatened areas over the past decade
have relied on television and radio for information
concerning tornado conditions." Immediately upon
receipt of watch or warning messages, either from a

Weather Service Office or other sources, broadcast sta

tions generally interrupt scheduled programs to transmit
the warning to the public . In many cases, these stations
will cancel programming to maintain a continuous

watch . Federal Communications Commission regulations
permit stations to stay on the air past normal “ sign off ”
times when a major emergency threatens. " Radio is

probably the more effective of the two broadcast modes
in disseminating tornado warnings ; its greater flexibility
allows more rapid coverage of unanticipated events."
In addition to commercial broadcast, NOAA's VHF
FM Radio Network continuously broadcasts severe
weather information to the general public and responsi
ble authorities (on 162 .55 and 162.4 megaHertz). It

provides a reliable and authentic source of warning
information , and its capability to activate muted re
ceivers when criticalmessages are transmitted adds to its

It is not unusual for communities to use other
tornado in Leedy, Oklahoma, in 1947 is an example:
. . . almost half an hour before ( the tornado) struck ,
the funnel was sighted in the distance by a local
telephone official. He immediately sounded the
fire alarm , which broughtall the volunteer firemen
to a centralpoint. Also , [it was announced over a
high-powered public address system that a tornado
was approaching and people were advised to go to
storm cellars . In addition , volunteer firemen and
other able-bodied men canvassed the town, spread
ing the warning and assisting old people and
invalids to places of safety. As a result, almost the
total population was in storm cellars when the
tornado struck . . . [leaving) . . . two -thirds of the

town . . . completely devastated."
Some communities, upon receipt of warning from

Weather Service Offices, use a civil defense siren, which
produces a distinctive signal. Bell or light signals are
used to supplement sirens. The siren is especially
effective in spurring persons to tune in to the broadcast
media. 18 However, unless the siren 's signal is unusual, it

can be taken as just another fire or police vehicle. Sirens
are usually tested under weather and noise conditions

effectiveness. This system , however, is largely dependent

quite different from those of the howling winds, driving

on commercial power sources, which may be disrupted
by a tornado . At present, the system serves areas

rains, and hail associated with tornadoes.

inhabited by about 30 million people (Figure 5), with

potential expansion to another 150 million or more by
the end of this decade. The relatively few receivers now
available ( 180 ,000 ), limit its use , however .
Although the broadcast media constitute the princi
pal mode for disseminating warnings to the public , there

The telephone is important to the public warning

system . Public officials receive warning from Weather
Service Offices and Skywarn observers by telephone and
in turn relay this warning to lower echelons. Telephone
landlines are, however,extremely vulnerable to a tornado.

tornadoes struck Minneapolis in May 1965 concluded

The warning message itself has contributed to
the problem of disseminating the warning to the public.
As received from the Weather Service, these messages are
couched in the terms of the forecaster. If transmitted
verbatim , they can be misinterpreted because of their

that TV programming reportedly was not altered in any

matter-of-fact tone. Conversely , if the messages are

have been cases where the media have not fully

appreciated this critical role. A survey conducted after

Resp. App'x 118

42

DISASTER PREPAREDNESS :

dramatic and emotional, panic could develop; if the

VOLUME ONE

Pow ! Down came the whole fireplace and chimney
all in one piece. It glanced off the end of the
piano, and I heard the legs go crack crack ! I felt a
little bit of panic in the pit of my stomach , and I

tornado does not strike, the warning system . could be
made less credible . Interview teams from NOAA turned

up significant numbers of persons in Lubbock who
contended they had received no warning of the May
1970 tornado . Further inquiry, however, revealed that

thought, “ The legs are going to give way , and we

they had heard radio or viewed television but had found

a minute ' til you realize they've held, so the panic

will have the piano on top of us.” But it only takes
subsides. 22

nothing in these broadcasts that " warned” them to do

anything. These individuals believed that a warning was
an instruction to take cover. They felt that a siren or

As part of its continuing effort to foster community
tornado preparedness, the National Weather Service

police loudspeaker was a warning but not some broad

general instructions for tornado shelter con
provides 23

cast announcing that tornadoes were expected and that
precautionary measures must be taken . 19

It was established at the beginning of this discussion
that a tornado warning must reach every resident of a
threatened area if the warning system is to be totally

effective. What, then , is to be done if residents are asleep
or have turned off their radio or television ; or, if power

failure or destruction of telephone lines remove the

means for transmitting reports of tornado sightings?
The south -central Mississippi tornadoes of January
1969 struck at 6 a.m. while people were asleep.20 A home
installed device similar to that in the national system
now under consideration would have provided warning.

In the Palm Sunday 1965 tornadoes, electric power
and telephone lines in Indiana were downed , precluding
the timely receipt in many instances of relevant infor
mation . Provision of auxiliary power sources in this
instance would have permitted relay of the warning from
one community to the next along the anticipated path
of the tornado .

Tornado Shelter

However, providing storm shelter is a matter
of community programs and individual enterprise.
Data concerning the extent to which storm shelters
struction .

exist in tornado -threatened areas are not complete.

are, nevertheless, some general indicators of the
adequacy of shelters. For example, in most areas of the

The

Midwest, basements are commonplace. Residences with
out basements usually are equipped with outside storm
shelters. In tornado-prone areas in the Southeast, base
ment construction is often infeasible because of unfavor

able soil conditions or high water tables. Indications that
suitable shelter generally is lacking in this area were
confirmed as recently as July 1971. Federal surveys
conducted after the Mississippi Delta tornadoes of
February 1971 concluded that, although persons in the
stricken area were familiar with safety precautions, they
could not find adequate nearby shelter. Houses did not
have basements and available ditches were in some cases
filled with water. Many sought shelter in houses that
were subsequently destroyed.24
Preparedness Activities
Tornado preparedness involves planning, training, and

public education. It consists essentially of making
Safety rules published by the National Weather
Service to guide individual behavior during a period of
tornado warning virtually discount evacuation or move
ment away from the tornado as a lifesaving means. In

fact, movement away from the path of a tornado is

advance arrangements for warning and response prior to

the arrival of the tornado and for conducting lifesaving
operations in the aftermath .

The National Oceanic and Atmospheric Administra
tion has taken steps to foster development of com

prescribed only if the individual is located in open
country. For those caught in the open or who realize
their home offers no protection, ditches and areas under
culverts and bridges are recommended as shelters.

munity tornado preparedness plans. This effort consists
largely of making tornado preparedness planning guid

Persons in cities or towns, and those attending school,
are admonished to seek shelter in the structure they are
occupying or nearby. The rapidity with which a tornado

adapting this guidance to a particular local situation .
An important corollary to tornado preparedness

develops and approaches leaves little alternative but to
seek the best nearby shelter and prepare to “ ride it out.”

the plan . The planning process itself is an excellent
training vehicle for those involved . Further training is
obtained in the conduct of exercises based on the

Tornado shelter exists in several forms. A house with

a basement has a ready shelter. In some cases, shelters
are built separate from the dwellings and normally serve
other purposes, such as crop storage. Interior hallways or
lower levels of office buildings and schools are also used

as shelters. In homes without basements, one should
seek cover under heavy furniture located in the center of
the house :

ance available to communities and giving advice, through
local Weather Service Offices, on the techniques of

planning is training of public officials in the execution of

preparedness plan . For example, during November 1970,
a tornado exercise named “ Big Hummer” was conducted
by the
Mississippi State Civil Defense Office in Jack
25

None of the February 1971 tornadoes struck
Jackson ; however, it is quite likely that Jackson was
much better prepared than communities that did not
exercise their preparedness plans.
son .

Resp. App'x 119

III. DISASTER PROTECTION - CHAPTER C. TORNADOES AND WINDSTORMS
The efforts of NOAA and the local communities to

foster tornado preparedness planning are supplemented
by other Federal agencies and State governments. For
the past several years, the Office of Emergency Prepared
ness Regional Office in Denver has sponsored annual
disaster exercises based on the hypothetical occurrence
of a severe tornado . Federal, State, and local officials are
invited io attend these sessions.

To be responsive to the effects of tornadoes, pre
paredness actions must be undertaken by local govern
ments. This requirement raises a question as to the
capacity of local governments to accomplish the plan
ning job . In many smaller communities, in particular,
professional planning assistance is usually not available,
since there is little day -to -day need. Furthermore , there

has been no systematic evaluation of the adequacy of
local government tornado preparedness planning. How
ever, it is believed that there is room for improvement,
and that there is a need to survey the requirements and
encourage action where indicated .
As described above, NOAA's efforts to foster local

43

produced films and printed materials for informing the
public of the tornado threat, and has developed a
disaster operations handbook for use by local officials.27
States and communities in most tornado-prone areas

sponsor special conferences to commence preparations
for upcoming tornado seasons. This education effort
usually is a cooperative venture involving all levels of
government and all segments of the public.
As the tornado season approaches, local Weather
Service Offices intensify efforts to insure that residents
and public officials in their areas of responsibility are
aware of the tornado threat and the safety rules to
follow . An example of these efforts is found in the
Mississippi Delta area. In the 2 years preceding the

of
occurrence of the violently destructive tornadoes
28
February 1971 , the WSO at Jackson, Mississippi:
• Participated in 15 State Civil Defense Agency - spon

sored disaster preparedness conferences and exercises,
• Held four Tornado Preparedness Planning Con
ferences,

planning have been reasonably effective. OEP is develop
ing a program for organizing an increased Federal effort
to support local preparedness efforts; this should be

• Participated in 19 meetings with various professional
and citizens' associations and other groups interested in
fostering tornado preparedness,
• Prepared and distributed communications and warn

helpful to communities attempting to cope with the

ing plans for 29 communities and counties.

tornado threat.

In addition, a Red Cross film is shown by TV stations

in vulnerable areas in conjunction with tornado watch
Public Education. The most extensive and sophisti

and warning announcements. The broadcast media co

cated warning systems in existence are of little use if

operate by providing spot tornado preparedness an
nouncements and showing tornado films. Newspapers

citizens are not sufficiently aware of the meaning of the
warning and the measures that must be taken to

donate public service space for tornado preparedness

protect themselves. When years pass without a tornado

announcements .

threat to a particular community , or when repeated

watches are issued without the appearance of a tornado
or severe storm, the public tends to become complacent

about warning procedures and safety precautions.26

Despite the efforts to educate the public in the
precautionary steps, there is evidence that a warned

public has at times failed to take such steps. For
example, in the aftermath of the Palm Sunday tornadoes

To counter this situation, NOAA has developed an
of April 11 , 1965 , which swept through the Midwest and

extensive program for informing the public at large, as
well as public officials, concerning community prepared
ness for the tornado threat. This program includes :

• Seminars and planning conferences with local offi

killed 266 persons, researchers from Ohio State Univer
sity found that many persons who had received an early
tornado warning took no steps to seek shelter. Public
officials
also failed to act upon, or disseminate, warn
29

cials,

ings.

• The development of tornado preparedness com
mittees, which in turn organize public participation in
such activities,

tornadoes of February 1971 , the mayor of a small

• Distribution of printed materials and films designed
to inform the public of warning procedures and precau

More recently , however, during the Mississippi Delta
community attempted to evacuate people to shelter
several miles away but could persuade no one to leave.
Seventeen
persons were killed when the tornado
30

struck .

tionary measures,

• Distribution of tornado preparedness planning in

Failure to take action must be partially attributed to

structions ,

inadequacies in the public education program . This has

• Direct professional assistance to communities in
developing such preparedness plans.
This effort is complemented by the efforts of other
governmental and private organizations. For example,
the Federal Office of Civil Defense (OCD) has also

been confirmed by surveys conducted after the occur

rence of tornadoes. These surveys show that public
education on the implications of tornado warning and

on precautionary steps to be taken must be intensi
fied .31

Resp. App'x 120

DISASTER PREPAREDNESS : VOLUME ONE

44

Findings
1. The first and perhaps most crucial means of
life -protection from tornadoes is timely and accurate

System (DIDS), including installation of home receivers,
would be especially useful in tornado warning.
• Alternative means for transmission of tornado infor
mation and independent emergency power sources are

warning. Past technological applications have resulted in

essential because of frequent disruptions during severe

a decline in the loss of life; however, there are new

storms.

technological opportunities that offer substantial im
provement in tornado prediction and warning. At
present, tornado warning is limited because of obsoles
cent equipment, a lack of area radar and communica

tions coverage, and large dependence upon volunteer
" sky spotters.

2. The second means of lifesaving in tornadoes is
protective shelter. Given the suddenness of tornadoes
and the short - if any - warning, there is only one realistic

response - seek cover immediately ! In the Midwest,
where basements are more prevalent, a ready source of
cover is available. This source is generally lacking in the

• An increased number and improved quality of radar

Southeast because of unfavorable soil conditions and

installations would improve detection of development,
intensity, and movement of severe storms, which is the
basis for tornado prediction. However, the best radars
now available cannot, except in rare instances, clearly
and reliably indentify specific tornadoes and thus
provide precise warning.
• The planned Geo -stationary Operational Environ
mental Satellite will improve early observation of severe
storm developments and thereby enhance the forecasting
of possible tornadoes. Nevertheless, this advancement
will not do much to improve tornado warning per se .
• Expansion of NOAA's communications facilities

high water tables. Where feasible, tornado shelter should
be incorporated into new construction . The Federal Gov

preparedness by providing financial assistance and tech
nical advice to the States, through NOAA , for the estab
lishment of tornado preparedness training programs for
local government officials and members of volunteer

would improve tornado warning service : specifically, ( 1 )

service organizations.

ernment could foster this by providing for improved tor

nado protection in appropriate new Federal structures
and in federally assisted construction .
3. The Federal Government has been helpful, but

could improve its assistance programs for tornado

the Weather Wire Service, which provides warning

messages to the news media, and (2) the VHF FM Radio
Network, which provides continuous severe weather

broadcasts. Also, additional OCD National Warning
System circuits, planned for installation in Weather
Service Offices and communities, will provide interstate
connections for speeding the warning process when
tornadoes cross State boundaries.

• Adoption of a low -cost national warning system , such
as the Civil Defense Decision Information Distribution

4. The sudden and destructive onslaught of tornadoes

requires a high degree of alertness and quick, positive
response by the public to tornado warnings. With short
warning, timely action is vital to protecting lives. A

concerted public information program should be con
ducted in all vulnerable areas preceding the annual
tornado season. Information concerning tornado watch
and warning and response actions needs to be in a
convenient ready -reference form during the season .

Notes

U.S. Department of Commerce, National Oceanic and
Atmospheric Administration, Environmental Data Service,
Climatological Data National Summary , Vol. 21 , No. 13 , Year
1970 ( Asheville, N.C., 1971 ), pp. 55-59.

2 Ibid.,pp. 68 and 94 .

osed Nationwide Natural Dis

aster Warning System (Washington , D.C. , 1965), pp. 72-73 .

9J. A. Riley, Disaster - Storm Ahead, The Hogg Foundation
for Mental Health (Austin : University of Texas, 1971 ), p. 54 .

* Ibid., pp. 55-59.

4U.S. Department of Commerce, Bureau of the Census,
Statistical Abstract of the U.S. (Washington, D.C.: U.S. Govern

ment Printing Office, 1971 ), pp. 12-13 .

10Ibid .
11 Ibid.
12 The Lubbock, Texas, Tornado, p . 16.
13

S “ A Case Study of Warning Systems,” Appendix to The
Warning System in Disaster Situations: A Selective Analysis,
Series No. 9 (Columbus: Ohio State University Disaster Research
Center, 1970), pp. 58-69. Also , U.S. Department of Commerce,
The Lubbock, Texas, Tornado, May 11 , 1970 , Natural Disaster
Survey Report 70-1 (Rockville, Md . , 1970 ), p. 17 .

6 The Lubbock, Texas, Tornado , p.

8U.S. Department of Commerce, Environmental Science
Services Administration , A Pr

David Adams, The Minneapolis Tornadoes, May 6, 1965:

Notes on the Warning Process, Research Report No. 16
(Columbus: Ohio State University Disaster Research Center,
1965), p . 19.

14 Ibid., pp. 20-21.
15 The Lubbock, Texas, Tornado, p. 16 .

16Riley ,op. cit. , p. 20.

17 .

James B. Taylor et al., Tomado, A Community Responds

17L. Logan et al., A Study of the Effect of Catastrophe on

to Disaster (Seattle: University of Washington Press, 1970), pp.

Social Disorganization (Chevy Chase, Md.: Operations Research
Office, 1952), quoted in John Brouillette, A Tornado Warning

Resp. App'x 121

III. DISASTER PROTECTION - CHAPTER C. TORNADOES AND WINDSTORMS
System : Its Functioning on Palm Sunday in Indiana, Research
Report No. 15 (Columbus: Ohio State University Disaster
Research Center, 1966 ), p . 37 .

45

25 Ibid.,p. 43.

26U.S. Department of Commerce, Environmental Science

20Riley,op. cit., p. 55.

Services Administration , Tornado Preparedness Planning (Wash
ington, D.C.: U.S. Government Printing Office, 1968 ), p. 14.
27
' Disaster Operations - A Handbook for Local Government,
Department of Defense, Department of the Army, Office of Civil

21

Defense , 1971 .

18

Brouillette, op. cit. , pp. 37-38.
19 The Lubbock, Texas, Tornado, p. 16 .

Brouillette, op. cit .,pp . 34-35 .

28

22 Taylor et al., op. cit., pp. 26-27.
23U.S. Department of Commerce, National Oceanic and
Atmospheric Administration, Tornado (Washington , D.C.: U.S.
Government Printing Office, 1970), p. 15 .

Mississippi Delta Tornadoes, pp. 43-44.
29 Brouillette, op. cit. , pp . 35-37 .
30
°Mississippi Delta Tornadoes, p. 39 .
31

BIbid. Also, The Lubbock, Texas, Tornado, p. vi.

24U.S. Department of Commerce, Mississippi Delta Tor
nadoes of February 21, 1971 (Rockville, Md. , July, 1971 ), p.
39.

Resp. App'x 122

Resp. App'x 123

Chapter D . Hurricanes and Storm Surges
General

capabilities, limitations, and deficiencies in fulfilling its
mission .

The mature tropical cyclonic storm is, by any name,
deadly and devastating. An Indian Ocean cyclone in
1970 killed 200 ,000 in East Pakistan, according to
official estimates, with unofficial estimates as high as
500 ,000.' The Pacific Ocean has the world's highest
incidence of the tropical storms known there as ty
phoons. In the Western Hemisphere, these storms are

Responsibilities. The National Hurricane Center

known as hurricanes.

(NHC) at Miami has the overall responsibility for
operations and meteorological analyses related to the
position, intensity, and movement of hurricanes in the
Atlantic , the Caribbean , and the Gulf of Mexico. NHC
coordinates four Hurricane Warning Offices (HWO ’s),
which are responsible for maintaining a close watch on

The hurricane brings devastation by wind , flood
producing rain , and -most lethal of all the storm surge.

potential hurricane development in their areas of re
sponsibility and for issuing advisories and bulletins to

Since the beginning of this century , the toll in lives
exacted by hurricanes in the United States has lessened
despite the increasing population density along the Gulf

the general public and to disaster and rescue agencies in
threatened areas. The Pacific Hurricane Centers at San

and Atlantic Coasts. In effect, lives are being saved by
improved prediction and warning, while property losses
continue to rise. There is a growing concern , however,
that increasing population density , inadequate evacuation routes, ineffective building codes, and insufficient
safe refuge may lead to a major hurricane catastrophe
along the Atlantic and Gulf Coasts.?
The greatest loss of life associated with hurricanes is
from drowning, by a ratio of about nine to one. A
secondary but serious danger is electrocution caused by
fallen power lines. Often accompanying hurricanes are
tornadoes, adding their characteristically severe winds to
those of the storm . In addition , a hurricane that has
spent its initial force may still bring damaging precipita -

Francisco and Honolulu provide similar forecast and
warning services for the Eastern and Central Pacific.

Procedures. Large-scale surface and upper-air analyses
and forecasts are prepared manually and by computer
every 6 hours at the National Meteorological Center.
These surface and upper-air observations, with those
from other agencies and governments , form the back
bone of the analyses. This information is supplemented
with additional weather data reported from ships,

aircraft, and weather satellites. Special reconnaissance
flights also seek out and penetrate the hurricane. A

Hurricane Betsy in 1965 ushered in the era of the
billion dollar hurricane, causing $ 1 ,420,500 ,000 in

detailed hurricane forecast is then prepared by NHC or
by an HWO afterconsultation with NHC. This forecast is
based upon NHC statistical and dynamic techniques and
programmed for the computer. Once a hurricane nears
landfall, a coastal radar network extending from Maine
through Texas keeps constant surveillance of the hurri

property damage - slightly exceeded in 1969 by Camille ,

cane's position and movement.

tion and dangerous flash floods.

with $ 1,420 ,700,000 in damage .9 Hurricane Camille,

Public advisories and bulletinsby the Warning Offices

perhaps more than any other disaster, prompted a
thorough reappraisal of the country 's preparedness for

give the hurricane's position , intensity , direction, and
rate ofmovement, as well as the areas declared under a
hurricane watch or warning. They also include a state
ment of the effects to be expected from the storm .
Marine, aviation, and military advisories are prepared to

disasters and in particular for hurricanes. The experience

of Camille was the primary impetus to legislative study
culminating in the enactment of Public Law 91-606 , the
Disaster Relief Act of 1970 .

Prediction and Warning

provide needed special information .
Forecasts and warnings are given immediate and

widespread distribution by all available communications,
including teletypewriter, radio , telephone, newspapers,

Predict and warn - these two words succinctly define

the purpose of the hurricane warning service. A brief
synopsis of the structure and organization of this
dedicated service will lead to an examination of its

and television . Warnings and advisories are available
simultaneously at all weather stations on the Gulf and
Atlantic Coasts by special hurricane teletypewriter cir

cuits. Local weather offices are responsible for ensuring
47

Resp. App'x 124

48

DISASTER PREPAREDNESS :

VOLUME ONE

PLUS
6000
UM

TRENDS of LOSSES from HURRICANES in
THE UNITED STATES
2200

DAMAGE

5500
DEATHS
5000

1800

4500

B
+
2.4

DOLLARS
)(VALUES
1957-59
BASE
TO
ADJUSTED
OF
MILLIONS
IN
PERIODS
YEAR
FIVE
BY
DAMAGE

2000

HURRICANES
BY
STATES
UNITED
THE
IN
CAUSED
DEATHS

(Adjusted to 1957-59 base)

o

1965-69

500

1950-54
1955-59
1960-64

200

1945-49

1000

1935-39
1940-44

400

1925-29
1930-34

1500

1905-09

600

1910-14
1915-19
1920-24

2000

1900-04

800

1965-69

2500

1955-59
1960-64

1000

1950-54

3000

1940-44

1200

1945-49

3500

1935-39

1400

1925-29
1930-34

4000

1915-19
1920-24

1600

o

Figure 1. -Hurricane Damage and Deaths-from Project Stormfury - 1970, U.S. Department of Commerce, 1970.
Resp. App'x 125

III. DISASTER PROTECTION - D . HURRICANES AND STORM SURGES

49

local distribution ofadvisories and bulletins and for prep

Nonetheless, today's capability is not without de

aration of statements on local effects of the hurricane.

ficiencies. Two major gaps are in predicting (1 ) the

Definitions. As mentioned above, there are four kinds

(2) the landfall location. The 4 -year mean error in
predicting movement (regardless of distance from the

of notifications issued through the hurricane warning
service - advisories, bulletins, watches, and warnings.

coastline) during 1968-1971 was 106 nautical miles

distance to be covered by a hurricane in 24 hours and

These are defined as follows:
• Hurricane Advisory - a formal advisory message from
a National Weather Service Hurricane Warning Office

giving warning information with details on location,
intensity , and movement, and the precaution that should

be taken. When pertinent, the advisory contains specific
coastal warnings for all marine interests.
• Hurricane Bulletin - a public release for press, radio,
and television by a National Weather Service Hurricane
Warning Office, issued at times other than when Hurri
cane Advisories are required. The bulletin is similar to
the advisory but contains more general or newsworthy

improved from 158 during 1956-1959.8 Fortunately,
the error becomes smaller as the storm approaches the
coast and is monitored more closely - especially by

land -based radar. The average landfall error for a 24 -hour

prediction is approximately 100 nautical miles . This
can easily result from a 10 -degree error in direction of
motion (e.g. , 310 instead of 320° ).
In any event, the initial difficulty is further compli
cated by inability to pinpoint the exact center of the
hurricane. Reviews of hurricane forecasts reveal the

average error in positioning the storm center to be 20 to

30 miles. In 1970, it was 23 miles for all storms; the

information.

preceding year, 31.10 Errors are attributed mainly to

• Hurricane Watch - an announcement to specific areas

imprecisions in fixing the location of the monitoring
aircraft and identifying the center of a hurricane.
With time, accurate aircraft positions can be obtained
by replacing obsolete navigational equipment aboard the

that a hurricane or incipient hurricane condition poses a

threat to coastal and inland communities so that they

may take stock of their preparedness requirements, keep

“ Hurricane Hunter" aircraft. Better airborne instruments

abreast of the latest advisories and bulletins, and be

to collect meteorological information on the profile of
ready for quick action in case a hurricane warning is
issued .

• Hurricane Warning - a warning that one or more of
the following dangerous effects of a hurricane are

the hurricane - wind , temperature , pressure - are well

within the state of the art. Complementary functions are

expected in a specified coastal area within 24 hours or

performed by radars, which detect and define the
approaching storm , and by weather stations, which

less: hurricane-force winds (74 m.p.h. or more ); danger

measure essential weather variables. Satellites, which are

ously high water ; or dangerously high water and ex
ceptionally high waves, even though winds expected may
be less than hurricane force at that location .

coming into greater use , not only will observe the larger
weather picture but will serve as vital transmission links
for digitized data reporting from remote and automated
weather monitors. These data, when transmitted by high
speed, reliable communications for computer processing,

Capabilities. The existing hurricane warning capa
bility is substantial. The decreasing trend in loss of lives
in the face of rapidly mounting coastal population, while
property damage continues to climb , attests to this fact
( Figure 1 ). The contrasting death tolls from two

hurricanes striking Corpus Christi, Texas, provide cases
in point. In 1919 a hurricane with gusts estimated at 110
m.p.h. and a storm tide of 16 feet struck the city, taking
more than 300 lives and causing property damage of

could begin to resolve present ambiguities in locating the
hurricane's center and in predicting its intensity and
movement .

More basic knowledge of the atmosphere , and of
hurricanes in particular, is needed. The latest generations
of computer, communication , and display systems
should be utilized for real-time assimilation of inputs
and information processing to advance understanding
and improve forecasts and warnings.

$20.3 million . In 1970, Celia, the most devastating

It is estimated that by eliminating the need for costly

hurricane (in dollars ) ever to strike Texas, hit the city
with winds gusting to 161 m.p.h. and a storm tide of
9-10 feet. This time the damage was $453 million , but
the loss of life totaled 11. ' Between the two hurricanes,
the Corpus Christi population increased from 11,000 to
200,000 . Better public awareness of the danger and the
improvements in protection measures - both strongly
fostered by the National Weather Service (NWS)
undoubtedly contributed to the saving of lives, but the
major share of the credit belongs to improvements in
prediction and warning dissemination achieved in the

preparedness measures, such as property protection and

interim .

public evacuation , as much as $ 7 million could be

saved ."

These actions, though prudent in terms of

potential dollar losses, can themselves be very costly ; a
warning for just the Palm Beach - to -Miami area could
12
cause upwards of $2 million to be spent."

Present-day hurricane warnings are issued to cover
about 200 to 250 miles of coastline. The segment of

coastline identified as subject to storm surge is usually
100 to 125 miles long. A warning is disseminated ,
whenever possible, to allow up to at least 12 hours of
daylight for emergency protection of property and for

Resp. App'x 126

DISASTER PREPAREDNESS : VOLUME ONE

50

---Pre and Post Hurricane Stages
-Hurricane Stage

DATES OF HURRICANE
1. August 20 -September 5, 1964
CLEO

2. August 28 -September 16, 1964
DORA

AREAS MOST AFFECTED

DEATHS

DAMAGE BY

(U.S. only )

CATEGORY
8

Southern Florida,
Eastern Virginia
Northeastern Florida,

5

8

Southern Georgia

3. September 28 -October 5, 1964
HILDA

Louisiana

38

8

4. August 27 -September 12, 1965

Southern Florida,

75

9

15

8

BETSY

5. September 5-22, 1967
BEULAH
6. August 14-22, 1969
CAMILLE

7. July 30 - August 5, 1970
CELIA

Louisiana

Southern Texas
Mississippi, Louisiana, Alabama,

Virginia , West Virginia
Texas,

255
(68 missing 11-10-69)

9

11

8

New Mexico

Figure 2. - Devastating Hurricanes Affecting the United States , 1964-1970 . The track for Celia is not shown.
Category - 8 damage ranges from $50 million to $ 500 million , category 9 from $ 500 million to $ 5 billion - updated

from Some Devastating North Atlantic Hurricanes of the 20th Century, U.S. Department of Commerce, 1970.
Resp. App'x 127

III. DISASTER PROTECTION - D. HURRICANES AND STORM SURGES
population evacuation before the hurricane strikes. New
systems are being developed that may , within the next
miles. " In confining the hurricane warning to a smaller
area, costly emergency actions would be eliminated in

several States, is one conferring power on a State
Governor to direct evacuation from a threatened area.
The suggested legislation is, of course , a compendium of
proposed statutory provisions dealing with disasters, but
the power to order evacuation is of particular impor

safe areas, the number of evacuees would be reduced ,

tance under the threat of a hurricane.

10 years, reduce the warning area to about 100 to 150

and the disruption of business and daily living would be
minimized .

Threat Identification.NOAA has an important role in

Hurricane Seeding

this field of hurricane preparedness, operating through
its several specialized services and centers. Officials of

Research into means for moderating the maximum
winds and storm surges of hurricanes has been con
ducted by Federal agencies over the years since 1947,

safety of the increasing populations along the Atlantic
and Gulf Coasts, where many areas lie less than 10 feet
above sea level. Storm surges along these flat coasts can
spell disaster. Hurricane Camille , for example, had surge

the NHC have recently reiterated their concern for the

when the first attempts at seeding with dry ice were

made. These early efforts were followed by Project
Stormfury , initiated in the 1960 's. 14 Experiments were
made to test the theory that seeding will alter the cloud

structure and thereby change the balance of wind.
controlling forces near the hurricane's center. Theoretically, the result should be a chain reaction in the
physical properties of the storm , leading to a lessening of
wind force.

Much more work is needed to develop a seeding
technology and mathematical models which will offer
prospects of significant results. Studies must be made
using data provided by instrumented aircraft and satel
lites, as well as by conventional surface and upper-air
collection means. The National Oceanic and Atmospheric Administration (NOAA) has cognizance of
Project Stormfury, with the participation of the Depart.
ment ofDefense .

heights exceeding 23 feet,17 whipped by winds up to 230
miles per hour near the hurricane's eye.18 Extended
pounding by massive wind-driven waves weighing 1 ,700
pounds per cubic yard had a sledgehammer effect,
demolishing any structure not specifically designed to
withstand such forces. With the population growth in
these vulnerable areas, more and more lives and property
are at risk . Officials have warned that in a hurricane
emergency 10 years from now , unless proper planning is
done to prevent population concentration and to pro

vide for evacuation , the limited capacity of escape routes

could cost 20,000 to 50,000 lives.19
NOAA and OEP have recognized the need to identify
all coastal areas where population densities are exceeding
the available means of evacuation . The NHC Director
has named the Miami, Charleston , and New Orleans
areas as among those tentatively considered as most
critical.20 A preliminary step already underway is a

Federal Preparedness Activities

program under the National Ocean Survey to provide

In addition to the functions necessary for alerting
communities to hurricanes, Federal agencies pursue

better analysis of evacuation routes. NWS advisories
generally recommend evacuation from elevations based
on a given mean sea level (MSL ). Storm evacuation maps

many programs designed to assist communities in meet
ing hurricane emergencies. A hurricane's effects are

are now being developed by the National Oceanic Survey

seldom confined to small areas or even within a single
State's boundaries; the destructive swath is on the

subject to hurricanes. At the present pace , these will

average about 100 miles wide, and gale force winds
(above 40 miles per hour) are felt on a path of about
400 miles. 15 Clearly , a hurricane emergency will affect
many communities and involve several jurisdictions.
Figure 2 illustrates the scope of concern in recent cases .
Federal agencies assist the States and localities by
coordinating advance planning and , when a hurricane
emergency occurs, marshalling evacuation and rescue
resources to augment those locally available .
Some States vulnerable to hurricanes do not have
statutory authority to order evacuation on the scale and
at the time a hurricane advisory might indicate the need

to be urgent. Among the many provisions of the
suggested State legislation , developed by the Council
of State Governments in consultation with the Office of

Emergency Preparedness (OEP) for consideration by the

(Coastal Mapping Division ) for populated coastal areas
take a number of years to complete . A two -man team
has recently completed mapping the Mobile-New Orleans

area, to be followed by theGalveston -Houston , Corpus
Christi, and Charleston-Savannah areas.
Also, NHC is developing a Disaster Potential scale ex
pressing the intensity of a hurricane from 0 to 5 and
indicative of the pattern of damage expected .

Planning Guidance. NOAA provides planning guid
ance for local preparedness by various means. The basic
elements are contained in the NWS booklet The Home
port Story ( formerly A Model Hurricane Plan for Coastal
Communities).

The model plan stresses the importance

of local leadership and community action to develop

emergency plans and public understanding of the threat
and suggests procedures to be followed. Recommended
steps in local planning are discussed in this chapter.

Resp. App'x 128

DISASTER PREPAREDNESS: VOLUME ONE
NOAA has proposed placing Community Prepared
ness Specialists in all 50 States. At present, five such
specialists have been assigned, one each to the NWS
Offices in Miami, New Orleans, San Juan , Boston , and
Washington , D .C .-all Warning Offices under NHC
and NOAA is currently taking action to fulfill this re

Hurricane Action Plan provides for three phases of
hurricane action : Phase 1, Hurricane Watch ; Phase 2,
Hurricane Warning; and Phase 3 , Hurricane Hit . Actions
are keyed to the three phases and include movement of
administrative teams and designated staff into the

quirement. Besides working with State officials on dis

threatened area before hurricane landfall. Local Red
Cross chapters take immediate emergency action to

aster plans and procedures, Community Preparedness
Specialists will advise local officials concerning the

assist hurricane victims and evacuees - as they did during
Hurricane Camille, for example, when the Red Cross

hurricane warnings and assist in developing plans in

staffed and managed 248 shelters, in Louisiana and

hurricane risk areas.

Mississippi, caring for 77 ,358 hurricane evacuees. 23

Prior to the annual hurricane season , NWS conducts
hurricane preparedness conferences at the NHC (Miami)
and at a number of communities along the hurricane
prone coasts to upgrade local preparedness plans and to

Local Preparedness
Leadership in preparation for hurricane emergencies

increase public awareness.

NOAA also assists States and localities in improving
public understanding with a number of films depicting

hurricane experiences and explaining the warning sys
tem . These films range from short spots to 25-minute
documentaries. Prior to the onset of the 1971hurricane
season , OEP Director George A . Lincoln and NHC
Director R . H . Simpson were filmed against background
footage of Hurricane Camille as they spoke of the

depends upon the initiative and foresight of State and
local authorities. They direct State and community
planning, control most of the emergency facilities , and
have the detailed knowledge of and immediate responsi

bility for their jurisdictions.

Community Planning. The model hurricane plan for
coastal communities, referred to previously , presents a

importance of hurricane preparedness and individual

comprehensive collection of sample plans for an imagi

compliance with hurricane advisories. The 60 -second
spot was widely distributed and shown by TV stations
serving coastal areas vulnerable to hurricanes. A Red

nary city of 25 ,000 , but the principles are applicable to
mends a permanent Hurricane Preparedness Committee

Cross TV film , “ Hurricane Action ,” is also available.

be organized to plan and carry out community protec

NOAA also provides informational pamphlets such as

tion from hurricanes. The committee should be chaired
by the head of local government or his personal
representative. This committee should include the heads
of departments such as Police, Engineering, Public

the excellentHurricane - The Greatest Storm on Earth .22
Emergency Assistance . Based on lessons learned in
Hurricane Camille, OEP revised its field organization for
disasters. Public Law 91-606 subsequently authorized
the OEP Director to form emergency support teams of

a wide variety of situations. The Model Plan recom

Works, Fire, Civil Defense , Streets, Public Transit, and

and revised with slightmodifications gained from experi
ence. For this field organization , emergency support

Health and Welfare ; the managers of local telephone,
electric , gas, water , sanitation , and medical services; and
radio and TV stations. Organizations such as the Red
Cross, Salvation Army, and Mennonite Disaster Service
should also be represented. The Committee should
request appropriate State and Federal officials to consult

teams may be activated by OEP to work with a

and provide liaison with the committee.

Federal personnel in major disasters. The disaster field
organization has been tested in several major disasters

designated Federal Coordinating Officer (FCO ). Mem
bers of the FCO 's staff are designated by participating
Federal agencies.
All Federal agencies with facilities in or near coastal

communities are to be prepared to respond as quickly as
possible to support local lifesaving and life -sustaining

operations. Commanders of Department of Defense
facilities have been given authority to provide disaster
support services to nearby communities. These services
include (among others) search and rescue, emergency
transportation , appropriate evacuation assistance, emer
gency feeding, and sanitation and medical assistance.

Assessment of the Threat. The first order of
business should be to appraise the potential danger and
assess the community 's vulnerability . Major coastal
hurricanes of recent years should be reviewed , with
special attention to storm surges and associated flooding.
Highest waters of record for the community should be

determined but should not be considered as the maxi.
mum in future hurricanes.
Assumptions for tidal surge heights in average,

moderate , and major hurricanes should then be devel
oped. Maps to cover the entire community should be

vides warning information to the American National Red
Cross Headquarters and Red Cross Area Offices in

drawn to show areas to be evacuated when the assumed
hurricane tide height is, for example , 4 to 8 feet
(average), 9 to 12 feet (moderate ), 13 to 16 feet (major)

threatened coastal regions. The National Red Cross

above mean sea level.24 Locations of shelters, medical

Through direct communication facilities, NWS pro

Resp. App'x 129

III. DISASTER PROTECTION - D . HURRICANES AND STORM SURGES

facilities, bus loading points, evacuation routes, and

53

Public Education. It is quite apparent that public
understanding of the threat and of preparedness meas

other emergency features should also be shown.

ures to meet the hurricane emergency is the basis for

Central Emergency Control. An emergency control

effective response . Programs for public education ,

position should be established in a safe location with

carried out at local levels with Federal and State
assistance, will promote the greatest savings of lives.

redundant communications to all agencies concerned
with the emergency. The position should have auxiliary
power generators and equipment to assure operation of

communications and lighting. The location , where feasi

Persons who have experienced severe hurricanes have
greater respect for the threat, and generally more comply

ble, should take advantage of the established facilities of

with warnings and evacuation advisories. For example ,
after the residents of Lower Cameron Parish , Louisiana,

the local government.

had experienced Hurricane Audrey in 1957, 75 percent

Safe Shelter. Using evacuation maps and construc
tion criteria , buildings should be designated as hurricane
shelters and classified in terms of three or more expected
wind speeds and associated surge heights. If the desig
nated shelters are not sufficient to accommodate the
number of people to be evacuated, arrangements should
be made with nearby inland communities - and their Red
Cross Chapters - for the shelters necessary to accommo
date the overflow . The usual structures selected for safe

evacuated in the path of 1958 's Tropical Storm Ella
(even though advisories at that time did not advise
evacuation ) and 97 percent evacuated in accordance

with warnings issued for Hurricane Carla in 1961.25
A survey immediately following Hurricane Camille
found that those who evacuated comprehended the

danger of a storm surge much better than did those who
stayed behind. 26 Several studies have found that, where

there is a generally low level of understanding of the

shelter are schools , armories, and other large public or

danger of hurricanes, the number of voluntary evacuees

private buildings. With the rapid residental development

is relatively low .

in coastal metropolitan areas, hundreds of high -rise
dwellings and office buildings are going up. The inner
corridors of these buildings could serve as mass shelters.
Engineering surveys should be made to assess their
structural resistance , and appropriate buildings and levels

The possible means of upgrading public understand
ing and cooperation are as varied as are the modern
information media . In addition to programs linked to

the public school systems, information campaigns prior
to each hurricane season should be carried by news

should be selected .
Until there are sufficient shelters in the com

papers, radio , and television. State and local “ hurricane
preparedness” days can be declared and used for

munity to accommodate evacuees under the worst
hurricane tide heights projected, future public buildings

intensive informational programs. Materials should be
prepared and distributed which give the citizens essential

should be so constructed that they can also serve as
hurricane shelters.

information in handy reference form ; the tsunami

Public Utilities. The city water- supply plants
should be checked for vulnerability at the three assumed
levels of hurricane floods. If normal purity of water or

reference in a disaster emergency.

continued operation of the plant cannot be guaranteed ,

Findings

inundation maps placed in Hawaii telephone booksare a
good example of what can be made available for ready

provisions should be made for emergency supply or
1. More exact prediction of a hurricane's course,

rationing of water.

If the water plant, the power plant, and other

landfall, and destructive potential is needed so that

essential utilities are in vulnerable locations, they should ,
if possible, be relocated.Otherwise, floodproofingmeas
ures should be stressed . Future facilities should be built
on safe ground wherever feasible. New sewers and septic
tanks should be designed and located to minimize health
hazards associated with malfunctioning during hurricane

evacuation and emergency measures can be taken with
greater confidence and executed with maximum thor

tides or flooding. Wells should be designed and located

to minimize risks of pollution from malfunctioning

to 150 miles or less within 10 years should be considered
a minimum requirement; for 24 -hour predictions, the
landfall error should be reduced from the presentaverage
of 100 to about 75 nautical miles, the length of
coastlines alerted for storm surge should be reduced by
25 percent, and sustained wind-speeds should be esti

sewers and septic systems.
Evacuation Bottlenecks. State and local authorities
should determine whether there are potential traffic
bottlenecks on evacuation routes. If so , each jurisdiction

should take all practicable steps to remove impediments
to quick egress and ingress and should develop plans

which would expedite traffic .

oughness. The current goal of reducing the warning area

mated within 10 percent ofmaximum . Populations and
property at risk are increasing at a rate that dictates
accelerated effort to achieve forecasting objectives.
While no one can calculate the exact dollars and lives

that more accurate forecasts can save inside the area of
destruction , many millions of the annual sum now spent
for emergency measures could be saved by reducing the

Resp. App'x 130

54

DISASTER PREPAREDNESS : VOLUME ONE

current 200-250 mile warning area to less than 150

to hurricane preparedness . This appreciation can be

miles.

gained either through experience or through informa
tion; clearly, the former is more expensive than the

2. The clear fact emerges that timely and efficient
evacuation of endangered residents is the best emergency
measure at hand to protect lives. Improvements in
evacuation procedures and evacuation measures can best

latter.

6. In view of the enormous benefits that would come
from modification or neutralization of hurricanes, re

be achieved at State and local levels with continued and

search in the field of weather modification may have a

intensified assistance and guidance by Federal agencies.

very favorable cost-benefit potential. The present state

The Example State Disaster Act of 1972, prepared

of the art for hurricane seeding indicates a 10 percent

by the Council of State Governments and contained in

reduction of hurricane damage may be achievable .

Part VII, is commended to those States whose legislation
could be modified to enhance hurricane preparedness,
including provisions for mandatory evacuation when

Federal projects in weather modification can be rein
should seek to develop a seeding technology and

required.

associated mathematical models of hurricanes as a

forced. NOAA and its partners in Project Stormfury

preliminary to an operational capability.
3. Much of today's capability to forecast a hurricane
event fails to be translated into effective reaction simply

7. All jurisdictions should give priority attention to

because the specific vulnerabilities and resources of local
areas are not adequately assessed. The program directed

construction and land-use laws, regulations, and policies

by NOAA for elevation mapping should be furthered ,
and cooperative arrangements, with appropriate incen

and in the future.

which take full cognizance of the hurricane threat now

tives and assistance, should be made with State jurisdic
tions to speed the effort.

Future construction , especially in the rapidly
growing and urbanizing areas of the vulnerable coast
lines, can either compound the risk of death or damage

4. The problem of population density versus means

or, with proper guidelines, serve to alleviate the danger.

of evacuation requires study and cooperative action by

As a matter of public policy, new buildings should not
be allowed to increase the hazard to citizens of

responsible agencies at all levels to overcome present and
future limitations to escape, and to establish require
ments for hurricane shelter.

hurricane- stricken areas; indeed, new buildings, whether
public or private, should be so constructed that they add
to the community's inventory of shelters. New public
service facilities must be so constructed as to ensure

A committee of the Dade County, Florida, Federal
Executive Board is analyzing hurricane vulnerability of
the Miami area ( including Broward and Dade Counties).
This study may provide a model approach for assisting
other vulnerable coastal areas. The committee is identi

continuation of essential services in hurricane emergen
cies.

Since there is no assurance that science and

technology can substantially reduce the hurricane's
destructive forces in the foreseeable future, zoning and

fying population at risk from hurricanes of various

intensities and planning relocation to temporary refuge

construction standards should be established with par
ticular concern for the long term .

generally within walking distance. To accomplish this
objective, there is a need to rely upon structurally sound

high -rise apartments and office buildings, assured use of
which in a hurricane emergency may involve legal and
other difficulties.

8. Despite substantial progress, there is still need for
better understanding of the causes and mechanics of
hurricanes. NOAA's hurricane research programs and
operations units are sound, but further scientific investi

5. Public -information programs can and should be

gation is needed to develop improvements in prediction ,

improved in significant measure by existing public and
private agencies with facts already known. Public appre

warning, and protection . These will require equipment

ciation of the threat to life and property is indispensable

for data collection , real-time relay and processing, and
computer analysis on a large scale.

Notes

*Hurricane- The Greatest Storm on Earth , NOAA/ PA
70021, U.S. Department of Commerce, National Oceanic and

Atmospheric Administration, (Washington, D.C.: U.S. Govern
ment Printing Office, 1971 ), p. 16 .

? Robert H. Simpson, “ Hurricane: Yes or No,” NOAA, Vol.
1 , No. 3 (July 1971), p . 17. Also, communication with Arnold
L. Sugg, Deputy Director, National Hurricane Center.

3 Ibid .,p. 19.
Arnold L. Sugg, Leonard G. Pardue, and Robert L.
Carrodus, Memorable Hurricanes of the United States Since
1873 , NOAA Technical Memorandum NWS SR-56 (Fort Worth ,
Tex .: U.S. Department of Commerce, April 1971 ), p . 3 .

SHurricane - The Greatest Storm on Earth , p . 22.

Sugg, Pardue, and Carrodus, op .cit., p. 25 .

Resp. App'x 131

III. DISASTER PROTECTION - D . HURRICANES AND STORM SURGES

55

" Simpson, loc. cit.

18 Simpson ,op. cit., p. 15 .

8NWS data.

191bid ., p. 17.
20
Robert H. Simpson, discussions with OEP representatives,

Simpson , op. cit., p. 16.
10lbid .

June 24 , 1971 .

11

21

' Arnold L. Sugg, “ Economic Aspects of Hurricanes, "

The Homeport Story , NOAA / PA 70028, U.S. Department

Monthly Weather Review , Vol. 95 , No. 3 (March 1967 ), p . 145 .

of Commerce (Washington , D.C.: U.S. Government Printing

12

Office, 1971 ).

Simpson, op. cit., p. 15.
13 Ibid .

22 NOAA/ PA 70021 (revised 1971 ).

14R. H. Simpson et al., A Cloud Seeding Experiment in

23From American National Red Cross inputs to OEP for

Hurricane Esther, 1961, NHRL Report No. 60 (Washington,

“ Report by Interagency Work Group for Study of Operation

D.C.: U.S. Department of Commerce , Weather Bureau, 1963),

Camille , ” 1969 .

and R. H. Simpson and J. S. Malkus, “ Experiments in Hurricane
Modification,” Scientific American , No. 211 (1964 ), p. 27.
15 Hurricane- The Greatest Storm on Earth, p. 12 .

16Example State Disaster Act of 1972 ; see Part VII of this
report.

17U.S. Army Corps of Engineers, After Action Report
Hurricane Camille, 17-18 August 1969, (Mobile , Ala., February

24 The Homeport Story , p. 9.

25 J. A. Riley, Disaster - Storm Ahead, The Hogg Foundation
for Mental Health (Austin : University of Texas, 1971 ), p. 49.

26K. P. Wilkinson and P. J. Ross, Citizen Response to
Warnings of Hurricane Camille, Report 35 , Social Science
Research Center, Mississippi State University (State College,
Miss ., October 1970).

1970), Plate 3 .

Resp. App'x 132

Resp. App'x 133

Chapter E. Forest and Grass Fires
In purely economic terms, federally owned forest
resources yielded approximately $ 500 million from
timber sales, royalties, and grazing forest lands in 1970.
Additionally, the value at stump ( standing timber that
was subsequently cut) of State and private forest
interests was in excess of $ 144 billion in 1970. When

these yields are considered along with the incalculable
ecological benefits of the forests, it is apparent that a
viable fire preparedness program is essential for the
protection of these valuable resources.

Although wildland (including brush and tundra) fires
are an ever-present threat to life, the fact that loss of life
has been relatively low can be attributed to improved

local preparedness and emergency actions, which are be
coming increasingly important as residential development
increases in urban and rural areas .

Protection includes those programs, procedures, and

techniques that are required in the prevention, predic
tion and warning, and suppression of wildland fires. The
protection programs are a combined team effort of
Federal, State, local, and privately operated fire protec
tion agencies. The ultimate goal is the systematic
reduction of the amount of wildland acreage burned each

183.2 million acres in 154 National Forests and 3.8
million acres in 19 National Grasslands under the

National Forests Organic Administration Act of June 4,

1897, as amended? (Figure 1 ). National Forest re
sources , timber, water, forage, wildlife, and recreation
are managed in combination to meet present and future
public needs. The program of managing several forest
resources for the benefit of the greatest number of
people is known as " multiple use." This is a cardinal
principle of National Forest management as emphasized
by Congress in the Multiple Use - Sustained Yield Act of
June 12 , 1960.3
Public Lands and National Parks. The Bureau of Land

Management (BLM), U.S. Department of the Interior, is
responsible for the multiple- use management and protec
tion from wildfire of 450 million acres of public lands,

of which 277 million acres are in Alaska ." Public lands
are those federally owned lands which have not been set
aside for uses such as national forests and parks (Figure
2). Through cooperative agreements with other agencies,
both Federal and non -Federal, the Bureau also has an

important role in the protection of about 50 million
acres of private and State-owned lands, including ap
proximately 16 million acres in Alaska. Also , the Interior
Department's National Park Service administers 29 mil
lion acres, of which 14 million require fire protection.

year.

Organization and Facilities
Federal and State . The organizations of the Federal
and State wildfire control agencies are designed to meet

the peculiar conditions in their specific areas of responsi
bility and thus vary widely. Agencies of the Departments
of the Interior, Agriculture, Defense , and Commerce are

participants in Federal interagency fire control agree
ments. ' Additionally , the U.S. Forest Service, in the

State and Private Lands. State and privately owned

forest and nonforested watershed lands receive Federal
funding through the Cooperative Forest Fire Control
Program, which originated with the Weeks Law of March
1 , 1911 , as amended. The Law authorized the Secre
tary of Agriculture to enter into agreements with the

Department of Agriculture, has cooperative agreements

States “ to cooperate in the organization and mainte

with 50 States, and the Bureau of Land Management, in

nance of a system of fire protection on any private or

the Department of the Interior, with 13 States. Federal
support to the States includes financial assistance,

State forest lands ... upon the watershed of a navigable
river.” Cooperating States had to provide for a fire
protection system, to which the Federal Government
could contribute up to one -half of the cost.
The Clarke -McNary Act of 1924 and subsequent
amendments broadened and strengthened the pro
visions of the Weeks Law . State and privately owned

training, inspection, implementation of research knowl
edge and technology , and development and procurement
of fire equipment. Additionally, Federal and State
agencies have joint procurement contracts with private
operators for use of aircraft in fire suppression activities.

forest and nonforested watershed lands receive fire

National Forest System. The U.S. Forest Service,

Department of Agriculture, provides protection for

protection under authority granted by Section 2 of the
1924 Act . Fire protection capability has shown steady
growth as a result of the assistance provided by the
57

Resp. App'x 134

Los

Resp. App'x 135

.NEV
Torslan

OREG

WASH

TOURS

CARBON

".ARIZ

RICO
PUERTO

CARIGENS

ORRAS

TANTE Lovet

REc.omGION

WYO

M.N EX

CUTE

LITTLE

TEXAS

ETILE

R
R

MO

CASCO

FRANCIS
ST

N

BON

KY

TENN

IN. D

MICH

CRATTA

.GA

.VW A

)million
acres
Figure
National
he
Forest
FSystem
-U.S1Torest
Service

(3.8
Grasslands
19National

m! ecum

CHE

NATAMAL

DOIRO

REEASTGIOHERONION

(183
Forests
National
) .2154
acres
million

ALA

TALLADET

TONOSCEREGION

. SS
MI

.
ILL

.
WIS

L.A ? !

.
ARK

.
MO

IOWA

CENTRA

MINN

CROCOWY
ουστος

.
OKLA

.
KANS

ROCKYNTAIN
MOU

NEB
. R

S.DAK

.DN AK

!REGION

LAKO

LAUS

COLO
.

BEAVER

MO
. NT

RENOGIRTONHERN

SA. OUTHWESTERN

INTERMOUNTAIN
04
REGION UTAH

IDAHO

ORTH TUTE FORESTRY
JUREAU

ALASKA

CLEVELAND

C. ALIF

REGION
ALASKA

REGISUOOMN

CALIFORNIA

LDORADO

OCCU
S

CHOCO

PACNIFIC
RdEoOGoIROTNHWEST

SYSTEM
FOREST
NATIONAL
THE

.
FLA

SOUTHEASTERNN.

.0

RAISKEY

PA

N.Y

.)JN

FORESTS
NATIONAL
SERVICE
FOREST
AND

RANGE
FOREST
ANDEXPERIMENT
STATIONS

HSUPERVISOR
'S EADQUARTERS

PROJECTS
UTILIZATION
LAND
ER
REGIONAL
BOUNDARIES
HEADQUARTERS
REGIONAL

FORESTS
NATIONAL
XPUNITS
URCHASE
GRASSLANDS
29NATIONAL

OFFICES
FIELD

V.SDEPARTMENT
OFAGRICULTURE
FOREST,CEDWARD
SERVICE
P. LIFF
HIEF

-1969
JULY

.),W(M*LISADISON
ABORATORY
ANDPRIVATE
STATE
DIRECTOR
AREA
PROGRAMS
FORESTRY
INSTITUTE
OF
NORTHERN
FORESTRY TROPICAL
INSTITUTE
OF
FORESTRY

DEL

CONN

.MASS

.HN

ME

DISASTER PREPAREDNESS: VOLUME ONE

III. DISASTER PROTECTION - E . FOREST AND GRASS FIRES

A

ON
L
I
R

D

Figure 2 .- Public Lands in the Western United States. Shaded areas are public lands managed by the Department of
the Interior, Bureau of Land Management, which also administers approximately 277 million acres of public -domain

land in Alaska - BLM map .

Resp. App'x 136

60

DISASTER PREPAREDNESS : VOLUME ONE
INTERSTATE FOREST FIRE PROTECTION COMPACTS
WASHI

NGTON

MAINE

MONTAN CANADA
A

CANADA
VT .

NORTH
DAKOTA

MINN .

MICH .

OREGO

N.H.

N

MASS.

WISC .

SIDAHO

K

NEW YOR

SOUTH

WYOMI

NG

DAKOTA

R.I.

MICH .

NEVA

PENN

IOWA

DA

NEBRASKA

ILL .

N.J.

OHIO

IND .

DEL .

UTAH

MD .
IA D.c.
N
I
G
R

KANSAS

VI
KY

KENTUC
MISSOURI

ARIZONA NEW MEXICO

CALIF

CONN .

S

SEE

TENNES

HA
ORROT
LIN
N
A
C

ARKA

ORNIA
OKLAHOMA

FALA
SOUTH

MISS

CAROLINA

TEXAS

GEORGIA

FLORIDA

MEXICO

O NORTHEASTERN

LOUISIANA

2 MIDDLE ATLANTIC
3 SOUTHEASTERN

** MISS . ALSO A MEMBER OF ©
* W. VA. ALSO A MEMBER OF 3

SOUTH CENTRAL
Figure 3. - Interstate Forest Fire Protection Compacts.

Weeks and Clarke -McNary legislation. In 1912, only 11
States had joined the program ; this number increased to
29 in 1925 and to 50 in 1966. In 1912 , only 61 million

acres were protected ; by 1925 the acreage increased to
178 million and by 1970 to 520 million acres.

Emergency Measures

Disaster Relief Act of 1970.? The Office of Emer
gency Preparedness can provide assistance to the States
for the suppression of a fire if it is determined to be of
sufficient severity and magnitude to warrant a major
disaster declaration by the President . Section 225 of this
Act (Public Law 91-606 ) authorizes assistance, including

grants, to any State “ for the suppression of any fire on

publicly or privately owned forest or grassland which
threatens such destruction as would constitute a major

state Forest Fire Protection Compact ( seven States and
two Canadian Provinces), the Southeastern Interstate

Forest Fire Protection Compact (10 States), the South
Central States Forest Fire Protection Compact ( five
States), and the Middle Atlantic Interstate Forest Fire
Protection Compact ( five States). These are shown in the
map in Figure 3. The compacts require member States
“ to render all possible aid to the requesting agency
which is consonant with the maintenance of protection
at home." These compacts, in addition to emergency

help, have provided regular and systematic training
programs to improve the quality and efficiency of the

operations of each member State. Information on new
tools, equipment , and improved techniques is freely
exchanged. In addition to the above, several States have

initiated informal agreements for mutual assistance in
fire protection emergencies.

disaster . ” The Governor of the State must certify to the
need for Federal disaster assistance . Assistance provided

Emergency Recovery from Fire. Section 216 of the

under PL 91-606 is supplemental to State and local

Flood Control Act of 1950 authorizes the Secretary of

efforts.

Agriculture to use funds appropriated for flood preven
tion purposes to do emergency work following fires,
floods, or other disasters. This authority may be used

Interstate Compacts. In recognition of the need for
manpower, equipment, and supplies to meet fire emer
gencies, several mutual -aid groups have been formed
mong the States. Examples are the Northeastern Inter

only when an emergency exists, when regular programs
and funds are inadequate , and when there is a reasonable
possibility that watershed conditions can be improved

Resp. App'x 137

61

III. DISASTER PROTECTION - E . FOREST AND GRASS FIRES

sufficiently by emergency measures to protect life or
public health or minimize the hazard of damaging floods

downward trend in total acreage burned , by fires from
all causes :

and debris flows. Since Federal funds are limited to
Forest Service

$ 300,000 under the Act, cost sharing by State and local
governments is encouraged .

Area

1950-1959

National Forests
National Forests

261,264
196,000

State and private
State and private

8,074,797
3,704,871

Special Studies
As part of the continuing effort to improve fire
preparedness capability, the National Commission on

Average Acres
Burned per Year

Period

1960-1969

Fire Prevention and Control has been directed to

conduct a broad study on “ Reducing Destructive Loss
from Fire in Both Life and Property in the U.S., ” in
accordance with Title 2 of the Fire Research and Safety
Act of 1968. The study is to be completed by June 30,

1950-1959

1960-1969

Bureau of Land Management

1973 .

The Stanford Research Institute (SRI) has been
commissioned by the Forest Service to conduct a study

Public and other lands

1,235,796

1960-1969 Public and other lands

874,342

1950-1959

of “ Fire Control.” Operations research and analysis

methods will be applied to the problems of fire
prevention, prediction and warning, and fire suppression.
Program Achievements
The development of extensive road and trail systems
for ground tankers and pumpers and the use of tractors,

Notwithstanding the downward trend, BLM reports
that the 1968 and 1969 fire seasons were especially
severe . The 1969 season was one of the worst in many
years because of the many acres burned in Alaska, with
attendant losses of valuable resources.

capability. Additionally, the continuous progress in

Following is an assessment of capabilities and limi
tations of the various Federal, State, and privately
operated programs for fire prevention , for prediction
and warning, and for fire suppression.

research and development programs, fire weather fore
casting, prediction and warning systems, prevention

Fire Prevention

plows, trenchers, aircraft, and infrared air mapping units
have been combined to form an efficient preparedness

methods,and communications procedures has served to
enhance this overall fire preparedness capability through
out the Nation .

The “ Smokey Bear " program , which has been popu
larized through movie theaters, news media, and posters.

An effective fire prevention program includes com
prehensive educational and legislative enactment and
enforcement procedures, and fire risk reduction by
weather modification .

is undoubtedly the best known of the fire prevention
programs. It is estimated that the Smokey Bear program
has saved America more
than $ 10 billion in potential
9
forest resource losses.
The following statistics reflect the effectiveness of the
Federal protection program :

Public Education . The public-education campaign
conducted by Federal and State fire protection agencies

is designed to reduce the number of man-caused fires. In
addition to the “ Smokey Bear” program , “ Keep Green"

associations actively publicize the fire prevention theme,
fire prevention and forest conservation practices are
taught to school students, messages are disseminated to

National Forest Protected Areas

the public through the news media, and the Federal and
Period

Man -Caused Fires
Average per Year

Forest Visitors 10

State forestry officials establish personal contacts in the

Average per Year

forests and parks.

1940-1949

6,003

15,770,000

Despite these measures, most fires (65 percent) are
still caused by man . In an effort towards further

1960-1969

5,106

134,818,000

reduction of man -caused fires, the Forest Service analy

The following figures pertaining to lands under the

zes predominant causative groups by areas to determine
project emphasis needs. Two such projects have been
initiated. One involves special contacts in the Southern
States to reduce the high number of incendiary fires.
The second concerns reduction of man-caused fires by

control of the major Federal protection agencies, and

specific age groups, principally in the Western United

those covered by cooperative agreements, also reflect a

States.

This progress in the reduction of man-caused fires is

commendable; however, continued efforts are needed .

Resp. App'x 138

62

DISASTER PREPAREDNESS :

VOLUME ONE

Law Enforcement. The steady population movement

available information on weather conditions, plus type,

into areas of critical fire hazard has placed tremendous
burdens on fire protection agencies. The effectiveness of
fire prevention on non -Federal lands is largely dependent
on the adequacy and enforcement of State fire laws.
Some States have enacted excellent fire prevention laws

composition , and moisture content of burnable vegetative
fuels. These ratings provide information on the basic
aspects of fire behavior.

and have taken the necessary enforcement action ;

tions on the use of commercial and recreational wooded

however, there are inadequate fire laws and enforcement
procedures in many of the Nation's high -hazard areas.
Laws should require as a minimum : permits for debris

areas, shutdown of logging operations, and rescheduling

Predictions of severe fire danger may require restric

of hunting seasons.

equipment operating in the woodlands, strict zoning and
building regulations, the construction and maintenance

The need for wildfire danger rating, on a national
basis, was recognized as early as 1940 ; however, a
partially developed National Fire Danger Rating system
was not introduced until 1964. By 1965 , most fire

of fire breaks, and the establishment of access and

control organizations were using modified versions of

escape routes.

burning, the use of fire safety devices for mechanical

Lightning Modification . During the period 1966 to

the NFDR system . In recognition of the need for an
even more comprehensive national system , a National
Fire Danger Rating Research Work Unit was established

1970, 50,670 lightning fires burned 5,777,630 acres of

at Fort Collins, Colorado. As a result of current research,

forest resources, at an annual cost of $ 100 million for

a new NFDR system is expected to be operational in

11

firefighting Experiments during the period 1965-1967
indicated a possible 60 percent reduction in cloud -to
ground lightning strikes by massively seeding clouds with
silver iodide nuclei. In July 1971 , the Federal Council
for Science and Technology approved a national pro
gram for weather modification , which included a Na

1972 .

This system will initially include a subjective risk
factor ( the degree to which an area will be exposed to
ignition ). However, the ultimate goal of an objective
risk factor may not be attained for several years.

tional Lightning Suppression Program , Project Skyfire.
The objective of Skyfire is to develop a seeding

A determination must also be made as to the number

technology to reduce the frequency of forest fire
starting lightning strikes from cumulonimbus clouds.
The Forest Service estimates that current research and

and location of fire danger stations. ( See Part VIII,
Chapter D , for further details.)

development efforts could lead to an operational light
ning -suppression capability within the next 6 years.

Fire Weather Service. The National Oceanic and
Atmospheric Administration's Federal Plan for a

Prediction and Warning

National Fire Weather Service is designed to provide
improved and expanded fire weather service for all

fire control agencies. The forecast and advisory field
Lookout towers and aircraft are the key elements in
the fire detection and warning system . Fixed observation
posts, manned for continuous surveillance during the fire
seasons, are supplemented by reports from local citi
zens. Commercial and private pilots file reports to

services portion of the program is now approximately
two-thirds complete; the next portion to get underway
is a research and development program to apply im
provements in weather technology to fire weather fore
casting.

Federal Avaiation Administration stations, which relay

them to the nearest fire control agency. Federal and
State agencies are increasing the use of government
owned and privately contracted aircraft in fire detection
and warning programs. The use of airborne infrared and
electronic systems has provided the capability of detect

The goal is to improve the fire weather forecasts by
keeping the operating staff abreast of advances in

meteorology and equipping it to meet the requirements
of increasingly dynamic fire control organizations. De

velopment of forecast techniques will concentrate on

ing fires at night and through dense smoke. Weather

finding ways of combining the products of the National

forecasts and predictions of fire danger conditions are
essential in the planning of prevention and suppression

Meteorological Center at Suitland, Maryland, with local

measures, the prediction of fire behavior, and the

weather observations, to prepare forecasts for areas as
large as a national forest and as small as the area of a

implementation of effective fire suppression tactics.

going fire. (See Part VIII, Chapter D for further details.)

National Fire Danger Rating System . The National

Fire Danger Rating System (NFDR) provides information
on variations in fire danger, which information is used
in planning for the most efficient allocation of firefighting
resources. Fire danger ratings are computed from all

Public Fire Detection and Reporting. Although the
pilot reports mentioned previously have been a valuable
part of the detection and warning system , standardiza
tion of reporting procedures would improve the accuracy
of determining fire locations.

Resp. App'x 139

63

III. DISASTER PROTECTION - E . FOREST AND GRASS FIRES

The Utah Cooperative Fire Fighters, a group com

Public Lands13 – Bureau of Land Management

posed of representatives from wildland fire control
agencies, has devised an improved system of fire location

and reporting. " 2 When the Federal Aviation Administra
tion receives a pilot fire report, the location is deter
mined by magnetic heading and distance from one or
more VOR (very high frequency omni-range) stations.
This system eliminates the confusion in attempting to
convert magnetic headings to true north and in locating
by township, range, and section in FAA offices. FAA
reporting to the proper fire control agency is facilitated
by color-coding on the map, with a current list of fire
agency contacts attached to the map.

Calendar
Year

Presuppression

1968

1969

$ 4,742,000
4,856,000

1970

5,961,000

Calendar
Year

Fire Suppression

1968
1969

A vital ingredient in an effective fire suppression
program is early detection , followed by swift initial
attack with sufficient firefighting forces. (Figure 4
depicts the firefighting team .) The requirement calls for

1970

a presuppression capability in being -an organized,
trained, and supplied “ ready alert” force, which can
rapidly and effectively attack fires when they are small.
Presuppression is defined as aciivities in advance of fire

Costs

Presuppression
Manpower
(Man -Months)

Emergency
Suppression
Costs

$ 13,190,000
28,579,000
24,225,000

Emergency
Manpower
(Man -Months)

1,921
1,836
1,638

5,431
9,880
10,308

National Forests14 -Forest Service

Emergency

Fiscal

Presuppression

Year

Costs

Suppression
Costs

occurrence to ensure effective suppression action. It
includes recruitment and training of ground and aerial
forces, maintenance of fire equipment, improvement of
fire control procedures, procurement of equipment and
supplies, reduction of high -hazard fuels at strategic
locations, and prerecording of information to facilitate

1968

$ 26,200,000

1969
1970

27,500,000

1971

28,000,000
29,200,000

$ 48,800,000
24,700,000
26,400,000
85,300,000

suppression action .

Presuppression Effort. Emergency financing, to com
bat large fires, is and will continue to be an essential
part of the fire protection program . However, invest.
ment in presuppression efforts could cut not only the
costs of suppressing a fire but also the resource losses

resulting from it. The Forest Service budget presenta
tion to Congress - Explanatory Notes for the Protection
and Maintenance Appropriation , Fiscal Year 1970–
states:

If fiscal year 1970 turns out to be a year of
average fire weather severity , the National Forest
protection forces finances under this budget
would be expected to spare over one million

Several problems have been identified in the pre
suppression program , primarily these:

• Permanent protection forces are severely strained
by extended fire seasons.

• Poorly trained men are constantly faced with a
tough firefighting job that better-trained forces could
handle more efficiently and safely ; adequate prefire
training is required for emergency firefighting per
sonnel.

• Contracting for helicopters, other aircraft, bull
dozers, trucks, and other special equipment during
and under the stress of emergency conditions may
result in higher costs.
• There is a need to consider further all elements

acres from fire and avert damages to resources

of a total presuppression effort, ranging from firemen

in excess of $ 100 million . Each dollar invested

would return , based on long-term averages, ap

stations to fire control headquarters.
There is a need for reexamination of all elements

proximately $3.85 in resources spared from
and
emergency suppression costs

breaks.

damages
averted .

of construction programs for fuel breaks and fire

An excellent Department of Agriculture reports

Depending on the severity of the fire season , emer

provides the best current illustration of the effectiveness

gency suppression costs exceed presuppression costs by

of sound presuppression preparedness. As a result of the

ratios ranging from 2 : 1 to 6: 1 , as shown in the following

extreme drought conditions in the Forest Service South
western Region 3 in 1971 , the16fire danger situation was
the worst in over 35 years. In addition to such

figures. (In reference to the third table, it should be

noted that fire severity in the National Forests in FY
1969 and 1970 was not so critical as in FY 1971.)

prevention measures as closing the National Forests to the

Resp. App'x 140

Resp. App'x 141

S

rio

path
theof

fireothof-heyverche
the
crest
t
mountain
the
of
.
flames
the
contain
will

t.inupmyh
area
burned
the
mops
nt
main
ofmenandequipme
forces
s
e
n
r
0
rve
oot
ide
o
i
a
c
t
8
2
w
f
l
.
injoin
lines
legions
the
When

FIGHTING
FIRE
waging
,likepart
abattle
ofplan.Wdemands
hile

ofa s

ashes
and

Shovwispelers

acr
from

spots
smoldering

queng
hters

water
dumps
Copter
on
area
burned
the
in spot
Snags
lines
the
outside
fires

parachu
fires
spotle Smokejumpers
tight
inaccessib

SRO

,reprinted
.ciety
permission
with

Co D
W

burning
towa
fo all rd

orelo

tot
tools

food
edding
.a,bdas
nd

epot

di
plane
flying
mical aheretardant
forest
ofon
flames n secti

4Tulyromtaff
fFigure
inAction
Team
pJFirefighti
W.N-9S1968
Robert
So,(c)1Artist
Geograph
National
08icholson
phe
968

III. DISASTER PROTECTION - E . FOREST AND GRASS FIRES

public, Region 3 took the following presuppression

65

• Contract air tankers and helicopters were placed on

crews were placed on standby. The Bureau responded to
and controlled a record 301 fires during the first 75 days
of the 1970 fire season. In 1969 during this same time

base prior to contract dates.

period, 289 fires burned 500,000 acres, as compared to

action :

The Santa Fe satellite air tanker base was activated .

9,700 acres burned in 1970. ( It should be recognized ,

• Four air tankers, three lead planes, and three heli
copters were added to the regular initial attack air

however, that there are many factors involved in
comparing fire years.)

organization.

Vegetative fuels management, the treatment of the

• The normal complement of 12 smokejumpers was

flammable materials of the wildlands, is a major pre

increased to 28 .

suppression program that enables reduction of resource

• Twenty -five large models of ground tankers were
brought in from another Region.
• Eleven organized crews were activated and placed

losses and fire suppression costs. Vegetative fuels man
agement includes disposal procedures to prevent danger

throughout the Region to supplement the one inter

ous accumulation of burnable debris, the modification
or conversion of highly flammable fuels to less flamma

regional crew .

ble species, and the construction of fuel and fire breaks.

• STOL (short takeoff and landing) aircraft ( Twin
Otter and Caribou ) and a DC-6 were placed on duty .

• Fuel Disposal. In some forest areas, vegetative matter

Results of the increased presuppression effort were

accumulates at twice the rate of decomposition. The two

compared to the critical fire years of 1951 and 1956:

principal methods of disposal are piling-and -burning and
prescribed burning, which require the skillful application
of fire under rigidly controlled conditions. Although the

January 1 -July 31
1951

1971

1,263

1,765

2,319

be restricted in the near future. Efforts are extensive in

94,011

77,679

36,266

Forest Service research to find economic uses for resi

74

44

16

dues. Machines such as chippers and choppers are being

Number of fires

Area burned (NF Acres)
Average acreage per fire

1956

Forest Service employs smoke management procedures
to limit burning to times at which atmospheric conditions
are favorable to smoke convection and dispersion, eco
logical considerations may require that this procedure

used and further developed (Figure 5). Increased use
of forest vegetation and mechanical rearrangement to

If 1971 fires had burned at 1951 average acreage per

fire rate, 172,000 acres would have been lost , instead of

the 36,266 acres actually burned over ; at 1956 average

hasten decomposition are inroads to reducing accumu
lation but cannot be expected to offset this vast natural
storage of energy for many years .

acreage per fire, 102,000 acres would have been lost.
A direct comparison of area burned for the criti
cal years shows strong initial attack through success

ful manning resulted in a minimum acreage loss re

duction of 66,000 acres and a possible maximum
acreage loss reduction of 136,000 acres.17

This represents savings of $5.9 million to $ 12.2

million in wildfire suppression costs (based on today's
large fire suppression costs of $90 per acre ). Savings in
potential resource damage totaled $66 million to $ 136

• Fuel Type Conversion . The conversion of vegetative
cover of highly flammable plants to a cover of low
flammability plants is an effective method in preventing
the rapid spread of fires. Such conversions improve soil

stability, increase water yield , improve wildlife habitat,
and increase forage production in addition to reducing
fire hazards. In fiscal year 1970, the Forest Service
converted 34,941 acres of highly flammable brush to
perennial grasses. ( Figure 6 shows brush vegetation .)

million .

Although the success of this presuppression program

The Laguna brush fires of 1970, in San Diego

can be partially attributed to excellent planning in

County , California, provide a dramatic example of the

allocation of available resources, these procedures are
not always possible because of the risk involved in

need for vegetative type conversion programs. The bushy
chaparral type fuel erupted with such explosive force

reducing the initial attack capability in the neighboring

that it raged out of control for 9 days and caused

forest areas .
BLM believes

damage and destruction estimated at $ 100 million .19
(See Part VIII , Chapter D for further details .) In
addition to the direct dollar losses, virtually all normal
activities were disrupted in 13 cities of the County as
citizens responded to the disaster. Other population
centers elsewhere in the country are exposed to this
type disaster because of their proximity to highly vol

that

it

also

demonstrated

the

value of extra presuppression effort in Alaska in

1970. Because of an extremely dry period for the
previous 14 years, BLM received an emergency fund of
$ 500,000 for advance preparedness. Emergency fire
fighting crews were recruited and trained , helicopter
attack teams were supplemented , and extra air tanker

atile fuel areas.

Resp. App'x 142

66

DISASTER PREPAREDNESS :

VOLUME ONE

Figure 5. - Mechanical Chipper Disposing of Fuel Debris in the Ocheco National Forest,
Oregon , 1961 - U.S. Forest Service photo.

Figure 6.– Brush in the Laguna Area Before the Fires in San Diego County, California, in 1970 – photo courtesy of the
County of San Diego , Department of Agriculture.
Resp. App'x 143

III. DISASTER PROTECTION - E. FOREST AND GRASS FIRES

• Firebreaks. These are natural or constructed barriers

67

Project AERO- FIRE. In recognition of the need to
increase fire suppression capabilities, Congress has

where fires can be checked. Constructed firebreaks are
usually strips where vegetative material has been totally
removed . Such breaks may also improve access by fire
fighters and often accommodate firefighting equipment

development program in aerial fire suppression tech

such as tankers and tractors.

niques. Project AERO -FIRE20 will include four major

included $ 1 million in the FY 1972 appropriation for

the Forest Service to begin an accelerated research and
phases:

• Fuel Breaks. These are strategically located strips
through hazardous fuel areas where vegetation has been
modified in order to reduce the fire hazard ( see Figure
7). By FY 1970, there were 2,084 miles of fuel breaks
and 1,798 miles of firebreaks in the National Forests.
The Federal agencies estimate that up to an additional
22,000 miles of fuel breaks are needed.
Research and Development Programs. Ongoing fire

research is now on the threshhold of important new
methods to prevent fires, reduce fire hazards, provide
accurate fire weather forecasts, and detect and provide
other essential intelligence about fires. These capabili
ties, if combined with scientific and technical resources

such as are available in the aerospace industry, can
provide an essential capability for reduction of fire
control costs and resource losses and for the prevention
of forest fire disasters.

• Research and Development, to include operations
research and cost - benefit analyses of fire control
alternatives for application of new technology; develop
ment of forest fire command and control systems;
formulation of fire attack methods.

• Design, Develop, and Test Fire Control Systems, to
include designs for automatic fire weather stations;
telemetry and display units for aerial fire detection and
mapping; testing of high -altitude fire retardant delivery
from fixed wing aircraft; terrain avoidance systems for
helicopters.
• Demonstrate, Evaluate, and Train , to include demon

stration and evaluation of new technology under actual
forest fire conditions and development of the necessary

timing programs to insure effective application of re
search and development results.

Figure 7.- Fuel Break That Helped Stop the 1971 Fire in Los Padres National Forest,
California - U.S. Forest Service photo.
Resp. App'x 144

Table 1.-Cooperative Forest Fire Expenditures, FY 1970,under Section 2, Clarke-McNary Act.
Federal
State

Federal
Funds*

State and Private
Funds

Total

allotments

Expenditures

to States

FY 1971
Alabama

$ 1,921,434

Alaska
Arizona
Arkansas

2,157,109

$

491,693
168 ,331

$

2,413,127
2,325 ,440

56 ,119

54 ,740

110 ,859

1,493,947

491. 173

28,249,420

Flordia

702,247
303,825
16 ,181
6 ,362,131

1,153,860
132 ,152
125 ,868
14 ,370
649,258

1,985,120
29 ,403 ,280
834 ,399
429,693
30 ,551

Georgia

6 ,219,258,

682,862

Hawaii

161,272
1, 141, 160

260 ,375

Illinois

391,572

Indiana

213 ,580

110 , 700
88 ,680

Towa
Kansas

70,477

64,474

551,647

178 ,689

Kentucky

1,327,729

Louisiana
Maine
Maryland

2,814,718

336 ,751
544,186
455,224
193,619
225 ,129
575 ,703

California
Colorado
Connecticut

Delaware

Idaho

Massachusetts
Michigan
Minnesota

Mississippi
Missouri
Montana
Nebraska
Nevada
New Hampshire

New Jersey
New Mexico
New York

North Carolina
North Dakota
Ohio

Oklahoma
Oregon

Pennsylvania
Rhode Island

1,633,719
956 ,891
463,819

2 ,625 ,374
615 ,484
2,320,469
1,620 ,016

62,493

368,172
545,309
414 ,283

555 ,998

191,076

512,073

136 ,706

510 ,241
265 ,944
816 ,347

146 ,310
121,524
209,691

120 ,740

82,415

1,815 ,455
3,536 ,113
13 ,964

438 ,656
575 ,121
14 ,000

735 ,553
451,032
3,434,769

207,768
590 ,955

2,298,939

421,848

172,823

2,034,299
747 ,074
648 ,779
656 ,551
387 ,468
1 ,026 ,038
203, 155
2 ,254 ,111
4 ,112 ,234
27 , 964
908 ,376
658 ,800

4,025 ,724
2,720 ,787
242,806

60,648

511,313
395 ,168
107 ,229

184 ,282
3 ,493, 174
1,823,621
463,229

70 ,853

147,685
2 ,347,143

Wyoming

2 ,649 ,179
186 ,969

TOTALS

$ 97,108 ,499

502, 146
78 , 104
$ 15 ,264,772

West Virginia
Wisconsin

2,865,778

3,158 ,307

216 ,701

Vermont
Virginia
Washington

1,664,480
3 ,358 ,904
2 ,088 ,943
1,150 ,510
688,948
3,201,077
983,656

59,803

664,150

Texas
Utah

223 ,765
1,401,535
502,272
302 ,260
134 ,951
730 ,336

482,662

183 ,003
2 ,675 ,645
123 ,634
2 ,981,861
1 ,428 ,453
356 ,000
76 ,832
1,871,690
4 ,454 ,317

South Carolina
South Dakota
Tennessee

7,011,389
6 ,902,120

475 ,453
606 ,705

*Excludes funds for administration , inspection , and similar expenses.
Resp. App'x 145

5 ,061,022
880 ,851

3 ,151, 325
265 ,073

$ 112,373,271

$

473,336
163,399
44,470
470 ,660
1 ,118 ,648
142,929
123 ,030

27,730
625 ,568
662,026
56 ,712
312 ,718
108,952
85 ,972
62,021

188 ,559
344 ,012
544,372
441,332

216 ,895
218 ,259
556 ,696
356 ,938
528 ,667
422,211
181,758

146 ,980
169,930
117,817
230 ,285

82,462
442,061
564,763
16 . 180

185 ,291
213,518

581,458
408 ,974
67,090
498 ,143
70 ,842
511,472
383,112
122 ,373

68 ,694
474,669
587,785

212,086
506 ,829
97,503
$ 15 ,238 ,187

III. DISASTER PROTECTION - E . FOREST AND GRASS FIRES

69

• Operational Program , to include lease or purchase of

parts and components presents a serious operational

aircraft and helicopters, modification of aircraft and

problem . Relatively few aircraft are owned and operated
by the Federal and State protection agencies. During the
late 1950 's and 1960's, excess military aircraft, from
single engine to four engine, with load capacities of from
600 to 2 ,000 gallons, were converted to airtankers.24
These aircraft were obtained from the surplus fleet by
either competitive bid or outright sale by the General
Services Administration and were modified and tested
by the private contractors , who subsequently provided

helicopters; manufacture and maintenance of new equip

ment for use in fire command and control systems, fire
attack , and fire hazard reduction.

Modular Retardant Tanks. Themodular system con
sists of a series of fire retardant tanks which are capable

of rapid installation in military cargo aircraft, without
modification of the aircraft. Successful testing of the
modular equipment was conducted on a military

the air tanker capability to Federal and State agencies

cargo-type aircraft at Edwards Air Force Base, Cali
concept may prove its adaptability for use in other than

during the past 15 years.
The present air tanker fleet of approximately 125
aircraft is composed of TBM , B-17, B -26 , PBY, F7F , AF,

military aircraft.

S2, PV2, DC-6 , and C -119-type aircraft. The most

fornia , in August 1971. Further development of this

A California National Guard C -130 aircraft,equipped
with modular retardant tanks, was tested in the October
1971 Santa Barbara fire. Preliminary results indicate
that, with additional evaluation , military aircraft could
provide a valuable backup force to the initial attack
capability .

probable source of additional aircraft for tankers would
be certain piston -engine models that may become
available as surplus from the military services. Current
possibilities, many now in storage, are: P2V , C -119 ,
S2F2, SA16 Albatross , C -123 Small Hercules, C -130.
The DC-6 is available on the civilian market.
Most aircraft that are specifically designed for or

Federal-State Cooperative Forest Fire Control Program . Section 2 of the Clarke-McNary Act authorizes a

adaptable to air tanker operations by the aerospace
industry are currently too expensive for purchase by

Federal financial share of no more than 50 percent of

private operators. For example , the Canadian CL -125,
designed for aerial fire suppression and scheduled for

each State's total program expenditures for the year.
The Federal contribution amounted to 14 .5 percent

( $ 15 ,238 , 187) of the total program expenditures (over
$ 113 .5 million ) for FY 1970 .21 The current authori
zation of $ 20 million was approved by Congress on
October 26 , 1949. Federal, State , and private forest
fire control expenditures for FY 1970 and Federal
allotments to the States for 1971 are shown in Table 1 .
Rural Fire Protection . Within the United States, there

are approximately 420 million acres of rural lands that
are either unprotected or inadequately protected against
fire .22 These areas include cropland, pastureland, farm
steads and other farmland , nonmountainous range areas,
and lands with structures in rural communities. Approxi
mately one- fourth of the Nation 's total population
resides within

these areas. Protection from

fire is

generally poor due to lack of equipment, facilities, and
trained personnel.
With the increasing number of people and structures
exposed to the hazards of fires in these areas, it is
incumbent upon State and local governments to initiate
preparedness programs to mitigate against this hazard
and improve firefighting capability. Federal revenue

evaluation under Project AERO -FIRE , will cost $ 1 .4
million per aircraft. This is prohibitive for purchase by

private operators, requiring an outlay of $ 40 million
to $ 50 million .

Cost and efficiency of operations become the prime
considerations in selection of replacement aircraft. For
the near-term period (at least the next 10 years ), current
military surplus aircraft can efficiently perform the fire
suppression mission , with considerably reduced total
outlay of expenditures. (See Table 2 for characteristics
and performance comparisons.)

Acquisition of Air Tankers. The problem of lease vs.

sale agreements is deserving of special attention when
considering the vital role of air tankers. A typical lease
agreement requires the operators to make arrangements
to reactivate the aircraft from storage, place the aircraft
in good airworthy condition (including tank installation
for FAA Certification ), and bear the cost of the
reactivation , tank installation , and certification . There
are also restrictions on modification of the aircraft

because of possible recall by the military service. Any

sharing proposals offer one solution for financial and

undue hardships placed on operators because ofunsatis

other assistance to the States and to local governments
in organizing, training, and equipping fire forces in
rural areas and communities.
Status of the Air Tanker Force. Although the air
tanker has demonstrated its importance as an integral
part of the initial attack team , 23 the air tanker fleet is

factory lease agreements could have an adverse effect on
the efficiency of the initial attack technique in fighting
The outright sale of aircraft and helicopters excess to
military needs is complicated by existing Department of
Defense directives that require the demilitarization of
certain aircraft, a stripping process that may leave the

rapidly approaching obsolescence, and the high cost of

aircraft unsuitable for air tanker use .

wildfires.

Resp. App'x 146

DISASTER PREPAREDNESS : VOLUME ONE

70

Table 2. - Available Tanker Aircraft Characteristics and Performance Chart - from
Aircraft Flight Handbook and other aircraft reference materials.
PBya

CL- 215

Criteria

DC6b

C- 119

Cost

$ 1,400,000

Gross Weight

Retardant Capacity
Engines

43,000
1,400
R -2800 ( 2 )

$ 120,000
40,000
1,400
R - 2600 ( 2)

Engine H/ P

2100

1860

Rate of Climb, at gross

1000 ft / min .
1950 ft.

1200 ft / min .
1800 ft.

72 mph
180 mph

70 mph
180 mph

In prod'n

50-100

$ 100,0000

$ 100,0000

$ 100,0000

72,000
2,400
J -34 ( 1 )
R -4360 (2 )
3200 lbs.

90,000
3,000
R -2800 (4)

74,000
J - 34 (2)

2400

3200 lbs.d

Power Off Stall ( Landing weight)
Cruise Speed
Number Aircraft Available

1500 ft / min .
1750 ft.
74 mph
200 mph
35+e

2,400
R -3350 (2 )
3500

3500

Takeoff run , at gross

P2V

1070 ft / min .
2700 ft.
84 mph
230 mph
50-200

2700 ft / min .
2850 ft .

80 mph
220 mph

26+e

aThis aircraft can be modified to scoop water (a CL-215 capability ) at a cost of $40 to $ 50 thousand.
bAvailable on the civilian market.
CEstimated only.

djet thrust stated in pounds.
Military has in storage and active inventory.

A waiver or amendment of current policies, to permit

sale of certain excess military aircraft to private opera
tors, would allow continuation of the present aerial

constitute a major disaster and a State Governor has
requested disaster relief. This means, however, that

there must be a going fire before emergency funds can

tanker mode of operation, which has proven satisfactory

be made available. Emergency aid cannot now be made

to the Federal agencies. A determination would be

available simply because conditions threaten an imminent

required that the mission of aerial suppression is critical

“ blow -up ” or because State fire facilities are completely
committed in fighting several small fires.
The importance of preplanning for the efficient

in fire disaster control, and that the sale of suitable

aircraft to specific reliable private operators is in the
public interest.
Canada, in realization of the importance of aerial
suppression, has recently sold three U.S. P2V aircraft to
a private operator in British Columbia. Twenty -six

P2V's, currently in storage at Davis Monthan Air Force
Base, Arizona, are being considered by the Forest

Service as replacement aircraft in the air tanker force.

Additionally, some assurance would be required that
the aircraft would be used for the purpose intended. The
Secretaries of Agriculture and Defense are reviewing
the subjects as a matter of urgency in an effort to resolve
the problem of availability of suitable aerial tanker

allocation of available resources cannot be

over

emphasized. For example, prearrangement for the

transportation and housing of personnel and equip
ment , plus procedures for remuneration for their use,
will avoid legal and technical roadblocks to effective
response in emergencies.

The States could also provide contingency funds for
use in fire protection when hazardous conditions ex
haust or threaten to exhaust available resources.

Such contingency funding might be feasible under
Federal revenue sharing.

aircraft.

There is currently no long-range plan to resolve the
problem of the approaching obsolescence of the air

tanker force.25 Future plans should consider that suit

Findings
1. The losses from fires can be reduced below the

able surplus military aircraft may not be available after

current annual average by emphasizing the existing

the next 10 years.

prevention and presuppression programs by the Forest
Service and the Bureau ofLand Management.

The following programs are in being and should

Emergency Measures
Under PL 91-606 , emergency funds can be made
available whenever a fire on publicly or privately owned
forest or grassland threatens such destruction as would

receive continued emphasis:
• Construction of additional fuel breaks;

• Conversion of highly flammable woodland fuels to
less volatile vegetation;

Resp. App'x 147

III. DISASTER PROTECTION - E . FOREST AND GRASS FIRES

6. Strengthening of fire prevention and suppression

• Public education programs intended to reduce man
made fires;

• Early -season recruitment, training, and equipping
of fire suppression forces;
• A developmental program for vegetative fuels dis
posal, other than prescribed burning.

71

capabilities by State, local, and private interests will
reduce loss of life and property . Options for improve
ment in these capabilities include these measures:
• Close coordination by the Council of State Govern

ments with State legislative bodies in the enactment and
enforcement of improved fire laws.

2. A major element of the fire suppression program is
the air tanker fleet, which is fast approaching obsoles
cence. Losses from forest and grassland fires can only
increase if deterioration of the tanker fleet is allowed to
continue. Potential solutions to correct this situation

• Provision, through preparedness planning, for the
efficient use of available State resources in meeting

fire emergency conditions. Plans should include
specifics to resolve legal, technical, and fiscal problems
relevant to the movement of personnel and equip

include:

ment .

• In the near -term period (10 years ), the use of current

• Extension of rural fire control capability to cover
rural lands now either unprotected or inadequately

military surplus aircraft - thus requiring smaller total
expenditures, by the Federal Government as well as
private operators, in maintaining an efficient aerial fire
suppression capability.
• Waiver or amendment of present Defense Department

protected against fire.
• Provision of State contingency funds to permit the

policies to permit sale of the most suitable surplus

revenue sharing could be a source for such funds.

augmentation of established resources when extra
ordinary fire hazard conditions develop. Federal

military aircraft to private operators.

• Development by the Forest Service of a long -range
plan to resolve the problem of future tanker obsoles

7. The number of fires, from all causes, can be re

duced or contained by an improvement in the present

cence .

prediction and warning procedures. Programs which
3. The use ofmilitary aircraft equipped with a modular
tanking capability would provide a valuable emergency
backup force to the existing air tankerfleet.

4. Reduction of fire-igniting lightning, which causes
35 percent of forest and grass fires, is feasible. A re

offer a potential for improvement are :
• Completion by the Forest Service of the new Na
tional Fire Danger Rating System , with the dissemina
tion and use of standardized procedures by all field
agencies. Development of an “ objective risk” rating

system which would provide more accurate information

search program , Project Skyfire, has been initiated by

of fire conditions in selected fire danger rating areas.

the Forest Service.

• Completion of the NOAA " Federal Plan for a
National Fire Weather Service " to provide improved and
expanded fire weather service for all fire control

5. Aerial fire suppression is a key element of the
initial attack team in accomplishing the ultimate goal of
containing fires when they are small; however, additional
operational evaluation is necessary to determine the
most effective aerial suppression techniques. Project
AERO - FIRE, a program of the Forest Service designed
to develop these techniques, is now being funded .

agencies.

• Standardization of procedures for fire reporting by
pilots to FAA. A system similar to that of the Utah

Cooperative Fire Fighters organization should be con
sidered by the Forest Service, BLM, and FAA for use on
a national basis.

Notes

The Boise Interagency Fire Center (BIFC), Boise, Idaho, is

The Act of 1937 , Section 5 of the Act of August 28, 1937

an example of a cooperative Federal operation . Jointly operated
by the Forest Service, the Bureau of Land Management, and the
National Oceanic and Atmospheric Administration, the Center

(50 Stat. 874,43 USC 1181a) ;
• The Act of 1955 for Reciprocal Fire Protection Agreements,
Section 1856 of the Act of May 27 , 1955 (69 Stat. 66 , 42 USC

supports fire protection efforts in the Western States and Alaska.

1856a-d );

Section 601 of the Act of June 30, 1932 (47 Stat. 417 , 31

276 Stat. 1157 ; 16 USC 473-478, 479-482, 551 .
3 Public Law 86-517, 74 Stat. 215, 16 USC 528-531 .

SC 686) ;

• The Public Land Administration Act of 1960, Title 1 of the
Act of July 14 , 1960 (74 Stat. 506,43 USC 1361 ).

4 Statutory authorities are :
• The Protection Act of 1922, Section 2 of the Act of

September 20, 1922 (42 Stat. 857 , 16 USC 594) ;
• The Taylor Grazing Act of 1934 , Section 2 of the Act of
June 28, 1934 (48 Stat. 1269,43 USC 315 ) ;

564 Stat. 872 ; 16 USC 480, 500, 513-519, 521 , 552, 563 .
643 Stat. 653, 16 USC 471 , 505 , 515, 564-570.
784 Stat. 1744, 26 USC 4071 .

Resp. App'x 148

72

DISASTER PREPAREDNESS :
8

Article VIII, The Northeastern Interstate Forest Fire
Protection Compact, approved June 25 , 1949.

9 “ Smokey's Record,” pamphlet, State Foresters in coopera
tion with the U.S. Department of Agriculture, Forest Service,
revised, January 1970.

10U.S. Department of Agriculture, Memorandum to Chief,
OEP PL 91-606 Disaster Study Group, August 5 , 1971 .

11 Forest Service, Fire Control Division.

12 U.S. Department of Agriculture, Forest Service, Fire
Control Notes , Vol. 32 , No. 2 , Spring 1971 .

VOLUME ONE

18U.S. Forest Service, Division of Fire Control.
19San

Diego County , Office of Civil Defense.
Aerospace Engineering, Research and Operations for forest
Fire2prevention and control.
20

11
USDA,
August 5 , 1971 , memorandum (updated ).
22 U.S. Department of Agriculture, memorandum to Chief,

OEP PL 91-606 Disaster Study Group, September 7, 1971 .
23
Forest Service Annual Summary Reports (Air Operations),
1969 and 1970, credit fast initial attack of helicopters and air

tankers in holding down total burned acreage, by dropping more

13U.S. Department of the Interior, memorandum to Chief,
OEP PL 91-606 Disaster Study Group, August 5 , 1971 .

than 1842 million gallons of chemical fire retardants.
24
' W. T. Larkins, “ Forest Fire Air Attack Systems," Ameri

14USDA ,August 5, 1971 , memorandum (updated ).

can Aviation Historical Society Journal, Vol. 9, No. 3 (Fall

15 U.S. Department of Agriculture, Forest Service, South

1964).

western Region, Manning 1971, a Region 3 Report, Fall 1971 .

25 Office of Emergency Planning, Report to the Congress on
Investigative Study of Forest and Grass Fires, Senate Document

16Ray Bell, State Forester, New Mexico Forestry Commis
sion .

30, 90th Cong., 1st Sess., May 5 , 1967, p. 13. Finding confirmed
as still current.

17Manning ,pp. 29-30.

Resp. App'x 149

Chapter F. Earthquakes
Earthquakes, of all the natural disasters in this
country, can inflict the greatest loss of life and property .
Studies have concluded that a repetition of the 1906 San
Francisco earthquake would cause billions of dollars of

damage, with the potential loss of thousands of lives.
Earthquakes are the most difficult disaster phenom
enon to prepare for. Earthquakes may occur without
warning at any time of day, during any day of the year,
In addition to the dangers of ground shaking and sur
face faulting, earthquakes often trigger the disastrous

secondary effects of fire, floods caused by dam failure,
landslide, and tsunami. For many years, the 1906
earthquake in San Francisco was referred to as the “ San
Francisco Fire." In the aftermath of the San Fernando,

California , earthquake on February 9, 1971 , some

80,000 residents were evacuated because of danger of
collapse of the Van Norman Dam .

When lack of warning is coupled with multiple

same amount of property damage and half as many
deaths.

The San Fernando earthquake is especially note
worthy because of what might have happened - if it had
occurred at the center instead of the edge of the
metropolitan area, if at a later hour of the day, if at a

greater intensity, if the Van Norman dam had collapsed
completely.
It is clear that there is a continuing risk and an in

creasing vulnerability to earthquakes in the United States:
... the pressures of population growth are causing

expansion into areas that are more difficult to
develop safely than those of past decades - often
into mountainous areas, active fault zones, or areas
of artificial fill that necessarily have earthquake
related problems associated with them.
Society is rapidly becoming more complex and

hazards, preparedness measures must take into account

interdependent ; so that we are becoming increas

the particular vulnerability of the community at risk
population, buildings, roads, utility networks, and
emergency services. (See Part VIII , Chapter E, in
Volume III of this report for further elaboration of the
earthquake phenomenon.)

ingly reliant on critical facilities whose loss can
create major disasters.

The increasing population density in some of
our cities creates problems such as a very localized

earthquake causing a major catastrophe, such as
Risks and Consequences

Thousands of small earthquakes occur in the United
States every year. Moderate or severe earthquakes are
relatively in frequent, but they pose a significant threat

for which special hazard reduction and preparedness

was not possible some years ago.
And, rightly or wrongly, I think people in
creasingly look to their governmental agencies to
help them or protect them from natural disasters
such as earthquakes, even when they individually
have demonstrated little foresight - or even negli
3

measures are needed. The seismic risk map of the United
States ( Figure 1 ), depicts the relative damage expectancy
from earthquakes, and shows that several population
centers are located in high -risk areas. The record of
major earthquakes occurring in the United States since

and preparedness and the prospects for the near-term

1865 is shown in Table 1 .

future .

gence-in preparing for such events.

The following discussion examines the current status
of earthquake hazard reduction , prediction , warning,

In the past 8 years , the United States has experienced
one severe and one moderate earthquake. The severe

Hazard Reduction Considerations

earthquake in Alaska in 1964 (between 8.3 and 8.7 on

the Richter scale) released energy equivalent to 100
underground 100 -megaton nuclear explosions on one

line . ' The Alaska earthquake caused $500 million in
property damage, 131 deaths, and hundreds of injuries,
The moderate earthquake at San Fernando (6.6 on the
Richter scale) released only about 1/1000 as much
energy as the Alaska earthquake , yet it caused about the

The most effective hazard reduction program would
be to avoid building in the areas of high seismic risk .
However, this is not entirely practical or feasible.
Therefore, public officials have to devise programs to
reduce earthquake hazards without impairing economic
activities and growth while evolving improved protec
tion . This is not an easy task, as witnessed by the
73

Resp. App'x 150

DISASTER PREPAREDNESS : VOLUME ONE
controversies in Los Angeles and San Francisco as to

Most deaths caused directly by an earthquake are the

whether " skyscrapers ” should be allowed in those cities.

result of structural collapse, although there are engineer

Table 1.- Property Damage in Major U .S. Earthquakes,

earthquake resistant at a small additional cost. A more

serious and costly problem is to make older existing

in millions of dollars (actual) — from Earthquake Investi
gation in the United States (Rev. 1969) , U . S . Department
of Commerce ; OEP data used for 1971 earthquake.

buildings safe.

ing techniques to make new structures reasonably

Year

Locality

It should be more generally understood that
earthquake losses are largely unnecessary and

preventable. In the whole of past history, some

Damage

thing like 90 percent of the loss of life in
earthquakes, and a major fraction of the destruc

1865 San Francisco , Calif.
1868 San Francisco , Calif.
1872 Owens Valley, Calif.
1886

Charleston , S .C .

tion and economic loss, has been due to the failure
of weak structures, such as would never be erected

23. 0

under any modern system of building regulation
and inspection . This is particularly evident in the

1.4

Mediterranean region and in the Near East; but the

1892 Vacaville , Calif.
1898 Mare Island , Calif .

1906 San Francisco , Calif.
Fire loss

1915 Imperial Valley , Calif.
1918 Puerto Rico (tsunami damage from
earthquake in Mona Passage)
1918 San Jacinto and Hemet, Calif.
1925 Santa Barbara, Calif.
1933 Long Beach , Calif.

24 .0
500 .0
4 .0

40 .0
4 .0

1940
1941
1941
1944
1946

6 .0

1951 Terminal Island , Calif. (oil wells only )

1952
1954
1954
1955
1955
1957

Kern County , Calif.
Eureka-Arcata, Calif.
Wilkes-Barre, Pa .
Terminal Island , Calif. (oil wells only )
Oakland-Walnut Creek , Calif .
Hawaii ( tsunamidamage from
earthquake in Aleutians)
1957 San Francisco , Calif.
1959 Hebgen Lake,Mont. (damage to
timber and roads)
1960 Hawaii and U .S. West Coast ( tsunami
damage from earthquake off Chile)

Control over building codes, construction permits,
zoning, and land use are almost entirely in the jurisdic
tion of State and local governments. The Federal
Government currently can exercise direct control only

.2

8 .0

1935 Helena,Mont.

Imperial Valley, Calif.
Santa Barbara, Calif.
Torrance-Gardena, Calif.
Cornwall, Canada-Massena, N .Y .
Hawaii (tsunamidamage from
earthquake in Aleutians)
1949 Puget Sound ,Wash .
1949 Terminal Island, Calif. (oil wells only )

condition exists in many countries, even to a

considerable extent righthere in California.

.1

1.0
2. 0
25 .0
25 .0

9.0
3 .0

60. 0
2.1
1.0
3 .0
1 .0

3.0
1.0

over its own construction, although it has the potential
for indirect control through its loan and grantprograms.
Also, it can provide information regarding seismic safety
to interested officials and encourage safety standards by

example and influence. (See Part IV , Chapter A , Land
Use and Construction.)

The formulation of building codes and zoning ordi

nances to reduce the hazard from earthquakes depends
upon more than a knowledge of the seismic, geologic ,
and engineering principles involved . Legal, social, and

economic factors must be considered in conjunction
with the scientific and engineering factors to determine
what constitutes “ acceptable risk .”

The most graphic manifestation of State interest in
earthquake hazard reduction is the California Legis

lature's Joint Committee on Seismic Safety , organized to
develop a seismic safety plan for the State. The 4.

year planning effort also includes private and Federal
earthquake experts. In September 1971, the Committee
sponsored an Earthquake Risk Conference “ to examine

11.0

intensively the concept of 'risk ' and approaches to its
evaluation with the purpose of defining 'acceptable

25.5

earthquake risk' as a basis for public policy for the State

of California ." S The participants at the 3-day meeting
examined the problem from several standpoints and

1961 Terminal Island, Calif. (oil wells only )

4 .5

1964 Alaska and U .S . West Coast (tsunami
damage from earthquake near
Anchorage - includes earthquake
damage in Alaska)
1965 Puget Sound ,Wash .
1966 Dulce, N .Mex .

500 .0

concluded not with an explicit statement of “ acceptable
risk ” but with a sentiment that the risk should not be
greater than that of death by disease . It was concluded

12.5

present risk to life from earthquakes in California is at

1969 Santa Rosa, Calif.

1971 San Fernando , Calif.
Total

further that, on the basis of potential fatalities, the
2

an unacceptable level.“

6 .3

The design of structures to withstand an earthquake

553.0

must consider not only the expected magnitude of the

1,862.1

which the structure is to be placed. Earthquake effects

seismic shock but also the stability of the ground upon
Resp. App'x 151

Resp. App'x 152

2504

|30
°

°
35

°
40

°
45

2

0-No
.ZONE
damage

3

°
115

various
the
zones

°
125

*Scale
M.M.
the
.of

2

°
120

°
110

Intensity
.Mercalli
1931
of
Scale
*Modified

2

3

°
115

°105

°
105

1

°
100

This
and
earthquakes
damaging
of
distribution
known
the
on
based
is
map
*intensities
eM.M.
earthquakes
these
with
;associated
release
strain
of
vidence
provinces
be
to
believed
structures
geologic
major
of
consideration
and
.The
activity
earthquake
with
associated
occurrence
of
frequency
probable
to
ratings
assigning
considered
not
was
zone
each
in
earthquakes
damaging

*Scale
cto
the
of
higher
and
VIII
intensity
orresponds
3-M.M.M.
;ZONE
damage
ajor

Sof
*VII
M.M.
intensity
cM.the
todamage
orresponds
;ZONE
oderate
2-cale

1-Mistant
:dZONE
damage
cause
may
earthquakes
inor
than
greater
periods
fundamental
with
structures
to
intensities
Vato
VI
nd
;corresponds
seconds
1.0

MAP
RISK
SEISMIC
UNITED
THE
OF
STATES

1100
°
100

2

°
95

°
9.5

°
90

°90

100

o

°
85

200

2

°
85

MILES
300

°
80

400

500

2

°
80

on
Conference
World
Fourth
the
CEarthquake
(Vof
,)S.11pEngineering
hile
antiago
9-27
ol
p969

3

3

°
75
700

1

°
75

650

States
,"PStudies
roceedings
Risk
1.fter
-aFigure
States
Conterminous
of
“SMap
Algermissen
T.
S.
United
the
in
eismic

25
°

°
30

°
35

°
40

4.50

III. DISASTER PROTECTION - F . EARTHQUAKES
75

DISASTER PREPAREDNESS: VOLUME ONE
on structures built on soft soil are magnified, in some
instances, as compared to those built on firm soils or on
bedrock . The vibrations last longer and are of greater

amplitude and lesser frequency . As a result, proximity to
a fault is not the only important factor in determining

hazard vulnerability . For this reason, it is not un
common to have areas farther away from the epicenter

sustain more damage than areas closer to the earth
quake's center. Other factors, such as the impact of
vertical in addition to horizontal motions, also con-

tribute to the effectan earthquakehas on a structure.
Therefore , to establish appropriate design criteria and
to formulate meaningful zoning regulations, it is neces
sary to have accurate descriptions of all pertinent
geologic considerations in the area of concern . Correla

The San Fernando earthquake demonstrated that
proper engineering and site selection can reduce damage.
It also demonstrated that scientific knowledge is not yet
sufficient, particularly with respect to ground motions

close to epicentral regions and to the effects of energy
transmission through different geologic structures.8
Overall, the application ofhazard reduction measures
is quite variable . Some localities have enacted land-use
planning ordinances and building codes directed toward
reducing earthquake hazards. But local ordinances are

not uniform , nor are they always enforced. Standards
for safe design and construction tend to be relaxed after
disastrous earthquakes because of pressures to reestab

lish local economies and to limit dollar costs to the
communities.

tion of these descriptions with the types of seismic
activity to be anticipated in the area yields a geologic
hazard map useful to planners and engineers.

National Hazard Reduction Program

Local Hazard Reduction Programs

tailed recommendations for programs to achieve earth

Three successive government panels have made de
quake hazard reduction . Many aspects of those recom
The City of Long Beach , California , provides an

mendations are now reflected in a proposed joint

excellent example of local effort to reduce the hazards

program designed for both long- and short-term hazard

of earthquakes. In an examination of the earthquake
hazard provisions of its building code, Long Beach
adopted a concept called “ Balanced Risk .” Risk maps
for the city were developed . Design and construction
standards were rated in terms of hazard and risks. After
assessment of the seismic and geologic hazards and the
required resistance capacity of a structure , and after
considering the number of occupants and its intended
life , there evolved a balanced risk formula for both new
construction and existing buildings. This interesting
approach by a municipality could prove useful in dealing
with a serious, complex problem . Similar efforts , but
using different approaches, have been conducted in Las
Vegas, Nevada, and in Santa Rosa , California .
California's Field Act is an example of statewide

reduction goals. The participating agencies are the
National Oceanic and Atmospheric Administration
(NOAA), the U .S. Geological Survey (USGS), the Ad
vanced Research Projects Agency (ARPA), the National

legislation that has been demonstrably effective. The

Field Actwas passed by the Legislature in 1933 after the

Science Foundation (NSF ), the U . S. Army Corps of

Engineers (COE), the National Bureau of Standards
(NBS),and the Department of Housing and Urban Devel
opment (HUD ). Relevant portions of the program are

summarized below :

• Locate geologically hazardous areas (NOAA, USGS,
NSF ). Locate geologically hazardous areas and categorize

detailed risk posed by earthquakes in these areas. Pre
pare detailed maps at scales useful for national, regional,
and local planning, detailing the risk associated with
sites because of past or potential earthquakes. Identify
active and inactive faults and continuously monitor

design of public school buildings. The 1971 earthquake

seismic activity and crustal strain accumulation .
• Develop damage resistantdesign technology and assist

in the San Fernando area tested about 200 pre - and

community planning (NSF , COE, HUD, NBS, NOAA ).

Long Beach earthquake. It requires earthquake resistant

post-Field Act school buildings. Of the former, 85 were

Develop methods to improve the design of structures

found to be potentially dangerous in the event of a
similar earthquake, and 13 buildings on 10 school sites
had to be demolished. Most of the post-Field Act
schools were undamaged, although some of them suf
fered minor damage (to ceilings and light fixtures, for

to resist damage from earthquakes. Relate acceptable
risk of structural damage to known seismic hazard .

example ).” Because of the time of the earthquake (6 : 01

a.m .), the buildings were not occupied, hence there are
no comparative data on personal injury .
Among structures other than school buildings, those
designed for earthquake resistance generally sustained
far less damage than those that were not so designed,
except in some cases in which ground motion far

exceeded design expectations.

Quantify seismic hazards to structures through expan
sion of the strong-motion instrument network . Inspect
Federal properties (by class of structure) in high- risk
areas and identify those that are hazardous. Develop
model building codes and land-use criteria for use by
the FederalGovernment and local jurisdictions. Promote
the development of community action programs to alle
viate known hazards.
• Predict earthquakes and their effects on the works of
man (USGS, NOAA , NSF ). Develop an understanding of
earthquake mechanisms by studies of measurable geo

Resp. App'x 153

III. DISASTER PROTECTION - F. EARTHQUAKES
physical phenomena. Correlate changes in these phenom
ena with earthquake occurrences to identify precursor
events, which will make possible predicting earthquakes
on a regular basis. Improve existing prediction or warn-,

ing services for secondary earthquake effects such as
tsunamis and landslides.
• Demonstrate the feasibility of controlling the maxi

mum size of future earthquakes (USGS, ARPA,NOAA,
NSF). Demonstrate through long-term field experi
ments (10 years) in an unpopulated area that fluid in
jection and withdrawal can be used to manipulate the
strain accumulation and release rates along active
faults. The goal is to release strain through a large
number of small events over a period of time rather than

allowing the strain to accumulate to the point where
there is a major earthquake. Upon scientific evaluation
of the results of this experiment, the techniques, if
successful, can be applied to more populated high-risk
areas.

In addition to this program , an environment and

resources study of the San Francisco Bay area by the

ogy, the University of Michigan, the University of

Illinois, Pennsylvania State University, and the Colorado
School of Mines. Most of these programs are concerned

with the physical properties of earthquakes, using
sensitive measuring devices and conducting extensive
postearthquake analysis. Also, there are many other
schools with extensive programsin seismology, including
Lamont-Doherty Geological Observatory, Columbia
University, and Saint Louis University.
Federal research is carried out by NOAA at its

Environmental Research Laboratory at Boulder, Colo
rado, where seismology and geomagnetism functions
were recently consolidated. The close association of

these functions will enhance the timely application of
research findings.
USGS, through its National Center for Earthquake
Research , conducts a comprehensive program of earth
quake investigations. Included in the program are field
studies and theoretical analysis of earthquake ground
motion , with particular emphasis on geologic effects.
Federal research on design criteria , land use, and
construction are discussed in Part IV , Chapter A .

Department of Housing and Urban Development and the

Department of the Interior has been in progress since
January 1970. This 4-year study will provide, among
other things, information on potential earthquake haz
ards and the effect of earthquake shock on adjoining

resistant construction practices.

Monitoring. The fundamental input of all dynamic
research in earthquake engineering is the ground motion
to which the structure is subjected in a major earth
quake. For several decades, NOAA's strong ground
motion seismological network has provided data on
ground motion (acceleration , displacement, velocity)
near earthquake sources, in representative geologic en
vironments, and in a wide range of structures. Other
important information is derived from postcard can
vasses after earthquakes and through actual field investi
gation in earthquake damage areas.

Earthquake Research

The design of structures to withstand earthquakes
requires knowledge of ground motion and the interac

Comprehensive analytical seismology studies are car
ried on by universities. This work is primarily theoretical
research that, in the longer term , might lead to
prediction and prevention or modification . However ,
very effective programs in engineering seismology are

tion between structure and ground, as well as the
responses of structures to earthquake motions. During
the past few years, acceleration recording instruments
have been installed in buildings in order to obtain data
from future earthquakes. An important contribution to
monitoring, usually carried on jointly by USGS, NOAA ,

lands. It is anticipated the data collected will be used for

planning and developing urban facilities.

HUD is also financing a study by NOAA, in coopera
tion with USGS, the Earthquake Engineering Research
Institute , and Professor Karl Steinbrugge, in earthquake
damage estimates, seismic risk mapping, and earthquake

conducted by many universities and institutions. The

Earthquake Engineering Research Institute has acted as a
catalyst among universities, governments, and con
sultants in theoretical and applied research .
Most of the seismic research conducted by universi
ties is financed by grants from the FederalGovernment,
primarily the National Science Foundation , NOAA , and
USGS.
Several universities throughout the country have

and local universities under Federal grants , is the field
study of earthquake aftershocks.

Scientists are concerned that man , through the
development and modification of his environment, may

have actually caused some earthquakes and increased the
potential for others. The effect of water loading on the
stresses contained in basin rocks and along faults in the

tion and cooperate with the seismic research programs of
the Federal Government. Among these are the California

rift valley behind major dams has long been a concern of
seismologists and engineers. Many of the largest dams,
such as Hoover, Shasta , Hungry Horse , Flaming Gorge,
and Glen Canyon , have been monitored for seismic
activity for many years. It is evident that during the

Institute of Technology, the University of California

water-filling process definite seismic readjustment took

(Berkeley ), the University of Southern California, Stanford University, the Massachusetts Institute of Technol

place. There have been small but no major earthquakes
connected with the development of these reservoirs in

long maintained programs of earthquake investiga

Resp. App'x 154

DISASTER PREPAREDNESS :

78

the 30 years this monitoring has been carried out in the
United States. 10

The advent of underground nuclear testing brought
with it concern about the possibility of triggering
earthquakes. As a result, underground tests are intensely
monitored for seismic effects. While each blast produces
a swarm of small -readjustment microearthquakes, no
event to date, including the recent explosion on
Amchitka Island in Alaska, has been followed by an

VOLUME ONE

realizable goal and is fundamental to the engineers
being able to design safe and economic buildings.
• In a later statement, Dr. Jerry Eaton of the USGS
National Center for Earthquake Research also com

mented on achieving the prediction goal:
Our goal in all of this work is to develop a
thorough and precise understanding of the physi
cal processes and materials involved in earthquake
generation, so that we might develop a technique
for the prediction of future earthquakes.

earthquake such as would occur through natural proc
esses in the surrounding tectonic structure . " 1

We feel that the goal is a realistic one. The
problem is well defined , many of the tools that are
required are available, and we are rapidly develop
ing concepts, which lead us to believe that we may
be able to predict some earthquakes in the next

Mapping. Analyses of the data provided by the
monitoring programs can be expressed on maps which
depict seismicity, seismic risk, faults, and geologic

10 years.

hazards.

Through its program of earthquake location and field
investigation , NOAA provides extensive seismicity maps
depicting the locations of all earthquakes of interest.
These are then used as a basis for seismic risk maps,
which attempt to assign maximum values of earthquake
disturbances.

• On short -term prediction of an earthquake, this
exchange took place:
Senator Tunney : In retrospect, what would
have been necessary to predict the February quake
24 hours in advance as to occurrence of earth
shock, as to location , measuring instruments, and

Among the more productive efforts of USGS in
earthquake investigation has been the mapping of active
faults. The active strands of the entire San Andreas fault
are being identified and mapped in detail for the first
time.

A series of strip maps has been published covering
more than half of the San Andreas fault, showing
recently active breaks. These maps are important in
indicating lines of future activity and contribute to the
calculation of risk estimates and the formulation of

so on?

Dr. Allen : I think this is still a long- range goal,

if you're talking about a 24 -hour warning system
for earthquakes. I think at the moment it is
completely unrealistic.
• Senator Birch Bayh asked if accurate earthquake
predictions could be made and what Congress could do.
After Dr. Robert Wallace, also of the USGS research
center, described the elements of prediction as " where

things will happen, what will happen , and when they can

zoning regulations.
Prediction. There is some confusion on the subject of
earthquake prediction . Often the layman thinks of
earthquake prediction in the same terms as he has
become accustomed to think of weather forecasting and

happen , " Dr. Eaton commented :
The prediction of the time of an earthquake is
still some distance away from us. At the present
time, it would be unrealistic to sit here and say we

can set up a warning system and predict the time
of an impending earthquake.
The easiest prediction would be ... to predict

storm warnings, that is, a highly probable occurrence at

where the earthquakes will probably occur.

particular locations in a matter of hours. On the other
hand , when the scientist thinks and talks about earth

Dr. Charles Richter, the inventor of the Richter Scale,

quake prediction, he has quite a different perspective in

expresses what is perhaps the most pessimistic view on

mind. The following extracts from the Senate hearings
on the San Fernando Earthquake illustrate this situa

the subject:

tion : 12

tion away from the actually possible measures to
diminish the damaging effects of future earth
quakes. Conversely, the impossibility of exact
prediction is used as an argument against any and
all precautionary measures, ignoring the obvious
fact that where earthquakes have occurred in the
past they may be expected in the future. 13
What Dr. Richter appears to be urging is that the
primary commitment of resources should be in hazard
reduction measures with а calculable payoff - for
example, demolishing or reinforcing unsafe buildings

• Asked by Senator John Tunney if earthquake predic
tion was a national goal, Dr. Clarence Allen of the
California Institute of Technology responded:

Oh , yes. ... I think it is a reasonable goal to
work for. Although , I should point out that what
the engineer really needs is not so much an earth
quake prediction; what he needs to know is what
are the statistics, what is the probability of an

earthquake in a given location at a given time. This
is what he needs and what he wants. And, really,
the problem of earthquake probability is a more

Public obsession with prediction diverts atten

rather than research and experimentation to develop a

Resp. App'x 155

III. DISASTER PROTECTION - F. EARTHQUAKES
prediction capability that will undoubtedly take years, if
it is possible to develop at all.
The National Center for Earthquake Research and
NOAA have a long-range experimental research program

79

The NOAA Earthquake Mechanism Laboratory, lo
cated at San Francisco, measures the gradual deforma
tion of rocks accompanying the accumulation of strain
at sites along the San Andreas Fault. Continuous strain

with the objective of developing a technique for the
prediction of future earthquakes. Other nations with
high seismic risk, notably Japan and Russia, are pursuing

measurement offers a potential observational approach

similar experiments, and the Japanese have achieved

includes seismic monitoring and monitoring changes in

some degree of success in the city of Matsushio under
special circumstances.

the magnetic field and telluric currents. These are the
main observational data for determining the mechanism
and the state of strain along strike-slip faults, such as the

Instrumentation . The major components needed for

to the prediction of earthquakes. These strain measure

ments are only one part of NOAA's program , which

as for other applications, are highly sensitive instruments

San Andreas Fault system .
The NOAA Environmental Research Laboratories
record data from seismographs located in remote areas in

that monitor precursors such as microearthquakes and
fault movements as well as the day -to -day activity on the

computer location of epicenters. NOAA's National

major faults . In the first instance, efforts are made to
find a correlation between the thousands of tiny quakes

Earthquake Information Center, now at Rockville, Mary
land, is scheduled for consolidation with the other

and the development of a big one. In the second
instance, attempts are made to identify those areas

activities at Boulder.
The California Institute of Technology , supported by

where no slippage is occurring between the two sides of

NSF, operates a network of 20 monitoring stations in
northern California. Some 49 other stations are
operated by universities in connection with their geologi
cal and geophysical stations. The primary instrumenta

developing an earthquake prediction capability, as well

the fault and where the tension is not being released.
Although there are opposing views, some scientists
believe that these areas are most prone to severe

several western States. This activity provides rapid

leased quickly when the fault does rupture. The San

tion networks in the Western States are depicted in
Figure 2. Only those seismograph stations that teleme

Andreas Fault system , the earthquake zone presenting

ter their signals directly to a central point are shown.

the greatest economic and life hazard to California urban
areas, is a case in point:

are collected in other ways. In addition, accelerographs

The segments of the fault (San Andreas) nearest

are placed in many buildings throughout the area
covered by the seismograph networks.
Most scientists are in general agreement that an

earthquakes, since massive amounts of energy are re

San Francisco ( from San Juan Batista , about 75
miles southeast of San Francisco, northwestward

to Pt. Arena) and Los Angeles ( Cajon Pass north
west to Cholame, about 175 miles southeast of

Each network contains other stations from which data

increase in the amount of instrumentation in high

seismic areas is essential to progress in the ability to

San Francisco) are segments that appear to remain

predict, prevent, or mitigate earthquake occurrences.
More knowledge is needed regarding the relationship

" locked” for periods of time, long enough for
large strain to build up and be released in strong

between faults and earthquake occurrence , as well as the
properties of earthquakes and the behavior of structures

earthquakes. The last significant slippage on the

during such occurrences. Recent in -depth analysis of the
subject, such as the OST report Earthquake Hazard

northern segment was in 1906 and on the southern
segment in 1857....
Therefore, our two main urban areas in Cali
fornia are along segments of the San Andreas fault

Reduction ( August 1970 ), recommends increased in

strumentation as a prerequisite to progress in all applica
tions.

where we can expect the largest shocks. 14
The present instrumentation networks in the United

Experimentation . Several experimental activities have

States are concentrated in the western part of the

excited some scientists with the potential of finding the
key to developing an earthquake prediction capability,
perhaps even a control capability .

country .

The USGS National Center for Earthquake Research ,
located at Menlo Park , California , undertakes intensive

For example, an apparent correlation has been

studies of the San Andreas Fault system . Special
emphasis is placed on the development of the seismic

discovered between the injection of fluid into subter

instrumentation and the data reduction and analysis

procedures required for detailed studies of microearth

quakes and aftershocks. High priority is also placed on
the development of improved instruments and experi

ments for measuring crustal strain, including creep,
across and near the fault.

ranean rock and the occurrence of low -intensity earth
quakes. This occurred unexpectedly at Denver when the
local area began experiencing small earthquakes soon
after the nearby Rocky Mountain Arsenal commenced
pumping fluid wastes into the ground. When the

injection was discontinued , the level of earthquake
occurrence decreased sharply.

Resp. App'x 156

DISASTER PREPAREDNESS: VOLUME ONE
OREGON

IDAHO
ENVIRONMENTAL

NEVADA

WYOMING

CALIFORNIA
UNIVERSITY
OF NEVADA

RESEARCH

LABORATORIES
(NOAA )

BOULDER

RENO
UTAH

SAN FRANCISCO
EARTHQUAKE
MECHANISMS

COLORADO

LABORATORY
(NOAA )

NEW MEXICO

LAS VEGAS
ENVIRONMENTAL
RESEARCH LABORATORIES

CALIF. INSTITUTE
OF TECHNOLOGY

(NOAA )

PASADENA

ARIZONA

Figure 2. - Seismograph Networks in Western
States - stations from which data are tele
metered (top ) to earthquake research facilities
at Boulder, Reno, San Francisco, Pasadena, and
Las Vegas, and (left) to the University of
California at Berkeley and to the USGS Na
tional Center for Earthquake Research atMenlo
Park - NOAA maps.
BERKELEY
NEVADA

MENLO PARK

CALIFORNIA

CALIFORNIA

MEXICO

Resp. App'x 157

Sui
su
Bay n

III. DISASTER PROTECTION - F . EARTHQUAKES

San Pablo Bay

INTENSITY

Oakland

San Francisco

San Francisco Bay

San Jose

Figure 3. - Isoseismal Map of the San Francisco
Bay Area, showing estimated modified Mercalli
intensities for a major (8 .3 ) earthquake on the

San Andreas Fault, based on historical seis

mological observations and local geology
NOAA .
Such temblors were then recorded in the vicinity of

operations. The closely coordinated and cooperative

Rangely, Colorado , after construction of the Unita Basin
Seismological Observatory in 1962 with its network of
14 stations. Here , the occurrences of earthquakes above

proved invaluable in that disaster. ( Their experience has
been presented in a new film , “ Date With Disaster,"

magnitude 0 .5 varies from one to 70 per day . The two
largest, both on April 21, 1970 , had magnitudes of 3.7

being used by OEP to foster improved emergency
medical preparedness throughout the United States as

to 4.0 on the Richter scale. Testing is continuing to verify
the theory that increased pressure caused the quakes

departments and volunteer agencies executed a remark

by releasing the strain between the two sides of a fault.

arrangements of the hospitals in Los Angeles County

part of the disaster preparedness program .) The police

ably successful evacuation of some 80 ,000 residents
below the Van Norman dam . Yet all of the evaluation

Disaster Preparedness
The San Fernando earthquake demonstrated the
importance of disaster preparedness and emergency

reports make the point that the next time “ we may not
be so lucky.” All of the things that might have happened
in this event emphasize thatmuch needs to be done to
develop preparedness for a major earthquake.

Resp. App'x 158

Earthquake Study. Preparedness for earthquakes, and
disasters in general, begins with an understanding of the
threat and how to respond. The first involves vulner
ability analysis and potential damage assessment; the

DISASTER PREPAREDNESS : VOLUME ONE

ot

?

ſt col
ha et
Le dd in
e
n

82

experienced in any previous disaster in the United
States, (3) a major disaster under PL 91-606 would be

declared, and (4 ) massive Federal assistance would be

procedures and resources, to cope with the situation .

required and forthcoming immediately.
The planning responsibilities include all conceivable
activity involved in preparing for emergency operations:

Response to localized and minor disasters does not

search and rescue, evacuation , mass shelter, feeding and

second involves plans, including the use of emergency
require elaborate analysis and planning; but this is not

food distribution , damage and safety assessment and

the case with a major earthquake in a modern metro
politan area. This consideration underlies the actions
taken this year by the Director of OEP in commissioning
NOAA to conduct an earthquake damage assessment
study . Concurrently, OEP issued planning assignments to

posting, emergency transportation and traffic control,

all Federal agencies concerning emergency response to a

Disaster Evaluation

fire suppression and prevention, emergency utilities,
scientific evaluation , volunteer services coordination,
disaster loans, public facility restoration .

major earthquake in the San Francisco Bay area-a

prototype of the research -planning program to be
expanded to other high -risk areas.
The earthquake study considers a range of intensities
(6.0, 7.0, and 8.3 on the Richter scale) along the two
major faults - the San Andreas and the Hayward - and
covers the nine counties of the San Francisco Bay area .

For each earthquake event, an isoseismal map (Figure 3)
is prepared , reflecting the various intensity ranges
( similar to contour lines) of the earthquake. Correlated
with the maps for each event are the surface structures

buildings, roads, utility networks - which have been
evaluated and scored in terms of their earthquake
resistance . ( Figure 4 shows hospital facilities in relation
to the faults.) The interaction of the released physical
forces and the structures is analysed, and the damage is
estimated.15

Actual earthquakes are the real, albeit unwanted,
laboratories for developing new and improved prepared
ness procedures. The lessons learned from past earth
quakes have the advantage of realism that hypothetical
situations do not. A joint panel of the National Academy
of Sciences -National Academy of Engineering in its post
disaster analyses of the San Fernando event found that:
(Some of the earthquake losses can and will be
restored in the near future; others, such as trans
portation disruption, severe damage to public
utilities and facilities, and serious lowering of
water-storage capacity , will take longer, and some

losses can never be regained. These effects will
force stricter earthquake preparedness measures in
the Los Angeles area - and, we may hope, in other
areas as well as it is now clear that better
preparation could have been made.16

The high degree of thoroughness being applied in this
study is well illustrated by the detailed key -facilities
inventories that have been prepared. Each type of

earthquake established important lessons for prepared

structure or facility is described and evaluated and is

ness planning.

Other analyses and evaluations of the San Fernando

depicted on detailed maps of the San Francisco Bay
area .

This study represents the first comprehensive ana
lytical attempt to estimate beforehand what may be

expected to happen in the event of a major disaster. It
offers a reasoned and calculated basis for disaster

preparedness planning, which heretofore has been largely
based on relatively gross estimates and characterized by
generalities.

Plan for Response. While the earthquake study
proceeds to develop the basis, an Outline Plan for
Federal Response has been issued for detailed planning
by Federal, State , and local governments. It includes

Medical Aspects. An OEP evaluation team with
representatives of HEW and VA found that the existence
of a hospital communication net was most valuable in
providing medical care to the victims. Much of the
confusion and misallocation of resources common in
past emergencies did not occur. Patients were smoothly
transferred from damaged hospitals to undamaged ones.
Hospitals closest to the disaster area were not saturated
with victims, as a central command post directed
ambulance drivers where to take individuals, depending
on the types of injuries. However, it was also found that:

Had the lack of ( 1 ) emergency medical com

planning assignments for 28 Federal agencies and covers

munications in the public sector, (2) predisaster
planning, (3) organizations, and ( 4 ) definition of

32 emergency functions.
The objective of the plan is to ensure a comprehen

lines of medical authority and responsibility,
which prevailed in this quake, been coupled with

sive preparedness and rapid response at the disaster area

the circumstances of a similar quake occurring at a
more vulnerable hour and with an epicenter closer
to the densely developed center of Los Angeles,

in order to minimize loss of life and initiate prompt
recovery efforts. The planning assumes that ( 1 ) the
earthquake would occur without warning, (2) the extent
of casualties and damage would be greater than that

utter disaster would have very probably been the
result. 17

Resp. App'x 159

III. DISASTER PROTECTION - F. EARTHQUAKES

d
ANGWIN

CLOVERDALE

SANTA ROSA

CALISTOGA

NAPA

YOUNTVILLE

OAKMONT
SONOMA

SANTAROSA
NAPA

ELDRIDGE
FAIRFIELD
IMOLA

SAN ANDREAS

FAULT ZONE
SAN ANDREAS

VALLEJO

FAULT ZONE

ANTIOCH
SAN RAFAEL

MARTINEZ

PINOLE

CONCOAD

HAYWARD

RICHMOND

FAULT ZONE

wagen

WALNUT CREEK

OAKLAND
OAKLAND

HAYWARD

SAN FRANCISCO
SAN FRANCISCO

FAULT ZONE

LIVEAMORI

CASTRO VALLEY

MAYWARD
LIVERMORE

PLEASANTON

SAN MATEO

SAN MATEO

FREMONT

BELMONT

REDWOOD CITY

78 FACILITIES :
68 - GENERAL
9 - MENTAL
3 - MILITARY

PALO ALTO
SUNNYVALE

SAN JOSE

SANTA CLARA

LOS ALTOS

SAN JOIE
LOS GATOS

LOS GATOS

MAJOR HOSPITAL FACILITIES

PACKAGED DISASTER HOSPITALS
32 UNITS

OILROY

CALISTOGA
ANGWIN

CLOVERDALE
NAPA

ELDAIDGE

SANTA ROSA

NAPA

VACAVILLE

ELDRIDGE
SANTA ROSA

FAIRFIELD
RIO VISTA

SAN ANDREAS
PETALUMA

FAULT ZONE

VALLEJO
SAN ANDREAS
FAULT ZONE
SAN ANSELMO

SAN RAFAEL

PITTSBURG

SAN RAFAEL

HAYWARD
FAULT ZONE

RICHMONO

CONCORD

HAYWARD
MILL VALLEY

FAULT ZONE

ol
OAKLAND
SAN FRANCISCO
OAKLAND

SAN FRANCISCO
CASTRO VALLEY
HAYWARD
COLMA

LIVERMORE

HAYWARD
SAN MATEO

SAN MATEO

FREMONT

REDWOOD CITY
REDWOOD CITY

82 PUBLIC GROUPS

LEGEND :
HRDI UNIT (15 )

SAN JOSE

47 SPECIAL GROUPS

SUNNYVALE

MILATAS

BLOOD BANK (7)
SAN JOSE

LOS GATOS

SARATOGA

LOS GATOS

HOSPITAL RESERVE DISASTER INVENTORY UNITS AND BLOOD BANKS

AMBULANCE SERVICE GROUPS

Figure 4. - Hospital Facilities, San Andreas and Hayward Fault Zones.
Resp. App'x 160

GILROY

84

DISASTER PREPAREDNESS :

Evacuation . An OEP evaluation team with representa
tives of NOAA found that the evacuation of approxi

mately 80,000 people living below the Van Norman
Dam was executed in a timely and efficient manner.
Some delay was experienced in ordering the evacuation ;
however, once the order was given, the movement out of

the area was accomplished efficiently. In particular, it
was found that the obligatory evacuation authority in
Section 409.5 of the California Penal Code “ is a beacon
for all those States which do not have such authority to

clear disaster areas. Such legislation should be enacted
by any State that may ever face an evacuation situation ;
it is a must for any jurisdiction whose disaster planning

is anything more than a pretense.” 18 The Example State
Disaster Act of 1972 contains such a provision.

VOLUME ONE

counties with respect to water, power, gas, transpor

tation, medical, and other services. For the area to
provide emergency services in the event of a serious

disaster, comprehensive metropolitan planning for these
and other factors will be needed.

This multijurisdictional cooperation in planning for
and responding to disaster is highlighted in the Council
of State Governments' recommendations on this subject

( see Part VII of this report, in Volume Two). Also, Part
V, Chapter B has a further discussion of the value of
prompt on -the-scene evaluation and postdisaster cri
tiques to improve disaster preparedness.
In its detailed evaluation , the Los Angeles County
Earthquake Commission found that “ the local, State and
Federal agencies that were involved conducted their
emergency activities independently of each other at a

Search and Rescue. Other evaluation reports of the

time when team effort or coordination would have been

San Fernando disaster, including one by the Los Angeles
operations for disaster victims could be improved. The

mutually helpful. This was evidenced by the almost total
As a
lack of communication among the agencies.
result of its investigation, the Commission made several

rescue activity, particularly searching the rubble for

recommendations, including:

buried bodies, could have been more efficient.
A similar situation was noted after the 1964 Alaska

• Local governments should establish emergency

earthquake. The recent International Meeting on Earth

• Local governments should ensure the existence of

County Commission , found that search and rescue

operating centers in the event of a serious disaster.

quakes in San Francisco recommended that nations with

emergency communication for any foreseeable contin

seismic problems develop and test new search and rescue
techniques, since one of the most crucial determinants in
saving lives after an earthquake is the speed with which
the people trapped in the debris are provided medical
assistance. U.S. cities in the highest seismic risk zones
should be better prepared to implement extensive search

gency .

and rescue operations.

• Local governments should evaluate and update plans,
procedures, and preparedness measures.
• Provisions should be made to improve interjuris
dictional coordination in future disasters.

• Officials should develop a countywide emergency
transportation plan.

• A study should be undertaken to ascertain the best

Essential Facilities. This earthquake again illustrated
the importance of the existence of emergency facilities

disaster communications systems.

and “ backup ” systems to provide services in the im

In addition to these pertinent recommendations, the
report provides a clear description of what problems a

mediate aftermath of the disaster. Fortunately, most
facilities and systems continued to function or were

metropolitan area could experience as a result of a severe
earthquake.

soon restored. Command and control of emergency

operations were effected without too much difficulty.
However, the collapse of several highway overpasses had

Findings

a limited effect on transportation, the damage to the
Sylmar Converter Station did result in the loss of electric

power in some areas, and the subsequent fires in Newhall

1. The greatest potential for reducing the loss oflife
and property from earthquakes lies in restricting the use

did strain the capabilities of the local firefighting agencies.

of land in high-risk areas and in imposing appropriate

It is clear that a more severe earthquake would have
resulted in more loss of life and property, because
sufficient emergency facilities and systems did not exist.

new and existing buildings. The San Fernando earth

Intergovernmental Coordination. The San Fernando

earthquake illustrated the importance of intergovern
mental planning. The problem of coordination will be
solved only by better cooperative planning, training, and
public education on the part of all governments. The

structural-engineering and materials standards upon both
quake demonstrated the value of the Field Act, since
little damage, overall, was sustained by school buildings
built to its specifications. However, it was also demon
strated that emergency and other essential facilities, such
as hospitals, fire stations, police stations, and power

plants, must be built to special safety standards in order
to survive seismic disasters ,

OEP earthquake planning for the San Francisco Bay area

While primary action in these matters is required of

is a major step forward in this regard . The maps being
developed illustrate the interdependency of the nine Bay

State and local governments, the Federal Government can
set an example through its own construction projects and

Resp. App'x 161

III. DISASTER PROTECTION - F . EARTHQUAKES

85

can make its financial assistance contingent upon State
and local action . Also needed is a program to translate
seismic risk factors into design standards to make new

6. The level of earthquake disaster planning in most

areas ofhigh seismic risk is not satisfactory. A significant
exception is in the San Francisco Bay area, where both
the California Legislature and the Federal Government

structures in high -risk areas earthquake resistant and to
remove or improve structurally unsafe buildings. The
approaches to this problem by the State of California

are taking important steps. The California Joint Com

and in the City of Long Beach are examples of a

seismic safety plan in 4 years. At the Federal level,

beginning to the solution to this problem.

OEP's Outline Plan for Federal response to a possible
earthquake in the San Francisco area and the OEP
NOAA study of what might happen in the event of an
earthquake in that area will be prototypes for similar

2. The greater use of instruments is essential to
increasing knowledge, to providing risk maps, and to
developing a theory ofprediction - and perhaps control
of earthquakes. In this connection , much can be learned

in a general way from the atmospheric sciences, where
extensive instrumentation has contributed to our knowl
edge and ability to predict, and in some instances

mittee on Seismic Safety is expected to produce a

steps toward improving disaster preparedness. This com
bined vulnerability analysis and comprehensive planning
by the Federal Government could also be a forerunner
to State disaster planning envisioned in Section 206 of
PL 91-606 .

modify, the weather.

3. The development of seismic risk maps is an
essential first step in hazard reduction and preparedness
planning. In all high -seismic zones, risk mapping of the
faults near populated areas is needed in order to develop
specific preparedness programs. It is most important that

7. The potential catastrophe of a major earthquake in
a metropolitan area poses unique protection require
ments. In order to ensure the continued availability of
vital utilities and services for recovery from the effects

of an earthquake, several options should be analyzed :
( 1 ) feasibility of better protection for such services and

the results of risk mapping be produced in a simplified
form for use by local government officials, planners, and

facilities and their locations, (2) to the degree possible ,

engineers.

development of backup systems. The studies mentioned
above should be useful in this regard.

4. At this time, the capability does not exist to
predict the timing of earthquakes with any significant
degree of certainty . Indeed , the question of whether an
earthquake prediction and warning capability can be

developed is a point of contention among the experts.

relocation to less -vulnerable perimeter areas, and (3)

8. Public awareness of the threat posed by earth
quakes is essential to success in preparing for them and
moderating their destructive effects. Every possible

Nevertheless, there are some possibilities that deserve

means should be used to create and maintain this

further close attention and concerted research and

awareness : including coverage by the news media; the
distribution in simple, convenient form of facts about

experimentation .

earthquake hazards and emergency response check lists;
5. There is a possibility that earthquakes can be

and orientation and training sessions.

controlled. For example, experiments have shown that it
is possible to induce the occurrence of small earth
quakes, through the injection of fluids into faults, and

9. The capability to mount effective search and
rescue operations in an earthquake disaster is marginal.

thereby release the strain along a fault gradually, rather
than letting it build up so that a massive earthquake

As evident from the San Fernando case , there is a need

results when the fault ruptures.

procedures to locate and extricate buried persons.

for readily available special equipment and special

Notes

* Committee on the Alaska Earthquake of the Division of
Earth Sciences, National Research Council, The Great Alaska

Earthquake of 1964, Human Ecology (Washington, D.C.: Na
tional Academy of Sciences, 1970), p . 17 .

? Report of the Los Angeles County Earthquake Commis
sion , San Fernando Earthquake, February 9, 1971 ( Los Angeles,
November 1971 ).

before the Committee on Public Works, San Fernando, Calif.,
92d Cong ., 1st Sess., 1971 , pp . 562-563 .

*C. F. Richter, “ Earthquake Disasters - An International
Problem , " paper presented at the International Meeting on
Earthquakes, San Francisco, May 1971 ; contained in the
Conference Report ( Tab F ), NATO Committee on the Chal
lenges of Modern Society .

and Geophysics, Seismological Laboratory, California Institute

SProceedings of this conference will be published.
Robert E. Schnabel, “ Earthquake Risk Conference," mem

of Technology , in U.S. Senate , Governmental Response to the

orandum to the Assistant Director for Disaster Programs, Office

California Earthquake Disaster of February 1971 , Hearings

of Emergency Preparedness, September 26 , 1971 .

3 Testimony of Dr. Clarence R. Allen, Professor of Geology

Resp. App'x 162

86

DISASTER PREPAREDNESS : VOLUME ONE

?H. S. Lew , E. V. Leyendecker, and R. D. Dikkers,
Engineering Aspects of the 1971 San Fernando Earthquake, U.S.

nated on November 6, 1971 , in an enclosure one mile beneath

Department of Commerce, National Bureau of Standards,

the surface and had a magnitude of 7.0 on the Richter Scale.

Building Science Series 40 (Washington, D.C.: U.S. Government
Printing Office, December 1971 ), p . 311 .

Disaster of February 1971, pp. 566,640, 643-644 .

8 See Report of the Los Angeles County Earthquake

Il This recent underground explosion, Cannikin , was deto
12Governmental Response to the California Earthquake

13Richter, op . cit ., p. F.3.

Commission, San Fernando Earthquake, February 9, 1971;

Governmental Response to the California Earthquake Disaster of
February 1971; and U.S. Department of the Interior and U.S.
Department of Commerce , The San Fernando, California,
Earthquake of February 9, 1971, Geological Survey Professional

Paper 733 (Washington, D.C.: U.S. Government Printing Office,

14George O. Gates, “ Earthquake Hazards, ” Geologic Hazards
and Public Problems, Conference Proceedings, May 27-28, 1969,
Office of Emergency Preparedness, Region 7 , Santa Rosa,

California, p. 25.

15 Thisis a simplified description of the methodology used by
Karl Steinbrugge and S. T. Algermissen, who are conducting the

1971 ).

See: 1 ) Earthquake Hazard Reduction, Report of the Task
Force on Earthquake Hazard Reduction , Office of Science and

investigations leading to the preparation of a study report.

16 The Joint Panel on the San Fernando Earthquake, The San
Fernando Earthquake of February 9, 1971: Lessons from a

Technology (Washington, D.C.: U.S. Government Printing
Office, September 1970); 2) Proposal for a Ten - Year National
Earthquake Hazards Program : A Partnership of Science and the
Community , Ad Hoc Interagency Working Group for Earth
quake Research , Federal Council for Science and Technology
(Washington, D.C., December 1968); and 3 ) Ad Hoc Panel on

Moderate Earthquake on the Fringe of a Densely populated
Region (Washington , D.C.: National Academy of Sciences
National Academy of Engineering, 1971 ), pp. 1 , 3.
17
August H. Groeschel, “ Study of the Medical Aspects of the

Earthquake Prediction, Earthquake Prediction: A Proposal for a

of Emergency Preparedness, February 22, 1971 .

Los Angeles Earthquake,” memorandum to the Director, Office

10 Year Program of Research ,prepared for the Office of Science
and Technology , May 1965 .

18 Timothy A. Vanderver, Jr., Jack A. Riley, and Charles

iOL. C. Pakiser et al., “ Earthquake Prediction and Control, ”

Conway , “ The Van Norman Dam Evacuation , " report to the

Science, Vol. 166 (December 1969), p. 1470. Also , “ Report on
Reservoir Loading,” National Science Foundation, Committee
on Seismology (in preparation ).

Office of Emergency Preparedness, Washington, D.C., March
1971 , p . 16 .
19

Report of the Los Angeles County Earthquake Com
mission , San Fernando Earthquake, February 9, 1971, p. 21 .

Resp. App'x 163

Chapter G. Landslides
Introduction

the greater degree of urbanization in these areas. Flows

Landslides are a perennial problem for mountainous
areas, especially in seismic regions.As mountainous areas
in the United States become more populated and are
used more for highways and other structures, the danger

are frequently secondary effects of an earthquake. In
these instances water-soaked soils, consisting predomi
nantly of fine particles, become unstable and flow

downslope or lose their bearing capacity, allowing
structures built on them to sink with minimum lateral

earthquakes have the potential for serious and extensive
destruction . This was shown in the Madison Canyon,
Montana, slide of 1959, a secondary effect of the Hebgen
Lake earthquake, and in the Turnagain Arm area of

movement. (Refer to Part VIII, Chapter G , in Volume
Three, for further discussion and illustrations.)
Detection, prevention , and control of landslides begin
with delineation of the geologic factors that influence
them . These are generally well known. Next is the

Anchorage during the 1964 Alaska earthquake. In the

application of these factors to the terrain and rock

latter instance, the largest of five major slides resulting

formations of a given area, from which conclusions can
be drawn regarding landslide potential. This process

from landslides will increase. Landslides triggered by

from the Alaska quake, a complete subdivison was
seriously damaged when the ground gave way in a

involves detailed mapping and field and laboratory

concave pattern along 4,300 feet of the choicest
property. Other metropolitan areas are increasingly

investigation . When potentially hazardous conditions
(e.g., ground water erosion and slope instability ) are

vulnerable to landslide activity where buildings are

identified, preventive measures can be taken . These

erected on water-soaked landfill or unstable slopes.

involve proper site preparation - through drainage, re
moval of overburdened material, and safe grading of
slopes - and, where possible, limitations on construction ,
especially of homes and other habitable buildings.
These control measures are becoming more common

It is estimated that the direct and indirect costs of
landslides to the United States run to the hundreds of

millions of dollars each year in damage to highways,
railroads, industrial installations, public works, and
personal property.

and are effective in reducing the incidence of landslides.

Landslides can be categorized in several ways, the
most basic distinction being falls, slides ( including
avalanches and slumps), and flows. Landslides may be

However, more field and laboratory work is needed on

initiated by erosion, heavy rain or snow accumulation ,

with more precision the time, place, and extent of

or a combination of these factors. As indicated above,
they also may be triggered by an earthquake.
Falls consist of loosened material breaking clear and
moving to a lower level without seriously disturbing the

landslide activity .

surface between . Slides involve a downward movement

of an entire section of a slope due to subsurface
shearing; material may move as a unit - slumping -or may
break up into small units - avalanching. Flows may be

dry or wet, but their movement is characterized by
plasticity, which permits them to spread outward over
wider areas and to move greater distances than other
types of landslides. They often involve greater masses of
material and continue downhill far beyond the base of

the causes and mechanics of landslides and on soil and

rock slope stability before it will be possible to predict
Since the prediction of landslides resulting from

earthquakes is particularly difficult and preparedness
measures are therefore less meaningful, most of the
effort to prevent and control landslides in the United
States is in areas where the natural stability of the earth
has been altered by excavation, or by the loss of natural

holding forces such as grass and brush , or where the
instability of the natural terrain poses a threat to
engineered construction such as highways, railroads, and
viaducts.

Federal and State Programs

the slope from which they originated. Many of history's
most destructive landslides have been flows.
Landslides in mountainous areas usually take the form

The Federal program of mapping landslide risk areas
is accomplished by the U.S. Geological Survey. Informa

of falls and avalanches. In areas of gentle slopes, where
water content is high , the slump is more prevalent. This

tion recorded on these risk maps ranges from a general

type is usually more destructive of property because of

detailed analysis of the geologic factors affecting the

identification of features and degree of activity to

87

Resp. App'x 164

1

abundant
Most

.
slides

abundant
Least
dant
abun
st

LANDSLIDES
OF
ABUNDANCE
RELATIVE
ESTIMATED
,CALIFORNIA
REGION
BAY
FRANCISCO
SAN
INTHE

.Hilly
landslides
contain
of
parts
land
abundant
contain
unit
1may

,aranked
landslides
lack
units
nd
units
ranked
lowest
the
of
parts

:parts
uniform
highest
ofthe

be
not
may
units
map
inindividual

.Ssafety
data
oravailable
pecific
isnot
construction
for
hazard
.Landslide
shown
with
distribution

from
extrapolation
and
timates

,based
isqualitative
Ranking
es
on

RANKS
ABUNDANCE
LANDSLIDE

1.-SFigure
ection
Landslide
Risk
Map
California
S,GUof
eological
.Survey

88

PREPARED DISASTER
NESS
VO: LUME
ONE

Resp. App'x 165

III. DISASTER PROTECTION - G . LANDSLIDES

mass movements of soil and rock . Although the sum
total of the acquired data is very large, there has been no
systematic analysis of landslide phenomena on a national

scale. However, for many local areas throughout the

89

Landslide Monitoring
Visual surveillance by highway maintenance crews
and by forest rangers is the present method of monitor

country where particularly hazardous slide conditions
exist, concerted efforts have been made to study the
problem in detail and give attention to minimizing the
effects. ( The map of San Francisco Bay Area in Figure 1
is an example of such analysis.)

ing potential slide areas . Unfavorable soil conditions and

Direct engineering applications to the landslide prob

structures such as reservoirs, viaducts, highways, rail
roads and hydroelectric plants. In these instances,

lem are made frequently by the Federal Highway
Administration in the Department of Transportation.
However, there are no standard design criteria for the
prevention of damage to highway facilities from earth
slides. Highway slopes in indigenous soils are designed
for stability on the basis of past experience or, in critical
locations, on the results of engineering analyses. A
minimum safety factor (available resisting forces divided
by driving forces ) has been adopted. The majority of
highway slopes have a factor of safety much greater than
the prescribed minimum . Highways in high seismicity
areas are an exception . In these instances, the usual
procedure is to analyze the slope and include an estimate

of the expected maximum driving force to be exerted on
the slope by an earthquake.
The USDA Soil Conservation Service, through the Na
tional Cooperative Soil Survey program , includes in the
soil surveys the names , locations, and past evidences
of scils having a high susceptibility to landslides. USDA

preliminary bulging and spalling are indicators of the
need for warning and remedial action .

Although there are no systematic programs, instru
mental surveillance is feasible and is used in areas with

seismic tiltmeters and creep meters are employed to
monitor slow deformation . Rainfall, temperature, and
the soil moisture content are also monitored .

A program for predicting snowslides has been success
ful in the Wasatch Range in Utah . Instruments are used
for measuring factors that are likely to produce
snowslide conditions, such as wind, temperature, pre

cipitation, snow stability , and slope stability. When the
combination of these factors indicates an avalanche is
imminent, artillery is used to dislodge small slides and
thus reduce the danger of a large destructive slide.
Except for these situations, and in cases of long -term

slumping where the onset can be recognized and proper
warning and preventive measures instituted, current
technology can provide only an alert to landslide
dangers. It can provide little information as to the time a

landslide will occur. Early warning of the majority of
landslides is, therefore, not feasible.

also furnishes technical assistance to landowners and

local governments, advising on land use and soil and
water management so as to minimize landslides where
susceptibility to such hazards exists. Use of USDA soil

surveys by city and county planners, zoning officials,
architects, and engineers is expanding rapidly over the
one -third of the privately owned land for which the soil
surveys are now complete.

California leads in State activities to protect against
landslides. Through its Division of Mines and Geology,
California has a program consisting of five projects
funded by State and county agencies and two projects
funded wholly by the State . The objective of these
projects is the delineation of slide-prone areas.

Additionally, the Division of Mines and Geology is
doing a long -term study of landsliding in coastal regions
of California to identify slide mechanisms as well as
slide-prone areas. During 1970-71 , 23 counties were
surveyed for this type of hazard . A special project for
1971 involved the mapping by aerial photography of the

Landslide Avoidance and Mitigation
Several actions may be taken to avert landslides or to

mitigate the damage in the event a slide does occur.
The susceptibility to slides of any parcel of land on
which a facility is to be located must be determined
accurately. On highly susceptible land, appropriate
zoning laws and other building limitations can be used to
control the location and type of construction. The
laying of rights-of-way for dams, bridge abutments, and

watersheds can be done with special consideration of the
landslide characteristics of the area.

If unavoidable landslide risks must be taken, good
engineering and construction practices can do much to

reduce danger. These include removal of unstable mate
rials; selection of a safe slope factor in excavation ;
provision for both surface drainage and subdrainage
between the overburdened material and bedrock ; instal

lation of retaining walls, bulkheads, pilings, and tie rods;
and proper final grading and landscaping for soil

extensive landslides caused by the San Fernando earth

retention .

quake of February 9 , 1971. These maps are being used
for determining postquake ground stabilities in that area .

Many of these methods are used in combination.
Before a road embankment is constructed, for example,

No other States have instituted separate programs

the unstable material should be removed and firm

dealing with landslide hazards. In most cases they are

material shaped for drainage and restraining contours.
Cut slopes constructed with benches or berms are
preferable to a uniform slope . If studies confirm

relying on cooperation in the programs of Federal
agencies to meet their needs.

Resp. App'x 166

DISASTER PREPAREDNESS: VOLUME ONE
sufficient stability, a horizontal surface drain can be
placed at the foot of each embankment in the terraced
series, as further insurance against possible slides.

In addition, known slide hazards can be mitigated
through such actions as leaving probable slide paths as
open parkland , thereby reducing the danger to struc
tures. Also, if highways, railways, or aqueducts must
traverse unstable areas where control of earth slumps is
not possible, such areas can be bridged , so that any

precise timing of occurrence is not feasible. Additional
basic information is needed from field and laboratory
research on the causes and mechanics of landslides. This,
in turn , could assist in predicting the time of their
occurrence.
2. The existing landslide data have not been sys
tematically analyzed to provide a national picture.
However, in areas such as parts of California , where

movement can continue without disturbing the artery.

particularly hazardous slide conditions exist, the prob

Such bridging, however, would probably add sub
stantially to cost.

lem has been studied in detail and stepshave been taken
to minimize the effects. Land -use and construction
regulations are potentialmeans to further moderate the

Emergency Measures

adverse effects of landslides.

The usual emergency measures necessary for evacuat
ing endangered people and caring for the evacuees apply

3. Consideration should be given to expanding the

to landslide preparedness in the relatively rare instances

landslide program of the U.S. Geological Survey, in

when warning is possible . Especially necessary is equip -

conjunction with other Federal and State agencies, to

ment for earthmoving and for clearing and repairing
highways and railroad rights-of-way

encompass:
• Increased effort to identify and classify existing and
potential landslide areas throughout the United States;

Findings

• Expansion of soil- and rock -mechanics research to

develop information on the various basic types of
1. Landslides do not represent a major danger to life

landslides;

or loss of property in the United States, except when

• Studies of elements which trigger landslides, such as

they occur as secondary effects of earthquakes. Landslide-vulnerable areas are being identified through various Federal and State programs, with more concentrated
effort going into areas where highways, railroads, reser-

earthquakes, blasting, change in hydrologic conditions,
and heavy storms;
• Development of criteria for proper design methods
and construction techniques to cope with landslide

voirs, and other extensive structures are located . In these
cases, measures can be taken to mitigate the effects of
landslides or even to avoid them , but predicting the

problems;
• Establishment of a central source of landslide infor
mation nationally .

Notes
Committee on the Alaska Earthquake of the Division of
Earth Sciences, National Research Council, The Great Alaska

Department of Commerce, National Oceanic and Atmos
pheric Administration .

Earthquake of 1964, Human Ecology (Washington, D .C.: National
Academy of Sciences, 1970 ), p. 253.

Resp. App'x 167

Chapter H. Tsunamis
Introduction

• Points on the periphery of the Pacific Ocean basin
can expect 12 to 20 hours of warning when the waves

Tsunamis are great sea waves caused by submarine

earth movement (earthquake or volcanic eruption ). They
are unique phenomena that pose difficult preparedness
problems. Tsunamis travel great distances and at speeds
in excess of 600 miles per hour in the open sea, but are

originate on the opposite side of the Pacific.
• Central Pacific locations, such as the Hawaiian Is

lands, usually can count on 2 to 12 hours between

warning and impact, depending on the origin of the
waves .

virtually undetectable in deep water, where they may
have amplitudes of only a foot. When the waves enter

• Communities in the epicentral area where the tsunami

shallow water near the coastlines, they are slowed to less
than 40 miles per hour. There, much of their energy is
converted to building walls of water that can reach

itself as a warning.

heights of 100 feet or greater before they strike the

characteristic of tsunamis that makes warning even
more difficult: once they are detected, it is impossible to
predict wave heights for any point along the shores.

coast with devastating force.
While extremely destructive, tsunamis are relatively
rare phenomena and are generally confined to the Pacific

Ocean basin . Only one out of 15 earthquakes with the
potential for tsunami generation actually produces the
great waves. Since 1900 , 181 tsunamis have been
recorded in the Pacific ; 34 caused damage near the

epicenter source, and nine were destructive both locally
and distantly. Since 1946 , the United States and its
possessions have experienced a major tsunami only every

is generated, however, must consider the earthquake
In addition to their rarity , and the prediction and
warning problems that this poses, there is another

To compensate partially for this uncertainty, an
internationally accepted standard has been developed
that defines endangered areas on the Pacific Shores as
those with elevations less than 50 feet above mean sea

level for distantly generated tsunamis and less than 100
feet for those generated locally. This approach is much
too broad but must be used in the absence of more

definitive knowledge .

7 to 8 years. Because tsunamis are infrequent and

Historically, variations in wave height have been

random , it is difficult to keep all potentially vulnerable
areas alert to the dangers. Meanwhile, it is necessary to

remarkable, even at points relatively close to each other.
In addition , spectacular waves have occurred which
exceeded 100 feet. In Lituya Bay, Alaska, in 1958 an
earthquake caused an extensive landslide that in turn
caused a local wave that attained a height of more than
1,700 feet but dissipated quickly when it entered the

keep detection and warning systems functioning at an
optimum level.

Tsunami warning and preparedness require : (1 ) an
instrumented network to monitor seismic activity and to

open ocean . ( This extraordinary event was thus only

detect tsunamis, ( 2) a complex procedure of calculating

indirectly earthquake generated.) A wave at Scotch Cap,
over 200 miles from the epicenter of a 1946 Aleutian
Islands earthquake, reached at least 110 feet.? These are

the arrival times of the great waves , (3) a smoothly

functioning communication system for gathering infor
mation and disseminating watches and warnings, ( 4 )
local centers from which the warning can be relayed to
the public, and (5) detailed emergency plans for the
protection of property and the evacuation of endangered
areas.

The basis for determining a tsunami warning is the
difference between the speed of seismic waves ( vibration
within the earth ) and the speed of tsunamis in deep
water. Seismic waves traverse the entire globe in 20
minutes, while tsunamis, even at 600 miles per hour,
require 23-24 hours to traverse the Pacific.
The time span between warning and arrival of the
great waves falls into three general categories.

extreme cases. More often , the arriving waves have less
amplitude than expected , and precautionary measures, if
taken , are viewed as unnecessary effort and expense.
This is because accurate wave height information and the
exact delineation of threatened areas cannot be pro
vided.

Existing Programs

Organizational Arrangements. The National Oceanic
and Atmospheric Administration and its predecessors
have operated the Tsunami Warning System ( TWS ) as a

national system since 1948 (under authority of Public
91

Resp. App'x 168

Kong
Hong

CHINA

Resp. App'x 169
Yap

hr
.8

STATIONS
REPORTING

AUSTRALIA

h
5. r

og
and

Shenyo
Adok

ZEALAND

ht

Apia
Pago
Logo

.
br

SOUTH

Wellington

Suve

hr

3r
h

1/.1 2
hr
hr

Johnston

Nayili

12

h
5

Popestel
Tahiti

h
.3 r

,4 IFIC
C

HONULU

.
hr
12

Mila

hr

h.%5r

h
5
.r

C

Bitka

Yakutat

lalond
Middleton

Adlack
Rapids
Tolsona

Mountain
Indian
Colle
ge
ALASK
GACrook
ilmorAe

Kodiak

Soward

Palma

Cold
Bay
Unalaskom

way

Nikolski

Midway

-hrs 3

Point
Marsden

NOVOG

8r
h

6

Kwajaloin

Island
Wake

hr
.

NORTH

Alt

Minamitorishing

LORS4

Gvom

b
.7 r

GUINEA

Malakol

hr
.9

Tokyos

hr
.6

OKNOTSA

Hochincha

STATIONS
ASEISMOGRAPH

h.%10r

.
hr
10

"
League

STATIONS
TIDE

Monilo

Oking

be

Shimizu

01

USSR

Δ

A
Mountian

Granite

UNITED

7
h
. r

8r
.h

h.1 r

Eostor

.
hr
10

12
.hr
.
hr
13

Baltra
Island

.hr

Acajutla

Manzanillo

STATES

.
br
15

BRAZIL

VENEZUELA

Mont
Puerto

,1971
SEPTEMBER

Williams
Puerto

Valparaiso
Santiago
ARGENTINA Lo
Plata
Talcahuano

Antofagasta

BOLIVIA
Arica

H
A uancayo
Punto
La

Punta
Arena

PERU

COLOMBIA

Balboa

INDIES
REST

DISASTER PREPAREDNESS :

Warning
Tmap
1.
Figure
Nsunami
.System
OAA

9
h
.r

MEXICO

Tucson

APasadena

Borkoloy
A

Pedro
San

D

Newport

City
Crescent

Victoria
Tofing

N

PACIFIC

6
h
. r

A

Honolulu
to
Times
Travel
Tsunami

and
Stations
Reporting
Showing

SYSTEM
WARNING
TSUNAMI

92
VOLUME ONE

III. DISASTER PROTECTION - H . TSUNAMIS

93

Law 80-373, August 1947). The service began to take
form after the 1946 earthquake in the Aleutian Islands,
when seismologists of the Coast and Geodetic Survey
(now the National Ocean Survey ) recognized that the

wave heights and the expected times of arrival for

seismograph stations and tide stations of the Pacific area

the program's inception no tsunami has struck a distant
coastline that did not receive a warning. The accuracy

could be improved and augmented to provide a tsunami
warning system . A Tsunami Communication Plan was
developed as a necessary extension of the detection and
warning aspects of the system . This plan designated
primary and secondary communications channels to
each local center in the system, set standard message
formats, and designated the responsible officials and an
alternate for each area .

The Alaskan Regional Tsunami System, directed from
the Palmer, Alaska, Observatory , was established in

threatened areas.
While it is difficult to evaluate the warning program
in terms of lives and dollars saved, it is a fact that since

of wave prediction , the timelines of the warning, and the
reaction of the populace have varied widely. Since the
program began in 1948, there have been 21 warnings; 17
were followed by heavy waves striking some portion of
the warned area. Four of these tsunamis were destructive
over wide areas : in the Kuriles and Kamchatka area in

1952 ; in Alaska and the Aleutian Islands in 1957 ; in
South America (particularly Chile ), Hawaii, and Japan in
1960 ; in Alaska, California , Oregon, and Washington in
1964.

1967. Its function is to detect and locate major
earthquakes in the Aleutian - Alaskan region and provide
resulting tsunami information and warnings to people in
that region .

For accurate location of earthquakes and rapid
detection of tsunamis, an extensive network of stations
throughout the Pacific is required . Therefore, inter
national cooperation has been vital to the successful
operation of the warning system. This cooperation has
been furthered by UNESCO's Intergovernmental Ocean
ographic Commission (IOC ), which brought together

Facilities. The present geographic coverage provided
by the basic components of the tsunami detection
network ( seismographs, tsunami sensors , and communi
cations) is inadequate in some areas .

earth and oceanographic scientists of 11 countries to

Seismographs. Seismographic coverage for South
America , the Kuriles-Kamchatka area, the Southwest
Pacific, and Mexico is insufficient to ensure receipt of
data from sites distributed optimally around points of
earthquake origin , where tsunamis are likely to be

give international status to the Tsunami Warning System

generated.

and to establish an International Tsunami Information

Center (ITIC) at Honolulu. This center ensures dissemi

Tide Stations. The network of tsunami sensors

nation of tsunami warnings , collects tsunami data on a

( tide stations) in Central and South America is only
marginally adequate for Pacific -wide warnings and is

real- time basis, encourages tsunami research , and pro
motes the exchange of scientific and technical personnel
and information among the participating nations.

totally inadequate to provide local warnings in those
areas. There are only 11 tide stations along the 6,000
miles of coastline between southern Chile and San

stations and 47 tide stations in 16 countries on the

Diego , California . There are no participating tide stations
in the Kuriles -Kamchatka area , and only in recent years
has modest progress been made in attempts to gain

shores and islands of the Pacific Ocean (Figure 1 ).

sensor data from the U.S.S.R.

Procedures. The detection network of the present

Tsunami Warning System is composed of 22 seismograph
Sensors at these stations continuously monitor the

Communications. Tsunami Warning System traffic

seismic activity and sea level.

publication Communication Plan for the

is sent through the facilities of the Federal Aviation

Tsunami Warning System4 outlines procedures and
designates primary and alternate communication chan

Administration , the Defense Communications Agency ,

The

nels between the Tsunami Warning Center (TWC) at the

Honolulu Observatory and each sensing station and
dissemination agency in the system .

the National Aeronautics and Space Administration
(NASA), the National Weather Service, and other gov
ernment agencies, both domestic and foreign. Figures 2
and 3 illustrate the communications circuits used to

Within a few minutes after an earthquake occurs,

transmit tsunami information . These circuits are tested

seismologists analyze seismograms and report informa
tion to the TWC, where the location and magnitude of
the earthquake are determined. If a possible tsunami is
indicated , a " tsunami watch ” is established and tide
stations, outward from the epicenter, are queried for
confirming water-wave recordings. When positive wave

each month through the use of " dummy” messages, and
a comprehensive evaluation based on these tests is

conducted every 3 months by the National Communica
tions System (NCS). Steps are then taken to improve the
weak links and the level of reliability. In the evaluation
for the period January -June 1971 , NCS reported that 83

action is reported by a tide station, the Honolulu center

percent of the tsunami test messages were delivered to

issues a " tsunami warning,” which includes any reported

addressees in 30 minutes or less (the NOAA objective ).

Resp. App'x 170

HONG

ΑΑ

o ao

GUINEA

DCS

SYDNEY

NEW

PHILIPPINES
KONG

TAIWAN

io

Rad

FIJI

CANBERRA

FAA Alternate

FAA

PZEALAND

A

FA

CALEDONIA

FAAS

FAA

ISLAND

NAURU

NEW

FAA

FAA

e

JAPAN

lia

tra

TSUNAMI
CENTER
,WARNING

OCD
-OOF
CIVIL
FFICE
DEFENSE

TAHITI

WESTERN
SAMOA
AMERICAN
SAMOA

Honolulu

FAA

,SAN
FAA
FRANCISCO
DCSH

SPACE
FLIGHT
CENTER
,-

,MD
.GREENBELT

GODDARD

CHICHILE
LE

CIRCUITS
TION
COMMUNICA
ADMINISTRA
AVIATION
FFAA
– EDERAL TIONS

System
N
OAA
Warning
Tsunami
-the
inCFigure
Participants
Foreign
Serving
Circuits
2. ommunications

ADMINISTRATION
SPACE
AND
AERONAUTICS
-NATIONAL
NASA
NEW

AGENCY
-DCS
COMMUNICA
EFENSE TIONS
DCIRCUITS

OCD
SEATTLE

NASA

Aus

Cabl
ac

Resp. App'x 171

Comp

CANADA

DISASTER PREPAREDNESS : VOLUME ONE

Bay

‫ܘܐ‬

,Guam
Navy
U.S.

,
O

DCS

Coast
U.S.
,Guard

odiak
KNavy
,U.S.

FAA

Johnston
Atoll

Comma
nder
,

DC

S

S

DC

,Midway
Navy
U.S.

Attu

DCS

FAA

Samoa
AGovernor
, merican

Honolulu

DCS

OEP
OCD

Francisco
San

Seattle

Resp. App'x 172

OAA
N
-the
Warning
Tsunami
)i(Circuits
NOAA
eStates
Participants
United
ns
Serving
ommunicatio
C.System
-nxcluding
3.
Figure

CIRCUITS
AGENCY
COMMUNICA
D
-EFENSE TIONS
DCS

Washington

OEP
OCD

CIRCUITS
COMMUNICA
TION
ADMINISTRA
AVIATION
F
– EDERAL TIONS
FAA

Atomic DCS
Energy
Commission
,Las
Vegas

OEP
O
,– CD
Guard
Coast
U.S.

o

ESS
PREPAREDN
EMERGENCY
OF
O
-FFICE
OEP

R
CENTE
NG
WARNI
TSUNAMI

DEFENSE
CIVIL
OF
O
– FFICE
OCD

A
, nchorage
FAA

S

DC

S

DC

TU

III. DISASTER PROTECTION - H . TSUNAMIS
95

Resp. App'x 173

AUSTRALIA

.
BORNEO
-

INDONE

^

CHINA

USSR

NEW
GUINEA
WEST

CENTER
WARNING
TSUNAMI

MEXICO

Figure
Bordering
4Nations
the
on
Ocean
Pacific
Receiving
Not
but
Watch
Tsunami
Warning
Messages
and
.-N
OAA

/AND
MESSAGES
WARNING
WATCH
RECEIVING
NOT
NATIONS
ALL

PERU

ECUADOR

COLOMBIA

SALVADOR
EL
PANAMA

RICA
COSTA
LA EMALA
GUAT

HONDURAS

DISASTER PREPAREDNESS: VOLUME ONE

III. DISASTER PROTECTION - H . TSUNAMIS

97

Pacific Ocean which do not receive tsunami watch and

These planned stations would increase the detec
tion network to 28 seismograph stations and 84 tide
stations. This would assure warnings , in most instances,
of 2-24 hours following tsunamigeneration. During this

warningmessages (see Figure 4 ).

period, the tsunami would have progressed as far as

This improved upon the 74 percent received within 30
minutes during the period July -December 1970."

There are still 17 nations with shorelines on the

1,000 miles, so that any Pacific area more distant from

Planned Improvements

the tsunami source could receive timely warning. Data
telemetered from the network sensors via satellite,which

Detection Network Expansion . NOAA's short-range
plans call for the installation of new visual recording

is also planned and is discussed below , would improve

seismographs at Port Moresby, Papua; Antofagasta,

of the area which could not be given timely warning
would be reduced to approximately 400 miles.
In addition to the geographic expansion of the
network , there are plans to modernize or replace many
of the instruments now in use. Examples are a specially

Chile, and possibly Tacubaya, Mexico . Longer-range
plans include a station in southern Chile, possibly at
Sombrero , which would provide considerable help in
locating earthquakes south of Santiago , and one in the

Galapagos Islands, to fill a gap of 4 ,400 kilometers
between Tacubaya, Mexico, and Hauncayo , Peru, and to
aid in locating and evaluating South and Central America
earthquakes.

the timeliness of warning up to 90 minutes. The radius

designed pressure gauge, to be located at sites on the
open coast to minimize the effects of local topography,

and a deep ocean sensor, which would provide data for
evaluating the destructive potential ofa tsunami.

Additional tsunami sensing stations are planned for

Talara, Peru ; Salina Cruz, Mexico ; Newport, Oregon ;

Satellite Telemetry. NOAA has plans for the use of

Neah Bay , Washington ; Amchitka ; the Ryukyu Islands;
Davao , Philippines; and Nukualofa, Tonga Islands.

the Geostationary Operational Environmental Satellite

(GOES) as a data collector and communication relay in

GOES

ETME

IN

BULLETINS
TSUNAMI

ENCY ATION DROENSS
EMERG
ST ROGAADTI
START/ STOP INTER

ER

RGE

RO

NCY

GA
TI
ON
BU
TSDA
LL
E
UNTA
T
IN
AM
S
I

A

DAT

INT
E

RRO
G

ATI
O

N

SEISMIC
SENSOR

INFORMATION

NESS *
COMMAND

RECEIVERS

CENTER

DAT
A

TSUNAMI

N
NOCGYATIO
E
G
ER RR

EMINTE AMI ETINS
N
L
TSU BUL
TA

DA

TSUNAMI

NESS - National Environmental
Satellite Service

SENSOR
TWS DATA

PROCESSING
CENTER

Figure 5 . -GOES Operational Schematic , showing how the planned Geostationary Operational Environmental

Satellite would serve as the communications and telemetry link in the TsunamiWarning System -NOAA.
Resp. App'x 174

DISASTER PREPAREDNESS: VOLUME ONE

98
the TsunamiWarning System . The first launch of GOES

whom to contact.? These documents do not include

is scheduled for aboutmid -1972. Its use in the TWS will

items related to evacuation , traffic control, assembly
points, mass care, and other emergency operations
matters left to local governments.
Local-level plans have not been developed in many

provide a safe , reliable , low -power vehicle for obtaining
seismic and wave-action data ,and transmitting these data
and warning messages to users and disseminators (Figure
5 ). As mentioned above, its use will improve the warning
time as much as 60 percent.

tsunami-vulnerable communities. Two excellent Cali

fornia plans can be cited,however: for Ventura County

Other Improvements. Although the West Coast of the
United States has experienced only one locally generated
tsunami, the seismic history of this area and its tsunami
potential should not be ignored. Dense populated areas
there cannot be assured of adequate warning from the

TWC at Honolulu in the event of a locally generated
tsunami. A West Coast Regional Warning System ,

planned by NOAA and similar to the one at Palmer,
Alaska, would fill this void. The warning center would

and for the unincorporated coastal areas of Orange
County. These plans designate types of action to be
carried out by police and fire departments and other

organizations. Chains of command, duty stations, avail
able facilities and equipment, and instructions for proper

procedures are outlined.
The first step in developingmore effective local plans
is defining local danger areas. Detailed studies of the
shoreline, harbor areas, and bottom configurations in

have full responsibility for public releases of tsunami
warning information in California , Oregon, and Washing
ton . The system would consist of a network of approxi

each locality are necessary for accurate determination of

mately eight tide stations operating in California ,
Oregon , and Washington and approximately 12 seismic
stations in these States plus Nevada and Arizona. The
basic observatories and telemetry for this system are
already in existence in the Western States.

established safety zones. For example, Figure 6 depicts a

areas subject to inundation . Some localities, having

experienced tsunamis, have defined vulnerable areas and
safety zone at Hilo Bay, Hawaii, based on a tsunami
experience of 1960. In other localities, theoretical
calculations have been combined with experience factors
to develop criteria for inundation limits. The inundation

areas shown in Figures 6 and 7 were developed by using
these two sources. Figure 8, which is printed in the
Oahu telephone book , serves as a ready reference in the

Preparedness
Hawaii, California , and Alaska have tsunami commun

ications plans or procedures which are based on the
Federal planº but are extended to include responsible

event evacuation of that area is required .

When the danger areas have been determined, meth

agents in each locality. Message formats are indicated ,

ods for protecting lives and property can be instituted.
Evacuation routes , emergency access routes, and shelter

and State officials are instructed on procedure and told

and relief centers can be established .

NILO

AY

COCOANUT
ISLAND

REEDS

.
GENERAL

LYMAN

FIELD

The shaded area on this map of Hilo, Hawaii,
hit the city on May 23, 1960. The heavy black line
shows the boundary of the safety zone established
by County Supervisors. The exact boundary is sub
ject to adjustment as the plan is refinea .

shows how far inland the tidal wave rolled when it

Figure 6 . -Hilo , Hawaii, Tsunami ofMay 23, 1960 - Hilo Tribune.
Resp. App'x 175

.
...

Resp. App'x 176

40

V
60

11
11

11

ON

INGT

FARR

O.

HGH

Flume

WAY

Gakuen
|
Waialua
.(Sch

Waialua

MAIS

Sugar

Puuiki ry
Cemete

K
Ba

y

ka

a
ai

11

11

au

il

a

RO

Kamooloa

uk

Waialua
Sch

Palama
Settlement

AD
55

Str

Foot

,N
inundations
tsunami
previous
of
limits
OAA
Sre
line
runup
calculated
the
'abeyond
criteria
on
".based
pecial

0
12

Circle

Weed

81

House

Pump

Haleiwa

Reservoir

bridge

Loko

0

Y

20

DRIVE

2000
1000
3000

BAY
WAIALUA

BOUNDAR

House
Pump

CROZIER

ACH D
LBEEVA
M***O**KÜ

teet

SCALE

criteria
special

criteria
foot
4-

criteria
normal

LIMITS
INUNDATION

POTENTIAL
TSUNAMI
INUNDATION
AREAS
WAIALUA
,AT
O
AHU

10

criteria
Pstablish
7.
Figure
,O
Waialua
at
Areas
Inundation
otential
ahu
a5"e.“NTsunami
by
possible
runup
-fthe
wave
oot
0ormal
.Fefine
contours
shore
the
by
"d-fmodified
criteria
our
oot
though
even
waters
rising
to
vulnerable
be
would
that
areas
inland

III. DISASTER PROTECTION - H . TSUNAMIS
99

K
t

i

ORD
CORSR
ies

N

KAENA
.PT

NOTE
:1

Resp. App'x 177

a

-2000
I$ NLAND

RR ELEV
IN .SO
GT
ON

FA

"

MAKAHA

ST
LAHAINA

INLOCKS
B
2
.
WWY
FROM

POKAI
BAY

SCHOOL

WION

HARBOR

RO

UA

KA

INLOCKS
B
2
.WWY
FROM

HEAD
DIAMOND
TO
LAGOON
KEEHI

WAIKIKI
BEACH

AV

LA

NANAKULI
T
. O
PT
KAENA

MAILI

WAIANAE

.A

LI

KA

KA

OLVO

74p
.,p
1
30
ovember
N
Directory
Telephone
ahu
-is
O
necessary
if970
evacuation

.
PT
MAILI

Y
MW

INLOCKS
B
2
.
HWY
FRON

LUALUALEI

1000
I' NLAND

2BLOCKS
INLAND

KI NE
A

AU
KEA

MAKUA

.
above
or
floor
third
the
to

should
provide
adequate
move
people
if
protection

Waikiki
heavy
of
concrete

.
ST

WAT
ALA
BASIN
YACHT

ILVD

construction
steel
and

in
buildings
story
Multiple

KEWALO

ANA
NO

the
Harbor
Honolulu
Inside

I2000
' NLAND

:
2
NOTE

ALA

KAPIOLANI

.
S1

PA

z

f. t
4
is
level
sea

OM
'FR00
15
EE
UNOR
SH

rise
in
maximum
potential

ISLAND
SAND

BERETANIA
KING

DIAMOND

.
HWY
FROM

SCHOOL

as
references
ready
telephone
,sin
book
erve
pInundation
Honolulu
the
Maps
Civil
Tsunami
Defense
Hrinted
8.
Figure
awaii

NANAKULI

IN
2LOCKS
B

CRATER

HEAD

100

DISASTER PREPAREDNESS: VOLUME ONE

101

III. DISASTER PROTECTION - H . TSUNAMIS

Regional and Local Warning. The United States
(NOAA ) has assumed the responsibility of providing
tsunami warnings to foreign and domestic regional
centers, which in turn alert local agencies and the public.
In the United States, the States concerned have desig
nated an agency as a regional center, which has primary
responsibility for receipt and further dissemination of
warnings to local areas.
There is some question concerning the effectiveness
of the various warning methods. Experience has shown
that radio and TV broadcasting and other forms of
communication are only partially effective and that

warning devices tend to be ignored or, if heeded, that
action is seldom taken until after follow -up information
has been obtained. 10 Radio and TV are effective in

giving detailed information and instructions, but are

time between detection of tsunami waves and the
warning of vulnerable areas. Programs for improving
prediction and warning, some already underway , include:

• The expansion and modernization of 28 seismographs
and 84 tsunami sensors equipped with standardized
instruments designed specifically for the detection of
tsunamis to provide more complete and reliable informa
the generation of tsunamis and on their

amplitude and speed (NOAA plan).

• The use of NOAA's Geostationary Operational Envi
ronmental Satellite as a communication relay . This

would reduce the elapsed time for warning to regional
disseminating agencies from an average of 2-2% hours to
about 1 hour. This time saving would reduce the radius
of the unwarned area from 1,000 to 400 miles.

stations do not provide 24-hour coverage, nor are sets in
continuous use by the public. Various national warning

• The establishment of a West Coast Regional Tsunami
Warning Center, headquartered in San Francisco or
Sacramento, to provide more timely warning service for
nearly seven million people living in cities susceptible to

systems are under study , such as the Office of Civil
Defense Decision Information Distribution System

tsunamis cannot be assured from the centers in Honolulu

unsuitable as a primary warning system , because all

( “ DIDS” ), which might be adapted for dissemination of
tsunami information to the public.
Studies assessing the adequacy of public response to
the Tsunami Warning System have indicated that the

tsunamis. Adequate warning of locally generated
or Palmer , Alaska.

• The initiation of a comprehensive research program
to investigate ( 1 ) the geologic processes that deform the

ocean floor and produce earthquakes, (2) the actual mech

Misunder-

anism of tsunami generation , (3) the relationship between

standing, distrust, apathy , curiosity, and the lack of

earthquake magnitude and tsunami height, (4) methods of
tsunami recognition, and (5 ) methods for predicting wave
heights and probable tsunami landfall.

most serious breakdown is at the local level."

mechanisms for ensuring proper response all work against
the effectiveness of the warning. The processes of

disseminating local warnings, establishing emergency
preparedness, and informing the public as to proper
procedures vary widely in effectiveness.

1. Accurate prediction of tsunami arrival time and
wave height at any given point in the Pacific Ocean is

2. The inclusion of tsunami emergency procedures in
telephone directories, as done in Oahu, Hawaii, would
improve the public response to tsunami warning. These
procedures could include information on warning de
vices and emergency procedures, zones of possible
inundation, evacuation routes, and the location of relief

not feasible at present. There is a need to reduce the

centers .

Findings

Notes

' R. J. Brazee and James Jordan, “ Preliminary Notes on

? Standard Operating Plan for Tsunami Regional Evaluation ,

Southeastern Alaska Earthquake,” Earthquake Notes, Vol.
XXIX ( September 1958 ) ; Don J. Miller, Great Waves in Lituya

State Civil Defense, Joint Tsunami Research Effort and Tsunami
Advisor, Honolulu , January 1967 ; Standard Operating Proce
dures, Seismic Sea Wave, State of California , California Disaster
Office, April 1969 ; Alaska Seismic Sea Wave Warning Plan ,

Bay, Geological Survey Paper 354 -C , U.S. Department of the
Interior (Washington , D.C.: U.S. Government Printing Office,
1960 ).

Department of Public Safety, Alaska Disaster Office, revised

2Preliminary Report on Seismic Sea Waves from Aleutian
Earthquake of April 1946 , (Berkeley : University of California

October 1969 .

8 Basic Plan, Tidal Wave, Warning, Evacuation ; prepared by

Department of Engineering, 1946 ).
3
Communication
Plan for Tsunami Warning System , U.S.
Department of Commerce, National Oceanic and Atmospheric

Sheriff's Department, County of Ventura, and OCD .

Administration , 7th ed. ( Washington , D.C. , 1971 ).

Department, Orange County , and OCD.

* U.S. Department of Commerce, National Oceanic and
Atmospheric Administration , National Ocean Survey, Rockville,
Md ., January 1971 .

SE. W. Daniel, Jr., Report of the Tsunami Communications
Tests for the Third and Fourth Quarters of FY 71 (Washington,
D.C.: National Communications System, November 9, 1971 ).
6 Communication Plan for Tsunami Warning System .

Emergency Operations Plan, Seismic Sea Wave Threat to
the Unincorporated Coastal Areas of Orange County , Sheriff's

103. Eugene Haas, “ Final Report on the Effectiveness of
Tsunami Warning System in Selected Coastal Towns in Alaska,”
Environmental Science Services Administration Contract No.

E -230-69(N ), (unpublished, Boulder, Colo., May 1971 ), pp. 7-8,
13-14.

11James Havighurst, Perception of Tsunami Hazard (Hono

11

lulu : Hawaii Institute of Geophysics, 1967 ). See also Haas, op.
cit., pp . 2-3 .

Resp. App'x 178

Resp. App'x 179

Chapter I. Volcanoes
temperature measurements and chemical analyses of the

General

While some 79 percent of all volcanoes are contained
in the “ ring of fire ” which circumscribes the Pacific
Ocean , their distribution is irregular, with 45 percent in
the Western Pacific islands and only 17 percent in the
Pacific coastal region of North and South America (see
Figure 1). In the United States, only two volcanoes in
Hawaii and 27 in Alaska are active. The latter are primarily
in the Aleutian chain . In the conterminous United States
most of the volcanoes lie along the Cascade Range of

Washington, Oregon , and California (Figure 2). At
present, these volcanoes are inactive and are not an

immediate threat; however, they must be considered as
only dormant, and thus pose some potential danger to
the urban and agricultural centers of the Pacific North

gases and lava of the volcanoes, and assesses the level and
trend of the activity . On this basis, normal cyclical

patterns are confirmed , or signs of unusual activity
identified , and predictions and warnings are prepared .

The monitoring net consists ofmore than 20 seismo
graphs and associated telemetry equipment which are
located on the slopes of Kilauea and transmit data to a
network center at the HVO . A larger net , the local
tsunami warning network for Hawaii, with a center on
Oahu, receives seismic data recorded on neighboring
Hawaiian Islands and supplies them to the HVO to
augment the Kilauea recordings . The observatory also
conducts a continuing development and testing program
on instruments, techniques , and hypotheses required to

refine predictions of volcanic activity .

west .

Volcanic eruptions cannot be prevented; therefore ,

Pacific Northwest. Study of the volcanoes in the

programs for protection necessarily involve procedures
which are feasible in prediction and warning, as well as

Cascade Range of the Pacific Northwest is currently
concentrated on Mt. Rainier , Washington ; Lassen Peak,
California ; and Mt. St. Helens, Washington . Not covered
by the present program are the nine remaining inactive
but potentially dangerous volcanoes. This effort began in
the mid-1950 's as an outgrowth of engineering geology

preparedness to take the necessary action to prevent loss

oflife and mitigate damage.

Existing Programs

studies in the Puget Sound lowland. In the past 15 years,
Statutory Authority. Presentprograms in volcanology
are carried out entirely by the U .S. Geological Survey
(USGS).'
Organization, Facilities , and Procedures. During the
first years of its existence , USGS efforts in volcanology
consisted of field investigations conducted mostly by
outside consultants. They covered the most significant
eruptions that occurred and performed basic research
and studies at the Hawaiian Volcano Observatory

(HVO ). The USGS volcano program now consists of
three main elements, in the Hawaiian Islands, in the

it has consisted essentially of geologic mapping and
evaluation of existing hazards, although the level of

microearthquake activity has been monitored for brief
periods at Mt. Rainier, Mt. Saint Helens, and Lassen
Peak .

New Mexico. Basic volcanic research of the Jemez
Mountains, a large, inactive volcano complex in New

Mexico , began in 1946 . Detailed evaluations of structure
and volcanic products have resulted in important ad
vances in volcanology that have had far-reaching influ
ence in the understanding of large- scale eruptions. (For
additional information on volcanoes, see Part VIII,

Pacific Northwest, and in New Mexico .

Hawaiian Islands. The prediction and warning of

Chapter H .)

volcanic hazards in the Hawaiian Islands is performed by

the HVO , located on the rim of the Kilauea Crater.
USGS assumed responsibility for operations of the HVO
in 1924, 12 years after its founding by the Massachusetts
Institute of Technology .? HVO monitors the volcani
cally generated microearthquake activity, measures long
term tilt and bulging (deformation ), makes regular

Volcanic Hazards
Lava flows, pyroclastic ejecta (which include flows
and airborne volcanic debris), and volcanic mudflows are
the volcanic hazards that must be considered in the
protection program .

103
Resp. App'x 180

Resp. App'x 181

60

40

%
20

40

60

A

120

OCEAN

120

SIA

INDIAN

100

140

Ibo

USTRALIA

160

180
160

160
160

140
1409

120

120

AM

199

1

*

Have
-Location
1.
Figure
Which
Volcanoes
,of
1900
Since
Erupted

RICA

UTH

GREENLAND

nary

40

AM

60

20

INAIAM

VO

104
DISASTER PREPAREDNESS :
VOLUME OVE

DISASTER PROTECTION - I.

PACF
I
OCEA C
N

III.

VOLCANOES

105

reduce the productivity of the land for many years until
they assimilate into the soil.

Pyroclastic flows are the most dangerous and difficult
volcanic phenomena to guard against. If people are not
well clear of the danger area before the eruption , there is
little hope of escape . These flows arise when airborne

O MT. BAKER
GLACIER PEAK

SEATTLE

WASHINGTON

pyroclastic rocks are too heavy to remain aloft and flow

MT . RAINIER

downslope like a hot liquid. They attain speeds of more
than 60 miles per hour, behaving much like an avalanche

MT . ST. HELENS

O MT. ADAMS

and causing plants and buildings to burst into flame.

PORTLAND
MT. HOOD
MT . JEFFERSON
THREE SISTERS

Volcanic Mudflows. The threat posed by active
volcanoes is not restricted to eruptions. The large
amounts of loose ejecta scattered on slopes near active
volcanoes, as well as parts of the volcanoes themselves,

IDAHO

OREGON
CRATER LAKE

are highly susceptible to sudden downslope movement in
the form of volcanic mudflows. The volcanoes of the

Cascade Range are particularly susceptible to mudflow
hazards because of the high rainfall along the crest of the

MT . SHASTA
REDDING.

8

CINDER CONE

Cascade Range and the large volume of water that is

LASSEN PEAK

temporarily stored as snow and glacier ice at higher
altitudes on the volcanoes.

.

During heavy rains, large volumes of unconsolidated
debris can be stripped from steep volcanic slopes and
carried quickly downslope by mudflows. A subtle

CALIFORNIA
NEVADA

increase in thermal emission can cause release of
SAN FRANCISCO

melt-water, saturating large quantities of debris and
making it highly susceptible to mudflow transport. More
than 55 mudflows have originated on the slopes of Mt.
Figure 2.-Dormant Volcanoes of the Pacific Northwest

Rainier in the past 10,000 years. The largest of these,

U.S. Geological Survey .

4,800 years ago, traveled 45 miles down the valley of the

White River before spreading out on the Puget Sound
lowland as a lobe 20 miles long and 3 to 10 miles wide.
Lava Flows. These flows are completely destructive
but confined to restricted areas in the immediate vicinity
of the generating volcano. They may be effusive,

represented by a slow outpouring from a crater or a
fissure, or result from an explosive eruption which may
generate a river of molten materials tens of yards wide,
with rates of flow up to 30 miles per hour.
Volcanic soils are very productive, and the slopes of

relatively quiescent volcanoes are often farmed exten
sively. Residences are sometimes situated on the slopes
and in adjoining valleys in well-populated areas. This is
prevalent in Mexico, Italy, Hawaii, and Japan . The
property in the path of a lava flow cannot be saved, and
any economic use of the slopes of a volcano involves a
calculated risk .

Capabilities and Limitations.
Mitigation . Because of the devastating force of
volcanic eruptions, mitigation of damage has proved to
be difficult. Some success has been attained in slowing

or diverting lava flows by strategically locating stone
barricades. Danger zones on slopes can be mapped and

controlled to prohibit entry by humans and domestic
animals. During periods of danger, animals and some
items of property can be moved out of the paths of lava
flows to safer locations.

Prediction and Warning. The capability to predict
volcanic activity and give proper warning varies from
acceptable to clearly inadequate, depending on the
geographic areas involved .

Pyroclastic Ejecta . These are rock particles formed by

the explosive fracture of liquid and solid material by
rapidly expanding gases. When the particles are fine,
they are combined with other debris and blown aloft in

enormous quantities, where they remain suspended for
long periods. Settling in a stifling blanket over wide

areas, they cause respiratory problems, kill crops, and

Hawaii. HVO, through its seismic and deformation

monitoring, has given accurate warning of eruptions of
Kilauea, most notably in 1955 and 1960, and again in
August and September 1971. The extensive and accurate
Kilauea data do not afford a basis for prediction of
eruption of other volcanoes, although some techniques

Resp. App'x 182

106

DISASTER PREPAREDNESS :

VOLUME ONE

composition of water and gas, and infrared photography ·

An example of preparedness and response , based on a
hard lesson from the past, was recently provided by the
volcanic activity of Mt. Soufrière on St. Vincent Island

of the area . But none has been found as effective as

in the Caribbean . In 1902, the eruption of Mt. Soufrière

seismic and tilt measurements.

killed 1,565 persons, and the eruption of Mt. Pelée on
the following day killed 30,000. In November 1971 , Mt.

are transferable. Methods which have been used for

making predictions include temperature of hot springs,

• Pacific Northwest. The prediction and warning capa

bility in this area is limited to preliminary efforts at only
four of the 12 major volcanoes in the Cascade Range. The

lack of widespread concern about these volcanoes may
be attributed to their long -dormant status. Instrumen

tation and monitoring of active volcanoes are practical
and easily justified, but the problem is more complicated
when dormant volcanoes are considered. Long-quiescent

areas can come to life after hundreds of years. Although
activity would be heralded by precursor disturbances, it
is not practical to make continuous instrumental surveil
lance of such volcanoes to discover such premonitory
activities. Therefore, intermittent instrumented surveil

lance and long-term geological analysis must be the basis
for any protection program involving these volcanoes.

Soufrière began to show signs of activity, which in

creased to such a high level that 2,000 people were
evacuated on December 8.

In this latest instance, the response by scientists and
emergency assistance organizations provides an example
of feasible preparedness procedures, in addition to the
immediately executed evacuation. Scientists were in the
field to monitor the activity shortly after the first
reported signs of life. Representatives of the Smith
sonian Institution Center for Short - Lived Phenomena

and USGS volcanologists joined scientists of the Univer
sity of the West Indies on St. Vincent Island to observe
and record the emergence of the new lava in the center of

the crater lake, the lake water level and temperature, and
the seismic activity . Additionally , observations were

continued at Mt. Pelée to ensure immediate detection of
unusual activity.

Preparedness. Effective actions include establishing
evacuation routes and procedures , setting up collection
points and relief centers, and stocking and staffing

hospitals to handle the special problems of burns, heat
exhaustion , and respiratory difficulties. Evacuation is
practical even in most instances of violent eruption ,
because it is generally possible to recognize an impending eruption by monitoring the seismic occurrences ,
temperature regime, and characteristic cycles of activity.
Consideration must be given to each type of hazard in
the designation of evacuation routes. Lava flows will
follow easily discernible paths at velocities slow enough
to permit evacuation. Pyroclastic flows travel so rapidly
and range so far that the slopes of the volcano and its
adjoining valleys must be evacuated as rapidly as
possible. In planning evacuation or relief from airborne

debris, long-term weather forecasts and prevailing winds
must be considered .

Findings
With the exception of those on the Hawaiian Islands,
most volcanoes in the United States are inactive, and
thus pose only a relatively latent threat to the Pacific
Northwest

Since the volcanoes in the Pacific Northwest are

considered to be only dormant, the capability to provide
intermittent instrumental monitoring should be ex
tended to the existing 12 volcanoes. At the first signs of

activity, complete monitoring procedures comparable to
those in Hawaii can be undertaken .

Prediction and warning of volcanic activity in Hawaii
is considered satisfactory ; however, research and
development should be continued in an effort to
improve monitoring devices, such as seismic event
counters and borehole tiltmeters.

Notes

' USGS derives its authority from its enabling act (43 USC
31 ) , dated March 3 , 1879.

* Cliff Ollier, Volcanoes (Cambridge, Mass.: The MIT Press,
1969 ), p . 155 .

21. A. Jagger, My Experiments with Volcanoes (Honolulu :
Hawaiian Volcano Research Association, 1956), pp . 80, 114.

Resp. App'x 183

Chapter J. Frosts and Freezes
Many factors affect the success or failure of agricul
ture , but none plays a more decisive role than weather.
Annual losses attributed to weather are estimated at $ 11
billion . Based on 30 years ' experience, frosts and freezes

have accounted for 10 percent of these losses. Frosts
and freezes constitute a milder form of catastrophe than

excess of $ 1. 3 billion , can reduce the annual sales value
of $ 135 million by $ 75 million .

In extreme instances, certain plants can be com
pletely destroyed , or injured to the extent that recovery

For example , a bad freeze in the citrus-producing areas

may take months or years. Economic losses are borne by
the agribusiness community and the consumer, as well as
by the producer.
Since frosts and freezes cannot be prevented, protec
tion lies in prediction, warning, and preparedness proce

of California and Arizona, representing an investment in

dures. The FederalGovernment provides frost and freeze

other types of disasters; however, the economic impact
on agricultural industries and communities can be severe.

PRESENT AGRICULTURAL WEATHER SERVICE PROGRAM

wy
Agricultural Weather Service
Fruit-Frost Weather Service

Figure 1. - Present AgriculturalWeather Service Program -NOAA Plan for a National AgriculturalWeather Service (p. 21).
Resp. App'x 184

107

DISASTER PREPAREDNESS :

108

predictions and warnings; however, protection measures

for crops are primarily the concern of the producer.

Prediction and Warning
Frost warnings were first issued in 1880 to Louisiana
sugar growers. Some 2 years later, an attempt was made
to provide fruitgrowing areas with frost warnings for
temperatures below 40 ° F. As this service became gen

erally accepted, especially by Pacific Coast fruitgrowers,
the U.S. Department of Agriculture was given the
responsibility to " display frost and cold wave signals"

under the Organic Act of 1890. The special need to

VOLUME ONE

of Agriculture and the Weather Bureau formulated a
plan to expand the current service into unserviced areas.
The program would consist of advanced and effective
integration of available meteorological talent with that

of Federal and State specialists at colleges of agriculture
and agriculture experiment stations, to provide users

with both short- and long-range planning information
and certain specialized services. Advisory services will
also be provided to the Department of Agriculture. As
the program is implemented, the specialized efforts of
the Fruit-Frost Weather Service will receive continued

emphasis to assure that critical seasonal requirements for
frost and freeze warnings are met.

provide frost warnings led to the establishment of the
Fruit-Frost Weather Service. By the early 1920's the

Weather Bureau was providing frost-warning services to
Pacific Coast fruitgrowers and by the 1930's to other

Implementation of the Plan .' Phase 1 of the plan
is complete. Funds for program expansion into some un
serviced areas are included in the President's FY 1973

parts of the Nation. In 1926 it was reported that $ 14

budget. In considering priorities by States, it was deter

million worth of California citrus fruit was saved as a

mined that the most profitable application of agricultural

result of warnings the Bureau issued during a single cold

weather forecasts can be realized in those regions where
the number of weather - related options or alternative

wave. Recognizing the need for specialized forecasts
and advisories to all areas of agriculture, the Agricultural

Weather Service program was established for 12 areas of
the United States with concentrations of weather sensi
tive crops (Figure 1 ).
National Weather Service. It is estimated that at least

operational decisions is greatest, that is, where weather
sensitive agriculture (high cash receipts per acre) is
concentrated. Furthermore, those States with a higher

proportion of farm population would potentially profit
most from valid , timely, and pertinent weather informa
tion .

$ 1 billion in crop losses could be saved by better
weather forecasts . In an evaluation of user require
ments, it has been determined that the Agricultural

Based on these points, an order implementing the

tively ( within existing technical capabilities) meet the

Agricultural Weather Service in the remaining States was
developed by multiplying each State's per-acre cash
receipts by the percent of total U.S. population residing

needs of agricultural interests in selected areas of the

on farms in the State. (See Figure 2.) This was used as a
rating factor to rank the States. 10 Table 1 shows the

Weather Service and Fruit-Frost Weather Service effec

United States. In those States which have no specialized
agricultural weather programs, National Weather Service

headquarters arranges for service to agriculture as a part
of the general forecast service. This arrangement does

not meet the full requirement for agricultural weather
services for the following reasons:
• Public service forecasts and advisories, while fre
quently of general interest to agriculturists, do not cover
all parameters of importance.
• No advisories are available that interpret the fore

cast meteorological parameters in terms of probable
effects on agricultural operations and environmental
quality.
• Special agricultural observations essential to the
production of adequate forecasts are not available.

No area in the United States is completely free from

order of proposed implementation of the Service.
Frost and Freeze Alleviation Programs. Although
frosts and freezes constitute an annual threat to the
agricultural industry , there are no major Federal protec
tion programs nor any Federal agency directly involved

in the overall coordination and supervision of a concen
trated national program to alleviate the effects of frosts
and freezes. There are many private institutions, uni
versities, industrial firms, and Federal, State , and local
agencies engaged in research and development of protec
tion devices and procedures; however, the cumulative

results of these diverse efforts are not available in any
one Federal agency, and thus many growers have
incomplete information on which to base decisions on
methods of protection.

the effects of frosts and freezes. Because valuable and

Protection methods are grouped under two basic

highly weather -sensitive agricultural products are culti
vated throughout the country, an expansion of the
Agricultural Weather Service would provide more and
better information to the remaining areas of the country
( refer to Figure 1 ).

classifications: Active methods, which must be carried
out immediately before and during a period of actual
frost or freeze occurrence, and passive methods, which
must be used well in advance of the immediate threat
and are designed to avoid rather than prevent danger.

Plan for an Improved Agricultural Weather Service.

Active Methods." The most widely used methods

In response to a directive by Congress, the Department

are heaters, wind machines, and overhead irrigation.

Resp. App'x 185

109

III. DISASTER PROTECTION – J. FROSTS AND FREEZES

56.40 180.777
42.57
7.75

16.86

-62.22

60.55

-200.00

21.01

62.50

35.69

86.39
6.52

102.43

175.59! 70.11
36.78

86.37

5.43

-178.89

85.41

71.52h

25.02

18.875

231.43
-206.67
-178.57
- 108.44

43.33
15.35

23.60

50.61

42.87

30.54

‫م‬
‫ر‬

115.51

86.04

40.78
46.17

23.43

59.76

14.46

47.58 43.42

6.75
187.96

58.04

60.48

80.00
2.00

78.18

Figure 2. - Cash Receipts in Dollars per Acre of Farmland, 1968 (above) and State Farm Population as a Percentage of
the Total U.S. Population, 1960 (below ) -NOAA Plan ... (p. 33 ) .

.031

.034

.111

.115

.064

-.012

.347

.215

,092

.330

.082

.121

.270

-.028
-.003
-.020

.238

.026

-.039

.391

.183

.007

.323

.345 -299

-.015
-.073

.086 /

.036
.079

.189

.259

.343
.331
.528

.257

.376
.163

.241
.231

.041

.378

.040

.286

.288

.448
.174
1.087

.002

080
.001

Resp. App'x 186

DISASTER PREPAREDNESS : VOLUME ONE

110

Table 1. - Agricultural Weather Service Implementation

Plan - adapted from NOAA Plan for a National Agricul
tural Weather Service (p. 34 ).
PHASE 1 ( complete )

heaters were developed ( Figure 3 ). These heaters burned
with higher efficiency and drastically reduced the

emission of pollutants. The relatively high capital cost
($350 to $ 400 per acre ) plus additional storage , refuel
PHASE 5 (continued)

* Virginia
* Louisiana

Arkansas

Indiana

* Maryland

Kentucky
New Jersey
Oregon

* Florida

South Carolina

only small amounts of air pollutants. The petroleum
coke heaters, small coke blocks in the shape of building
bricks, are more effective in terms of units of heat

PHASE 6

PHASE 2

produced, but the cost of the fuel is higher than oil. In
addition, rate of burning cannot be controlled , nor can

Kansas

Massachusetts

Arizona

Washington
Connecticut
Oklahoma

Ohio

New York
Nebraska

ing equipment, and labor costs ($ 100 per acre ) have
prevented wider acceptance of this type heater.
Solid fuel petroleum coke and petroleum wax
heaters, which have been developed by several petroleum
companies, require no capital investment and produce

they be extinguished after lighting. Although no capital
investment is required, they do involve a substantial

amount of labor, plus storage and refueling problems.
The petroleum wax heaters produce more smoke and air

* Idaho

pollution than the coke heaters and present problems in

PHASE 7

design of adequate containers. Wax spillage is a nuisance
factor and may also damage individual plants.
Within the past 10 years , heaters have been

Montana

Wyoming
PHASE 3
Maine

* Texas

Delaware

North Carolina

South Dakota

lowa

North Dakota
Colorado
Vermont

Illinois
California

introduced that burn oil and gas supplied from a
central pipeline. These heaters have a high combustion
efficiency and produce very little air pollution. The
capital cost will probably be greater than for the

conventional return -stack and jumbo-cone heaters, but
reduced labor costs may promote good acceptance by
growers. As with all new systems, there are deficiencies
which must be eliminated .

PHASE 4

New Hampshire
Hawaii

The general use of efficient, economical, and
pollutant-free heaters is an important goal for many
agricultural communities. As a result of high capital and
labor costs, many growers are using open oil fires in
buckets, barrels, and pails, plus other materials (such as

Utah
New Mexico

rubber tires and railroad ties) which are difficult to
manage and cause smoke and air pollution.

PHASE 8

Wisconsin

* West Virginia

Minnesota
* Pennsylvania
* Mississippi
* Michigan

* Georgia

• Wind machines (Figure 4 ). The first wide -scale use of
wind machines occurred in Southern Califomia . Wind

* Tennessee

PHASE 9

machines produce little or no heat but depend on the

PHASE 5

* Missouri

Nevada
Rhode Island

* Alabama

Alaska

presence of a temperature inversion - a layer of warm air
above the surface. They provide cold protection by
mixing warmer air above the plants with the colder air
among the plants, a process which replaces part of the
heat lost by radiation cooling of the surface.

* Service partially implemented .

The amount of cold protection that can be

Experimentation has also been undertaken in the use of

expected from a wind machine depends on the strength
of the inversion , the power of the machine, the wind

artificially produced clouds or fogs and in the use of

speed , and the distance from the machine. Results

foam materials as an insulating base.

obtained with a wind machine used in a research

• Heaters. " 2 Heating is one of the oldest and best

program at the University of Florida showed that under
clear, calm conditions at least 2 degrees of cold

means of cold protection. During the 1930's, widespread
use of heating devices began in Southern California . As
the citrus acreage expanded , pollution became severe

protection was obtained on an area of 8-10 acres. Winds

because of the smoke and soot produced by burning oil

in excess of 5 miles per hour preclude any beneficial
effects from wind machines.

in open containers. As a result of antipollution regula
tions and controls, return -stack and jumbo cone -type

Wind machines offer some excellent advantages

in cold protection because they minimize labor require

Resp. App'x 187

III. DISASTER PROTECTION - J. FROSTS AND FREEZES

11

Figure 3.- Types of Heaters : (left to right) Return Stack, Jumbo Cone, Short Stack ,Open Pot- University of Florida,
Institute of Food and Agricultural Services.

ments, demand less refueling and less storage than
heaters, are permanently located, have a low operational
cost per acre , and do not produce smoke and air
pollution . Conversely, they require rather high capital

costs and provide cold protection only when tempera

power the propellers used in wind machines; however,
field trails in California , Michigan , and Florida have
shown that the buoyancy imparted from the exhaust of

the ramjets spoils the effect of the mixing.
• Overhead sprinklers (Figure 5 ). Primary research
work in overhead sprinkler irrigation for cold protection

ture inversions and light winds exist.
• Wind machines used in combination with heaters.
Research at the Universities of California and Arizona

Michigan , Florida, and the Rio Grande Valley of Texas.

has shown that heaters of the conventional type and
wind machines may be combined to produce a com

latent heat of fusion when water turns from liquid to

of fruit and vegetable crops has been conducted in

Irrigation provides cold protection by the release of the

plementary effect. Part of the benefit is derived from the

ice. If a mixture of ice and water can be kept on a plant

efficient mixing of the atmosphere in the lower layers
that contain heat and by efficient distribution of the
heat produced by the heaters. On windy nights, how

at all times, the temperature will remain close to the

ever, this combination -type procedure will not provide
additional protection .

chines. Severs thrust

Attempts to combine heat production and wind
machines into a single device have thus far not been
successful. Several manufacturers have attempted to use

the tremendous thrust developed by ramjet engines to

freezing point of 32°F.
Sprinkling differs from other cold -protection
systems in that improper use can result in more damage
than if the plants were left unprotected. If not enough
water is used, the temperature of the plant may drop
several degrees below air temperature, thus increasing
the damage. An additional hazard to large citrus trees
and grapevines is that accumulation of heavy ice loads

Resp. App'x 188

DISASTER PREPAREDNESS :

112

VOLUME ONE

damage is based upon the assumption that the cooling

effect from noctural radiation can be favorably modi
fied. After World War II , surplus steam oil generators
were used to produce clouds similar to those used for

camouflage purposes. The amount of oil required to
produce the desired effect was prohibitively expensive

and also produced materials poisonous to the plants.
Further experiments designed to produce the proper size

and stability of water droplets for fogs have resulted in
the commercial marketing of the technique. Results have
been generally disappointing, although some slight modi

fication in the loss of energy from the surface by
radiation has been attained .

• Foams (Figure 6). The production of firefighting
foams has led to cold -protection experiments that

may become important for low -growing crops, as well as
for other crops under special conditions. The technique
has been investigated by industry and by research
workers in the Rio Grande Valley of Texas, Louisiana

State University , and the University of Georgia, and

research is programmed at the University of Florida.
Basically, the application of such foams to plants
provides them with protection by making an effective
heat-insulating layer, which retards the loss of heat until
the danger of low temperatures has passed.
The critical factor in the development of

suitable foams is that the stability of the material must
be such that it remains intact for only the desired length

oftime. If the foam does not dissipate at the proper time,
plants can be damaged by excessively high temperatures

as the short -wave radiation from the sun penetrates the
material.

Passive Methods. These include protective meas
ures that can be taken before the advent of cold

weather or even before the crop is planted. Farmers have
always attempted to find the most favorable environ
ment for their crops and, in particular, the least frosty
areas. In this selection , close attention is paid to the

national and local climatological data that have been
collected over the years.
U.S. Department of Agriculture photo.

The choice of growing season, when it can be
made, will offer protection against cold weather. Field

Figure 4. - Wind Machine in a California Orange Grove

crops planted early in the season offer the advantage of

may cause breakage. Sprinkler irrigation has proved to

earlier marketing but also are subject to increasing frost
risks. The availability of suitable and economical cold

be most effective for low -growing crops, such as nursery

protection devices is often the influencing factor in

stock, strawberries, and ferns.

decisions on when to plant.

Permanent overhead irrigation systems offer the
advantages of low operational costs, no air pollution,
plus the possibility of their use for regular irrigation.

Cost of the equipment is high ($300 to $500 per acre),

Research has been conducted in the use of growth
hormones to delay flowering of tree -fruit crops to avoid
frost danger. Unfavorable side effects, such as tree
damage or crop reduction , indicate that further research

however, and the system must be skillfully designed,

is necessary .

located, and operated in order to insure adequate

In many areas, cultivation practices have success
fully reduced frost hazard . For instance, soils that are

protection .

• Artificial clouds or fogs. The use of clouds or fogs

produced artifically for protection of plants from cold

weed free, moist, and packed radiate less heat than
plant-covered, freshly worked, or dry soils. In some

Resp. App'x 189

III. DISASTER PROTECTION - J. FROSTS AND FREEZES

Figure 5 .- Frost Protection Irrigation System (Avon Park , Florida, December 1962) — USDA photo .

Figure 6 . - Scientists with New Insulating Foam (Weslaco , Texas, test field ) - USDA photo .
Resp. App'x 190

113

DISASTER PREPAREDNESS :

114

localities, irrigation is curtailed during the frost season,
because a tree not irrigated tends to sustain less cold

VOLUME ONE

2. Many private institutions, industrial concerns, and
Federal, State, and local government agencies are in

damage. With some crops, special pruning practices can ,

volved in research, development, and operational em

delay blooming dates and lessen damage from cold

ployment of various cold -protection devices; however,
because of the diversity of effort and the lack of a
central clearinghouse or repository of information, a
continuing evaluation of progress and problems on a

weather.

Findings

national scale is most difficult.

1. The Fruit-Frost Weather Service and the Agricultural
Weather Service have provided satisfactory cold weather
prediction and warning information to selected areas of

the agricultural community ; however, this service is not
provided countrywide. Completion of the “ Plan for an
Improved Agricultural Weather Service” will provide
more effective frost and freeze protection information
to all areas of the United States, but will require
additional funding for completion.

A potential solution would be the designation of

one Federal department or agency as the local coordi
nating point for all activities in frosts and freezes being
conducted by Federal, State, local, and private organiza
tions. This should assist immeasurably in keeping all
interested organizations and industries abreast of the
progress in research and development in protection
devices and practices.

Notes

U.$. Department of Agriculture, Federal Crop Insurance

8 Authorized by the Appropriations Committee of the 87th

Corp., Federal All-Risk Crop Insurance: A 21 Question and
Answer Explanation for Agricultural Bankers, August 1969.
? Dale Harris, “ Beat the Big Freeze, ” ESSA World , U.S.

Congress, 1st Session, Report No. 497 (General Bill, 1962)

Accompanying H.R. 7577 and Report No. 448 Accompanying
H.R. 7444 .

' Ibid.

Department of Commerce, Vol. 4, No. 2 (April 1969), pp. 32-35.

10A final factor concerns local requirements. Those States

315 USC 313.

with a sufficiently strong local interest will be given a higher

*Patrick Hughes, A Century of Weather Service (New York:
Gordon and Breach , Science Publishers, Inc., 1970), p. 192.
SIbid.

6 « Even Computers, It Seems, Find Weather is Fickle," New
York Times, December 29, 1966 .

priority for implementation, thereby responding to the demands

arising from the fluctuating agricultural situation .

11Major portions of this topic were contributed by Dr. John
F. Gerber, Assistant Dean for Research , Institute of Food and
Agricultural Services, University of Florida.

12 J. F. Gerber, Warren Johnson, and J. G. Georg, “ Anti-Cold

? U.S. Department of Commerce, Federal Plan for a National

Devices Help Reduce Pollution,” Citrus World (February 1970),

Agricultural Weather Service (Washington, D.C.: U.S. Govern

pp. 9, 14 , 19. This article was the principal basis for this

ment Printing Office, January 1971 ).

discussion of heaters.

Resp. App'x 191

Chapter K . Droughts
Drought has been recognized as a prime cause of

disaster. The state of the art relative to prediction and

human misery since the beginning of recorded history.

warning of drought conditions is not such that it can be

While generally associated with semiarid and arid cli-

considered part of a viable protection program . Occur

mates, drought can occur in areas that normally enjoy · rence of drought does not require that evacuation be
adequate rainfalls and moisture levels. Regardless of its undertaken or first aid be provided . People are not
locus, prolonged and intense drought produces the same
results : extensive crop failure, premature sales of live

stock resulting in losses to stockmen , shortage or
disappearance of potable and industrial waters, and

increases in the debt burdens of individual victims and
governments in the affected areas.
Fortunately , the United States has never suffered a

drought of national scope and has been able to sustain
the areas of the country that do have recurring drought.
Nevertheless, drought is a serious hazard, particularly in
the West and Midwest. The expectation of dry condi

suddenly rendered homeless or without food and cloth

ing. The effect of drought is basically economic , and this
effect develops over a prolonged period . Drought does
resemble other types of disaster in that victims can be
deprived of their livelihoodsand communities can suffer
economic decline.
Drought-protection methods fall into three cate
gories: (1) those passive procedures that are taken well
in advance of drought danger and that are designed to
avoid losses; (2) those Federal, State , and local allevia
tion programs that shield an area from the effects of

tions has become part of the way of life of farmers and

droughtby early preparation (storage, conservation,and

ranchers in some of these areas. To a large degree, these
adverse conditionshave been met successfully because of

reuse of water; improvement of water supplies; weather
modification to induce increased precipitation ; and
avoidance of high water-use activities in particularly
hazardous areas) ; and (3 ) those emergency measures
that provide relief after drought conditions become
severe (economic and material assistance to sustain the
inhabitants and emergency measures to supply water by
piping or hauling or by weather modification to end the

improved dry farming techniques, water conservation

practices, and extensive irrigation of pasture and crop
lands. Despite the measures taken to adapt agriculture to
dry conditions, a prolonged and intense drought presents
severe socio -economic problems.

The term “ drought” has been commonly applied,
rather inconsistently , to three major forms of dryness:

drought).

( 1) a natural condition caused by less-than -average

precipitation over a certain period of time, (2 ) a natural
condition under which the average precipitation is low ,

PassiveMeasures

and (3) nature's failure to fulfill the wants or meet the

Although drought periods cannot be accurately pre

requirements of man . The definition used in this report
is that drought is a meteorological phenomenon and

dicted , in certain parts of the country there are definite
historic cycles of wet and abnormally dry periods that

occurs during a period when precipitation is significantly
less than the long-term average and when this deficiency
is great enough and continues long enough to affect

should be considered by individuals and political entities

in the long-range planning of themost suitable agricul
tural practices.

mankind. Drought is thus measured in terms of the

Drought is a short-term recurring problem in the sub

duration and magnitude of the departure from the
average climate in the area under consideration . The
water - soils, lakes , streams, and surface and underground

humid and humid zones , where there is a normal excess
of moisture; it is a recurring but not a major problem
along the extreme western edge of the semiarid zone,
because the economy is geared to desert-type develop

reservoirs - upon which man depends for his supplies.

ment. Themajor problem areas are the semiarid and dry

Depending upon the extent to which a drought reduces
these supplies with respect to the developed demand , the
effects of droughts may be mild , moderate, or severe."

zones where climate periodically shifts to subhumid or
humid conditions. In spite of the known cyclical
recurrence of abnormally dry conditions, this climate
shift is often followed by unwise agricultural and
livestock-raising practices which are made attractive by
the relatively wet period . Farmers and ranchers should

effects of drought are measured in the various sources of

Disaster protection , as it relates to drought, cannot be
discussed in the samemanner as can protection from the

more abruptly occurring, violently destructive types of

115
Resp. App'x 192

DISASTER PREPAREDNESS: VOLUME ONE

116
HAY SPRINGS, NEBRASKA

HAYS , KANSAS

1890 1900 1910 1920 1930 1940 1950 1957

1890 1900 1910 1920 1930 1940 1950 1957
AMARILLO , TEXAS

WOODWARD, OKLAHOMA

1895 1900 ' 1920 1930 1940 1950 1957 L 1892 1960

1895 1900

1920

1930

1940

1950

1957

1892

1900

'

1920 1930 1940 19501951

1920

1930

1940

1950 19 !

Figure 1. - Irregularity of Drought Periods: Four Localities, showing inches of precipitation above or below normal
(zero on scale ) — from A Report on Drouth in the Great Plains and Southwest (p. 13).

be cautioned against overplanting, experimenting with
crops which are less hardy to drought resistance,
overstocking and overgrazing livestock ranges, and laying

A primarymethod for reducing the effects of drought
is to plan and build better water supply facilities to meet
long and short-range multipurpose requirements.

out larger than normal capital investments.
Records of precipitation in the past century show
eight severe droughts in the five southerly Great Plains
States (1865-75 , 1890-95, 1901-04 , 1910 -14, 1920-25 ,
An extractappfrom
1933-40 , 1952-56 , and 1970 -71).). An
atrio a

Known fresh water reserves such as rivers, streams, lakes,

and underground supplies (aquifers) can be utilized to

representative localities over a 70-year period in the

the extent of their potential yield and the needs to be
served. A limitation on this type of developmentis that
projections of future requirements often exceed known
water resources.
Public water supply projects include a range of
facilities necessary for storing water and conveying it
from source points to areas of need . Facilities may
include pumps, wells, pumping plants, diversion dams,
storage damsand reservoirs, pipe and canal distribution
systems, and related structures.
Figure 2 shows the San Luis Canal and Dos Amigos

Great Plains region are shown in Figure 1 .

Pumping Plant, San Luis Unit, Central Valley Project in

Drought Alleviation Programs

water supplies for irrigation and for domestic, municipal,
industrial, and recreational uses, thereby stabilizing the

ds
534-year tree- ring growth record shows anan apparently

random pattern in the lengths of wet and dry periods.
They vary from annual fluctuation to periods as long as
16 wet years and 15 dry years. Although the patterns
are random , the history of the cycles is sufficient for
intelligent agriculture and range land management. Peri
ods of above and below normal precipitation for four

California . This canal provides adequate and dependable

Federal agencies with primary responsibility in the
solution of water problems are the Departments of
Agriculture, Commerce, the Interior, and Defense. Al
though it is not possible to alter the general circulations
of the atmosphere that cause drought, there are many

recipient service area against drought effects. The photos
in Figure 3 illustrate water supply projects in Utah and
Wyoming.

The U .S. Army Corps of Engineers' large reservoir
projects provide primary storage for flood control on a

power irrigatiofions of

means of advance preparation for withstanding or

national scale and also provide multipurpose storage for

alleviating drought.

power production , municipal and industrial water sup
plies, irrigation , recreation , and fish and wildlife enhance

Water Supply Systems. The Bureau of Reclamation in

ment. Discussions of these projects and of the role of the

the Department of the Interior has primary responsi

Corps of Engineers appear in Part III, Chapter B , River

bility for all multipurpose functions related to storage,

Floods, and in the physical study on River Floods (Part

diversion , and development of waters for reclamation of
arid and semiarid land in the drought-prone western

VIII, Chapter A ).

States, under authority of the Reclamation Act of

Weather Modification. Cloudseeding is an evolving
science for control of precipitation . Serious research and

1902.3

Resp. App'x 193

117

III. DISASTER PROTECTION - K . DROUGHTS

Figure 2. -Dos Amigos Pumping Plant, San Luis Canal, California- Bureau of Reclamation photo.

experimentation in precipitation augmentation date

it is more economical and flying conditions are hazard

from the middle 1940s. The Federal agencies conducting
the most active programs in weather modification are
the National Oceanic and Atmospheric Administration
(NOAA ), in the Department of Commerce, and the

ous. In the Central and Eastern United States, summer
cumulus clouds are seeded to release precipitation
directly upon drought- ridden areas. Aircraft are gen

Bureau of Reclamation . Based on experiments at Cli

based generators may also be effective. For some newer

max , Colorado, the Bureau of Reclamation is conducting

seeding techniques, larger and more expensive aircraft

an extensive pilot project in the San Juan mountains of

would be required . (See Figure 4.)

erally preferred for this type of seeding, but ground

Southwestern Colorado, to test the operational feasi
“ Project Skywater,” a Bureau of Reclamation pro

bility of increasing winter snowpack in order to augment
the runoff into the upper Colorado river. NOAA's
program is directed primarily to mitigation of hazardous

gram , indicates that about 2 million acre-feet per year of

weather and to a lesser extent to rainfall augmentation.

Colorado River Basin as a result of an active winter

low-cost water could be added to runoff within the

Two general types of cloud conditions are currently

season cloud-seeding operation . This additional supply

being used in seeding operations. In the Rocky Mountain

would be significant in controlling or mitigating the
effects of drought in the Southwest. It has been

region , winter orographic clouds ( formed by the upward

thrust as air masses cross mountains) are seeded to
produce increased snowfall and provide deeper snow
packs above storage reservoirs. Ground-based silver

iodide generators are generally used in this area, because

estimated that two inches of additional rainfall in the

Northern Plains area (a seasonal increase of approxi
mately 16 percent) would increase crop yields by 10
percent.

Resp. App'x 194

DISASTER PREPAREDNESS: VOLUME ONE

118

Figure 3. -Water Supply Efforts: (above) use of concrete ditches and siphons to water sugar beets (near Elberta , Utah );
(below ) a portion of a 1300 -foot pivoting sprinkler system covering 147 acres ( Seedskadee Project, Wyoming) — Bureau

of Reclamation photos.

Resp. App'x 195

III. DISASTER PROTECTION - K . DROUGHTS

119

Figure 4. -Cloudseeding Methods: (above) silver iodide generators on Emerald Mountain, Colorado; ( below) a T-6
aircraft tests experimental pyrotechnic cloudseeding devices near China Lake, California - Bureau of Reclamation
photos.

N3326G

Resp. App'x 196

DISASTER PREPAREDNESS : VOLUME ONE

120

Although current and proposed Federal weather
modification programs show promise in helping to
alleviate dry conditions, these programs cannot possibly

plying, and maintaining soil and water conservation meas
ures, under the Great Plains Conservation Program (Act
of 1956, as amended November 1969), " and the Re

accommodate all affected areas. Commercial cloud

source Conservation and Development Projects ( Food and

seeding operations, however, are available to govern
mental and private agencies and have been operating in a
majority of the drought-prone western States. Financing
has been provided by State governments, counties (by

Agriculture Act of 1962). 12 The Agricultural Stabilization
cost-sharing assistance to farmers and ranchers for

local tax assessments ), cities and townships, associations,

carrying out water conservation measures.

private industry , and individual farmers and ranchers.
A discussion of some of the considerations involved

and Conservation Service administers the Rural Envi.

ronmental Assistance Program (REAP ), which provides

RURAL PUBLIC SUPPLIES RURAL
PUBLIC SUPPLIES
( 1 percent),
( 7 percent)
( 4 percent)
( 7 percent)

in establishing a national weather modification program

INDUSTRY

appears in Part IV , Chapter C.

(5 percent )

Desalination . Under the Saline Water Act of 19526

and the Saline Water Demonstration Act, the Office of
Saline Water (OSW ) in the Department of the Interior
has made considerable progress in the development of

INDUSTRYIRRIGATION
(54 percent ) ( 38 percenty
IRRIGATION

desalting processes. Because seawater and brackish feed

(84 percent)

water sources are available in many drought-prone areas,

desalting offers a capability to supplement normal water
supplies. There are some 712 desalting plants in opera
tion in the world , with a total installed capacity of 245
million gallons per day.
The feasibility of using desalting plants in an emer
gency was demonstrated during the Cuban crisis in 1964.

310,000 million gallons

78,000 million gallons

per day withdrawn

per day consumed

Three desalting units, eventually installed at Guanta
namo, provided 244 million gallons of water per day at

85

percent

15 percer

the U.S. naval installation .
During the unusually dry weather in the northeastern
United States from 1961 to 1966, water shortages

developed in many areas. In New York City, supplies
dropped to approximately 30 percent of capacity in
October 1963.8

Desalting as a droughtproofing measure was assessed

in 1966 by a joint technical team of Federal, State, city,

and utility representatives to determine the “ potentiali
for Northern New
ties and posssibilities of ‫و‬desalting
‫ور‬
Jersey and New York City ." 9 Their study indicated that
desalting could alleviate drought effects by providing
supplemental water, and that desalting plants could
provide this service most economically when operated in
conjunction with the existing water system. The study

Figure 5.-Water Consumption, 1965 : ( above) with
drawal and consumption, by category; (below ) consump
tion in the 17 western States and the 31 eastern States

from Estimated Use of Water in the United States, 1965
(p. 8) .

also showed that the desalting plant could be operated

Efficient methods of handling and using water can

either intermittently or at base load for extended

permit a given water resource to survive longer periods
of dryness. Figure 5 shows the distribution of water

periods of time and could be kept in standby condition
during periods of ample natural water supply .
In a follow - on effort with OSW, New York City

conducted a study concerning emergency water supply
to the individual boroughs. 10 This study indicated that
desalting plants could supply the boroughs through
modular unit increases in plant capacity .

withdrawn and consumed in the United States in 1965.

The right-hand pie chart shows that irrigation accounted
for about 84 percent of the estimated 78,000 million
gallons per day of fresh water consumed. Thus, efficient

irrigation can have major impact on water conservation .

Research and development to improve irrigation
efficiency has been an ongoing program of the Bureau of

Water Conservation. The U.S. Department of Agri

Reclamation . During the past few years, pilot projects

culture is heavily engaged in water conservation pro

involving computerized water scheduling, based on

grams. Its Soil Conservation Service provides technical

actual soil moisture measurements, have shown that

assistance to landowners and operators in planning, ap

farmers are often poor judges of when to irrigate. The

Resp. App'x 197

121

III. DISASTER PROTECTION - K . DROUGHTS

strong pressures may be exerted to obtain substantial
Federal assistance. If the drought terminates quickly,

projects produced higher yields at lower rates of water
usage than traditional methods. 13
The manner of conveyance of water is highly signifi
cant. Federal Government planning criteria for irriga
tion projects now require that economic justification be
shown for building other than lined canals. The use of
pipes is encouraged, which is a marked departure from
the past, when unlined canals were used except through
sandy soil or other areas conducive to extreme leakage.

• Sale of feed grain at reduced prices,
• Freight cost sharing on hay ,

such Federal assistance is not necessary ; if prolonged,
the early commitments may prove prohibitively expen
sive to maintain . Federal emergency assistance provided
to farmers and ranchers in drought-stricken areas in
cludes :

Automation of water conveyance system operation is

• Grazing and haying on " diverted acres,'

being developed. Some systems are being planned to
include complete computer scheduling of conveyance

Cost sharing on water conservation measures,
• Emergency and other Farmers Home Administration

automatic control of
system flows and storage through
14

loans,

outlet and canal gate structures.

Reclamation of Effluents. The Environmental Protec

tion Agency, under authority of the Water Pollution
Control Act,15 conducts research and development
projects and demonstrates feasible techniques for reno
vation of waste waters for reuse .

It is conservatively estimated that 60 to 70 percent of
the total public water supply requirements in highly
developed and sewered urban and industrial areas is
eventually returned
to streams, lakes, or the sea via
16
sewage systems.

Reclamation of this effluent for

recycling could increase usable water supplies signifi
cantly. During 1965 , an estimated 23.6 billion gallons of
water per day were withdrawn from various sources for

use in public water supply systems in the continental
United States.17 Public acceptance of reclaimed sewage
as a source of potable water has been slow to evolve ;
however, pilot sewage reclamation projects, such as the
locally sponsored West Santee Project near San Diego,

California, have been accepted for fishing
and other
18
recreational purposes, including swimming.
Coordinated Use of Water Resources. The U.S.

Geological Survey , in the Department of the Interior, in

1894 was given the responsibility of gauging streams and
determining water supplies. The programs conducted
by the Geological Survey include determination of the
source , quantity, quality, availability, distribution, and
management of both surface and ground waters.

Small Business Administration loans,
• Weather modification programs,
• Office of Civil Defense loans of emergency water

supply equipment.
On the basis of the experiences with the southwestern
drought in 1971 , consideration should be given to
amending applicable legislation to provide Federal assist
ance more directly responsive to individual and public

requirements. Unlike other disasters, droughts primarily
affect agriculture, domestic and industrial water supply ,
water-based recreation , and fish and wildlife resources,
all of which may require some Federal assistance for long

periods. Nonagricultural segments of the population
within a drought area may be adversely impacted only if
the drought is unusually severe or prolonged .
The U.S. Department of Agriculture now has some
latitude for its own programs and can extend repay

ment periods on loans, modify conditions and prices for
feed, and suspend assistance when determined to be no
longer needed. However, present legislative authorities
and funding available to the Secretary are insufficient to
preclude reliance by the States on a major disaster
declaration to trigger desirable Federal assistance.
Prolonged droughts may adversely affect the water
supply of municipalities, thereby generating a need for
emergency measures. In addition to the previously cited
Federal programs to augment water supplies, there are
actions that can be taken in advance by State and local

The total national water resource can be more

agencies. The need for emergency measures such as
installation of pipe lines and, for small entities, the
hauling and storage of water can be foreseen prior to an

effectively utilized if water sources can be completely

actual disaster condition ; thus, the necessary actions can

identified. Historically, there has been a tendency not to

be preplanned to insure that emergency measures can be

recognize the association between surface-water and
ground-water resources in the same hydrologic basin. In
order that water withdrawals can be coordinated, and

implemented in the most timely and efficient manner.

because of the importance of adjudication of water
rights, these relationships need to be as clear as possible.

Drought Emergency Measures
During agricultural drought, serious problems arise

in determining the nature and extent of Federal assist
ance warranted . During the early stages of the drought,

Findings
1. In certain parts of the country , there is a definite

cyclical recurrence of abnormally dry conditions. Al
though the timing and intensity of these cycles cannot
be accurately predicted, historical evidence on the
probabilities of recurring dryness is well known. These
factors should be considered by individuals and political
entities in planning for the use of emergency measures to

Resp. App'x 198

NESS

ED
ER
DISAST PREPAR

122
increase water supplies and for the most efficient use of
farm , forest , and range lands and water resources.

E
: VOLUM ONE

• Acceleration of land treatment and management pro
grams that emphasize moisture conservation , including
use of crops and grasses best suited for the limited

2. Droughts do not pose an immediate danger to life

moisture available in a drought.

and property, because they are slow in reaching disaster
status; however, there can be a serious economic impact

3. Weather modification holds promise of increasing

which develops over a prolonged period in the drought

precipitation during dry seasons and reducing the effects
of cyclic droughts. This potential capability can be

stricken area.

A comprehensive prevention program requires:
• Construction and improvement of modern, multi
purpose water supply facilities to ensure that fresh water
reserves can be fully and effectively utilized.
• Continued emphasis and support of Bureau of Re
clamation programs to maintain water reserves by
encouraging efficiency in storing, transporting, and using

improved by:

water, especially for irrigation .

tions by State, county, and local governments and by
private organizations and individuals to supplement

• Education of the public to accept the use of

water supplies.

reclaimed effluentwater, a feasible program which could
provide a significant water supply while reducing water
withdrawal requirements.

designed to cope with agricultural droughts. The central

• Expanded use of desalting procedures, where econom
ically feasible , to provide reliable supplies of fresh water

from brackish water or seawater , including consideration
of the droughtproofing role of desalting plants in addition
to their function of supplementing other water supplies.

• Completion of ongoing weather modification pilot
projects by the Bureau of Reclamation andby NOAA to
refine techniques and gain operational information .

• Continued use of commercial cloud seeding opera

4 . Disaster assistance under Public Law 91-606 is not
role of the Department of Agriculture in providing
Federal assistance should receive continued emphasis.
This should preclude reliance on a major disaster
declaration in meeting the demands of agricultural

droughts.

Notes
H . E . Thomas et al., General Summary of Effects of the
Drought in the Southwest, Geological Survey Professional Paper
372-H , U .S. Department of the Interior (Washington , D .C .: U .S.

Government Printing Office, 1963).
? A Report on Drouth in the Great Plains and Southwest,
prepared under direction of the Special Assistant to the President
for Public Works Planning, Washington , D .C ., October 1958 .

343 USC 391 et seq .
4See Project Skywater, Atmospheric Water Resources Pro
gram (pamphlet), U .S. Department of the Interior, Bureau of
Reclamation (Washington , D .C .: U .S. Government Printing

Office, 1971).
See Project Skywater - 1970 Annual Report, Bureau of

Reclamation (Denver: U .S . Department of the Interior, 1970).

666 Stat. 328,as amended ; 42USC 1951 et seq.

(Washington , D .C .: U .S . Department of the Interior, 1966), p.
2- 1.

" Parsons- Jorden Corporation , Study of Seawater Desalting
as Emergency Supply for New York City, Office of Saline Water
R & D Progress Report No. 553 (Washington , D .C .: U .S . Depart

mentof the Interior, 1970).

1170 Stat. 1115, as amended by 83 Stat. 194; 16 USC 590.
1276 Stat. 608, 16 USC 1001 et seq.
13Maurice N . Langley , “ Automation of Irrigation," paper
presented at the National Irrigation and Drainage Specialty
Conference, American Society of Civil Engineers (Phoenix , Ariz .,

November 13-15, 1968), p . 5.
14 Ibid., pp. 11-14.
1570 Stat. 448, 33 USC 466 .

1961-1966 in the Northeastern United States, New York

10Harold E. Babbitt and Robert E. Baumann, Sewerage and
Sewage Treatment, 8th ed . (New York : John Wiley & Sons,
1958 ); also, Feasibility of Reclamation of Water from Wastes in
the Los Angeles Metropolitan Area, Bulletin No. 80 (Sacra

University Sterling Forest Conference on Drought, May 16,

mento : California DepartmentofWater Resources, 1962), p. 42.

1967.
'Northeast Desalting Team , Potentialities and Possibilities

" C . Richard Murray, Estimated Use of Water in the United
States, 1965, Geological Survey Circular 556 (Washington , D . C .:
U .S. Department of the Interior, 1968), p . 3.
18 Santee Filtration Study, State of California , Department of

772 Stat.1706,42USC 1958a-1958g.
Wayne C. Palmer, The Abnormally Dry Weather of

of Desalting for Northern New Jersey and New York City
(Washington , D .C .: U .S . Department of the Interior, 1966) ; also,

Ralph M . Parsons Co., Engineering Study of the Potentialities

Public Health , Bureau of Sanitary Engineering (Sacramento :

and Possibilities of Desalting for Northern New Jersey and New

1965), pp. 8-10.

York City, Office of Saline Water R & D Progress Report No. 207

1928 Stat. 398 .

Resp. App'x 199

PART IV .
DISASTER MITIGATION
Part III analyzes the measures that can be taken to
cope with current vulnerability to natural disasters. Part
IV is devoted to examining means to reduce that
vulnerability. In most instances, this raises complex

issues of public policy, and success may not be realized
for many months, even years.
The chapters that follow present an outline of a

of land-use and construction regulations by local juris
dictions to protect life and property more fully . An
examination is made of initiatives to lessen the financial
vulnerability associated with natural disasters through
insurance . And the role of the Federal Government in
weather modification activities aimed at lessening the
intensity of natural phenomena is discussed .

national program to foster enactment and enforcement

123
Resp. App'x 200

Resp. App'x 201

Chapter A. Land Use and Construction
Introduction

Land Use

Averting or lessening the potential effects of natural
disasters can be achieved by regulating the use to which
land is put and the materials and methods employed in
the design and construction of physical facilities. For

As in other areas covered by this study, an under
standing of the vulnerability to disaster of a geographic
location is prerequisite to effective action directed
toward achieving safer land use .

example:

Much of the debris in [ the Lubbock tornado]
originated from buildings. This debris consisted of
broken glass, masonry veneer, wood cladding,
copings, clay roofing tiles, and metal roof and wall

panels. This in turn caused damage and generated
additional debris as it struck buildings in its path.

Obviously one way to reduce the loss of life ,limb

Risk Mapping. The results of vulnerability analyses
are generally presented in the form of " risk maps,
which portray the type and degree of hazard represented
by a particular natural phenomenon in a given geo

graphic location. Earthquake risk mapping, for example,
identifies faults and the underlying geological conditions
of the locality, flood plain mapping indicates the areas

and property is to pay more attention to the

likely to be covered by water during floods of given

design of these elements."
Similar examples could be cited in reference to other
natural disasters, such as siting housing developments
and utility structures on identified geological faults, on
potential slide areas or unstable fills, or on flood plains.

would be inundated as a result of waves of varying
heights, and forest-cover mapping estimates the vulner

Except on Federal lands or, in certain instances,
where Federal funds are involved , the regulation of land
use and of construction materials has traditionally
resided in the States, with frequent delegation to
counties, municipalities, or other local government units

through general enabling legislation. The resulting
restrictions on property rights have been sanctioned by

magnitudes, tsunami risk maps delineate the areas that
ability of woodlands to fire .

The Federal Government is now engaged in risk
mapping. The National Oceanic and Atmospheric

Administration (NOAA ), Department of Commerce, and
the U.S. Geological Survey (USGS ), Department of
the Interior , have ongoing programs to identify haz
ards and earth conditions in areas susceptible to earth

quakes, tsunamis, landslides, and volcano activities,
mostly in the Pacific States and in Hawaii. The
work of the U.S. Army Corps of Engineers and the Soil

Conservation Service (SCS) in mapping flood hazards is

the Supreme Court in at least two landmark decisions
rendered in the 1920's.? Federal Government concern

extensive . NOAA also is conducting a program to

with safe land use and adequate construction practices is

result of hurricanes and storm surges. The Department

based on both humanitarian and economic considera

of Housing and Urban Development (HUD ), jointly with
the Department of the Interior, is sponsoring a 4 -year,

tions. With the continuing concentration of a large

percentage of the Nation's population in urbanized areas
susceptible to natural disasters, great numbers of people

are injeopardy. There is also need to protect public funds
expended in recovery and rehabilitation efforts after

disasters, in the form of loans and grants for construc
tion of educational, health , and transportation facilities
and for other purposes, and in guaranteeing loans made

by private institutions for a variety of reasons.
With the focus on disaster mitigation , this chapter

identify and map coastal areas likely to be flooded as a

$6.6 million study of the San Francisco Bayarea. This
effort is developing information on earthquake and
landslide hazards, on the effects of earthquake shocks on
different types of soil, and on the identification of the

degree to which various localities in the Bay area are
flood -prone. (For more details on these programs, see
the relevant chapters of Part III .)
Private organizations, such as the American National

examines the feasible means to bring about a more

Standards Institute (ANSI) and the several model code
organizations, also engage in work leading to the

purposeful and effective cooperative venture in this field
between the Federal Government and State and local

ANSI Standard A58.1-1955 , which provides a wind map

jurisdictions.

(based on work of the American Society of Civil

publication of risk maps. Notable among these are the

125

Resp. App'x 202

126

DISASTER PREPAREDNESS : VOLUME ONE

Engineers and others) and snow load map, and the
International Conference of Building Officials model
code treating seismic designs.

forbids Federal building agencies to use the Nation's flood

plains in an “ uneconomic ” and “ unnecessary ” manner
and orders Federal agencies to withhold loans and grants

Land -Use Ordinances. The data developed by these

which are inconsistent with this objective. Although

risk-mapping activities can be used by local authorities

limited to river floods, this Executive order establishes a

to regulate future land use to mitigate the effects of

disasters. Areas of extreme risk , for example, can be left
undeveloped; or areas of medium hazard can be devoted
to low -density occupancy , while prohibiting the location
of emergency service facilities in such areas.
Enactment and Enforcement of Land - Use Ordi

nances. State enabling legislation, granting local au
tonomy in the regulation of land use, generally goes
back to the 1920's. Especially during the past 5 years,
States have begun to place restrictions on such autonomy
to reflect disaster mitigation and environmental protec
tion considerations. Local land -use regulation generally

includes subdivision regulation, zoning ordinances, and
zoning maps.

There are no model land -use codes as widely used as

legal precedent applicable to other natural disasters. More
over, it permits the accumulation of data and administra

tive experience that would prove useful in any further
initiative by the Federal Government to help other govern

mental jurisdictions prescribe safer use of land. The 1967
USDA NationalInventory ofSoil and Water Conservation

Needs tabulated for each significant land use the land
capability class and subclass, the treatment needs, and the
change in land use needed. These statistics cover the en
tire country and are widely used in land -use planning.
Among other ongoing Federal programs support
ing local efforts are grants made under the authority of
Section 701 of the Housing Act of 1954 , as amended,
which includes land development. Many communities
have used funds under this program to establish or

the model codes available for use in the preparation of
building code regulations. The American Law Institute is

improve comprehensive local land - use planning pro
grams. (For summary information on the total grant
program , see Table 1.) Included among these com

preparing a Model Land Development Code, but it will

munities are several from Mississippi and California

not be completed soon . In the interim , local officials

must rely on less structured sources to guide their regula
tory efforts, such as the Model Zoning Ordinance with

Commentary , American Society of Planning Officials.
Not all local jurisdictions have enacted land - use
regulations. Of the almost 18,000 communities surveyed
in 1968 by the National Commission on Urban Prob
lems, 53 percent had zoning ordinances and 45 percent

had subdivision regulations. Within Standard Metro
politan Statistical Areas (SMSA's), 68 percent had zon
ing ordinances and 59 percent had subdivision regulations.

While planning for safe use of land can often be
accomplished most effectively on an area basis (by

several States, counties, or municipalities), the efforts to
date remain largely local in character. This is especially
so in metropolitan areas. As of 1968 in Philadelphia, for
example , 200 out of 238 local jurisdictions had zoning
authority ; in Cook County , Illinois (including Chicago ),

112 out of 129.? Regional or county planning bodies are
mostly advisory in nature and therefore cannot over
come the adverse effects of this fragmentation.
Land- use regulations are usually enforced by
officials who often must divide their time among several
functions. According to the National Commission, 60
percent of local jurisdictions located in SMSA's had no

fulltime staff assigned to land -use regulation in 1968.8

Table 1. - Comprehensive Planning Assistance Grant
Program : Net Approvals by Type of Area Assisted

1954-1969 (dollars in thousands) -HUD .
Type and

Program status at
end of year

calendar year

Projects
Total *
1954
1955
1956
1957
1958
1959
1960
1961

1

16

1

15
49

475

14

116
192
292
493

1,710

34

4,403
6,606

67
76
100

8,662
13,400
22,285

201
217
382

1962

710
1,092

1963
1964
1965
1966
1967
1968

1,462
1,841
2,286
, 743
3,347
4,634

42,040
59,747
79,178
99,973
122,910
148,326
191,271

1,287

1969

5,177

230,085

543

1955

7

1956
1957
1958

27
67

220
890
2,598
4,295
5,090
8,193

370
379
445
457
604

16
459

1,235
2,693
2,203
2,056
4,738
8,885
19,755
17,707
19,431
20,795
22,937

25,416
42,945
38,814

Small areas

122

1959

170

1960

The Federal Role. The Federal Government has

1961

312
482

several procedures and programs for exercising influence

1962
1963
1964

803
1,105
1,388

1965

1,718
2,074

in land use throughout the country .
One very effective way is to set an example by
selecting proper sites for buildings constructed or leased
for Federal use and for buildings financed, guaranteed,
or insured by Federal agencies. Executive Order 112969

Amount

Net activity
during year
Amount
Projects

1966
1967
1968
1969

Resp. App'x 203

2,512
3,456
3,663

13,716

7

220

20
40
55
48
142
170
321
302

670

1,708
1,697
795

3,103

62,844
71,498
87,708

438
943

5,523
10,401
8,815
9,793
9,264
10,765
8,654
16,209

96,613

207

8,909

24,117

32,932
42,725
52,079

283
330
356

IV . DISASTER MITIGATION - A . LAND USE AND CONSTRUCTION

Program status at
Type and
calendar year

end of year
Amount
Projects

prone areas might be reviewed annually for adequacy
by the Federal Government pursuant to this Act. A re

Net activity
during year
Projects

Amount

Metropolitan regional and other areas
1954

1

16

1955

255
820

1967
1968

8
22
49
70
122
169
203
247
303
366
454
526
663
924

1969

1,157

1956
1957
1958

1959
1960
1961

1962
1963
1964
1965
1966

1,805
2,311
3,573
4,943
7,199
13,840
19,962

26,017
34,985
43,026
55,704
71,582
93,929

16
239
565
985
56

1
7

14
27
506
52
47
34
44
56
63
88
72
137
262
233

1,262
1,370
2,256
6,641
6,122
6,055
8,968
8,041
12,678
18,910
22,342

Statewide
1960

12

265

1961
1962
1963

25

1,370
4,083
6,848
10,210
12,371
16,410
20,086
29,999

1964

1965
1966
1967
1968
1969

42
53
70
88
110
130
196
263

34,466

12
13
17
11
17
18
22

20
66
67

265

1,105
2,713
2,765
3,362
2,161
4,040
3,676
6,881
4,468

Advisory services to small communities
1963
1964
1965
1966

1967
1968
1969
District
1969

1
17
26
33
46
58

80

14

226

1
16

538
629

9
7

1,038
1,982
4,210

13
16
22

5

867

127

5
221
321
91
409
945

gional approach to these issues could alleviate problems
of local inexperience , staff limitations, and particularly
the tendency of some local governments to acquiesce in
unwise new development because of a desire to increase
property tax revenues. The legislation should also assist

State and local governments in giving recognition to
environmental as well as public health and safety
matters.

Construction

Even after knowledge of the hazards associated with a
given locality have been identified and incorporated into
land - use regulations, additional hazard mitigation
measures can be taken by specifying that structures be
adequately designed , constructed , operated, maintained,

and -eventually - retired. For example, the roof of a
light-weight structure near a coastline susceptible to
hurricane-force winds can be fastened more securely to
the rest of the structure and the structure itself fastened

to its foundations, so that the roof will resist uplifting
forces and the structure will resist overturning forces. Or

bridge superstructures can be more securely braced and
anchored to enable the bridge to withstand the dynamic
loads created by earth tremors. This level of hazard
reduction can be achieved through the enforcement of
properly conceived local building ordinances. These ordi

nances usually consist of a regulation compendium that:

2,228

... establishes requirements for the construction

867

and occupancy of buildings. It contains standards
of performance and specifications for materials,
methods and planning criteria which affect struc
tural strength, fire resistance, adequate light and

14

* Excludes grants for studies, research , and demonstration proj
ects under Section 701 b.

that received Federal grants after Hurricane Camille

ventilation , and other considerations determined
and

by the design , construction
, alteration and demoli
14
tion of buildings.

the San Fernando earthquake." Consideration of dis
aster mitigation measures is not an explicit require

Such ordinances generally are enacted and updated

ment for obtaining tirese grants, or HUD grants for other

through a process that has its genesis in a vast array of
public and private entities producing materials, design,

purposes, but “ communities are encouraged to adopt
or
land use and code requirements which will prevent
‫ رو‬12
minimize damage that can be caused by disasters .'
In 1971 , the President proposed a National Land
Use Policy Act " to provide $ 100 million in Federal fund
ing over 5 years to help States prepare land -use planning

protection requirements set forth in the ordinance (or
code ). The code itself usually reflects local conditions

and regulatory programs. One provision of the bill encour

and, not infrequently , local socio -economic factors as

and construction -method criteria and standards. These
criteria and standards are used to delineate, support, or

give specificity to public health -and -safety and property.

ages States to identify and control development in " areas

well. Most local code-enforcing bodies participate in one

of critical environmental concern ,” including hazardous

or another of the major national model code organiza
tions (discussed below), which provides a mechanism for

areas. States that fail to develop adequate programs by

1975 would lose an annually increasing portion of Fed
eral funds for airports, highways, and park acquisition.

relating to the criteria- and standards-issuing organi
zations.

The program would be administered by Interior

Construction Standards. There are three basic types

with review of developmental matters by HUD. State laws

of construction standard : engineering practice, material,
and test standards.15 They are used to minimize the
extremely large number of variables in types, qualities,

pertaining to the development of wetland , flood plains,
areas of seismic subsidence, and erosion- and mudslide

Resp. App'x 204

DISASTER PREPAREDNESS :

128

and physical dimensions of construction products and
practices. 16
Because of the diversity of the construction industry,
standards are developed by a large number of trade

VOLUME ONE

approaches found in model codes: the specification -type
code, which establishes building construction require
ments by reference to particular materials and methods,
and the performance- type, which establishes design and

associations, private research organizations, and govern

engineering criteria without reference to specific

ment agencies. A recent incomplete compilation lists
over 200 such groups. Among the most significant
private standards-issuing organizations are the American
Society for Testing and Materials and the American

methods in construction . Because specific detailed infor

current and facilitate the introduction of new materials

National Standards Institute. Inputs to these organiza

and methods. How model codes are used by local juris

tions are made by such well -established groups as the

dictions is discussed later.

American Institute of Steel Construction, the American

Concrete Institute , the National Forest Products As

Model codes are prepared by private groups for
voluntary adoption by local jurisdictions and are subject

sociation, the Structural Clay Products Association, the

to continuing review and updating. The oldest model

mation is not yet available, many model codes have fea
tures of both types. Performance codes are easier to keep

Underwriters' Laboratories, and the National Board of

code in this country , the National Building Code, was

Fire Underwriters.
Federal agencies that have a significant role in this

first published in 1905 by what is now the American

field are the National Bureau of Standards (NBS ) and

pared by other associations have come into existence

Insurance Association . Several other model codes pre

the Office of Product Standards of the Department of

since then, some of them for special purposes. Codes

Commerce, the General Services Administration (GSA),
the Federal Housing Administration ( FHA ) of HUD , and
the Military Services of the Department of Defense.
From the disaster mitigation viewpoint, NBS has one of

cover such items as structural design, fabrication , and
erection ; electrical wiring; heating, cooling, and air
conditioning; boilers; and fire safety. The most promi
nent of these groups, with the location and specialty of

the most active research programs; its activities include
improving the performance of buildings, studying and

each , are shown in Table 2 .

understanding the response of buildings and materials to
forces experienced in natural disasters, generating tech

nical data and measurement techniques for evaluating
building responses and performances, and encouraging
the adoption of recommendations in applicable codes
and criteria. 17 The Bureau also has extensive contacts
with State officials as a result of its work with the
National Conference of States on Building Codes and
Standards, for which it provides a secretariat.
Over a number of years, several well-known organiza
tions have attempted a systematic compilation of con

Because of the regional and other origins of the major
model codes, each tends to give special emphasis to a
particular peril: the National Building Code, fire; the
Uniform Building Code, earthquakes; the Basic Building

Code and the Southern Standard Building Code, strong
winds and heavy precipitation. With the passage of time,
they have come to reflect the climatic and economic
conditions of large regions of the United States, and as
such have become regional in their orientation .

A few States have developed building codes, some of
which take precedence over local codes and some of
which are operative in areas where no local code exists.

struction criteria and standards. In addition to the model

Of these , the State of New York code is the best known.

building -code organizations discussed below , the most

It is a performance-type code that includes a program
for continuing review of construction methods and
materials and assistance
to users in code interpretation
19
and application.
The Federal Government does not promulgate a model
building code. The closest to such a code are the FAA

significant of these groups are the American Society for
Testing and Materials; the American National Standards
Institute; the American Society of Mechanical Engineers;

the American Society of Heating, Refrigeration , and
Airconditioning Engineers; the Institute of Electrical and

Electronic Engineers; and the National Fire Protection
Association. 18 To these, two more should be added :
FHA, which publishes the FHA Minimum Property
Standards as a basis for mortgage loan guarantees, and
the American Savings and Loan Institute, which pub
lishes the Construction Lending Guide.
Model Building Codes. Model building codes are
suggested requirements for the regulation of building to

protect the safety , health , and welfare of the public.

Model codes integrate the construction standards with
legal and administrative procedures and present them in
a systematic and codified manner for the use of State ,

nunty , or local jurisdictions. There are two general

Minimum Property Standards for Single and Multifamily
Housing and the Water Resources Council -Corps of

Engineers -HUD Study of Flood Plains.
Building Ordinances. These laws, specifying how

buildings shall be constructed in each locality to protect
health , safety, and property , represent the decisive step
in construction regulation. They are also most difficult
for the Federal Government to influence, because they
cover an activity solely within the purview of State,
county , and local jurisdictions and responsive to local
economic, social, and political concerns and interests.
Yet these local regulations are the most significant

Resp. App'x 205

IV. DISASTER MITIGATION - A . LAND USE AND CONSTRUCTION

129

Table 2. - Model Building Codes - updated from Con

the localities in which federally financed or insured

struction : Principles, Materials, and Methods (p. Codes

structures are to be located .

602-5 ).

There are several programs administered by HUD

that offer opportunities to support local jurisdictions in
CODES

Basic Building Code

SPONSORING
ORGANIZATION

their efforts at formulating building ordinances. The

three most significant grant programs are those under

Building Officials Conference
of America, Inc.
1313 East 60th Street

Section 701 of the Housing Act of 1954 (mentioned
earlier ), Section 105(a) of the Housing Act of 1965 ,
and Section 101 (c) of the Housing Act of 1949, as
amended

in

1954.

The

first-mentioned

program

Chicago , Illinois 60637

Southern Standard
Building Code

Southern Building Code
Congress
Brown -Marx Building
Birmingham , Alabama
35203

Uniform Building Code International Conference of
Building Officials
50 Los Robles Avenue

Pasadena, California 91101

National Building Code American Insurance
Association
85 John Street

New York, New York
10038

National Plumbing
Code

Uniform Heating &

Comfort Cooling
Code

National Electric Code

Improvement, a community must be carrying out an
official plan of action ( certified by HUD as a Workable
Program ) involving concentrated code enforcement,
demolition of unsound structures, urban renewal, or
similar programs of significance to disaster mitigation.
Many ongoing Federal grant and loan programs
designed to improve the social, economic, health, educa
tional, safety, and transportation conditions of the
country do not now establish any hazard reduction

measure as a prerequisite for financial aid. This study has

ards Institute

10018

Code

under the third , the Workable Program for Community

American National Stand
1430 Broadway
New York, New York

Uniform Plumbing

encourages the development of local building ordinances
( as well as land - use regulations) that conform to the
minimum standards contained in nationally known
codes. The second program funds efforts to improve
building code enforcement activities of local juris
dictions as a prerequisite to receiving funding for urban
renewal projects. To qualify for certain Federal aids

International Association of

Plumbing and Mechanical
Officials
5032 Alhambra Avenue
Los Angeles, California
91032

not surveyed such programs completely. However, the
funds involved are known to be very large, and the
impact reaches virtually every local jurisdiction in the
Nation. These programs could provide an incentive now
lacking for these jurisdictions to incorporate safe land
use and construction regulations into State and local laws.

A legal precedent for the use of this mechanism has
been established by the National Flood Insurance Act of

1968, Public Law 90-448 (See Chapter B of this Part),
and the experience gained in administering this law
could provide useful guidance in the preparation of

National Fire Protection
Association
60 Batterymarch Street
Boston , Massachusetts

regulations aimed at mitigating disasters other than river
floods.

02110

means to effect hazard reduction measures in construc
tion activities.

Various Federal agencies make grants or loans to re
pair, restore , or reconstruct disaster-damaged residential
structures and to do postdisaster planning. Also, Federal
contributions are made to local jurisdictions for similar
purposes in connection with specified public facilities.

The Federal Role. The Federal Government has no

(At present, this restoration or rebuilding can be
undertaken as long as it conforms with applicable

direct role in the formulation, enactment, and enforce

building codes, specifications, and standards - Sections

ment of building ordinances. Federal agencies heavily
involved in construction activities (GSA and DOD

243 and 252 of PL 91-606.)

especially ) and in insuring loans (HUD, Veterans Ad
ministration, Department of Agriculture) prescribe ad
herence to nationally known model codes or establish
minimum standards. There is not enough emphasis,
however, on including hazard mitigation measures not
already contained in such codes or in the ordinances of

Enactment and Enforcement of Building Ordi

nances. Because regulation of most construction is
delegated by the States to county and municipal

governments, few States have mandatory minimum
statewide building laws. Some , however, do have laws

applicable to certain types of construction - for example,

Resp. App'x 206

130

DISASTER PREPAREDNESS: VOLUME ONE

facilities used for emergency purposes (such as hos-

be pointed out that the process of assessing what

pitals ), public utility structures, places of public gather
ings, industrial establishments,20 and , more recently ,

constitutes a true technological advance is very difficult,
principally because of current inability to predict ac

industrialized housing.

curately the applications and performance of new

In preparing building laws, most local authorities

technology products.

rely on model codes, especially on the first four listed in

Like any other law , building ordinances require

Table 2 and on the State of New York Model Code. In a

competent enforcement personnel and adequate pro

1964 survey of 1,013 cities by the International City
Managers' Association (ICMA ), the onemost frequently

cedures and funds to ensure their effective application

Building Code . Standards

and expeditious compliance. The local building official
entrusted with enforcement of construction ordinances

drafted to meet local conditions were the second most

is often short of the required documents. Inspectors are

adopted was the Uniform

frequent source of codes. The National Building Code

too few in number for the volume of construction taking

was third , the Southern Standard Building Code fourth ,

place and for the existing inventory and are not always

and the Basic Building Code fifth . Nearly a hundred

fully trained . In some localities, inspection is only one of
their many functions. (The 1964 ICMA data , for
example, showed that, of the 1,013 cities surveyed , only
215 employed fulltime engineers for building plans
examination and 28 others used architects.)

more cities modified one or more of the codes for their
own use. The others adopted or modified State codes,

such as New York's. The data also show that the
Uniform Building Code is used largely on the West

Coast, the Basic Building Code in the northern Middle

Also ,use of fines, in lieu of correcting the problem ,

West, the National Building Code along the East Coast,

and delays caused by large backlogs of cases often

and the Southern Standard Building Code in the South .
The importance of sound model codes with strong

detract from effectiveness in ordinance enforcement.
Although awareness of the dangers posed by natu

hazard reduction features is therefore readily apparent.

ral disasters and of resultantdamage is not as widespread
as it should be,severallocal jurisdictions have taken steps

There are also several other disaster mitigation factors

bearing on the enactment ofbuilding ordinances:

to improve ordinances to cope more adequately with the

• Lack of Building Ordinances. An adequate medium

the townships and municipalities with a population of

adverse effects of natural phenomena. For example :
• Earthquake Hazard Reduction. The Legislature of the
State of California has a Joint Committee on Seismic
Safety, which sponsored a conference in the autumn of
1971 to define " acceptable earthquake risk ” as a basis
for public policy for the State . The City ofLong Beach ,

5 ,000 or more did not have building ordinances.21 Nor,

California ,has engaged the services of J. H . Wiggins, Inc.,

for the implementation of a hazard reduction program
does not exist in many communities throughout the
United States. In a 1968 sample survey by the National

Commission on Urban Problems, almost 20 percent of
generally , do rural communities.

of Palos Verdes Estates, California , to translate the risk

• Lack of Uniformity . Model codes as a vehicle for

of loss from earthquakes into engineering design criteria

ensuring uniformity among local building ordinances are

that can be used in evaluating existing and new

only moderately effective. Local jurisdictions often

structures . Both of these efforts are directed at tighten

prepare their own codes or adopt only portions of the
model codes used as a basis for their ordinances. Only 53
percent of those surveyed by the National Commission
“ substantially incorporated ” ( by Commission standards)
model code provisions.22 Changes made to adaptmodel
codes to local conditions at times “ come from local

ing applicable building ordinances and land -use regula
tions. (For additional details, see Part III, Chapter F .)
• Hurricane Hazard Reduction . Dade County and other
Florida jurisdictions have included extensive wind load
requirements in their building ordinances to protect
structures from the effects of hurricanes. The Emer
gency Council of the Governor of the State of Missis

codes prepared 20 or more years ago,” according to the
National Association of Home Builders. 23

• Delay in Updating. Advances in technology often find
their way into codes only after considerable delay. Once

sippi has formulated " critical exposure zone require
ments” to improve building ordinances for Gulf Coast
areas highly susceptible to hurricane damage. The Coast

adopted by local governments, ordinances are not easily

Code Administration of Gulfport, Mississippi, and the

changed. According to the National Commission survey,
only 58 percent of the jurisdictions using model codes

University of Texas are attempting to stimulate regional
action to improve building codes and land uses along the

had established procedures for the annual consideration

Gulf Coast and thus minimize losses from hurricanes.

of changes recommended by the model code groups.
Only 28 percent had adopted as much as 90 percent of

With this objective in mind , they sponsored a hurricane

the changes recommended by such groups during the

code of any kind, 45 percent either had not adopted
new codes or had not comprehensively revised them in

Safety Surveys and On-the-Scene Evaluations
The last step in the formulation of construction
regulations consists of continuing survey of existing

the previous 4 years.24 In all fairness, however , it should

buildings and structures. These surveys are ordinarily

previous 3 years . Of all jurisdictions having a building

conference in Gulfport in October 1971.25

Resp. App'x 207

IV . DISASTER MITIGATION - A . LAND USE AND CONSTRUCTION

made to ensure continued adequacy of the structures to
withstand structural and natural hazards and to enforce
a variety of regulations dealing with the health , safety,
and welfare of the occupants. There continues to be

difficulty, however, in making retroactive new code
provisions by upgrading or retiring facilities that do
not satisfy new or more stringent provisions. On-the
scene evaluations discussed in other portions of this
study (see especially Part VI) are similar in nature to
safety surveys but are performed on an ad hoc basis as a
result of a natural or manmade disaster.

Surveys and evaluations are the most effective means
to extend regulation to existing construction and land
uses. All the other efforts discussed so far in this chapter
have an impact essentially on new activities, because
building codes and land - use regulations are not usually
enforced retroactively and therefore apply only to new
projects or to those undergoing very substantial modifi

131

Risk Mapping. The techniques and procedures for
conducting this vital step of the process are generally
known except in the case of earthquakes, where addi
tional research is required. Instrumentation to gather
more data, notably for earthquakes and volcanoes, is
also needed. Furthermore, the activities to date have left

untouched some geographic areas known to be sus
ceptible to certain disasters (e.g., earthquake-prone areas

not on the West Coast). The rate of progress has also

been slow , as in the mapping of East Coast areas
susceptible to storm surges. The risk maps prepared,
moreover, often have not been of a sufficiently small

geographic area or have not included adequate details to
be useful as a basis for promulgating local regulations
that contain strong hazard reduction features.

The results of risk mapping, often couched in
scientific terms, need to be translated into terms more

cations. Safety surveys and evaluations, instead , deal

readily useful to local planners, engineers, architects, and
builders. Seismicity data on earthquake-prone areas, for

with what already exists and can provide the infor

example, should be reduced to extreme dynamic load

mation required to determine shortcomings in existing

factors and disaster mitigation criteria and construction

ordinances and to formulate improvements.

procedures for use by all participants in the land -use and

Surveys are performed for the most part by local
officials, often examining the same building for different
reasons and from different points of view . The methods
and procedures used differ widely , and the results are
generally kept in separate offices. Ordinarily , there is no

construction activities. A wider dissemination of easily
understood risk -mapping data is required to facilitate the
efforts of local planners.
Disaster Mitigation Criteria. The individuals and

consideration of disaster vulnerability and no set of

organizations preparing land -use plans, construction

disaster criteria to guide these efforts. Federal agencies

standards, model codes, and actual regulations have
relied on their own judgment as to the degree of severity
of the disaster to be considered in any given locality. In

also perform surveys of the buildings they own and lease
to gather information on performance and maintenance
needs, but the effort is neither comprehensive nor

the case of hurricanes, for example, they must decide

continuous. Such an activity is quite expensive, although

whether structures in potential landfall areas should

no specific data are available.
In this country , there are only limited inventories of

withstand loads generated by winds of 75 miles per hour

existing buildings classified as to their response to the
effects of natural phenomena.26 Prior to undertaking

people involved and their varied background and ex
perience, different assumptions are made and different
conclusions reached. Accordingly there is a need for a

any such survey - whether on a sample or comprehensive

or some other higher velocity. Because of the many

basis - clear criteria by which to judge disaster resistance

nationally recognized set of disaster mitigation criteria

characteristics of the buildings, and standard procedures

dealing with each major disaster, tailored to the cli

for the conduct of the survey , should be established. In
view of the costs involved in an effort of this magnitude,
a selective approach appears necessary. A first step could
include only emergency service, health care, educational,

regions of the United States, and applicable to both
governmental and private construction .

and very -high -occupancy structures located on identified
high -risk land in the largest metropolitan areas most
vulnerable to natural disasters.

The Outline of a National Program
The introduction of effective hazard reduction fea

matological and geological characteristics of different
Federal agencies that have large construction pro

grams or that contribute to the development of con
struction or building standards could participate in the
preparation of such criteria : for example, HUD, DOD ,
HEW, GSA, VA, NBS, and the National Science Founda
tion. In order to give direction and consistency to such
an effort, consideration should be given to designating a
lead agency .

tures in land- use and construction regulations would

involve the efforts of a large number of individuals and

National Focal Point. There are literally several

organizations in the public and private sectors. It would

hundred organizations and agencies and many thousands

also eventually affect long-established socio -economic

of individuals active in preparing land -use planning data,
establishing building standards, compiling model codes,
and enacting and enforcing local ordinances. Fragmen

patterns in local communities. Because of the com
plexity of the problem, several initiatives are required.

Resp. App'x 208

132

DISASTER PREPAREDNESS :

tation of effort is a fact of life. Moreover, the process is

very time consuming for a number of reasons, most
significant of which are the large number and adminis
tratively cumbersome nature of organizations involved ,
the need to maintain high technical excellence, and the
need to satisfy the many and varied local interests. New

VOLUME ONE

Federal Construction Activities. The position of
leadership by the Federal Government in disaster mitiga
tion through safer land use and construction would be

enhanced by improvements in site selection and con
struction standards for the structures it builds or leases.

technology is therefore seldom reflected in the end

Summary. A national program along the lines sug

results in timely fashion. Uniformity in regulating the

gested in this chapter represents a feasible combination
of means to improve land use and construction within

same problem in different locations is also very difficult
to achieve. Even after nationally recognized criteria
come into existence, effective leadership will be essential
to bring about hazard -reducing land -use and construc

tion regulations at the local level. The need to establish a

the spheres of Federal, State, and local government re
sponsibility. The land -use and construction regulation
cycle is measured in years, however, and a substantial
commitment of government resources will be required.

national focal point to provide this leadership is evident.

Improvement started now would bear fruit only slowly.

Such a focal point could :
Coordinate land -use and construction research ac

Such regulation is not retroactive in nature. Only new
structures or those undergoing extensive modifications

tivities in the private and public sectors.
• Evaluate new land -use and construction technology
and foster the use of new products and practices by the
industry and by government units at all levels.
• Formulate uniform nationally accepted land -use
planning and construction standards that take account
of regional differences resulting from vulnerability to

are likely to be affected . Nonetheless, disaster mitigation

different disasters.

• Act as a clearinghouse of information on land use and
construction.

One way to establish this focal point would be by
charging an existing Federal department with the func
tions enumerated above. The department so charged

should possess a broad technical expertise in land use

through safer land -use and construction regulations is
feasible and can be undertaken now .

Findings
1. Land -use and construction regulations containing
strong disaster mitigation features can in the long run
alleviate losses caused by natural disasters. Areas identi

fied as highly susceptible to natural hazards would be

left open ; no emergency facilities would be located in
areas of serious natural hazards. If a new location were

not feasible, design and engineering standards reflecting

the high risks would be incorporated in new structures
or employed to strengthen existing ones. Ordinary

and construction and have established contacts with

building regulations would apply to other areas less

State and local jurisdictions and with private organiza

prone to natural disasters.

tions active in these fields.27

This type of regulation is constitutionally within the
powers of the States and of counties and munici
palities as delegated to them by the States. The
Federal Government, however, has a legitimate role to

Use of Federal Loans and Grants. The potentiality for
effecting hazard reduction at the local level through the
use of Federal loan, grant, and lending insurance
programs could be realized through two mechanisms.
Strong hazard reduction measures could be taken into

play by providing information for local ordinances,

account in the administration of Federal loan and grant

hazard reduction measures.

programs. Until national criteria for disaster mitigation
are formulated and a nationally accepted set of stand
ards and codes is adopted, each Federal agency respon

sible for a financial assistance program could develop
applicable implementing regulations. It would be ad
visable to have a lead agency to ensure uniformity of
interpretation and application.
A second condition could be the requirement, es
pecially in high -risk areas, for disaster insurance cover
age, wherever such coverage is available at reasonable
cost . Thus, hazard reduction and disaster insurance

would be coupled, as discussed in the next chapter of
this Part. If a comprehensive disaster insurance program
were to be established in the future, strong hazard
reduction measures at the local level would already be in
existence as a result of the use of Federal financial

assistance programs.28

stimulating disaster awareness, and encouraging the

appropriate authorities to adopt strong, enforceable
2. A national program that would involve the Fed
eral Government to a greater degree in land -use and
construction regulation is needed . it should include the
following components:

• The continuation of risk mapping now being conducted

by several Federal agencies, notably NOAA, USGS, SCS,
and the Corps of Engineers. The results should be trans
lated into terms useful to local authorities and industry
personnel and should be widely disseminated as a basis
for determining local vulnerability to disaster and for
taking appropriate action.

• A generally accepted set ofdisaster mitigation criteria
dealing with each major natural phenomenon , to provide

purpose and direction for the efforts of all private and
public organizations now active in regulating land use
and construction. Consideration should be given to the

Resp. App'x 209

IV. DISASTER MITIGATION - A. LAND USE AND CONSTRUCTION

133

designation of an appropriate Federal agency to assume

• The use by the Federal Government of the many

leadership and provide coordination of this effort.

existing programs that provide financial assistance and

• The creation of a focal point in the Federal Govern

insure loans, for a variety ofpurposes, to further disaster

ment for activities related to land-use planning and

mitigation. Administration of Federal grant and loan

building standards. Such a focal point could provide

programs could take into account local enactment and

technical assistance and guidelines to the several

enforcement of strong hazard reduction measures. The
precedent established by the National Flood Insurance

hundred educational, research, and industrial organ

izations as well as Federal, State, county, andmunicipal

Act of 1968 and the experience in administering it could

agencies now active in these fields.

prove very useful in land use and construction .
Notes

Lubbock Tornado: A Survey of Building Damage in an
Urban Area, National Bureau of Standards Technical Note 588
(Washington D .C .: U . S. Government Printing Office, 1971), p .
32.

" Nectow v. City of Cambridge, et al., 277 U .S. 183 (1928),
and Village of Euclid v. Ambler Realty Company, 272 U .S. 365
( 1926 ).

' Enclosure to letter from J. M . Gibson , Office of Housing
Management, HUD , to Chief, OEP PL 91-606 Disaster Study
Group , September 27, 1971. Waste disposal sites and water and
mineral resources will also be identified by the study.

“ Building the American City, Report of the National
President of the United States, 91st Cong., 1st Sess., House
Document No. 91-34 (1968), p . 201.
SIbid ., pp. 208, 210, contains a discussion of State activi
Commission on Urban Problems to the Congress and to the

ties in this field through 1968.

A Model Land DevelopmentCode, Tentative Drafts Nos. 1,
2, and 3, American Law Institute, Philadelphia , 1969-1970 -1971.

14 John L. Schmidt, Walter H . Lewis, and Harold Bennett
Olin , Construction : Principles, Materials and Methods, Vol. 3 of
Construction Lending Guide (Chicago : American Savings and
Loan Institute Press, and Danville, Ill.: Interstate Printers and

Publishers, Inc., 1970), p. Codes 602-3.
" Building Codes: A Program for Intergovernmental Reform ,
Advisory Commission on Intergovernmental Relations, A -28
(Washington , D .C .: U .S. Government Printing Office, 1966), p.
56 .

Schmidt, Lewis, and Olin , op. cit., p. Construction
Standards 101-2.
" Enclosure to letter from R . Sorey, NOAA , to Chief, OEP
PL 91-606 Disaster Study Group, April 8 , 1971.

18 Building Codes, pp. 56 -57.

19 Schmidt,Lewis,and Olin ,op. cit.,p. Codes 602-6.
2°Building the American City , pp. 254 -255.
21 Ibid ., p . 256 .

22 Ibid., p. 257.

23As quoted in Schmidt, Lewis, and Olin, op. cit.,p. Codes

Building the American City , pp. 208, 210 .
8Ibid , p. 210.
9“ Evaluation of Flood Hazard in Locating Federally Owned
or Financed Buildings, Roads and Other Facilities and in
Disposing of Federal Land and Properties, August 10 , 1966,"

Federal Register, Vol. 31, No. 155, August 11, 1966 .
°°Statement of Kenneth C. Cavanaugh , Acting Director,
Office of Housing Management, HUD, in U .S. Senate, Federal
Response to Hurricane Camille (Part 4), Hearings before the
Special Subcommittee on Disaster Relief of the Committee on
Public Works, 91st Cong., 20 Sess., 1970, pp. 1817-1818.

602-4.
24Building the American City, p. 257.
25 “ Report of Hurricane Conference,” Coast Code Adminis

tration , Gulfport, Mississippi, 1971 (preliminary conference
proceeding -mimeographed ).
26 In this regard , see Section 261 of S .2358 , A Bill to Amend

the Disaster Relief Act of 1970 , 92d Cong., Ist Sess.
27 See Building the American City , pp . 266 , 268, and S. 1859

" Statement of Raymond Carrasco, Director, Los Angeles

in the U .S . Senate, 1971 Housing and Urban Development
Legislation , Hearings before the Subcommittee on Housing and
Urban Affairs of the Committee on Banking, Housing and Urban

Area Office , HUD , in U .S . Senate, Governmental Response to

Affairs, 92d Cong., 1st Sess., 1971, Part I, pp.657,670, and Part

the California Earthquake Disaster of February 1971, Hearings

II,pp. 955 , 981.
20 The use of Federal assistance programs to effect hazard
reduction and encourage or require the use of disaster insurance
is contained in a recent draft bill. See Legislative Referral
Memorandum , subject: A Draft Bill, the “ Natural Disaster
Mitigation Act of 1972, " Office of Management and Budget,
December 29, 1971.

before the Committee on Public Works, San Fernando, Calif.,
92d Cong., 1st Sess., 1971, p. 533.
12 Statement of John M . Gibson , Housing Management
Officer, HUD , in U .S . Senate , Governmental Response to the

California Earthquake, p. 548.
13 s. 992 and H .R . 4332, 92d Cong., 1st Sess.

Resp. App'x 210

Resp. App'x 211

Chapter B. Disaster Insurance
Introduction

wind -driven water. Coverage against man m- ade perils and

The primary emphasis of this analysis of disaster
insurance is on the role, both actual and potential, that
it can play in disaster mitigation. In a comprehensive
hazard -reduction program designed to minimize the
human and economic losses resulting from natural

satory features of insurance stressed ; while their impor
tance is fully recognized , they do not need to be restated
here in any detail.
Two basic criteria have been used to analyze existing
disaster insurance coverage: a determination of the
extent to which existing coverage has been related to
hazard -reduction and avoidance measures, and the level

crop insurance are not discussed. Nor are the compen

disasters, disaster insurance offers an additional course

of action complementing other possible actions dis
cussed in preceding chapters of this report.
There are two reasons that make a consideration of

of public participation in purchasing disaster coverage .
These are necessary ingredients in realizing an effective

disaster insurance in the context of disaster assistance an
urgent matter. One deals with the continuing need for
action in this area and the other with aspects of equity.
In his April 22 , 1970, Message to Congress on disaster
relief, the President stated : “ Our experience with dis
asters in 1969 clearly demonstrated the need for

disaster mitigation program .

expanded insurance coverage for property owners."

coverage.

The tornado at Lubbock , Hurricane Celia, and the

earthquake at San Fernando - to mention only the most
serious disasters since the spring of 1970 – have rein
forced the realization of a need for disaster insurance.
Two aspects of equity should be noted , one from the

point of view of the general taxpayer and the other from
the point of view of those affected by disasters. The
Federal Government is now expending public funds to
assist disaster victims, and, after a disaster, many citizens
have come to expect Federal assistance in one form or

A recurring theme in the following analysis is that of
insurance availability . In this context, availability in
cludes an awareness on the part of citizens that
insurance can be purchased, that protection is desirable
and affordable, and that there is a real need for disaster
Throughout the analysis run two fundamental
thoughts: ( 1 ) the insurance industry must continue to
operate on an actuarially sound basis and (2) it must
operate, over a given period of time, at a profit. These
are in keeping with policies of the State Insurance
Commissioners and the Federal Government.
The research conducted for this study revealed an

interest within Congress, the States, and the insurance
industry in providing more comprehensive disaster in
surance . Such interest is illustrated by the number of
bills, introduced in Congress during 1971 , proposing

another. While a good case could be made for Federal
assistance to a number of disaster victims on com

expanded disaster coverage . Some of the bills are

passionate grounds, persons able to buy and capable of
paying for disaster insurance should do so to lessen the

specific peril.' Additionally, the California Legislature,

burden on the general taxpayer.

From the individual's viewpoint, insurance offers a
means to obtain contributory protection. Compensation
in such circumstances is no longer subject to favorable
action by the President on a Governor's request for
disaster declaration - but becomes something due to the
policyholder because he has paid an insurance premium
to cover his losses in case of a disaster.

Primary attention in the following discussion is given
to coverage for residential and small business properties
and to those natural disaster effects that historically

directed toward all disasters; others are aimed at a

as might be expected in view of the San Fernando
earthquake, has shown a marked interest in earthquake
insurance .?

Within the insurance industry , several groups and

organizations are examining the problems and avail
ability of natural disaster insurance. This activity indi
cates that there are some groups in the industry
concerned about existing natural disaster coverage which

are seeking an industry consensus on the nature of the
problem and a possible response. In addition to the
industry activities, a committee of the National Associa

have been the most costly in terms of human and

tion of Insurance Commissioners (NAIC ) is attempting

economic losses: floods, earthquakes, windstorms, and

to cope with the problems of disaster coverage.

135

Resp. App'x 212

DISASTER PREPAREDNESS :

136

These several jurisdictions and the variety of interests

they represent must be taken into account in any
analysis of disaster insurance as a means to mitigate
disaster hazards, and in seeking solutions to the complex
problems involved .

There is, first of all, the insurance industry itself. It is

VOLUME ONE

in communities which have taken positive steps toward
minimizing flood or mudslide losses by implementing
and enforcing adequate land -use measures and by dis

couraging development in high -risk areas. The initiative

rests with the local communities; the emphasis is on
mitigating future flood and mudslide losses.

large, it provides an essential service to the people, and
it is legitimately concerned about its many billions of

dollars of investments. It is not, however , as homo

Administration . The Flood Insurance Program is

Each segment has a different attitude toward a com

administered through a cooperative arrangement be
tween a pool of participating private insurance com
panies and FIA. The latter has the primary responsibility
for furnishing policy guidance, enforcing the provisions

prehensive disaster insurance program . The primary

of the Act, and setting the actuarial rates. The actual sale

insurers in turn can be categorized in several groups with

and servicing of the policies is handled through the

genous as it might appear at first glance. It is composed
of at least three large segments: the primary insuring
companies, the agents, and the reinsuring companies.

differing characteristics.

Secondly, there are the States and Territories, rep
resented by the Insurance Commissioners, who are
mostly appointive officials. They are very watchful of
their regulatory obligations and properly responsive to
strong local interests and needs.

Thirdly, there is the Federal Government striving to
achieve a more equitable solution to the disaster
assistance problem .
The attitudes and goals of these segments differ, and

National Flood Insurers Association (NFIA ), a voluntary

pool of private insurance companies. However, the
arrangements are such that all fire and casualty insurance
agents licensed to sell in a State may sell flood insurance
even though they may not be specifically associated with

an NFIA member. This permits an individual to obtain

flood insurance from his local agent and avoids unneces
sary hardship or inconvenience.
The risk -sharing members of the NFIA are committed

to contribute to a reserve fund used to pay claims.

at times, conflict. This must be recognized in any

Reimbursement of claims is made from a fund com

attempts to solve the disaster insurance problem-a

posed of Treasury funds, for the Federal Government's

problem of large economic , social, and legal dimensions.

share (now 90 percent) of the risk, and of the remaining
collected premiums after administrative expenses have

Government-Sponsored Programs

been deducted. When this fund is depleted, payments are
made up to a stop -loss point from a pool set up by the

This section covers two Government-sponsored in
surance programs with applicability to natural disasters.
The first, the Flood Insurance Program , is of particular
note because it is the only natural disaster insurance
program , either in government or private industry , with
strong and positive hazard reduction features. The sec
ond program , the FAIR Plan, is limited in its disaster

coverage but does have potential for expansion .

risk -sharing members of the NFIA . After the stop-loss
point has been exceeded, Federal reinsurance is used to
pay the claims.
Eligibility. The initiative to establish eligibility for
flood insurance must come from the local municipality
or governing unit with control over building codes and
zoning. The community must first supply FIA with

evidence of a need for flood and mudslide insurance and
Flood Insurance. The increasing cost of flood losses

certify its desire for coverage. The application to FIA

and the unavailability of flood insurance from private

must include documentation of the community's legal

companies at affordable rates provided the primary
impetus for enactment of the National Flood Insurance
Act of 1968 (PL 90-448 ). Administered by the Federal
Insurance Administration (FIA) of the Department of

already taken to reduce mudslide and flood hazards,

Housing and Urban Development (HUD), the Act

specifies conditions under which flood insurance may be
made available. Through this program , flood insurance
has been available only for residential and small -business
properties, but extension of coverage to other properties
is scheduled for March 1972 .

authority to control land use , a statement of measures
maps delineating the flood and mudslide-prone areas,
and a history of the flood and mudslide experience in
the community. By a prescribed deadline, the com
munity must enact land -use measures, consistent with
criteria established by HUD , for reduction of flood and

mudslide damage. These measures must limit or other
wise control the use of land in flood -prone areas and

require the adoption of zoning regulations and building

From the standpoint of hazard reduction and avoid

codes designed to minimize flood damage. Eligibility for

ance, however, the critical feature of the Flood Insurance

flood insurance is maintained only if the community

Program is that it is specifically designed to reduce the

continues to enforce its protective land -use measures.

economic and human losses caused by floods and
mudslides. Flood insurance can be made available only

Under the regular Flood Insurance Program , establish
ment of the actuarial premium rates for flood insurance

Resp. App'x 213

IV. DISASTER MITIGATION - B. DISASTER INSURANCE

is a requirement before a community's eligibility can be
certified .

Notwithstanding this requirement, the emergency
program established by a 1969 amendment to the Flood
Insurance Act and in effect until December 31 , 1973 ,

provides that insurance may be made available to eligible
communities before the actuarial premium rates in the

137

The rates for this additional coverage may actually be
reduced if the owner makes his property more hazard
resistant. This provides an incentive for property owners,
who are not ordinarily required to meet new building
standards or land -use measures implemented under the
Flood Insurance Program , to " floodproof” their exist
ing structures.

community have been determined . This program was

Coverage at subsidized rates is prohibited for new

enacted to speed the implementation of the Flood

construction or substantial improvements on existing
properties begun after an area has been designated as a
special hazard ( flood or mudslide) area. Floodproofing

Insurance Act during its initial years.

When a community becomes eligible for flood insur
ance, the initiative shifts to its citizens. Individual
property owners and qualified small businessmen who

desire this protection must purchase policies from
licensed insurance agents. According to the Act, failure

and use of other hazard resistant measures should ,
however, result in a lower actuarial premium rate .
Flood insurance covers only those losses caused by

floods or mudslides as defined in the HUD regulations .
Water damage losses are not covered if they resulted

to purchase available coverage against flood and mud
slide damage within one year from the date on which it

from causes on the owner's property or within his

is made available will result in the denial of specified

control or from causes which did not create general

forms of Federal disaster assistance, such as SBA loans,

flooding in the area.

to nonpolicyholders in an eligible community. How
ever, enforcement of this provision has been suspended
until December 31 , 1973 by a recent amendment to the
Flood Insurance Act.

Coverage. The classes of property eligible for flood
insurance are currently limited to dwellings housing one

Enforcement. There are two major enforcement
provisions in the Flood Insurance Program . The first is
the responsibility of FIA to ensure that participating
communities maintain their eligibility by implementing

appropriate land -use and hazard reduction measures. The
second is a prohibition, contained in Section 1314 of the

to four families, properties occupied by small businesses,

Flood Insurance Act and Section 208 of PL 91-606 ,

and the contents of these properties. The Secretary of
HUD has extended this coverage to other types of prop

against duplication of benefits. The Office of Emergency
Preparedness has the basic enforcement responsibility

erties as of March 1 , 1972 .

for Section 208 .

Upper limits have been placed by statute on the
coverage available for each policy. Insurance at sub

If it is found that a community has not adopted or
maintained adequate land -use measures, the Flood In

sidized rates is made available to eligible applicants in

surance Act directs that no new policies may be sold ini
that area and that existing policies shall not be renewed.
In addition, Section 1314 prohibits extending Federal

amounts up to $ 17,500 for a single - family dwelling,
$ 30,000 for small businesses and two -to -four family
units, and $ 5,000 for the contents of each unit.
The subsidized rates are related
in part to the estimated
6
cash value of the structure.
Additional coverage up to $ 17,500 for a single- family
unit, $ 30,000 for two-to - four family units and small
businesses, and $ 5,000 for contents may be purchased at
the actuarial premium rate once the rates have been
determined for an area.

disaster assistance compensating for losses for real or
personal property to the extent that these losses could
have been covered under the Flood Insurance Program.
As noted earlier, enforcement of the provision has

been suspended until December 31 , 1973 because it had
become apparent that many persons in eligible com
munities were not aware of the availability of flood

insurance or the penalty feature of the program . This

Actuarial rates for flood insurance as established by

delay is designed to give all citizens in eligible communi

FIA are based upon an evaluation of risk . They depend
upon the degree of risk or exposure to floods and

ties sufficient time to become aware of the Flood

Insurance Program and take advantage of it.

mudslides, as measured in one-foot increments, and

upon the land -use and other hazard -reduction measures

Assessment. Since the Flood Insurance Program is

adopted by the community to mitigate losses. Actuarial

relatively new and has not been fully implemented in
most areas, it would be premature to evaluate its success
and effectiveness in accomplishing its goals. Never

rates, therefore, may differ greatly within a given eligible
area and among eligible communities. Thus, the maxi
mum coverage purchasable (half at the subsidized rate ,
half at the actuarial rate) is $ 35,000 for single- family

units, $60,000 for small businesses and two- to four

family units," and $ 10,000 for contents. The subsidized
rates do not apply for construction after FIA has identi

theless, it may be instructive to discuss some of its more

obvious problem areas and limitations.
Perhaps the most significant drawback of the program
is the low level of public participation . As of December

31 , 1971 , only 918 communities in 47 States plus
Puerto Rico out of the 5,000 to 6,000 potentially
fied the flood or mudslide hazard in a community .
Resp. App'x 214

DISASTER PREPAREDNESS : VOLUME ONE

138
eligible had established their eligibility either under the
regular or emergency provisions of the program . Within

these communities, approximately 87,000 policies for
about $ 1. 4 billion of property insurance had been sold .
Although the number of communities participating in
the program more than doubled from 1970 to 1971, and
approximately 10, 000 new policies were sold between

Finally , the Flood Insurance Program has not yet
received strong support from those Federal agencies
which guarantee loans and mortgages forhomepurchase
and building or from savings and loan associations whose

funds are insured by the Federal Government. Flood
insurance is not required, for example, by the savings
and loan associations, the Federal Housing Administra

June and November 1971, many communities and

tion , the Veterans Administration , or the Small Business

individuals still have not taken advantage of the pro

Administration as a prerequisite for loans or mortgages.
Yet, such a requirement by major Federal agencies

gram 's protection.
The Flood Insurance Program has not yet achieved its

would undoubtedly create considerable incentive for

full potential for several reasons. First, the program is
still new and information about it has not reached a

communities to implement the necessary hazard
reduction measures and participate in the flood program .

large segment of the public , although HUD has publi
cized it extensively ; accordingly , many people and
communities are unaware of its existence, its benefits, or
the steps required to establish their eligibility for flood
insurance. Another reason is that the initiative to join
must come from the communities. Membership is not
automatic , nor is the program without cost to the
community and the people . Communitiesmust meet the

eligibility requirements, and citizensmust purchase and
pay for their insurance policies.
This is not to say that these features are not positive
aspects of the program , but rather that they may have
deterred some communities and individuals from partici
pation.
In addition, the mere availability of flood insurance
at subsidized rates may not be sufficient incentive to

encourage a community to adopt the required hazard
reduction measures. Certainly , the overall objectives of

the program -minimization of losses and hazard mitiga
tion - are worthwhile . Yet in order to get communities to
meet the requirements, they must feel sufficiently
threatened by floods and mudslides or by the con
sequences of their failure to participate in the program .
As it stands now , communities in flood -prone areas are

not penalized for nonparticipation . Thus, in the event of
a “ major disaster” ( flood or mudslide), the nonpartici

pating community still qualifies for all of thebenefits of
Federal assistance.
On the other hand, if the Act is enforced as written ,

after December 31, 1973, nonpolicyholders in a partici
pating community will be denied Federal disaster assist
ance up to the amount of coverage they could have
purchased under the program . Thus, the availability of
the full range of Federal disaster assistance to nonpartici

pating communities may detract from the desirability of
joining a program which, in effect, compels citizens to
either buy insurance or risk the denial of disaster
assistance. It would be possible, therefore , for a non
participating community to fare better, in the economic

recovery and relief operations following a “ major dis

FAIR Plans
Description of Program . The Urban Property
Protection and Reinsurance Act of 1968° authorized the
establishment of the FAIR Plan Program

under the

auspices of HUD . A FAIR Plan is basically a State plan
to ensure “ fair access to insurance requirements." This
concept was designed essentially to provide fire and
extended-coverage insurance, as well as vandalism and
malicious-mischief insurance, to urban property owners
who have been unable to purchase insurance from
private companies. Although not conceived with natural
disaster insurance in mind, the FAIR Plans do , in fact,
provide coverage for such perils as windstorms and
brushfires. Windstorm coverage includes damage from
tornadoes and hurricane-associated winds.

The initiative to participate in the program ordinarily
comes from the State , with the Federal role largely
limited to financial backing in the form of riot re
insurance. To qualify for Federal support, the State
must design and implement a FAIR Plan which complies
with the criteria set forth in the Urban Property
Protection and Reinsurance Act of 1968 and in the

current FIA regulations. Among other things, the Plan
must provide the standard fire , extended -coverage,
vandalism , and malicious-mischief insurance as a mini
mum coverage. Each plan also must designate the areas
within the State where FAIR Plan coverage is to be
made available . An inspection capability must be estab

lished to determine the insurability of property and to
provide written reports specifying the condition of the
property and any needed improvements. If the property
is uninsurable or surcharged , the reports must clearly
delineate the reasons for its uninsurability or high rating
classification . In addition , the Act requires the creation
of an industry placement facility through which a
property owner who fulfills the FAIR Plan requirements

and whose property has been inspected may obtain
insurance.
Although there are variations among the States,

aster” declaration for a flood , than a participating

normally a State FAIR Plan requires the participation of

community having only a small number of policyholders.

the property insurers doing business in that State and is
operated through a pooling arrangement under the

Resp. App'x 215

139

IV. DISASTER MITIGATION - B . DISASTER INSURANCE

supervision of the State insurance authorities. The

Of those States which ordinarily experience severe

participating companies share risks insured through the

windstorms, only a few participate in the FAIR -Plan

placement facility and are responsible for payment of

companies may enter into reinsurance contracts with FIA

Program . Texas, Florida, and South Carolina , for ex
ample, are among those which either failed to enact the
appropriate implementing legislation or where the FAIR

for indemnification of an agreed -upon share of their
riot losses. Only those companies that participate in

Plan was never made operative. These States have chosen
to establish a separate windstorm insurance pool in

the FAIR Plan on a risk-sharing basis can qualify for

hazardous areas, although the FAIR Plans provide an

Federal reinsurance.

alternative source of windstorm and brushfire insurance

claims within the limits defined by the Act10
." These

Any property owner unable to obtain insurance in

the private market and whose property is in an area
eligible for FAIR Plan coverage may apply to the place
ment facility or through an agent. Applications must be
considered without regard to the specific location and
condition of the property or adjacent hazards. If the
placement facility or participating insurer is unwilling to
insure an eligible risk at the regular rates, an inspection
of the property must be made (without cost to the
owner ). If warranted by the inspection , improvements to
the property may be required as a condition for
eligibility , or " condition charges ” may be assessed to

reflect a particular hazard on the property. Moreover,
the property may prove to be uninsurable (although
only about 1 percent of the applicants have been denied
FAIR Plan insurance ). "
The rates charged in most of the FAIR Plan jurisdic
tions are generally the same as in the private market. The

to these States. Either through a geographical extension
of an existing FAIR Plan or adoption of a new one, any
State can make coverage available .
In the case of disasters, the value of FAIR Plans is their

postdisaster aid rather than predisaster mitigation . They
might be used, for example, to provide windstorm and

brushfire insurance where coverage may not be available ,
thus allowing property owners to protect themselves
against these hazards. The FAIR Plans do not, however,
have strong natural hazard reduction features. Thus,
while the FAIR Plans fill an important gap in providing
basic property insurance, any attempts to expand the
coverage to include additional natural perils, in the

absence of comprehensive hazard reduction features,
would not achieve the objective of hazard mitigation
through disaster insurance.

Voluntary (Private) Sector Programs

" condition charges” ( surcharge) may , however, have the
effect of increasing the cost of a FAIR Plan policy above
that which would have been charged if the owner had

General Observations. No compilation - supported by

empirical evidence - of the major disaster coverage

The FIA is currently examining the surcharges assessed

offered in the entire private market exists today . The
examination of various perils and the response of the
private market has been hindered by this gap. None
theless, two major generalizations can be made about

under the various FAIR Plans to determine whether the

natural disaster coverage provided by the private insur

been able to buy in the private market. The surcharge is
normally justified on the basis that it encourages

property improvements and hazard reduction measures.

ance industry.

rates are actually justified by experience.

of Columbia, and Puerto Rico had operative FAIR
Plans. 12 In only 13 of these jurisdictions, moreover, has
the FAIR - Plan insurance been made available through

• The coverage is fragmented ; full coverage against
major natural perils is rarely included in a standard
homeowner's policy. Property owners desiring complete
coverage usually must purchase separate policies to cover
additional perils or specifically request an endorsement
on their standard policy. In some areas, the structure of
the market is such that no insurance against a specific

out the entire area. In the others, the coverage has been

peril (e.g., windstorm , flood ) is available. As the result of

confined primarily to major urban areas.
The value of the natural disaster coverage available
under FAIR Plans was demonstrated following the
severe brush fires in the Malibu and Newhall areas of

thisfragmented market, unless the property owner is well
informed about existing perils and about the availability
of insurance, he probably will be uninsured or under

Assessment. Few States have taken advantage of
the natural disaster insurance potential of the FAIR
Plans. As of December 1971 , only 26 States, the District

insured.

California in September 1970. Almost all of the affected

• The existing coverage lacks any strong inducement to

area, designated as a brush area by the Pacific Fire

avoid hazardous areas or to take positive hazard

Rating Bureau, was covered by the California FAIR
Plan. In all, 126 claims, amounting to approximately
$ 1,804,318, were made under the FAIR Plan for direct

reduction measures. With the exception of the Flood

losses incurred as a result of the fires. Of the 70,000
structures which the Pacific Fire Rating Bureau esti
mates are in designated brush areas, approximately
11,000 risks are covered by the California FAIR Plan.13

Insurance Program , the degree of exposure to various

perils is not well defined. Even though rates reflect the
risk to some degree and insurance may be unavailable in
high hazard areas, there is no built-in mechanism requir
ing avoidance of risk or implementation of hazard

reduction measures, such as a requirement that com

Resp. App'x 216

DISASTER PREPAREDNESS : VOLUME ONE

140

public of the hazards and have allowed unsafe and

munities implement land -use measures and building
codes designed to reduce the hazards to which they are
exposed.
Following is a discussion of single -peril coverage of

• In addition to lack of information concerning earth
quake hazard , complacency - particularly in California

earthquakes, windstorms, and land subsidence.

about the threat of a serious earthquake is probably due

unwise building practices to take place.

to the infrequency of high -intensity earthquakes that
Earthquake Insurance. Of the various forms of
disaster insurance, earthquake insurance currently seems
to generate the most interest and controversy . The major

problems in the availability of existing earthquake
coverage and the actual and potential hazard mitigation
impact of earthquake insurance are treated below.

have affected major population centers. In the last 50
years, only three earthquakes with intensities greater
than VIII on the Modified Mercalli scale 18 have occurred
in heavily populated areas of the United States, all in
California - Long Beach in 1933 , Bakersfield -Kern in

1952, and San Fernando in February 1971."

It is

that in the United States “ the aggregate value of

probable, therefore, that many property owners have
been lulled into a false sense of security. Furthermore,
there is no evidence indicating a substantial increase in
the purchase of earthquake insurance in the affected
area following the San Fernando quake.
The inability to purchase earthquake insurance con
veniently also has an impact on availability. For exam
ple , earthquake insurance in California is normally

property exposed to earthquake damage is probably in

written as an endorsement to the homeowner's policy

the tens of hundreds of billions of dollars,” 15 yet only
about $ 3 billion in property is covered by earthquake

for fire and extended coverage. Since not all property

Availability. Earthquake insurance generally may

be purchased throughout most of the United States from

private companies.14 However, few policies have been
purchased covering commercial and private properties
exposed to the earthquake hazard . It has been estimated

insurance. 16

Additional support for the fact that only a small
proportion of property is covered by earthquake insur
ance may be found by comparing earthquake insurance

insurers write earthquake insurance, or some restrict the
areas or the types of dwellings which are eligible for
coverage, the property owner must find a company
willing to sell him a policy . Although most leading

insurers issuing homeowner's policies in California will
20

premiums with those for fire and extended coverage. In
the case of California , for example, which is a particu

write earthquake insurance, the property owner is
nevertheless placed in a position of " shopping around "

larly high earthquake risk area , figures for 1965 show

for a company willing to insure him .

that earthquake insurance amounting to $4.1 million in

• Availability of earthquake insurance also is affected
by the reluctance of the companies to write this
coverage in large amounts. Accordingly , they do not sell

premiums was written . In contrast, $ 123.6 million in fire
insurance and $34.8 million in extended coverage were

written during that same year.17 Put another way,
earthquake premiums constituted only about 3.5 per
cent of the fire insurance premiums and 12 percent of

the extended coverage premiums during 1965 .
The obvious question suggested by the foregoing
statistics is why so little property, particularly in high

it aggressively.21 As a result, property owners may
simply be unaware that it can be purchased . To a large
extent, the reluctance is due to the unpredictable,
singular nature of the earthquake itself. Risk cannot be
spread easily , and companies fear they will not be able to

risk areas, has been insured against earthquake damage.

build and maintain reserves adequate to meet the claims
resulting from a single, sizable earthquake in a populated

In fact, insurance is available and can be purchased from

area. Concomitantly, the growing commercial concentra

private companies, and current demand for residential

tion in high -risk areas adds to the financial burden the

and commercial properties apparently is being met. The

companies would have to assume if they agreed to
provide full earthquake coverage for commercial as well
as residential structures. It is noted that the “ growing

low level of public participation, however, suggests that
there are other factors which need to be taken into

account when attempting to evaluate the actual availa
bility of earthquake insurance .
• First, there is ignorance about the need for earth
quake coverage in the more earthquake-prone areas.
From the standpoint of disaster preparedness, wide
spread earthquake coverage is desirable insofar as it
contributes to hazard reduction and avoidance , and

provides a more equitable arrangement for disaster relief.
Many citizens in high -risk areas, however, are apparently
unaware of or unconcerned about their exposure to risk.
Public officials have contributed to this problem insofar

values of commercial and industrial properties have been

concentrated in certain high -risk areas and have in
creased to the extent that the potential liability on a
single building may exceed the area -underwriting
limits
of a reasonably large insurance company.» 22 Related to
this is the question of whether adequate reinsurance - or
some form of financial backup-would be available to
the primary insurer if earthquake underwriting were
greatly expanded.
• Finally , little positive institutional action has been

taken to encourage property owners to insure against the

as they have not made sufficient efforts to inform the
earthquake hazard . Lending institutions in the private
Resp. App'x 217

IV. DISASTER MITIGATION - B . DISASTER INSURANCE

sector, as well as such Federal agencies as VA and FHA,
do not require earthquake insurance as a prerequisite for
home loans. Several bills which would encourage public

purchasing of earthquake coverage, however, have been
introduced in Congress and in the California Legislature.
Rates. Rates vary considerably with the location ,
coverage , and nature of the property to be insured . Two
basic systems, the Eastern Method and the Western

Method, are used for writing earthquake insurance in the
United States. Each system is subject to the rules of the
rating bureau in the individual State.

141

Assessment. Earthquake insurance in its current

form is not an effective disaster preparedness mechanism
for two primary reasons : it is tied only to a minimum
degree to specific hazard- or loss -reduction measures,
and it covers only a small percentage of the property
exposed to major earthquake hazards.
With regard to the hazard reduction aspects of earth

quake insurance, there is certainly value in basing the
rates upon the risk zone and the building classification .
However, the risk zones in particular are extremely

broad and only generally reflect the exposure. For
example, the Pacific Fire Rating Bureau lists Alaska, part
of California , Montana, and part of Nevada in Risk Zone

A major difference between the two systems is that
the Western Method includes a mandatory deductible of
5 percent to 15 percent and the Eastern Method does
not, although a credit of 25 percent is given if the holder
elects a 2-percent deductible clause. The basic rates
under the Western Method are considerably higher,
largely reflecting the risk of exposure : the States using
the Western Method ( Alaska, California, Washington,
Oregon, Utah , Montana, Nevada, Hawaii, Idaho, and
Arizona) are considered earthquake-prone, whereas the

want to buy . Such a rate structure can have little in

hazard is less where the Eastern Method is used .

fluence on hazard reduction .

1 ; 25 counties in California, five in Nevada, and all of

Utah are in Zone 2 ; Imperial County of California
constitutes Zone 3 ; four counties in Arizona comprise
Zone 4 ; and the remainder of Arizona is Zone 5 .

The current earthquake insurance rate structure using
these broad zones does not adequately reflect risk varia
tions. It is determined largely by how much insurance

the companies want to sell and the property owners

Within each system, rates vary according to the risk

From the standpoint of hazard reduction and avoid

zone in which the property is located and the classifica

ance , the high -risk areas should be more clearly de

tion of the property to be insured.23 In California, for
example, assuming a frame or frame-stucco dwelling and

lineated . Further, in the absence of any other regulatory
tool, the rates in areas of extreme risk should closely
reflect the various degrees of exposure, thus providing an

a 5 -percent mandatory deductible, the rates would be
11 , 15 , and 23 cents per $ 100 of coverage, depending on
location of the structure in the low- , medium-, or

high -risk zones, respectively. The major population
centers, San Francisco and Los Angeles, are in a zone of
medium hazard.24 The Pacific Fire Rating Bureau has a
special rate category for buildings conforming to an

incentive not to build there .?25

It is hoped that rates which closely reflect the

exposure to earthquake hazard will publicize the risk in

a community and thus increase awareness of the
problem. A more effective solution would be to con

sider the purchase of earthquake insurance as one

earthquake-resistant design . The applicable rates are

criterion of any federally financed or insured project.

determined by the Bureau after examination of the plans
and specifications of the buildings and the hazard
resistant measures employed.

Through the insurance mechanism , the community

might be made acutely aware of the earthquake hazard
and thus support effective community-sponsored earth

In areas where the Eastern Method is employed, rates

quake hazard mitigation measures, such as wise land -use
planning and stringent building codes.

are much lower. For example, rates for wood frame
dwellings vary from 4.5 cents to 15 cents per $ 100
coverage with a 2 -percent deductible, depending on risk

increase the level of public participation. Obviously, any

An earthquake insurance requirement also would

A second factor restricting demand is related to the
cost and terms of the policy. Although the actual rates,
even in a hazardous area such as California, are not high,

viable program of earthquake hazard reduction must
encompass a sizable segment of the community and
offer economic incentives or impose sanctions to ensure
community participation . Such a program also will make
a contribution to the economic recovery of a disaster

zone .

the mandatory deductibles attached to most policies

stricken community . Even though insurance could never

significantly detract from the attractiveness of earthquake
coverage. In California, for example, a homeowner could

compensate totally for the human, social, and economic
costs of a major earthquake, a broad -based program of

add earthquake insurance to his homeowner's policy (if

insurance would greatly aid community rehabilitation .

his insurer writes earthquake insurance ) for about $45 a
year for $ 30,000 of coverage. The 5 -percent mandatory
deductible, however, amounts to $ 1,500. The owner
may conclude that it is unlikely his property will sustain

Insurance Pools

Description. An insurance pool is an organization

over $ 1,500 in damages and, accordingly, that the

of insurance companies which share the premiums and

protection is not worth the extra $45 .

losses for one or more specific types of coverage. It is
Resp. App'x 218

142

DISASTER PREPAREDNESS : VOLUME ONE

either a voluntary association or one established by State
authorities requiring the participation of all insurers
writing a certain line of insurance or operating in a

and land -subsidence pools is only tangentially tied to

designated area. It is usually formed to provide a market

pools and the Flood Insurance Program is a direct

for insurance which individual companies might be
unwilling or unable to underwrite on their own.

gram , while also responding to insurance unavailability,

Seven States, prompted by the unavailability of

has a basic objective of reducing losses. The pools

reducing the losses stemming from those two perils.
The difference in emphasis between the insurance
reflection of their different basic objectives. The Pro

windstorm and land -subsidence insurance in the volun

instead were established primarily as a response to

tary market, have used the pool mechanism to ensure

insurance unavailability in hazardous areas. The pools do
not forcefully and directly tie insurance availability to
the mitigation of the peril; most of them merely require
that eligible structures built or substantially improved
after a specified date be constructed in conformity with
the building codes and standards used in that area .
One additional limitation of a pool is that it
constitutes a response to only a single peril. For
example, the needs of a property owner in areas where
wind -driven water is a significant problem are not being
adequately met. Even if both windstorm insurance and
the Flood Insurance Program are available, the property

that property owners are able to obtain protection
against these hazards. Windstorm pools have been set up

in Alabama, Louisiana, Texas, Mississippi, South Caro
lina, and North Carolina. Florida has a windstorm and a

land -subsidence pool. Pennsylvania is a separate case ;
insurance against the peril of land subsidence ( created by
deep mining there) was unavailable in the private
market, so the State chose to write and sell land

subsidence insurance through a State agency rather than
establish a pool.

Most of the existing windstorm and land -subsidence
pools require the participation of the property insurers
licensed to write fire and extended -coverage insurance in
a given State. In the case of the windstorm pools,
participating insurers agree to sell standard fire and

extended -coverage, which includes windstorm , insurance

owner must still purchase two policies for adequate

protection against hurricanes, for example , in which
damage is likely to occur from both wind and water. If

either windstorm or flood insurance is unavailable, the
property owner can only partially protect himself.

in areas designated by the State or by the agreement (or
statute ) establishing the pool. To obtain windstorm

Hazard Reduction Requirements

coverage, therefore, eligible property owners must pur

chase a basic fire and extended -coverage policy from a

Hazard reduction features, or their absence , have

participating member of the windstorm pool. On the
other hand, land-subsidence insurance can be purchased
in the Florida pool as a separate policy, or added as an

been commented upon in the assessment of the available
Government and private disaster-insurance programs.

endorsement to a fire and extended -coverage policy.

measures to encourage improved land -use planning and

Furthermore, the preceding chapter identifies feasible

In addition to the windstorm and land -subsidence

control, and more up -to -date materials and building

coverage provided through the pools, most of the States
encourage companies to write this coverage outside the

here is identify the mechanisms to reduce hazards

pool by allowing them to deduct the amount of the

through a disaster insurance program .

insurance written voluntarily from the percentage of
losses developed as a result of their association with the
pool.26

In most pools, an inspection is made of the property
to determine its insurability and, in some cases, to

standards have been examined . What remains to be done

Eligibility Requirements. Following the example of
the Flood Insurance Program , communities might be
required to satisfy hazard mitigation criteria as a pre

condition to obtaining disaster insurance. Similar re

decide if surcharges should be added to the rates to
reflect a particular hazard . As a rule, the basic rates
charged through the pools are the same as similar

quirements also might be established for individual
property owners. The process of establishing, certifying,

coverage in the voluntary market. Where “ condition

fying the hazards, probably will have to be assumed by

charges”

the Federal Government.

are added, the total premium for a given

and enforcing eligibility requirements, as well as identi

property may well exceed that which would have been

Enforcement of eligibility requirements might be

charged if insurance had been available outside the pool.

accomplished in several ways:
• Federal disaster assistance might be denied to com
munities located in an identified high -hazard area which
fail to establish their eligibility for insurance.
• In identified hazardous areas, disaster insurance might
not be made available for new construction , for major
improvements to existing structures, or for structures
rebuilt following a disaster. To strengthen this restric
tion, Federal disaster assistance might be denied for

In some cases, where hazard reduction measures have

been implemented or specified hazards eliminated, the
premiums may be lowered to reflect the reduced risk .
. Assessment. In contrast with the Flood Insurance

Program , in which the hazard reduction and land -use

measures actually determine the availability of flood
insurance, the coverage provided through the windstorm

Resp. App'x 219

143

IV. DISASTER MITIGATION - B . DISASTER INSURANCE
losses on new construction or structures rebuilt or

reflect the " on -site risk ” and thus provide property

improved after the designation of an area as extremely

owners with an incentive to take appropriate hazard

hazardous.

reduction and land -use measures. Surcharges or deduc

• The Federal Government might refuse to lease build
ings in hazardous areas.

tible clauses might prove to be flexible tools in this
respect. Additional adjustments might be made to reflect

• The Government might deny funds for construction
and development in areas designated as extremely

disasterproofing of structures.

hazardous. Federally financed construction in mod

procedures may be needed initially to determine the

If rates are to be closely tied to exposure, inspection

erately hazardous areas might be prohibited unless

applicable charges or other conditions of the policy. It

prescribed land -use measures and building standards have

might be beneficial to limit policies to 1-3 years, based

been met.

• Disaster insurance might be a prerequisite for receipt

upon the condition or exposure of property. Renewal of
the policy might be made conditional upon the satis

of certain Federal funds. Without such a requirement,
there would be little pressure on a community to

factory implementation of stipulated hazard reduction
measures. Follow -up inspections might be necessary to

establish its eligibility for a disaster insurance program .

reevaluate rates, to verify changes in the property's

Establishment and Enforcement of Criteria. Criteria
for land -use planning and building codes as a pre

exposure to hazard , or to renew a policy.
If it is not feasible to base rates on specific site
conditions, small risk zones for extremely high hazard

condition for disaster insurance could follow the prece
dent established by the Flood Insurance Act. General
provisions could be included in a basic act, implemented

areas would serve the purpose of making the community
aware of the need for hazard reduction measures.

through a set of regulations. Communities could then be

Findings

required to demonstrate local implementation and en
1. Disaster insurance has the potential for creating an

forcement.

This procedure would accomplish a number of
corollary objectives. The citizen would be alerted to the
disasters to which each locality is most prone. They
might thus be more likely to participate in the disaster
program and adopt hazard reduction measures.

Standard minimum criteria would be formulated by
the Federal Government for at least those funds and
projects within Federal jurisdiction. Thus, policyholders
could come to expect uniformity in such related matters
as determination of community or individual exposure

effective high level ofdisaster mitigation if it is tied to

strong and enforceable hazard reduction features by
establishing: (1) rate structures that reflect local hazards
or ( 2 ) stringent eligibility requirements. Individuals and
communities would thus become more aware of the

hazards to which they are exposed and make more
judicious decisions about use of their property. Com
munities would be effectively encouraged to enact and
enforce hazard reduction land-use and construction ordi
nances .

to risk, application of rates, surcharges, and required
2. The Flood Insurance Program , the only existing

property improvements. Such criteria may vary some
what from location to location to reflect different perils
and degrees of risk , but they should be as consistent as
feasible to ensure equal treatment of property owners.

disaster insurance program with definite hazard
reduction requirements, needs to be strengthened to
ensure that all communities in designated flood hazard

Additionally, where appropriate, criteria should take

areas participate in the program .

into account the exposure to all perils, and not be

• Flood insurance should be required whenever Federal

oriented toward a single peril.

agencies provide financial assistance for planning, acqui

activities in disaster mitigation and avoidance would be

sition, development, reconstruction , or improvement of
land, buildings, machinery, equipment, or other public or

greatly extended . The leadership and some of the
expertise for precisely identifying hazardous conditions

assistance.

Unquestionably, the Federal Government's sphere of

of terrain and structures in small tracts would probably
come from Federal sources, as would any necessary

compliance and certification procedures. The Federal
Government also would be required to establish stand
ards and specifications for its own construction and

leasing activities and possibly to provide relocation
assistance for moving of activities from extremely
hazardous areas.

private facilities as a condition for receipt of this
• Similar consideration should be given to Federal
instrumentalities which regulate, supervise, or insure
lending institutions.

3. Existing insurance programs dealing with disasters
other than floods have aroused little public interest and
received little support; they are deficient in present

coverage due to unavailability, fragmentation, or high

Rate Structure . Within reasonable limits, rates for

cost; and they lack direct ties with hazard reduction
measures. Improved hazard reduction requires a long

disaster insurance (at least for new construction ) might

range program . Other improvements can be partially

Resp. App'x 220

DISASTER PREPAREDNESS: VOLUME ONE

144
achieved by piecemeal changes in the disaster coverage
of several existing insurance programs:
• The Internal Revenue Service and the States should

examine their regulations on losses and maintenance of
reserves by insurance companies with a view toward
modification of any clause unduly restricting the ability

of such companies to write disaster insurance and thus
toward providing an inducement to expand thismarket.
• Insurance companies, rating bureaus, and States
should utilize the available hazard reduction information

developed by Federal agencies in setting disaster
insurance rates which better reflect exposure and in
establishing requirements for disaster insurance (other

than flood insurance).
• States should expand or establish insurance pools and
FAIR Plans to provide more adequate disaster insurance
coverage .

4. There is a need to develop ultimately a compre
hensive disaster insurance program directly tied to
hazard reduction measures.
Further experience, however, is required to deter

mine the feasibility of such a program , because of its

many complex economic and public policy implications.
There is a need to determine detailed actuarial and
financial data ; the respective roles of the Federal
Government (if any), of the States, and of the insurance
industry ; the definition of perils and coverage; and the
mechanismsto effect hazard reduction measures.

5. Local public officials and private citizens often are
not aware of the natural disaster hazards existing in the
area in which they live, the likelihood of their occur
rence, and the measures that property owners can take
to avoid ormitigate them . In the case of flood insurance ,
Congress recently recognized that the absence of infor
mation can be a serious problem , so it extended

enforcement of specified provisions of the Flood Insur
ance Act for 2 years.
Responsible Federal and State agencies should
develop and disseminate information concerning natural
perils and hazard reduction measures to the public,
lending institutions, State and local officials, builders,
and other interested parties. The OEP disaster research

clearinghouse can contribute to this information

program .

Notes
Title XI of PL 90 -448, 82 Stat. 476 , as amended by 83

See, for example, S.871 and H .R .6267, which provide for a
national program of earthquake insurance; H . R . 5515 authorizes

HUD to establish a national earthquake program ; H .R . 4084 ,
H . R .5437, H .R .5438 amend the Flood Insurance Act to include
protection against earthquakes; S . 903 and H .R .6266 provide for

a national program of disaster insurance.
Samples of the California Legislature activity include such
bills as A . B. 1327 , which includes earthquake coverage in the
California FAIR (Fair Access to Insurance Requirements) Plan ;
A .B .2499 includes earthquake coverage as a basic peril under the

California Standard Form Fire Insurance Policy and California
Standard Form of County Fire Insurance Policy; A . B . 2534

requires that homeowner's policies include catastrophe coverage.

Stat. 379, 12 USC 1749 bbb.
1024 CFR 1905-1906 .
Il Testimony of George K . Bernstein , Federal Insurance
Administrator, in U .S . House of Representatives, HUD -Space
Science Appropriations for 1972 (Part 2), Hearings before a
Subcommittee of the Committee on Appropriations, 92d Cong.,
1st Sess ., 1971, p . 826 .

" Nevertheless, the FAIR Planshave been quite successful in
making insurance available in urban areas. As of June 30 , 1971,
1.2 million policies had been sold , with $ 21 billion of insurance
in force.

'It employs about 1.4 million people and is responsible for

13“ Financial Report to Members for the Period From

assets of about $ 250 billion - Insurance Facts-1970 , Insurance
Information Institute (New York , 1970 ).

Inception , August 15 , 1968 to November 30, 1970 ," California
FAIR Plan Association . Also , see News Release , dated January
15, 1971, from Insurance Commissioner Richards D . Barger,

4 36 FR 18175, September 10 , 1971.
SPL 90-448, Section 1314, 82 Stat.579,42 USC 4021.
The lowest rate is $0 .40 per $ 100 for single - family
structures and two-to-four family structures valued under
$ 17 ,501 and $ 30 ,001 respectively. The highest rate is $ 0 .70 per
$ 100 and is charged for small business properties valued over
$60 ,000. Rates for coverage on contents range from $ 0 .50 per

$ 100 to $ 1 .00 per $ 100 . (See 35 FR 4200 -4209.)

California Department of Insurance, and attachment.

14 U .S. Department of Commerce, ESSA , Coast and Geodetic
Survey, Studies in Seismicity and Earthquake Damage Statistics,
a report prepared for the Department of Housing and Urban
Development, Office of Economic and Market Analysis, March

1969, Appendix A , p. 74.
U .S. Department of Housing and Urban Development,
" Summary and Recommendations of Studies in Seismicity and
Earthquake Damage Statistics by ESSA," 1969, unpublished , p .

T - u.

' The property owner may only insure the actual structure

of his dwelling or small business. Up to 10 percent of the face

value of the policy may be applied to units attached to the
principal struciure, such as an attached garage. Separate build

53b .

16 lbid.

17 Studies in Seismicity and Earthquake Damage Statistics,

ings, fences, wharves, boathouses, motor vehicles, animals, and

pp. 75-76.

the like cannot be insured under the Flood Insurance Program .

1° VIII is defined as slight damage in specially designed
structures, considerable in substantial buildings, great in poorly
built structures. Panel walls are thrown out of frame structures.

Data received from the Federal Insurance Administration ,
Department of Housing and Urban Development.

Resp. App'x 221

IV. DISASTER MITIGATION - B . DISASTER INSURANCE

Chimneys, factory stacks, column monuments, and walls fall to
the ground. Heavy furniture is overturned . Sand and mud are
ejected in small amounts. Changes occur in well water. Persons
driving automobiles are disturbed .

196Summary and Recommendations, ” p. 63 ( updated ).
20

" Letter from M. Kai-Kee , Chief, Rate Regulation Division,

California Department of Insurance, to Mr. Philip T. Cummings,
General Counsel, U.S. Senate Committee on Public Works, June
17, 1971 .
21 .

The Insurance Company of North America has recently
attempted to increase earthquake insurance sales through a new
“ Quake Guard ” program in California . The coverage is offered at
a single Statewide rate for each type of residential structure and,
in general, is less expensive than that heretofore available. Under
this program , the whole State is considered as a single risk zone.

The hazard reduction incentive is therefore practically non

145

see S. T. Algermissen , “ Seismic Risk Studies in the United
States,” Proceedings of the Fourth World Conference on

Earthquake Engineering, Vol. I (Santiago, Chile, January 13-18,
1969).
24

“ Earthquake Classification, ” Pacific Fire Rating Bureau.
The rates prescribed for most classes of commercial structures
are quite high ; e.g., $2.50 for $ 100 coverage with 15 percent
deductible in San Francisco and Los Angeles.

25 Work has been done in the area of risk mapping with
particular reference to earthquakes. See, for example, Report
of the Task Force on Earthquake Hazard Reduction , Office of

Science and Technology , September 1970, and The San
Fernando Earthquake of February 9, 1971; Lessons from a
Moderate Earthquake on the Fringe of a Densely populated
Region , National Academy of Sciences - National Academy of

Engineering, (Washington , D.C., 1971 ).

26For details on the limitation placed on the insurance

existent.

22Studies in Seismicity, p. 75.
23 The risk zones in California have been set up for

available through these pools in various States, see responses
from the Office of the Insurance Commissioner, State of Florida

insurance-rating purposes and are delineated by county in the

ance, State of Louisiana (July 20, 1971), and from the Depart
ment of Insurance , State of Alabama (July 1971 ), to inquiries

Tariff Rules of the Pacific Fire Rating Bureau , p . 23k. These
zones should not be confused with the Algermissen seismic risk

zones based upon earthquake intensity. For further information ,

(July 22, 1971 ), from the Office of the Commissioner of Insur

from the OEP PL 91-606 Disaster Study Group (July 8, 1971 ).

Resp. App'x 222

Resp. App'x 223

Chapter C. Weather Modification
• Precipitation Modification - National Oceanic and
Atmospheric Administration (Department of Commerce ),

Introduction and General Considerations
Changing the weather, in a deliberate manner and

National Science Foundation , Bureau of Reclamation

with predictable results, is one means potentially within
reach for averting or reducing the effects of disasters.

(Department of the Interior);
• Fog and Cloud Modification -NOAA, Federal Avia
tion Administration (Department of Transportation ),
NSF, Department of Defense ;
• Hail Suppression - NOAA , NSF;
• Lightning Modification - Department of Agriculture,
NOAA , NSF, DOD;
• Hurricane and Severe Storm Modification -NOAA,

The objective of weather modification projects is to
prevent, mitigate, or expedite recovery from the deleteri
ous effects of meteorological phenomena.
Historically , man's role relative to the weather has
been a passive one . Beginning in the middle 1940's,

though , scientists with the General Electric Company
demonstrated in field experiments that deliberate modi
fication of clouds and precipitation was possible. Since
that time, laboratory and field investigations have
expanded scientific understanding of the physics of
clouds and precipitation . At present, projects sponsored

by various Federal agencies involve basic and applied
research, pilot demonstrations, and application programs
in precipitation , fog, hail, lightning, and hurricane-severe
storm modification .

Federal funding of weather modification grew slowly

during the early and middle 1960's and more rapidly
during the later years of the decade. Between FY 1971

and FY 1973 , funding increased from $ 14.2 million to
$ 18.4 million ( see Table 1 ).

Table 1. - Federal Weather Modification Program , Allo
cation of Funding (Budget authority - not including capi
tal outlay ), in millions of dollars -Office of Management

DOD ;

• Mathematical Modeling - BuRec., NSF ;
• Social, Economic , Legal, and Ecological Studies
BuRec., FAA , NSF , NOAA .

With increasing Federal support and expansion of
field experimentation , problems of public policy are
becoming more acute. Determination of the public
interest relative to weather modification demands that
economic, legal, political, administrative, and environ

mental factors be considered with those of science and
technology. Among the issues to be settled are :
• Definition of roles and responsibilities of government
and private industry .

• Means of coping with international ramifications.
• Determination of public liability for damages from
weather modification endeavors.

• Resolution of conflicting interests and requirements.
• Means of ensuring that ecologic and climatic effects
are fully considered .

and Budget.
FY '71 FY '72 FY '73

This chapter is directed at the discussion of public
policy issues, principally those concerning the problem

0.3
2.1

0.3
3.0

0.3
4.5

of management of weather modification activities. The
various uses of weather modification to alleviate specific
natural disasters are discussed in Part III .

Department of the Interior
( Bureau of Reclamation)

6.7

6.7

6.2

Management of Existing Programs

National Science Foundation

3.4
1.5

0.2

4.5
1.5
0.2

5.7
1.1
0.6

14.2

16.2

18.4

Agency

Department of Agriculture

Department of Commerce
( NOAA )

Department of Defense
Department of Transportation
(FAA )

Major current weather modification programs and
interested agencies are as follows:

( This portion of the chapter is drawn mostly from
the National Academy of Sciences publication The
Atmospheric Sciences and Man's Needs: Priorities for
the Future, pages 49 and 51.)
In 1958, the National Science Foundation (NSF) was

charged in Public Law 85-510 with the responsibility to
" initiate and support a program of study , research, and
evaluation in the field of weather modification ” and “ to
report annually to the President and the Congress
147

Resp. App'x 224

148

DISASTER PREPAREDNESS : VOLUME ONE

thereon.” Thus, NSF became the lead Federal agency
charged with support and review responsibilities for
scientific endeavors in weather modification . Provision
for coordination was made by Executive Order 10807 of

March 13 , 1959 , which assigned this responsibility to the
Federal Council for Science and Technology (FCST).
Coordination of weather modification research was
specifically given to the Council's Interdepartmental
Committee for Atmospheric Sciences (ICAS ).
With the increase in funding that occurred in the

Problems of Future Weather Modification Efforts

Implementation of an expanded weather modifica
tion effort will call for a considerable increase in field
experimentation . Even though it may lead to unpredicta

ble or imperfectly understood results, this experimenta
tion could in fact cause significant weather changes. A
number of public policy issues will then enter the
picture, complicated by several major technical prob
lems.

1960's, more Federal agencies, notably the Depart

Major Technical Problems. The effectiveness of

ments of Commerce, the Interior, Defense, and Agri
culture, accelerated their efforts in this field . Diver

weather modification for disaster prevention or for other

sity ensued to satisfy their diverse missions. This
was made possible by Public Law 90-407, which
modified the position of NSF and resulted in the
absence of a lead agency in this field . The agencies thus

objectives is constrained by the present state of the art.
Cloud systems at times behave unpredictably after
seeding, some releasing more and some less precipitation .
The models and measurements techniques now in use

became free to pursue weather modification activities

need further refinements, which in turn call for exten
sive field tests.

consistent with their respective missions, within a
broadly coordinated Federal program integrated by

yet exist to handle data for the more sophisticated

ICAS.

models . Some remote measurements are made by use
of surplus military radars that have been adapted to the

ICAS uses a variety of means to effect this co
ordination ; it holds monthly meetings, issues annual
reports which include summaries of agency programs,
and sponsors annual interagency conferences. Thus, it
provides a forum for exchange of information and
ensures integration of agency programs. Further, FCST
has reviewed program budgets prior to their submission
to the Office of Management and Budget.
Within the present Federal Government framework:
ICAS has no authority to consolidate or to

modify agency programs; and, most important,
ICAS is not able itself to mount research efforts,
no matter how badly needed they may be. Agency
initiatives at the scientist level, even though
endorsed by ICAS, might not be approved by

agency administrators; and agencies may launch

Computers of sufficient speed and capacity do not

purpose and are extremely valuable , but not ideal."

Airborne instruments for measurements within clouds
are not yet sufficiently accurate or reliable to yield data
of requisite quality.

Because of these technical problems there is at
present no certainty that a stimulus applied to a cloud
produces the effects that are subsequently observed.
There is even less possibility of predicting the down
range global effects of relatively large projects.
Legal Aspects. Uncertainty of results and other
characteristics of weather modification are creating a
host of novel legal problems that have proved of great

interest to the legal profession. Cases have come to trial
in several States involving sovereign immunity, liability,
trespass, negligence, and nuisance." Who has rights to
the clouds, for example, is an issue that has been
discussed but not resolved.

major programs without ICAS endorsement. The
result has been that in important respects the

national effort in weather modification has been

Clouds that pass over a man's property are
potential assets that he may want to put to

largely dissipated in submarginal projects, while

profitable use, but he cannot own the clouds.

crucial problems requiring large programs remain

Analogies with laws regarding water supplies pro

unsolved ."

vided by streams, lakes, and wells have been
advanced , but these are really not very useful
because of obvious differences between the two

ICAS, however, has prevented duplication of efforts
and has imparted a unifying thrust to the various agency

situations....

projects in the weather modification field . It has
prepared a number of reports on special problems in the
field and, in mid 1971 , proposed a program to accelerate
" national progress in the management of our national

Traditional procedures of law may not be
adequate to deal with the kinds of problems that
are characteristic of weather modification . Tradi

resources through a structured attack on certain defined

of proof of damages, which it is inevitably difficult
for him to provide. And traditional adherence to
precedent provides little guidance in a field that

‫ ܕ‬2
‫ܝ‬

objectives of weather modification .” 2 This program
identifies seven projects in this field which have the
potential for satisfying national needs in the short term
(“ National Projects " ).
Resp. App'x 225

tional requirements place on the plaintiff a burden

involves new techniques and has such broad social
ramifications as weather modification ,

IV. DISASTER MITIGATION - C . WEATHER MODIFICATION

149

Climatic Considerations. As weather modification
technology expands, it will be possible to move from

required action would have to be taken over geographic

cloudseeding to other activities capable of changing
the climate in drastic ways and over extensive areas.

A new body of international, as well as national, law will

areas far from the location where the results are desired.
be needed .

Regulating the rates of evaporation of large bodies of
Decision Criteria for Operational Programs. The

water and the rate of melting of snowpacks and glaciers
are but a few of the intentional weather modification

overriding criterion for the conduct of weather modifica

projects that might eventually become feasible. As more

tion operations should be to attempt to satisfy the

weather modification operations are conducted , the
Nation will become increasingly aware of and sensitive

values and preferences of society . This process is

to the climatic impact of such operations. This impact

ing interests within the United States and by concern

needs to be assessed with full consideration of the public
interest and of international ramifications before specific

over the rights of the States in this field .

operations are undertaken .

Economic Aspects. The determination of the cost
effectiveness of those weather modification operations

which impact on a limited geographic area will be
relatively easy to make . NOAA estimates, for example,
that the additional 100,000 acre feet of rainfall pro
duced over Florida in April and May 1971 was worth 68
times the cost of the weather modification operation

($ 165,000).

difficult enough but is further complicated by conflict

Other significant criteria are : reasonable preciseness
of expected results, competence and responsibility of
those who implement the decisions, and legal remedies
for any injured party . "

With respect to the disciplines necessary to the
decision -making process, a paper presented before the
American Sociological Association reports on studies

indicating “ that persons residing in and near weather
modification target areas” regard decision making princi
13
pally by scientists as " the least satisfactory approach.

Even if the effects are geographically

The paper urges that social scientists, too, be brought

widespread , but clearly identifiable, such as the lowering
of wind velocity of severe storms, the economic implica
tions can be ascertained and decisions made accordingly.
In both situations, the common good can be determined
with relative ease.

into the action in a significant way.
The public policy issues outlined here have much in

As technology improves and larger programs of
weather modification can be undertaken , however, the
cost benefit of weather modification operations becomes
very complex to ascertain .
The costs of increasing precipitation in order to
increase agricultural production, for example,

should be compared with the costs of alternate

common with similar issues arising out of such problems
as management of the use of the electromagnetic
spectrum , nuclear power generation, and the use and
control of pesticides. Problems like these, in which
technological and sociological aspects are intimately

combined, are becoming more numerous and urgent. In
these areas, wise policy clearly depends upon scientific
understanding and accurate technical information . Since

one cannot wait for scientific certainty , however, policy
decision will have to be reached on the basis of the best

methods of obtaining equivalent increases. Such
alternate methods would include crop diversifi
cation, selection of strains more resistant to
drought, and shifting production to other loca

possible and sometimes partial information.14 Coordina
tion and integration of interdepartmental activities in
this field are no longer adequate . Stronger management

tions, as well as developing other possible sources

as distinct from the coordinative approach, which has

of water by means of desalting, re-use, or new
dams. It is quite possible that the benefit-to -cost
ratio for this example would be very different for
the individual farmer, the region, the nation, and
the world ."

Management of Weather Modification

International Ramifications. The international ramifi
cations of weather modification are an extension of the

of weather modification efforts needs to be considered,
served the activities to date .

Present Status. As matters stand now in this field,
public policy issues are either not being addressed at all

or are being faced in an ad hoc, fragmented , and possibly
conflicting manner. Some States, for example , require

interstate problems confronting the United States. Cloud
systems, river waters, and pollutants cross local as well as
national boundaries. Concern for possible international
implications are reflected in the stringent operational
constraints imposed on hurricane seeding efforts (Project
Stormfury ).

licensing of operators even though such operators may

As the technology advances, it may become necessary

regime," says Taubenfeld ; " a more affirmatively created

to treat large storms early in their development . The

be under contract to a Federal agency . Thus, in a

time-dependent situation, they are in a position to
frustrate a Federal weather modification program.
“ ... Half the states, a few local governments, and a
dozen courts have already created an embryonic legal

regime,”

Resp. App'x 226

as he describes it, 15 would not in itself

DISASTER PREPAREDNESS : VOLUME ONE

150

• Information. This requirement is partially satisfied by
Section 2 of the new PL 92-205. The appropriate

guarantee that all the public issues in this field would be
faced and solved in a timely or orderly fashion, or in the
public interest. No legal regime in any field can
accomplish such an overly ambitious objective. Lack of

Federal agencies, however, could also be required to
report their weather modification activities and thus

such a regime, however, can cause scientific progress to

ensure a centralized repository for such data .

be impeded, public policy to be overlooked , conflicts of
jurisdiction to arise, and difficult issues - often those
requiring the most immediate consideration - to be

forming weather modification operations could be

ignored.

At the present, there is no Federal legislation that
regulates weather modification operations. The closest
approach to regulation is contained in Public Law
92-205 , signed on December 18 , 1971."

This new law

requires submission to the Secretary of Commerce of
reports of weather modification activities (not under
Federal auspices). It provides that the Secretary may
specify the form and information content of the reports

• Licensing. Individuals or organizations actually per
licensed and periodically relicensed in order to ensure
their professional qualification and competence to per
form . Licensees would constitute a capability-in -being
to allow for capitalizing on time-dependent opportuni
ties for modifications. They would not, however, have
any decision -making authority , except on matters of a
tactical nature - that is, technical details created by local
conditions after the decision to modify has been reached

and transmitted to them .
• Issuing of Permits. Licensed operators also could be

and may require submission both before and after modi

required to obtain a permit for the conduct of specific

fication attempts, under penalty of finesup to $ 10,000.

weather modification operations.

The Secretary , however, is not authorized to sanction or

deny such attempts. In short, it calls for information

• Decision Making. Orderly implementation of weather
modification activities, within the constraints estab

gathering and not regulation.

lished by the functions and missions assigned to Fed

The Need for a Federal Role . Opinion differs among
scientists and public -administration experts as to the

desirable .

eral agencies engaged in weather modification , seems

Federal role in " weather modification” l7 activity. There
are several grounds, however, on which a case for review
of the Federal role can be made:
• Interested Federal agencies agree in general on it.
• The interstate nature of weather modification opera
tions is undeniable for all but a very few cases. Weather
systemsrespect no jurisdictional lines. Snowpack manip
ulation and rainmaking affect rivers that cross bound

aries of many political entities. On the other hand,
operations such as cold fog dissipation and heating of air
over orchards to prevent freezes are local in nature.
• The international nature of certain weathermodifica

tion operations is evident even in the present state of
knowledge, such as in the seeding of hurricanes, and

• Liability . Legislation could provide for compensa
tion for loss of life or damage to property resulting
from modification operations. Licensees could be re

quired to carry insurance to defray a portion of any
claim .

In addition to the above major objectives, any
weather modification regulation might include: an ad
visory body composed of persons, both in and out of
Government service, eminent in the weathermodification
field , and a clearinghouse of weather modification
information . Legitimate rights of the States also need to
be safeguarded in those instances where interstate effects
do not come into play (e.g., cold fog dissipation ).

Implementation ofWeatherModification Management.

• The social, economic, and legal ramifications of

The only central governmental entity in this field is the
Interdepartmental Committee for Atmospheric Sciences,
and it is a coordinating, not a regulatory, body. Imple
menting the Federal role in weather modification op

weather modification operations are so substantial as to

erations could best be satisfied by placing the respons

dictate that public policy in this field be made with
the interests of the majority of the citizens in mind .

ibility for such management in a single organizational
body rather than in a committee. The following major

This requires a governmental role that can prevent

management and economic considerations support the
need for a single body :
• A substantial number of the operational decisions will
be timedependent. In such instances, a committee could
become a cumbersomemechanism . The reconciliation of

other Nations may become involved as basic underlying

causes of large weather systems are more precisely
identified and weathermodification is attempted .

weather modification to avert or alleviate natural dis
asters. It should also ensure that separate modification

activities in the same general locality are not conducted
at cross purposes.

conflicting departmental viewpoints might take longer
than the timeavailable for effective action .

Federal Support Objectives. It appears that the
Federal Government could take the lead in working
with State agencies and private operations in this
field.Major objectives include:

• Weather modification operations on any large scale
are expensive, and duplications should not be allowed to
occur. A single body can achieve this objective more
expeditiously and effectively than a committee.

Resp. App'x 227

IV . DISASTER MITIGATION - C . WEATHER MODIFICATION

• The expertise necessary to perform each of the

151

Findings

functions of information , gathering, licensing, and

issuing of permits is required to a substantial extent for
the performance of all of the functions. Economical
employment of resources would result from a single unit
having all such responsibilities.

1. Experiments in weather modification indicate
many potential uses, including the mitigation ofdisasters
caused by weather phenomena. There is a need for
further examination of the Federal role in weather mod

ification activities. These activities are expanding, with
Ideally, the management body should be located sepa
rately from any organization conducting weather modifi
cation efforts. This consideration would indicate a new

agency removed from the Federal agencies now
active in this field . In the interest of not proliferating

Federal agencies and of utilizing more efficiently avail
able resources, however, a location within the existing

some approaching an operational status, and they have
the capability to create adverse as well as beneficial
effects, with social, economic, legal, and international
implications.

exist, with the most desirable being the Department of

2. Moreover, the interstate and international aspects
of most such activities suggest a strong Federal role,
which should include the following:
• Licensing of operators to ensure technical qualifica

Commerce. It incorporates within one of its constitutent

tion and scientific competence ,

administrations, the National Oceanic and Atmospheric
Administration , a substantial scientific and technical

• Issuing of permits to licensed operators for the
performance of specific operations,
• Gathering of information on each operation ,
• Making operational decisions within the framework
of the missions of each Federal agency participating in
weather modification and of other provisions of the law,
• Establishing a policy on public liability.

Federal structure should be found. Several possibilities

capability in weather modification. NOAA operates one
of the broadest programs of all the Federal agencies in
this field (as indicated earlier) and has experience in
the international implications of weather modification
operations.
Disaster Prevention Considerations

The Director of the Office of Emergency Prepared
ness now has the authority to request Federal agencies
to undertake weather modification actions in accordance
with Section 221 of Public Law 91-606 and Executive
Order 11575 , when a State Governor requests assistance

to avoid or lessen the effects of an imminent major
disaster. The authority was used in the summer of 1971
on an experimental basis in Texas, Oklahoma, New

3. The Federal management of weather modification
operations should be exercised by a single existing
agency in order to ensure effectiveness and economy.
This agency would implement provisions related to li
cences, permits, information gathering, and decision
making.

The Department ofCommerce has extensive technical
knowledge and experience in the management and opera
tion of weather modification programs and therefore
could be assigned this function.

Mexico , and Arizona. (See Part III , Chapter K.)
4. There is a continuing need for coordination and
integration of the activities of the Federal agencies en
gaged in weather modification efforts.
Notes

The Atmospheric Sciences and Man's Needs - Priorities for
the Future, National Research Council, Committee on Atmos
pheric Sciences (Washington, D.C.: National Academy of
Sciences, 1971 ), pp. 50-51.

°A National Program , pp. 13-14.

“ The Atmospheric Sciences and Man's Needs, p . 53 .
" Gary Widman, Appendix E, " Sovereign Immunity for
Legal Actions Involving Hurricane Modification Activities, " and

2a National Program for Accelerating Progress in Weather

Appendix F, “ Potential Liability for Hurricane Modification

Modification, ICAS Report 15a (Washington: Federal Council
for Science and Technology, Interdepartmental Committee for

Activities," Decision Analysis of Hurricane Modification (Menlo
Park, Calif.: Stanford Research Institute, June 1971 ).

Atmospheric Sciences, 1971 ).

The Atmospheric Sciences and Man's Needs, p. 54.

3 TheAtmospheric Sciences and Man's Needs, pp. 48-49.

Ibid ., p. 54 .
10

4 “ Justification of Program Increases,” enclosure with “ Phase
III PL 91-606 Input,” Department of Commerce, National
Oceanic and Atmospheric Administration, memorandum to

depending on which of two irrigation methods - standard or
overhead -sprinkler–is assumed .
Resp. App'x 228

Chief, OEP PL 91-606 Disaster Study Group, September 24,
1971 .

' News Item 71-46 , NOAA News Office, Rockville, Md. ,
1971. The worth of the rainfall compared to the
weather modification cost to produce it was 32 or 68 times,
December

DISASTER PREPAREDNESS :

152

VOLUME ONE

11 The Atmospheric Sciences and Man's Needs, p. 53 .

University of Washington Press, 1968) ; National Science Founda

12 Ibid., p. 55, and H. J. Taubenfeld (ed.), Controlling the

tion , Human Dimensions of the Atmosphere (Washington, D.C.,

Weather: A Study of Law and Regulatory Processes (New York:
Dunellen Publishing Co., 1970), pp. 47-113 .

133. E. Haas, K. S. Boggs, and E. J. Bonner, “ Science,
Technology, and the Public: The Case of Planned Weather
Modification, " Paper presented at the annual meeting of the
American Sociological Association, Denver, August 30, 1971 , p. 3.

14Public policy implications related to weather modification
are discussed in the following publications: R. G. Fleagle (ed.),
Weather Modification : Science and Public Policy (Seattle:

1968); and Taubenfeld , op. cit.

15 Taubenfeld ,op. cit. , p. 18.
“ The original draft was prepared by ICAS and submitted to

16

Congress by the Department of Commerce ( H.R. 6893).

17Defined in the same manner as Public Law 92-205 defines
the term , namely “ any activity performed with the intention of
producing artificial changes, in the composition, behavior, or
dynamics of the atmosphere” (85 Stat. 735).

Resp. App'x 229

PART V.

APPLICATION OF SCIENCE AND TECHNOLOGY
In his message to Congress on April 22, 1970, the
President emphasized the need for applied science and

paredness, and as applicable to the different types of

technology in coping with natural disasters:

natural disasters.

Improvements in disaster assistance ... require an
improved program of research and evaluation, the

results of which are readily available to all who can
benefit from them .
Throughout this report, scientific and technological
applications have been discussed with reference to

specific measures of prevention, mitigation , and pre
This part of the report is a broad examination and

overall assessment of current actions and opportunities
for developing a more coherent, coordinated, and
comprehensive program of science and technology ap

plied to reducing losses resulting from natural disasters.
The subject is discussed from two related viewpoints in

the following chapters : research and evaluation.

153

Resp. App'x 230

Resp. App'x 231

Chapter A.
Research applicable, directly and indirectly, to dis
aster prevention, mitigation, and preparedness encom
passes a very large number and wide diversity of
scientific disciplines as well as many fields of engi

Research
may agree on specific deficiencies. However, there is a
substantial consensus to the effect that' there is inade
quate application of research results.

complete inventories suggest that the total effort is

While considerably more research is needed on
practically all fronts, even the current body of
knowledge available about disasters is not being
used in the most efficient way . There is a serious
gap between what is known and what is being ap

enormous. For example, the Smithsonian Science Infor

plied . There could be considerable improvement in

mation Exchange (SSIE) registry identifies over 2,400

disaster prevention and protection and disaster re
sponse and recovery if the current scientific

neering and administration .
At present, there is no complete inventory of all the

disaster-related research now in progress, although in

different U.S. and foreign organizations that sponsor or
conduct research . These include, within the United

States alone: 86 Federal agencies; all of the States, the
District of Columbia, and Puerto Rico ; 129 county and
city governments ; 880 foundations and scientific associa

tions; 251 universities; and 331 industrial establish
ments . Many of these jurisdictions and institutions are
involved in some aspect of emergency research . A
preliminary survey conducted for the United Nations by
the Smithsonian Institution Center for Short-Lived
Phenomena shows that there are over 1,000 disaster
research and warning centers, in about 80 different
countries, devoted to natural disasters.

Within the

National Academy of Sciences - National Academy of
Engineering - National Research Council (NAS - NAE -

knowledge, physical and social, were effectively
communicated to disaster planners, emergency
officials and other personnel involved in coping
with disasters. S

It should be noted that an increase in communication

is not in itself sufficient. Those responsible need to act
on the basis of the research conclusions, for example, by

improving building codes in earthquake -prone areas .
... it is becoming increasingly evident that despite
our improved knowledge and our ability to at least
locate areas of potential damage and even to

estimate in some instances the magnitude of

NRC ), there are about 40 committees and boards
concerned with some type of disaster-related research .”

prospective damages, we continue to be unable to

The National Science Foundation (NSF ) is currently

makers at the appropriate time and in the appro
priate way.... Major emphasis at this time should
be given to improving the means of communicat
ing the available knowledge to private citizens and
to public officers and to attempts at understanding

funding numerous disaster -related projects in such areas
as :

• Earthquake engineering,
• Fire research ,

make this knowledge available to the decision

the reasons, psychological and otherwise, that

• Weather modification ,

society either rejects such information or uses it in

• Hail suppression research ,
• Techniques for counting ice nuclei in the atmosphere,

diverse and sometimes apparently inexplicable
ways.

• Effects of urban centers upon local and regional
The task of applying what is already known is

weather,

• Social, economic , legal, and ecological impacts of

complicated by the conglomerate nature of disaster

weather modification.

related research . Generically , the term touches on
practically every field of science and technology . The
distinguishing feature, however, is one of orientation or

The foregoing illustrates the problem of assessing the
investment, and
beneficial returns from the invest
ment, in disaster-related research . The very large number
and diversity of these research activities lead many

application, although the term “ disaster” is often sub
sumed or only implied (e.g. , hazard reduction or
abatement, weather modification , hurricane suppression,

experts to different conclusions concerning the ade

fire prevention , flood control, safety measures or stand

quacy of the overall national investment, although they

ards, building codes, zoning, storm warnings, etc.). This
155

Resp. App'x 232

DISASTER PREPAREDNESS :

156

complication is now recognized, and it has been sug
gested that a new approach - an interdisciplinary ap
proach --be made in the field of disaster research .?

VOLUME ONE

made by the Joint Committee on Seismic Safety of the

Board of the National Academy of Sciences endorsed

California Legislature. The Committee is supported by
five interdisciplinary advisory groups:
• Engineering Considerations and Earthquake Sciences,
• Governmental Organization and Performance ,
• Disaster Preparedness,
• Land Use Planning,
• Post Earthquake Recovery and Redevelopment.

the general view that disaster research should be sup
ported “ on a broad front” and with a systems approach

further illustrated by the recent " Earthquake Risk

to disaster preparedness. To this end the Board put forth

Conference" held by this Committee and the advisory

this resolution :

groups at Carmel, California. The objective of the
conference was : “ To examine intensively the concept of
‘ risk ' and approaches to its evaluation with the purpose
of defining 'acceptable earthquake risk'
as a basis for
999
public policy for the State of California ."
It is interesting to note that the conference took
account of measures being applied to reduce risks to
other hazards, such as aircraft accidents and floods.

Interdisciplinary Approach to Disaster Research
Participating in this study, the Geophysics Research

In view of the continuing devastation and loss
of human life resulting from natural disasters,
many of which are the result of violent geo

physical phenomena, the GRB stresses the poten
tial for mitigation of such disasters through im

proved understanding of these phenomena. New
knowledge gained through research can lead to
methods of prediction , avoidance, and perhaps

The interdisciplinary approach in this instance is

eventually, control and the GRB urges that such
research be supported on a broad front as a

Indeed, the broadest interdisciplinary approach provides
the opportunity of transferring lessons learned in coping
with one type of disaster to the solution of problems in

national effort of high priority .

dealing with others.

In addition to the basic geophysical research
called for, the GRB strongly endorses the concept
of a systems analysis approach to disaster pre
paredness for the protection of our increasingly
complex and vulnerable technological society. In
particular, the program of the Disaster Study

Group of the Office of Emergency Preparedness is
viewed very favorably by the GRB as an excellent
start toward this goal and the support of this and
related studies is urged.
An interdisciplinary approach to disaster research
brings to bear all of the individual disciplines that can
contribute to the solution of a problem or achievement

of a goal. It is goal-oriented research . For example, the
problem of earthquake prediction has not been solved
by separate, circumscribed disciplines; but a joint ap
proach by geologists, seismologists, hydrologists, and
possibly some borrowed techniques from the meteorolo
gists, computer sciences, and space technology , may

provide, through synthesis, a breakthrough in solving
this problem. However, at this time scientists do not
foresee an early solution (see Part III , Chapter F) .
Another example of the need for an interdisciplinary

Another example of the interdisciplinary conference
approach to the application of disaster research was the
" International Meeting on Earthquakes” held in San
Francisco May 20-25 , 1971 , under auspices of the
NATO Committee on the Challenges of Modern Society
(CCMS). About 170 seismologists, scientists, engineers,

urban planners, disaster experts, and public officials,
representing 17 countries, participated. In addition to
plenary sessions, the conference included analyses and
recommendations of four working groups covering: ( 1 )
Earthquake Disaster Prevention and Hazard Reduction,

(2) Emergency Organization and Operations, (3) Re
habilitation and Recovery , and (4 ) Role of Govern
ments, Universities, Industry, and Volunteer Organiza
tions . 10

Coordination of Disaster -Related Research

In the United States today, there is no one disaster
research center. There are many governmental and

private research centers specializing in some aspect of

approach can be drawn from the field of land -use and

disaster-related research . For example, the National
Oceanic and Atmospheric Administration (NOAA ) has

construction regulation . The national program dis
cussed in Part IV, Chapter A, should be complemented

various disaster-related research centers : a Hurricane
Research Center at Miami; a Severe Storm Laboratory at

by a program of engineering research and development

Norman, Oklahoma; an Earthquake Mechanism Labora
tory at San Francisco ; an Environmental Research
Laboratory at Boulder, Colorado ; a Tsunami Center in
Hawaii; and an Earthquake Information Center at
Rockville, Maryland. The U.S. Geological Survey has an
Earthquake Research Center at Menlo Park , California.

directed at the analysis, design, construction, and
maintenance of disaster-resistant structures, utility
lines, and transportation facilities.
An extension of the interdisciplinary approach to
disaster research is now being applied in formulating
public policy for improved disaster protection and
preparedness. This is illustrated by the approach being

Both the Forest Service and the National Bureau of

Standards are involved in fire research , and 11 Federal

Resp. App'x 233

V. APPLICATION OF SCIENCE AND TECHNOLOGY - A . RESEARCH

157

agencies are concerned with research and experimenta

in submarginal projects, while crucial problems

tion in weather modification .

requiring large programs remain unsolved.

A means for coordinating the various Federal dis
aster-related research activities exists in the com
mittees of the Federal Council for Science and Tech

nology . The FCST was established by Executive Order
10807 (March 13, 1959). Its charter includes these
functions:

• Provide more effective planning and administration of
Federal scientific and technological programs,

A suitable administrative solution ... would be
to assign lead responsibility for research in weather
modification and for coordination of major field
programs to a single agency and to encourage
other agencies to continue to support programs
12
within their specific areas of responsibility.

Notwithstanding these reservations, ICAS has made

• Identify research needs, including areas requiring
additional emphasis ,
• Achieve more effective utilization of the scientific

and technological resources and facilities and prevent
unnecessary duplication,

• Further international cooperation in science and
technology.
The President's Science Advisor (who is also Director

of the Office of Science and Technology) serves as
Chairman of the Council. Eleven Federal agencies have
membership and nine have observers with the Council. 11
The Council exercises its coordinating role through
these committees: Atmospheric Sciences, Federal Lab
oratories, Government Patent Policy, International,
Scientific and Technical Information , Water Resources
Research , Intergovernmental Science Relations, En
vironmental Quality R & D , Excavation Technology , Auto

significant progress toward a coordinated national pro
gram in weather modification by designating specific
Federal agencies responsible for subprograms or " na
tional projects " :
There is little doubt that our understanding of
certain types of weather modification has reached

the point where practicable application can be
come a reality in the very near future, provided
that systematic progress is made, where possible,
from research to operational status through a
concerted national effort. An interdisciplinary

multiagency approach will ensure that not only are
the techniques perfected, but that all con
sequences, beneficial and detrimental, local, na
tional and international, are fully assessed.
The suggested mechanism for accomplishing

this is the establishment of National Projects. 13

mation Opportunities in the Service Areas, Energy R & D

In contrast with the diversification of disaster-related

Goals, International Transfer of Technology , Marine
Science and Engineering, RANN Coordination , Eco
logical Research, and Environmental Health Research

research that prevails in the United States, some other

and Development.

countries have consolidated disaster research in one

governmental agency . For example, in 1963 Japan
established a National Research Center for Disaster

As discussed in Part IV, Chapter C , the weather

Prevention as a part of the Science and Technology

modification programs, involving 11 Federal agencies,

Agency under the Prime Minister's office. The Center
applies science and technology to disaster prevention,
mitigation of the effects of disasters, and postdisaster

are coordinated by the Interdepartmental Committee for
Atmospheric Sciences (ICAS). This Committee has
examined the various agency responsibilities and in
terests in weather modification activities with the

objective of achieving a large measure of agreement
on Federal regulation of such activities.

The NAS -NRC Committee on Atmospheric Sciences
has expressed reservations about the use of a committee
to coordinate atmospheric science programs:
But in order that the 11 separate agency pro

restoration .

The President's reorganization proposals would bring
some consolidation to disaster-related research of the
Federal agencies. For example, the earthquake research
activities of the National Oceanic and Atmospheric
Administration (Department of Commerce ) and the U.S.

Geological Survey (Department of the Interior) would
be consolidated in a new Department of Natural

grams constitute an effective national program ,

Resources.

coordination is essential. ...
... FCST and ICAS have not been able to

Pending action on Federal reorganization proposals,
certain initiatives have been taken this year to enhance

develop an integrated national program in weather

coordination of disaster-related research within the
existing structure :

modification. Individual agency programs have
been subcritical in size and research capability.

ICAS has no authority to consolidate or to modify
agency programs; and, most important, ICAS is
not able itself to mount research efforts, no matter
how badly needed they may be. ... The result has
been that in important respects the national effort
in weather modification has been largely dissipated

• The Office of Science and Technology , with NOAA
serving as a lead agency under OST guidance, and in
coordination with this study report , has formulated
an interagency program on " Protection from Natural
Disasters.”

The program is a result of the recent

review of the administration of current technological
problem areas.

Resp. App'x 234

DISASTER PREPAREDNESS : VOLUME ONE

158

• An agreement is being sought with the NAS Advisory
Committee on Emergency Planning for an assessment
by it of the current status of disaster-related research

and to advise the Office of Emergency Preparedness on
potential areas for improvement and priorities for future
action . 14

• The National Science Foundation has agreed in
principle to consider disaster research needs identified

by OEP in formulating NSF activities under its pro
gram “ Research Applied to National Needs." 15

point of a Center for Research on Natural Disasters. This
center will research both the physical and social aspects
of all types of natural disasters.
• The University of Colorado has begun a study to de
termine how “ the research capacities of the scientific
disciplines in the U.S. ( can be applied best to the

systematic reduction of losses to national productivity ,
human suffering and social disruption resulting from
natural disasters." 18

OEP has been named an observer with the ICAS.

• As directed by the President in his April 22, 1970

Application of Disaster -Related Research

message, OEP is in the process of establishing a
Federal Government.

Although the San Fernando earthquake of February
1971 was moderate in intensity and the loss of life small

Disaster Research Clearinghouse

in comparison with the exposed population, scientists
and governmental officials were impressed with the fact

clearinghouse for all disaster- related research of the

Guidelines have been prepared for developing a dis
aster research clearinghouse, to be established by
OEP in 1972.16

Initially, the clearinghouse will be limited to natural
disaster-related research conducted or sponsored by the
Federal Government. It will have the potential for
expansion to include other hazards and other institu

tional research . Wherever possible, it will make use of
other information centers, such as the National Referral

Service of the Library of Congress, the Smithsonian Sci
ence Information Exchange, the Defense Documentation

that the limited loss involved a significant element of
good fortune. Professor Clarence Allen stressed the point
at the Senate Hearings in California following the
earthquake:
I don't think many people realize in many ways
we were exceedingly lucky in the San Fernando
earthquake. It was not really a major shock . It
occurred on the edge of, rather than squarely
within , a major metropolitan area . It occurred in
an area that could draw upon abundant emergency
services. It occurred in an area with a relatively
low density of older buildings. And it occurred at

Center , and the Department of Commerce National Tech

a time of day when the loss of life was minimized .

nical Information Service.

We cannot count on being that lucky again 19
.

The clearinghouse will establish an inventory of
disaster-related research by Federal agencies, by research
centers, and by type of disaster. These data will be

helpful in determining gaps and duplication and in
formulating future research needs .

In this connection, the clearinghouse will work
closely with the National Science Foundation , the

National Academy of Sciences, the Smithsonian Institu
tion, and the Federal Council for Science and Tech

nology .
Disaster Research at Academic Institutions

In a preliminary report to the President following this
earthquake, the NAS -NAE Joint Panel on the San Fer
nando Earthquake recommended that:
The opportunity should be seized to make a

careful evaluation of the performance of emer
gency services following the San Fernando Earth
quake and to determine the kinds and extent of
back - up required to prepare for a much larger
event. Such a study, preferably involving federal,
State , and other organizations, would provide

guidelines for other earthquake - prone regions of
high population density as well.20

For many years, academic institutions have engaged

OEP and other Federal, as well as State, agencies did

in disaster-related research of various kinds. The disaster

conduct immediate evaluations of the San Fernando

research center at Ohio State University has engaged in

disaster, and the lessons learned are being applied - such

field research concerning behavioral and sociological

as the OEP program to improve the nationwide emer
gency medical services in all types of disasters. With
regard to the potential danger of major earthquakes, the

factors in various disaster situations. Other universities

have conducted specialized research in one or more
scientific and engineering fields, such as earthquake

OEP Director has initiated a combined research and

planning effort. NOAA has been commissioned to make

engineering.
During 1971 , two initiatives were taken by academic

a damage assessment study of a range of earthquakes in

institutions with support from NSF to develop a broad

the San Francisco area . At the same time, OEP has

based , interdisciplinary disaster research capability :
• The California Institute of Technology has estab

of a major earthquake in California and other high - risk

lished a Disaster Research Information Center as a focal

locations.

issued an outline plan for Federal response in the event

Resp. App'x 235

V. APPLICATION OF SCIENCE AND TECHNOLOGY - A . RESEARCH

159

The output of the damage assessment study will

in California, should enhance greater mutual under

provide the input for detailed preparedness planning by

standing and problem -solving in coping with disasters.
• Completion, refinement, and expanded application of
the combined damage analysis-emergency planning en
deavor instituted by OEP with respect to major earth

the Federal agencies in cooperation with State and local
governments. This process of applied research and
planning for major earthquakes may be extended to
other types of disasters in which large populations are

vulnerable to catastrophic loss of life and property.
The need for such improvements in the application of

quakes could serve as a model for applying disaster
research to public policy and programs for protecting
the lives and property of the people from natural

disaster research is cogently expressed by the National

disasters.

League of Cities and the U.S. Conference of Mayors:
There appears to be no real disaster preparation or

2. An interdisciplinary approach to disaster research
is recognized as essential in developing coherent and
comprehensive disaster prevention, mitigation, and pre

prevention programs in which local governments
may participate. Too many of the available programs are post- disaster oriented . Included in such

programs or assistance should be the development
of information and/ or information systems which

paredness programs. Among the academic institutions,
the California Institute of Technology and the Uni

would provide communities with a continuing

versity of Colorado have taken the first initiatives. Also ,
the National Academy of Sciences, the National Science
Foundation, and OEP are now actively fostering inter

knowledge of their vulnerability to both natural

disciplinary disaster research .

and man -caused disasters. 21

3. There is no one place or organization in the United

There are Federal programs of assistance in develop-

States that is designated and chartered to bring together

ing local disaster preparedness, such as those of the
Corps of Engineers concerning floods and NOAA con-

the many specialized research results for an inter
disciplinary approach to improving disaster prevention,
mitigation and preparedness. The proposed Department
of Natural Resources is an attempt to alleviate some of
these problems of coordination .
Knowledge applicable to disasters is variegated and

cerning hurricanes and tornadoes, as described in this

report. However, there is an apparent need for improvement in communication and information about the

assistance now available , as well as for the development
of additional programs, such as the OEP earthquake
preparedness planning now in progress.

is, more often than not, also applicable to other interests
and objectives of society. For example, research on
insurance, communications, seismology, and weather

Findings

1. The most immediate need in the field of disaster
research is to obtain more effective application of what

forecasting may contribute to man's knowledge about
disasters. This situation is pertinent to any consideration
of giving disaster research some central focus. Further

is already known. This requires a better exchange of study is required before attempting any conclusions.
information and greater mutual understanding among
the sciences, public officials, and the public itself.
Improved application of research to disaster prevention ,
mitigation, and preparedness should result from further
development of initiatives taken this past year or pro
posed in the President's FY 1973 budget. These are the
prospects:

• Implementation of a Federal Disaster Research Clearinghouse by the Office of Emergency Preparedness
should enhance the exchange of information between
research activities and public officials.
• Assessment of current disaster research activities by

the Advisory Committee on Emergency Planning,
National Academy of Sciences, should provide a basis
for future improvements .

• Incorporation of disaster research requirements in the
program of “ Research Applied to National Needs " by

This study should address the desirability and practica
bility of establishing a National Center for Disaster
Research, which could have the following among its

responsibilities:
• Serve as a more encompassing disaster resea.
clearinghouse, to include private as well as governmenta.
research activities;
• Provide an interconnection between the many special
ized disaster research laboratories and centers through
out the Nation;

• Sponsor and conduct interdisciplinary disaster res
earch ;

• Coordinate on - the-scene scientific research and
evaluations following major disasters;

• Formulate recommendations for improved measures
of disaster prevention , mitigation, and preparedness;
• Provide a center for professional development of

the National Science Foundation should encourage and

disaster program officials and visiting scholars;

achieve improvement in disaster research applications to

• Publish a professional journal;
• Assist in fostering U.S. interests in international

existing problems.
• Establishment of a program of symposia and confer-

ences with interdisciplinary participation, such as the
State and the International Earthquake Conferences held

activities related to disaster research ;
• Undertake special studies directed by the President
and the Congress .

Resp. App'x 236

160

DISASTER PREPAREDNESS: VOLUME ONE
Notes
Agencies Supporting Research Registered at the Science

Development; the Interior; State; and Transportation; the

Information Exchange, Smithsonian Science Information Ex
change (Washington, D .C ., April 1971).
2Natural Disaster Research Centers and Warning Systems: A
Preliminary Survey, Smithsonian Institution Center for Short
Lived Phenomena (Cambridge,Mass., July 1971).

Atomic Energy Commission ; the National Aeronautics and Space
Administration , and the National Science Foundation . Observers

National Research Council -National Academyof Sciences National Academy of Engineering report to the OEP PL 91-606

DisasterStudyGroup, July 1971.
4W . D . McElroy, Director, National Science Foundation ,
letter with enclosures to the OEP PL 91-606 Disaster Study

Group , July 16 , 1971 (updated).

S « Work Group IV Report on the Role of Governments,
Universities, Industry and Volunteer Organizations,” Inter
national Meeting on Earthquakes Conference Report, NATO

Committee on the Challenges ofModern Society , San Francisco,
May 1971, p . 7 .

°A . F . Spilhaus, Jr., Executive Director, American Geo
91-606 Disaster StudyGroup, OEP, June 23, 1971, p. 4.
physical Union , letter to Robert E . Schnabel, Chief of the PL

?Dr. Harold Brown, President, California Institute of Tech

are: the Arms Control and Disarmament Agency ; the Council of
Economic Advisers; the Council on Environmental Quality ; the
Department of Justice ; the Environmental Protection Agency ;

the Office of Management and Budget; the Office of Economic
Opportunity; the Smithsonian Institution ; and the Veterans

Administration.
12Committee on Atmospheric Sciences, National Research
Council - National Academy of Sciences, The Atmospheric Sci

ences and Man 's Needs - Priorities for the Future (Washington,
D .C., 1971),pp. 50-51.
1 Federal Council for Science and Technology , Inter

dapartmental Committee for Atmospheric Sciences, A National
Program for Accelerating Progress in Weather Modification,
ICAS Report 15a (Washington , D .C .: June 1971), p. 20 .
14 The Advisory Committee on Emergency Planning of the
National Academy of Sciences was established in 1965. It has
provided OEP with advice on war preparedness measures, such as
resource management, industrial mobilization , and postattack
recovery . The OEP Disaster Center, established and operating,

nology , letter to the Director, Office of Emergency Prepared
ness, with enclosed faculty proposal by Drs. George Housner and

was in large measure based on the recommendation of this

Donald Hudson ,February 16 , 1971.
Minutes of the Meeting on May 24 , 1971 of theGeophysics
Research Board of the National Academy of Sciences (Washing

Applied to National Needs, FY 1970-72.”

Committee.

15 See National Science Foundation brochure “ Research

16Charles E. Fritz, SomeGuidelines for Developing an Office

ton , D . C ., October 22 , 1971), pp . 7 -8 .
Robert E . Schnabel, “ Earthquake Risk Conference,” Mem orandum to the Assistant Director for Disaster Programs, Office
of Emergency Preparedness, September 26 , 1971. Presentations

of Emergency Preparedness Clearinghouse on Emergency Re

covered all aspects of the subject: Government's Response to
Risk ; Legal Provisions Relating to Seismic Safety ; Congressional
Directions in Risk Reductions; Risk Taking and Disaster Insur
ance ; Availability and Desirability of Earthquake Insurance;
Factors in Human Response to Earthquake Risk ; Response to

Emergency Preparedness, September 9, 1971.

Emotional Problems in Earthquakes; Social Benefits Versus
Earthquake Risks; Geologic Hazards: Problems for Joint Solu tion ; Adjusting to Earthquakes: Costs and Benefits; Seismic Risk
Evaluation of Nuclear Power Plants; Systematic Approach to

Uncertainty and Risk ; Civil Structures and Earthquake Safety;
Earthquake Risks and Resulting Liability; Earthquake Safety
and the Concept of Balanced Risk ; Practical Safety Goals in Air
Transportation; and Flood Control Program . (Publication of the

lated Research , Institute for Defense Analyses Paper P-824
(Washington , D . C ., November 1971).

1?Dr. Harold Brown, letter to the Director, Office of
10 Proposal to the National Science Foundation by Drs. J.
Eugene Haas and Gilbert White, University of Colorado , July
1971.

19U .S. Senate, Governmental Response to the California
Earthquake Disaster of February 1971, Hearings before the
Committee on Public Works, San Fernando , Calif., 92d Cong.,
1st Sess., 1971, p . 562.
2°The Joint Panel on the San Fernando Earthquake, The San

Fernando Earthquake of February 9, 1971: Lessons from a
Moderate Earthquake on the Fringe of a Densely populated
Region. National Academy of Sciences - National Academy of

Conference Proceedings is pending.)

Engineering (Washington , D .C ., March 22, 1971), p. 10 .

1°Conference Report, International Meeting on Earthquakes,
San Francisco, California, May 20-25, 1971, Office of Emer

Andrew B . Horgan , Director, Information and Federal Aids
Services, National League of Cities - U .S . Conference ofMayors,
letter with enclosures to the OEP PL 91-606 Disaster Study

gency Preparedness (Washington, D .C., 1971).

Members are : the Departments of Agriculture; Commerce;

Group, June 15, 1971, p. 2.

Defense ; Health, Education, and Welfare; Housing and Urban

Resp. App'x 237

Chapter B. Evaluation
Disaster evaluation is the connecting link between

new knowledge, acquired through experience and re-

A similar conclusion was reached at the International

Meeting on Earthquakes at San Francisco in 1971:

search , and improved disaster preparedness. Too often

Perhaps the most serious weakness in disaster

evaluation is a missing link . This accounts for failures
and delays in applying lessons learned by hard ex
perience and in determining operational needs that

research has been the consistent failure to take
advantage of the immediate study that would be
possible during or immediately after a large-scale
disaster. . . . The lack of support for such immedi

require research .

There are several ways to accomplish disaster evalua
tions, and any effective evaluation system is a combina
ofmost, if not all, of them .

On -the-Scene Evaluation

ate studies during the emergency period is the
basic reason , because skilled personnelhave always

been available for this purpose .?
In the course of this study, it was found that the lack
of programmed and contingency funding for immediate
on -the-scene evaluation of disasters has been generally

An indispensable means of achieving better under
standing and improvements is by on -the-scene disaster

the case in the past. This situation was confirmed
recently by the Director of the Environmental Research
Laboratories:

evaluation . Although individuals caught up in a disaster
learn much by their experience , what they learn may not
be recorded and later may not be accurately recalled .
Also ,what one individual may learn is usually based on a
limited view of what happened. Finally , the individual
may not fully comprehend the real causes and the actual
effects of his experience. All of this is to say: on -the
scene disaster evaluation requires special knowledge and
techniques, and objective and timely analyses.

lengthy, and still incomplete- evaluation of the Alaska

Objective and timely analyses of a disaster depend

earthquake, and perhaps in reaction to it, there was a
spontaneous response following the San Fernando earth

upon the ready availability of professional evaluators.
Sometimes, the experts are ready and willing, but the
funds for field evaluation are not available . This was the
case with respect to the 1964 Alaska earthquake:

The greatest obstacle that the Committee en
countered in trying to fill gaps in the collection of

The degree to which we (ERL) have reacted in the
past (to major disasters ] has been limited because
we were not sure we could recover the costs spent

during the emergency . Wehave made requests for

supplemental budget appropriations which did not

materialize.
In contrast with the deliberate - but slow -starting,

quake. Numerous Federal, State , and local agencies,

private institutions, and professional associations con
verged at the scene of the disaster to conduct evalua
tions. Within 6 weeks there were several published
reports:

of a mechanism to secure quick funding for data

• The Joint Panel on the San Fernando Earthquake,
National Academy of Sciences-National Academy of
Engineering, submitted to the President on March 22,

collection efforts. .. . The records of the biological
effects of the earthquake and the human response

Earthquakeon the Fringeof a Densely populated Region .

to it are especially incomplete, not because quali

Among other things, the Panel reported that:

data about the Alaska earthquake was the absence

1971, a preliminary report on Lessons from a Moderate

fied persons who were willing to make the studies
were lacking, but simply because funds were not
obtainable .

monitored earthquake in United States history
because of the high level of scientific preparedness

Until such funding is assured, total collection and

in this area and the immediate response of
earthquake researchers.

The San Fernando Earthquake was the best

analysis of useful information from earthquakes

• The U .S .Geological Survey and the National Oceanic

and a coherent research program

and Atmospheric Administration issued a joint pre

designed to

reduce losses from earthquakes will not be possi

liminary report containing 54 separate evaluations by

ble .

both government scientists and professionalmembers of
Resp. App'x 238

161

DISASTER PREPAREDNESS : VOLUME ONE

162
the Earthquake Engineering Research Institute. They

organize and coordinate postdisaster evaluations when

observed :

an event of great interest and significance occurs, not to

A prompt response to the earthquake was criti,

deny but to enhance an orderly and systematic inquiry.

cal for both the public officials and the private
persons who had to cope with the destruction had
a great and immediate need for reliable informa
tion about the earthquake and its effects. In
addition , past experience had shown that (1)
monitoring of after-shocks and continuing distor

The many independent evaluations and resulting
reports of the San Fernando earthquake also point up

tions of the earth's surface must begin promptly

Postdisaster Critique

because these phenomena die out quickly , (2) the
field evidence from which the nature of earth
quakes and their damaging geologic effects must
be deduced is rapidly destroyed by even emer
gency repairs or heavy precipitation , and ( 3 )
hazardous geologic and engineering situations must
be quickly identified and brought to the attention
of public and private officials.

• The National Bureau of Standards published a pre

the need for and benefits of postdisaster critiques; that

is, critiques bringing together the many evaluations of
different aspects of the event.

In early every major disaster, something new is
learned , or could be learned . It is evident that lessons

learned in past disasters have led to improved prediction ,

warning, preparedness planning, and public response,
with a consequent reduction in the loss of life. Con
versely , the continued vulnerability and increasing loss

of property reflects work yet to be done concerning
prevention and mitigation.

liminary report in March 1971 of its engineering survey

An example of a prompt postdisaster critique result

and evaluation of damage to buildings and other
structures. This evaluation was conducted for the Office

ing in early and effective remedial action occurred
following Hurricane Camille. Within 3 days following the

of Emergency Preparedness ; the report provided immedi
ate photographic evidence and commentary on the

disaster, OEP convened an interagency task force to
examine all aspects of preparedness and response. One
product of this critique was the complete restructuring

damages sustained by various structures. A final,

detailed report was submitted in December 1971."

• OEP, with the cooperation of the Veterans Adminis
tration and the Department of Health , Education, and

of the field management of Federal disaster assistance.
The new structure was tested and refined in subsequent
disasters at Lubbock , Texas ( tornado ), San Fernando,

Welfare, conducted an immediate on -the-scene evalua

and Corpus Christi, Texas (Hurricane Celia ). The lessons
from Camille, of course , resulted in major improvements

tion of the emergency medical conditions following the

in disaster legislation .

San Fernando earthquake. The evaluation report has

resulted in a program initiated by OEP to improve
emergency medical preparedness throughout the Na
tion . (See Part III, Chapter F , for further details.)

Following the San Fernando earthquake, a number of
postdisaster critiques were conducted to record the
lessons and to recommend remedial actions.

• The “ Earthquake Risk Conference,” sponsored by

The foregoing represent only the early evaluation
reports following the earthquake; in the succeeding

the California Legislature's Joint Committee on Seismic

months numerous additional reports have been pub
lished . These evaluations have led to (1) an increase in
knowledge about the nature of earthquakes, (2 ) initia

disciplinary critique of the earthquake hazards in Cali
fornia , and in particular the lessons learned from the San

tives for improved disaster preparedness, and ( 3 ) identifi

Fernando event.
• The Report of the Los Angeles County Earthquake

cation of disaster research needs.

Safety (see preceding chapter), represents an inter

The early evaluations of the San Fernando earth
quake not only resulted in a wealth of material but
could have been responsible for the saving of many lives,
particularly in the case of the evacuation of some80 ,000
inhabitants below the Van Norman Dam . Scientific and
engineering evaluation of the dam led public officials to

Commission also reflects a comprehensive postdisaster
critique of the San Fernando earthquake in terms of
lessons learned and recommendations for public policy.'
These immediate appraisals contrast with the Alaska
earthquake investigation , now in its seventh year . This

order this evacuation as a precautionary measure.

science, does not provide the timely critique that can be
effective in bringing needed changes in public policy
concerning hazard reduction and improved preparedness.
It may be that the moderate San Fernando earthquake

The San Fernando experience also demonstrated the
need for organizing and coordinating postdisaster evalua
tions. Many survey and evaluation teams followed one
another over the same ground , so that public officials
and private citizens became annoyed by recurring
inquiries. It would appear that some focal point,
clearinghouse, or registration center is needed to

long-term

study, while important for purposes of

will generate more official action than the “ Great Alaska
Earthquake” because of what might have happened and
because timely evaluation , including critiques, provide
an impetus for governmental action .

Resp. App'x 239

V. APPLICATION OF SCIENCE AND TECHNOLOGY - B . EVALUATION

Predisaster Exercise and Critique

163

disaster emergency ; the availability of funds to actually
implement the required actions; and the status of plans,

The hard lessons are learned in actual disasters, and

organization , procedures, facilities, and training to

these lessons can best be exploited by postdisaster

execute emergency actions in natural disasters. As a
result of this evaluation, OEP contracted further with

evaluation . Other lessons may be learned more easily, at

the Council of State Governments to develop recommen
dations for the improvement of State legislation and
plans for disaster preparedness and emergency opera

least in terms of hardship, by predisaster exercises and
accompanying critiques. Not only is this method of
predisaster evaluation a way of measuring emergency
readiness, but it can be a useful tool in actually

tions. The Council's suggestions for State legislation are

developing the plans and procedures that constitute

contained in Part VII of this report.

disaster preparedness. This was actually the case with the
county hospitals when the earthquake occurred at San
Fernando , as described in Part III , Chapter F.

Findings

In some States, a day is designated annually to

exercise the State Disaster Plan . In Virginia, it is
December 7. In other States, it may coincide with the
approach of the tornado or hurricane season and serve as
a means of alerting the public as well as public officials.
The critique of an exercise is as important as the

1. In an overall disaster program , evaluation is the
link connecting research and experience with improved

preparedness. An effective evaluation program will in
clude a combination of predisaster and postdisaster
observations and assessments :

• Predisaster exercises and critiques provide for im

exercise itself, and it is too often omitted.

provement of plans and procedures and afford simulated

An effective critique of a disaster exercise requires
observers and evaluators who are not participants in the

training.
• On -the-scene evaluations are essential to a better

actual exercise. They must know what to look for,

record what they see , and present factual reports of their
observations. In turn , these observations must be inter
preted in meaningful terms for improved preparedness
and emergency performance. This form of evaluation
requires a professional staff, which, unfortunately, is not
always available at State level and, less often , locally.

understanding of the problems and to identifying and
recording lessons learned .

• Postdisaster critiques provide a basis for determining
remedial actions to be taken on the lessons learned,

including long-range reduction of vulnerability and
improvement in preparedness.

Preparedness and Performance Evaluation

2. Prompt, thorough , and coordinated on - the-scene

In addition to evaluating the preparedness for and

performance during an emergency , and the pertinent
facts after a particular disaster, there is a need for an

overall evaluation program - an across -the-board assess
ment. Such an assessment was conducted for OEP by the
Council of State Governments throughout the 50 States,
the District of Columbia, Puerto Rico, the Virgin
Islands, American Samoa, Guam , and the Trust Territory

evaluation of major disasters is essential. In some
instances it may be critically important in the immediate
disaster phase, such as the evaluation of the Van Norman
Dam and the decision to evacuate persons in jeopardy

following the San Fernando earthquake. General require
ments for such evaluations should be stated in advance,

and contingency funds should be established by re

sponsible agencies, thereby assuring quick response.
Coordination of on - the -scene evaluation can best be

of the Pacific Islands. Each State and the separate
jurisdictions were evaluated in terms of the legal

which now coordinates other aspects of Federal assist

authority to act promptly and effectively in a natural

ance in major disasters.

accomplished by the Office of Emergency Preparedness,

Notes

Committee on Alaska Earthquake, Toward Reduction of

4The Joint Panel on the San Fernando Earthquake, The San

Losses from Earthquakes: Conclusions from the Great Alaska

Fernando Earthquake of February 9, 1971 (Washington, D.C.:

Earthquake of 1964 (Washington , D.C.: National Academy of

National Academy of Sciences - National Academy of Engineer
ing, 1971 ), p. 19.

Sciences, Division of Earth Sciences, 1969), pp. 10-11.

2Work Group IV Report, International Meeting on Earth

SU.S. Geological Survey and National Oceanic and Atmos

quakes Conference Report, NATO Committee on the Challenges
ofModern Society, San Francisco, May 1971 , pp. 5-6 .

pheric Administration, The San Fernando, California, Earth
quake of February 9, 1971 , Preliminary Report (Geological

3Wilmot N. Hess, Director, Environmental Research Labora

Survey Professional Paper 733 ), U.S. Department of the Interior

tories, NOAA , U.S. Department of Commerce, Letter to the

and U.S. Department of Commerce (Washington, D.C.: U.S.

OEP PL 91-606 Disaster Study Group, August 3 , 1971 .

Government Printing Office, 1971 ). Among the contributors to

Resp. App'x 240

164

DISASTER PREPAREDNESS: VOLUME ONE

this report were : California Division of Mines and Geology ;
California Division of Oil and Gas; California Institute of
Technology; Lamont-Doherty Geological Observatory of
Columbia University ; H . J. Degenkolb and Associates, Engineers,

pp . 1, 3.

' Institute of Applied Technology , National Bureau of
Standards, The San Fernando, California, Earthquake of Febru
ary 9, 1971 (Washington , D .C .: U .S. Department of Commerce,
M

84 . H . Groeschel, Study of theMedical Aspects of the Los

H . S. Lew , E . V . Leyendecker, and R . D . Dikkers, Engi.
neering Aspects of the 1971 San Fernando Earthquake. U .S.

Department of Commerce, National Bureau of Standards, Build
ing Science Series 40 (Washington, D .C .: U .S. Government Print
ing Office , December 1971).

Angeles Earthquake, Staff Memorandum to the Director of OEP,
February 22, 1971 (unpublished ).
Report of the Los Angeles County Earthquake Commis
sion, San Fernando Earthquake, February 9, 1971 (Los Angeles,
Calif., November 1971).

Resp. App'x 241

PART VI.
HISTORICAL DATA
This part of the report consists of two chapters

individual citizen . Preparedness for disasters is the latest

reflecting ( 1 ) the evolution of Federal disaster legislation

major addition to Federal legislation, providing for the

and (2) selected statistics on major disasters and Federal

development of disaster plans and programs and for
advance emergency measures when disasters are immi
nent.
The chapter on selected statistics includes data on
major disaster declarations and fund allocations by the
Federal Government. These data cover numbers of
declarations, types of disasters , and States affected
during the past 10 years. During that time, almost three

assistance in the United States during the past 10 years.

It will be noted that for more than a century the
Federal Government responded with special disaster

relief measures after the occurrence of a particularmajor
disaster. The relief was supplemental to the State and
local communities and to contributions by private
volunteer organizations. The principal motivation was
humanitarian . In the 1950 's Federal disaster assistance
was established on a permanent basis, although limited
to restoring public facilities. More recently assistance

was expanded to provide substantial relief to the

quarters of a billion dollars were expended from the

President's disaster relief fund , and major disasters were
declared for all but five States. The more significant

disasters are also highlighted.

165
Resp. App'x 242

Resp. App'x 243

Chapter A . Disaster Legislation
This part of the study provides a brief legislative
review of natural disaster assistance in the United States,
with particular emphasis on the role of the Federal

include considerations of public health and safety. Later,
as part of this evolutionary process, local governments

attempted repair of disaster-damaged public facilities,

Government. This evolving role is exemplified in the
comprehensive Disaster Relief Act of 1970 , Public Law

roads, streets, bridges, and sewers. This assumption of

91-606 , as amended,' which commits the Federal

to insure continuation of their economic activity and

Government, on a permanent basis, to major responsi

social fabric . No real alternative existed . Local govern
ments, however, were generally unable to meet thèse

bilities in disaster preparedness planning and assistance .

A chronological summary of Federal disaster assistance
laws is included at the end of this chapter.

Early Disaster Operations
Private Relief Efforts. Prior to the 1950 enactment of
Public Law 875 by the 81st Congress, there was no

permanent program of Federal disaster assistance to
State and local governments in the United States. Private

additional responsibility was forced on the communities

demands fully when confronted with large-scale disaster

devastation . The narrow tax base of local government,
plus statutory limits on municipalbonded indebtedness ,
severely curtailed discretionary funds available for
emergency disaster relief. These constraints often forced
communities to make only minimal repairs to the most
important public facilities. Frequently, only partial
resumption of public services was possible. In many
cases, public facilities were left in a state of disrepair for
long periods of time.

agencies bore the primary responsibility for disaster
relief. The most effective private disaster relief organiza
tion was the American Red Cross. Governmental sanc.

and varied widely in the degree of disaster assistance

tion for the activities of this quasi-public institution was
set outin the Act of January 5 , 1905 . Operating within
the framework of this law , the Red Cross was usually
able to provide short-term assistance - food, clothing,
emergency housing - and limited financial support for
rehabilitation . In addition , it conducted or assisted
rescue operations, evacuation , and mass care . These

offered to subordinate political subdivisions. This re
mains true today. Some States provided financial aid to
disaster-stricken areas from special emergency funds or
from general contingency funds authorized by State
legislatures. In other cases, State legislatures authorized
aid in specific disasters. In still other States, laws
prohibited giving State aid to communities and indi

activities were aimed at the direct and immediate relief

viduals.

of the stricken population .
Private aid , with the exception of Red Cross assist.
ance, was largely nonexistent in most sections of the
country. Where other private relief organizations did

exist, they were usually inadequate in the face of
large-scale natural disasters. The narrow scope and focus
of the Red Cross mission, the limited presence of other
private assistance efforts, and the limited budgets of all
disaster aid organizations inhibited disaster recovery.
Local and State Governments. In this early period
(before PL 81-875 ), local government services, in daily
life as well as in time of disaster, were narrowly focused
and extremely limited . Primary emphasis centered on

law enforcement. In time of disaster this included

protection of people and prevention of looting. As

States also faced limitations on disaster relief funding

Agencies of State governments occasionally supplied
manpower and equipment for projects falling within the
purview of their usual areas of operation . Even with
optimum use of all available State and local resources,
however, disaster relief efforts were not adequate . The
FederalGovernmentmoved to correct this situation .

The Federal Government. The only alternative to the
limited assistance of private agencies and State and local
governments lay in an appeal to Washington for special
disaster aid . As early as 1803, the Federal Government
recognized its responsibility for disaster assistance in

cases where efforts of private agencies and State and
local governments were not adequate to cope with

disaster damage. Between 1803 and 1950 , over 100
separate special assistance acts were passed by Congress.

municipalities grew in size and complexity , all public

These laws, however, were enacted only after disasters

services were expanded . Local government disaster re
sponse was broadened beyond law enforcement to

had occurred . The after- the-fact nature of this ad hoc
legislation resulted in a time lag between catastrophe and

167
Resp. App'x 244

DISASTER PREPAREDNESS :

168

VOLUME ONE

Federal assistance, and hardship and suffering were

forerunner of the first Federal disaster assistance author

long endured before assistance could be made available.
Some Federal agencies were , however, given specific
authority to render assistance in particular kinds of

ity .

disasters, somewhat alleviating this situation . The Corps

of Engineers, for example, has had authority since 1941
to undertake emergency repair of flood control works

Federal Disaster Act ( PL 81-875 ) and
Amendments

certain public facilities, first in 1933 only after earth

On September 30, 1950 , the 81st Congress passed the
first comprehensive Federal Disaster Act (Public Law
81-875 ). This law gave the President broad and continu
ing disaster assistance powers in those cases in which he
declared the situation a “ major disaster.” PL 81-875 was
directed principally at aiding the recovery and repair of
public facilities of local governments.
Under the authority of PL 81-875, the President on

quakes, and later after other disasters .?

March 2, 1951 , issued Executive Order 10221,10 which

During the 1930's, a large amount of Federal disaster
aid was channeled through programs of such agencies as

delegated disaster relief administrative responsibility to

and to conduct rescue operations . Since 1934, the
Bureau of Public Roads has assisted with financing repair
and reconstruction of disaster-damaged highways and
bridges of the Federal-Aid Highway System . The Recon
struction Finance Corporation was given authority to

make disaster loans for repair and reconstruction of

the Federal Civil Works Administration , the Federal

Emergency Relief Administration, the Works Progress

the Housing and Home Finance Agency (HHFA ).
The 82nd Congress, by Public Law 107 (August 3 ,
1951) " amended PL 81-875 to provide for the easing of

Administration , the Public Works Administration , and

credit restrictions under the National Housing Act and

the Civilian Conservation Corps. These programs, while

to authorize the furnishing of emergency housing for

not primarily geared to disaster assistance, frequently

victims of disasters. The amendment was prompted by

gave effective disaster aid. Federal disaster assistance was
not formally coordinated, however, and there was no
continuous program of Federal disaster aid .
Prompted by the need for continuing Federal disaster
aid in the hurricane-plagued Gulf Coast and flood-prone
areas along the Mississippi and Missouri Rivers, Congress
in 1947 enacted the first general disaster relief act
Public Law 233, 80th Congress (approved July 27,

the Kansas-Missouri flood of 1951 .

On January 15 , 1953, the President revoked Execu
12

tive Order 10221 and issued Executive Order 10427 ,"
transferring PL 81-875 administration from HHFA to
the Federal Civil Defense Administrator.

Under Executive Order 10427, the Federal Civil
Defense Administration ( FCDA ) was empowered to :

1947). The War Assets Administratorwas authorized to

• Direct and coordinate disaster relief efforts of Federal
agencies,

transfer surplus Federal property to the Federal Works
Administrator, who in turn was to lend or transfer this

• Draft disaster assistance regulations for the President,
• Foster development of State and local organizations

property to State and local governments to alleviate

and plans,

disaster impact. The Federal Works Administration
could work through any Federal agency or any State or
local government, and Federal agencies were directed to
give this effort full cooperation. Congress made no
special appropriation to carry out this Act ; rather, FWA
was directed to use funds available under the Surplus

• Prepare annual and ad hoc reports on disaster relief
and related materials for the President's consideration
and possible submission to the Congress.
Executive Order 10427 emphasized the supplemental
nature of Federal assistance set out in PL 81-875 . The

Order stated specifically that Federal aid was not a

Property Act of 1944º for the transfer of surplus or

substitute for disaster assistance efforts of State and

other excess property .

local governments and private agencies. Federal financial
support for disaster assistance was made contingent
upon reasonable collateral State and local expenditures.
The 83rd Congress enacted Public Law 134 (July 17 ,

FWA thus assumed responsibility for administering
the Disaster Surplus Property Program . When a disaster

of sufficient severity occurred, FWA would recommend
that the President invoke PL 80-233 . Upon favorable
Presidential action, the War Assets Administration
(WAA ) was alerted to anticipate material requests from

1953), 13 further amending PL 81-875 to permit loan
and donation of Federal surplus property to State and
local governments for repair of disaster-damaged public

local governments. FWA and WAA processed these
requests and arranged for property delivery.

facilities and for individual rehabilitation . This law was
passed in the aftermath of a 1953 tornado in Worcester,

Surplus property was gradually depleted, and it
became evident that a program of Federal funds for

Massachusetts.

disaster relief to States and localities was urgently

amended Executive Order 10427 and produced further
alterations in Federal disaster relief administration. The
new order established qualification procedures for States

needed . The President began allocating money for
disaster assistance from his general contingency fund .
This informal grant program finally led to the establish

of a special emergency fund. This was the

Executive Order 10737 (October 29, 1957) " 4

applying for Federal disaster assistance. It also set forth
Federal administrative guidelines that would be followed

Resp. App'x 245

VI. HISTORICAL DATA - A . DISASTER LEGISLATION
in the granting of disaster assistance. The order spelled
out the kind and extent of Federal disaster relief offered

under PL 81-875 and set out procedures for release of
Federal disaster funds.

On July 1 , 1958, by Executive Order 10773,15 the
President delegated all functions previously administered
by FCDA to the new Office of Defense and Civilian
Mobilization - renamed by statute a month later as the
Office of Civil and Defense Mobilization (OCDM ). Three

years later, Executive Order 10952 (July 20, 1961) "?
transferred civil defense operational responsibility to the
Department of Defense but retained in OCDM overall
responsibility for directing and coordinating disaster

relief efforts of Federal agencies. OCDM was thereupon
renamed the Office of Emergency Planning (OEP ). 18

169

enacted a limited number of laws which provided
increased Federal aid in severalmajor disasters .
1964 Amendments to the Alaska Omnibus Act (PL
88-451).21 This Act was passed to assist Alaska in its
recovery from the March 27, 1964 , earthquake. It
liberalized the original Alaska Omnibus Acta? by:
• Increasing Federal contributions from 50 percent to
94 .9 percent for highway construction on the Federal

Aid System ,
• Authorizing the Secretary of Agriculture greater
discretion in releasing indebtedness of borrowers under
Farmers Home Administration programs,
• Providing additional assistance for public facilities
and urban renewal projects through HHFA loans,

With the approval of Public Law 87-50219 on June

• Permitting the Small Business Administration (SBA )

27, 1962, Guam , American Samoa, and the Trust
Territory of the Pacific Islands were included within the

to make 30 -year loans for dwelling repair and replace
ment.

definition of " State ” and made eligible for Federal
assistance under PL 81-875. This action made PL 81-875

applicable to all of the United States and its posses
sions. (Puerto Rico and the Virgin Islands were included
in the original law ; disaster relief is separately authorized
for the CanalZone by Title 2, Chapter 9, Section 235 of
the Canal Zone Code.)
PL 87-502 also authorized emergency repair and
temporary replacement of disaster-damaged facilities of
State governments. PL 81-875 originally provided only
for emergency repair or temporary replacement of

Pacific Northwest Relief Act of 1965 (PL 89-41).23
This Act was in response to extensive flood and
high -water damage and property loss during December
1964 and early 1965 in California, Idaho, Nevada,
Oregon , and Washington . The Act authorized $ 70
million for repair and reconstruction of disaster-damaged

highways not eligible under PL 81-875. The Act also
directed a flood prevention study of the Eel River.
Southeast Hurricane Disaster Relief Act of 1965 (PL

public facilities owned by local governments.

Public Law 89- 769 (November 6, 1966 )20 amended
PL 81-875 by including rural communities, unincorpo

89-339).24 Heavy damage from Hurricane Betsy to

rated towns, and villages as eligible entities on whose
behalf a State or local governmentmight make applica
tion for Federal disaster aid. PL 89-769 delegated

of Public Law 89-339. The measure authorized the sale

of federally provided mobile homes to the disaster

additional authority and responsibility to OEP, specifi
cally :

forgiveness provision in disaster legislation , authorizing
the Small Business Administration and the Farmers

• Authority to share (on a 50-50 basis ) costs of repair,
restoration , or reconstruction of certain State , county ,

Home Administration to cancel up to $ 1 ,800 on loans
over $ 500 granted for repair of damage caused by a

Florida, Louisiana, and Mississippi prompted the passage
victims then occupying them . It contained the first loan

municipal, or other local government agency projects in

disaster. The Secretary of Housing and Urban Develop

the process of construction where damage was the result

ment was directed to do a study of alternative disaster

of a major disaster (Section 9 );

assistance programs, including disaster insurance.

• Authority to plan and coordinate all Federal disaster
assistance (Section 12) ;

Disaster Relief Act of 1969 (PL 91-79 )

• Responsibility for disaster preparedness liaison with
State and local governments (Section 12);
• Responsibility for the conduct of a study on ways to
prevent or minimize loss of property , personal injury,
and death from forest and grass fires (Section 13). (The

OEP Investigation Study of Forest and Grass Fires was
submitted to Congress on May 5, 1967.)

Shortly after Hurricane Camille struck the Gulf Coast
in August 1969. Congress passed Public Law 91-79
(October 1, 1969).25 This Act permitted the Federal
Government, through the Director of OEP (the agency 's

name was changed later that month from the Office of
Emergency Planning to the Office of Emergency Pre
paredness26 ) to provide additional disaster assistance,

particularly to individuals affected by major disasters.

SpecialLegislation in the 1960's

Specifically, this law :

• Permitted loans by SBA and FHA with authority to
In addition to the general disaster assistance provided
for in PL 81-875 and amendments thereto, the Congress

cancel up to $ 1800 on loans over $ 500 received for
damage caused by a disaster,

Resp. App'x 246

DISASTER PREPAREDNESS : VOLUME ONE

170

• Permitted the President to distribute through the
Secretary of Agriculture coupon allotments and surplus
food commodities to low -income households,
• Authorized unemployment payments to individuals

unemployed as a result of a major disaster,
• Authorized OEP, acting for the President, to make

Age of any adult Federal loan applicant will not be

considered in determining his eligibility.
• SBA and FHA are authorized to make loans to
sources of major employment in a disaster area in such
amounts that will permit these sources to resume
operations and contribute to the restoration of the

grants to States and political subdivisions for the

economic viability of the area.

purpose of removing debris deposited on privately
owned lands or waters as a result of a major disaster,

• Legal assistance may be given to low -income indi
viduals to meet their needs as a consequence of a major

• Provided for financial assistance to States to develop

disaster, consistent with the goals of the programs of the

comprehensive plans and programs for assisting individu

Act.

als suffering losses as a result of major disasters.

• The President may make a grant to a local govern
Disaster Relief Act of 1970 ( PL 91-606 )
In order to modernize and consolidate legislation , the

91st Congress passed the Disaster Relief Act of 1970 ,

Public Law 91-606 , which was approved by the Presi
dent on December 31 , 1970. This Act repealed Public
Laws 81-875 , 89-769 (except Section 7, pertaining to
higher-education facilities assistance in disaster areas),

ment which has experienced a substantial loss of
property tax revenue as a result of a major disaster.
• Federal loans for repair, restoration , or replacement
of residences are contingent upon compliance with

applicable building codes and standards of safety,
decency, and sanitation .

This last-mentioned provision did not, however, cover

and 91-79, but retained and made permanent many of
their provisions. It also added substantially to the

privately owned, nonprofit institutions serving the
public - facilities equally at the mercy of a disaster but
often with inadequate resources to enable recovery . The

increasing trend of Federal assistance for individual
victims of disasters.

California earthquake in February 1971 , in particular,

Passage of PL 91-606 represents the most significant

facilities. Consequently, Congress added a new Section
255 to PL 91-606 to authorize similar grants for

landmark in the history of the Federal Disaster Assist
ance Program . It not only included almost all of the
previous provisions for Federal disaster assistance but

incorporated new features based on many years of
experience by the Federal Government in responding to
the human suffering and material losses caused by
natural disasters. The new provisions follow :
• For Federal funding to State and local governments
for disaster-damaged public facilities, the Act removed

the restriction to only emergency repairs or temporary

replacement and authorized up to 100 percent reim
bursement of the cost of their permanent repair,

damaged or destroyed several private medical care
tax -exempt nongovernment medical care facilities. The

amendatory legislation, Public Law 92-209, was passed
and approved in December 1971 , but its authority was
made retroactive to the beginning of the year.
In addition to these new features in Public Law

91-606 is the requirement - in Section 203 (h )-that the
OEP Director “ make, in cooperation with the heads of
other affected Federal and State agencies, a full and
complete investigation and study for the purpose of

determining what additional or improved plans, pro

restoration , or replacement.

cedures, and facilities are necessary to provide immedi
ate effective action to prevent or minimize” casualties
and property losses from disasters - the basis for this

• Federal grant-in -aid program administrative proce

report.

dures may be waived or modified during a declared
major disaster.

Executive Order 11575 (December 31 , 1970 ) 28 pro

• The Director, OEP, is authorized to coordinate, with

vides for administration of PL 91-606 . Essentially, in
this Order the President reserves to himself the declara

their consent, the relief effort of private organizations

tion of major disasters, determinations with respect to

such as the Red Cross, the Salvation Army, and the
Mennonite Disaster Service .
• Nondiscrimination in disaster assistance is empha
sized .

• The resources of the Federal Government can be
made available, on determination by the President, to
avert or lessen the effects of a disaster before it occurs.

• The Director, OEP , is given special authority to set up
emergency communications and to provide temporary

public transportation to carry out his responsibilities in a
major disaster situation.

restoration of Federal facilities, and the prescribing of
time limits for granting priorities for public -facilities and
housing assistance in the disaster area. The OEP Director

is delegated authority to act in all other matters for
which the President is given responsibility in the Act
except two: the Secretary of Defense is designated to act
for the President concerning the availability and use of

civil defense communications for disaster warnings; the
Secretary of Agriculture acts for the President concern
ing the use of surplus commodities and food coupons in
a major disaster situation .

Resp. App'x 247

VI. HISTORICAL DATA - A . DISASTER LEGISLATION

Specific Major Disaster Assistance Programs of
Federal Agencies

Several Federal agencies have specific disaster assist
ance programs that are activated following a major
disaster declaration . After such a declaration by the

171

areas affected by a major disaster - 20 USC 646, 79 Stat.
1158 (this authority was first granted in 1965 and was
extended in 1967),
• Provide financial assistance, under certain conditions,

to public institutions of higher education if damaged in a
Presidentially declared major disaster. ( Funding for this

President, the appropriate agency head has full statutory

purpose , though authorized, has been appropriated only

authority to use these programs. OEP serves as co
ordinator for these programs as well as those authorized

for one specific disaster, and the authority has not
otherwise been used. It is due to expire June 30, 1972.)

under PL 91-606 , as amended . The following are

representative of these specific programs.
The Secretary of Agriculture is authorized to :
• Liberalize loan programs administered by the Rural

The Administrator of the Small Business Administra
tion is authorized to :

• Liberalize economic injury loans to small business

Electrification Administration - 42 USC 1855bb ( a ),

firms- 15 USC 636 (b )(2 ),

• Provide loans for waste disposal systems and other
public facilities - 7 USC 1926 (c),
• Divert acreage, under the price support program , to

• Liberalize loan qualification requirements for pri
vately owned colleges and universities damaged in a
Presidentially declared major disaster - 15 USC 636 ( f).
The Administrator of the Veterans Administration
(38 USC 1820 (1) ), the Secretary of the Interior (42 USC

crops that will reestablish a proper farm -products
balance after a disaster_7 USC 1421 (c),
• Provide free feed grains from Commodity Credit
Corporation -owned stocks, for distressed livestock under

1855gg ), and the Commissioner of InternalRevenue ( 26

certain conditions - 7 USC 1427 .

USC 165(h )) are authorized to liberalize certain pro
grams and relax requirements to assist major disaster

The Secretary of Housing and Urban Development is

victims.

authorized to :

• Adjust repayment and maturity schedules on loans

In addition to the above, there are more than 200

42 USC 1855bb ( b ),

special statutory authorizations which can be used by

• Liberalize FHA loan insurance requirements for
disaster victims - 12 USC 1715 (f),

about 25 executive departments and agencies to provide
assistance to disaster victims. These apply to situations

• Give priority treatment to public agencies in major
disaster areas for facilities and housing programs- 42

those for which such a declaration has been made. ( A

USC 1855dd.

comprehensive list of Federal programs which can be

for which no major disaster has been declared, as well as

The Secretary of Health, Education , and Welfare is

used in disaster situations has been prepared by OEP.

authorized to :
• Provide financial assistance for the construction and

This is used by the Federal Coordinating Officers at the

scene of a disaster.)

operation of public elementary and secondary schools in

Table 1. Evolution and Expansion of Federal Disaster Assistance
• 1803-1947

Special acts (128 ) - to provide relief for victims of specific disasters.

• 1947
PL 80-233

First general disaster relief act; surplus Federal property transferred to State and locai governments .

• 1950

PL 81-875

Federal funds authorized for emergency repair and replacement of public facilities of local
governments.

• 1951

PL 82-107
• 1953
PL 83-134

• 1962
PL 87-502

Authorized emergency housing.

Permitted loan or donation of Federal surplus property to State and local governments for repair
of public facilities and for individual rehabilitation .

Extended coverage of PL 81-875 to include State public facilities and Guam, American Samoa, and
Trust Territory of the Pacific Islands.

Resp. App'x 248

DISASTER PREPAREDNESS: VOLUME ONE

172

Table 1. Evolution and Expansion of Federal Disaster Assistance - Continued
• 1964- 1965
PL 88 -451

PL 89-41

1964 Alaska earthquake assistance.
1964-65 flood damage assistance to California, Idaho, Nevada, Oregon , and Washington .

PL 89-339

Hurricane Betsy (1965) assistance to Florida, Louisiana, and Mississippi.

• 1966
PL 89-769

Further expanded PL 81-875 : Rural communities, unincorporated towns, and villages were made
eligible for Federal disaster relief.

Permitted sharing of costs with State and local governments for repair or restoration of public
facilities in process of construction butdamaged by natural disaster.
Affirmed OEP authority to coordinate all Federal disaster assistance programs, and made OEP
responsible for disaster preparedness liaison with State and local governments.

1969
PL 91-79

Comprehensive act covering most aspects of previous legislation but limited to 15 months;
provisionsincluded :
- Designation of a Federal coordinating officer during amajor disaster,
-Federal agency cooperation in rendering disaster assistance,
-Federal assistance to States for development of disaster plans,
- Authority to use civil defense communications for disaster warnings,
- Debris removal from private property by Federal agencies and grants to State and local govern
ments for this purpose,

- Forest and grassland fire suppression grants to States,
- Temporary housing for disaster victims,
-SBA , FHA, VA loans at reduced interest,
- Adjustment of Federal loans,
-Authority to distribute food and coupons to disaster victims,
- Federal unemployment compensation ,

-Federal funds for purchase of timber in disaster areas,
-Restoration of U .S .-owned facilities in disaster areas,

- Federal contribution of 50 percent to State and local governments to restore public facilities
public facilities under construction at time of disaster ,

- Priority to applications for public-facility and housing assistance.

1970
PL 91-606

Comprehensive disaster assistance act with no expiration data; most provisions of PL 91-79 in
cluded and new ones added covering:
-Emergency support teams,
- Use of local firms and individuals,
- Federal grant-in -aid programs,
- Coordination of relief organizations,

-Nondiscrimination in providing disaster assistance,
- Emergency communications,
- Provision of emergency public transportation ,
-Disregard of age of applicant for assistance,

- Aid to major sources of employment,
--Provision oflegal services,
- Community disaster loan funds,
-Minimum standards for residential structure restoration ,

- Relocation assistance .

• 1971
PL 92- 209

Amended PL 91-606 to authorize Federal grants for repair, reconstruction, or replacement of
medical care facilities owned by tax-exempt organizations and damaged or destroyed by a major
disaster - up to 100 percent of net cost for existing facilities, up to 50 percent for those under
construction .

Resp. App'x 249

VI. HISTORICAL DATA - A . DISASTER LEGISLATION
173
Notes

184 Stat. 1744. Title II was amended by PL 92-209
( December 18 , 1971 ) , 85 Stat. 742 .

16 PL 85-763 ; 72 Stat. 861 ; 5 USCA 1332-15 , note; 50 USCA
App. 2271 , note . Also see EO 10782 , 3 CFR 1954-1958 Comp . ,

264 Stat. 1109, 42 USC 1855.
3PL 4, 58th Congress; 33 Stat. 599, 36 USC 1 .
*PL 228, 77th Congress, Sec. 5, as amended ; 55 Stat. 650,

p . 422 .

173 CFR 1959-1963 Comp., p. 479.

18By PL 87-296 ( September 22 , 1961); 75 Stat. 630; 5

as amended ; 33 USC 701n. PL 771 , 81st Congress, Sec. 208 ; 62

USCA 1332-15 , note ; 50 USCA App. 2271 , note ; 50 USCA 404,

Stat. 1182, 33 USC 701t .

note .

SPL 393, 73rd Congress, Section 3 ; 48 Stat. 994, 23 USC

1976 Stat. 111 ; 42 USC 1855a, 1855b.
20

13a .

° 80 Stat. 1316, 42 USC 1855 et seq .

OPL 4, 73rd Congress; 48 Stat. 20, 12 USC 347d.
?PL 160, 73rd Congress; 48 Stat. 589, 15 USC 605k.

2178 Stat. 505 ; 48 USCA, following Section 57 and
preceding notes.

861 Stat. 422, 42 USC 1851-1852.

22PL 86-70, 73 Stat. 141 ( codified in several USC titles ).

°PL 457, 78th Congress; 58 Stat. 765, 50 USC App. 1611.

2379 Stat. 131 .
2479 Stat. 1301 .

103 CFR 1949-1953 Comp ., p. 735 .

25

1165 Stat. 173, 12 USC 1706c .

123 CFR 1949-1953 Comp . , p. 925 .
1367 Stat. 180, 42 USC 1855b (c).
143 CFR 1954-1958 Comp ., p. 395.
153 CFR 1954-1958 Comp ., p. 416.

83 Stat. 125 , 42 USC 1855aaa .

26 By a rider to a supplemental appropriation bill, PL 90-608
(October 21 , 1968), 82 Stat. 1193 , 50 USC App . 2271 , note.

2785 Stat. 742.
28 36 FR 37 .

Resp. App'x 250

Resp. App'x 251

Chapter B. Selected Statistics
Introduction

times as much money was allocated for hurricanes as for

The following selected statistics deal primarily with

tornadoes. Floods received a large number of declara

major disaster declarations and allocations from the

tions, but a comparatively small amount in allocations ,

President's Disaster Fund. In view of this, it is important

the opposite of earthquakes , which were few in number
and high in amount allocated , due to the Alaskan
earthquake.

to remember that the figures shown represent only a

portion of the actual losses from natural disasters. For
example , allocations to Alaska after the 1964 earth
quake were $ 57 .6 million , while total damage has been
estimated at $ 500 million . A more precise picture of the
actual losses from each type of disaster can be found in

Disaster Fund by calendar year and by State . The large

the various physical studies, Part VIII of this Report.

several lesser ones. For example, note the very high

The statistical summary covers the 10-year period

Table 2 divides allocations from the President's
allocations to certain States are usually the result of
single particularly destructive disasters rather than
allocations to Alaska in

1964, California in

1969 ,

1961-1970. (All figures are for calendar years.) During
that time span , Connecticut, Massachusetts, New Hamp

Mississippi in 1969, and Texas in 1970.

shire, Rhode Island , South Carolina, Utah , and the

The two maps in Figure 2 together reveal the lack of
any consistent correlation between the number of

District of Columbia received no allocations from the
President's Disaster Fund. It should notbe assumed that
those areas were free from the effects of disaster; rather,
it is likely that any loss from a natural disaster that
occurred was not of sufficient magnitude to warrant a
major disaster declaration .

Data for 1971 disasters have been excluded from the
statistical summary, since the complete figures were not

disaster declarations and the total amount allocated to a

State. Louisiana and North Dakota each received five
major disaster declarations in the 10 -year period , but the
former received $ 58 .42 million in allocations while the

latter received only $ 7.67 million. Again , this is often

the result of one large disaster -Hurricane Betsy in the
case of Louisiana .

yet available . It is anticipated that the totals will be

Table 3 and the maps in Figure 3 indicate which

substantial, due in part to the costly San Fernando
earthquake in February . Allocations made in 1971 for

States are especially vulnerable to each type ofdisaster .
Even though the figures shown are not the actual losses

prior-yearmajor disasters are included ,however.
It should also be noted that the classifications of
disasters that appear in this section have been derived

geographical pattern can be seen in most cases. Only

from the wording of the Governor's request for a major

types of disasters are more narrowly confined.

or total number of disasters that occurred , a definite

floods and severe storms strike a wide area; the other

disaster declaration . The category “ severe storms” en

compasses such phenomena as winter storms, excessive
rainfall, and heavy rainfall and often includes flooding.

At the same time, allocations for tornadoes include
allocations for the severe storms and flooding that

frequently accompany tornadoes. Thus, the total alloca
tions for floodswould be substantially greater if it had
been possible statistically to separate flooding from
severe storms and tornadoes.

Figure 4, a graph of per capita allocations by State,
can be compared with Table 2 or Table 3 . In some cases,
there is a definite correlation : Iowa ranks 15th in total
allocations and 19th in per capita allocations; Maryland,
39th and 42nd ; Nebraska, 28th and 26th ; Oklahoma,
46th and 47th , and Wisconsin , 41st and 43rd, respec
tively . Alaska ranks high on both scales, but proportion
ately much higher on the per capita scale. California, the
leader in total allocations, falls to 11th on a per capita

Explanations
Table 1 and Figure 1 represent a breakdown ofmajor

basis.

disaster declarations and allocations by type of disaster.

Figure 5 bears witness to the need for increased

From these , it can be seen that the largest portion of

disaster insurance, as it compares actual damage to
estimated loss payments for selected disasters. With the

both declarations and allocations was for severe storms.

exception of Hurricane Celia , insured losses were con

Hurricanes and tornadoes were declared major disasters
an equal number of times, although approximately four

much less than half.

sistently less than half of the total losses and generally

175
Resp. App'x 252

DISASTER PREPAREDNESS: VOLUME ONE

176

Table 1.- Number of Major Disaster Declarations (upper figure) and Allocations ($ millions-lower figure) from the
President's Disaster Fund,by Calendar Year and Type, 1961- 1970 .
1961

1962

1963
10

1964

36 .03

8 .67

69. 30 20 .04

3

5

3

16 . 90

3 .58

15 .55

44 .07

Severe

Storms

Hurricanes ,
Typhoons

2

8.000

1965

1966

1967

14

Tornadoes

2 .93 16 . 25

1968

1969

11

16

1970. Totals
13

87

6 . 11 | 136 . 90

42 . 90 339 . 13

2

2 . 41

23

12 . 25

9 . 25

91 . 37

37 . 50 |240 .88

2 . 25

2 . 32

7 . 00

6 .56 53 . 29

2
2 . 55

28 . 18

0 . 73

Floods

23
43

0 . 26

1 . 97

Earthquakes ,
Tsunamis

50 .82

17 . 32

2 . 00

58 . 85

60 . 85

1

Forest

1 . 87

9 . ll

Fires

16 . 00 17 . 95

1 . 12

Droughts
0 . 13

0 . 82

0 . 9

Other
1 .59

Totals

Totals

13

22

17 . 92

64 . 94

1 . 26

5 . 68

| 20
25
25
15 . 94 144 . 78 104 .66

11
14 . 34

19

il

33 . 74

17 1192

29

17 .68 252 .59 | 102 . 961769.55

NUMBER OF MAJOR DISASTER DECLARATIONS

BY TYPE OF DISASTER, 1961-1970
FLOODS

FLOODS

7%

22 %

M

TORNADOES

MMM

TYPHOONS
31%

IMMMMMM

HURRICANES,

MINMIMMMMUMM
M

ALLOCATIONS FROM THE PRESIDENT'S DISASTER FUND
BY TYPE OF DISASTER , 1961-1970

TORNADOES
12 %

HURRICANES,
TYPHOONS

7%

12 %

FOREST FIRES
2%

EARTHQUAKES,
TSUNAMIS

EARTHQUAKES,
TSUNAMIS
2%

8%

OTHER
5%

FOREST FIRES
2%

OTHER

1%

SEVERE STORMS

SEVERE STORMS
44 %

45 %

Figure 1. - Number of Major Disaster Declarations and Allocations from the President's Disaster Fund, by Type,
1961-1970.
Resp. App'x 253

177

VI. HISTORICAL DATA - B. SELECTED STATISTICS

Table 2.-Allocations from the President's Disaster Fund , by Calendar Year and State, 1961-1970.
1961
Alabama .

1962

1963

1964

1965

1966

1967

1968

0.68

Alaska .
Arizona .

1970

1.22

0.40

0.15

7.60

57.60

1969

0.80
0.83

4. 48

0,25

2.63

38.85

--

California .
Colorado

0.15

0.65
2.90
19. 70

1.00

0.35

116.90

7.00

4 , 10

2. 30

65. 35
2.10

2.12

Arkansas

Totals

23. 21
0.75

4 , 22

2. 20
197.80
24. 55

Connecticut
Delaware
Dist. of Columbia .

4.50

4.50

Florida .
Georgia

1.71

0.40

Illinois

.

Indiana
Iowa .

0.26
1.75
0.95
0.50

1. 25

10.50
2. 15

0.74

Kentucky

0.80
0.02

Louisiana
Maine

0.85
2,65

--

0. 30

3. 78

0.22

1.75

5. 50
2.00
3. 25

0.30
1.12
1.00

3.50

0.46

0.85

0.45

1. 20

--

Kansas

0.75

2. 50
ii

Hawaii .
Idaho

0,08
0.25
0.25

1. 37

3. 70

1.25
0.40

0.38

39. 75

3. 34
0.90
0,21
16.00

1.15

58. 42

M

3.90

Maryland
Massachusetts

2.03

1.45

Minnesota .
2. 81

Nebraska

New Hampshire •
New Jersey ·
New Mexico .

0.40
0.70

0.85
1.08

17. 10

0.76

5.90
74.15

4. 72

0.15

0.52

0.83

20. 28
2.40
6. 22

3. 79
6.10

1.80

7.67

i

2.40

New York ,

3. 50

North Carolina

1.23

North Dakota
Ohio ..
Oklahoma

0.62

0.75
0.33

11

0.90

1.58

1.27

0. 45

0.18

Oregon

1.70

0.21

0.13

.

Texas .

0.66

0.73

.

0,75
.

0.33

0.50

8. 00

8. 72
0.55

14.00

Pennsylvania
Rhode Island
South Carolina
South Dakota
Tennessee .

1.96

0.40

0.50

0.60

0.73
15.91

1.25

1. 38

1.05

2. 44

0.65
10.10

1.45
25 , 16
3. 11
8.00
4.02
2. 26

2.05

1.13

3.90
2.03

80.28

1.25

11

0.74
0,33

Nevada

0.65
8.00
0.78

1.63
--

1. 50
0.50

--

Mississippi
Missouri
Montana .

12 , 15
1.82
1.96

--

11

Michigan

16. 31
3 , 08
0.55
4,08
10.33
3.66
11.17
7.85
7.04

43. 66

0.55

1.40
63. 74

Utah .

Vermont .
Virginia
Washington

West Virginia

3.50
0.75
1. 75

0.40

0.13
0.22

0.11

0.59

3. 90
0.10

1.70

Wisconsin .

0.60
0.93

1.25

5. 80
1.93
0. 30

0. 30
2. 41

American Samoa
Guam
Puerto Rico .
Trust Territories .

16. 90

2.41

--

0.74

2. 36

2. 15

0.40

64.94

1. 32

13. 41
1. 40

102.96

769. 55

8. 50

0.08

17.92

17.72

17.62
18. 46

0.72

Virgin Islands .
Totals .

7. 24

2.00
1.00

Wyoming

0.64
13. 87

0.40

10.15

15. 94

144. 78

104. 66

14. 34

Resp. App'x 254

33. 74

17.68

252.59

178

DISASTER PREPAREDNESS : VOLUME ONE
WASHI

NGTON
MAINE

CANADA

MONTAN

4

A

ORE

NORTH DAKOTA
5

2

GON

MINNESOTA
N.H.

7

IDAHO

6

WISCONSIN

MASS .

SOUTH DAKOTA

3

NEW YORK

WYOMIN

G

5

3

3

CONNO
A

1

NEVA

2YLVANI

MICH .

IOWA

PENNS

DA

7

IND

ILLINOIS

MO

5

6
COLORADO

w .
VA

4

MISSOURI

0

6

3 NIA
I

7

KANSAS

VIRG

4

3

KENTUCKY

4

14

INA
NORTH CAROL
3

E

TENNESSE

ARIZONA

NEW MEXICO

ARKANSAS

OKLAHOMA

2

CALIFORNIA

2

SOUTH
CAROLINA

6

1

2

N..3
DEL. 2

OHIO

NEBRASKA

UTAH

4

R.I. O

5

3

TEXAS

4

ALABAMA

GEORGIA

5

MISS .
UISIANA

10

LO

MEXICO

6 FLORIDA

American Samoa - 1

3
HAWAII

Guam - 2

ALASKA

Puerto Rico - 2
Trust Territories - 4

B

Virgin Islands - 2

WASH

INGT

ON
CANADA

MONTANA

7.24

0.64

MAINE

63.90

NORTH DAKOTA

MINNESOTA
OREG

8.00

ON

7.67

Vt .

25.16

NH

IDAHO

6.22

WISCONSIN

15.91

SOUTH DAKOTA
WYOMIN

G

4.08

2.44

NEVA

1.45
IOWA

0.30

DA

A
1S.Y3L8VANI

MICH
OHIO

NEBRASKA

UTAH

11,17

ILLINOIS

COLORADO

MISSOURI 10.33

0

3.66

24.55

7.04
3.11

7.85

KENTUCKY
E

TENNESSE

ARIZON

NJ,

20.28

MD

8.72

KANSAS

197.80

PENN

IND

4.02

2.26

MASS. O
R.IO
CONNO

NEW YORK

1.93

DEL. 4.50
w.
VA

87
5.80 / V1I3RG.INIA

2.03

96

. LINA
H 1
CARO

NORT

A

NEW MEXICO

OKLAHOMA

ARKANSAS

1.40

CALIFORNIA

0
0.73

4.22
2.40

2.20

TEXAS

SOUTH

CAROLINA

80.28 ) 2.30
63.74

58.42

3.08
A

GEORGIA

ALABAM
MISS .

A

LOUISIAN

31
116.OR
IDA

MEXICO

FL

65.35
HAWAII

ALASKA

0.55 ,

2.41
American Samoa
Guam - 17.62
Puerto Rico – 18.46
Trust Territories – 13.41

Virgin Islands –

1.40

Figure 2. - Number of Major Disaster Declarations (above) and Allocations from the President's Dis.
aster Fund, by State, 1961-1970.
Resp. App'x 255

179

VI. HISTORICAL DATA - B . SELECTED STATISTICS

Table 3. - Allocations from the President's Disaster Fund, by Type and State, 1961-1970.
Severe

Hurricanes ,
Typhoons

Storms

Alabama

Alaska
Arizona
Arkansas

California
Colorado
Connecticut

1.22

4.50

Florida

0.85
0.08
0.55
1.20
2.98
0.96
2.16

Georgia
Hawaii

Idaho

Illinois
Indiana
Iowa

0.68

abc
6.26

2.03

19.67

65.35
4.22
2.20

197.80
24.55
4.50

13.75
2.00

1.71
1.00
--

6.55
1.75
0.72
5.85
0.38

1.76
0.80
0.95
8.29
2.00
0.80

1.125

16.31
3.08
0.55
4.08

10.33

0.020

58.40

Maryland

2.30

19.70

5.86
3.90

Totals

2.12

Louisiana
Maine

Other

1.45

Kansas

Kentucky

0.40

Floods

57.602

7.75
2.10
0.75
171.87
4.85

Delaware
Dist . of Columbia

Tornadoes

3.66
11.17
7.85
7.04
58.42
3.90
2.03

Massachusetts
1.45

Michigan
Minnesota

75.97

Mississippi
Montana

2.16
8.00

Nebraska
Nevada

1.08

Missouri

3.28

New Jersey
New York
North Carolina
North Dakota
Ohio
Oklahoma

Oregon
Pennsylvania
Rhode Island
South Carolina
South Dakota
Tennessee
Texas
Utah

Vermont

Virginia
Washington
West Virginia
Wisconsin

Wyoming

0.74
1.18

Totals

1.13 €

19.15
2.40
5.60
1.96
2.28
1.90
0.73
15.70
1.25

0.62
5.39
6.82

0.21

0.13 €
0.73

1.40
1.15

56.10

1.71

0.13 €
2.00 a

3.40
1.00

0.30
2.41

17.62

0.74 €

17.72

13.41

0.08f

1.32

240.88

0.64
13.87
7.24
5.80

1.93

0.50

2.41
17.62

339.13

20.28
2.40
6.22
1.96
7.67
8.72
0.73
15.91
1.38

2.44
1.40
63.74

6.49
0.1l
0.22
0.59

0.40
13.65
4.65
2.40
0.43
0.30

American Samoa
Guam

Puerto Rico
Trust Territories
Virgin Islands

2.810

1.45
25.16
80.28
3.11
8.00
4.02
2.26

1

New Hampshire
New Mexico

7.33
1.50
0.95

17.83

53.29

Earthquakes , Tsunamis -- California 1.25 ,
Total 60.85
Forest Fires -- California 16.83 , Total 17.95
b
с
Dam break and flood -- 1.59

Resp. App'x 256

50.82

85.43

18.46
13.41
1.40

769.55

d Chlorine Barge -- Total 2.83
f droughts-- Total 0.95

e Water Shortage -- Total 1.26

DISASTER PREPAREDNESS : VOLUME ONE

180
WAS

HIN

GTO

A

N

CANADA

MONTANA

2

4.65

NORTH DAKOTA

2
OREG

ON

Vt.

5

NH .

17.83

IDAHO

2

5.60

WISCONSIN

SOUTH DAKOTA

15.70

WYOMING

1

1.20

0.43

0.30

UTAH

NEBRASKA

4

1.08

2
4.85

8
171.87

PENN

MD

IND

ILLINOIS

2

2.91 8 0.296

MISSOURI

DEL

2

1 R4.1 50

1.90 / 4 WA!
65
IA
2.49 VI13.
RGIN

6

KANSAS

2.03

5.86
KY
KENTUC
E
TENNESSE

2.16

ARIZON

NORTH CAROLINA

3

A
AS

ARKANS

OKLAHOMA

NEW MEXICO
CALIFORNIA

3
0.75

0.73

1
2.40

1.96

3

2
1

2.10

TEXAS

SOUTH

CAROLINA

1

0.08
2

GEORGIA

A

ALABAM

1.40

MISS .

4

UISIANA

LO

1.15

MEXICO

5

19.1

NJ.

OHIO

2.16

3.28

COLORADO

2

ANIA

SYLV

MICH .

2

1

R.I.
CONN .

IOWA

DA

MASS .

5 NEW YORK

1.25

1

1

NEVA

1

3.90

0.40

MINNESOTA

2
2.28

8.00

MAINE

1

0.85 FLORIDA

2
7.75

HAWAII

ALASKA

to

Puerto Rico =

17.72

2
0.55

1
1.32

Virgin Islands

WAS

HIN

GTO

B

N

0.59

NORTH DAKOTA
3

OREG

0.11
MINNESOTA

ON

IDAHO
WYOMING

3

1.76

0.50

ANIA

SYLV

MICH .

IOWA

DA

2
0.74

COLORADO

OHIO

4

NEBRASKA

3

8.29

ILLINOIS

IND .

0.80

0.95

1

2
0.95

NJ.
DEL

1

MISSOURI

KANSAS

PENN

MO
W.

3 VA

3.40V0IR.G2I2NIA

1.18
2
6.26

R.I.
CONN

NEVA

UTAH

MASS .

NEW YORK

1

2
1.71

NR .

0.62

WISCONSIN

7.33

SOUTH DAKOTA

0.21

VI .

1

2

5.39
1

1

CANADA

MONTANA

0.80
KENTUCKY
E
TENNESSE

2.00
ARIZON

NA

NORTH CAROLI

A

OKLAHOMA

NEW MEXICO

ARKANSAS

CALIFORNIA

1
TEXAS

1.50

SOUTH
CAROLINA

3
1.00

1

2.12

0.68

A

A

GEORGI

ALABAM

MISS .

LOUISIANA
MEXICO

A

FLORID

1.71

HAWAII
ALASKA

Figure 3. - Number of Declarations and Allocations, by Type and State, 1961-1970 : A - Severe Storms, B - Floods,
Resp. App'x 257

181

VI. HISTORICAL DATA - B. SELECTED STATISTICS
WASH

INGT

C

ON

MAINE

CANADA

MONTANA

NORTH DAKOTA

MINNESOTA
ORE

GON

NH

DAHO

WISCONSIN

MASS .

SOUTH DAKOTA

NEW YORK

WYOMIN

G

R.I.

1

1.12

ILLINOIS

0.72
COLORADO

MR

3

6.55 ( 1.75

DEL .

w .
VA

6.82

INIA

VIRG

KANSAS

0.38
NTUCKY

3

19.70

KE

5.85

ARIZON

E

TENNESSE

A

NEW MEXICO

NJ .

IND

4

MISSOURI

2.

$16.83
CALIFORNIAS

PENN

OHIO

1

NEBRASKA

1

ANIA

SYLV

MICH

IOWA

ADA

UTAH

1.45

1.00

0.73

NEV

CONN .

OKLAHOMA

A

NORTH CAROLIN

ARKANSAS

3

1.45

TEXAS

SOUTH
CAROLINA

1

2

0.40

2

GEORGIA

ALABAMA
MISS .

6.49

A

LOUISIAN

MEXICO

FLORIDA

HAWAII
ALASKA

WAS

HIN

GTO

N

D
MAINE

CANADA

MONTANA
2.00

NORTH DAKOTA

MINNESOTA

ORE

GON

NH .
IDAHO

WISCONSIN

MASS .

SOUTH DAKOTA
WYOMING

NEW YORK

R.I.
CONN .

NEV

IOWA

ADA

ANIA

SYLV

MICH

PENN

NEBRASKA

UTAH

OHIO

ILLINOIS
COLORADO

IND

MD

DEL
VA

MISSOURI

INIA

VIRG

KANSAS

KENTUCKY

1.25

E

TENNESSE

ARIZONA

NEW MEXICO

CALIFORNIA

INJ.

OKLAHOMA

A

NORTH CAROLIN

ARKANSAS

2

1

75.97 1.22

TEXAS

SOUTH NA
CAROLI

1

2.00
GEORGIA

ALABAMA

4

56.10

MEXICO

MISS .

LOUISIANA

A

FLORID

4

13.75

58.40
American Samoa
ALASKA57.60

1
2.41

HAWAII

2

Guam
17.62
4

Trust Territory
13.41

C - Forest Fires (shading) and Tornadoes, D - Earthquakes and Tsunamis (shading) and Hurricanes and Typhoons.
Resp. App'x 258

182

DISASTER PREPAREDNESS :

0
ALABAMA

1

2 3 4

INDIANA

12 13 14 15 16 17 $
221.82

1.17

10.03

COLORADO
DELAWARE
FLORIDA

IDAHO
ILLINOIS

10
10 11
11

2.41

ARKANSAS
CALIFORNIA

HAWAII

9
9

7 8

0.68

ALASKA
ARIZONA

GEORGIA

5 6

11.27
8.29
2.45
0.68

0.73
5.84

0.94
0.71
4.00

IOWA

KANSAS
KENTUCKY

3.53
2.23

LOUISIANA

16.39

MAINE

MARYLAND

3.99

0.52

MICHIGAN 0.17
MINNESOTA

MISSISSIPPI
MISSOURI

VOLUME ONE

6.68
37.18

0.67

MONTANA
NEBRASKA
NEVADA

11.73

2.73
4.67

NEW JERSEY

2.86

NEW MEXICO

2.40

NEW YORK 0.35

NORTH CAROLINA 0.39
NORTH DAKOTA

12.54

0.83
OHIO
OKLAHOMA ||0.29
OREGON

7.74

PENNSYLVANIA 0.12
SOUTH DAKOTA
TENNESSEE
TEXAS
VERMONT
VIRGINIA
WASHINGTON

1970 Census Data . No allocation

3.68
to Conn ., Mass ., N.H., R.I., S.C.,
Utah, and District of Columbia

0.36
5.80
1.45

3.05
2.16

WEST VIRGINIA

3.41

WISCONSIN 0.44
WYOMING

0.91

AMERICAN SAMOA

86.81

GUAM

202.70
6.86

PUERTO RICO
TRUST TERRITORIES
VIRGIN ISLANDS

147.40
22.16

0

1

4 5 6 7 8 9 10 11 12 13 14 15 16 17 $
2 3
Figure 4. - Per Capita Allocations by State, 1961-1970 .
Resp. App'x 259

183

1420+

1440

$
Million

VI. HISTORICAL DATA - B . SELECTED STATISTICS

500

Insured Losses

400

300

200

100

Hurricane

Hurricane

Hurricane

Hurricane

Hurricane

Hurricane

Hurricane

Carla

Cleo

Dora

Hilda

Betsy

Beulah

Camille

Lubbock
Tornado

Hurricane
Celia

* Includes fixed property losses only .

Estimated loss payments are based on data reported to the American Insurance Association and Insurance Services
Offices.

Figure 5. - Actual Damage Compared to Insured Losses for Selected Disasters, 1961-1970.
Resp. App'x 260

DISASTER PREPAREDNESS : VOLUME ONE

184

Table 4 is meant to provide a quick summary of the
most significant disasters of the past decade. The table

were responsible for over 60 percent of the total

that six of the 13 disasters listed were hurricanes, which

illustrates the enormous destruction that can be caused

damage.

by a single phenomenon. It may be worthwhile to note
Table 4.-Significant Disasters, 1961-1970 (at least $ 100
million in damage and 10 lives lost) -NOAA and OEP
data .

Month /

Disaster
Year

9/61
3/64
10/64
12/64

3-5/ 65

Estimated
Damage ( $ M )

Hurricane Carla
Alaska Earthquake
Hurricane Hilda

California, Oregon
Floods
Floods - Basins of the

Lives

Lost

415.8

46
131
38
40

181.3

16

408.3
500.0
100.0

Upper Mississippi,
the Missouri, and the
Red River of the
North
4/65

Palm Sunday Torna

300.0

271

6/65

does - Midwest
South Platte Basin
Floods

415,1

16

1,440.0
399.2
1,420.8

75
15
60
256

135.0

26

453.8

11

9/65
9/67

Hurricane Betsy
Hurricane Beulah

1-2/ 69 California Floods
Hurricane Camille
8/69
Lubbock, Texas,
5/70
8/70

Tornado
Hurricane Celia

Resp. App'x 261

200.0

Bibliography
Public Documents

Building the American City. Report of the National
Commission on Urban Problems to the Congress and
to the President of the United States . House Docu

ment No. 91-34 , 91st Cong., 1 st Sess., 1968.
“ Evaluation of Flood Hazard in Locating Federally

Owned or Financed Buildings, Roads and Other
Facilities and in Disposing of Federal Land and

Properties, August 10, 1966." Federal Register, Vol.
31 , No. 155 (August 11 , 1966 ).
Joint Survey by U.S. Department of Commerce (Weather
Bureau) and U.S. Department of Agriculture. House
Appropriations Committee, Report No. 497 (General

Archives and Records Service, Office of the Federal
Register. Washington, D.C.: U.S. Government Print
ing Office, 1971 .
U.S. House of Representatives. Federal Involvement in

Hazardous Geologic Areas. Hearings before a Sub
committee of the Committee on Government Opera
tions, 91 st Cong ., 1st Sess ., 1969.

.HUD - Space -Science Appropriations for 1972
(Part 2 ). Hearings before a Subcommittee of the
Committee on Appropriations, 92d Cong. , 1st Sess .,
1971. Testimony of George K. Bernstein, Federal
Insurance Administrator.

Bill, 1962), Accompanying H.R. 7577, and Report

U.S. Senate . Federal Response to Hurricane Camille

No. 448, Accompanying H.R. 7444, 87th Cong., 1st

(Part 3 ). Hearings before the Special Subcommittee

Sess., April 1962.
Office of Emergency Planning. Report to the Congress
on Investigative Study of Forest and Grass Fires.
Senate Document No. 30, 90th Cong., 1st Sess., May

on Disaster Relief of the Committee on Public Works,
Roanoke, Va., 91st Cong. , 2d Sess., 1970.

1967 .

. Federal Response to Hurricane Camille ( Part

4 ). Hearings before the Special Subcommittee on
Disaster Relief of the Committee on Public Works,
91st Cong. , 2d Sess., 1970. Testimony of Kenneth C.

Task Force on Federal Flood Control Policy. A Unified
National Program for Managing Flood Losses. House

Cavanaugh , Acting Director, Office of Housing Man

Document No. 465 , 89th Cong., 2d Sess., August

agement, Department of Housing and Urban Develop

1966 .

ment .

United States Atomic Energy Commission Rules and
Regulations. Title 10, Chapter 1 , Code of Federal
Regulations, Part 100, Section 100.10.

_ . Governmental Response to the California
Earthquake Disaster of February 1971. Hearings
before the Committee on Public Works, San Fer

U.S. Department of Commerce, Bureau of the Census.

nando, Calif., 92d Cong. , 1st Sess., 1971 .

Statistical Abstract of the United States, 1971. 92d

edition . Washington, D.C .: U.S. Government Printing
Office, 1971 .

United States

Government Organization Manual -

1971/72 . General Services Administration, National

.

1971 Housing and Urban Development Legis

lation (Parts I and II). Hearings before the Sub
committee on Housing and Urban Affairs of the
Committee on Banking, Housing and Urban Affairs,
92d Cong. , 1st Sess., 1971 .

Books and Pamphlets
The Agadir, Morocco Earthquake. New York : American
Iron and Steel Institute , 1962 .

Berg, Glen V. The Skopje, Yugoslavia Earthquake, July
26, 1963. New York : American Iron and Steel

The American National Red Cross. Hurricane Action .

Washington , D.C., July 1971 .
Babbitt, Harold E., and Baumann, Robert E. Sewerage
and Sewage Treatment. 8th ed . New York : John
Wiley & Sons, 1958 .

Institute , 1964.

Committee on the Alaska Earthquake of the Division of
Earth Sciences, National Research Council. The Great
Alaska Earthquake of 1964, Human Ecology . Wash
ington , D.C.: National Academy of Sciences, 1970.
185

Resp. App'x 262

DISASTER PREPAREDNESS : VOLUME ONE

186

Eckel, Edwin B. (ed.). Landslides and Engineering

vey, the Weather Bureau , the Institute for Tele

Practices. National Academy of Sciences - National
Research Council Publication 544. Washington, D.C. ,

communication Sciences and Aeronomy and Other

1958.

Fleagle, R. G. ( ed .). Weather Modification: Science and
Public Policy. Seattle :

University of Washington

Related Services. London : Praeger Library of U.S.
Government Departments and Agencies, 1967.
Riley , J. A. Disaster - Storm Ahead. Austin : University of
Texas, The Hogg Foundation for Mental Health ,
1971 .

Press, 1968 .

Flora, Snowden D. Hailstorms of the United States.
Norman : University of Oklahoma Press, 1956.
Tornadoes of the United States. Norman :

University of Oklahoma Press, 1953.
Hanson, Robert D., and Degenkolb , Henry J. The
Venezuela Earthquake, July 29, 1967. New York:
American Iron and Steel Institute, 1969.

Hughes, Patrick. A Century of Weather Service. New
York: Gordon and Breach , Science Publishers, Inc.,
1970.

Insurance Information Institute . Insurance Facts 1970.
New York.

Jagger, T. A. My Experiments with Volcanoes. Hono
lulu : Hawaiian Volcano Research Association, 1956.
Kates, Robert W. Hazard and Choice Perception in
Flood Plain Management. Chicago: University of

Rittman , A. Volcanoes and Their Activity. Translated by

E. A. Vincent. New York: John Wiley & Sons, Inc.,
1962.

Rumney , George R. Climatology and the World's Cli

mates. New York : Macmillan Company, 1968.
Schmidt, John L.; Lewis, Walter H.; and Olin , Harold
Bennett. Construction : Principles, Materials and

Methods. Vol. 3 of Construction Lending Guide.
Chicago: American Savings and Loan Institute Press
and Danville, Ill.: Interstate Printers and Publishers ,
Inc., 1970.
Sewell, W. R. Derrick (ed.). Human Dimensions of
Weather Modification. Department of Geography
Research Paper No. 105. Chicago: University of
Chicago , 1966 .

Sheaffer, John R. Flood Proofing. Chicago : University
of Chicago, 1960 .

Chicago, 1962.

Industrial Flood Losses. Chicago: University
of Chicago Press, 1965.

Kunreuther, Howard , and Dacy, Douglas C. The Eco
nomics of Natural Disasters. New York : The Free
Press, 1969.

Leopold , Lune B., and Langbein , Walter B. A Primer on

Water. Washington, D.C.: U.S. Department of the
Interior, 1960.

Sheaffer, John R. , et al. Introduction to Flood Proofing.

Chicago: University of Chicago Center for Urban
Studies, 1967.

Simpson, Paige S. and Jerry H. The Torn Land. Lynch
burg, Va.: J. P. Bell Co., Inc., 1970.
" Smokey's Record ." State Foresters in cooperation with
the U.S. Forest Service. Rev. 1970.

Tannehill, Ivan Ray. Drought - Its Causes and Effects.

Long, John D., and Gregg, Davis W. (eds.). Property and
Liability Insurance Handbook . Homewood, Ill.:

Richard D. Irwin , Inc. , 1965 .
Ludlum , D. M. Early American Hurricanes, 1492-1870.
Boston : American Meteorological Society , 1963 .
MacDonald, Gordon A. Catalogue of the Active Volca
noes of the World Including Solfatara Fields: Part III,
Hawaiian Islands. International Volcanological Asso

ciation , Naples, Italy : Stabilimento Tipografico
Francesco Giannini & Figli, 1956.
Mehr, Robert I., and Cammack, Emerson. Principles of
Insurance. Homewood, Ill.: Richard D. Irwin , Inc.,

Princeton, N.J.: Princeton University Press, 1947.
Hurricane Hunters. New York : Dodd, 1955 .
Taubenfeld, H. J. (ed .). Controlling the Weather : A
Study of Law and Regulatory Processes. New York:

Dunellen Publishing Co. , 1970.
Taylor, James B. , et al. Tornado, A Community
Responds to Disaster. Seattle: University of Washing
ton Press, 1970 .

U.S. Department of Agriculture. Fire Control 5100,
Presuppression 5120. Washington , D.C., amended
July 1963 .
Organization and Management Systems in the

1954.

Murphy, Francis C. Regulating Flood - Plain Develop
ment. Chicago: University of Chicago, 1965 .
National Academy of Sciences -National Academy of
Engineering- National Research Council, Division of

Engineering. BRAB Federal Construction Council.
Washington, D.C., n.d.
National Fire Protection Association . Air Operations for

Forest Service. Washington , D.C.: U.S. Government

Printing Office, July 1970 ( revised edition ).
Federal Crop Insurance Corporation. Federal

AU -Risk Crop Insurance : A 21 Question and Answer
Explanation for Agricultural Bankers. August 1969.
U.S. Department of the Army, Office of the Chief of

Engineers. “ Survey Investigation and Reports."
Pamphlet No. 1120-2-1 . May 1 , 1967.

Forest, Brush and Grass Fires. Boston, 1965 .

Ollier, Cliff. Volcanoes. Cambridge, Mass., and London:
The MIT Press, 1969 .

Popkin , Roy. The Environmental Science Services Ad
ministration, Including the Coast and Geodetic Sur

U.S. Department of Commerce. ESSA and Operation
Foresight. ESSA / PI 690030. May 1969 .
The Hydrologic Cycle. ESSA / PI 67003. June
1967 .

Resp. App'x 263

BIBLIOGRAPHY

187

National Weather Service. In Your

The Virginia Floods. ESSA / PI 690035. Sep

Keeping. Washington, D.C .: U.S. Government Print

tember 1969 .
.

The Weather Bureau and Water Management.

ESSA / PI 1680010. 1968 .
Environmental Science Services Administra

ing Office, 1970 .

NOAA / VHF

Radio

Weather. NOAA / PI 70035. 1970.

tion . Getting Through. Washington, D.C., 1970.

.

Severe

Local

Storm

>

Storm Surge - Killer from the Sea.

Warning Service and Tornado Statistics, 1953-1969.

Washington, D.C.: U.S. Government Printing Office,

Washington, D.C.: U.S. Government Printing Office,

June 1967.

1970.

Weather Bureau Spotter's Guide
for Identifying and Reporting Severe Local Storms.
ESSA / PI 690013. Washington, D.C .: U.S. Govern

Washington , D.C.: U.S. Government Printing Office,

ment Printing Office, 1969.

Tipsfor Tornado Safety.
1970.

Tornado Preparedness
Planning. Washington , D.C .: U.S. Government Print
>

Coast and Geodetic Survey. The
Prince William Sound Earthquake of 1964 and
Aftershocks, Vols. I- III. Washington , D.C.: U.S. Gov
ernment Printing Office, 1969 .
Weather Bureau. The Naming of
Hurricanes. ESSA / PI 680021. 1970 .
>

Some Devastating North
Atlantic Hurricanes of the 20th Century. ESSA / PI
680024. June 1968 .

National Oceanic and Atmospheric Adminis
tration. The Homeport Story. NOAA / PA 70028.
Washington , D.C.: U.S. Government Printing Office,
1971 .
Hurricane - The Greatest Storm on

Earth. NOAA / PA 70021. Washington , D.C.: U.S.
Government Printing Office, 1971 .
Hurricane Information and Atlan
tic Tracking Chart. Washington, D.C .: U.S. Govern
ment Printing Office, 1971 .

Tornado. Washington , D.C.: U.S.
Government Printing Office, 1970 .

ing Office, 1970.

U.S. Department of the Interior, U.S. Geological Survey.
The Hydrologic Cycle (undated leaflet).
White , Gilbert F. Choice of Adjustment to Floods.
Chicago: University of Chicago Press, 1964.
Human Adjustment to Floods. Chicago: Uni
versity of Chicago , 1945 .

White, Gilbert F., et al. Changes in Urban Occupance of
Flood Plains in the United States. Chicago : University
of Chicago , 1958.

White, Gilbert F. (ed .). Papers on Flood Problems.
Chicago: University of Chicago Press, 1961 .
Whitnah , Donald R. A History of the United States
Weather Bureau . Urbana: University of Illinois Press,
1961 .

Wiggins, John H., Jr., and Moran , Donald F. Earthquake
Safety in the City of Long Beach Based on the Con
cept of Balanced Risk. Palos Verdes Estates, Calif .:

J. H. Wiggins Co., September 1971 .

Articles and Periodicals
Algermissen , S. T. “ Seismic Risk Studies in the United
States,” Proceedings of the Fourth World Conference
on Earthquake Engineering, Vol. I. Santiago, Chile,
January 13-18 , 1969 .

Dunn , G. E. " The Nation's Hurricane Warning Service in

1965, ” The George Washington University Magazine,
Federal Issue (Summer 1965 ), 26 .

“ Even Computers, It Seems, Find Weather is Fickle ,”

Borchert, John R. " The Dust Bowl in the 1970's,” An

nals of the Association of American Geographers,
Vol. 61 , No. 1 (March 1971 ), 1-22.
Brazee, R. J., and Jordan, James. “ Preliminary Notes on

New York Times, December 29, 1966.

Fournier d'Albe, Michael. “ Natural Disasters, Their
Study and Prevention ,” Unesco Chronicle, Vol. XVI,
No. 5 , 195-208 .

Southeastern Alaska Earthquake,” Earthquake Notes,
Vol. XXIX (September 1958), 36-40.
Cluff, Lloyd S. " Peru Earthquake of May 31 , 1970, En
gineering Geology Observations, " Bulletin of the Seis
mological Society of America, Vol. 61 , No. 3 (June

Gates, George O. “ Earthquake Hazards," Geologic Haz

1971 ), 511-534.
Crandell, Dwight R., and Waldron , Howard H. “ Volcanic

Gerber, J. F .; Johnson, Warren ; and Georg, J. G. “ Anti

Hazards in the Cascade Range,” Geologic Hazards and
Public Problems, Conference Proceedings, May 27-28,

1969. Office of Emergency Preparedness, Region 7,
Santa Rosa, Calif.

ards and Public Problems, Conference Proceedings,

May 27-28, 1969. Office of Emergency Preparedness,
Region 7, Santa Rosa , Calif.

Cold Devices Help Reduce Pollution , ” Citrus World
( February 1970 )
Gregg, R. Frank. " A New Kind of Institution , ” Water
Spectrum , Department of the Army, Corps of Engi
neers (Spring 1971 ), 26-32.

Resp. App'x 264

188

DISASTER PREPAREDNESS :

Hammond, Allen . " Tectonics, the Geophysics of the
Surface," Science, Vol. 173 , No. 3991 (July 2, 1971 ),
40-41.

VOLUME ONE

the Agricultural Research Institute. Washington,
D.C.: National Academy of Sciences - National Re
search Council, October 1964.

Harris, Dale. “ Beat the Big Freeze,” ESSA World , U.S.

Department of Commerce , Vol. 4, No. 2 ( April
1969), 32-35 .
“ How to Protect Your Home and Garden Against Hurri
cane Damage," House and Garden , Vol. 106 (Novem
ber 1954), 214-216 .
Isaacs, Bryan ; Oliver, Jack; and Sykes, Lynn. “ Seis
mology and the New Global Tectonics,” Journal of
Geophysical Research, Vol. 73 , No. 18 ( 1968),
5855-5899.

logical Society, Vol. 37, No. 9 (November 1956),
458-461.

Phippen, George R. " A New Course to Ararat,” Water
Spectrum , Department of the Army, Corps of Engi
neers (Summer 1971 ), 9-15 .

Richards, Marshall M. “ Making Flood Warnings More
Timely . " Paper presented at the Meeting of Experts

on Flood Mitigation, Venice, Italy , October 1970.

Kates, Robert W. “ Human Adjustment to Earthquake
Hazards, ” The Great Alaska Earthquake of 1964,
Human Ecology. Washington, D.C .: National Academy
of Sciences, 1970.

Kenney, Nathaniel T. “ Southern California's Trial by
Mud and Water," National Geographic, Vol. 136, No.
4 (October 1969), 552-573 .
Krimm , Richard W. “ Flood Insurance for Water-Logged

Cities,” Nation's Cities ( April 1971 ), 20-23 .
Kunreuther, Howard. “ The Case for Comprehensive Dis
aster Insurance,”

“ Weather Service to Agriculture in the West
ern Great Plains, " Bulletin of the American Meteoro

Journal of Law and Economics,

Vol. 11 ( April 1968), 133-163 .
Larkins, W. T. “ Forest Fire Air Attack Systems,” Ameri
can Aviation Historical Society Journal, Vol. 9, No. 3

Contained in Flood Experts Meeting, U.S. Back
ground Papers (Tab D), NATO Committee on the
Challenges of Modern Society.
Richter, C. F. “ Earthquake Disasters - An International

Problem .” Paper presented at the International Meet
ing on Earthquakes, San Francisco , May 1971. Con
tained in the Conference Report ( Tab F ), NATO
Committee on the Challenges of Modern Society .
Sadowski, Alexander. “ Tornadoes with Hurricanes,”
Weatherwise, American Meteorological Society, Vol.
19, No. 2 (April 1966), 70-75.
Simpson, Robert H. “ Hurricane : Yes or No , " NOAA ,
U.S. Department of Commerce, Vol. I, No. 3 ( July
1971 ), 12-21 .

Simpson, R. H., and Malkus, J. S. “ Experiments in Hurri

(Fall 1964 ).

Matthew , Samuel W. " The Night the Mountains Moved,"
National Geographic, Vol. 117, No. 3 (March 1960),
329-359 .

Meehan, J. F. “ Damage to Public School Buildings, ” The
San Fernando, California, Earthquake of February 9,

1971. Geological Survey Professional Paper 733, U.S.
Department of the Interior. Washington , D.C.: U.S.
Government Printing Office, 1971 .
Namias, J. “ Some Meteorological Aspects of Drought,”
Monthly Weather Review , Vol . 83 , No. 9 ( September
1955), 199-205 .

cane Modification ,” Scientific American , Vol. 211
( 1964).

“ Space Age Weather Forecasts,” 1964 Yearbook of the
United Fresh Fruit and Vegetable Association , pp.
52-57. Washington , D.C. , 1965 .
" Statement on Hurricanes, " Bulletin of the American

Meteorological Society , Vol. 40, No. 7 (July 1959).
Sugg, Arnold L. “ Economic Aspects of Hurricanes,"
Monthly Weather Review , Vol. 95, No. 3 (March
1967), 143-146 .

1961-1966 in the Northeastern United States," Pro

Tannehill, Ivan Ray. “ More Dry Years Ahead ," Country
Gentleman , Vol. 124 , No. 9 (September 1954 ).
Tarbox , Robert M. “ Operation Foresight: A Valuable
Precedent,” Water Spectrum , Department of the
Army, Corps of Engineers (Summer 1969), 19-26.
Thom , H. C. S. “ Tornado Probabilities," Monthly

ceedings of the Sterling Forest Conference on
Drought. New York: New York University , 1967.

Tufty, Barbara J. “ From the San Fernando Earthquake,

Pakiser, L. C., et al. “ Earthquake Prediction and Con
trol, ”

Science , Vol . 166 ( December 1969),

1467-1474.

Palmer, Wayne C. “ The Abnormally Dry Weather of

. " Causes of Drought,” Working Groupon
Assessment of Drought. Washington , D.C.: World

Meteorological Organization, March 1971 .
“ Drought and Climatology,” Weekly Weather
and Crop Bulletin - National Summary , Vol. XLVIII,
No. 32 (August 7, 1961 ).

“ End of Drought,” Weekly Weather and Crop
Bulletin - National Summary , Vol. XLVIII, No. 30

Weather Review (October- December 1963 ), 730-736 .

Reminder of Unheeded Warnings,” National Acad
emy of Sciences- National Research Council-Na
tional Academy of Engineering News Report, XXI,
No. 4 ( April 1971 ), 4-5 .
.S . Department of Agriculture, Forest Service . Fire
Control Notes, Vol. 32, No. 2 ( Spring 1971).

U.S. Department of Commerce. Local Climatological
Data. Washington, D.C.: U.S. Government Printing
Office (monthly ).

(July 24, 1966).

" Moisture Variability and Drought Severity ,"
Proceedings from the Thirteenth Annual Meeting of

9

Environmental Science Services Administra

tion , Environmental Data Service. Climatological

Resp. App'x 265

BIBLIOGRAPHY

189

Data National Summary , Vol. 16, No. 13, Year 1965.
Asheville, N.C., 1966 .
National Oceanic and Atmospheric Adminis
tration. NOAA Week , Vol. 2 , No. 39 (October 1 ,
1971 )

“ Project Stormfury Operations Be
gin August 4 ; New Hurricane Seeding Theory to be
Tested,” NOAA Week, Vol. 2, No. 30 (July 30,
.

1971 ), 1 .

>

and U.S. Department of

Agriculture, Statistical Reporting Service. Weekly
Weather and Crop Bulletin , April through August
Issues, 1971 .

News Office. News Item 71-46 .

Rockville, Md. , December 1 , 1971 .
Wall, A. E. “ The Big Wave, May 23, 1960, ” Hilo Tribune
(Hawaii), 1960.
Weigel, Edwin P. “ The Survivors Speak ,” NOAA , U.S.

Environmental Data Service. Cli
matological Data National Summary , Vol. 20, No. 13,

Department of Commerce, Vol. 1 , No. 1 (January

Year 1969. Asheville, N.C., 1970.
Climatological Data Na

White , Peter T. “ Satellites Gave Warning of Midwest
Floods,” National Geographic, Vol. 136, No. 4

>

tional Summary , Vol. 21 , No. 13 , Year 1970. Ashe
ville, N.C., 1971 .

1971 ), 39-41.

(October 1969), 574-592.

Reports and Guidance Materials
Ad Hoc Panel on Earthquake Prediction. Earthquake

California FAIR Plan Association . Financial Report to

Prediction : A Proposal for a 10 Year Program of Re

search. Prepared for the Office of Science and Tech

Members for the Period from Inception , August 15,
1968, to November 30, 1970. Los Angeles, 1970.

nology. May 1965 .
Adams, David . The Minneapolis Tornadoes, May 6,
1965: Notes on the Warning Process. Research Re
port No. 16. Columbus: Ohio State University Dis

The California State Board of Forestry. The State For
esters Reports. Sacramento , 1969 and 1970.
Century III Institute. A Consideration of Certain En
vironmental Implications of the September 1970

aster Research Center, 1965 .

Advisory Commission on Intergovernmental Relations.
Building Codes : A Program for Intergovernmental Re

Fires in San Diego County and Suggested Studies. San
Diego , Calif., October 7 , 1970.

U.S. Government

Clar, C. Raymond, and Chatten, Leonard R. Principles
of Forest Fire Management. Sacramento : The Cali
fornia State Board of Forestry, 1966 (revised edi

Alonso , William , et al. Innovations in Housing Design
and Construction Techniques as Applied to Low -Cost
Housing. A Collateral Literature Survey - In -Cities Ex

Cobb, Ernest D. , and Biesecker, J. E. The National

form . A - 28 . Washington, D.C.:

Printing Office, 1966 .

perimental Housing Research and Development Proj
ect . Berkeley , Calif., March 1969 .
American Law Institute. A Model Land Development

Code, Tentative Drafts Nos. 1 , 2, and 3. Philadelphia,
1969, 1970, and 1971 .

Basic Plan , Tidal Wave, Warning, Evacuation . Prepared
by Sheriff's Department, County of Ventura, Calif.,
and Office of Civil Defense .

Hydrologic Bench -Mark Network-Conservation Ne

works. Geological Survey Circular 460- D . Washing
ton , D.C.: U.S. Department of the Interior, 1971 .
Committee on the Alaska Earthquake of the Division of
Earth Sciences, National Research Council. Toward
Reduction of Losses from Earthquakes: Conclusions
from the Great Alaska Earthquake of 1964. Washing

ton, D.C.: National Academy of Sciences, 1969.
Comptroller General Report to the Congress. Improve
ments Needed in Reclaiming Usable Parts from Ex

Blumenstock , George , Jr. Drought in the United States
Analyzed by Means of the Theory of Probability . Soil
Conservation Service Technical Bulletin No. 819.
Washington , D.C.: U.S. Department of Agriculture,
April 1942.

Brouillette, John. A Tornado Warning System : Its Func
tioning on Palm Sunday in Indiana. Research Report
No. 15. Columbus : Ohio State University Disaster Re

cess Aircraft. B157373 . August 6, 1970.
Condra, G. E. Drought, Its Effects and Measures of Con
trol in Nebraska. Nebraska Conservation Bulletin No.

25. Lincoln : University of Nebraska, Conservation
and Survey Division, April 1944.
Council on Environmental Quality. Environmental Qual
ity. The First Annual Report. Washington, D.C.: U.S.
Government Printing Office, 1970.

Court, Arnold. Tornado Incidence Maps. ESSA Tech

search Center, 1966.

Buchanan , William , et al. The 100 Year Flood , Reactions
to Hurricane Camille in Nelson, Amherst and Rock
bridge Counties, Virginia . Contract No. OEP - D -70 3.
Lexington , Va.: Washington and Lee University, Sep
tember 1 , 1970.

tion).

nical Memorandum ERLTM -NSSL 49. Norman ,

Okla .: National Severe Storms Laboratory , August
1970 .

Daniel, E. W., Jr. Report of the Tsunami Communica
tions Tests for the Third and Fourth Quarters of FY

Resp. App'x 266

DISASTER PREPAREDNESS : VOLUME ONE

190

71. Washington, D. C.: National Communications
System , November 9, 1971 .

Harris, D. Lee . Characteristics of the Hurricane Storm

Surge. Weather Bureau Technical Paper No. 48, U.S.

Dregne, Harold E. Arid Lands in Transition . American
Association for the Advancement of Science Publica

tion No. 90. Washington , D.C., 1970.
Emergency Operations Plan , Seismic Sea Wave Threat to
the Unincorporated Coastal Areas ofOrange County.
Sheriff's Department, Orange County, Calif ., and
Office of Civil Defense .

Feasibility of Reclamation of Water from Wastes in the
Los Angeles Metropolitan Area. State of California ,

Department of Water Resources. Bulletin No. 80.
Sacramento , 1962.

Federal Council for Science and Technology, Ad Hoc
Interagency Working Group for Earthquake Research.
Proposal for a Ten - Year National Earthquake Hazards

Department of Commerce. Washington, D.C.: U.S.
Government Printing Office, 1963 .

Havighurst, James. Perception of Tsunami Hazard.
Honolulu : Hawaii Institute of Geophysics, 1967.
Hildreth , R. J., and Thomas, G. W. Farming and Ranch
ing Risk as Influenced by Rainfall - High and Rolling
Plains. College Station : Texas Agricultural Experi
ment Station , January 1956 .

Hope, John R., and Neumann, Charles J. Climatology of
Atlantic Tropical Cyclones by Two and One-Half De
gree Latitude Longitude Boxes. ESSA Technical
Memorandum WBTM SR -44 . Fort Worth , Tex .: U.S.
Department of Commerce, Weather Bureau , February
1969 .

Hoyt, J. C. Drought of 1936 , with Discussion of the

Program . Washington, D.C., December 1968.
Interdepartmental Committee for Atmos

Significance of Drought in Relation to Climate. Geo

pheric Sciences. National Atmospheric Sciences Pro

logical Survey Water Supply Paper No. 820. Washing
ton, D.C.: U.S. Department of the Interior, 1938.
Hughes, Richard J., et al. Meeting the Insurance Crisis In
Our Cities. A Report by the President's National
Advisory Panel on Insurance In Riot-Affected Areas.
Washington, D.C.: U.S. Government Printing Office ,

>

gram , Fiscal Year 1972. ICAS Report 15. Washing
ton , D.C. , March 1971 .

. A National Program for Accelerat

ing Progress in Weather Modification. ICAS Report
15a. Washington, D.C., June 1971 .

Fisher-Smith , John . Development Standards and En
vironment: A Paper Concerning the Role of Develop
ment Standards in the Design of the Residential En
vironment. Prepared for the National Commission on

1968 .

Office of Emergency Preparedness Clearinghouse on
Emergency Related Research. Institute for Defense
Analyses Paper P - 824. Washington, D.C., November

In -Cities Experimental Housing Research and Develop
ment Project. Phase I Composite Report, Volume II Constraints. Washington , D.C.: U.S. Department of
Housing and Urban Development, March 1969.
Jennings, Paul C. (ed .). Engineering Features of the San
Fernando Earthquake, February 9 , 1971. Pasadena :
California Institute of Technology , Earthquake En
gineering Research Laboratory , June 1971 .

1971 .

The Joint Panel on the San Fernando Earthquake. The

Urban Problems. April 1968 .
Fritz, Charles E. Some Guidelines for Developing an

Gatewood, J. S., et al. General Effects of Drought on
Water Resources of the Southwest. Geological Survey
Professional Paper 372 - B , U.S. Department of the
Interior. Washington , D.C.: U.S. Government Printing
Office, 1964.
General Services Administration , " Selected General Site
Selection Criteria , " Attachment A of Phase I Report

to OEP PL 91-606 Disaster Study Group, 1971 .
Haas, J. Eugene. Final Report on the Effectiveness of
Tsunami Warning System in Selected Coastal Towns
in Alaska. ESSA Contract No. E - 230-69 ( N ). Washing
ton, D.C. , May 1971 .
Hale, Robert L. , Jr. , et al. The Present State of Housing

Code Enforcement. A Report to the National Com
mission on Urban Problems by the National Associa

tion of Housing and Redevelopment Officials. Wash
ington, D.C., October 1968.

San Fernando Earthquake of February 9, 1971 : Les
sons from a Moderate Earthquake on the Fringe ofa
Densely populated Region . Washington , D.C.: Na

tional Academy of Sciences-National Academy of
Engineering, 1971 .
Koch , Carl, et al. Roadblocks to Innovation in the Hous
ing Industry. A Report to the National Commission

on Urban Problems. Washington, D.C., June 1968.
Lew , H.S.; Leyendecker, E. V.; and Dikkers, R. D. Engi
neering Aspects of the 1971 San Fernando Earth

quake. U.S. Department of Commerce, National
Bureau of Standards, Building Science Series 40.
Washington, D.C.: U.S. Government Printing Office,
December 1971 .

Logan, L., et. al. A Study of the Effect of Catastrophe
on Social Disorganization. Chevy Chase, Md.: Opera
tions Research Office, 1959.

Miller, Don J. Great Waves in Lituya Bay. Geological

Hansen , Wallace R., et al. The Alaska Earthquake, March
27, 1964, Field Investigations and Reconstruction
Effort. Geological Survey Professional Paper 541 ,
U.S. Department of the Interior. Washington , D.C.:
U.S. Government Printing Office, 1966.

Survey Professional Paper 354 - C, U.S. Department of
the Interior. Washington, D.C.: U.S. Government
Printing Office, 1960.
Mood, Eric W. A Review of the Development, Objective,

and Adequacy of Current Housing Code Standards.

Resp. App'x 267

BIBLIOGRAPHY

191

Working Paper prepared for the National Commission

Olson , S. T. Reconnaissance of Copper River Delta Fol

on Urban Problems. New Haven, Conn .: Yale Univers
ity , March 1968 .

lowing the March 27, 1964 Earthquake. Juneau:

Murray, C. Richard . Estimated Use of Water in the
United States, 1965. Geological Survey Circular 556.
Washington , D.C.: U.S. Department of the Interior,

Palmer, Wayne C. Meteorological Drought. Weather Bu
reau Research Paper No. 45. Washington , D.C.: U.S.

1968.

Alaska Department of Fish and Game, 1964 .

Department of Commerce, February 1965 .
Parsons- Jorden Corporation. Study of Seawater Desalt

National Academy of Sciences -National Research Coun

cil. The Atmospheric Sciences and Man's Needs: Pri
orities for the Future. Washington, D.C., 1971 .

Weather and Climate Modification : Problems
and Prospects. Vols. I-II. Publication No. 1350. Wash
ington, D.C., 1966.
National Bureau of Standards, Institute of Applied Tech
nology . The San Fernando, California Earthquake of
February 9, 1971. Washington, D.C.: U.S. Depart
ment of Commerce, March 1971 .

National Science Foundation . Research Applied to Na
tional Needs, FY 1970-72. Washington , D.C.

Weather Modification , Tenth Annual Report,
1968. Washington, D.C.: U.S. Government Printing
Office, 1969 .

ing as Emergency Supply for New York City. Office
of Saline Water Research and Development Progress

Report No. 533. Washington , D.C.: U.S. Department
of the Interior, 1970.

Preliminary Report on Seismic Sea Waves from Aleutian
Earthquake of April 1946. Berkeley: University of
California Department of Engineering, 1946 .
Protection Against Frost Damage. Technical Note No.
51. Geneva, Switzerland : World Meteorological Or
ganization , 1963.
Ralph M. Parsons Co. Engineering Study of the Poten
tialities and Possibilities of Desalting for Northern
New Jersey and New York City. Office of Saline
Water Research and Development Progress Report

No. 27. Washington, D.C.: U.S. Department of the

Natural Disaster Warning Survey Group. A Proposed Na
tionwide Natural Disaster Warning System . U.S. De

partment of Commerce, October 1965.
Newville, Jack. New Engineering Concepts in Com
munity Development. ULI Technical Bulletin 59.

Washington , D.C.: Urban Land Institute, 1967.
North , D. W.; Boyd, D. W.; and Matheson, J. E. Decision
Analysis of Hurricane Modification. Final Report.
Menlo Park , Calif.: Stanford Research Institute, June
1971 .

Interior, 1966.
Report of the Los Angeles County Earthquake Commis
sion, San Fernando Earthquake, February 9, 1971.
Los Angeles, November 1971 .
A Report on Drouth in the Great Plains and Southwest.
Prepared under the direction of the Special Assistant
to the President for Public Works Planning. Washing
ton, D.C.: U.S. Government Printing Office, October
1958 .

Northeast Desalting Team . Potentialities and Possibilities
of Desalting for Northern New Jersey and New York

Rogers, William J., and Swift, Harry L. Frost and the
Prevention of Frost Damage. Silver Spring, Md.: U.S.
Department of Commerce, 1970.

City. Washington , D.C.: U.S. Department of the In

Ruth , Herman D. , & Associates. Regional and Local

terior, 1966 .

Land Use Planning. Vols. I- IV . Washington, D.C.:

Office of Management and Budget. Legislative Referral
Memorandum , subject: A Draft Bill, " The Natural

Public Land Law Review Commission, February
1970.

Disaster Mitigation Act of 1972." December 29,

Santee Filtration Study. State of California , Department

1971 .

of Public Health , Bureau of Sanitary Engineering.
Sacramento, 1965 .
Simpson, Robert H. The Decision Process in Hurricane

Office of Saline Water, Atomic Energy Commission ,
New York City , New York State, Consolidated Edi
son Technical Team. Dual Purpose Nuclear Power and
Desaltings for the New York City Metropolitan

Region . Office of Saline Water Report in preparation.
Office of Science and Technology. Earthquake Hazard

Forecasting. NOAA Technical Memorandum NWS

SR-53. Fort Worth, Tex .: U.S. Department of Com
merce, National Weather Service, June 1971 .

Reduction. Report of the Task Force on Earthquake

Simpson, Robert H., and Lawrence, Miles B. Atlantic
Hurricane Frequencies Along the U.S. Coastline.

Hazard Reduction. Washington , D.C .: U.S. Govern

NOAA Technical Memorandum NWS SR - 58 . Fort

ment Printing Office, September 1970.

Worth , Tex.: U.S. Department of Commerce, Na
tional Weather Service, June 1971 .

Office of Telecommunications Policy. Summary Report
of the Warning Group. Washington , D.C., September
1971 .

Simpson, Robert H., et al. A Cloud Seeding Experiment
in Hurricane Ester - 1961. National Hurricane Re

Ohio State University Disaster Research Center. The

search Laboratory Report No. 60. Washington, D.C.:

Warning System in Disaster Situations: A Selective

U.S. Department of Commerce, Weather Bureau,

Analysis. Series No. 9. Columbus, 1970 .

1963 .

Resp. App'x 268

DISASTER PREPAREDNESS :

192

VOLUME ONE

Slosson, James E. Engineering Geology - Its Importance

- General Summary of Effects of the Drought

in Land Development. ULI Technical Bulletin 63.

in the Southwest. Geological Survey Professional
Paper 372-H, U.S. Department of the Interior. Wash
ington, D.C.: U.S. Government Printing Office, 1963.

Washington, D.C.: Urban Land Institute, 1968.
Smithsonian Institute Center for Short- Lived Phenom

ena . Natural Disaster Research Centers and Warning
Systems: A Preliminary Survey. Cambridge, Mass.,
July 1971 .

Smithsonian Science Information Exchange. Agencies
Supporting Research Registered at the Science Infor
mation Exchange. Washington, D.C. , April 1971 .

Tudor, W. J. Tsunami Damage at Kodiak, Alaska, and

Crescent City, California, from the Alaska Earth
quake of 1964. Port Hueneme, Calif.: U.S. Naval Civil

Engineering Laboratory, November 1964.

U.S. Department of Agriculture, Forest Service. Annual
Reports.

..Annual Summary Reports ( Air Op

Standard Operating Plan for Tsunami Regional Evalua
tion . Honolulu : State Civil Defense, Joint Tsunami

Research Effort and Tsunami Advisor, January 1967.
Standard Operating Procedures, Seismic Sea Wave. State
of California, California Disaster Office, April 1969.
State of Alaska Seismic Sea Wave Warning Plan. Depart.

ment of Public Safety, Alaska Disaster Office, rev.
October 1969 .

>

erations), 1969 and 1970.

. Fire Weather. Agriculture Hand
book 360. Washington, D.C.: U.S. Government Print
ing Office, May 1970.

1970 Wildlife Statistics. Washing
ton, D.C., August 1971 .
Southwestern Region . Manning
>

Steinbrugge, Karl V. Earthquake Hazard in the San Fran

>

1971, a Region 3 Report. Fall 1971 .

cisco Bay Area : A Continuing Problem in Public

Soil Conservation Service. Water Supply Out
>

Policy. Berkeley : Institute of Governmental Studies,

look for Montana and Federal, State, Private Cooper

University of California , 1968 .

ative Snow Surveys. Prepared in collaboration with

Steinbrugge, Karl V., et al. San Fernando Earthquake,
February 9, 1971. San Francisco : Pacific Fire Rating
Bureau , 1971 .

the Montana Agricultural Experiment Station . Boze
man , Mont., April 1 , 1971 .

U.S. Department of Commerce. Arizona Floods of Sep

Sugg, Arnold L.; Pardue , Leonard G .; and Carrodus ,
Robert L. Memorable Hurricanes of the United States
Since 1873. NOAA Technical Memorandum NWS

tember 5 and 6, 1970. NOAA NDSR 70-2 . Rockville,
Md. , July 1971 .

SR-56. Fort Worth , Tex .: U.S. Department of Com

.. Earthquake Investigation in the United States.
Coast and Geodetic Survey Publication 282. Wash

merce , April 1971 .

ington , D.C., rev. 1969.

Thomas, H. E. The Meteorologic Phenomenon of

Drought in the Southwest. Geological Survey Profes
sional Paper 372-A, U.S. Department of the Interior,
Washington, D.C.: U.S. Government Printing Office,
1962 .

Thomas, H. E. , et al . Effects of Drought Along the Pa
cific Coast in California. Geological Survey Profes
sional Paper 372 -G , U.S. Department of the Interior.
Washington, D.C.: U.S. Government Printing Office,

. Hurricane Camille. A Report to the Adminis
trator, Environmental Science Services Administra
tion . September 1969.
. Lubbock Tornado : A Survey of Building
Damage in an Urban Area. National Bureau of Stand

ards Technical Note 588. Washington, D.C.: U.S.
Government Printing Office, 1971 .
Environmental Science Services Administra
tion. The Lubbock, Texas, Tornado, May 11, 1970.

Natural Disaster Survey Report 70-1. Washington,

1963 .

D.C., July 1970 .

. Effects of Drought in Basins of Interior
Drainage. Geological Survey Professional Paper

. Project Stormfury - 1970. Rock
ville , Md. , 1970 .

372-E, U.S. Department of the Interior. Washington,

D.C .: U.S. Government Printing Office, 1963 .

Severe Local Storm Occurrences,
1955-1967. Technical Memorandum WBTM FCST

Effects of Drought in CentralandSouth Texas.

Geological Survey Professional Paper 372-C, U.S. De
partment of the Interior. Washington, D.C.: U.S.
Government Printing Office, 1964.
Effects of Drought in the Colorado River
Basin. Geological Survey Professional Paper 372-F,
U.S. Department of the Interior. Washington, D.C.:
U.S. Government Printing Office, 1963 .

- . Effects of Drought in the Rio Grande Basin .

12. Washington, D.C., September 1969 .
, Coast and Geodetic Survey. Stud
>

ies in Seismicity and Earthquake Damage Statistics,
1969. A Report Prepared for the Department of
Housing and Urban Development, Office of Eco
nomic and Market Analysis, 1969 .
Weather Bureau. Hurricane Celia,

July 30 -August 5, 1970 – Preliminary Report. Wash
ington , D.C. , August 1970.
Severe

Local

Geological Survey Professional Paper 372- D, U.S. De
partment of the Interior. Washington , D.C.: U.S. Gov

Spotter Reporting Procedures. Washington, D.C.:

ernment Printing Office, 1963 .

U.S. Government Printing Office, 1969.
Resp. App'x 269

Storm

193

BIBLIOGRAPHY

National Oceanic and Atmospheric Adminis
tration. Communication Plan for Tsunami Warning

System . 7th ed. Washington , D.C., 1971 .
. Federal Plan for a National Agri
cultural Weather Service. Washington, D.C .: U.S. Gov
ernment Printing Office, January 1971 .

Survey Professional Paper 435. Washington , D.C.:
U.S. Government Printing Office, 1964.
, Bureau of Land Management. Annual Fire
Reports, 1968, 1969, and 1970.

Bureau of Reclamation . Project Skywater
1970 Annual Report. Denver, 1970.
>

. Mississippi Delta Tornadoes of

Project Skywater - Atmospheric Wa

February 21, 1971. Natural Disaster Survey Report
71-2. Washington , D.C., July 1971 .
. Proceedings of the Twelfth Inter

ter Resources Program . Washington , D.C.: U.S. Gov
ernment Printing Office, 1971 .

agency Conference on Weather Modification. Virginia
Beach, Va ., October 27-30, 1970.
National Environmental Satellite
Service. First Five Years of the Environmental Satel

sources Management. Washington, D.C., 1970 .

Office of Saline Water. Office ofSaline Water
Plant Inventory Report. Washington, D.C. , January

lite Program - An Assessment. Washington , D.C., Feb

1971 .

.. Project Skywater '70 -The Bureau

>

>

of Reclamation's Program of Atmospheric Water Re
>

ruary 1971 .

Saline Water Conversion Report

National Ocean Survey. Communi
cation Plan for the Tsunami Warning System . Rock
ville, Md., January 1971 .

1970-1971, Executive Summary. Washington, D.C.,
1971 .

U.S. Department of the Interior and U.S. Department of

National Weather Service. Water

Commerce. The San Fernando, California, Earth

Supply Outlook for the Western United States,
1970-71 Water Year. Silver Spring, Md. , February 1 ,

quake of February 9, 1971. Geological Survey Pro
fessional Paper 733. Washington, D.C.: U.S. Govern

>

1971 .

ment Printing Office, 1971 .

Office of Hydrology . A Plan for Improving

U.S. Department of the Interior, U.S. Geological Survey,

the National River and Flood Forecast and Warning

and Canadian Department of Energy , Mines and Re

Service. Silver Spring, Md., December 1969.
U.S. Department of Defense. Defense Demilitarization
Manual. DOD 4160.21M- 1 . September 1970.

view for Streamflow and Groundwater Conditions.

>

Defense Utilization Manual. DOD 4140.34 - M .
October 1968 .

Department of the Army, Office of Civil De
fense . Disaster Operations - A Handbook for Local
Government. 1971 .

sources, Inland Waters Branch. Water Resources Re

January 1971 .
Utah State University. Optimum Operation ofDesalting

Plants as a Supplemental Source ofSafe Yield. Office
of Saline Water Research and Development Report
No. 528. 1970.

After Action Report - Hurricane Camille, 17-18 Au

Valli, V. J. Basic Principles of Freeze Occurrence and the
Prevention of Freeze Damage to Crops. Sunnyside,
Wash .: Spot Heaters, Inc., 1971 .

gust 1969. Mobile, Ala ., February 1970.
Departments of the Army and the Air Force.
Design Criteria for Facilities in Areas Subject to
Typhoons and Hurricanes. TM 5-809-11 and AFM

Water Resources Council, Pacific Southwest Interagency
Committee. Framework ( Type I) Studies. 1971 .
Wilkinson , K. P., and Ross, P. J. Citizens' Response to
Warnings of Hurricane Camille. Social Science Re

88-3, Chap. 14. Washington , D.C. , May 1966.
.. Load Assumption for Buildings.
TM 5-809-1 and AFM 88-3 , Chap. 1. Washington ,
D.C., September 1966.
Departments of the Army, the Navy , and the
Air Force . Seismic Design for Buildings. TM 5-809-10 ,
NAVDOCKS P-355 , and AFM 88-3, Chap. 13. Wash

search Center Report 35. State College: Mississippi
State University, October 1970 .
“ Work Group IV Report on the Role of Governments,
Universities, Industry and Volunteer Organizations,"

, U.S. Army Corps of Engineers.

ington, D.C. , March 1966 .

U.S. Department of the Interior. The Hebgen Lake,
Montana Earthquake of August 17, 1959. Geological

International Meeting on Earthquakes Conference Re

port. NATO Committee on the Challenges of Modern
Society, San Francisco, May 1971 .
Young, Floyd D. Frost and the Prevention of Frost

Damage. Washington , D.C.: U.S. Government Printing
Office, 1947 .

Unpublished Material
Brown , Harold , President, California Institute of Tech

nology. Letter to Director, Office of Emergency Pre
paredness, with enclosed faculty proposal by Drs.
George Housner and Donald Hudson , February 16,
1971 .

Letter to Director, Office of Emergency Pre
paredness, September 9 , 1971 .
Castle, W. D., National Oceanic and Atmospheric Ad
ministration . Letter with attachment to Chief, OEP
PL 91-606 Disaster Study Group, October 5 , 1971 .

Resp. App'x 270

DISASTER PREPAREDNESS : VOLUME ONE

194

Coast Code Administration . “ Report of Hurricane Con
ference .” Preliminary conference proceeding. Gulf
port, Miss., 1971. (Mimeographed .)
County of San Diego (Washington , D.C., Office ). Letter
with enclosures to Chief, OEP PL 91-606 Disaster

Study Group, May 21 , 1971 .
Eichert, Bill S. “ Flood Protection and Risk Evaluation.”
Paper presented to the California State Conference on

National Association of Insurance Agents. “ A Basic Pro
gram for Catastrophe Perils Coverage." New York, n .
d. (Mimeographed .)
National Association of Insurance Commissioners. " Pro

posed Program for Catastrophic Risk Insurance
Coverage.” Milwaukee, October 29 , 1971. (Mimeo
graphed .)

ter, 1971. (Mimeographed .)
Eskite, Wilbur H. , Jr. " Analysis of ESSA Activities Re
lated to Tsunami Warnings." Report prepared for
NOAA Office of Plans and Programs. June 30, 1970.
Gibson, John M. , Office of Housing Management, HUD.

National Association of Property and Casualty Re
insurers. “ An Extraordinary Perils Endorsement, "
Washington , D.C., n.d. (Mimeographed .)
National Oceanic and Atmospheric Administration's
Subprogram (unpublished ), Program Plan, 1971 .
National Waterways Conference , Inc. Letter to Chief,
OEP PL 91-606 Disaster Study Group, May 26, 1971 .
Office of Science and Technology . " Protection from

Letter with enclosure to Chief, OEP PL 91-606 Disas

Natural Disasters.” Draft Outline and Costs. Washing

ter Study Group, September 27 , 1971 .

ton, D.C., October 15, 1971. ( Typewritten .)

Earthquake Risks, Monterey, Calif., September 23,

1971. Davis, Calif.: The Hydrologic Engineering Cen

Groeschel, August H. “ Study of the Medical Aspects of

“ Protection from Natural Disasters -Goals for

the Los Angeles Earthquake,” Memorandum to the
Director, Office of Emergency Preparedness, Feb

the '70's.” Executive Summary. Washington, D.C. ,
November 4, 1971. ( Typewritten .)

ruary 22 , 1971 .

Haas, J. E. “ Comments on Weather Modification . ” Mem
orandum to OEP PL 91-606 Disaster Study Group,
September 8 , 1971 .

Haas, J. Eugene , and White, Gilbert, University of Colo
rado. Proposal to the National Science Foundation ,
July 1971 .

Haas, J. E.; Boggs, K. S.; and Bonner, E. J. “ Science ,
Technology and the Public: The Case of Planned
Weather Modification .” Paper read before the meet
ing of the American Sociological Association , Denver,
Colo ., August 30, 1971 .

Schleusener, Richard A. " Weather Modification for Dis
aster Relief.” Draft document for NOAA Weather

Modification Report to Office of Emergency Pre
paredness. Rapid City : South Dakota School of Mines
and Technology , October 1971. ( Typewritten .)
Schnabel, Robert E. " Earthquake Risk Conference. "
Memorandum to the Assistant Director for Disaster
Programs, Office of Emergency Preparedness, Sep
tember 26 , 1971 .

Small, Robert T. “ Report on the Use of a Helicopter for
Frost Protection for Oranges.” Pomona, Calif.: Na
tional Weather Service Office, 1948. (Unpublished
manuscript.)

Hess, Wilmot N. , Director, Environmental Research Lab
oratories. Letter to OEP PL 91-606 Disaster Study
Group, August 3, 1971 .

Horgan, Andrew B. , Director, Information and Federal
Aids Services, National League of Cities-U.S. Con
ference of Mayors. Letter with enclosure to OEP PL

91-606 Disaster Study Group, June 15 , 1971 .
Kai-Kee, M., Chief, Rate Regulation Division, California
Department of Insurance . Letter to Philip T. Cum
mings, General Counsel, U.S. Senate Committee on
Public Works, June 17 , 1971 .
Langley, Maurice N. “ Automation of Irrigation .” Paper

presented at National Irrigation and Drainage Speci
alty Conference, American Society of Civil Engineers,
Phoenix , Ariz ., November 13-15 , 1968.

McElroy, W. D., Director, National Science Foundation .
Letter with enclosures to OEP PL 91-606 Disaster

Study Group, July 16, 1971 .

Sorey, R., National Oceanic and Atmospheric Adminis
tration . Letter with enclosure to Chief, OEP PL

91-606 Disaster Study Group, April 8 , 1971 .
Spilhaus, A. F., Jr., Executive Director, American Geo
physical Union. Letter to Chief, OEP PL 91-606 Dis
aster Study Group , June 23 , 1971 .
Tennessee Valley Authority. Letter with enclosures to
Chief, OEP PL 91-606 Disaster Study Group, August
25 , 1971 .

United States Committee on Large Dams. Letter to
Chief, OEP PL 91-606 Disaster Study Group, May 24,
1971 .

United States Conference of Mayors. Letter with en
closure to Chief, OEP PL 91-606 Disaster Study
Group, June 15 , 1971 .

U.S. Department of Agriculture. Letter with enclosures
to Chief, OEP PL 91-606 Disaster Study Group, April
7, 1971 .
Memorandum to OEP PL 91-606 Disaster

National Academy of Sciences, Geophysics Research

Study Group , August 5 , 1971 .

Board. Minutes of the Meeting, May 24 , 1971 .
National Academy of Sciences-National Academy of En
gineering -National Research Council. Report to OEP

Memorandum to OEP PL 91-606 Disaster
Study Group, September 7, 1971 .

PL 91-606 Disaster Study Group, July 1971 .

Memorandum with attachments to Chief,
OEP PL 91-606 Disaster Study Group, January 1972.

Resp. App'x 271

BIBLIOGRAPHY

195

U.S. Department of Commerce. Letter with enclosures
to Chief, OEP PL 91-606 Disaster Study Group, June

to the Office of Emergency Preparedness, Washington
D.C., March 1971. (Xeroxed .)

7 , 1971 .

“ PL 91-606 Disaster Study, Phase I.” Memo
randum with attachments to Chief, OEP PL 91-606
Disaster Study Group , May 26, 1971 .
National Oceanic and Atmospheric Adminis
tration . “ New Technology Opportunities: Protection

Also used in the study and retained in the files of the
Office of Emergency Preparedness are correspondence
from the following organizations:
U.S. Department of Housing and Urban Development,
Federal Insurance Administration

from Natural Disasters . ” Rockville, Md., September

California Legislature, Joint Committee on Seismic

13 , 1971. ( Briefing papers.)
“ Phase III PL 91-606 Input." Mem

Safety
State of Alabama Department of Insurance
State of California Department of Insurance
State of Florida Department of Insurance
State of Louisiana Department of Insurance
State of Mississippi Insurance Department
State of North Carolina Insurance Department
Commonwealth of Pennsylvania Insurance Department

orandum with enclosures to Chief, OEP PL 91-606

Disaster Study Group, September 24, 1971 .

U.S. Department of Defense, Department of the Army,
Office of the Chief of Engineers. “ Disaster Relief
Study.” Memorandum with attachments to OEP PL

91-606 Disaster Study Group, May 26, 1971 .
U.S. Department of Health , Education , and Welfare.
“ Civil Structural Design Criteria." (Mimeographed .)
U.S. Department of the Interior. Letter with enclosures
to Chief, OEP PL 91-606 Disaster Study Group, May
1971 .

State of South Carolina Department of Insurance
Texas State Board of Insurance
American Insurance Association

National Association of Independent Insurers
National Association of Insurance Agents

Memorandum to OEP PL 91-606 Disaster

Study Group, August 5 , 1971 .
Vanderver, Timothy A. , Jr.; Riley, Jack A.; and Conway,
Charles. “ The Van Norman Dam Evacuation . " Report

National Association of Insurance Commissioners

Reinsurance Association of America .

#U . S. GOVERNMENT PRINTING OFFICE : 1972 O - 460-839

Resp. App'x 272

que

GENERAL BOOKBINDING

QUALITY CONTROL MARK

Resp. App'x 273

Resp. App'x 274

Resp. App'x 275

Resp. App'x 276

CH

SIT

MICH

VER

1813

LIBRARIES

Z
THE

CHICAN

I
SIT
VER
UNI LIBRARIES

M

Q

THE

DO
EMF
IC

MICHIC

ONT

MICHIGAN

OF

TI

SI
VER

LIBRARIES

M

OF
CHIT
E
UN

CHIGAN

W

M

MICHIGAN

OF

THE·

LIBRARIES

DICHIGAN

UNI

KE

LIGAN.

THL2

M

LIBRARIES

I

OF

MICHIGAN

HE T
UNI

TH

Di

noLIS

F

JO

M
, H CHIGAN
C
MI

R
VE

OF

THE

NI

LIBRARIES

SIT
VER
UNI LIBRARIES

811

Y

ERSIT

Resp. App'x 277

OF MIC

系

M

THE

OF

JANI

MICHIGAN

Z
T
I
S
VER

MICHIGAN

LIBRARIES

1811

VER

RICHIGAN

M

S

N
RE AI

LIBRARIES

SAL

OF

VS

M

M

UN
I

E

SIT OFMICA
S
VER
UNI LIBRARIES

UNI

AN
1811

LIBRARIES

THE

1930

MICHIGA.V

OF
TICHKO

THE

OF
OF

MICHIGAN

THE

1187

LICHIG

V

UNI
KE

M

T
RE SI

Resp. App'x 278

This is a reproduction of a library book that was digitized
by Google as part of an ongoing effort to preserve the
information in books and make it universally accessible.

https://books.google.com

Resp. App'x 279

REPORT

TO

THE

CONGRESS

DISASTER

PREPAREDNESS

CentElb
t
b
fi Ur
S Of

OFFICE

OF

THE

PRESIDENT

OFFICE

BALER
AREDI
M

OF

EMERGENCY

IES

E
TH

PAESIDENTS

EXECUTIVE

PREPAREDNESS

THE LIBRARY QE THE

MAY 16 1972
UNIVERSITY OF ILLINOIS
AT URBANA-CHAMPAIGN

UNIVERSITY OF ILLINOIS -URBANA
JANUARY

VOLUME TWO

1972

3 0112 106555177

Resp. App'x 280
XOX

Resp. App'x 281

Volume Two

DISASTER

PREPAREDNESS

Resp. App'x 282

Resp. App'x 283

PART
EXAMPLE

STATE

VII

DISASTER

Part VII of the PL 91-606 Disaster Study consists of
the text and accompanying explanation of an Example
State Disaster Act as an aid to State officials in
considering possible legislative action to strengthen their
disaster legislation to meet the growing vulnerability to
the impact of such events. Prepared under a contract
with the Office of Emergency Preparedness, Executive
Office of the President, the Example Act was developed
by the Disaster Project and the Committee on Suggested
State Legislation of the Council of State Governments.
Under Project Director Frederick L. Zimmermann,
Professor Emeritus, Hunter College , the Disaster Project
of the Council drafted the Example Act, along with the
commentary thereon . It was twice reviewed by a
subcommittee of the Council's Committee on Suggested
State Legislation .

ACT OF 1972

Members of the Subcommittee were Dr. Carl Frasure
(Chairman), Professor, West Virginia University ; Dr. Carl
Everstine, Legislative Reference Director of Maryland;
Mr. Alan Norris, Member of the State Legislature of
Ohio ; Mr. Charles Wheeler, Director, State Commission
on Higher Education Facilities of North Carolina; and
Mr. Leo Kennedy , Secretary of the Committee.
Following acceptance by that subcommittee, the Act
was reviewed for style by Dr. Everstine, who is a
member of the Committee on Style of the Conference of
State Laws, and
State Commissioners on Uniform
accepted by the full Committee.
In addition to inclusion as a related part of this PL
91-606 Study, the Example Act has been published by
the Council of State Governments as a Special Report,
part of its 1972 Suggested State Legislation .

Resp. App'x 284

Contents
Introduction

3

Section 1 .

Short Title / Commentary - Section 1

5

Section 2.

Purposes / Commentary - Section 2

6

Section 3 .

Limitations / Commentary -Section 3

7

Section 4.

Definitions / Commentary - Section 4

8

Section 5.

TheGovernor and Disaster Emergencies /
Commentary - Section 5

9

Section 6.

State Division of Disaster Emergency Services /
Commentary - Section 6

11

Section 7.

Financing / Commentary - Section 7

13

Section 8.

Local and Interjurisdictional Disaster Agencies
and Services / Commentary -Section 8

15

Establishment of Interjurisdictional Disaster
Planning and Service Areas / Commentary - Section 9

17

Section 9 .

Section 10. Intergovernmental Arrangements / Commentary - Section 10

19

Section 11. Local Disaster Emergencies / Commentary - Section 11

20

Section 12. Disaster Prevention / Commentary - Section 12

21

Section 13. Compensation / Comentary - Section 13

22

Section 14. Communications / Commentary -Section 14

24

Section 15. Mutual Aid / Commentary - Section 15

25

Section 16. Weather Modification / Commentary - Section 16

26

Section 17. Effective Date ....

26

Explanatory

Note

When parentheses are used, the verbiage therein is part of the text of the Act.
When brackets are employed , the verbiage contained is either alternative,
explanatory , or directive .

2

Resp. App'x 285

Introduction

The Example State Disaster Act has been prepared
for consideration by the States in any adaptation of
their laws to meet the growing impact of disaster. This
Report is intended to present the text of the statute
with accompanying discussion . The Introduction is a
brief, general explanation of the reasons for the Example
Act. The text was prepared with the idea that sections,
language, or purposes may prove helpful to States as
they consider revision of their disaster laws.
The report embodies a Section-by-Section commen
tary on the Statute . Those of its provisions which are
self-explanatory are not commented on . However, most
of the provisions can be illuminated by background or
other explanatory comments.
All of the States have statutes dealing with disasters.
For the most part, they were enacted during the 1950's.
At that time the primary motivation was to provide the
basis for preparation and response to military attack ,
especially involving nuclear weapons. It was perceived
that governmental action in connection with any kind of
catastrophe has common elements. Accordingly , these
earlier statutes were broadened in their language to make
them more applicable to circumstances caused by floods,
conflagrations, hurricanes, and other disruptions of a
natural or manmade kind . Within limits, these statutes
have proved useful in meeting such disaster situations. In
fact, this report is a recognition of the value of the
intergovernmental system of disaster organization for
which they provide a legalbase. However, it has become
clear not only that provisions thought useful in a civil
defense context are not always well suited to meeting all
disaster problems and responsibilities but also that
vulnerability to disaster is steadily increasing. Under
standably , the experience of the past decade and a half
has shown many inadequacies in the measures origi
nally formulated . In order to deal more directly with the
problems of nonmilitary disasters, while not excluding
civil defense , and to meet the rising disaster threat, this
example of a State disaster statute has been prepared .
The episodic character of disaster is themost difficult
element with which to deal successfully in statutory and
administrative terms. It has given rise to a number of
contradictions. States have recognized the need to
include all of their territory within the jurisdiction of
State and local disaster agencies and to create thorough
going organizations prepared in advance for all contin
gencies. Yet, there has been some reluctance to take
disaster preparedness seriously because of the tendency

to hope that a catastrophe will never come. The result
has been at times to establish systems of preparedness
and response that look much more complete on paper
than they actually are. In addition, somebasic questions
such as the implementation of clear responsibility and
the funding of disaster programshave not been answered
or have been left indefinite .
This draft legislation is designed primarily as a
compendium of provisions which can be employed or
adapted separately by individual States in accordance
with their particular needsbut of course can be used as a
complete disaster statute or model therefor by those
States wishing to repeal their present laws and consoli
date provisions into a new Disaster Code. The former
approach would result in the inclusion of modernizing
features of the Example Act into existing State law .
A notable feature of the Example Act is its handling
of the jurisdictional question . As indicated earlier there
is need to make sure that every part of the State is
served by the State Disaster Agency and by a local
disaster agency . Yet experience has shown that, for a
variety of reasons, many localities are unable or unlikely
to effect comprehensive disaster prevention , protection ,
and relief organizations. In some instances the reluctance
or inability is due to a lack of trained personnel and
money which can be set aside to handle situations that,
however real, are only contingent. In other instances a
particular area may have a history of relative freedom
from disasters and may have difficulty in seeing why it
should maintain an organization sufficient to afford real
protection for catastrophes which rarely occur. Never
theless, failure to make provision for such eventualities
invites heavy loss of life and severe property damage
when the unexpected occurs.
To strike a proper balance the Example Act provides
that the State Disaster Agency has jurisdiction over and
is obligated to provide services in all areas of the State .
In addition , a local disaster apparatusmust exist to cover
every area within the State , but the nature of the
necessary local provision for disaster contingencies can
vary with the situation of each community . Major
population centers and communities in which there is
good reason to recognize a high disaster potential are
required to have local disaster organizations. The statute
provides that other communities may do so if they wish .
Communities which do not need disaster organizations
of their own are required to assign disaster responsi
bilities to an official of the local government. These

3

Resp. App'x 286

4

DISASTER PREPAREDNESS:

responsibilities would be those of a liaison officer with
the appropriate State and local disaster organizations.
The purpose is to have a specific individual who would
know what help is available in time of disaster and how
it is to be obtained .
Another feature of the disaster organization au

thorized by the Example Act is that disaster services
could be provided on a cooperative basis. Contiguous
counties, cities, towns, or other units could establish an
interjurisdictional disaster agency to serve them on a
joint basis or a locality could make agreements with one
or more of its neighbors for the furnishing of some or all
disaster services. The Governor could also make such
arrangements on an interstate basis or, if his State is on
an international boundary , with an adjacent foreign
jurisdiction.
The Interstate Civil Defense and Disaster Compact,
developed in the early 1950's, contains provisions of
similar import. It has been enacted in all but three States
(Hawaii, Louisiana, Wisconsin ), but with considerable
variation in approach as to participants. Some States
enacted it with all other jurisdictions eligible to join ,
others only with their bordering States, and still others
with only certain bordering States. Unfortunately , with
the decline of the nuclear threat, there has been no real
effort since the middle fifties to clear up this mixed
pattern of enactment. However , it is now becoming
increasingly clear that there must be more effective
interjurisdictional coordination to meet the growing
disaster problem . Since the Compact provides an invalu
able legal basis for interstate and possible State-foreign
relationships useful in the proper functioning of a
comprehensive disaster preparedness and response sys
tem , Section 10 of the Example Act provides specifically
for the enactment of the Compact with all bordering
States previously omitted and gives the Governor author
ity to enter into it with other appropriate States as well .
It is vital that this provision be enacted by all States.
This interstate aspect of the disaster problem is
particularly important because many major population
centers and other vulnerable areas cross boundaries: e.g.
Greater New York , Chicago , St. Louis, and Kansas City ;
and some of a nonmetropolitan character such as the
New Madrid earthquake region (Missouri , Illinois, Ken
tucky, Tennessee) and other areas particularly suscepti
ble to floods or earthquakes.
The Governor is already considered to have responsi
bility for a number of disaster related functions. He
generally acts in his capacity as head of the Executive

VOLUME TWO

Branch of the State Government. However, in the past,
much of his authority has been regarded as inherent in
his office or has devolved on him because there was no
one else to assume the role. As head of the State
Government, it is appropriate that the Governor be
specifically identified as the responsible official with
paramount power to direct the overall disaster program
and to assume command of disaster response and relief
forces in time of emergency . The Example Act makes
this specific identification and provides procedures for
the orderly administration of the disaster program .
Particular attention is also called to the State-local
relationships provided by the Example Act. There would
be disaster plans both at the State and local levels. In
general, each such plan would cover those aspects of
disaster prevention, preparedness, response , and relief
activities most appropriate for the governmental unit or
areas covered by the plan . In addition , however, the
relationship of State and local plans to each other is a
matter of great importance . The State Division of
Disaster Emergency Services created by the Act would
be responsible not only for preparing the State Disaster
Plan but also for assisting local communities and
interjurisdictional areas with the preparation of their
plans. Local plans would be submitted to the Governor
for approval. This integration of State and local activities
is necessary to promote efficient and effective action in
time of emergency .
The Act deals with a number of othermatters related
to disasters, including the rights and obligations of
private persons, emergency communications, and the
making of studies relating to a number of factors
important in reducing or eliminating the danger of loss
of life and property from a variety of causes of disasters.
Generally speaking, the scope of the Act can be
ascertained from
an examination of its first three
sections. It should be pointed out that the statute is not
intended to apply to the normal police and other
protective services, except that the recognition of the
functions performed by these agencies is essential for
any comprehensive disaster law . Similarly , no effort is
made to substitute for the activities that would be
undertaken by the Armed Forces in time of actual
attack upon the United States.
A short commentary follows each section of the
Example Act. Themajor provisions are discussed and the
reasons for their inclusion presented . The failure to
identify a particular provision within a Section means
that no special comment on it is deemed necessary.

Resp. App'x 287

Example

State

Disaster Act of 1972

Section 1. Short Title
This Act shall be cited as the [name of the State ]
Disaster Act of 1972 .

Commentary - Section 1
Section 1. Short Title . This provision is intended
only for purposes of easy reference and identification of
the Act. Whether or not it is included is entirely a matter
of the drafting style of individual States.

5

Resp. App'x 288

6

DISASTER PREPAREDNESS :

Section 2. Purposes
The purposes of this Act are to :
1. reduce vulnerability of people and communities of
this State to damage, injury, and loss of life and property
resulting from natural or manmade catastrophes, riots,
orhostile military or paramilitary action ;
2. prepare for prompt and efficient rescue, care, and
treatment of persons victimized or threatened by
disaster;
3. provide a setting conducive to the rapid and
orderly start of restoration and rehabilitation of persons
and property affected by disasters ;
4. clarify and strengthen the roles of the Governor,
State agencies, and local governments in prevention of,
preparation for, and response to and recovery from
disasters;
5. authorize and provide for cooperation in disaster
prevention , preparedness , response, and recovery ;
provide for coordination
6. authorize and provide
activities relating to disaster prevention , preparedness,
response, and recovery by agencies and officers of this
State , and similar state -local, interstate , Federal-state
and foreign activities in which the State and its political
subdivisions may participate ;

VOLUME TWO

Commentary - Section 2
Section 2. Purposes. - This Section sets forth briefly
the major objectives and intent of the legislation . The
eight numbered purposes need not be repeated here
since they are stated in the statute . It is important to
point out, however, that they emphasize the several
phases of the disaster problem . Taken together they deal
with all phases of the subject starting with planning,
preparedness , and
prevention , as well as actual
operations during and after disasters. In order to
minimize danger and damage associated with disasters ,
thorough
consideration is essential. Even though
disasters may occur only infrequently , failure to be
ready for them results in loss of life and destruction of
property - sometimes of catastrophic proportions. The
legal, administrative, fiscal, training, and operational
activities required to cope with disasters successfully ,
and to prevent them
where possible , cannot be
undertaken in the hours or minutes that constitute the
normal maximum warning time. Accordingly , it is the
intent of the statute to provide the means of doing the
necessary work in timely fashion .

7. provide a disaster management system embodying
all aspects of pre -disaster preparedness and post-disaster
response ; and
8. assist in prevention of disasters caused
aggravated by inadequate planning for and regulation of
public and private facilities and land use .

Resp. App'x 289

Section 3. Limitations
Nothing in this Act shall be construed to :
1. interfere with the course or conduct of a labor
dispute, except that actions otherwise authorized by this
Act or other laws may be taken when necessary to
forestall or mitigate imminent or existing danger to
public health or safety ;
2. interfere with dissemination of news or comment

on public affairs; but any communications facility or
organization (including but not limited to radio and
television stations, wire services, and newspapers) may
be required to transmit or print public service messages
furnishing information or instructions in connection
with a disaster emergency ;
3. affect the jurisdiction or responsibilities of police
forces, fire fighting forces, units of the armed forces of
the United States, or of any personnel thereof, when on
active duty ; but State , local, and interjurisdictional
disaster emergency plans shall place reliance upon the
forces available for performance of functions related to
disaster emergencies; or
4. limit, modify , or abridge the authority of the
Governor to proclaim martial law or exercise any other
powers vested in him under the constitution , statutes , or
common law of this State independent of , or in
conjunction with , any provisions of this Act.

7

VII. EXAMPLE STATE DISASTER ACT OF 1972 - Section 3

Commentary - Section 3
Section 3. Limitations. There are a large number of
normal governmental activities which
have some
relationship to disaster prevention , preparedness, or
response or which involve resources that in time of need
can be devoted to the problems of disaster. This Act
does not attempt to provide for these activities or to
replace them . The Act builds on and , where necessary ,
and
supplements normal governmental structure
procedures. In most instances the effect of the Act on
other matters or its lack of connection with them will be
clear. However, there are some respects in which a
special marking out of the limits of the Act is
appropriate. The Section contains four limitations of
this type. Each is commented on here .
1. This provision makes it clear that the Act is not
intended for emergencies that are produced by strikes.
On the other hand, work stoppages when a disaster has
occurred or is imminent can cause or increase danger.
Accordingly , the language in this part of the Act is
intended to strike a proper balance .
2. There is not intention to interfere with freedom of
speech or of the press. Accordingly, the provision
specifically so states.
Communications are vital in time of disaster . Thus
language has been
included to assure that the
communications media will be available to carry
information and instructions needed by the public.
3. Police, fire , and military units are organized
emergency forces. Even in the absence of disaster
legislation these forces plan , train , and function to meet
emergencies. A purpose of this provision is to assure that
these organizations and their personnel will not be
interfered with in the conduct of their normal roles.
Also , it is important for disaster organizations to take
account of the tasks regularly performed by these
emergency forces and to build upon the help available
from them . For this reason the provision contains an
express statement that this should be done .
4. In all jurisdictions the Governor in fact exercises
authority to respond to emergencies. In large measure
this authority has developed as a result of experience
and exists by custom . Statutes or constitutional
provisions dealing with these emergency powers tend in
many cases to be fragmentary or vague. There is some
virtue in keeping them so because it is desirable that the
Governor be able to do whatever is reasonable in
meeting unforeseen circumstances. Without a declaration
that, whatever they may be, the Governor's powers to
deal with emergencies remain intact, some might
construe a comprehensive disaster statute as a complete
law on the subject, which by its very nature could
displace existing law . This provision negates any such
construction .

Resp. App'x 290

8

DISASTER PREPAREDNESS:

Section 4. Definitions
As used in this Act :
1. “ disaster ” means occurrence or imminent threat of
widespread or severe damage , injury , or loss of life or
property resulting from any natural or manmade cause ,
including but not limited to fire, flood , earthquake,
wind, storm , wave action , oil spill, or other water
contamination requiring emergency action to avert
danger or damage, volcanic activity , epidemic, air
contamination , blight, drought, infestation, explosion ,
riot, or hostile military or paramilitary action ;
2. “ political subdivision ” means any county , city ,
town , village, or other unit of local government; and
3. " unorganized militia ” means all able-bodied male

and female persons between the ages of [ 16 ] and [50 ]
years .

VOLUME TWO

Commentary - Section 4
Section 4. Definitions. The Act contains only three
definitions. All other terms used are to be considered as
having their normalmeanings.
The definition of “ disaster” is made purposely broad
in subject matter, but is confined to situations in which
the effect is widespread or severe. The identification of
specific kinds of disasters is illustrative and it includes
virtually all of the major types that can be expected in
the United States . The definition includes the imminent
threat as well as the actual occurrence . This is necessary
because other parts of the Act call for the taking of
measures in order to prevent or reduce danger that is
about to occur .
The definition of “ political subdivision ” is meant to
embrace all units of general local government and special
districts. The specific enumeration may vary from State
to State because of differences in terminology.
In general the “ unorganized militia” as conceived in
the past has included all able-bodied males. The upper
and lower age limits have either been ill-defined or have
varied from State to State . The definition here employed
is unusual in that it includesboth men and women . This
is important because the types of disaster response
activities contemplated by the statute could in many
cases be performed equally well by men and women .
Furthermore the purpose is to make possible service by
all personswho are in a position to render aid .

Resp. App'x 291

VII . EXAMPLE STATE DISASTER ACT OF 1972 - Section 5

Section 5. The Governor and
Disaster Emergencies

(a ) The Governor is responsible for meeting the
dangers to the State and people presented by disasters.
(b ) Under this act, the Governormay issue executive
orders, proclamations, and regulations and amend or
rescind them . Executive orders, proclamations, and
regulations have the force and effect of law .
( c) [If desired , use this subsection to authorize
establishment of a Governor's Disaster Emergency
Council to advise him on matters relating to disasters. If
a council is established it may be particularly helpful to
include representation of local governments. ]
(d ) A disaster emergency shall be declared by execu
tive order or proclamation of the Governor if he finds a
disaster has occurred or that this occurrence or the
threat thereof is imminent. The state of disaster emer
gency shall continue until the Governor finds that the
threat or danger has passed or the disaster has been dealt
with to the extent that emergency conditions no longer
exist and terminates the state of disaster emergency by
executive order or proclamation ,but no state of disaster
emergency may continue for longer than [ 30 days)
unless renewed by the Governor. The Legislature by
concurrent resolution may terminate a state of disaster
emergency at any time. Thereupon , the Governor shall
issue an executive order or proclamation ending the state
of disaster emergency . All executive orders or proclama
tions issued under this subsection shall indicate the
nature of the disaster, the area or areas threatened , the
conditions which have brought it about or which make
possible termination of the state of disaster emergency .
An executive order or proclamation shall be dissemi
nated promptly by means calculated to bring its con
tents to the attention of the general public and unless
the circumstances attendant upon the disaster prevent or
impede, promptly filed with the State Office of Disaster
Emergency Services, the [State records-keeping agency ]
and the [local records-keeping agency ] in the area to
which it applies.
( e ) An executive order or proclamation of a state of
disaster emergency shall activate the disaster response
and recovery aspects of the State, local, and interjuris
dictional disaster emergency plans applicable to the
political subdivision or area in question and be authority
for the deployment and use of any forces to which the
plan or plans apply and for use or distribution of any
supplies, equipment, and materials and facilities as
sembled, stockpiled , or arranged to be made available
pursuant to this Act or any other provision of law
relating to disaster emergencies.
( f) During the continuance of any state of disaster
emergency the Governor is commander-in -chief of the
organized and unorganized militia and of all other forces

9

Commentary - Section 5
Section 5. The Governor and Disaster Emergencies.
The clear fixing of responsibility for disaster prevention,
preparedness, response , and recovery activities is es
sential to an effective system . The Governor already
occupies a leadership position in these matters by
tradition and usage . Moreover, he is the only official in
the State whose legal and political position is sufficiently
broad to make it possible for him to marshal whatever
personnel and resources are most appropriate in dealing
with unexpected situations requiring rapid , flexible , and
sometimes diverse actions.
Some of the lettered paragraphs of this Section
require no special comment. Only those that would
benefit from further explanation
discussed below .

are identified and

Paragraph (b ) gives the Governor the basic authority
to implement the statute in the normal way - by adminis
trative regulations which then have the same standing as
law .

Paragraph ( d ) provides for the method by which the
Governor can bring a state of disaster emergency into
being. On the whole this procedure is similar to the one
now used in most States. However, several features of
this Paragraph are either unusual or are worthy of special
attention .
It should be noted that it is required that a
proclamation or order declaring an emergency must be
filed promptly with appropriate State and local records
keeping agencies. Since a state of disaster emergency has
legal consequences it is important that evidentiary
documents with respect to its existence , duration , and
the circumstances surrounding it be made matters of
public record. For this reason the minimum contents of
the proclamation or order are also prescribed .
Finally , either the Governor or the Legislature can
terminate a state of disaster emergency, and limitations
are set on its duration. Such provisions are included
because the powers to be exercised during a disaster
emergency are extraordinary ones and so should be
confined to the periods intended by law .
Paragraph (e ) indicates some of the consequences
which result from a gubernatorial declaration of a state
of disaster emergency . In particular it is meant to
provide the basis for the use and distribution of
materials, supplies, and equipment specially kept for use
in connection with such emergencies. Further , this
provision is the basis for calling the disaster plans
previously made into operation .
Paragraph (f) is partially declaratory of the law as it is
generally understood. The Governor is normally com
mander-in -chief of the forces referred to . In addition ,
the Paragraph gives direction to certain types of pro
cedures which should be employed . Ideally , preparation

Resp. App'x 292

10

DISASTER PREPAREDNESS :

available for emergency duty. * To the greatest extent
practicable , the Governor shall delegate or assign com
mand authority by prior arrangement embodied in
appropriate executive orders or regulations, but nothing
herein restricts his authority to do so by orders issued at
the time of the disaster emergency .

( g) In addition to any other powers conferred upon
theGovernor by law , hemay :
(1 ) suspend the provisions of any regulatory
statute prescribing the procedures for conduct of State
business, or the orders, rules, or regulations of any State
agency , if strict compliance with the provisions of any
statute , order, rule, or regulation would in any way
prevent, hinder, or delay necessary action in coping with
the emergency ;
( 2 ) utilize all available resources of the State
Government as reasonably necessary to cope with the
disaster emergency and of each political subdivision of
the State;
(3 ) transfer the direction , personnel, or func
tions of State departments and agencies or units thereof
for the purpose of performing or facilitating emergency
services;
(4 ) subject to any applicable requirements for
compensation under Section 13, commandeer or utilize
any private property if he finds this necessary to cope
with the disaster emergency ;
(5 ) direct and compel the evacuation of all or
part of the population from any stricken or threatened
area within the State if he deems this action necessary
for the preservation of life or other disaster mitigation ,
response , or recovery ;
(6 ) prescribe routes, modes of transportation ,
and destinations in connection with evacuation ;
(7 ) control ingress and egress to and from a
disaster area , the movement of persons within the area ,
and the occupancy of premises therein ;
(8 ) suspend or limit the sale , dispensing, or
transportation of alcoholic beverages, firearms, explo
sives, and combustibles; and
(9 ) make provision for the availability and use of
temporary emergency housing.

VOLUME TWO

to meet disasters should be thorough enough so every
one knows his responsibilities in advance. However, it is
recognized that human foresight is far from perfect and
that the law must allow for decisions to be made and
orders issued on the basis of conditions as they actually
are at any given moment. Accordingly , the provision
establishes a policy of preparing and using as many
orders as possible on a standby basis, butmakes it clear
that orders issued in time of disaster are valid .
Paragraph (g ) enumerates a number of specific actions
that may be taken to cope with disasters. Consequently ,
it constitutes the legal authority for them to be taken .
They are of three basic kinds : suspension of normal
routines during emergencies, operational measures, and
measures for good order.
A special word may be appropriate in reference to the
authority to suspend the provisions of regularly appli
cable laws relating to the conduct of State activities or
otherwise affecting conduct in normal times. Many
requirements are designed to afford procedural protec
tions such as notice of actions about to be taken . Others
are designed as good practice in most circumstances.
Also , laws relating to the administrative structure and
performance of the State Government usually presume
that reasonable amounts of time are available and that
good government requires the following prescribed
routines.
In times of emergency it is often necessary to make
exceptions on an ad hoc basis and to improvise in order
to forestall impending catastrophe or to ameliorate
serious conditions that have suddenly arisen . These
considerations are important to an understanding of this
Paragraph .

* If State police or highway patrols or agencies having similar
functions are not otherwise available to the Governor for disaster
duty , a provision should be added making them available.

Resp. App'x 293

VII. EXAMPLE STATE DISASTER ACT OF 1972 - Section 6

Section 6. State Division of Disaster Emergency
Services
(a ) A

Division of Disaster Emergency Services is

hereby established in the Office of the Governor. The
Division shall have a Director appointed by and to serve
at the pleasure of the Governor. The Division shall have
a planning officer and other professional, technical,
secretarial, and clerical employees as necessary for the
performance of its functions.
(b ) The Division of Disaster Emergency Services shall
prepare and maintain a State Disaster Plan ' and keep it
current,which plan may include:
(1 ) prevention and minimization of injury and
damage caused by disaster;
(2 ) prompt and effective response to disaster ;
( 3 ) emergency relief ;
( 4 ) identification of areas particularly vulnerable
to disasters ;
(5 ) recommendations for zoning, building, and
other land -use controls, safety measures for securing
or other nonpermanent or semi
mobile homes or

permanent structures, and other preventive and pre
paredness measures designed to eliminate or reduce
disasters or their impact;
(6 ) assistance to local officials in designing local
emergency action plans;
( 7) authorization and procedures for the erection
or other construction of temporary works designed to
protect against or mitigate danger, damage , or loss from
flood , conflagration, or other disaster;
(8 ) preparation and distribution to the appro
priate State and local officials of State catalogs of
Federal, State , and private assistance programs;
(9 ) organization of manpower and chains of
command ;
( 10) coordination of Federal, State , and local
disaster activities;
( 11) coordination ofthe State Disaster Plan with
the disaster plans of the FederalGovernment; and
(12) other necessary matters .
( C) The Division of Disaster Emergency Services shall
take an integral part in the development and revision of
local and interjurisdictional disaster plans prepared
under Section 8. To this end it shall employ or otherwise
secure the services of professional and technical person
nel capable of providing expert assistance to political
subdivisions, their disaster agencies, and interjuris
dictional planning and disaster agencies. These personnel
shall consult with subdivisions and agencies on a
regularly scheduled basis and shall make field examina
tions of the areas, circumstances, and conditions to
which particular local and interjurisdictional disaster
plans are intended to apply , and may suggest or require
revisions.
( d) In preparing and revising the State Disaster Plan ,
the Division of Disaster Emergency Services shall seek
the advice and assistance of local government, business,

11

Commentary - Section 6
Section 6. State Division of Disaster Emergency
Services. This Section carries out the themeof guberna
torial responsibility . If the Governor is to have direct
responsibility for disaster services the administrative
agency in charge of this State function should be
immediately under him . Accordingly , it is provided that
a Division be created in the Governor's office rather than
in some other agency of the State government which
would be under the direction of a commissioner who
might also have other duties and who, in any event,
would be subordinate to the Governor.
Paragraph (a )) provides authorizing detail. In a
particular State it will probably be necessary to amplify
this Paragraph in order to cover a variety of other
administrativematters. No effort is made to include such
details here because the style and practice in each Ștate
varies. It should be specially noted , however, that among
the personnel of the Division express mention is made of
a planning officer. This is done because having such a
person with appropriate professional qualifications is of
great importance .
Paragraph (b ) provides for a key element. If the State
is to be prepared for disasters, it must have a disaster
plan well thought out in advance and available to all who
are expected to make use of it. This Paragraph requires
such a plan , provides that it be kept up-to -date, and
indicates the items which are most appropriate for
inclusion in it .
Paragraph (c) marks out a State role in assisting
localities. Disaster services will be provided by a com
bination of State and local agencies. Accordingly , it is
desirable to provide formal connections between State
and local planning activities. Also , the State Disaster
Agency should be well enough staffed and equipped to
provide technical assistance and advice to local govern
ments and their disaster agencies.
Finally , it should be noted that the Paragraph makes
it possible for the State Division to advise a local disaster
agency concerning required changes in the local disaster
plan .
Paragraph ( e) is included in order to point out to the
State Disaster Agency and all other persons and agencies
that it may be desirable to give certain parts of the
disaster plan the standing of law . On the other hand , the
provision makes it equally clear that unless further steps
are taken a disaster plan is not law . By requiring the
Governor to select the portions of the plan that are to be
given the effect of law and include them in appropriate
orders or regulations, encouragement is given for a
careful analysis of the several parts of the plan and the
conscious making of decisions as to the status of each .
Paragraph (f) is a listing of powers and duties of the
State Disaster Agency . It should be recognized that a
number of other provisions of the statute also confer
authority and responsibilities on the agency and on the
Governor. The 13 enumerated items in this Paragraph

Resp. App'x 294

DISASTER PREPAREDNESS :

12

labor, industry , agriculture, civic , and volunteer organi
zations and community leaders. In advising local and
interjurisdictional agencies, the Division shall encourage
them also to seek advice from these sources.
(e ) The State Disaster Plan or any part thereof may
be incorporated in regulations of the Division of Disaster
Emergency Services or executive orders which have the
force and effect of law .
(f)
shall :

The Division of Disaster

Emergency

Services

(1 ) determine requirements of the State and its
political subdivisions for food , clothing, and other
necessities in event ofan emergency ;

VOLUME TWO

are meant to supplement and complete these other
provisions to the end that the State Disaster Agency will
have a comprehensive mandate to function in the fields
of disaster prevention , preparedness, response , and re
covery .
The enumerated items are of several different kinds.
Some of them confer authority to perform specific
preparedness or operational tasks. Others, such as the
compiling of registers of available personnel and ma
terials, are for planning and informational purposes. It
will be helpful to consider the items in this Paragraph
along with the earlier provisions relating to the prepara
tion and contents of the State Disaster Plan .

(2 ) procure and pre -position supplies, medi
cines,materials, and equipment;
( 3) promulgate standards and requirements for
local and interjurisdictional disaster plans;
(4 ) periodically review
local and interjuris
dictional disaster plans;
(5 ) provide formobile support units;
(6 ) establish and operate or assist political sub
divisions, their disaster agencies, and interjurisdictional
disaster agencies to establish and operate training pro
gramsand programs of public information ;
(7 ) make surveys of industries, resources, and
facilities within the State , both public and private , as are
necessary to carry out the purposes of this Act ;
(8 ) plan and make arrangements for the avail
ability and use of any private facilities, services, and
property and, if necessary and if in fact used, provide for
payment for use under terms and conditions agreed
upon ;
(9 ) establish a register of persons with types of
training and skills important in emergency prevention ,
preparedness, response , and recovery ;
( 10 ) establish a register of mobile and con
struction equipment and temporary housing available for
use in a disaster emergency ;
(11) prepare , for issuance by the Governor,
executive orders, proclamations, and regulations as
necessary or appropriate in coping with disasters ;
(12) cooperate with the Federal Government
and any public or private agency or entity in achieving
any purpose of this Act and in implementing programs
for disaster prevention , preparation , response , and re
covery ; and
(13) do other things necessary, incidental, or
appropriate for the implementation of this Act.

Resp. App'x 295

13

VII. EXAMPLE STATE DISASTER ACT OF 1972 - Section 7

(b ) The [Disaster ] Emergency Funding Board * is
established composed of the President [Pro Tem ] of the
Senate , the Speaker of the House and the Chairman of
the (appropriate financial] committee of each House .
(c) A (Disaster] Contingency Fund is established

Commentary - Section 7
Section 7. Financing. – Financing of disaster planning
and operations has until now been one of the weakest
parts of the entire public disaster activity . The tempta
tion is great to omit or skimp on the provision of money
for this purpose . In the situation of chronic shortage of
public funds and constant pressure to devote them to
many worthy uses, it is easy to gamble on the possibility
that a disaster will not occur this year. Also , it is possible

which shall receive monies appropriated thereto by the
Legislature. [Monies in the [Disaster ] Contingency Fund
shall remain therein until expended .]

to comfort oneself with the general belief that in time of
need somehow a way will be found to do whatever is
necessary . However, experience shows that such an

(d ) It is the legislative intent that the first recourse
shall be to funds regularly appropriated to State and
local agencies. If the Governor finds that the demands
placed upon these funds in coping with a particular
disaster are unreasonably great, he may [with the
concurrence of the [Disaster ] Emergency Funding
Board ,] make funds available from the [Disaster]
Contingency Fund . If monies available from the Fund
are insufficient, and if the Governor finds that other
sources of money to cope with the disaster are not
available or are insufficient, the Governor , with the
concurrence of the [Disaster ] Emergency Funding
Board , may transfer and expend monies appropriated for
other purposes or borrow for a term not to exceed [2 ]
years from the United States Government or other
public or private source .
(e) Nothing contained in this Section shall be con
strued to limit the Governor's authority to apply for ,
administer, and expend grants, gifts, or payments in aid
of disaster prevention, preparedness , response, or re
covery

approach is insufficient. While one cannot predict
exactly when disasters will strike and how severe they
will be, the statistical record demonstrates that one or
more of them is almost certain to occur in almost every
year. When the disaster actually comes,money aswell as
personnel and materials are needed immediately and
often in substantial amounts.

Section 7. Financing ( Alternative # 1 ]
(a) It is the intent of the Legislature and declared to
be the policy of the State that funds to meet disaster
emergencies shall always be available .

Section 7. Financing ( Alternative # 2 ]
(a ) It is the intent of the Legislature and declared to
be the policy of the State that funds to meet disaster
emergencies shall always be available .
(b ) The [Disaster ] Emergency Funding Board * is
established , composed of the President [Pro Tem ] of the
Senate , the Speaker of the House , and the Chairman of
the (appropriate financial] committee of each House.
(c) It is the legislative intent that the first recourse
shall be to funds regularly appropriated to State and
local agencies. If the Governor finds that the demands
placed upon these funds in coping with a particular
disaster are unreasonably great, [with the concurrence of
the [Disaster] Emergency Funding Board ,] he may
make funds available by transferring and expending
monies appropriated for other purposes or may borrow
for a term not to exceed [ 2 ] years from the United
States Government or any other public or private source .
* Another alternative as indicated by the bracketing is to
leave out the term Disaster and employ a Contingency Fund and
Emergency Funding Board which would cover other emergencies
in addition to disasters. Some States already have this type of
agency .

This Section is presented in two alternative forms.
The difference between them
is that alternative 1
provides for the creation of a special contingency fund,
whereas alternative 2 does not. A number of States
already have such

funds and have found them

useful.

Other jurisdictions are reluctant to create them because
they do not wish to appropriate money that may ormay
not be used . It is desirable to provide for a contingency
fund, but if such a course should prove impracticable in
particular States, alternative 2 provides the maximum
that can be done in the absence of a fund .
Paragraph (a ) is the same in both alternatives. Its

purpose is to state as a matter of law that the Legislature
intends money always to be available for the meeting of
disaster needs. This lays the foundation for subsequent
provisions of the Section permitting emergency expendi
tures, transfers, and borrowing.
Paragraph (b ) is particularly important in terms of
the composition of the Board which it establishes.
Obviously , the Legislature can vote money and take
other necessary actions to meet disasters if it is in
session . However, there are significant periods of time in
every State when the Legislature is not in session . If a
disaster occurs at such a time a problem arises in that
there is no legislative authority available for immediate
action . Accordingly , the Board here proposed is com
posed of the general and financial leadership of the
Legislature . Pursuant to subsequent provisions, it is given
the authority to act when the Legislature as a whole is
not in session . There has been some use of similar
devices in the past. The Legislature should find the
arrangement satisfactory because it entrusts the power
to a body drawn from its ownmembership .
Paragraph (c ) in alternative 1 is the special fund pro
vision which constitutes the difference between the two
alternatives. The reasons for it have been set forth above .
It should be noted that money appropriated to this fund
should not be permitted to lapse . As a general rule ,

Resp. App'x 296

DISASTER PREPAREDNESS :

14

[Action pursuant to this subsection shall be only with
the concurrence of the [Disaster] Emergency Funding
Board .)
(d ) Nothing
strued to limit
administer, and
aid of disaster
recovery .

contained in this Section shall be con
the Governor's authority to apply for,
expend any grants, gifts, or payments, in
prevention , preparedness, response, or

VOLUME TWO

appropriate monies would lapse at the end of the
appropriation period unless it is specifically provided
otherwise .
Paragraphs (d ) and (e ) of alternative 1 and (d ), of
alternative 2 set forth the procedures and sequences to
be employed in securing money for coping with disaster
emergencies. If a special fund is established , the order in
which resources are to be tapped begins with the use of
funds normally available from the several State agencies.
For example , State highway departments customarily
have money for snow removal. Police agencies are
expected to expend significant parts of their budgets in
coping with unforeseen occurrences, including those of a
disaster character. In addition , it is sometimes possible
to make use of funds regularly available in State agencies
without transgressing the defined purposes and functions
of the particular agencies.
Where a special fund exists, it should be called into
play as the next recourse . Thereafter the transfer,
borrowing, and grant acceptance provisions which con
stitute thebalance of the Section can be employed .

Resp. App'x 297

VII. EXAMPLE STATE DISASTER ACT OF 1972 - Section 8

Section 8. Local and Interjurisdictional Disaster
Agencies and Services
(a ) Each political subdivision (and unincorporated
place] * within this State shall be within the jurisdiction
of and served by the Division of Disaster Emergency
Services and by a local or interjurisdictional agency
responsible for disaster preparedness and coordination
of response .

(b ) Each county shall maintain a disaster agency or
participate in a local or interjurisdictional disaster
agency which , except as otherwise provided under this
Act, has jurisdiction over and serves the entire county .
(c) The Governor shall determine which municipal
corporations need disaster agencies of their own and
require that they be established and maintained . He shall
make his determinations on the basis of the
municipality's disaster vulnerability and capability of
response related to population size and concentration.
The disaster agency of a county shall cooperate with the
disaster agencies of municipalities situated within its
borders but shall not have jurisdiction within a munici
pality having its own disaster agency . The Division of
Disaster Emergency Services shall publish and keep
current a list of municipalities required to have disaster
agencies under this subsection .
(d ) Any provision of this Act or other law to the
contrary notwithstanding, the Governor may require a
political subdivision to establish and maintain a disaster
agency jointly with one or more contiguous political
subdivisions, if he finds that the establishment and
maintenance of an agency or participation therein is
made necessary by circumstances or conditions that
make it unusually difficult to provide disaster pre
vention , preparedness, response , or recovery services
under other provisionsof this Act.
(e) Each political subdivision which does not have a
disaster agency and has not made arrangements to secure
or participate in the services of an agency shall have a
liaison officer designated to facilitate the cooperation
and protection of that subdivision in the work of
disaster prevention, preparedness, response , and re
covery
(f) The Mayor, Chairman of the County Board of
Supervisors, or other principal executive officer of each
political subdivision in the State shallnotify the Division
of Disaster Emergency Services of the manner in which
the political subdivision is providing or securing disaster
planning and emergency services, identify the person
who heads the agency from which the service is
obtained , and furnish additional information relating
thereto as the Division requires.
( g) Each local and interjurisdictional agency shall

prepare and keep current a local or interjurisdictional
disaster emergency plan for its area .
* A few States have areas of sparse population that are not
within the territorial limits of any county or incorporated unit
government .
local
of

15

Commentary - Section 8
Section 8. Local and Interjurisdictional Disaster
Agencies and Services. - As already pointed out, local
governments should have disaster services of their own .
The State can provide a great deal and can coordinate
activities, but a disaster occurs in a particular place and
must be met by services promptly provided on the spot.
It is the plan of this statute that every community in the
State will have the services of both State and local
authorities.
On the other hand , disaster response organization has
at times been characterized by an over-elaboration of
paper disaster agencies, particularly at the local level.
Experience has shown that while all local communities
require access to disaster services, not all such communi
ties have the resources or the need to maintain compre
hensive disaster agencies and plans of their own. There
are several ways that local needs can be served. Which of
them
is most effective depends on the particular
circumstances of individual communities. This Section
provides standards and procedures by which the most
effective choices of organizational and responsibility
patterns can be made.
Paragraph (a ) merely states the jurisdictional neces
sity for the State agency to function everywhere and for
each local area to have locally based disaster services.
Paragraph (b ) identifies the county as the unit of
government which , in most instances, is likely to provide
disaster services. Its territorial extent makes it generally
suitable for this function . In rural areas it is likely to be
the basic governmental unit as well. In urban and
suburban areas it may be more appropriate for other
units of government such as major cities to maintain
their own disaster agencies. Subsequent Paragraphs of
this Section mark out the circumstances under which
this may be the case.
Paragraph ( c) gives the Governor the responsibility
of determining which municipalities require their own
disaster agencies. The more customary alternative would
have been to fix a population limit in the statute and to
require all communities in excess of that population to
maintain disaster agencies. However, such a test is too
mechanical. There are many small communities which ,
because of their location , industrial development, or
other conditions are particularly able to maintain or are
in need of their own disaster services . Accordingly , the
Paragraph fixes general standards for determining which
communities need to maintain disaster agencies and
authorizes the Governor to make the decision .
In order to make the pattern or responsibility clear ,
the Paragraph also provides that only one local disaster
agency will have jurisdiction in a particular area.
Accordingly , the county agency would cooperate with a
municipal disaster agency but would not duplicate its
territorial responsibilities.
Paragraph (d ) recognizes that no established political
boundary lines are inevitably appropriate for the provi

Resp. App'x 298

16
DISASTER PREPAREDNESS :

(h ) The local or interjurisdictional disaster agency , as
the case may be, shall prepare and distribute to all
appropriate officials in written form a clear and com
plete statement of the emergency responsibilities of all
local agencies and officials and of the disaster chain of
command.

VOLUME TWO

sion of local disaster services. Several adjoining counties
or communities may provide a more suitable basis for
the function than would any one of them acting alone.
Accordingly , the Governor is given authority to require
that such counties or municipalities act jointly, when he
finds such a course to be more suitable .
Paragraph ( e) deals with communities that do not
themselves require disaster agencies. Generally speaking,
such communities will receive disaster services from the
county in which they are located . However, any organ
ized unit of general local government should be aware of
the assistance that can be secured in time of disaster and
of the means for obtaining it. The liaison officer
required by this Paragraph is intended to serve this
'purpose .
Paragraph (h ) deals with a problem that has pre
sented an organizational weakness in the past. In some
areas satisfactory plans have been made, but responsi
bilities and authority to carry them
out are not
communicated to those who should have the informa
tion . This Paragraph requires that such information be
provided .

Resp. App'x 299

VII. EXAMPLE STATE DISASTER ACT OF 1972 - Section 9

Section 9. Establishment of Interjurisdictional
Disaster Planning and Service Areas
(a ) If the Governor finds that two or more adjoining
counties would be better served by an interjurisdictional
arrangement than by maintaining separate disaster
agencies and services, he may delineate by executive
order or regulation an interjurisdictional area adequate
to plan for, prevent, or respond to disaster in that area
and direct steps to be taken as necessary , including the
creation of an interjurisdictional relationship , a joint
disaster emergency plan, mutual aid , or an area organiza
tion for emergency planning and services. A finding of
the Governor pursuant to this subsection shall be based
on one or more factors related to the difficulty of
maintaining an efficient and effective disaster preven
tion , preparedness, response , and recovery system on an
unijurisdictional basis , such as :
( 1) small or sparse population ;
( 2 ) limitationson public financial resources severe
enough to make maintenance of a separate disaster
agency and services unreasonably burdensome;
( 3 ) unusual vulnerability to disaster as evidenced
by a past history of disasters, topographical features,
drainage characteristics, disaster potential, and presence
of disaster-prone facilities or operations ;
( 4 ) the interrelated character of the counties in a
multicounty area;

(5 ) other relevant conditions or circumstances.
(b ) If the Governor finds that a vulnerable area lies
only partly within this State and includes territory in
another State or States or territory in a foreign jurisdic
tion and that it would be desirable to establish an
interstate or international relationship ,mutual aid , or an
area organization for disaster, he shall take steps to that
end as desirable. If this action is taken with jurisdictions
that have enacted the Interstate Civil Defense and
Disaster Compact, any resulting agreement or agree
ments may be considered supplemental agreements
pursuant to Article VI of that compact .
(c) If the other jurisdiction or jurisdictions with
which the Governor proposes to cooperate pursuant to
subsection (b ) hereof have not enacted that compact,
he may negotiate special agreements with the jurisdiction
or jurisdictions. Any agreement, if sufficient authority
for the making thereof does not otherwise exist, becomes
effective only after its text has been communicated to
the Legislature and provided that neither House of the
Legislature has disapproved it by adjournment of the
next ensuing session competent to consider it or within
thirty days of its submission , whichever is longer.

17

Commentary - Section 9
Section 9. Establishment of Interjurisdictional Dis
aster Planning and Service Areas. - Section 8 ( d ) of the
Act deals with joint disaster agencies for municipalities.
Its language is also broad enough to encompass joint
action by counties. However, the criteria to be applied
are not spelled out in detail in that provision . Section 9
( a ) is intended for that purpose .
There are many areas in which the State cannot be
considered a self-contained unit . Just as two or more
municipalities or counties may require cooperative ac
tion , two or more States, or even a State and a foreign
jurisdiction , may benefit from
joint or cooperative
action . Paragraphs (b ) and (c ) deal with such situations.
The Interstate Civil Defense and Disaster Compact
mentioned in this Section has been enacted by almost all
of the States. But the pattern of enactments is varied .
Some States have entered into the Compact only with
the States on their borders or even with only some of
those States. Others have not imposed such a limitation
and so are in position to cooperate with any jurisdictions
as circumstances may warrant.
Although the Interstate Civil Defense and Disaster
Compact was formulated in the early 1950's - very
largely with the problems of possible nuclear attack in
mind - its language is broad enough to permit its use in
any kind of disaster situation, including those ofnatural
or man -made origin . Article VI of the Compact author
izes its implementation by the making of supplementary
agreements dealing with specific subjects.
Article VI of the Civil Defense and Disaster Compact
authorizes an enacting State to make supplemental
agreements with other States. The Article does not

specify the official who is so authorized . Consequently ,
the only official who clearly has the power is the
Governor. As head of the State Government, he normally
is the one to make agreements on behalf of the State. If
another official is to have such authority , the statute (or
in this case the compact) would have to be more
specific.
In those States which have enacted the Civil Defense
and Disaster Compact, it is already statutory law .
Accordingly , Article VI is legislative authorization for
the Governor to make supplemental agreements binding
on the State. No further legislative authorization is
necessary . Also , it should be noted that Congress has
given its consent to the compact pursuant to the
procedures set forth in the Civil Defense Act of 1950.
This includes consent to Article VI. Accordingly , it is
not necessary to inquire whether a particular supple
mental agreement would need the consent of Congress .
Even if it would , Congress has already consented in
advance.
As indicated earlier in this Report, our present
approach to disaster prevention, preparedness, response ,
and recovery is more comprehensive than former legisla
tion was. Accordingly, the question is whether the

Resp. App'x 300

18

DISASTER PREPAREDNESS:

VOLUME TWO

supplemental agreements that the Governor could make
under the Interstate Civil Defense and Disaster Compact
are inclusive enough to serve present needs. In all
probability they are .
Article I of the Compact reads in relevant part :
The purpose of this compact is to providemutual
aid among the States in meeting any emergency or
disaster from enemy attack or other cause (natural
or otherwise ) including sabotage and subversive
acts and direct attacks by bombs, shellfire, and
atomic
radiological, chemical, bacteriological
means, and other weapons. The prompt, full and
effective utilization of the resources as may be
available from the United States Government or
any other source , are essential to the safety , care ,
and welfare of the people thereof ..
From this language, and from other parts of the
Compact, including Article VI, it seems clear that it is
addressed to the mutual aid and response elements of
disaster. However, this specifically includes the making
of plans to cope with disaster conditions. Accordingly , it
seems clear that most of the things about which States
might agree could be covered. Long-range preventive
measures such as joint or cooperative construction of
protective works on land-use regulation in an interstate
area should probably be undertaken under special and
more specific authorization than that contained either in
the Compact or in the Example Act.
It should be noted that Congress has specifically
consented to the Civil Defense and Disaster Compact ,
which in Article 10 states, “ The term 'State' may also
include any neighboring foreign country or province or
State thereof."

Resp. App'x 301

VII. EXAMPLE STATE DISASTER ACT OF 1972 - Section 10

Section 10. Intergovernmental Arrangements
(a ) This State enacts into law and enters into the
Interstate Civil Defense and Disaster Compact with all
States, as defined therein , bordering this State , which
States have enacted or shall hereafter enact the compact
in the form substantially as follows.*
[Insert exact text of Interstate Civil Defense
and Disaster Compact.)

(b ) The Governor may enter into the compact with
any State which does not border this State if he finds
that joint action with the State is desirable in meeting
common intergovernmental problems of emergency
disaster planning, prevention , response , and recover.
(c) Nothing in subsections (a ) and (b ) shall be
construed to limit previous or future entry into the
Interstate Civil Defense and Disaster Compact of this
State with other States.
(d ) If any person holds a license, certificate, or other
permit issued by any State or political subdivision

19

Commentary - Section 10
Section 10. Intergovernmental Arrangements. This
Section is devoted almost entirely to the enactment of
the Interstate Civil Defense and Disaster Compact. In
most States this will mean merely recodification of the
Compact so as to combine it with the rest of the State
law on disaster. In some instances it may also mean
increasing the number of other States with which the
State is authorized to cooperate . In those few instances
where a State has not previously enacted the Compact, it
is strongly recommended that this be done.
Paragraph (d ) of the Section , as its accompanying
note indicates, is also contained in substance in the
Compact. However, it is desirable that persons with
licensed skills be legally able to render aid in time of
disaster even if their licenses are from jurisdictions other
than those with which the State is a participant in the
Compact.

thereof evidencing the meeting of qualifications for
professional,mechanical, or other skills, the person may
render aid involving that skill in this State to meet an
emergency or disaster, and this State shall give due
recognition to the license, certificate , or other permit. †

* If the State has already enacted the Interstate Civil Defense
and Disaster Compact, the provision should read “ ... in the
form substantially contained in section of the State code. " In
such case the text of the compact need not be included in this
Act.
+ A similar clause is contained in the Interstate Civil Defense
and Disaster Compact.
Clause (d ) is included in the example statute because , first,
it makes it unnecessary for there to be a partner to put it into
effect and, secondly , it covers licenses which are issued by
political subdivisions in some States ( e.g., Maryland) .

Resp. App'x 302

DISASTER PREPAREDNESS:

20

Section 11. Local Disaster Emergencies
(a ) A local disaster emergency may be declared only
by the principal executive officer of a political subdivi
sion . It shall not be continued or renewed for a period in
excess of [7 ] days except by or with the consent of the
governing board of the political subdivision . Any order
or proclamation declaring, continuing, or terminating a
local disaster emergency shall be given prompt and
general publicity and shall be filed promptly with the
( chief local records-keeping agency ] .
(b ) The effect of a declaration of a local disaster .
emergency is to activate the response and recovery
aspects of any and all applicable local or interjurisdic
tional disaster emergency plans and to authorize the
furnishing of aid and assistance thereunder .
(c) No interjurisdictional agency or official thereof
may declare a local disaster emergency , unless expressly
authorized by the agreement pursuant to which the
agency functions. However, an interjurisdictional dis
aster agency shall provide aid and services in accordance
with the agreement pursuant to which it functions.

VOLUME TWO

Commentary - Section 11
Section 11. Local Disaster Emergencies. - This Section
parallels in general the provisions of the Act dealing with
the declaration and continuance of a state of disaster
emergency proclaimed by the Governor. There are
emergency situationsmeriting such proclamation at the
local level but which are not intense or widespread
enough to require the declaration of an emergency at the
State level. For the most part, the legal framework for
local disaster emergencies should be contained in local
laws and ordinances. Accordingly, this Section is brief.
Particular attention should be given to Paragraph (c )
of this Section . Since the law underlying an interjurisdic
tional agreement cannot be contained solely in the laws
of any one local jurisdiction , it is necessary for State law
to contain a provision such as this Paragraph . The
particular language used here is also intended to make
clear that even by declaring a local emergency no single
participant in an interjurisdictional arrangement can
commit resources or incur obligations on behalf of the
other parties to the arrangement, except pursuant to the
interjurisdictional agreement.

Resp. App'x 303

VII. EXAMPLE STATE DISASTER ACT OF 1972 - Section 12

Section 12. Disaster Prevention
(a ) In addition to disaster prevention measures as
included in the State , local, and interjurisdictional
disaster plans, the Governor shall consider on a con
tinuing basis steps that could be taken to prevent or
reduce the harmful consequences of disasters. At his
direction , and pursuant to any other authority and
competence they have , State agencies, including but not
limited to those charged with responsibilities in connec
tion with flood plain managment, stream encroachment
and flow regulation , weather modification , fire preven
tion and control, air quality, public works, land use and
land-use planning, and construction standards, shall
make studies of disaster prevention -related matters. The
Governor, from time to time, shall make recommend
ations to the Legislature, local governments , and other
appropriate public and private entitites as may facilitate
measures for prevention or reduction of the harmful
consequences of disasters.
(b ) The [appropriate State agency ] , in conjunction
with the Division of Disaster Emergency Services, shall
keep land uses and construction of structures and other
facilities under continuing study and identify areas
which are particularly susceptible to severe land shifting,
subsidence, flood, or other catastrophic occurrence . The
studies under this subsection shall concentrate on means
of reducing or avoiding the dangers caused by this
occurrence or the consequences thereof.
(c ) If the Division of Disaster Emergency Services
believes on the basis of the studies or other competent
evidence that an areas is susceptible to a disaster of
catastrophic proportions without adequate warning ,that
existing building standards and land-use controls in that
area are inadequate and could add substantially to the
magnitude of the disaster, and that changes in zoning
regulations, other land-use regulations, or building re
quirements are essential in order to further the purposes
of this section , it shall specify the essential changes to
the Governor. If the Governor upon review of the
recommendation finds after public hearing that the
changes are essential, he shall so recommend to the
agencies or local governments with jurisdiction over the
area and subject matter. If no action or insufficient
action pursuant to his recommendations is taken within
the time specified by the Governor, he shall so inform
the Legislature and request legislative action appropriate
to mitigate the impact of disaster .
(d ) The Governor, at the same time that hemakes his
recommendations pursuant to subsection (c), may
suspend the standard or control which he finds to be
inadequate to protect the public safety and by regula
tion place a new standard or control in effect. The new
standard or control shall remain in effect until rejected

21

full effect by all relevant regulatory agencies of the State
and local governinents to which it applies. The Gov
ernor's action is subject to judicial review [in accordance
with the State administrative procedure act] [provide
appropriate review procedures ] but shall not be subject
to temporary stay pending litigation .

Commentary - Section 12
Section 12. Disaster Prevention . It is axiomatic that
the best way to deal with a disaster is to prevent its
occurrence. In many instances this cannot be done
because the phenomena which cause it are beyond Man's
control. However, it is possible to create conditions
which will cut susceptibility to the harmful conse
quences of disaster such as injury , death , and loss of
property to a minimum and which will facilitiate
effective response to danger. These measures are of a
long-range nature 'and most of them are not generally
thought of in a disaster context at all. For example, the
proper elevation of a bridge to allow for passage of flood
waters is a highway construction matter. Proper rein
forcement and structural design of buildings to make
them as resistant as possible to fire or earthquake is
generally handled as a matter of overall building regula
tion . In the main , these activities should be left with the
agencies responsible for the individual subject matters.
However, it is important that their relevance for disaster
be recognized and that disaster considerations enter into
the planning, regulation , and operational activities in
these other fields.
Land use is probably the single most important factor
bearing on the prevention of damage and loss of life
from disasters . Accordingly , Paragraph (d ) gives the
Governor an extraordinary power in this regard . It is
desirable because experience shows that local and private
persons and agencies normally are not sufficiently aware
of the dangers from
disaster and usually are not
organized or motivated to give the subject sufficient
emphasis in the conduct of their regular activities. The
Paragraph comes into play only after the officials and
persons most directly concerned have been apprised of
the facts and have failed to act. Even so , the Paragraph
has safeguards written into it in that gubernatorial action
can be overridden by the Legislature . However, court
stays prior to final judicial determinations are not
allowed because litigation is frequently protracted and
during its continuance many costly
actions could be taken .

by concurrent resolution of both houses of the Legis
lature or amended by theGovernor. During the time it is
in effect, the standard or control contained in the
Governor's regulation shall be administered and given

Resp. App'x 304

or irreversible

22

DISASTER PREPAREDNESS :

Section 13. Compensation
(a ) Each person within this State shall conduct him
self and keep and manage his affairs and property in
ways that will reasonably assist and will not unreason
ably detract from the ability of the State and the public
successfully to meet disaster emergencies. This obliga
tion includes appropriate personal service and use or
restriction on the use of property in time of disaster
emergency. This Act neither increases nor decreases
these obligations but recognizes their existence under
the constitution and statutes of this State and the
common law . Compensation for services or for the
taking or use of property shall be only to the extent that
obligations recognized herein are exceeded in a particu
lar case and then only to the extent that the claimant
may not be deemed to have volunteered his services or
property without compensation .
(b ) No personal services may be compensated by the
State or any subdivision or agency thereof, except
pursuant to statute or local law or ordinance.
(c) Compensation for property shall be only if the
property was commandeered or otherwise used in coping
with a disaster emergency and its use or destruction was
ordered by the Governor or a member of the disaster
emergency forces of this State.
(d ) Any person claiming compensation for the use,
damage, loss, or destruction of property under this Act
shall file a claim therefor with the (narne of appropriate
State agency ] in the form and manner the (appropriate
State agency ] provides.
(e ) Unless the amount of compensation on account of
property damaged , lost, or destroyed is agreed between
the claimant and the [appropriate State agency ] , the
amount of compensation shall be calculated in the same
manner as compensation due for a taking of property
pursuant to the condemnation laws of this State . [Each
State will need to determine the administrative and
judicial procedures to be used and add appropriate
provisions to the statute. ]
[ (f) Nothing in this Section applies to or authorizes
compensation for the destruction or damaging of stand
ing timber or other property in order to provide a fire
break or to the release of waters or the breach of

impoundments in order to reduce pressure or other
danger from actual or threatened flood .]

VOLUME TWO

Commentary - Section 13
Section 13. Compensation. The main point of this
Section is that private persons and entities owe and must
assume the risks for certain aspects of disaster. However,
beyond the point where it is reasonable for such persons
and entities to bear the costs resulting from catastrophic
occurrences or attendant upon coping with them , the
public treasury should provide compensation . This is
particularly true whenever an individual's loss was
incurred in order to advance the public interest rather
than to protect his own life or property . As the later
comments on this Section will indicate in greater detail,
it is not possible at this time to offer asmuch assistance
in this field of law and public policy as would be
desirable. Nevertheless, the subject requires attention .
What is provided in this statute is presented as the best
that can be done now and in the hope that it will
encourage further exploration .
Paragraph (a ) ideally should be a definition of the
obligations of private individuals with respect to their
conduct and property . The purpose is to delineate the
level of burden and risk which under present law a
person is bound to assume. As the Paragraph specifically
states, it is only excess damage or provision of services
greater than those which a citizen owes the community
in time of peril that should receive compensation. Since
the law on this subject has not previously been formu
lated with any degree of exactness, the Paragraph recites
the existence of such obligations and declares that they
are intended to remain as they are. In the absence of
such a declaration , the Section might be construed as a
broad recognition of a right to compensation for any
and all help furnished by an individual in time of
emergency
Paragraph (b ) is designed to assure that claims for
compensation will not be construed to exist, except to
the extent provided pursuant to the Act and unless the
claimant follows the established procedures for making
and proving his claim .
Paragraphs (c)-(e) embody two policies which are
believed to be equitable and appropriate. The first is that
compensation for property should be only if it was
" taken ” for the public benefit. If it was contributed or
used and returned in reasonable condition , the assump
tion can be made that the individual suffered no
significant loss or that he meant to donate his property .
The second point is as to the measure of damages.
Every State provides for such measurement in cases of
taking by condemnation . To the extent that compensa
tion in the circumstances contemplated by this Section
is appropriate, it is compensation for property taken by
the public.
Paragraph (f) is likely to be controversial. Its

justification is on practical grounds. Losses through
forest fire and flood occur frequently and amount to
millions of dollars for single instances. Until much more
has been done to develop well thought-out and soundly

Resp. App'x 305

VII. EXAMPLE STATE DISASTER ACT OF 1972 – Commentary - Section 13

23

financed programs of compensation , a system that does
not make exclusions for catastrophic losses is likely to
be so unrealistic as to be beyond the capacity of most
States.
Some questions of legal rights and obligations related
to disasters have no answers. Until now , it has not been
thought essential to obtain them , because in time of
peril some people respond without considering their own
personal danger, inconvenience , or risk of loss. Perhaps it
will never be possible to estimate how much life and
property is compromised by the lack of clarity in these
matters or the extent of the inequities that result from
the absence of well-defined and consciously though -out
policies in this field . Nevertheless , we are now at the
point where it is necessary to define and implement
personal and property rights and obligations in statutory
terms. This requires both policy formulation and im
plementation.
If governmental entities are to think in terms of
compensation for various aspects of disaster service and
loss, it must be determined what private individuals owe
to the community as a matter of legal and civic
obligation and what is the area of personal service or
dedication of property that government has a right to
demand , but only with payment of compensation . Clear

policies equitably implemented are particularly needed
because disaster conditions require that the services or
property be placed at the disposal of the public first.
Only after they have been used , and sometimes
damaged , destroyed , or expended, can the equities be
administratively or judicially fixed .
Neither the existing situation nor the desirable
content of policy is clear. Accordingly , a study would
have to determine how much can be made of present law
relating to the rights and obligations of private persons
in disaster situations. This would involve the collection
and analysis of relevant case law and of any statutory
provisions that might be in point. Because the subject
has not received conscious and systematic attention
from
either the States or the Federal Government,
considerable interpretation and construction by analogy
would be necessary .

The applicability of this study to response is more
obvious than to preparedness. In this connection it
should be pointed out that the Office of Emergency
Preparedness is much concerned with zoning and other
land-use controls as tools for preventing or reducing
dangers from disasters. While the bases of State and
local land-use controls have been extensively explored
by courts and text writers over a period of more than
fifty years , the specific consideration of questions
relating to restrictions on private property , expressly
based on the public right to regulate in the name of
disaster prevention or protection , would benefit from
explicit statement .

Resp. App'x 306

DISASTER PREPAREDNESS :

24

Section 14. Communications
The Division of Disaster Emergency Services shall
ascertain what means exist for rapid and efficient
communications in times of disaster emergencies. The
Division shall consider the desirability of supplementing
these communications resources or of integrating them
into a comprehensive State or State -Federal tele
communications or other communications system or
network . In studying the character and feasibility of any
system or its several parts, the Division shall evaluate the
possibility of multipurpose use thereof for general State
and local governmental purposes. The Division shall
make recommendations to the Governor as appropriate.:

VOLUME TWO

Commentary - Section 14
Section 14. Communications. The subject of this
Section is a critical one. In large measure it will have
been handled by activities under other provisions of the
Act - especially those dealing with the State , local, and
interjurisdictional disaster plans. Clearly, the planning
and arranging of communications patterns and avail
ability of facilities should be included in planning and
preparedness work .
However, one additional element of the situation
should be considered , and it is the purpose of this
Section to underscore it. Some State agencies have
special communications systems in order to assist them
in rapid and efficient contact with their many offices
and facilities throughout the State. In other jurisdictions,
such systems do not exist , but may be considered for
either special or general governmental use. Where such
systemsalready exist, they can form reliable mechanisms
for the sending and receipt of messages in times of
emergency . The need for emergency communications
could contribute to the feasibility of a State , or States
and the Federal Government, developing or expanding
an interrelated communications networks, as exempli
fied by Nebraska.

Resp. App'x 307

VII. EXAMPLE STATE DISASTER ACT OF 1972 - SECTION 15

Section 15. Mutual Aid

(a) Political subdivisionsnot participating in interjuris
dictional arrangements pursuant to this Act nevertheless
shall be encouraged and assisted by the Division of
Disaster Emergency Services to conclude suitable ar
rangements for furnishing mutual aid in coping with
disasters. The arrangements shall include provision of aid
by persons and units in public employ .
(b ) In passing upon local disaster plans, the Governor
shall consider whether they contain adequate provisions
for the rendering and receipt ofmutual aid .
(c ) It is a sufficient reason for the Governor to require
an interjurisdictional agreement or arrangement pursuant
to Section 9 of this Act that the area involved and
political subdivisions therein have available equipment,
supplies, and forces necessary to provide mutual aid on a
regional basis and that the political subdivisions have not
already made adequate provision formutual aid ; but in

25

Commentary - Section 15
Section 15. Mutual Aid . -Proper provision for mutual
aid is one of the key elements in preparedness and
response . In general, the Act provides three means of
securing it: State assistance to localities in time of
disaster, interjurisdictional arrangements, and the provi
sion of special services by contract.
Insufficiency of local forces is so frequent a charac
teristic of disaster emergency conditions as to be almost
the normal expectation . Accordingly , it is essential that
means be available to mobilize and employ personnel
and material from areas that have not been affected by
the disaster. This Section is included to make sure that
the subject receives full consideration and that all of the
appropriate procedures of the Act are brought to bear
on the solution of the problem .

requiring the making of an interjurisdictional arrange
ment to accomplish the purpose of this Section , the
Governor need not require establishment and mainte
nance of an interjurisdictional agency or arrangement for
any other disaster purposes.

Resp. App'x 308

DISASTER PREPAREDNESS:

26

Section 16. Weather Modification
The Division of Disaster Emergency Services shall
keep continuously apprised of weather conditionswhich
present danger of precipitation or other climatic ac
tivity severe enough to constitute a disaster. If the
Division determines that precipitation that may result
from weathermodification operations, either by itself or
in conjunction with other precipitation or climatic
conditions or activity , would create or contribute to the
severity of a disaster, it shall direct the officer or agency
empowered to issue permits for weather modification
operations to suspend the issuance of the permits.
Thereupon , no permits may issue until the Division
informs the officer or agency that the danger has passed .

VOLUME TWO

Commentary - Section 16
Section 16. Weather Modification . -Many States
regulate weather modification activities. The approach
generally is through licensure of operators and control of
the procedures that can be lawfully used . The subject is
specialized and extensive enough so that it would be
inappropriate to encompass a general weather modifica
tion statute within the confines of the present legisla
tion . Moreover, the use of weather modification in most
circumstances is either unrelated to disaster emergencies
or is intended to alleviate drought emergencies.
The place at which weather modification is most
likely to impinge on disaster situations is the possible
imprudent conduct of the activity at times when it
might intensify adverse storm conditions. Accordingly ,
the Section authorizes the State Disaster Agency to
suspend permits for weather modification operations
during those limited periods when they might have such
an effect.

Section 17. Effective Date
This act shall take effect (immediately ) .

Resp. App'x 309

Resp. App'x 310

CE

FI

OF

GR

EN

IE

TH

SS

NE

E

EINE
OTS
:HT

Resp. App'x 311

PUBLIC HEALTH ORDER 20-38
LIMITED COVID-19 RESTRICTIONS
April 15, 2021
PURPOSE OF THE ORDER
I am issuing this Public Health Order (PHO or Order) in response to the existence of thousands
of confirmed and presumptive cases of Coronavirus disease 2019 (COVID-19) and related deaths
across the State of Colorado. This Order supersedes PHO 20-36 COVID-19 Dial and PHO
20-29 Voluntary and Elective Surgeries and Procedures, and implements reduced restrictions for
individuals, businesses and activities, as well as reporting requirements for hospitals, to prevent
the spread of COVID-19 further in Colorado.
FINDINGS
1.
Governor Polis issued Executive Order D 2020 003 on March 11, 2020, declaring a
disaster emergency in Colorado due to the presence of COVID-19. Since that time, the Governor
has taken numerous steps to implement measures to mitigate the spread of disease within
Colorado, and has further required that several public health orders be issued to implement his
orders.
2.
I have issued public health orders pertaining to the limitation of visitors and nonessential
individuals in skilled nursing facilities, intermediate care facilities, and assisted living
residences; defining the terms of the Governor’s Stay at Home, Safer at Home, and Protect
our Neighbors requirements as well as Critical Business designations; requiring hospitals to
report information relevant to the COVID-19 response; and requiring the wearing of face
coverings in the workplace and urging their use in public. These measures all act in concert to
reduce the exposure of individuals to disease, and are necessary steps to protect the health and
welfare of the public. Additionally, in reducing the spread of disease, these requirements help to
preserve the medical resources needed for those in our communities who fall ill and require
medical treatment, thus protecting both the ill patients and the healthcare workers who
courageously continue to treat patients.
3.
As of April 14, 2021, there have been 485,318 known cases of COVID-19 in Colorado,
26,661 Coloradans have been hospitalized and 6,319 Coloradans have died from COVID-19.
Multiple sources of data show that COVID-19 transmission and the use of the hospital system
due to COVID-19 have leveled off in Colorado.

Resp. App'x 312

PHO 20-38 COVID-19 Restrictions
April 15, 2021
4.
With the rescission of PHO 20-36 COVID-19 Dial, but the pandemic ongoing, it remains
critical for individuals, communities, businesses, and governments to remain vigilant regarding
the spread of COVID-19. Individuals are encouraged to remain at least 6 feet away from
non-household contacts, wash their hands, and wear a face covering to reduce the likelihood of
disease transmission. As we continue to combat COVID-19 in our communities, continuing
some limited requirements to mitigate disease spread remain appropriate.
5.

The following additional public health orders remain in effect:
a.

b.
c.

PHO 20-20 Requirements For Colorado Skilled Nursing Facilities, Assisted
Living Residences, Intermediate Care Facilities, And Group Homes For
COVID-19 Prevention And Response;
PHO 20-33 Laboratory Data Reporting for COVID-19; and
PHO 20-37 Vaccine Access And Data Reporting For COVID-19.

INTENT
This Order includes limited requirements for individuals and businesses to mitigate the spread of
COVID-19 in Colorado. The Order incorporates the requirements of Executive Order D 2020
138, as amended and extended by Executive Order D 2020 164, D 2020 190, D 2020 219, D
2020 237,D 2020 245, D 2020 276, D 2020 281, D 2021 007, D 2021 035, D 2021 056, and D
2021 079 concerning face coverings. Additionally, the Order maintains some restrictions on
certain activities while we continue to take steps to limit the spread of COVID-19 in Colorado,
and includes a provision that authorizes CDPHE to require a county to comply with additional
restrictions should certain metrics be met. The Order also includes hospital reporting
requirements regarding bed capacity to provide the State with critical information to assess the
status of the COVID-19 pandemic relative to the statewide capacity to provide necessary medical
care and services to Coloradans.
ORDER
This Order supersedes and replaces Public Health Orders 20-29 and 20-36, as amended, effective
at 12:01 AM on Friday, April 16, 2021.
I.

COVID-19 RESTRICTIONS

A.

FACE COVERINGS
1.
Face coverings are required pursuant to Executive Order D 2020 138, as
amended and extended by Executive Order D 2020 164, D 2020 190, D 2020

2
Resp. App'x 313

PHO 20-38 COVID-19 Restrictions
April 15, 2021

2.

3.

4.

5.

B.

219, D 2020 237,D 2020 245, D 2020 276, D 2020 281, D 2021 007, D 2021 035,
D 2021 056, and D 2021 079, for all individuals in the following settings:
a.
Preschool through grade 12 schools (including extracurricular activities),
child care centers and services, and indoor children’s camps;
b.
Public areas of state government facilities, and areas in state government
facilities where members of the public come into contact with state
government employees;
c.
Congregate care facilities, including nursing facilities, assisted living
residences, intermediate care facilities, and group homes;
d.
Prisons;
e.
Jails;
f.
Emergency medical and other healthcare settings (including hospitals,
ambulance service centers, urgent care centers, non-ambulatory surgical
structures, clinics, doctors’ offices, and non-urgent care medical
structures);
g.
Personal services; and
h.
Limited healthcare settings.
For counties with a one week disease incidence rate in excess of 35 per 100,000,
face coverings are also required pursuant to Executive Order D 2020 138, as
amended and extended, in a Public Indoor Space, as defined in Executive Order
D 2020 138, as amended and extended, where 10 or more unvaccinated
individuals or individuals of unknown vaccination status are present.
Exceptions to the face covering requirements include
a.
individuals 10 years of age or younger,
b.
individuals who cannot medically tolerate a face covering, and
c.
individuals participating in one of the activities described in Section II.I of
Executive Order D 2020 138, as amended and extended.
Face coverings may be removed in a school classroom setting for the limited
purpose of playing an instrument that cannot otherwise be played while wearing a
face covering.
Nothing in this Order changes or abrogates the Centers for Disease Control and
Prevention’s (CDC) Order on January 29, 2021, requiring the wearing of masks
by travelers to prevent the spread of COVID-19. All Coloradans must abide by
the CDC’s Order, which can be found at
https://www.cdc.gov/quarantine/masks/mask-travel-guidance.html.

ALL BUSINESSES AND GOVERNMENT ENTITIES. All businesses and
government entities shall comply with the requirements in this Section I.B.
1.
Work Accommodations. Employers are strongly encouraged to provide
reasonable work accommodations, including accommodations under the

3
Resp. App'x 314

PHO 20-38 COVID-19 Restrictions
April 15, 2021
Americans with Disabilities Act (ADA) for individuals who cannot obtain access
to COVID-19 vaccine or who for medical or other legal reasons cannot take a
COVID-19 vaccine.

C.

2.

Face coverings. All employers must implement the face covering requirements in
Executive Order D 2020 138, as amended and extended, as applicable.

3.

Disease mitigation practices. Employers and sole proprietors are strongly
encouraged to follow the best practices for disease mitigation found in CDPHE
Guidance.

MASS INDOOR GATHERINGS
1.

In addition to the requirements in Section I.B of this Order, the requirements in
this Section I.C apply to Mass Indoor Gatherings.

2.

When more than 100 people are gathered in a room in a Public Indoor Space, the
setting may operate at 100% capacity not to exceed 500 people, with 6 feet
distancing required between parties of unvaccinated people or when vaccination
status is unknown. Existing approved variances remain in effect, including 5 Star
Program approvals granted by a county. Venues may apply to their local public
health agency for a variance to exceed 500 people, to be finally approved by
CDPHE. These requirements do not apply to the following sectors:
a.
Places of worship and associated ceremonies,
b.
Retail services,
c.
Restaurants that have sit-down dining and do not have unseated areas
where 100 or more people could gather (such as dance floors or common
gathering areas), and
d.
School proms and graduations that wish to exceed these thresholds shall
be subject to review and approval by local public health agencies in
accordance with CDPHE prom and graduation guidance.

3.

Face coverings are required for all individuals in a Mass Indoor Gathering,
except in the following circumstances:
a.
individuals 10 years of age or younger,
b.
individuals who cannot medically tolerate a face covering, and
c.
individuals participating in one of the activities described in Section II.I of
Executive Order D 2020 138, as amended and extended.

4
Resp. App'x 315

PHO 20-38 COVID-19 Restrictions
April 15, 2021
D.

OUTDOOR EVENTS
1.

E.

Outdoor ticketed, seated event venues in excess of 30,000 square feet
require CDPHE approval, in consultation with the local public health
agency. Existing approved variances, including 5 Star Program approvals
granted by a county, remain in effect.

SCHOOLS AND CHILD CARE
1.

2.

Schools and child care shall work with their local public health agencies as
COVID-19 cases occur, and shall follow the CDPHE guidance for Cases
and Outbreaks in Schools and Child Care.
Schools that are entirely remote learning due to ongoing COVID-19 cases
and outbreaks shall not have in-person extracurricular activities.

E.

ADDITIONAL COUNTY RESTRICTIONS
1.
CDPHE may require counties whose resident hospitalizations threaten to exceed
85% of hospital or hospital system capacity to implement additional restrictions to
mitigate disease transmission.

II.

HOSPITAL FACILITY REPORTING

A.

COVID-19 Case Reporting. All Colorado hospitals shall report to CDPHE in a form and
format determined by CDPHE, certain information for all suspected (pending laboratory
test) and confirmed (positive laboratory test) cases of COVID-19, including but not
limited to:
1.
race and ethnicity;
2.
numbers of suspected and confirmed cases who are hospitalized, who are
hospitalized and using a ventilator, or who are in the emergency department
waiting for an inpatient bed;
3.
numbers of suspected and confirmed cases who are discharged and in recovery;
4.
deaths due to COVID-19; and
5.
medical equipment and supply information, including but not limited to total bed
and intensive care unit (ICU) bed capacity and occupancy, ventilator availability
and utilization, and availability of N95 masks.
Reporting by hospitals shall be done in CDPHE’s EMResource reporting system on a
daily basis or as otherwise required by this Order.

B.

Hospital Bed Capacity Reporting. All Colorado hospitals shall report to CDPHE the
following in EMResource daily at 10:00 a.m.:

5
Resp. App'x 316

PHO 20-38 COVID-19 Restrictions
April 15, 2021
1.
2.

The daily maximum number of beds that are currently or can be made
available within 24 hours for patients in need of ICU level care; and
The daily maximum number of all staffed acute care beds, including ICU
beds, available for patients in need of non-ICU hospitalization.

III.

DEFINITIONS

A.

Limited Healthcare Settings means those locations where certain healthcare services are
provided, including acupuncture (not related to personal services), athletic training (not
related to personal services), audiology services, services by hearing aid providers,
chiropractic care, massage therapy (not related to personal services), naturopathic care,
occupational therapy services, physical therapy, and speech language pathology services.

B.

Mass Indoor Gathering is any indoor space where more than 100 unvaccinated
individuals or individuals with unknown vaccination status are gathered in a room.

C.

Personal Services means services and products that are not necessary to maintain an
individual’s health or safety, or the sanitation or essential operation of a business or
residence. Personal Services include, but are not limited to, personal training, dog
grooming, or body art and also applies to noncritical professionals regulated by the
Division of Professions and Occupations, within the Department of Regulatory Agencies
(DORA) including but not limited to services provided by personal beauty professionals
such as hairstylists, barbers, cosmetologists, estheticians, nail technicians, as well as
massage therapists, whose work requires these professionals to be less than six feet from
the person for whom the services are being provided.

D.

Public Indoor Space means any enclosed indoor area that is publicly or privately owned,
managed, or operated to which individuals have access by right or by invitation,
expressed or implied, and that is accessible to the public, serves as a place of
employment, or is an entity providing services. Public Indoor Space does not mean a
person’s residence, including a room in a motel or hotel or a residential room for students
at an educational facility.

E.

School means pre-kindergarten through 12th grade. A school includes all grade levels
contained in a building or multiple buildings on a campus.

IV.

ENFORCEMENT

This Order will be enforced by all appropriate legal means. Local authorities are encouraged to
determine the best course of action to encourage maximum compliance. Failure to comply with

6
Resp. App'x 317

PHO 20-38 COVID-19 Restrictions
April 15, 2021
this order could result in penalties, including jail time, and fines, and may also be subject to
discipline on a professional license based upon the applicable practice act.
V.

SEVERABILITY

If any provision of this Order or the application thereof to any person or circumstance is held to
be invalid, the remainder of the Order, including the application of such part or provision to other
persons or circumstances, shall not be affected and shall continue in full force and effect. To this
end, the provisions of this Order are severable.
VI.

DURATION

This Order shall become effective at 12:01 AM on Friday, April 16, 2021 and will expire in 30
days unless extended, rescinded, superseded, or amended in writing.

_________________________________
Jill Hunsaker Ryan, MPH
Executive Director

April 15, 2021
____________________________
Date

7
Resp. App'x 318

AMENDED PUBLIC HEALTH ORDER 20-38
LIMITED COVID-19 RESTRICTIONS
May2, 2021
PURPOSE OF THE ORDER
I am issuing this Public Health Order (PHO or Order) in response to the existence of thousands
of confirmed and presumptive cases of Coronavirus disease 2019 (COVID-19) and related deaths
across the State of Colorado. This Order supersedes PHO 20-36 COVID-19 Dial and PHO
20-29 Voluntary and Elective Surgeries and Procedures, and implements reduced restrictions for
individuals, businesses and activities, as well as reporting requirements for hospitals, to prevent
the spread of COVID-19 further in Colorado.
FINDINGS
1.
Governor Polis issued Executive Order D 2020 003 on March 11, 2020, declaring a
disaster emergency in Colorado due to the presence of COVID-19. Since that time, the Governor
has taken numerous steps to implement measures to mitigate the spread of disease within
Colorado, and has further required that several public health orders be issued to implement his
orders.
2.
I have issued public health orders pertaining to the limitation of visitors and nonessential
individuals in skilled nursing facilities, intermediate care facilities, and assisted living
residences; defining the terms of the Governor’s Stay at Home, Safer at Home, and Protect
our Neighbors requirements as well as Critical Business designations; requiring hospitals to
report information relevant to the COVID-19 response; and requiring the wearing of face
coverings in the workplace and urging their use in public. These measures all act in concert to
reduce the exposure of individuals to disease, and are necessary steps to protect the health and
welfare of the public. Additionally, in reducing the spread of disease, these requirements help to
preserve the medical resources needed for those in our communities who fall ill and require
medical treatment, thus protecting both the ill patients and the healthcare workers who
courageously continue to treat patients.
3.
As of May 1, 2021, there have been 512,804 known cases of COVID-19 in Colorado,
28,870 Coloradans have been hospitalized and 6,449 Coloradans have died from COVID-19.
Multiple sources of data show that COVID-19 transmission and the use of the hospital system
due to COVID-19 have leveled off in Colorado.

Resp. App'x 319

Amended PHO 20-38 COVID-19 Restrictions
May 2, 2021
4.
With the rescission of PHO 20-36 COVID-19 Dial, but the pandemic ongoing, it remains
critical for individuals, communities, businesses, and governments to remain vigilant regarding
the spread of COVID-19. Individuals are encouraged to remain at least 6 feet away from
non-household contacts, wash their hands, and wear a face covering to reduce the likelihood of
disease transmission. As we continue to combat COVID-19 in our communities, continuing
some limited requirements to mitigate disease spread remain appropriate.
5.

The following additional public health orders remain in effect:
a.

b.
c.

PHO 20-20 Requirements For Colorado Skilled Nursing Facilities, Assisted
Living Residences, Intermediate Care Facilities, And Group Homes For
COVID-19 Prevention And Response;
PHO 20-33 Laboratory Data Reporting for COVID-19; and
PHO 20-37 Vaccine Access And Data Reporting For COVID-19.

INTENT
This Order includes limited requirements for individuals and businesses to mitigate the spread of
COVID-19 in Colorado. The Order incorporates the requirements of Executive Order D 2020
138, as amended and extended by Executive Order D 2020 164, D 2020 190, D 2020 219, D
2020 237,D 2020 245, D 2020 276, D 2020 281, D 2021 007, D 2021 035, D 2021 056, and D
2021 079 concerning face coverings. Additionally, the Order maintains some restrictions on
certain activities while we continue to take steps to limit the spread of COVID-19 in Colorado,
and includes a provision that authorizes CDPHE to require a county to comply with additional
restrictions should certain metrics be met. The Order also includes hospital reporting
requirements regarding bed capacity to provide the State with critical information to assess the
status of the COVID-19 pandemic relative to the statewide capacity to provide necessary medical
care and services to Coloradans.
ORDER
This Order supersedes and replaces Public Health Orders 20-29 and 20-36, as amended, effective
at 12:01 AM on Friday, April 16, 2021.
I.

COVID-19 RESTRICTIONS

A.

FACE COVERINGS
1.
Face coverings are required pursuant to Executive Order D 2020 138, as
amended and extended by Executive Order D 2020 164, D 2020 190, D 2020

2
Resp. App'x 320

Amended PHO 20-38 COVID-19 Restrictions
May 2, 2021

2.

3.

4.

5.

6.

219, D 2020 237,D 2020 245, D 2020 276, D 2020 281, D 2021 007, D 2021 035,
D 2021 056, D 2021 079, and D 2021 095 for all individuals in the following
settings:
a.
Preschool through grade 12 schools (including extracurricular activities),
child care centers and services, and indoor children’s camps;
b.
Public areas of state government facilities, and areas in state government
facilities where members of the public come into contact with state
government employees;
c.
Congregate care facilities, including nursing facilities, assisted living
residences, intermediate care facilities, and group homes;
d.
Prisons;
e.
Jails;
f.
Emergency medical and other healthcare settings (including hospitals,
ambulance service centers, urgent care centers, non-ambulatory surgical
structures, clinics, doctors’ offices, and non-urgent care medical
structures);
g.
Personal services; and
h.
Limited healthcare settings.
For counties with a one week disease incidence rate in excess of 35 per 100,000,
face coverings are also required pursuant to Executive Order D 2020 138, as
amended and extended, in a Public Indoor Space, as defined in Executive Order
D 2020 138, as amended and extended, where 10 or more unvaccinated
individuals or individuals of unknown vaccination status are present.
a.
Individuals are permitted to remove their medical or non-medical cloth
face coverings in Public Indoor Spaces if 80% of the individuals in the
Public Indoor Space have shown proof of vaccination.
Exceptions to the face covering requirements include
a.
individuals 10 years of age or younger,
b.
individuals who cannot medically tolerate a face covering, and
c.
individuals participating in one of the activities described in Section II.I of
Executive Order D 2020 138, as amended and extended.
Face coverings may be removed in a school classroom setting for the limited
purpose of playing an instrument that cannot otherwise be played while wearing a
face covering.
Nothing in this Order changes or abrogates the Centers for Disease Control and
Prevention’s (CDC) Order on January 29, 2021, requiring the wearing of masks
by travelers to prevent the spread of COVID-19. All Coloradans must abide by
the CDC’s Order, which can be found at
https://www.cdc.gov/quarantine/masks/mask-travel-guidance.html.
For Restaurants, once 85% of the Restaurant employees have been fully

3
Resp. App'x 321

Amended PHO 20-38 COVID-19 Restrictions
May 2, 2021
vaccinated, the Restaurant employees are no longer required to wear face
coverings.
B.

C.

ALL BUSINESSES AND GOVERNMENT ENTITIES. All businesses and
government entities shall comply with the requirements in this Section I.B.
1.
Work Accommodations. Employers are strongly encouraged to provide
reasonable work accommodations, including accommodations under the
Americans with Disabilities Act (ADA) for individuals who cannot obtain access
to COVID-19 vaccine or who for medical or other legal reasons cannot take a
COVID-19 vaccine.
2.

Face coverings. All employers must implement the face covering requirements in
Executive Order D 2020 138, as amended and extended, as applicable.

3.

Disease mitigation practices. Employers and sole proprietors are strongly
encouraged to follow the best practices for disease mitigation found in CDPHE
Guidance.

MASS INDOOR GATHERINGS
1.

In addition to the requirements in Section I.B of this Order, the requirements in
this Section I.C apply to Mass Indoor Gatherings.

2.

When more than 100 people are gathered in a room in a Public Indoor Space, the
setting may operate at 100% capacity not to exceed 500 people, with 6 feet
distancing required between parties of unvaccinated people or when vaccination
status is unknown. Existing approved variances remain in effect, including 5 Star
Program approvals granted by a county. Venues may apply to their local public
health agency for a variance to exceed 500 people, to be finally approved by
CDPHE. These requirements do not apply to the following sectors:
a.
Places of worship and associated ceremonies,
b.
Retail services,
c.
Restaurants that have sit-down dining and do not have unseated areas
where 100 or more people could gather (such as dance floors or common
gathering areas), and
d.
School proms and graduations that wish to exceed these thresholds shall
be subject to review and approval by local public health agencies in
accordance with CDPHE prom and graduation guidance.

3.

Face coverings are required for all individuals in a Mass Indoor Gathering,
except in the following circumstances:
4
Resp. App'x 322

Amended PHO 20-38 COVID-19 Restrictions
May 2, 2021
a.
b.
c.

D.

OUTDOOR EVENTS
1.

E.

individuals 10 years of age or younger,
individuals who cannot medically tolerate a face covering, and
individuals participating in one of the activities described in Section II.I of
Executive Order D 2020 138, as amended and extended.

Outdoor ticketed, seated event venues in excess of 30,000 square feet
require CDPHE approval, in consultation with the local public health
agency. Existing approved variances, including 5 Star Program approvals
granted by a county, remain in effect.

SCHOOLS AND CHILD CARE
1.

2.

Schools and child care shall work with their local public health agencies as
COVID-19 cases occur, and shall follow the CDPHE guidance for Cases
and Outbreaks in Schools and Child Care.
Schools that are entirely remote learning due to ongoing COVID-19 cases
and outbreaks shall not have in-person extracurricular activities.

F.

ADDITIONAL COUNTY RESTRICTIONS
1.
CDPHE may require counties whose resident hospitalizations threaten to exceed
85% of hospital or hospital system capacity to implement additional restrictions to
mitigate disease transmission.

G.

NON-CONGREGATE SHELTERING
1.

Governmental and other entities are strongly urged to make shelter available to
people experiencing homelessness whenever possible and to the maximum extent
practicable, and are authorized to take all reasonable steps necessary to provide
non-congregate sheltering along with necessary support services to members of
the public in their jurisdiction as necessary to protect all members of the
community.

II.

HOSPITAL FACILITY REPORTING

A.

COVID-19 Case Reporting. All Colorado hospitals shall report to CDPHE in a form and
format determined by CDPHE, certain information for all suspected (pending laboratory
test) and confirmed (positive laboratory test) cases of COVID-19, including but not
limited to:

5
Resp. App'x 323

Amended PHO 20-38 COVID-19 Restrictions
May 2, 2021
1.
2.

race and ethnicity;
numbers of suspected and confirmed cases who are hospitalized, who are
hospitalized and using a ventilator, or who are in the emergency department
waiting for an inpatient bed;
3.
numbers of suspected and confirmed cases who are discharged and in recovery;
4.
deaths due to COVID-19; and
5.
medical equipment and supply information, including but not limited to total bed
and intensive care unit (ICU) bed capacity and occupancy, ventilator availability
and utilization, and availability of N95 masks.
Reporting by hospitals shall be done in CDPHE’s EMResource reporting system on a
daily basis or as otherwise required by this Order.
B.

Hospital Bed Capacity Reporting. All Colorado hospitals shall report to CDPHE the
following in EMResource daily at 10:00 a.m.:
1.
The daily maximum number of beds that are currently or can be made
available within 24 hours for patients in need of ICU level care; and
2.
The daily maximum number of all staffed acute care beds, including ICU
beds, available for patients in need of non-ICU hospitalization.

III.

DEFINITIONS

A.

Limited Healthcare Settings means those locations where certain healthcare services are
provided, including acupuncture (not related to personal services), athletic training (not
related to personal services), audiology services, services by hearing aid providers,
chiropractic care, massage therapy (not related to personal services), naturopathic care,
occupational therapy services, physical therapy, and speech language pathology services.

B.

Mass Indoor Gathering is any indoor space where more than 100 unvaccinated
individuals or individuals with unknown vaccination status are gathered in a room.

C.

Personal Services means services and products that are not necessary to maintain an
individual’s health or safety, or the sanitation or essential operation of a business or
residence. Personal Services include, but are not limited to, personal training, dog
grooming, or body art and also applies to noncritical professionals regulated by the
Division of Professions and Occupations, within the Department of Regulatory Agencies
(DORA) including but not limited to services provided by personal beauty professionals
such as hairstylists, barbers, cosmetologists, estheticians, nail technicians, as well as
massage therapists, whose work requires these professionals to be less than six feet from
the person for whom the services are being provided.

6
Resp. App'x 324

Amended PHO 20-38 COVID-19 Restrictions
May 2, 2021
D.

Public Indoor Space means any enclosed indoor area that is publicly or privately owned,
managed, or operated to which individuals have access by right or by invitation,
expressed or implied, and that is accessible to the public, serves as a place of
employment, or is an entity providing services. Public Indoor Space does not mean a
person’s residence, including a room in a motel or hotel or a residential room for students
at an educational facility.

E.

School means pre-kindergarten through 12th grade. A school includes all grade levels
contained in a building or multiple buildings on a campus.

IV.

ENFORCEMENT

This Order will be enforced by all appropriate legal means. Local authorities are encouraged to
determine the best course of action to encourage maximum compliance. Failure to comply with
this order could result in penalties, including jail time, and fines, and may also be subject to
discipline on a professional license based upon the applicable practice act.
V.

SEVERABILITY

If any provision of this Order or the application thereof to any person or circumstance is held to
be invalid, the remainder of the Order, including the application of such part or provision to other
persons or circumstances, shall not be affected and shall continue in full force and effect. To this
end, the provisions of this Order are severable.
VI.

DURATION

This Order shall become effective on Sunday, May 2, 2021 and will expire on May 15, 2021
unless extended, rescinded, superseded, or amended in writing.

May 2, 2021
____________________________
Date

_________________________________
Jill Hunsaker Ryan, MPH
Executive Director

7
Resp. App'x 325

